<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                             ANNUAL REPORT
                                  2017

=======================================================================

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.cecc.gov
















 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                             ANNUAL REPORT
                                  2017

=======================================================================

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.cecc.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-811 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 





















              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

MARCO RUBIO, Florida, Chairman       CHRISTOPHER H. SMITH, New Jersey, 
JAMES LANKFORD, Oklahoma             Cochairman
TOM COTTON, Arkansas                 ROBERT PITTENGER, North Carolina
STEVE DAINES, Montana                TRENT FRANKS, Arizona
TODD YOUNG, Indiana                  RANDY HULTGREN, Illinois
DIANNE FEINSTEIN, California         MARCY KAPTUR, Ohio
JEFF MERKLEY, Oregon                 TIMOTHY J. WALZ, Minnesota
GARY PETERS, Michigan                TED LIEU, California
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, To Be Appointed
                  Department of Labor, To Be Appointed
                Department of Commerce, To Be Appointed
                       At-Large, To Be Appointed
                       At-Large, To Be Appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary.............................................     1

    Statement From the Chairs....................................     1
    Introduction.................................................     3
    Overview.....................................................     5
    Recommendations to Congress and the Administration...........    11
    Political Prisoner Cases of Concern..........................    16
    Specific Findings and Recommendations........................    21
    Political Prisoner Database..................................    62

II. Human Rights.................................................    66

    Freedom of Expression........................................    66
    Worker Rights................................................    84
    Criminal Justice.............................................   102
    Freedom of Religion..........................................   127
    Ethnic Minority Rights.......................................   147
    Population Control...........................................   153
    Freedom of Residence and Movement............................   169
    Status of Women..............................................   176
    Human Trafficking............................................   186
    North Korean Refugees in China...............................   198
    Public Health................................................   204
    The Environment..............................................   212

III. Development of the Rule of Law..............................   223

    Civil Society................................................   223
    Institutions of Democratic Governance........................   235
    Commercial Rule of Law.......................................   251
    Access to Justice............................................   268

IV. Xinjiang.....................................................   282

V. Tibet.........................................................   299

VI. Developments in Hong Kong and Macau..........................   319

                                                Executive 
                                                Summary
                                                     Executive 
                                                        Summary

                          I. Executive Summary


                       Statement From the Chairs

    Seventeen years after the establishment of the 
Congressional-
Executive Commission on China, the Commission's mandate to 
monitor human rights and the development of the rule of law in 
China remains wholly relevant and urgently necessary.
    China has benefited immensely from the international rules-
based order in driving its growth and lifting millions out of 
poverty, but the political reform many believed would accompany 
China's economic transformation and accession to the World 
Trade Organization has failed to materialize. Chinese 
government claims of global leadership in areas such as trade, 
environmental protection, and the building of international 
institutions--as expressed by President and Communist Party 
Secretary Xi Jinping at several high-profile international 
forums this past year--are belied by the reality of the Chinese 
government's actions, which are not that of a responsible 
stakeholder.
    While China stresses the need for global connectivity and 
openness, it continues to strengthen the world's most 
sophisticated system of Internet control and press censorship 
and forges ahead with what it calls ``Internet sovereignty,'' 
the notion that nations should have total control over the 
Internet within their borders. The Chinese government's 
expansive notion of sovereignty gives officials license to 
decry international criticism of their human rights record as 
one country interfering in the affairs of another. All the 
while, the Chinese government extends its own ``long arm'' to 
threaten and intimidate political and religious dissidents and 
critics living abroad; establishes Confucius Institutes at 
colleges and universities around the world, influencing these 
academic environments with its political agenda; and invests 
heavily in overseas media, exporting state propaganda and 
exercising soft power to shape movie production and other 
cultural media. Moreover, Chinese officials' complaints of 
other nations' ``interference'' into China's affairs fail to 
take into account that the Chinese government is obligated to 
respect the fundamental rights of its citizens under its own 
constitution, and under international conventions it has 
willingly signed.
    The Commission is mandated to document cases of political 
prisoners in China--individuals who were detained or imprisoned 
by the Chinese government for exercising their civil, 
religious, and political rights. Steadfast advocacy on behalf 
of individual political and religious prisoners, more than 
1,400 of whom are active cases in the Commission's far from 
exhaustive Political Prisoner Database, remains vital. These 
men and women, whose ``crimes'' intersect with nearly every 
issue area covered in the Commission's Annual Report, represent 
the human toll exacted by China's repressive and authoritarian 
one-party system. The death from liver cancer in July 2017 of 
Liu Xiaobo--a Chinese intellectual and 2010 Nobel Peace Prize 
laureate who was serving an 11-year sentence for ``inciting 
subversion of state power'' in connection with his pro-
democracy work--brought renewed attention to the government and 
Party's shameful treatment of political prisoners. In his last 
days, authorities repeatedly denied Liu Xiaobo medical 
treatment abroad, counter to his wishes and those of his wife, 
Liu Xia.
[GRAPHIC] [TIFF OMITTED] T6811.001

                              Introduction

    The 19th National Congress of the Chinese Communist Party 
is expected to convene around the time of the release of the 
Commission's 2017 Annual Report. In advance of the Party 
Congress, a twice-per-decade event, President and Communist 
Party General Secretary Xi Jinping has worked to consolidate 
power, as demonstrated by the formalization of his role as the 
``core'' (hexin) leader of the Party in guiding key policy 
sectors including the economy, domestic reform, and national 
defense. The anticorruption campaign against Party and 
government officials, Xi's signature domestic initiative, has 
effectively eliminated many of his potential political rivals, 
and in the process has destabilized patronage networks and 
certain political factions ahead of this gathering of Party 
elites. Yet, the campaign has failed to instill accountability, 
such as disclosure of officials' financial assets or meaningful 
institutional checks on political power. The composition of the 
Standing Committee of the Communist Party Central Committee 
Political Bureau (Politburo) that emerges from the 19th Party 
Congress will provide insight into the extent to which Xi may 
be able to further influence politics beyond his presumed 
second term as Party General Secretary.
    As Xi has centralized power, he has simultaneously demanded 
stricter ideological discipline within the Party and within 
organizations under the Party's umbrella. The Party continued 
to stress ideological conformity and discipline from media 
outlets and journalists, in particular that the media must 
function as a ``mouthpiece'' for the Party to shape ``public 
opinion'' with uncritical, positive news. Speaking in October 
2016 before a gathering of the heads of China's largest state 
companies, Xi stressed that ``Party leadership and building the 
role of the Party are the root and the soul for state-owned 
enterprises.'' Similarly, in remarks at a December 2016 meeting 
focused on the ideological work of China's universities, Xi 
reminded senior Party members and academic officials that 
``China's higher education institutions are under the 
leadership of the CCP, and are socialist universities with 
Chinese characteristics, so higher education must be guided by 
Marxism, and the Party's policies in education must be fully 
carried out.''
    With the release of China's National Human Rights Action 
Plan (2016-2020) in September 2016, the government continued to 
subordinate human rights policy to the ideological guidance of 
the Party, which diverges from international standards 
including the Universal Declaration of Human Rights. The UN 
Special Rapporteur on extreme poverty and human rights, Philip 
Alston, described this reality in his report on his August 2016 
mission to China: ``The greatest challenge . . . is to 
understand how the leading role of the Communist Party can 
coexist with the recognition of individual rights and the 
provision of meaningful accountability mechanisms . . ..'' The 
Special Rapporteur, furthermore, described intrusive government 
control of his schedule and surveillance of his movements in 
China in his report, giving further weight to the critiques of 
human rights organizations that the Chinese government has ``a 
poor record in engaging with UN human rights mechanisms in a 
constructive and cooperative fashion.''
    During the Commission's 2017 reporting year, the Chinese 
Communist Party continued to restrict the already limited space 
for expression, religious activity, and peaceful assembly. In 
addition to harassing and detaining government critics, Chinese 
authorities also targeted those promoting workers' rights, the 
rights of dispossessed villagers, and environmental protection. 
Chinese authorities intensified crackdowns on foreign aid 
workers, Christian churches, and non-governmental organizations 
that play a crucial role in assisting and facilitating the 
movement of North Korean refugees outside the Democratic 
People's Republic of Korea. Official censorship contributed to 
the shrinking space for journalism and public debate. Citizen 
journalists, such as Liu Feiyue and Huang Qi, whose human 
rights websites are a key source of information on grassroots 
protests and other rights defense efforts, were criminally 
detained and as of September 2017 are awaiting prosecution. In 
August 2017, authorities in Yunnan province sentenced Lu Yuyu, 
the founder of ``Not the News''--a blog that published 
information on mass incidents relating primarily to labor 
protests--to four years in prison.
    Hopes surrounding positive legislative and policy 
developments this reporting year, including further reforms to 
the household registration (hukou) system, were tempered by 
continued problems with implementing reforms and uneven 
enforcement of laws and regulations. Implementation of the PRC 
Mental Health Law was marred by reports that government 
authorities continued to forcibly commit individuals without 
mental illness to psychiatric facilities (bei jingshenbing) for 
activities deemed ``troublemaking'' or politically 
``sensitive.'' While the Party's General Office launched a 
nationwide initiative to reform the Party-affiliated All-China 
Women's Federation, independent women's rights organizations 
were prevented from raising awareness of sexual harassment and 
the government continued to target individual women's rights 
advocates with criminal prosecution and harassment.
    Chinese authorities continued to implement a ``universal 
two-child policy'' and persisted in actively promoting coercive 
population control policies that violate international 
standards. Tellingly, the family planning bureaucratic 
apparatus remains intact. The Chinese government's population 
control policies have contributed to the country's demographic 
challenges, including a rapidly aging population and shrinking 
workforce that threaten to further slow China's economic 
growth.
    The Chinese government's lack of transparency affected many 
of the areas that the Commission monitors. Chinese authorities 
continued to consider pollution-related data to be sensitive 
and censored reporting on the environment. For outside 
observers, transparency concerns were at the forefront of 
China's Belt and Road Initiative, a far-reaching economic and 
political agenda aimed in part at shaping new global norms on 
development and trade, and thereby growing China's influence. 
The May 2017 Belt and Road forum culminated with the signing of 
a communique in which the heads of state present committed 
themselves to ``. . . democracy, good governance, the rule of 
law, human rights, gender equality and women empowerment.'' 
Meanwhile Chinese authorities detained dozens of petitioners 
and rights advocates in and around the gathering in Beijing 
municipality. In the Xinjiang Uyghur Autonomous Region (XUAR), 
which Chinese officials have promoted as an important center 
for Belt and Road development projects, authorities reportedly 
heightened security controls over Uyghurs and other ethnic 
minorities who live there, and imposed severe restrictions on 
Internet access. In this same region, authorities began 
expediting the collection of residents' DNA on a massive scale, 
in many cases without consent, prompting transparency concerns 
regarding the purpose of collecting such information. An 
international rights group reported that the DNA collection was 
in connection with China's ``stability maintenance'' measures.
    The subsequent chapters of this report document these and 
other human rights and rule of law developments in China during 
the Commission's 2017 reporting year which spans, roughly, 
September 2016 through September 2017. Each chapter examines 
different aspects of the Chinese government's obligations to 
protect human rights as defined in the Universal Declaration of 
Human Rights and key human rights conventions, as well as in 
China's Constitution. General themes and key developments 
covered in the body of this report are outlined below.

                                Overview

    Over the Commission's 2017 reporting year, the following 
general themes and key developments emerged:

        1. The government and Party continue to use the law as 
        an instrument of repression to expand control over 
        Chinese society.
        2. The criminalization of China's human rights lawyers 
        and advocates is ongoing, including credible reports of 
        torture in detention.
        3. Restrictions on religious freedom are intensifying, 
        particularly in the Xinjiang Uyghur Autonomous Region 
        and Tibetan autonomous areas.
        4. Twenty years after the handover, the long-term 
        viability of the ``one country, two systems'' model in 
        Hong Kong is increasingly uncertain given central 
        government interference.

                 The Law as an Instrument of Repression

    The Commission observed that authorities continued to use 
the law as an instrument of repression to expand control over 
Chinese society, while outwardly providing the veneer of a 
system guided by the rule of law.
    The PRC Law on the Management of Overseas Non-Governmental 
Organizations' (NGOs) Activities took effect on January 1, 
2017. The government provided limited guidance for 
international NGOs attempting to comply with the law, creating 
an uncertain operating environment for these NGOs as well as 
their local Chinese partners. Moreover, as many of China's 
grassroots NGOs rely on funding from abroad, these groups now 
face new administrative hurdles, increased government scrutiny, 
and the potential loss of funding. This comes at a time when 
the space for civil society, particularly any form of rights 
advocacy, is already fraught following high-profile crackdowns 
on NGOs and rights advocates in recent years.
    Similar realities emerged surrounding the PRC Cybersecurity 
Law, with foreign companies expressing concern over data 
localization requirements, compromised security, privacy 
safeguards, and discriminatory treatment. While the full 
implications of the law are still unclear, provisions within 
the law could give the Chinese government unprecedented access 
to the technology and data of foreign companies, in part 
through requiring companies to store their data on mainland 
Chinese servers, an alarming proposition for businesses given 
the Chinese government's track record of ineffective protection 
of intellectual property rights. Chinese citizens, too, will 
feel the impact of the law, as it lacks any guarantee to 
protect the right to freedom of expression, and requires real-
name registration and storage of personal information, making 
users more vulnerable to censorship and prosecution. As 
written, the law could result in foreign companies being forced 
to choose between aiding Chinese security agencies in their 
repression and breaking the law.

                Rights Lawyers Tortured and Criminalized

    In a March 2017 annual report, Zhou Qiang, President of the 
Supreme People's Court (SPC), touted the conviction and 
sentencing of prominent rights lawyer Zhou Shifeng as a key 
achievement of the Chinese judiciary in 2016. Zhou Shifeng and 
other lawyers from the Fengrui Law Firm, including Wang 
Quanzhang and Wang Yu, were the focus of the government's July 
2015 crackdown on human rights lawyers and advocates. These 
lawyers and advocates were involved in cases which the Party 
deemed sensitive, representing practitioners of the Falun Gong 
spiritual movement, ethnic rights advocates, and individuals 
detained for alleged speech crimes. In the March report, the 
SPC President urged high court presidents across China to 
``draw your sword'' (liangjian) against Western principles of 
``constitutional democracy, separation of powers, and judicial 
independence.'' This language is consistent with broader Party 
efforts to fuel nationalist sentiment with an undercurrent of 
anti-Western hostility spurred by propaganda campaigns against 
``foreign forces'' and increasing official rhetoric 
characterizing rights lawyers as ``enemies of the state.''
    Authorities used vague state security provisions in the PRC 
Criminal Law to deny due process rights, including access to 
independent legal counsel, in prosecuting several of the rights 
lawyers detained in connection with the July 2015 crackdown. 
Many of these lawyers were initially held under a relatively 
new form of de facto incommunicado detention--``residential 
surveillance at a designated location''--which allows for 
detention in a secret location without access to a lawyer for 
up to six months, leaving detainees at risk of torture. Reports 
of severe mistreatment emerged in connection with several of 
these cases, including forced ingestion of unknown medications 
and the use of electric shock. Some rights lawyers preemptively 
recorded or authored statements of denial of forced or coerced 
confessions, in what observers described as an astute tactic to 
recapture the narrative from their accusers. In a January 2017 
written statement, prominent human rights lawyer Xie Yang said: 
``If, one day in the future, I do confess--whether in writing 
or on camera or on tape--that will not be the true expression 
of my own mind. It may be because I've been subjected to 
prolonged torture, or because I've been offered the chance to 
be released on bail . . ..'' \2\
    Chinese government and Communist Party officials use 
various other methods to restrict and punish lawyers who take 
on cases officials deem ``sensitive.'' When lawyers are 
convicted of criminal activity, as is the case for numerous 
prominent rights lawyers, officials may strip them of their law 
licenses, subject them to constant surveillance, and curtail 
their freedom of movement. Amended regulations that took effect 
in November 2016, requiring law firms to establish internal 
Party groups that will take part in the law firms' management, 
may further hinder even licensed lawyers' ability to take on 
cases the government deems ``sensitive.''
    Prior to the 2015 crackdown, officials employed similar 
measures to restrict and punish prominent rights lawyers. Many 
of these people continue to suffer for their advocacy, as 
represented in the cases of the following individuals:

        <bullet> Jiang Tianyong was disbarred in 2009 after 
        representing individuals such as Tibetan protesters and 
        victims of the 2008 contaminated milk powder scandal. 
        He disappeared in November 2016 and was formally 
        arrested six months later on charges of ``subversion of 
        state power.'' In August 2017, Jiang pleaded guilty to 
        ``inciting subversion of state power'' at trial.
        <bullet> Public interest lawyer Pu Zhiqiang, who had 
        advocated on behalf of religious and ethnic minorities, 
        engaged in activities commemorating the 1989 Tiananmen 
        protests, and represented defendants in politically 
        sensitive cases, such as artist Ai Weiwei, was given a 
        three-year suspended sentence in December 2015, 
        following 19 months in pretrial detention. Pu 
        permanently lost his law license as a result of his 
        conviction.
        <bullet> Ni Yulan, severely disabled after police beat 
        her while in detention, lost her job as a legal 
        consultant in 2002 as a result of her advocacy on 
        behalf of individuals forcibly evicted from their 
        homes. In 2016, Chinese authorities denied Ni a 
        passport to prevent her from traveling to the United 
        States to accept an award from the U.S. Department of 
        State honoring her courage and unstinting advocacy. 
        More recently, she has been repeatedly evicted from 
        rented apartments after police reportedly pressured her 
        landlords.
        <bullet> Gao Zhisheng, one of China's first rights 
        lawyers representing vulnerable groups such as house 
        church Christians, Falun Gong practitioners, and 
        farmers whose land was expropriated, was released from 
        prison in August 2014, after enduring severe torture. 
        Unable to practice law due to his criminal conviction, 
        he faces continued restrictions on his freedom of 
        movement and speech. As of August 2017, Gao is 
        reportedly missing.
        <bullet> Tang Jingling, who gained prominence as a 
        lawyer working on compensation and corruption cases, 
        has been prevented from practicing law since late 2005. 
        Officials detained him in 2014, prior to the 25th 
        anniversary of the violent suppression of the 1989 
        Tiananmen protests, and in January 2016 sentenced him 
        to five years in prison for ``inciting subversion of 
        state power.''

   Restrictions on Religious Freedom Intensify, Particularly in the 
     Xinjiang Uyghur Autonomous Region and Tibetan Autonomous Areas

    In both law and practice, the Chinese government continued 
to violate the religious freedom of its citizens by imposing 
restrictions on religious practice and interpretations of 
faith--restrictions that have intensified since Xi Jinping 
became Communist Party General Secretary in November 2012. 
These abuses were especially severe in ethnic minority areas. 
Revised draft regulations governing religious activities and 
assembly, issued in September 2016 and passed in September 
2017, did not reflect any lifting of past repression, but were 
a systematization of existing restrictions and an example of 
the Party's attempts to coopt what it perceives to be the 
positive aspects of religion--namely, provision of social 
services and religion as an instrument for promoting national 
unity and social stability.
    Anticipating passage of the draft regulations, some local 
government measures targeted Protestant Christian house 
churches. These included the establishment of work plans to 
force house churches to register or face closure; investigative 
surveys; mobilization of security forces against privately 
organized churches; surveillance of churches through informants 
and the installation of cameras; destruction of religious 
symbols, including crosses; dismissal of personnel; and 
prohibitions on offering boxes, performing baptisms, and 
appointing ministers.
    In the Xinjiang Uyghur Autonomous Region (XUAR), officials 
introduced policies regulating some of the most personal 
expressions of Uyghur Muslims' religious faith, including 
circumcisions, weddings, and funerals. Authorities adopted new 
regulations limiting the role of religion in education as well 
as parents' ability to involve their children in religious 
activities. The regulations also banned Islamic dress, 
including veils and ``irregular'' beards, and prohibited 
parents from naming their infant children any of a list of 
dozens of ``Islamic'' names deemed ``extremist.'' Families who 
failed to comply with the name prohibition risked denial of 
household registration (hukou) for their newborns, thereby 
restricting their access to social services such as education 
and healthcare. Later reports indicated that the name 
prohibition was extended to include anyone up to the age of 16. 
In late 2016, authorities reportedly demolished thousands of 
mosques in the XUAR as part of a ``mosque rectification'' 
campaign introduced by central government officials and 
overseen by local security personnel.
    In Tibetan autonomous areas, the Party and government 
continued to violate the rights of religious freedom and 
freedom of movement of Tibetan Buddhist monastics and laypeople 
through a system of pervasive controls and restrictions on 
religious practice, and through extensive and intrusive 
surveillance that deepened the Party's penetration into 
villages and religious institutions. The demolitions of 
buildings and the expulsion and forced relocation of thousands 
of monks and nuns from the renowned Buddhist institutes of 
learning Larung Gar and Yachen Gar, both in Sichuan province, 
further eroded institutions that serve to preserve Tibetan 
Buddhism, language, and culture. As of August 2017, there were 
five known self-immolations of Tibetans protesting Chinese rule 
and calling for the return of the Dalai Lama to Tibet during 
this reporting year. An estimated 7,000 Tibetan pilgrims from 
Tibetan areas of China attempted to attend an important 
religious teaching in India given by the Dalai Lama in January 
2017. In advance of the teaching in India, however, Chinese 
officials confiscated Tibetans' passports, ordered thousands of 
Tibetans who were already in India to return to China, and 
issued threats--including detention, loss of pension and jobs, 
and prohibiting monks from returning to their monasteries--if 
they failed to obey the order to return.

 Long-Term Viability of ``One Country, Two Systems'' for Hong Kong Is 
                         Increasingly Uncertain

    Against the backdrop of the 20th anniversary of the British 
handover of Hong Kong, the Commission observed further erosion 
of the ``one country, two systems'' principle enshrined in Hong 
Kong's Basic Law. The National People's Congress Standing 
Committee (NPCSC) chose to intervene in an active Hong Kong 
court case in November 2016, interpreting the Basic Law to 
effectively prohibit two democratically elected Hong Kong 
legislators from taking office in the Legislative Council 
(LegCo). It was the first time the NPCSC had preemptively ruled 
on a case under consideration by a local court, raising further 
concerns about Hong Kong's autonomy.
    The March 26, 2017, election of Carrie Lam Cheng Yuet-ngor 
as Hong Kong's fourth Chief Executive was marred by reports of 
Chinese central government officials and representatives 
instructing Election Committee members to support Lam over 
other candidates. The composition of the Election Committee, 
which is already restricted to ensure support for candidates 
approved by Chinese authorities, underscored the unmet demands 
of the 2014 protests calling for universal suffrage and fully 
democratic representation.
    The May 2017 statements of Zhang Dejiang, NPCSC chairman 
and head of the Party's coordination group on Hong Kong 
affairs, further expounded on the central government's views 
regarding the long-term trajectory of Hong Kong with an ominous 
warning: ``Under no condition should the high degree of 
autonomy be used as a guise to confront the Central 
Government's authority.'' He underscored the primacy of Hong 
Kong's Chief Executive over the judiciary and the legislature, 
and pressed for more stringent national security laws in Hong 
Kong, including the reintroduction of the controversial anti-
subversion and anti-sedition legislation under Article 23 of 
the Basic Law.
    In July 2017, a local court removed four democratically 
elected pro-democracy legislators on grounds that they had 
failed to take the oath of office properly, based on the same 
controversial interpretation of the Basic Law used to prevent 
two lawmakers from taking office in November 2016. Nathan Law 
Kwun-chung, one of the leaders of the 2014 pro-democracy 
protest and the youngest elected legislator in Hong Kong's 
history, was among those removed from office. Hong Kong 
authorities sentenced Law and two other leaders of the 2014 
protest, Joshua Wong Chi-fung and Alex Chow Yong-kang, in 
August 2017, to between six and eight months' imprisonment in 
connection with their activities during the 2014 protests. The 
Hong Kong Department of Justice pursued the harsher sentences 
after Wong and Law had previously been sentenced to, and 
completed, community service. Moreover, the new prison 
sentences prevent each one of the three from running for 
legislative office for five years. Their newly formed political 
party, Demosisto, issued a statement in response to the 
sentencing: ``The government is determined to put peaceful 
protestors behind bars to mute all dissidents by abusing 
judicial procedures.'' \3\
    Additionally, Hong Kong journalists reported continuing 
fears over press freedom, noting concerns over self-censorship, 
government restrictions on reporters, and the 2015 abductions 
and disappearances of five Hong Kong booksellers by mainland 
Chinese authorities. In May 2017 testimony before the 
Commission, bookseller Lam Wing Kee described the events 
surrounding the disappearances of the booksellers, including 
Gui Minhai, who remains in detention as of September 2017: 
``This string of events demonstrates not only brutal 
intervention in the freedom of expression in Hong Kong by the 
Chinese government, but also how increasingly unscrupulous they 
are.'' \4\

                                                Executive 
                                                Summary
                                                     Executive 
                                                        Summary

           Recommendations to Congress and the Administration

    <bullet> Embed Human Rights Throughout Bilateral Relations. 
The Administration and Congress should develop an action plan 
to facilitate interagency coordination on human rights in China 
and develop a coordinated approach that prepares all agencies 
interacting with Chinese government counterparts to pursue 
measurable, results-oriented human rights and rule of law 
outcomes. All agencies should be prepared to better articulate 
the link between human rights improvements in China and U.S. 
economic, security, and diplomatic interests.
    <bullet> Make Reciprocity a Priority. The Administration 
should open high-level discussions to create a rules-of-the-
road agreement that ensures reciprocal treatment for U.S. 
institutions, businesses, and nationals operating in China. The 
Administration should take appropriate and reciprocal actions 
to ensure that U.S.-based media outlets as well as academic and 
non-governmental organizations have the same freedoms afforded 
to a growing number of Chinese government-sponsored and funded 
think tanks, academic institutions, and media entities in the 
United States, while ensuring that independent Chinese media 
and organizations remain welcome. In addition, any bilateral 
investment treaty (BIT) with China should effectively 
facilitate and enable market access for U.S. media companies 
and education institutions.
    <bullet> Hold Officials Accountable for Abuses. The 
Administration should use existing laws to hold accountable 
Chinese government officials and others complicit in torture, 
severe religious freedom restrictions, repatriation of North 
Korean refugees, or those participating in forced abortions or 
sterilizations, including by using the sanctions available in 
the Global Magnitsky Human Rights Accountability Act, the 
International Religious Freedom Act of 1998, and the Foreign 
Relations Authorization Act of 2000. Congress should consider 
allocating resources to identify and investigate Chinese 
government officials responsible for human rights violations.
    <bullet> Seek a Law Enforcement Agreement That Upholds 
Global Standards. Chinese government officials have sought 
repatriation of Chinese citizens overseas in connection with 
the government's anticorruption investigations, offering the 
Administration an opportunity to press for a comprehensive law 
enforcement agreement that establishes diplomatic assurances 
guaranteeing verifiable prisoner due process protections and an 
end to torture in detention and forms of arbitrary detention, 
including ``residential surveillance at a designated 
location.'' The U.S. Government should not agree to any 
additional repatriations until the Chinese government can 
demonstrate that they are meeting the standards set forth in 
the International Covenant on Civil and Political Rights and 
other international human rights instruments regarding the 
treatment of criminal suspects.
    <bullet> Respond to Digital Protectionism. The 
Administration should consider seeking a high-level trade 
agreement to address the Chinese government's growing digital 
protectionism that would include commitments on the free flow 
of news and information and the non-discriminatory treatment of 
U.S. digital products. The Administration should consider 
initiating a World Trade Organization dispute to challenge 
continued discrimination against U.S. technology and media 
companies and prepare targeted trade sanctions if the Chinese 
government continues to impose onerous requirements, including 
data storage in China and the disclosure of source code and 
encryption keys. The Administration should provide Congress 
more detailed information about the effects of Internet 
censorship on U.S. businesses in China and use existing legal 
provisions to address intellectual property theft and the 
privacy concerns of U.S. citizens due to Chinese cyber 
espionage. The Administration and the committees of 
jurisdiction in Congress should work to find ways to use the 
Committee on Foreign Investment in the United States (CFIUS) to 
respond to unfair industrial policies that threaten national 
security, including by expanding its mandate to look at foreign 
investment in media and technology sectors.
    <bullet> Promote a Free Internet. The Administration, in 
collaboration with Congress and the Chief Executive Officer of 
the Broadcasting Board of Governors, should develop a 
comprehensive, multiyear strategy that partners with civil 
society, businesses, key technology industries, religious 
leaders, and human rights defenders to counter efforts by the 
Chinese government to promote ``Internet sovereignty''; develop 
effective technologies that provide or enhance access to the 
Internet; and conduct research on ways to counter threats to 
Internet freedom, including the Chinese government's intent to 
block access to virtual private networks (VPNs) starting in 
early 2018. The Administration and Congress should consider 
expanding programs providing digital security training for 
civil society advocates and projects that track, preserve, and 
recirculate media and Internet content deleted by Chinese 
government censors.
    <bullet> Expand Mandate of FARA To Counter Propaganda. The 
Administration and Congress should work together to expand the 
mandate of the Foreign Agents Registration Act (FARA) to 
encompass individuals working for foreign state-owned media, 
government-backed think tanks, or other non-profit 
organizations operating in the United States. In addition, the 
Administration should develop a ``whole-of-government'' 
strategy to respond to Chinese government propaganda, including 
by fully equipping the Global Engagement Center at the State 
Department to research and counter disinformation and by 
considering an expansion of resources for Voice of America and 
Radio Free Asia programming in China.
    <bullet> Speak With a Unified Voice on Human Rights. The 
Administration should, where appropriate, lead efforts with 
allies to develop coordinated responses to human rights 
violations, including by working together at the United 
Nations, by creating a multilateral human rights dialogue or 
jointly funding technical assistance and capacity-building 
projects, or by engaging in joint advocacy and the sharing of 
prisoner lists. The Administration should also coordinate with 
businesses and non-governmental organizations (NGOs) to develop 
a unified message about unfair industrial policies, digital 
protectionism, and the harm to U.S. and global interests from 
the PRC Law on the Management of Overseas NGOs' Activities.
    <bullet> Help Address China's ``Missing Girls'' Problem. 
The Administration should integrate the provisions of the Girls 
Count Act (Public Law No. 114-24) into foreign assistance 
programs and consider appointing a Special Advisor at the U.S. 
State Department to oversee the creation and coordination of 
assistance programs to address the social and economic issues 
created by the Chinese government's population control policies 
and sex ratio imbalances, particularly projects that strengthen 
property and inheritance rights for Chinese women and girls and 
those that protect women and their families from the most 
coercive aspects of the population control policies. The 
Administration should develop talking points so that officials 
and diplomats can discuss problems linked to China's dramatic 
sex ratio imbalance as part of bilateral dialogues on security, 
law, trafficking, human rights, and public health. In addition, 
Congress should continue to link U.S. contributions to the UN 
Population Fund for use in China with the end of all birth 
limitation and coercive population control policies in China.
    <bullet> Seek Protections for North Korean Refugees. 
Congress should reauthorize the North Korean Human Rights Act 
and consider expanding efforts to channel uncensored news and 
information into North Korea and to asylum-seekers in China 
through all possible means, including through North Korean 
defector communities. In addition, using the tools provided by 
Congress, the Administration should be prepared to impose 
secondary sanctions on Chinese corporations, individuals, or 
banks that profit from North Korean forced labor and those 
assisting the North Korean government in avoiding international 
sanctions.
    <bullet> Make Religious Freedom Diplomacy a Priority. Given 
that countries that severely restrict religious freedom are 
likely to face domestic instability and may also threaten 
regional stability, it is in the U.S. interest for the 
Administration to implement fully the provisions of the Frank 
R. Wolf International Religious Freedom Act (Public Law No. 
114-281) and strategically employ the sanctions and other tools 
associated with the U.S. State Department's designation of 
China as a ``Country of Particular Concern'' for severe 
restrictions on religious freedom. The Administration should 
reestablish the Religion and Foreign Policy Working Group 
within the Department of State's Federal Advisory Committee to 
bring together experts from government, universities, religious 
and other NGOs to develop an effective multiyear plan to 
promote and protect religious freedom in China.
    <bullet> Prioritize Efforts To Combat Human Trafficking, 
Forced Labor, and Child Labor. Congress and the Administration 
should ensure that the U.S. Department of State's Office to 
Monitor and Combat Trafficking in Persons and the U.S. 
Department of Labor's Bureau of International Labor Affairs 
have sufficient resources and status within their Departments 
to effectively combat human trafficking and more accurately 
report on current conditions, including by reauthorizing the 
Trafficking Victims Protection Act of 2000. Congress should 
again consider legislation that improves U.S. Government data 
collection and reporting on the issue of human trafficking for 
the purpose of organ removal, globally and in China.
    <bullet> Promote Dialogue Regarding Tibet. The 
Administration and Congress should work together to press for 
unrestricted access to Tibetan autonomous areas in China and to 
facilitate the full implementation of the Tibetan Policy Act of 
2002, including establishing a diplomatic office in Lhasa, and 
urging renewed dialogue between Chinese government officials 
and the Dalai Lama's representatives. Administration officials, 
including the President, should meet with the Dalai Lama in his 
capacity as a spiritual leader and with the leaders of the 
Central Tibetan Administration. Congress should consider 
passage of the Reciprocal Access to Tibet Act (S. 821/H.R. 
1872, 115th Cong., 1st Sess.).
    <bullet> Calibrate Counterterrorism Cooperation To Protect 
Ethnic Minorities. Due to the Chinese government's practice of 
labeling peaceful rights advocates and members of religious and 
ethnic minority groups as extremists or terrorists, the 
Administration should consider carefully the nature and scope 
of its counterterrorism cooperation with the Chinese government 
and, through the Office of the Director of National 
Intelligence, create guidelines for such cooperation to ensure 
that the United States does not condone Chinese authorities' 
crackdown on domestic political dissent or restrictions on the 
freedoms of expression or religion. The Administration should 
develop interagency talking points to raise issues of human 
rights in China's ethnic minority areas during bilateral and 
multilateral dialogues with Chinese military, public security, 
or other appropriate government officials.
    <bullet> Ensure American Nationals Are Protected. The 
Administration should consider seeking revisions to the U.S.-
China Consular Convention to clarify that Americans detained in 
China may meet with a lawyer of their choice, contact their 
families regularly, privately discuss the details of their case 
with U.S. consular officials, and have U.S. Embassy officials 
attend all legal proceedings. The Administration should 
consider developing a formal strategy to secure the release of 
American nationals and the family members of American nationals 
who are extrajudicially detained in China and should work with 
Congress to ensure regular reports on the number of U.S. 
citizens detained or not permitted to leave China.
    <bullet> Reiterate U.S. Interest in Hong Kong's Autonomy. 
The Administration should continue to issue annually the report 
outlined in Section 301 of the United States-Hong Kong Policy 
Act of 1992, subject to Congressional directives. Congress 
should consider ways to express through public statements, 
official visits, and resolutions the important connection 
between a free press, a vibrant civil society, an independent 
judiciary, and expanded democratic governance in Hong Kong and 
the mutual interests shared by the United States and China in 
maintaining Hong Kong as a center of business and finance in 
Asia. The Administration and Congress should work together to 
determine whether legislation or other measures are needed to 
revise the United States-Hong Kong Policy Act of 1992, 
including by passing the Hong Kong Human Rights and Democracy 
Act (S. 417, 115th Cong., 1st Sess.).
    <bullet> Develop a Code of Conduct for Civil Society. The 
Administration should work with U.S. civil society and non-
governmental organizations, including cultural-exchange and 
sister-city programs, and humanitarian assistance, academic, 
and religious organizations, to formulate a code of conduct for 
interacting with the Chinese government in order to protect the 
academic freedom and universally recognized human rights of 
staff, faculty, or students living in China and to equip 
institutions to respond effectively when Chinese authorities 
attempt to encourage censorship, threaten visa denials or 
access to China, or dictate who can participate or what can be 
discussed in various programs, projects, or institutions.
    <bullet> Consistently Advocate for Political Prisoners. In 
meetings with Chinese government officials, Administration 
officials and Members of Congress should raise cases, both 
publicly and in private, of individuals detained or imprisoned 
for the peaceful expression of political or religious beliefs 
and those promoting legal reforms and human rights. The 
Administration should also consider creating a Special Advisor 
for Political and Religious Prisoners to coordinate State 
Department and interagency advocacy on behalf of political 
prisoners. Experience demonstrates that raising individual 
cases can result in improved treatment, lighter sentences, or 
in some cases, release from custody, detention, or 
imprisonment. U.S. officials are encouraged to consult the 
Commission's Political Prisoner Database for credible and up-
to-date information on individual prisoners or groups of 
prisoners. Please see representative cases of concern on the 
following pages.

                        ------------------------

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission. The content of 
this Annual Report, including its findings, views, legal 
determinations, and recommendations, does not necessarily 
reflect the views of individual Executive Branch members or the 
policies of the Administration.
    The Commission adopted this report by a vote of 16 to 
0.<dagger>


     <dagger> Voted to adopt: Senators Rubio, Lankford, Cotton, Daines, 
Young, Feinstein, Merkley, Peters, and King; Representatives Smith, 
Pittenger, Franks, Hultgren, Kaptur, Walz, and Lieu.
[GRAPHIC] [TIFF OMITTED] T6811.002

[GRAPHIC] [TIFF OMITTED] T6811.003

[GRAPHIC] [TIFF OMITTED] T6811.004

[GRAPHIC] [TIFF OMITTED] T6811.005

[GRAPHIC] [TIFF OMITTED] T6811.006


                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                 Specific Findings and Recommendations

    A summary of specific findings follows below for each 
section of this Annual Report, covering each area that the 
Commission monitors. In each area, the Commission has 
identified a set of issues that merit attention over the next 
year, and, in accordance with the Commission's legislative 
mandate, submits for each a set of recommendations to the 
President and the Congress for legislative or executive action.

                         Freedom of Expression


                                Findings

        <bullet> Imprisoned writer Liu Xiaobo--an advocate of 
        democracy and non-violent political reform and China's 
        only Nobel Peace Prize laureate--died of liver cancer 
        on July 13, 2017, in Shenyang municipality, Liaoning 
        province, on medical parole. In the nine years prior to 
        his death, he spent one year in pretrial detention and 
        nearly eight years in prison on the charge of 
        ``inciting subversion of state power'' for his 
        coauthorship of the political treatise Charter 08 and 
        several essays critical of the Chinese Communist Party 
        and government. The government and Party continued to 
        isolate his wife Liu Xia in extralegal confinement 
        after his death, a condition that Chinese authorities 
        imposed on her starting in October 2010, when the 
        Norwegian Nobel Committee announced that it would award 
        the 2010 Nobel Peace Prize to Liu Xiaobo.
        <bullet> The government and Party continued to stress 
        the need for ideological discipline from news media and 
        journalists, in particular that the media function as a 
        ``mouthpiece'' for the Party. At a November 2016 
        meeting with the All-China Journalists Association 
        (ACJA), President and Party General Secretary Xi 
        Jinping urged media workers to ``embody the principle 
        of Party character'' and ``be reliable for the Party 
        and the people.''
        <bullet> Official news media continued to publish 
        articles about human rights lawyers as part of the 
        government and Party's ongoing crackdown on human 
        rights lawyers and advocates that began in and around 
        July 2015. Articles in the Global Times, The Paper, 
        Legal Daily, and Procuratorial Daily ascribed a litany 
        of criminal offenses to disbarred lawyer Jiang 
        Tianyong, including an assertion that he fabricated the 
        torture allegations of fellow rights lawyer Xie Yang.
        <bullet> Pervasive government and Party censorship 
        contributed to the shrinking space for journalism and 
        public debate, demonstrated by the closure of the 
        reform-minded journal Yanhuang Chunqiu; the suspension 
        of Consensus, a website known for open discussion and 
        commentary; the shutdown of the economic think tank 
        Unirule's website; and the two-month suspension in 
        October 2016 of Caixin news articles for republication.
        <bullet> Several Chinese journalists and media outlets 
        argued for the protection of journalists' physical 
        safety, government accountability, and guarantees of 
        their right to report on events in the public interest 
        following incidents of physical violence against and 
        obstruction of domestic Chinese journalists on 
        assignment this past year.
        <bullet> The government targeted citizen journalists 
        for prosecution this past year. In August 2017, 
        authorities sentenced Lu Yuyu, the founder of ``Not the 
        News''--a blog that published information on mass 
        incidents relating primarily to labor protests--to four 
        years in prison. In November 2016, authorities detained 
        Liu Feiyue and Huang Qi, founders of websites that 
        featured news from citizen journalists, and arrested 
        them in December, demonstrating the government's drive 
        ``to criminalize those who document human rights abuses 
        and advocate for better human rights protections,'' 
        according to Chinese Human Rights Defenders.
        <bullet> Foreign journalists continued to face 
        obstruction and harassment in their efforts to report 
        in China, including detention, physical abuse, 
        surveillance and restricted access, and visa renewal 
        challenges. The government blocked some international 
        news media, websites, and social media applications 
        (apps) within China. Chinese citizens who spoke with 
        foreign journalists were at risk of punishment such as 
        imprisonment, detention, travel denial, and dismissal 
        from organizations.
        <bullet> The Chinese government's Internet and social 
        media policies are aimed at controlling the flow of 
        information, which a U.S.-based expert said, ``guides 
        the narrative in the direction that the state 
        determines.'' Citizen Lab, an information technology 
        and human rights research center, published findings on 
        Chinese government content filtering of social media 
        platforms WeChat and Weibo, observing a high level of 
        flexibility and speed in response to issues and events 
        deemed politically sensitive, such as the death of Liu 
        Xiaobo, the names of detained human rights lawyers, and 
        a Tibetan Buddhist teaching held in January 2017.
        <bullet> This past year, authorities developed judicial 
        and legislative approaches to protect the ``national 
        historical narrative'' and took punitive action against 
        Chinese officials, academics, and journalists, for 
        speech critical of President and Party General 
        Secretary Xi Jinping, former leader Mao Zedong, and 
        political campaigns and incidents from modern Chinese 
        history. Authorities also detained and imprisoned 
        several citizens who criticized Xi and Mao, some using 
        censorship circumvention hardware and software to post 
        or repost their comments outside the Chinese 
        government's system of surveillance and censorship 
        (commonly known as the Great Firewall).

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Give greater public expression, including at the 
        highest levels of the U.S. Government, to the issue of 
        press freedom in China, condemning the harassment and 
        detention of both domestic and foreign journalists; the 
        denial, threat of denial, or delay of visas for foreign 
        journalists; and the censoring or blockage of foreign 
        media websites. Consistently link press freedoms to 
        U.S. interests, noting how censorship and restrictions 
        on journalists and media websites prevent the free flow 
        of information on issues of public concern, including 
        public health and environmental crises, food safety 
        problems, and corruption, and act as a trade barrier 
        for foreign media and companies attempting to access 
        the Chinese market. Raise these issues with Chinese 
        officials during bilateral dialogues. Assess the extent 
        to which China's treatment of foreign journalists 
        contravenes its World Trade Organization or other 
        obligations.
          Sustain, and where appropriate expand, programs that 
        develop and widely distribute technologies that will 
        assist Chinese human rights advocates and civil society 
        organizations in circumventing Internet restrictions, 
        in order to access and share content protected under 
        international human rights standards. Continue to 
        maintain Internet freedom programs for China at the 
        U.S. Department of State and the Broadcasting Board of 
        Governors to provide digital security training and 
        capacity-building efforts for bloggers, journalists, 
        civil society organizations, and human rights and 
        Internet freedom advocates in China.
          Raise with Chinese officials, during all appropriate 
        bilateral discussions, the costs to U.S.-China 
        relations and to the Chinese public's confidence in 
        government institutions that are incurred when the 
        Chinese government restricts political debate, advocacy 
        for democracy or human rights, and other forms of 
        peaceful political expression. Emphasize that such 
        restrictions exceed international standards for 
        restrictions on free expression, particularly those 
        contained in Article 19 of the International Covenant 
        on Civil and Political Rights and Article 19 of the 
        Universal Declaration of Human Rights. Emphasize that 
        such restrictions erode confidence in media and 
        government institutions. Submit questions for China's 
        next UN Human Rights Council Universal Periodic Review, 
        asking China to explain what steps it will take to 
        ensure its restrictions on free expression conform to 
        international standards.
          Urge Chinese officials to end unlawful detention and 
        official harassment of Chinese rights advocates, 
        lawyers, and journalists subject to reprisal for 
        exercising their right to freedom of expression. Call 
        on officials to end the illegal home confinement of Liu 
        Xia, the wife of the late Nobel Peace Prize laureate 
        Liu Xiaobo, and release or confirm the release of 
        individuals detained or imprisoned for exercising 
        freedom of expression, such as Lu Yuyu, Liu Feiyue, 
        Huang Qi, Wang Jing, Yang Xiuqiong, Zhang Haitao, Tashi 
        Wangchug, Wang Jiangfeng, Kwon Pyong, and other 
        political prisoners raised in this report and in the 
        Commission's Political Prisoner Database. Raise this 
        issue in bilateral dialogues as well as through 
        multilateral institutions, such as the UN Human Rights 
        Council and its Working Group on Arbitrary Detention.

                             Worker Rights


                                Findings

        <bullet> The Chinese government- and Communist Party-
        controlled All-China Federation of Trade Unions (ACFTU) 
        remains the only trade union organization permitted 
        under Chinese law, and Chinese labor advocates and 
        international observers report that the ACFTU does not 
        effectively represent workers' rights and interests. 
        Chinese workers' right to collective bargaining remains 
        limited in law and in practice.
        <bullet> Labor advocates and non-governmental 
        organizations (NGOs) reportedly continued to face 
        surveillance and pressure from authorities this past 
        year, following a December 2015 crackdown on Chinese 
        labor advocates and NGOs in Guangdong province that 
        domestic and international observers described as 
        ``unprecedented.'' The detention and sentencing of 
        labor advocates amidst that crackdown reportedly has 
        had a chilling effect on labor NGOs, affecting 
        collective bargaining work in particular. In May 2017, 
        authorities in Jiangxi province detained three Chinese 
        men who were conducting research on behalf of a U.S.-
        based labor NGO regarding working conditions in 
        factories producing shoes for international brands. 
        Authorities released them on bail in June. In addition, 
        the PRC Law on the Management of Overseas NGOs' 
        Activities, which took effect on January 1, 2017, may 
        further hinder the work of labor NGOs in China, as many 
        of them rely on sources of funding outside of mainland 
        China.
        <bullet> Following reports of a significant increase in 
        worker strikes and protests in the previous reporting 
        year, the number of worker actions appeared to remain 
        high this past year, though the Commission did not 
        observe reliable statistics. China Labour Bulletin data 
        indicate that government responses to worker strikes 
        and protests were mixed, ranging from assisting with 
        workplace negotiations to violent police intervention. 
        Some labor advocates asserted that the government's 
        suppression of strikes had increased. Labor advocates 
        also noted increasing difficulty in finding information 
        on strikes in China due to the chilling effect of the 
        December 2015 crackdown on labor NGOs and tightening 
        government control of the media.
        <bullet> The Commission continued to observe reports of 
        the use of child labor in China this past year. In one 
        widely reported case, Party-run media revealed that 
        clothing manufacturers in Jiangsu province had hired 
        workers from Yunnan province through recruiters, and 
        many of the workers were under the age of 16. According 
        to the report, employers beat the children for working 
        too slowly and withheld pay and identification 
        documents to prevent them from quitting. Such actions 
        are indicators of forced labor, according to the 
        International Labour Organization.
        <bullet> During this reporting year, government data 
        showed a continued decline in both workplace accidents 
        and deaths, though the Commission continued to observe 
        reports of lax enforcement of work safety laws and 
        regulations. The Commission did not observe officially 
        published statistics for occupational illness for 2015 
        or 2016. This past year, the government issued several 
        documents setting targets and outlining plans for 
        improving occupational health and safety.
        <bullet> Many categories of workers were unable to 
        benefit fully from the protections provided under 
        Chinese law, including workers above the retirement 
        age, student workers and interns, and independent 
        contractors or informal workers. During this reporting 
        year, the Commission continued to observe reports of 
        the mistreatment of dispatch laborers--workers hired 
        through subcontracting agencies--in violation of 
        domestic laws and regulations meant to prevent such 
        abuses. Moreover, firms reportedly used ``outsourced 
        labor,'' another form of subcontracted labor, to get 
        around new regulations on dispatch labor.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to exonerate labor 
        rights advocates Meng Han, Zeng Feiyang, Zhu Xiaomei, 
        and Tang Jian. Raise their cases in public and private 
        meetings with Chinese officials, and urge Chinese 
        officials to allow these advocates to continue their 
        work for labor NGOs. Encourage authorities to cooperate 
        with labor NGOs, noting the positive role such 
        organizations play in encouraging workers to address 
        their grievances peacefully and through legal channels.
          Call on the Chinese government to respect 
        internationally recognized rights to freedom of 
        association and collective bargaining, and allow 
        workers to organize and establish truly independent 
        labor unions. Convey support in all appropriate 
        bilateral and multilateral dialogues for genuine 
        collective bargaining and direct elections of trade 
        union representatives, emphasizing that increased 
        worker representation can be beneficial for resolving 
        workplace grievances and preventing strikes and unrest.
          In meetings with Chinese officials, highlight the 
        September 2016 report of Maina Kiai, the former UN 
        Special Rapporteur on the rights to freedom of peaceful 
        assembly and of association, which emphasizes that 
        labor rights are workers' human rights, and that the 
        failure to protect or enforce these rights 
        ``exacerbates global inequality, poverty, violence and 
        child and forced labour.''
          Encourage Chinese officials through all appropriate 
        bilateral discussions to publish information on 
        measures taken to prevent the employment of children 
        under the age of 16. Call on the Chinese government to 
        collect and publish detailed statistical data on 
        working children, including on child labor and 
        hazardous work, in order to better understand the 
        prevalence and nature of child labor in China and to 
        effectively target efforts to address this problem.
          Promote and support bilateral, multilateral, and 
        multistakeholder exchanges among government officials, 
        academics, legal experts, and civil society groups to 
        focus on labor issues such as collective bargaining, 
        employment discrimination, and occupational health and 
        safety, particularly prevention of pneumoconiosis. Seek 
        opportunities to support capacity-building programs to 
        strengthen Chinese labor and legal aid organizations 
        involved in defending the rights of workers.
          When appropriate, integrate meaningful civil society 
        participation into bilateral and multilateral 
        dialogues, meetings, and exchanges. Invite 
        international unions and labor NGOs as well as domestic 
        civil society groups from all participating countries 
        to observe and contribute to relevant government-to-
        government dialogues, particularly those relating to 
        trade. Although participation of the All-China 
        Federation of Trade Unions or Chinese government-
        organized NGOs (GONGOs) may be constructive in some 
        cases, ensure such organizations are not treated as 
        independent civil society groups.
          Support China's increased engagement and cooperation 
        with the International Labour Organization (ILO) 
        through funding for ILO technical cooperation projects 
        with China. Request that the ILO increase its work with 
        China on observing core labor standards, including 
        freedom of association and the right to organize.

                            Criminal Justice


                                Findings

        <bullet> During the 2017 reporting year, the Commission 
        observed continued reports of the Chinese government 
        using ``black jails'' and other extralegal and 
        extrajudicial measures to arbitrarily detain 
        individuals in violation of international human rights 
        standards. After the Chinese government abolished the 
        reeducation through labor system in 2013, Chinese 
        officials reportedly have continued to use ``black 
        jails''--detention sites that operate outside of 
        China's judicial and administrative detention systems--
        to suppress individuals such as petitioners, rights 
        advocates, and religious practitioners.
        <bullet> The Chinese government continued to apply 
        broadly defined criminal provisions such as ``picking 
        quarrels and provoking trouble'' and ``gathering a 
        crowd to disturb order in a public place'' to punish 
        petitioners, rights advocates, lawyers, and ethnic 
        minorities for the peaceful exercise of their rights.
        <bullet> The government emphasized the procuratorate's 
        supervisory role over criminal investigations and 
        continued to improve implementation of existing legal 
        provisions that address the problem of investigators' 
        use of coercion and overreliance on confession. Despite 
        official pronouncements, reports of coerced confession 
        continued to emerge this past year, with some 
        indicating that procurators participated in the 
        practice.
        <bullet> Authorities continued to charge citizens with 
        ``endangering state security'' offenses. This is one of 
        three categories of crimes in the PRC Criminal Law 
        permitting the application of a coercive measure known 
        as ``residential surveillance at a designated 
        location,'' which can amount to incommunicado detention 
        for up to six months. In one such example, authorities 
        detained disbarred rights lawyer Jiang Tianyong without 
        providing notice to his family within the required 
        timeframe. The location of Jiang's detention remained 
        unknown for over six months.
        <bullet> This past year, the government denied access 
        to legal counsel to some individuals detained in 
        politically sensitive cases, such as those detained in 
        the crackdown against rights lawyers and advocates that 
        began in and around July 2015. Reports also show that 
        authorities harassed or intimidated defense lawyers by 
        means including detention and search and seizure of 
        their personal belongings.
        <bullet> Multiple reports of torture and abuse surfaced 
        this past year. Authorities reportedly tortured or 
        abused rights lawyers Xie Yang, Li Chunfu, Li Heping, 
        Wang Quanzhang, and rights advocate Wu Gan, all of whom 
        authorities detained in the crackdown that began in or 
        around July 2015. The Commission did not observe 
        reports of authorities holding criminally accountable 
        the perpetrators of abuse in these cases. In 
        particular, authorities in Xie Yang's case claimed that 
        the accounts of torture were fabricated. In the case of 
        Lei Yang, a resident of Beijing municipality who died 
        shortly after police took him into custody in May 2016, 
        procuratorate officials decided in December 2016 not to 
        prosecute the police officers who perpetrated fatal 
        physical violence against Lei.
        <bullet> The judiciary overturned 11 cases of wrongful 
        conviction in 2016. In one of these cases, judicial 
        reexamination commenced long after the execution of the 
        wrongfully convicted person, prompted by someone coming 
        forward who took responsibility for the crimes. The 
        court declined to make a finding of confession by 
        torture, which a legal expert said remains a 
        predominant cause of wrongful convictions.
        <bullet> 2017 marks the 10th anniversary of the Supreme 
        People's Court regaining exclusive authority to review 
        death sentences, but a uniform standard of review 
        remained lacking. The government continued to treat the 
        number of executions as a state secret. Some observers 
        estimate the annual number to be in the thousands, 
        exceeding the number for all other countries combined. 
        Despite a purported ban on harvesting organs from 
        executed prisoners, a senior Chinese health official 
        admitted that the practice continued in at least one 
        case during this reporting year.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Raise with Chinese officials, during all appropriate 
        bilateral discussions, individual cases where officials 
        have used the investigation of alleged criminal 
        activity to target government critics and rights 
        advocates. Publicly convey support for human rights 
        advocates whom officials have deprived of liberty on 
        unsubstantiated criminal charges and for apparent 
        political or religious reasons.
          Stress to the Chinese government the importance of 
        procedural compliance and effective legal 
        representation in criminal cases in relation to the 
        goal of rule-based governance.
          Urge Chinese officials to end all forms of 
        extrajudicial detention that are imposed without 
        meeting the standards for a fair trial as set forth in 
        the International Covenant on Civil and Political 
        Rights and other international human rights 
        instruments.
          Consult with Chinese officials regarding progress 
        toward adopting the recommendations made by the UN 
        Committee against Torture in relation to China's 
        compliance with the Convention against Torture and 
        Other Cruel, Inhuman or Degrading Treatment or 
        Punishment, such as the call to repeal the provisions 
        allowing ``residential surveillance at a designated 
        location.'' Further, encourage Chinese officials to 
        extend invitations to all UN special rapporteurs and 
        other special procedures that have requested visits to 
        China.
          Stress to the Chinese government the need for greater 
        transparency on the number and circumstances of 
        executions, and urge Chinese officials to further limit 
        the crimes to which the death penalty is applicable.
          Continue and, where appropriate, expand support for 
        programs involving U.S. entities engaging with reform-
        minded Chinese organizations and individuals (both 
        within and outside the government) that draw on 
        comparative experience to improve the criminal justice 
        process. For example, the experience of the United 
        States and other jurisdictions can inform China as it 
        charts a path toward reducing reliance on confessions, 
        enhancing the role of witnesses at trials, and creating 
        more reliable procedures for reviewing death penalty 
        cases.
          Call on the Chinese government to publicly commit to 
        a specific timetable for ratification of the 
        International Covenant on Civil and Political Rights, 
        which the Chinese government signed in 1998 but has not 
        yet ratified.

                          Freedom of Religion


                                Findings

        <bullet> Both Chinese and international law provide 
        guarantees for religious freedom. Despite these 
        guarantees, the Commission continued to observe 
        widespread and systematic violation of the principles 
        of religious freedom as Chinese authorities exercised 
        broad discretion over the religious practice of Chinese 
        citizens.
        <bullet> The Chinese government released draft 
        revisions to the Regulations on Religious Affairs (RRA) 
        in September 2016. The draft revisions were released 
        following a major leadership conference on religious 
        policy convened by Chinese President and Communist 
        Party General Secretary Xi Jinping in April 2016. At 
        this conference, Xi promoted the ``sinicization'' of 
        religion in China, a term that officials have used 
        often in recent years to encourage the adaptation of 
        religious beliefs and activities to align with 
        government and Party interests. One international 
        rights organization characterized the draft revisions 
        to the RRA as ``implementing the new ideology [of 
        sinicization] on a legislative level.'' The draft 
        revisions were in line with a long-term Party policy of 
        using religion as an instrument for promoting national 
        unity and social stability, although commentators also 
        drew parallels with recently implemented restrictions 
        on civil society groups through legislative reforms 
        such as the PRC Law on the Management of Overseas Non-
        Governmental Organizations' Activities. On September 7, 
        2017, the State Council issued the revisions to the 
        RRA, to take effect on February 1, 2018. The final 
        revisions contained few changes from the earlier draft.
        <bullet> The Chinese government's regulatory framework 
        for religious affairs imposes numerous restrictions on 
        religious freedom. Religious activity is subject to 
        extensive government approvals and restrictions, 
        including official guidelines for the content and 
        distribution of religious publications, restrictions 
        that limit religious activity to government-approved 
        sites, and requirements that religious personnel be 
        approved by local religious affairs authorities. 
        Current regulations require religious groups to 
        register with the government, and legal protection of 
        religious activities is contingent on complying with 
        registration requirements. Unregistered religious and 
        spiritual communities are especially vulnerable to 
        government harassment, detention, and other abuses; yet 
        groups may be sanctioned regardless of registration 
        status when officials view them as posing a challenge 
        to government authority. The government has also 
        continued to ban some belief systems outright.
        <bullet> While government and Party officials rarely 
        targeted Chinese Buddhist and Taoist communities with 
        direct suppression, they nonetheless continued to 
        subject these religions to extensive regulation and 
        control.
        <bullet> The government maintained measures that impede 
        the freedom of Chinese Catholic congregations to be led 
        by clergy who are selected and who conduct their 
        ministry according to the standards called for by 
        Catholic religious beliefs. The government also 
        continued to harass, detain, or hold incommunicado 
        certain leading Catholic clergy.
        <bullet> Government and Party officials continued to 
        subject Protestant Christian belief and practice to a 
        wide range of restrictions and abuse. Unregistered 
        Protestant churches throughout China continued to face 
        raids during church gatherings, eviction from meeting 
        spaces, and official bans on worship. Authorities also 
        subjected some believers to harassment, violence, or 
        detention. In several instances, house church members 
        were detained on the charge of ``organizing and using a 
        cult to undermine implementation of the law'' under 
        Article 300 of the PRC Criminal Law.
        <bullet> The Commission noted reports of continued 
        repression of Falun Gong practitioners, by means 
        including harassment, arbitrary detention, and 
        prosecution. International observers continued to 
        express concern over reports that numerous organ 
        transplants in China have used the organs of detained 
        prisoners, including those of Falun Gong practitioners. 
        International medical professionals were skeptical of a 
        Chinese health official's claim that the organ 
        procurement system has been reformed in compliance with 
        international standards, noting discrepancies and a 
        lack of transparency in official data.
        <bullet> During this reporting year, officials 
        maintained policies exerting strong influence and 
        control over the religious belief and activities of Hui 
        Muslim believers. Although policies for Hui Muslims 
        remained far less repressive than those affecting 
        Muslims in the Xinjiang Uyghur Autonomous Region, 
        hostile rhetoric targeting Hui Muslims from both 
        officials and the public increased. One expert said 
        that this could increase the likelihood that policies 
        affecting the religious freedom of Hui Muslims may 
        become more restrictive.
        <bullet> Religious communities outside of the five 
        religions that are the main objects of religious 
        affairs regulations continued to exist within China. 
        Some, such as folk religions and Eastern Orthodox 
        Christianity, are recognized at the local level. In 
        contrast, authorities maintained restrictions imposed 
        suddenly in 2014 on Jewish religious activity in 
        Kaifeng municipality, Henan province.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to guarantee to all 
        citizens freedom of religion in accordance with its 
        international human rights obligations. Stress to 
        Chinese authorities that freedom of religion includes 
        the right to freely adopt beliefs and practice 
        religious activities without government interference, 
        particularly those based on political goals.
          Stress to the Chinese government that the right to 
        freedom of religion includes, but is not limited to: 
        the right of Buddhists and Taoists to carry out 
        activities in temples and select monastic teachers 
        independent of state controls; the right of Catholics 
        to be led by clergy who are selected and who conduct 
        their ministry according to the standard called for by 
        Catholic religious beliefs; the right of Falun Gong 
        practitioners to freely practice Falun Gong inside 
        China; the right of Muslims to freely preach, undertake 
        overseas pilgrimage, select and train religious 
        leaders, and wear clothing with religious significance; 
        the right of Protestants to exercise their faith free 
        from state controls over doctrine and worship, and free 
        from harassment, detention, and other abuses for public 
        and private manifestations of their faith, including 
        the display of crosses; and the right of members of 
        other religious communities, such as Judaism, to be 
        free from state control and harassment.
          Call for the release of Chinese citizens confined, 
        detained, or imprisoned for peacefully pursuing their 
        religious beliefs, as well as people confined, 
        detained, or imprisoned in connection to their 
        association with those people. Such individuals include 
        Bishop Thaddeus Ma Daqin, who has been under extralegal 
        confinement since July 2012 for renouncing his 
        affiliation with the Chinese Catholic Patriotic 
        Association; Pastors Bao Guohua and Xing Wenxiang of 
        Jinhua municipality, Zhejiang province; those 
        affiliated with the Living Stone Church in Guizhou 
        province, including its pastor, Li Guozhi (also known 
        as Yang Hua); and other prisoners mentioned in this 
        report and in the Commission's Political Prisoner 
        Database. The Administration should use existing laws 
        to hold accountable Chinese government officials and 
        others complicit in severe religious freedom 
        restrictions, including by using the sanctions 
        available in the Global Magnitsky Human Rights 
        Accountability Act and the International Religious 
        Freedom Act of 1998. Ensure that conditions related to 
        religious freedom are taken into account when 
        negotiating any trade agreement as mandated by the 
        Bipartisan Congressional Trade Priorities and 
        Accountability Act of 2015 (Public Law No. 114-26).
          Call on the Chinese government to fully implement 
        accepted recommendations from its October 2013 UN 
        Universal Periodic Review, including taking necessary 
        measures to ensure that rights to freedom of religion, 
        religious culture, and expression are fully observed 
        and protected; cooperating with the UN human rights 
        system, specifically UN special procedures and mandate 
        holders; facilitating visits for UN High Commissioners 
        to China; taking steps to ensure lawyers working to 
        advance religious rights can practice their profession 
        freely and promptly investigating allegations of 
        violence and intimidation impeding their work; and 
        considering possible revisions to legislation and 
        administrative rules to provide better protection of 
        freedom of religion.
          Call on the Chinese government to abolish Article 300 
        of the PRC Criminal Law, which criminalizes 
        ``organizing and using a cult to undermine 
        implementation of the law,'' and Article 27 of the PRC 
        Public Security Administration Punishment Law, which 
        provides for detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using ``cults'' or the ``guise of religion'' to 
        disturb social order or to harm others' health.
          Encourage U.S. political leaders to visit religious 
        sites in China to raise awareness of and promote 
        freedom of religion.

                         Ethnic Minority Rights


                                Findings

        <bullet> The UN Special Rapporteur on extreme poverty 
        and human rights, Philip Alston, following his 2016 
        visit to China, issued a report criticizing what he saw 
        as authorities' lack of consultation with ethnic 
        minorities regarding economic development that affects 
        them, and he recommended that the State Ethnic Affairs 
        Commission develop policies integrating human rights 
        considerations into all aspects of its policymaking.
        <bullet> As in past reporting years, Inner Mongolia 
        Autonomous Region (IMAR) authorities detained Mongol 
        herders who engaged in peaceful protests related to 
        grasslands, including those who voiced their concerns 
        online or talked with foreign reporters about their 
        complaints.
        <bullet> Mongol rights advocate Hada reportedly 
        continued to press authorities to hold officials 
        accountable for mistreating him during his 15-year 
        prison sentence and subsequent detention and 
        surveillance. IMAR authorities imprisoned Hada for 15 
        years starting in 1995 and then held him in extralegal 
        detention for another 4 years, following his 
        organization of peaceful demonstrations for Mongol 
        rights and his establishment of the banned Southern 
        Mongolian Democratic Alliance. In a November 2016 
        interview, he described his living conditions, in an 
        apartment heavily surveilled by security personnel, as 
        similar to those he experienced under detention, 
        complaining that authorities had at times cut off his 
        family's water and heat in an effort to compel him to 
        ``cooperate with them and give up [his] ideas.''
        <bullet> Mongol parents and students in the IMAR 
        reportedly faced limits on access to Mongolian-language 
        instruction during the past reporting year, in spite of 
        Chinese law protecting the use of minority languages. 
        In late 2016, Mongol parents in Chifeng municipality, 
        IMAR, published open letters on social media and 
        demonstrated outside government offices to protest the 
        appointment of Han Chinese principals to the only two 
        kindergartens in Chifeng that provide instruction in 
        the Mongolian language. The administrations of the two 
        schools reportedly restricted the use of the Mongolian 
        language, and at least one of the schools banned Mongol 
        teachers from speaking Mongolian in the office.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to build the capacity of Mongol, Uyghur, and 
        Tibetan groups working to advance human rights, 
        environmental protection, economic development, and 
        rule of law in China through U.S. foreign assistance 
        funding and by encouraging additional support from both 
        UN and non-governmental sources.
          Convey to the Chinese government the importance of 
        respecting and protecting ethnic minority cultures and 
        languages. Urge Chinese officials to provide ethnic 
        minority students and parents a choice of what language 
        or languages of instruction should be used at schools 
        they attend in accordance with the PRC Regional Ethnic 
        Autonomy Law and the UN Declaration on the Rights of 
        Persons Belonging to National or Ethnic, Religious and 
        Linguistic Minorities. Call on Chinese officials to 
        establish mechanisms preserving and expanding existing 
        instruction in ethnic minority languages from the 
        preschool to the university level.
          Call on the Chinese government to allow Mongol 
        herders to exercise their fundamental rights of freedom 
        of expression, association, and peaceful assembly, as 
        well as the right to be free from arbitrary detention. 
        Convey to Chinese officials the importance of 
        consulting with ethnic minority communities regarding 
        the impact of proposed development on their traditional 
        grazing lands.
          Urge Chinese authorities to end restrictions on the 
        freedom of movement and other unlawful restrictions 
        against Hada, his wife Xinna, and their son, Uiles. The 
        Universal Declaration of Human Rights grants ``everyone 
        . . . the right to freedom of movement and residence 
        within the borders of each state.'' Emphasize in 
        meetings with Chinese officials the need to hold 
        accountable local officials responsible for the 
        continued persecution of Hada, Xinna, and Uiles.

                           Population Control


                                Findings

        <bullet> Chinese government authorities continued to 
        actively promote and implement coercive population 
        control policies that violate international standards, 
        including the 1995 Beijing Declaration, the 1994 
        Programme of Action of the Cairo International 
        Conference on Population and Development, and the 
        Convention against Torture and Other Cruel, Inhuman or 
        Degrading Treatment or Punishment. Authorities 
        continued to place an emphasis on birth limits and 
        adherence to family planning as a ``basic national 
        policy.'' The amended PRC Population and Family 
        Planning Law and provincial-level regulations limit 
        couples' freedom to build their families as they see 
        fit.
        <bullet> During the Commission's 2017 reporting year, 
        Communist Party and central government authorities 
        implemented the ``universal two-child policy,'' that 
        became effective on January 1, 2016, which allows all 
        married couples to have two children. Chinese 
        government statistics, however, showed that the 
        universal two-child policy had limited to moderate 
        impact after a year of implementation. The National 
        Bureau of Statistics of China (NBS) reported that the 
        number of total births in 2016 was 17.86 million, 1.31 
        million more than the 2015 NBS figure. The increase was 
        lower than the 3 million additional births per year 
        that the National Population and Family Planning 
        Commission had predicted.
        <bullet> Human rights advocates, demographic experts, 
        and others expressed concerns that the coercive 
        implementation of family planning measures and human 
        rights abuses will persist despite the adoption of the 
        universal two-child policy.
        <bullet> The amended PRC Population and Family Planning 
        Law contains provisions that prohibit officials from 
        infringing upon the ``legitimate rights and interests'' 
        of citizens while implementing family planning 
        policies. Some provincial population planning 
        regulations, however, continued to explicitly instruct 
        officials to carry out abortions for ``out-of-plan'' 
        pregnancies, often referred to as ``remedial 
        measures.'' Local authorities continued to promote 
        ``family planning work'' that entailed harsh and 
        invasive family planning measures. Officials imposed or 
        threatened various punishments to enforce family 
        planning policies, including heavy fines, detention, 
        forced sterilization, and abortion.
        <bullet> During this reporting year, central and local 
        governments continued to implement household 
        registration (hukou) reforms to register ``illegal 
        residents'' (heihu), a term commonly used to refer to 
        people who lack hukou in China. According to 2010 
        national census data, over 60 percent of the 13 million 
        ``illegal residents'' were people born in excess of 
        birth quotas. Other reports indicated that the number 
        of ``illegal residents'' might be higher than 13 
        million. ``Illegal residents'' face considerable 
        difficulty accessing social benefits typically afforded 
        to registered citizens. The People's Daily reported in 
        March 2017 that approximately 14 million ``illegal 
        residents'' had registered for hukou since November 
        2012. Some ``illegal residents,'' however, reportedly 
        continued to face difficulty in registering for hukou, 
        including those born to unmarried parents.
        <bullet> Decades of population control policies have 
        exacerbated China's demographic challenges, which 
        include a rapidly aging population, shrinking 
        workforce, and sex ratio imbalance. China's total 
        fertility rate has dropped from approximately 3 births 
        per woman in the late 1970s to a reported 1.7 births 
        per woman in 2017, below the replacement rate of 2.1 
        births per woman necessary to maintain a stable 
        population. The NBS reported that from 2015 to 2016, 
        China's working-age population (persons between the 
        ages of 16 and 59) declined by 3.49 million people to 
        907.47 million, while the elderly population (persons 
        aged 60 or older) increased by approximately 8.86 
        million in 2016 to 230.86 million people, or 16.7 
        percent of the total population. The overall sex ratio 
        in 2016 was 104.98 males to 100 females, and there were 
        approximately 33.59 million more males than females in 
        China.
        <bullet> This past year, international media reports 
        continued to suggest a link between China's large 
        number of ``surplus males'' and the trafficking of 
        foreign women into China for forced marriage or 
        commercial sexual exploitation. Reports also indicate 
        that the Chinese government's population control 
        policies have contributed to illegal adoptions, as a 
        traditional preference for sons combined with birth 
        limits may encourage a black market for illegal 
        adoptions.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Press Chinese government officials to bring the PRC 
        Population and Family Planning Law into conformance 
        with international standards set forth in international 
        agreements, including the 1995 Beijing Declaration, the 
        1994 Programme of Action of the Cairo International 
        Conference on Population and Development, the 
        Convention on the Rights of the Child, and the 
        International Covenant on Economic, Social and Cultural 
        Rights. Urge the Chinese government to address concerns 
        about China's coercive implementation of the population 
        control policy raised by the UN Committee against 
        Torture in its concluding observations on the fifth 
        periodic review of China's compliance with the 
        Convention against Torture and Other Cruel, Inhuman or 
        Degrading Treatment or Punishment.
          Highlight the looming demographic challenges 
        currently facing China in bilateral meetings with 
        Chinese government officials--including a rapidly aging 
        population, shrinking workforce, and sex ratio 
        imbalance. Urge the Chinese government to heed the 
        recommendations of domestic and international 
        demographic experts by ending all birth restrictions on 
        families and abolishing ``social compensation fees.''
          Urge the Chinese government to continue its existing 
        efforts to register all Chinese citizens without hukou. 
        In line with the Girls Count Act of 2015, the U.S. 
        State Department and the U.S. Agency for International 
        Development should support training and programs that 
        contribute to improvements in the registration of 
        girls, in order to increase rights and opportunities 
        for women and girls in China.
          Use authorities provided in the Global Magnitsky 
        Human Rights Accountability Act, as appropriate, to 
        impose sanctions against Chinese officials who engage 
        in gross violations of human rights--including those 
        involving forced sterilizations and forced abortions--
        of individuals while implementing family planning 
        policies. Call on China's central and local governments 
        to vigorously enforce provisions of Chinese laws that 
        provide for punishment of officials and other 
        individuals who engage in these abuses.
          Publicly link, with supporting evidence, the sex 
        ratio imbalance exacerbated by China's population 
        control policies with potential regional humanitarian 
        and security concerns--human trafficking, crime, 
        increased internal and external migration, and other 
        possible serious social, economic, and political 
        problems--and discuss and address these issues in 
        bilateral dialogues.

                   Freedom of Residence and Movement


                                Findings

        <bullet> The Chinese government continued the use of 
        the household registration (hukou) system established 
        in 1958. The hukou system limits the right of Chinese 
        citizens to freely choose their place of residence. The 
        hukou system classifies Chinese citizens as either 
        rural or urban, conferring legal rights and access to 
        public services based on the classification. 
        Implementation of hukou regulations discriminates 
        against rural hukou holders, including those who 
        migrate to urban areas, by denying them equal access to 
        public benefits and services enjoyed by registered 
        urban residents. The hukou system contravenes 
        international human rights standards guaranteeing 
        freedom of residence and prohibiting discrimination on 
        the basis of ``national or social origin, . . . birth 
        or other status.''
        <bullet> The Chinese central government and local 
        authorities continued to implement reforms to the hukou 
        system and other restrictions on Chinese citizens' 
        freedom of residence. The central government reiterated 
        its plans to have 100 million individuals move to urban 
        areas and obtain local, urban-registered hukou between 
        2015 and 2020. Local jurisdictions took steps to 
        implement a new residence permit system, as directed by 
        the central government's January 2016 Provisional 
        Regulations on Residence Permits. As of August 2017, at 
        least 29 provincial-level jurisdictions had reportedly 
        issued implementing measures for residence permits.
        <bullet> Authorities continued to deny some Chinese 
        citizens who criticize the government their 
        internationally recognized right to leave the country, 
        through methods including mass confiscation of 
        passports and individual travel bans. Authorities in 
        Guangdong province prevented Australian permanent 
        resident and Chinese citizen Feng Chongyi from 
        returning to Australia for over a week in March and 
        April 2017, reportedly in connection with his research 
        on Chinese rights lawyers.
        <bullet> The Commission continued to observe reports of 
        Chinese government officials punishing rights advocates 
        and their families and associates, and targeting some 
        members of ethnic minority groups by restricting their 
        freedom of movement, in violation of Article 12 of the 
        International Covenant on Civil and Political Rights. 
        Authorities heightened restrictions on movement during 
        politically sensitive periods, and placed particularly 
        strict controls on Uyghurs and Tibetans and residents 
        of ethnic minority areas.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on Chinese authorities to accelerate reforms to 
        the hukou system, including lowering restrictions on 
        migration to major cities and centers of economic 
        opportunity; equalizing the level and quality of public 
        benefits and services tied to local hukou and residence 
        permits; and implementing laws and regulations to 
        provide equal treatment for all Chinese citizens, 
        regardless of place of birth or residence, or hukou or 
        residence status.
          Support programs, organizations, and exchanges with 
        Chinese policymakers and academic institutions engaged 
        in research and outreach to migrants, in order to 
        advance legal and anti-discrimination assistance for 
        migrants and their families, and to encourage policy 
        debates aimed at eliminating inequality and 
        discrimination connected to residence policies, 
        including the hukou system.
          Emphasize in meetings with Chinese officials that the 
        government's noncompliance with international standards 
        on freedom of movement and travel negatively affects 
        confidence in the Chinese government's commitment to 
        international standards.
          Call on the Chinese central government to combat 
        provincial and local authorities' arbitrary and 
        discriminatory restrictions on the ability of residents 
        of ethnic minority areas, in particular Uyghurs and 
        Tibetans, to move freely inside China and to travel 
        abroad.
          Raise specifically Chinese authorities' restrictions 
        on the freedom of movement and the right to leave the 
        country of rights defenders, lawyers, critics of the 
        government, and their family members and associates, 
        including, among others: Feng Chongyi, a professor and 
        Australian permanent resident; Lu Dongli, a rights 
        defender; Yao Lifa, a democracy advocate and former 
        independent local people's congress candidate; and 
        human rights lawyers Liu Zhengqing and Chen Jian'gang.

                            Status of Women


                                Findings

        <bullet> Despite a legal framework prohibiting 
        employment discrimination, employers in China continued 
        to discriminate against women in recruiting, hiring, 
        compensation, and other employment practices. 
        Employment discrimination against women based on 
        pregnancy continues to be a serious problem, with much 
        of the discrimination against women in employment due 
        to employers' desire to avoid the cost of maternity 
        leave for female employees. Such discrimination is 
        expected to worsen with the continuing implementation 
        of the ``universal two-child policy.''
        <bullet> The legal advocacy of women seeking redress 
        for gender discrimination in employment continued and 
        seemed to gain some influence. During this reporting 
        year, the Guangzhou Intermediate People's Court in 
        Guangdong province held that a restaurant owed one 
        woman compensation and an apology for refusing to 
        interview or hire her for a chef's apprentice position 
        based on her gender. The Supreme People's Court (SPC) 
        included a recent gender discrimination case among its 
        guiding cases, released in August 2016. SPC official 
        Guo Feng said that because the case imposed civil 
        liability, it would deter other employers from 
        violating laws on gender equality.
        <bullet> Women in China continued to face challenges 
        with domestic and sexual violence. Experts on the PRC 
        Anti-Domestic Violence Law (in effect since March 2016) 
        noted that challenges to implementation include lack of 
        awareness, inadequate resources for training of public 
        security officials, gender discrimination within the 
        legal system, and enforcement that prioritizes family 
        cohesion and ``social stability'' over the safety of 
        victims. Victims of sexual violence also faced 
        challenges in obtaining legal redress, as they were 
        reportedly reluctant to come forward due to pressure 
        from family and society.
        <bullet> Women continued to lack secure rights to 
        property in both rural and urban areas due to a 
        combination of legal policies and traditionalist 
        cultural pressures, particularly after marriage.
        <bullet> Chinese officials prevented some women's 
        rights advocates from engaging in activism and 
        providing services--a continuation of the intensifying 
        restrictions on women's rights advocacy begun in 2015.
        <bullet> The Chinese government continued to target 
        individual women's rights advocates with criminal 
        prosecution and other forms of harassment. One 
        prominent example is that of women's rights and 
        democracy activist Su Changlan, whom authorities 
        detained in October 2014 and tried in April 2016 for 
        ``inciting subversion of state power.'' She was 
        convicted on March 31, 2017, and is expected to be 
        released in October.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Publicly and privately urge the Chinese government to 
        give rights advocate Su Changlan immediate access to 
        medical care and to release her from arbitrary 
        detention. After Su's sentence ends in October 2017, 
        urge the Chinese government to ensure that she is free 
        of state-imposed surveillance, harassment, and 
        restrictions to her freedom of residence, movement, and 
        expression. In addition, urge the release of advocates 
        Chen Qitang and Shan Lihua, and immediately cease 
        intimidation and harassment of their family members and 
        associates.
          Publicly and privately urge the Chinese government to 
        respect the freedom of expression and assembly of all 
        rights advocates, and in particular to refrain from 
        harassing and intimidating the independent women's 
        rights advocates seeking to increase awareness about 
        sexual harassment in public areas.
          Urge the Chinese government to publicly expand its 
        commitment to gender equality through measures such as 
        increasing the number of women in the highest levels of 
        political leadership, instituting gender equality and 
        anti-harassment trainings in government workplaces, and 
        challenging discriminatory attitudes based on gender 
        through public education.
          Commend the Chinese government for recent legal 
        developments aimed at promoting the welfare of women 
        and gender equality. These include the passage of the 
        PRC Anti-Domestic Violence Law and the inclusion of a 
        gender discrimination case among the Supreme People's 
        Court's guiding cases. Encourage the government to 
        strengthen formal support services for implementation--
        for example, by increasing funding for health services 
        or shelters for women experiencing violence, providing 
        funding and support for attorneys for legal services, 
        and allowing independent lawyers and advocates to 
        assist with the promotion and implementation of laws 
        related to gender equality through lawsuits and public 
        campaigns.
          Support international exchanges among academics, 
        legal advocates, non-governmental organizations, and 
        others that focus on the implementation and enforcement 
        of recently adopted laws promoting gender equity. In 
        particular, facilitate and support technical assistance 
        programs that would help both men and women working in 
        law enforcement and the judiciary to implement the PRC 
        Anti-Domestic Violence Law effectively and challenge 
        discriminatory attitudes based on gender. As the first 
        point of contact, law enforcement in particular should 
        be trained in addressing reports of violence in a way 
        that does not undermine victims' concerns or safety.
          Facilitate and support technical assistance programs 
        that would help the development of gender equality 
        education in schools and communities.
          Encourage the collection and analysis of data on 
        gender-based disparities in economic and social life so 
        as to monitor changes.

                           Human Trafficking


                                Findings

        <bullet> As a State Party to the UN Protocol to 
        Prevent, Suppress and Punish Trafficking in Persons, 
        Especially Women and Children (UN TIP Protocol), China 
        is obligated to enact legislation criminalizing human 
        trafficking as defined by the UN TIP Protocol. The 
        definition of human trafficking in Chinese law, 
        however, remains inconsistent with UN TIP Protocol 
        standards. Inconsistencies between domestic law and 
        international standards contribute to the difficulty of 
        assessing the scale of human trafficking in China.
        <bullet> China remains a destination for the 
        trafficking of men, women, and children from throughout 
        Asia. The Commission observed reports of alleged human 
        trafficking of Chinese nationals to the United States, 
        Europe, and elsewhere for forced labor and sexual 
        exploitation. Men, women, and children reportedly were 
        trafficked within China's borders for forced labor, 
        forced begging, forced marriage, and sexual 
        exploitation.
        <bullet> This past year, the Chinese government 
        subjected individuals to forced labor in administrative 
        detention centers, pretrial detention, and through a 
        forced labor program known as hashar in the Xinjiang 
        Uyghur Autonomous Region.
        <bullet> Chinese workers migrating within China and 
        their children were particularly at risk of human 
        trafficking, in part due to restrictions arising from 
        China's household registration (hukou) system. 
        Government restrictions on workers' rights to form 
        independent unions and collective bargaining also 
        exacerbated their vulnerability to trafficking.
        <bullet> The Chinese government continued to treat 
        North Korean refugees as economic migrants, and 
        maintained a policy of repatriating undocumented North 
        Koreans, leaving the refugees vulnerable to 
        trafficking. The government of the Democratic People's 
        Republic of Korea reportedly continued to generate 
        revenue by sending North Korean nationals to work in 
        China under conditions that one expert described as 
        slave labor.
        <bullet> China's sex ratio imbalance--exacerbated by 
        government-imposed birth limits and in keeping with a 
        traditional bias for sons--created a demand for 
        marriageable women that may contribute to human 
        trafficking for forced marriage and sexual 
        exploitation. According to the National Bureau of 
        Statistics of China, in 2016, China had approximately 
        33.59 million more men than women.
        <bullet> Hong Kong remained a destination for human 
        trafficking, with migrant domestic workers particularly 
        at risk of exploitation for forced labor. A December 
        2016 ruling by a Hong Kong court found that Hong Kong's 
        Bill of Rights Ordinance requires the Hong Kong 
        government to enact stronger anti-trafficking 
        legislation. In response to questions from a Hong Kong 
        lawmaker regarding what steps the government had taken 
        following the court ruling, the government stated that 
        human trafficking ``is not prevalent or widespread in 
        Hong Kong,'' and that human trafficking ``is 
        effectively prohibited by various pieces of existing 
        legislation in Hong Kong.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to abide by its 
        commitments under the UN TIP Protocol to bring anti-
        trafficking legislation into alignment with 
        international standards, specifically with regard to 
        China's legal definition of human trafficking. 
        Emphasize that this would facilitate better data 
        collection and cross-border comparisons, which in turn 
        would better inform domestic and multilateral anti-
        trafficking policies. Call on the Chinese government to 
        extend coverage of the UN TIP Protocol to include Hong 
        Kong.
          Support U.S. Government efforts to improve human 
        trafficking data collection. Work with regional 
        governments, multilateral institutions, and non-
        governmental organizations (NGOs) to encourage and 
        support the collection of more accurate data in order 
        to better assess the scale and root causes of human 
        trafficking in Asia and monitor the effectiveness of 
        anti-trafficking measures.
          Discuss in appropriate bilateral and multilateral 
        meetings the importance of protecting worker rights as 
        a means of combating human trafficking for the purpose 
        of forced labor. Stress that when workers are able to 
        organize and advocate for their rights, they are less 
        vulnerable to all forms of exploitation, including 
        forced labor. Highlight the September 2016 report of 
        the UN Special Rapporteur on the rights to freedom of 
        peaceful assembly and of association, Maina Kiai, which 
        stated that the failure to protect workers' right to 
        freedom of association ``directly contributes to 
        problems such as human trafficking and slavery.''
          Encourage and engage in continued regional 
        cooperation to combat human trafficking through 
        multilateral agreements and forums such as the 
        Coordinated Mekong Ministerial Initiative Against 
        Trafficking, Asia-Pacific Economic Cooperation, and the 
        East Asia Summit. Such regional cooperation should 
        address migration and the flow of refugees, poverty, 
        sex ratio imbalances, and other risk factors that 
        contribute to human trafficking.
          Pursue cooperation on anti-trafficking efforts 
        through the U.S.-China Joint Liaison Group on Law 
        Enforcement Cooperation. Support the work of the U.S. 
        Department of State's International Law Enforcement 
        Academy Program in Bangkok, Thailand, to build regional 
        law enforcement capacity.
          Facilitate international exchanges among civil 
        society groups and industry associations to raise 
        awareness of best practices for identifying and 
        combating human trafficking in supply chains. Support 
        NGOs working on anti-trafficking research, education, 
        prevention, and victims' services throughout Asia.
          Incorporate language into bilateral and multilateral 
        economic agreements requiring member countries to 
        improve data collection on human trafficking and to 
        take concrete steps toward eliminating human 
        trafficking within their borders.

                     North Korean Refugees in China


                                Findings

        <bullet> During the Commission's 2017 reporting year, 
        the Chinese government's policy of detaining North 
        Korean refugees and repatriating them to the Democratic 
        People's Republic of Korea (DPRK) remained in place, in 
        violation of its obligations under international human 
        rights and refugee law.
        <bullet> Heightened security measures along the China-
        North Korea and China-Southeast Asia borders increased 
        the risks North Korean refugees face, and may be 
        limiting the outflow of refugees from the DPRK. South 
        Korean Ministry of Unification data showed that 1,414 
        refugees reached South Korea in 2016, continuing the 
        trend of a significant decline in the number of 
        refugees entering South Korea since 2009.
        <bullet> Chinese authorities appeared to have 
        intensified crackdowns on organizations and 
        individuals--including foreign aid workers, Christian 
        missionaries and churches, and non-governmental 
        organizations--that have played a crucial role in 
        assisting and facilitating the movement of North Korean 
        refugees outside the DPRK.
        <bullet> North Korean women who enter China illegally 
        remain particularly vulnerable to human trafficking. 
        The majority of North Korean refugees leaving the DPRK 
        are women, many of whom are trafficked from the DPRK 
        into, or within, China for the purposes of forced 
        marriage and commercial sexual exploitation.
        <bullet> Many children born to Chinese fathers and 
        North Korean mothers remain deprived of basic rights to 
        education and other public services owing to a lack of 
        legal resident status in China. The denial of these 
        rights contravenes China's obligations under 
        international law.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to immediately halt the 
        repatriation of North Korean refugees; consider using 
        the suite of sanctions that are available, where 
        appropriate, against Chinese government agencies and 
        individuals involved in the repatriation of North 
        Korean refugees; and press for increased international 
        monitoring of and accountability for the Chinese 
        government's treatment of refugees.
          Call on the Chinese government to address the 
        concerns of the UN Committee against Torture by 
        incorporating the principle of non-refoulement into 
        domestic legislation and allowing UN High Commissioner 
        for Refugees personnel unimpeded access to North Korean 
        refugees in China.
          Urge Chinese authorities to recognize the legal 
        status of North Korean women who marry or have children 
        with Chinese citizens, and ensure that all such 
        children are granted resident status and access to 
        education and other public services in accordance with 
        Chinese law and international standards.
          Consider passing the North Korean Human Rights 
        Reauthorization Act of 2017 and implement relevant 
        provisions pertaining to North Korean refugees in 
        China. Appoint and confirm the U.S. Special Envoy on 
        North Korean Human Rights Issues, and encourage the 
        Special Envoy to work with South Korean counterparts to 
        coordinate efforts related to humanitarian assistance 
        and human rights promotion for North Korean refugees in 
        China, in accordance with the reauthorized North Korean 
        Human Rights Act.

                             Public Health


                                Findings

        <bullet> During the Commission's 2017 reporting year, 
        the UN Special Rapporteur on extreme poverty and human 
        rights issued a report that assessed whether the 
        Chinese government's poverty alleviation efforts, many 
        of which dovetail with public health, ``have ensured 
        full respect for human rights in China.'' The Special 
        Rapporteur observed that the government overly 
        emphasizes development goals, and that challenges to 
        the protection of human rights and government 
        accountability include the Chinese Communist Party's 
        ``leading role'' over government, civil society, and 
        public participation; a ``top-down'' government 
        approach; and lack of accurate, publicly available 
        data.
        <bullet> The government and Party continued to 
        prioritize the treatment of mental health in public 
        health policymaking. Despite implementation of the PRC 
        Mental Health Law, which became effective in 2013, 
        challenges in the treatment of mental health disorders 
        include a shortage of mental health personnel and 
        community-based services.
        <bullet> The Commission remained concerned by reports 
        that Chinese government authorities continued to 
        forcibly commit individuals without mental illness to 
        psychiatric facilities (bei jingshenbing) for 
        activities, including petitioning, that are deemed to 
        be ``troublemaking'' or politically sensitive. Reports 
        of petitioners and others whom public security 
        officials forcibly committed to psychiatric facilities 
        this past year included Sheng Lanfu, Ren Naijun, and 
        Zhu Liangqun. Media coverage of the case of Xu 
        Xueling--a petitioner serving a four-year prison 
        sentence for ``picking quarrels and provoking 
        trouble''--linked her petitioning to two instances of 
        forcible psychiatric commitment that authorities had 
        imposed to ``maintain stability.'' The December 2016 
        arrest of Liu Feiyue, founder of the human rights 
        website Civil Rights & Livelihood Watch (CRLW), may 
        have consequences for access to grassroots reports of 
        forced psychiatric commitment given CRLW's regular 
        coverage of the topic.
        <bullet> Health-based discrimination in access to 
        employment, welfare, education, and medical treatment, 
        as well as difficulties in accessing legal relief or 
        accountability, reportedly remained widespread, despite 
        prohibitions to prevent it under Chinese laws and 
        regulations. Contributing factors, according to rights 
        lawyers, include a lack of compliance with the law and 
        inconsistencies between laws and regulations.
        <bullet> In June 2017, a court in Guangdong province 
        issued China's first-ever judgment that held an 
        employer violated Chinese law by discriminating against 
        an employee because the employee was HIV positive. The 
        court, however, rejected the employee's request to be 
        reinstated to his job.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Call on the Chinese government to strengthen 
        implementation of the PRC Mental Health Law (MHL) and 
        stop using forced psychiatric commitment to retaliate 
        against and silence persons with grievances against the 
        government or persons with dissenting opinions and 
        preferences. Immediately release from detention Liu 
        Feiyue, founder of Civil Rights & Livelihood Watch, a 
        human rights website known for its coverage of the use 
        of forced psychiatric commitment. In addition, release 
        Xu Xueling--imprisoned in connection to petitioning two 
        instances of forcible psychiatric commitment--and other 
        individuals raised in this report and the Commission's 
        Political Prisoner Database subjected to forcible 
        psychiatric commitment for petitioning and other 
        activities authorities deemed politically sensitive.
          Urge the Chinese government to establish panels made 
        up of legal, medical, social work, and security 
        professionals from within and outside the government to 
        monitor and report on the implementation of the MHL and 
        initiatives planned under the National Mental Health 
        Work Plan (2015-2020) to ensure that local 
        implementation consistently meets standards of care and 
        rights protection stipulated in the MHL, the PRC Law on 
        the Protection of the Rights of Persons with 
        Disabilities, and international standards.
          Continue to support technical assistance and exchange 
        programs in the area of public health. Require that 
        U.S.-China cooperative programs include the 
        participation of U.S. and Chinese non-governmental 
        organizations.
          Urge Chinese officials to focus attention on 
        effective implementation of laws and regulations that 
        prohibit health-based discrimination in access to 
        employment and education, including abolition of the 
        national physical eligibility standards for civil 
        servants and teachers that discriminate against persons 
        with health conditions. Where appropriate, share the 
        United States' ongoing experience with and efforts in 
        promoting the rights of persons with disabilities in 
        education, employment, and public life, through non-
        governmental advocacy and services, and legal and 
        regulatory means.

                            The Environment


                                Findings

        <bullet> During the 2017 reporting year, Chinese and 
        international media reports highlighted the severity of 
        China's air, water, and soil pollution, and related 
        health concerns. At the same time, Chinese authorities 
        continued to censor and control media reporting on the 
        environment. The Chinese government made statements 
        calling for public participation in environmental 
        protection. According to the UN Special Rapporteur on 
        extreme poverty and human rights, however, ``the 
        Government tends to rely almost entirely on top-down 
        processes.''
        <bullet> During this reporting year, citizens engaged 
        in a number of environmental protests over issues 
        including sand mining and air pollution. In October 
        2016, as many as 10,000 people in Xi'an municipality, 
        Shaanxi province, participated in a protest over a 
        waste incinerator project. In December 2016, 
        authorities reportedly briefly detained a number of 
        advocates in Chengdu municipality, Sichuan province, 
        after they gathered wearing face masks to protest air 
        pollution.
        <bullet> Chinese authorities continued to harass and 
        detain environmental advocates. In October 2016, 
        Chinese authorities administratively detained Liu Shu, 
        the leader of an environmental non-governmental 
        organization (NGO), for 10 days in Changsha 
        municipality, Hunan province, for ``leaking counter-
        espionage work state secrets.'' Her alleged offense was 
        sharing pollution data. In June 2017, the Shuangtaizi 
        District People's Court in Panjin municipality, 
        Liaoning province, sentenced Tian Jiguang, the founder 
        of the Panjin City Association of Volunteers for the 
        Protection of the Spotted Seal, to four years and six 
        months in prison. Chinese authorities detained Tian in 
        October 2013 after he wrote a blog post in which he 
        criticized a state-owned enterprise for water 
        pollution.
        <bullet> Judicial authorities assessed high court fees 
        on two NGOs following an environmental public interest 
        lawsuit. In January 2017, the Changzhou Intermediate 
        People's Court in Changzhou municipality, Jiangsu 
        province, ruled in favor of defendant chemical 
        manufacturers and held that the two NGOs that brought 
        the lawsuit were responsible for court fees totaling 
        1.89 million yuan (US$270,000). The head of the 
        litigation department at one of the NGOs expressed 
        concern that this case ``would set a precedent for 
        courts to use similar charging standards in future 
        environmental public interest lawsuits.''
        <bullet> In December 2016, the National People's 
        Congress passed the PRC Environmental Tax Law. The 
        legislation provides for new environmental taxes that 
        will be jointly managed by environmental and tax 
        authorities, superseding the previous pollution 
        discharge fees that had been managed by environmental 
        authorities. Some legal experts believe the potential 
        for tax authorities to collect taxes from polluters may 
        result in a strengthening of monitoring systems.
        <bullet> In December 2016, the Supreme People's Court 
        and Supreme People's Procuratorate issued an 
        interpretation on environmental crimes that, if 
        implemented, may lead to more criminal enforcement for 
        environmental data manipulation. The interpretation 
        provides that criminal penalties for companies found in 
        violation of environmental standards may be based on 
        the amount of money the company saved by not operating 
        the required pollution control equipment, and criminal 
        charges of more than three years could be imposed if 
        the money saved totaled over 1 million yuan 
        (US$140,000).
        <bullet> In October 2016, Chinese authorities 
        reportedly detained three environmental officials in 
        Xi'an for ``falsification'' of air quality data. In 
        June 2017, the Xi'an Intermediate People's Court 
        sentenced seven environmental officials, including the 
        three previously detained officials, to prison terms 
        ranging from 1 year and 3 months to 1 year and 10 
        months for ``damaging the computer information 
        system.'' In July 2017, the Ministry of Environmental 
        Protection, following a month-long inspection, strongly 
        criticized the Tianjin municipal government for 
        ``wantonly covering up'' its failed environmental 
        protection efforts, finding that although Tianjin 
        authorities had many meetings and campaigns, ``it was 
        more lip service than action.''
        <bullet> The Chinese government continued to develop 
        and release comprehensive plans for improving the 
        environment, although it also announced plans to 
        increase coal-fired power capacity. In December 2016, 
        the National Development and Reform Commission released 
        China's 13th Five-Year Energy Development Plan, which 
        included a mandatory target for coal energy to account 
        for 58 percent or less of energy production by 2020, a 
        6-percent decrease from 2015. The 13th Five-Year 
        Electricity Development Plan, however, included plans 
        to increase coal-fired power capacity.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Continue to support U.S.-China technical and legal 
        collaboration on environmental protection. U.S.-China 
        cooperation should focus on programs aimed at: 
        increasing media freedom; improving transparency and 
        the rule of law; reducing air, water, and soil 
        contamination; and improving government accountability.
          Encourage Chinese leaders to strengthen rule of law 
        in the environmental sector. Raise questions with 
        Chinese officials about the censorship of environmental 
        news reporting. U.S. officials should also raise 
        questions about the lack of transparency regarding 
        China's water and soil pollution.
          Call on the Chinese government to cease harassment of 
        environmental advocates and follow international 
        standards on freedom of speech, association, and 
        assembly, including those contained in the 
        International Covenant on Civil and Political Rights, 
        the Universal Declaration of Human Rights, and China's 
        Constitution. Raise the imprisonment of environmental 
        advocate Tian Jiguang in meetings with Chinese 
        officials.
          Support efforts by Chinese and U.S. groups working to 
        expand awareness of citizens' environmental rights in 
        China and the protection of those rights. Include 
        environmental law and transparency issues in bilateral 
        human rights and legal expert dialogues.

                             Civil Society


                                Findings

        <bullet> During this reporting year, the Chinese 
        government and Communist Party continued to deepen a 
        crackdown on NGOs and civil society advocates. 
        According to international human rights organizations, 
        Chinese authorities restricted the activities of rights 
        defenders by shrinking the space for expression, 
        association, and assembly. Authorities also targeted 
        rights advocates affiliated with NGOs this past year, 
        including those promoting religious freedom, workers' 
        rights, and the environment. Examples included the 
        prosecution of pastors and labor advocates, as well as 
        the detention of an environmentalist on ``state 
        security'' grounds. Regulatory developments, 
        particularly the PRC Law on the Management of Overseas 
        Non-Governmental Organizations' Activities (Overseas 
        NGOs' Activities Law) that took effect on January 1, 
        2017, threatened the continued presence of 
        international NGOs (INGOs) in China as well as the 
        independence of domestic NGOs reliant on foreign 
        funding. The Chinese government provided limited 
        clarifications on requirements for INGOs under the law. 
        Foreign governments and NGOs sought clarification from 
        the Ministry of Public Security (MPS) on official 
        sponsorship requirements under the law.
        <bullet> The operating environment for INGOs in China 
        became more restricted and uncertain under the new 
        Overseas NGOs' Activities Law. Reports indicate that 
        INGOs are under greater scrutiny, and the law enables 
        the Chinese government to surveil and collect 
        information on such organizations. In addition, 
        domestic NGOs may face ``harsh penalties'' under the 
        expanded legal and regulatory framework given a 
        ``political climate of heightened security concerns'' 
        and ``decreased tolerance for certain kinds of activism 
        and expression.'' According to statistical data 
        released by the MPS, a total of 168 INGO representative 
        offices and 191 temporary activities had registered in 
        China by July 31, 2017. Out of those registered, the 
        United States had the highest number of registered INGO 
        representative offices at 50, followed by Hong Kong at 
        38, Japan at 14, and Germany and South Korea each at 
        13. Beijing municipality ranked first for the highest 
        total number of registered representative offices at 
        54, followed by Shanghai municipality at 35, Yunnan 
        province at 17, and Guangdong province at 12. 
        Registered representative offices of INGOs had 
        partnering ``professional supervisory units'' (PSUs) 
        from varying fields, with 66 representative offices 
        working with PSUs in the trade sector, 25 in civil 
        affairs, 21 in health and population planning, and 8 in 
        education.
        <bullet> In March 2017, Chinese authorities detained 
        Taiwan human rights NGO volunteer Lee Ming-cheh while 
        he was traveling to Zhuhai municipality, Guangdong 
        province, via Macau. Ten days after Lee disappeared, 
        the State Council Taiwan Affairs Office (TAO) confirmed 
        that Chinese authorities were investigating Lee for 
        ``endangering state security.'' On May 26, the TAO 
        confirmed that state security authorities in Hunan 
        province had formally arrested Lee on suspicion of 
        ``subversion of state power.''
        <bullet> This past year, the Chinese government 
        continued to strengthen its policy of inspection and 
        ideological guidance over civil society. In March 2017, 
        following two State Council directives to carry out 
        inspections on the market and society released in 2015 
        and 2016, the Ministry of Civil Affairs (MCA) passed a 
        measure to advance official inspection of social 
        organizations, urging registration authorities to 
        conduct both planned and random inspections of civil 
        society groups. A leading small group on Party-building 
        in social organizations, administered by the MCA, 
        issued a document in March 2017 that prioritized work 
        on the Party's ideological guidance for NGOs, building 
        Party groups in organizations, and recruiting new 
        ``outstanding and talented individuals'' from NGOs as 
        cadres.
        <bullet> The Chinese government continued efforts to 
        strengthen the philanthropic regulatory framework under 
        the PRC Charity Law to increase the level of giving in 
        China. In the first year after the law's March 2016 
        passage, 260 national- or provincial-level 
        organizations acquired ``charitable'' status and 13 
        provinces and municipalities reportedly began approving 
        charities. In addition to registering charities, the 
        law provides a legal framework for public fundraising 
        and increasing tax incentives, toward which the Chinese 
        government took steps in this past year. On February 
        24, 2017, the National People's Congress Standing 
        Committee adopted a revision to the PRC Enterprise 
        Income Tax Law, enabling donations over 12 percent of 
        an enterprise's annual total profit to be carried over 
        and deducted from taxable income during the following 
        three years.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Urge the Chinese government to hasten the enactment 
        of legal provisions pertaining to civil society that 
        are consistent with China's Constitution as well as 
        China's international obligations. Urge China to ratify 
        the International Covenant on Civil and Political 
        Rights (ICCPR). Urge the Chinese government to revise 
        or repeal the PRC Law on the Management of Overseas 
        NGOs' Activities and revise the PRC Charity Law to 
        reflect the principles of the ICCPR, especially the 
        rights to freedom of association, assembly, and 
        expression.
          Call on the Chinese government to cease harassment of 
        civil society advocates and NGOs and provide adequate 
        procedural due process for those undergoing criminal 
        trials.
          Integrate civil society issues into bilateral 
        discussions and agreements with Chinese officials to 
        promote reciprocity in the approach and implementation 
        of civil society exchanges between the United States 
        and China.
          Continue to fund, monitor, and evaluate foreign 
        assistance programs in China that support democracy 
        promotion, rule of law, and human rights advocacy.
          Take measures to facilitate the participation of 
        Chinese civil society advocates in relevant 
        international conferences and forums, and support 
        international training to build their leadership 
        capacity in non-profit management, public policy 
        advocacy, and media relations.

                 Institutions of Democratic Governance


                                Findings

        <bullet> During the Commission's 2017 reporting year, 
        the Chinese Communist Party continued to play a leading 
        role in both state and society, restricting Chinese 
        citizens' ability to exercise civil and political 
        rights. Observers noted that the central role of the 
        Party in governing the state appears to have 
        strengthened since Chinese President and Party General 
        Secretary Xi Jinping came into power, further 
        ``blurring'' the lines between Party and government. In 
        March 2017, Wang Qishan, a member of the Standing 
        Committee of the Communist Party Central Committee 
        Political Bureau (Politburo) and the Secretary of the 
        Central Commission for Discipline Inspection (CCDI), 
        said that ``under the Party's leadership, there is only 
        a division of labor between the Party and the 
        government; there is no separation between the Party 
        and the government.''
        <bullet> The Commission observed a continued emphasis 
        on Xi Jinping's leading role in guiding decisionmaking. 
        Following the Sixth Plenum of the 18th Central 
        Committee of the Chinese Communist Party (Sixth Plenum) 
        in October 2016, the plenum communique named Xi the 
        ``core'' (hexin) of the Party. Some observers viewed 
        the Sixth Plenum as a ``victory for Xi'' over internal 
        political opposition. At the Sixth Plenum, the Party 
        also announced that the 19th National Congress of the 
        Chinese Communist Party (19th Party Congress) would 
        take place in Beijing municipality during the second 
        half of 2017.
        <bullet> This past year, Xi Jinping called for ``strict 
        governance'' of the Party. Regulations and guidelines 
        on intraparty supervision and behavioral standards 
        released after the Sixth Plenum stressed that cadres at 
        all levels must comply, especially those who hold 
        leadership positions. The CCDI continued punishing 
        high- and low-level Party officials for misconduct, 
        targeting officials in the government, military, and 
        state security apparatus. In July 2017, CCDI 
        authorities placed Sun Zhengcai, Party Secretary of 
        Chongqing municipality and a Politburo member, under 
        investigation for discipline violations--a move some 
        international observers called a political decision by 
        Xi to consolidate power ahead of the 19th Party 
        Congress. The CCDI also tightened supervision of its 
        anticorruption investigators and staff to ensure 
        stricter oversight of disciplinary enforcers.
        <bullet> The Party and Chinese government are 
        spearheading efforts to establish a new national 
        supervisory commission for enforcing anti-graft 
        measures, a move that may result in further blurring 
        and integration of Party and government functions. In 
        December 2016, the National People's Congress approved 
        a pilot project to set up supervisory commissions to 
        oversee government conduct in Beijing municipality and 
        Shanxi and Zhejiang provinces. In January 2017, the 
        CCDI announced plans to establish a new national 
        commission in order to integrate all government 
        officials who have authority to conduct Party 
        disciplinary inspection into one institution. The new 
        commission, designed to ``strengthen the Party's united 
        leadership over anticorruption work,'' will merge 
        anticorruption functions of the CCDI, Ministry of 
        Supervision, and Supreme People's Procuratorate.
        <bullet> Chinese authorities also continued to harass, 
        detain, and imprison democracy advocates who exercised 
        their rights to freedom of speech, assembly, and 
        demonstration. Some representative cases of advocates 
        whom authorities targeted this past year included Chen 
        Zongyao, Chen Zhixiao, Zhao Suli, Liu Feiyue, Huang Qi, 
        and Zi Su. Authorities detained and, in some cases, 
        sentenced individuals in connection with their 
        commemoration of the violent suppression of the 1989 
        Tiananmen protests. Such individuals included Shi 
        Tingfu, Li Xiaoling, and Ding Yajun. Authorities 
        continued to prosecute Fu Hailu, Chen Bing, Luo Fuyu, 
        and Zhang Juanyong, detained in 2016 in connection with 
        satirically labeled liquor bottles commemorating the 
        Tiananmen protests.
        <bullet> This past year, central Party authorities did 
        not take any substantial steps toward political 
        liberalization. Sources highlighted multiple instances 
        in which officials interfered with or inhibited 
        meaningful public participation in local elections, 
        demonstrating that China's political institutions do 
        not meet the standards for ``genuine'' elections 
        outlined in the Universal Declaration of Human Rights 
        and International Covenant on Civil and Political 
        Rights.
        <bullet> Public security authorities and riot police 
        cracked down on protests that arose after authorities 
        detained Lin Zulian, chief of Wukan village, Donghai 
        subdistrict, Lufeng city, Shanwei municipality, 
        Guangdong province, in June 2016. International media 
        outlets reported that, around September 13, 2016, 
        security forces used tear gas and rubber bullets 
        against protesters, a move that resulted in serious 
        injuries to villagers. Police forces interrogated and 
        expelled foreign reporters from the village, blocked 
        access to the village, and detained villagers. In 
        December 2016, the Haifeng County People's Court tried 
        and convicted nine Wukan residents for their 
        participation in the protest and gave them prison 
        sentences ranging from 2 years to 10 years and 6 
        months.
        <bullet> The Chinese government continued to work 
        toward increasing citizens' access to information. In 
        June 2017, the State Council released draft revisions 
        to the 2008 Open Government Information (OGI) 
        Regulations and solicited public comments. The draft 
        revisions clarified the scope of OGI and defined the 
        types of information not subject to OGI. Areas not 
        subject to OGI requirements include local-level 
        information that ``endangers public safety or social 
        stability'' or that involves ethnicity or religion. 
        Despite moves in this past year to update the OGI 
        regulatory framework, Chinese authorities continued to 
        deny OGI requests in cases related to human rights 
        defenders.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support U.S. research programs that document and 
        analyze the governing institutions and ideological 
        campaigns of the Chinese Communist Party, as well as 
        its influence over companies, government agencies, 
        legislative and judicial bodies, and non-governmental 
        organizations (NGOs).
          Employ a ``whole-of-government'' approach to 
        encourage Chinese authorities to ratify the 
        International Covenant on Civil and Political Rights 
        and release individuals detained or imprisoned for 
        exercising their rights to freedom of speech, 
        association, and assembly. These individuals include 
        those mentioned in this report and in the Commission's 
        Political Prisoner Database, such as Chen Xi, Chen Wei, 
        and Zhu Yufu.
          Support joint U.S.-China cooperative programs to 
        develop independent village committee and people's 
        congress election monitoring systems. Encourage central 
        and local Party and government leaders to implement 
        free and fair elections across China. Continue to fund, 
        monitor, and evaluate the effectiveness of democracy 
        promotion and rule of law programs in China.
          Support organizations working in China that seek to 
        work with local governments and NGOs to improve 
        transparency, especially with regard to efforts to 
        expand and improve China's open government information 
        initiatives. Urge Party officials to further increase 
        the transparency of Party affairs.
          Call on the Chinese government to improve procedures 
        through which citizens may hold their officials 
        accountable outside of the internal Party-led 
        anticorruption campaign. Urge Party and government 
        officials to establish and improve public participation 
        in government affairs. Encourage top-level officials to 
        reform governing institutions to promote an authentic 
        multi-party system with protections for freedom of 
        speech, association, and assembly.

                         Commercial Rule of Law


                                Findings

        <bullet> December 11, 2016, marked 15 years since China 
        acceded to the World Trade Organization (WTO). The 
        Chinese government and Party, however, continued to 
        fail to comply with key WTO commitments, including 
        commitments to ensure equal treatment for foreign 
        enterprises; to practice a market economy; and to 
        enforce the rule of law with impartiality, 
        transparency, and uniformity. Instead, the Chinese 
        government continued to promote preferential treatment 
        for domestic industry and compel technology transfer, 
        creating an uneven playing field and altering market 
        prices both domestically and globally.
        <bullet> The Chinese government provided significant 
        financial and political support to outbound investment 
        this past year. This raised several concerns over 
        issues including the lack of transparency about the 
        Chinese government's involvement in commercial 
        dealings, the creation of an uneven playing field for 
        foreign companies, and the distortion of market prices 
        both domestically and globally. The Chinese 
        government's preferential treatment of state-owned 
        enterprises (SOEs) in outbound investment may also 
        increase the influence of SOEs on foreign markets. Such 
        influence may further increase with implementation of 
        the Chinese government's plan for SOEs to play a major 
        role in its Belt and Road Initiative.
        <bullet> The government's strict control over the 
        Internet continued to serve as an indirect form of 
        preferential treatment for domestic enterprises by 
        obstructing consumers' access to global websites. In 
        March 2017, the Office of the U.S. Trade Representative 
        (USTR) identified Internet censorship in China as a 
        barrier to trade for a second year, noting that Chinese 
        authorities blocked ``11 of the top 25 global sites.''
        <bullet> Chinese authorities continued to provide 
        ineffective protection for intellectual property. In 
        April 2017, USTR again placed China on its 301 priority 
        watch list. In December 2016, USTR identified Taobao, a 
        subsidiary of the Alibaba Group and the largest online 
        shopping website in China, as a ``notorious market'' 
        due to ``the large volume of allegedly counterfeit and 
        pirated goods.''
        <bullet> Several cases involving the arbitrary 
        detention and investigation of Chinese and American 
        businesspeople this past year highlighted ongoing rule 
        of law and due process concerns. On April 29, 2017, 
        Chinese authorities deported American businesswoman 
        Sandy Phan-Gillis to the United States after judicial 
        authorities sentenced her to three years and six 
        months' imprisonment on the charge of espionage. 
        Authorities detained Phan-Gillis in March 2015, and in 
        June 2016, the UN Working Group on Arbitrary Detention 
        found that she had been arbitrarily detained. Phan-
        Gillis was reportedly tortured in prison, and she was 
        not able to meet with a lawyer for over a year. The 
        cases of three prominent executives of Chinese firms, 
        Xiao Jianhua, Guo Wengui, and Wu Xiaohui, highlighted 
        the risks that businesspeople face when suspected of 
        corruption or when dealing closely with corrupt 
        officials.
        <bullet> Food and drug safety in China remained a 
        concern for Chinese and international consumers and the 
        American business community operating in China. Their 
        concerns were exacerbated by regulatory uncertainty and 
        nontransparent enforcement. Reports in January 2017 of 
        counterfeit soy sauce made with industrial salt and 
        unsafe tap water raised particular concerns for 
        consumers around the world.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Ensure that China complies with its existing World 
        Trade Organization (WTO) commitments before resuming 
        negotiations for a Bilateral Investment Treaty (BIT) 
        with China. A BIT with China should be based on 
        reciprocity, and allow for American investment in the 
        media, entertainment, Internet, and other sectors. The 
        BIT should also strengthen human rights and rule of law 
        protections.
          The U.S. Department of State should consider issuing 
        a travel warning for China to warn Americans 
        considering travel to China of the risk of arbitrary 
        detention and torture by Chinese authorities, and the 
        risk that a detained American may not be allowed to 
        meet with a lawyer or discuss their case with U.S. 
        consular officials. The U.S. Department of State should 
        also consider revisions to the U.S.-China Consular 
        Convention to ensure that Chinese authorities are 
        required to detail the specific charges on which 
        Americans are detained, and that Americans detained in 
        China are allowed to discuss the details of their case 
        with U.S. consular officials and to meet with a lawyer.
          The Office of the U.S. Trade Representative should, 
        under WTO rules, request detailed information from the 
        Chinese government on Internet restrictions that result 
        in the blocking of the websites of U.S. companies. If 
        warranted, a WTO dispute should be considered. In 
        meetings with Chinese officials, urge the Chinese 
        government to stop blocking Internet users' access to 
        U.S. media and technology companies in China.
          Encourage U.S. companies that receive censorship 
        requests from Chinese authorities to comply with the UN 
        Guiding Principles on Business and Human Rights and the 
        Global Network Initiative's Principles on Freedom of 
        Expression.
          In meetings with Chinese officials, urge the Chinese 
        government to improve the transparency of its foreign 
        exchange controls and to move toward a market-based 
        exchange rate.
          In meetings, urge Chinese government and Party 
        officials to increase the transparency of the 
        anticorruption campaign. Specifically raise concerns 
        regarding the reported abduction and detention of 
        Canadian citizen Xiao Jianhua from Hong Kong.

                           Access to Justice


                                Findings

        <bullet> The Chinese Communist Party's control over the 
        judiciary became more prominent this past year when the 
        Supreme People's Court (SPC) president urged high court 
        presidents from across China to reject Western 
        principles, including ``constitutional democracy, 
        separation of powers, and judicial independence.'' The 
        SPC president also noted the convictions of rights 
        lawyer Zhou Shifeng and other rights advocates as a key 
        achievement of the court system in 2016; international 
        human rights observers, however, said these convictions 
        were politically motivated.
        <bullet> With respect to developing a trial-centered 
        litigation system, a goal that the Party set forth in 
        October 2014, Chinese authorities issued an opinion 
        emphasizing the importance of in-court testimony and 
        developed evidentiary criteria for certain common 
        crimes in some localities.
        <bullet> This past year, the Chinese government 
        promulgated rules in an attempt to improve the legal 
        aid system, which continued to face problems such as a 
        shortage of legal aid workers, lack of technical 
        knowledge in non-lawyer staff, and insufficient 
        reimbursement for legal-aid related expenses.
        <bullet> In October 2016, the general offices of the 
        Chinese government and Communist Party issued a set of 
        measures that provides for sanctions on officials who 
        mistreat individuals who petition the government for a 
        range of grievances. Despite these new measures, the 
        Commission continued to observe reports of official 
        violence against petitioners. Furthermore, authorities 
        reportedly targeted groups that supported petitioners--
        in November and December 2016, authorities detained and 
        then arrested Liu Feiyue and Huang Qi, founders of two 
        websites that report on human rights issues, including 
        officials' mistreatment of petitioners.
        <bullet> During this reporting year, the Chinese 
        government continued to detain and prosecute the rights 
        lawyers and advocates targeted during a nationwide, 
        coordinated crackdown that began in and around July 
        2015. Authorities harassed family members of those 
        detained and used arbitrary means to prevent lawyers 
        associated with them from renewing their law licenses.
        <bullet> The Ministry of Justice amended two sets of 
        measures governing the licensing of lawyers and law 
        firms this past year in ways that may violate the Basic 
        Principles on the Role of Lawyers. The amendments added 
        language mandating lawyers to support the Party's 
        leadership and imposing restrictions on lawyers' 
        ability to make independent professional judgments and 
        on their rights to freedom of speech and peaceful 
        assembly.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Encourage leaders of the Chinese Communist Party and 
        government to respect the independence of the judiciary 
        and to eliminate all forms of political influence on 
        it.
          Encourage Chinese legislators and judicial officials 
        to implement an effective supervisory mechanism that 
        ensures courts at all levels accept cases filed by all 
        individuals, including petitioners and advocates, in a 
        non-discriminatory manner.
          Encourage the Chinese government to take substantive 
        action to implement the trial-centered litigation 
        system that is designed to ensure the legality of 
        evidence obtained during the pretrial process.
          Increase support for programs that promote dialogue 
        between U.S. and Chinese legal experts regarding how 
        China can structure and implement legal reforms. 
        Concomitantly increase support for collaboration 
        between U.S. and Chinese academic and non-governmental 
        entities to foster programs that enhance the Chinese 
        legal system's capacity for protecting citizens' 
        rights.
          Urge the Chinese government to stop all forms of 
        persecution or prosecution of petitioners who use the 
        petitioning system to seek redress for their 
        grievances.
          Urge the Chinese government to unconditionally 
        exonerate and lift any restrictions of liberty or 
        eligibility to practice law on the rights lawyers and 
        advocates detained in the crackdown that began in and 
        around July 2015, including Wang Yu, Bao Longjun, Zhou 
        Shifeng, Wang Quanzhang, Li Heping, Li Chunfu, Xie 
        Yang, Wu Gan, Hu Shigen, Gou Hongguo, Liu Xing, and 
        Zhang Wanhe. Raise concerns that the recent amendments 
        to measures regulating lawyers and law firm licensing 
        violate international standards concerning lawyers' 
        rights to free speech, peaceful assembly, and 
        independent exercise of professional judgment.
          Urge the Chinese government to protect the 
        fundamental civil and professional rights of China's 
        lawyers, to investigate all allegations of abuse 
        against them, and to ensure that those responsible are 
        brought to justice. Urge the Chinese government to end 
        all forms of harassment or persecution against the 
        family members of human rights lawyers and advocates 
        affected by the July 2015 crackdown, including 
        surveillance, restrictions on domestic and 
        international travel, and preventing school attendance.

                                Xinjiang


                                Findings

        <bullet> During the Commission's 2017 reporting year, 
        central and regional government authorities introduced 
        new security measures and expanded implementation of 
        existing security controls targeting Uyghur communities 
        and individuals in the Xinjiang Uyghur Autonomous 
        Region (XUAR). According to official statistics, XUAR 
        authorities spent 30.05 billion yuan (approximately 
        US$4.43 billion) on public security in 2016, nearly 20 
        percent more than the previous year. After Chen Quanguo 
        became XUAR Communist Party Secretary in August 2016, 
        replacing Zhang Chunxian, regional authorities 
        implemented a number of new security measures. These 
        included, but were not limited to, the installation of 
        ``convenience police stations'' throughout the region, 
        with 949 in the regional capital of Urumqi alone; the 
        convening of mass anti-terrorism rallies; the 
        recruitment of tens of thousands of security personnel 
        from both within and outside of the XUAR; the 
        implementation of a ``double-linked household'' 
        (shuanglian hu) system; and the mandatory installation 
        of satellite-tracking devices on vehicles in one 
        prefecture in the XUAR.
        <bullet> On March 29, 2017, the XUAR People's Congress 
        adopted the region's first anti-extremism regulations. 
        The regulations categorize 15 actions as ``extremism,'' 
        and according to a Chinese legal scholar, ``[draw] a 
        clear line between legal religion and illegal 
        religion.'' In July 2016, the XUAR People's Congress 
        adopted regional measures to implement the PRC 
        Counterterrorism Law, which also dealt with how to 
        punish religious extremists. The 2017 anti-extremism 
        regulations, however, provide more detailed 
        descriptions of the responsibilities of government 
        authorities to eliminate ``extremism.''
        <bullet> As in past reporting years, XUAR officials 
        continued to restrict Uyghurs' ability to travel 
        freely, in violation of Chinese law and international 
        legal standards. Beginning in October 2016, authorities 
        in locations throughout the XUAR reportedly ordered 
        residents to turn their passports in to police, with 
        varying deadlines of up to four months. Authorities 
        subsequently required residents to seek approval from 
        police for international travel in order to retrieve 
        their passports.
        <bullet> Beginning in late January 2017, Chinese 
        authorities reportedly ordered some Uyghurs studying 
        abroad in countries including Egypt, Turkey, France, 
        Australia, and the United States to return to the XUAR. 
        XUAR authorities detained or threatened to detain 
        relatives of some students to compel them to return, 
        and reportedly detained some returnees and forced some 
        to undergo ``political reeducation.''
        <bullet> During this reporting year, central and 
        regional government and Party officials continued to 
        promote the XUAR as an important center for Belt and 
        Road (also known as One Belt, One Road) Initiative 
        development projects. A U.S.-based Uyghur rights 
        organization criticized the economic inequality 
        exacerbated by official development projects, as well 
        as the enhanced securitization officials employed to 
        accompany such projects.
        <bullet> Central and regional officials also placed 
        restrictions on communication tools, issued regulations 
        limiting the spread of ``false'' and ``harmful'' 
        information, and constrained the ability of foreign 
        journalists to report from the XUAR. In one example of 
        authorities restricting XUAR residents' access to 
        communication tools, authorities issued regulations, 
        effective October 1, 2016, requiring individuals in the 
        region to register with their real names before being 
        permitted to access the Internet, including on their 
        mobile phones.
        <bullet> XUAR government authorities expanded Mandarin-
        focused ``bilingual education'' in the region, a policy 
        that contravenes international law and that a Uyghur 
        rights advocacy organization criticized for its 
        emphasis on Mandarin-language education at the expense 
        of other languages as well as for the loss of Uyghur 
        educators' jobs. Under ``bilingual education,'' class 
        instruction takes place primarily in Mandarin Chinese, 
        largely replacing instruction in languages spoken by 
        ethnic minority groups. In June 2017, education 
        officials in Hotan prefecture, XUAR, banned the use of 
        the Uyghur language in schools through the secondary 
        school level, ``in order to strengthen elementary and 
        middle/high school bilingual education.'' The ban 
        includes a prohibition on Uyghur-language signage on 
        school grounds, as well as the use of Uyghur in 
        schools' public activities and educational management 
        work. In March 2017, state media announced that 
        authorities would strengthen preschool ``bilingual 
        education'' in the XUAR by building or expanding a 
        total of 4,387 ``bilingual kindergartens'' and hiring 
        10,000 ``bilingual teachers'' in 2017.
        <bullet> According to research conducted by Human 
        Rights Watch and reporting by the journal Nature, 
        security personnel have been collecting DNA samples 
        from Uyghurs in the XUAR and from other people 
        throughout China on a massive scale, in many cases 
        without consent. International observers raised the 
        concern that officials may misuse the collected 
        biometric data to heighten security controls on the 
        Uyghur population, as officials build a database of 
        citizens' biometric information not limited to those 
        with a criminal background, as in other countries, and 
        lacking the kinds of legal safeguards other countries 
        implement to manage their DNA databases.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Support efforts to raise greater public awareness of 
        human rights conditions in the XUAR, support 
        initiatives to protect Uyghur culture, increase avenues 
        for Uyghurs to protect their human rights, and 
        undertake more frequent human rights-
        focused visits to the XUAR.
          Call on the Chinese government to implement policies 
        in the XUAR that promote both security and human 
        rights, and that hold regional and local officials 
        accountable for human rights violations carried out in 
        the name of security. Urge Chinese officials to 
        establish mechanisms ensuring that officials uphold the 
        rule of law when implementing security procedures and 
        refrain from arbitrary detention or surveillance of 
        citizens. In addition, urge Chinese officials to 
        include human rights safeguards in laws and regulations 
        related to counterterrorism efforts, in consultation 
        with international human rights experts, and to avoid 
        broadly worded, ambiguous definitions of terrorism and 
        terrorism-related offenses.
          Call on the Chinese government to allow diplomats, 
        domestic and international journalists, and observers 
        greater freedom to report on XUAR-related issues, and 
        to allow domestic and international journalists to 
        freely express their views on government policy in the 
        XUAR, as provided for under Chinese and international 
        law.
          Call on the Chinese government to adhere to domestic 
        laws and regulations guaranteeing freedom of religious 
        belief as well as international standards guaranteeing 
        religious practice free from state restrictions.
          Urge Chinese officials to respect the rights of 
        Uyghurs and all Chinese citizens to travel freely 
        outside of China, in accordance with Article 12 of the 
        International Covenant on Civil and Political Rights, 
        which China has signed and committed to ratify. Urge 
        Chinese authorities to return passports and other 
        legally obtained travel documents to XUAR residents.
          Call on the Chinese government to consult with non-
        Han Chinese parents, teachers, and students regarding 
        which language or languages of instruction should be 
        used in XUAR schools, from the preschool to the 
        university level. Call on Chinese officials to provide 
        parents and students a choice of instruction in the 
        Uyghur language and other non-Chinese languages 
        prevalent in the XUAR, as mandated in Article 4 of 
        China's Constitution and Article 10 of the PRC Regional 
        Ethnic Autonomy Law.
          Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to 
        promote equal opportunity employment for ethnic 
        minorities and to support development projects that 
        incorporate consultation with ethnic minorities 
        regarding the economic, political, and social impact of 
        such projects. Encourage U.S. companies investing in 
        XUAR business opportunities to actively recruit ethnic 
        minority candidates for employment positions, implement 
        mechanisms to eliminate hiring and workplace 
        discrimination, and urge Chinese counterparts to 
        provide equal opportunity employment to ethnic 
        minorities.
          Encourage U.S. companies conducting business or 
        investing in development initiatives in the XUAR to use 
        environmentally friendly business practices in their 
        operations and business strategies, and to promote 
        environmental preservation efforts in the region.
          Call on the Chinese government to cease its mass 
        collection of DNA samples from Uyghurs in the XUAR, and 
        end efforts to build a database of Chinese citizens' 
        biometric information, until it enacts and implements 
        privacy protections, mechanisms to ensure informed 
        consent, and legal safeguards for DNA database 
        management, in order to prevent official misuse of 
        collected biometric data. Privacy protections should 
        meet the standards contained in the International 
        Covenant on Civil and Political Rights, which China has 
        signed but not ratified. Chinese officials should also 
        implement transparent regulations governing the 
        storage, sharing, and usage of biometric information, 
        and establish legal procedures citizens can use to 
        effectively challenge the collection of such 
        information.

                                 Tibet


                                Findings

        <bullet> There has been no formal dialogue between the 
        Dalai Lama's representatives and Chinese Communist 
        Party and government officials since the ninth round of 
        dialogue was held in January 2010. In February 2017, 
        Zhu Weiqun, Chairman of the Ethnic and Religious 
        Affairs Committee of the Chinese People's Political 
        Consultative Conference and former senior Party 
        official, said that the Chinese government would not 
        engage in dialogue with what he referred to as an 
        ``illegal group'' whose aim is to split China.
        <bullet> The Party and government continued 
        implementing repressive policies in Tibetan autonomous 
        areas through the use of extensive and intrusive 
        surveillance, strict regulations and rules to restrict 
        Tibetans' fundamental rights, and pervasive displays of 
        police and military force. New high-level appointments 
        in the Tibet Autonomous Region (TAR)--Wu Yingjie as the 
        new Party Secretary of the TAR, and Qizhala (Che Dalha) 
        as the new governor--both of whom have extensive 
        experience in the region, are unlikely to lead to any 
        changes in policy or methods of governance in the TAR.
        <bullet> The Chinese government restated its position 
        that only it has the right to decide the Dalai Lama's 
        successor. The current Dalai Lama reiterated his 
        position on his reincarnation, and underscored that it 
        is not a matter for the Chinese government or Party to 
        decide, but rather a matter reserved for himself, 
        Tibetan Buddhist leaders, and the Tibetan people.
        <bullet> The Party and government continued to violate 
        the right of religious freedom of Tibetan Buddhist 
        monastics and laypersons through a system of pervasive 
        controls and restrictions on religious practice. The 
        expulsion of thousands of monks and nuns and 
        demolitions of homes at the famous Buddhist institutes 
        Larung Gar and Yachen Gar in Sichuan province were an 
        acute example during this reporting year of the Party's 
        crackdown on the right to religious freedom of Tibetan 
        Buddhists.
        <bullet> An estimated 7,000 Tibetan pilgrims from 
        Tibetan areas of China attempted to attend an important 
        religious teaching given by the Dalai Lama in Bodh 
        Gaya, India, in early January 2017. In November 2016, 
        Chinese officials confiscated passports, issued 
        threats, and ordered Tibetans who had already traveled 
        to India and Nepal to return to China, violating their 
        rights of religious freedom and movement.
        <bullet> Self-immolations by Tibetans reportedly 
        focusing on political and religious issues continued 
        during this reporting year. As of August 21, 2017, 
        there were 5 known self-immolations in Tibetan 
        autonomous areas of China, 4 of which were confirmed to 
        be fatal, bringing the total number of such self-
        immolations by Tibetans living in China to 144 since 
        2009, 127 of which were reportedly fatal. As in the 
        past, the self-immolators publicly called for the long 
        life of the Dalai Lama, his return from exile, and 
        freedom for Tibet.
        <bullet> Chinese authorities continued to detain and 
        imprison Tibetans for peacefully exercising their 
        rights to freedom of expression and opinion, including 
        advocacy for education in the Tibetan language. Tashi 
        Wangchug, an advocate for bilingual education in 
        Qinghai province, who has been detained since January 
        2016 following a November 2015 New York Times report 
        and video about his Tibetan language rights advocacy, 
        awaits trial for ``inciting separatism.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Encourage the Party and government to respect, as a 
        matter of the right of religious freedom, recognized 
        under Chinese and international law, that the decision 
        regarding the Dalai Lama's succession or reincarnation 
        must be reserved for the current Dalai Lama, Tibetan 
        Buddhist leaders, and the Tibetan people.
          Urge the Chinese government to recognize the role of 
        restrictive Party policies and government measures, and 
        the increasing securitization of Tibetan autonomous 
        areas of China, in Tibetan self-immolations and 
        protests. Urge the Chinese government to cease treating 
        the Dalai Lama as a security threat, and stress to the 
        government the importance of respecting and protecting 
        the Tibetan culture and language--policy changes that 
        would promote and protect social stability in Tibetan 
        areas.
          Encourage the Chinese government to respect the right 
        of Tibetans to travel domestically as well as 
        internationally, and to allow access to the Tibetan 
        autonomous areas of China to international journalists, 
        representatives of the United Nations and non-
        governmental organizations, and U.S. Government 
        officials.
          The Administration is urged to nominate, as soon as 
        practicable, an appropriate candidate to fill the 
        position of Under Secretary of State for Civilian 
        Security, Democracy, and Human Rights, who has 
        traditionally also simultaneously held the position of 
        Special Coordinator for Tibetan Issues, and the Senate 
        is urged to confirm forthwith.
          Urge the Chinese government to release Tibetan 
        language rights advocate Tashi Wangchug from detention, 
        withdraw the charges against him, and stress that 
        peacefully advocating for genuine bilingual education--
        a right recognized under Chinese and international 
        law--is not a crime.
          In interactions with Chinese officials, call for the 
        release of Tibetan political prisoners currently 
        detained or imprisoned for the peaceful exercise of 
        their human rights. The records of detained Tibetans in 
        the Commission's Political Prisoner Database--albeit an 
        incomplete picture of the extent of Tibetan detentions 
        and disappearances--provides a useful resource for such 
        interactions with Chinese officials. Urge the Chinese 
        government and its security forces to cease using 
        arbitrary detention, disappearance, beatings, torture, 
        and intimidation to suppress and punish Tibetans' 
        peaceful exercise of their rights.
          Urge the Chinese government to take fully into 
        account the views and preferences of Tibetans when 
        planning infrastructure, natural resource development, 
        settlement or resettlement projects, and tourist 
        attractions in the Tibetan areas of China.
          Continue to request that the Chinese government 
        invite an independent representative of an 
        international organization to meet with Gedun Choekyi 
        Nyima, the 11th Panchen Lama whom the Dalai Lama 
        recognized in 1995, and who has been held 
        incommunicado, along with his parents, since May 17, 
        1995.

                  Developments in Hong Kong and Macau


                                Findings

        <bullet> On March 26, 2017, Hong Kong's Election 
        Committee elected Carrie Lam Cheng Yuet-ngor as Hong 
        Kong's fourth Chief Executive. Observers reported that 
        during the nomination period and election campaign, 
        Chinese central government officials and 
        representatives pressured Election Committee members to 
        support Lam over other candidates. The Election 
        Committee's composition, and therefore the Chief 
        Executive election, is restricted to ensure support for 
        candidates approved by Chinese authorities, despite 
        provisions in Hong Kong's Basic Law guaranteeing 
        political autonomy and democratic development for Hong 
        Kong.
        <bullet> After pro-democracy candidates gained seats in 
        the September 2016 Legislative Council (LegCo) 
        elections, the Chinese central government and Hong Kong 
        government moved to disqualify and remove from office 
        opposition legislators who had altered their oaths of 
        office. On November 7, 2016, the National People's 
        Congress Standing Committee (NPCSC) issued an 
        interpretation of Hong Kong's Basic Law, holding that 
        oaths of office under Article 104 of the Basic Law are 
        legal commitments to both Hong Kong and China, and 
        prohibiting those whose oaths are determined to be 
        invalid from retaking the oath. Lawyers, legislators, 
        activists, and rights organizations strongly criticized 
        the NPCSC interpretation. The interpretation came while 
        a Hong Kong court was still considering the Hong Kong 
        government's case against two legislators-elect, Sixtus 
        ``Baggio'' Leung Chung-hang and Yau Wai-ching. The Hong 
        Kong judge hearing the case ruled in the government's 
        favor, finding that Leung and Yau ``declin[ed] to take 
        the LegCo Oath'' and disqualifying the two.
        <bullet> Following the NPCSC interpretation, the Hong 
        Kong government continued to pursue legal cases against 
        participants in the 2014 pro-democracy protests and 
        members of the political opposition. In July 2017, a 
        Hong Kong court ruled in the government's favor to 
        disqualify four additional legislators over their oaths 
        of office, and charged another with desecrating the 
        Chinese and Hong Kong flags in a protest inside the 
        LegCo chamber. Hong Kong police also charged nine 
        leaders of the 2014 pro-democracy protests, including 
        two sitting legislators, the day after the Chief 
        Executive election.
        <bullet> In August 2017, the Hong Kong government 
        successfully appealed to increase the sentences of 13 
        protesters as well as pro-democracy student leaders 
        Joshua Wong, Nathan Law, and Alex Chow. Some 
        international rights and domestic pro-democracy groups 
        asserted the prosecutions were politically motived, 
        which the Hong Kong government and two local legal 
        organizations have denied.
        <bullet> Hong Kong journalists reported continuing 
        fears over press freedom in Hong Kong, noting concerns 
        over self-censorship, government restrictions on 
        reporters, and the 2015 abductions and disappearances 
        of five Hong Kong booksellers by mainland Chinese 
        authorities. The Hong Kong government continued to 
        restrict the ability of online media to freely report, 
        including during the December 2016 Chief Executive 
        Election Committee subsector elections and the March 
        2017 Chief Executive election, drawing criticism from 
        international and Hong Kong rights organizations.
        <bullet> The Commission observed no progress in Macau 
        toward ``an electoral system based on universal and 
        equal suffrage . . .'' in line with provisions of the 
        International Covenant on Civil and Political Rights, 
        as repeatedly recommended by the UN Human Rights 
        Committee. In December 2016, Macau's Legislative 
        Assembly revised the legislative electoral law to 
        disqualify candidates or legislators who do not swear 
        loyalty to Macau's Basic Law or who are ``not loyal'' 
        to Macau. Critics of the revisions questioned the need 
        for such legal requirements and expressed concern that 
        the new law would threaten the right to free and fair 
        elections.
        <bullet> The Macau government continued to deny entry 
        to some pro-democracy politicians and activists from 
        Hong Kong. Macau authorities justified these denials by 
        asserting that the individuals barred from entering 
        Macau posed ``threats to Macau's internal stability and 
        security.'' One Macau pro-democracy activist suggested 
        that authorities wanted ``to prevent Hong Kong 
        activists from affecting the political atmosphere in 
        Macau.''

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

          Consider enacting the Hong Kong Human Rights and 
        Democracy Act (S. 417) to monitor the state of Hong 
        Kong's autonomy from mainland China and reaffirm U.S. 
        support for democratization in Hong Kong.
          Emphasize in meetings with Chinese and Hong Kong 
        officials that the continued erosion of Hong Kong's 
        autonomy under the ``one country, two systems'' 
        principle, and as guaranteed in the Sino-British Joint 
        Declaration and the Basic Law, threatens the 
        underpinnings of U.S. policy toward Hong Kong, 
        particularly Hong Kong's separate treatment under U.S. 
        law.
          Urge the Chinese and Hong Kong governments to restart 
        the electoral reform process and work toward 
        implementing Chief Executive and Legislative Council 
        elections by universal suffrage, in accordance with 
        Articles 45 and 68 of the Basic Law and Article 25 of 
        the International Covenant on Civil and Political 
        Rights (ICCPR).
          Call on the Chinese and Macau governments to set a 
        timeline for implementing elections in Macau for Chief 
        Executive and the Legislative Assembly by universal 
        suffrage, as required under Article 25 of the ICCPR and 
        repeatedly urged by the UN Human Rights Committee.

                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary

                      Political Prisoner Database


                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of Congress and Administration 
officials are encouraged to:

          Check the Political Prisoner Database (PPD) (http://
        ppdcecc.gov) for reliable, up-to-date information on a 
        prisoner or groups of prisoners. Consult a prisoner's 
        database record for more detailed information about the 
        prisoner's case, including his or her alleged crime, 
        specific human rights that officials have violated, 
        stage in the legal process, and location of detention 
        or imprisonment, if known.
          Advise official and private delegations traveling to 
        China to present Chinese officials with lists of 
        political and religious prisoners compiled from 
        database records.
          Urge U.S. state and local officials and private 
        citizens involved in sister-state and sister-city 
        relationships with China to explore the database, and 
        to advocate for the release of political and religious 
        prisoners in China.

                    A POWERFUL RESOURCE FOR ADVOCACY

    The Commission's 2017 Annual Report provides information 
about Chinese political and religious prisoners \5\ in the 
context of specific human rights and rule of law abuses. Many 
of the abuses result from the Chinese Communist Party's and 
government's application of policies and laws. The Commission 
relies on the Political Prisoner Database (PPD), a publicly 
available online database maintained by the Commission, for its 
own advocacy and research work, including the preparation of 
the Annual Report, and routinely uses the database to prepare 
summaries of information about political and religious 
prisoners for Members of Congress and Administration officials. 
The Commission invites the public to read about issue-specific 
Chinese political imprisonment in sections of this Annual 
Report, and to access and make use of the PPD at http://
ppdcecc.gov. (Information about the PPD is available at http://
www.cecc.gov/resources/political-prisoner-database.)
    The PPD received approximately 393,000 online requests for 
prisoner information during the 12-month period ending July 31, 
2017--an increase of approximately 282 percent over the 139,300 
requests reported in the Commission's 2016 Annual Report for 
the 12-month period ending July 31, 2016.\6\ During the 12-
month period ending in July 2017, the United States remained 
the country of origin for the largest share of requests for 
information, with approximately 50.4 percent of such requests. 
During the Commission's 2017 reporting year, France was in the 
second position, with approximately 2.7 percent of such 
requests, followed by India (2.4 percent), China (2.3 percent), 
Ukraine (2.1 percent), Brazil (2.1 percent), Japan (1.9 
percent), the United Kingdom (1.8 percent), Taiwan (1.7 
percent), and Romania (1.7 percent).
    Internet Protocol addresses that do not provide information 
about the name of the registrant or the type of domain were the 
source of the largest share of online requests for information 
during the Commission's 2017 reporting year, accounting for 
approximately 44.9 percent of the 393,000 requests for 
information in the 12-month period ending in July 2017. The 
approximate number of requests from other sources are as 
follows: Domains ending in .net were second, with 23.2 percent 
of requests for PPD information. Domains ending in .com were 
third, with 7.5 percent of online requests for information, 
followed by U.S. Government (.gov) domains with 4.6 percent, 
then by domains for Brazil (.br) with 1.9 percent, for the 
European Union (.eu) with 1.4 percent, for Italy (.it), for 
Germany (.de), and for Japan (.jp) with 1.1 percent each, and 
for India (.in) with 1.0 percent. Educational (.edu) domains 
accounted for 0.2 percent of requests for information, and 
domains ending in .org for less than 0.1 percent of requests. 
Domains for China (.cn) accounted for 0.1 percent of such 
requests.

                          POLITICAL PRISONERS

    The PPD seeks to provide users with prisoner information 
that is reliable and up-to-date. Commission staff members work 
to maintain and update political prisoner records based on the 
staff member's area of expertise. The staff seek to provide 
objective analysis of information about individual prisoners, 
and about events and trends that drive political and religious 
imprisonment in China.
    As of August 1, 2017, the PPD contained information on 
8,850 cases of political or religious imprisonment in China. Of 
those, 1,422 are cases of political and religious prisoners 
currently known or believed to be detained or imprisoned, and 
7,428 are cases of prisoners who are known or believed to have 
been released, who were executed, who died while imprisoned or 
soon after release, or who escaped. The Commission notes that 
there are considerably more than 1,422 cases of current 
political and religious imprisonment in China. The Commission 
staff work on an ongoing basis to add cases of political and 
religious imprisonment to the PPD.
    The Dui Hua Foundation, based in San Francisco, and the 
former Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database. The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by non-
governmental organizations (NGOs), other groups that specialize 
in promoting human rights and opposing political and religious 
imprisonment, and other public sources of information.

                   MORE POWERFUL DATABASE TECHNOLOGY

    The PPD has served since its launch in November 2004 as a 
unique and powerful resource for the U.S. Congress and 
Administration, other governments, NGOs, educational 
institutions, and individuals who research political and 
religious imprisonment in China, or who advocate on behalf of 
such prisoners. The July 2010 PPD upgrade significantly 
leveraged the capacity of the Commission's information and 
technology resources to support such research, reporting, and 
advocacy.
    In 2015, the Commission enhanced the functionality to the 
PPD to empower the Commission, the U.S. Congress and 
Administration, other governments, NGOs, and individuals to 
strengthen reporting on political and religious imprisonment in 
China and advocacy undertaken on behalf of Chinese political 
prisoners.

        <bullet> The PPD full text search and the basic search 
        both provide an option to return only records that 
        either include or do not include an image of the 
        prisoner.
        <bullet> PPD record short summaries accommodate more 
        text as well as greater capacity to link to external 
        websites.

    The PPD aims to provide a technology with sufficient power 
to handle the scope and complexity of political imprisonment in 
China. The most important feature of the PPD is that it is 
structured as a genuine database and uses a powerful query 
engine. Each prisoner's record describes the type of human 
rights violation by Chinese authorities that led to his or her 
detention. These types include violations of the right to 
peaceful assembly, freedom of religion, freedom of association, 
and freedom of expression, including the freedom to advocate 
peaceful social or political change and to criticize government 
policy or government officials.
    The design of the PPD allows anyone with access to the 
Internet to query the database and download prisoner data 
without providing personal information to the Commission, and 
without the PPD downloading any software or Web cookies to a 
user's computer. Users have the option to create a user 
account, which allows them to save, edit, and reuse queries, 
but the PPD does not require a user to provide any personal 
information to set up such an account. The PPD does not 
download software or a Web cookie to a user's computer as the 
result of setting up such an account. Saved queries are not 
stored on a user's computer. A user-specified ID (which can be 
a nickname) and password are the only information required to 
set up a user account.
                                                     Executive 
                                                        Summary
                                                Executive 
                                                Summary
    Notes to Section I--Executive Summary

    \1\ Tom Phillips, ``China's `War on Law': Victims' Wives Tell US 
Congress of Torture and Trauma,'' Guardian, 18 May 17.
    \2\ ``Chinese Rights Lawyer `Released' After Guilty Plea During 
Subversion Trial,'' Radio Free Asia, 8 May 17.
    \3\ Kelvin Chan, ``Young Leaders of Massive 2014 Hong Kong Protests 
Get Prison,'' Associated Press, 17 August 17.
    \4\ Congressional-Executive Commission on China, ``Hearing on `Will 
the Hong Kong Model Survive? An Assessment 20 Years After the Handover' 
'' [Video file], YouTube, 3 May 17, 1 hr. 48 min. 47 sec.

    Notes to Section I--Political Prisoner Database

    \5\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's Constitution and law, or by international law, or both. Chinese 
security, prosecution, and judicial officials sometimes seek to 
distract attention from the political or religious nature of 
imprisonment by convicting a de facto political or religious prisoner 
under the pretext of having committed a generic crime. In such cases, 
defendants typically deny guilt but officials may attempt to coerce 
confessions using torture and other forms of abuse, and standards of 
evidence are poor. If authorities permit a defendant to entrust someone 
to provide him or her legal counsel and defense, as the PRC Criminal 
Procedure Law guarantees in Article 32, officials may deny the counsel 
adequate access to the defendant, restrict or deny the counsel's access 
to evidence, and not provide the counsel adequate time to prepare a 
defense.
    \6\ CECC, 2016 Annual Report, 6 October 16, 56.

                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression

                            II. Human Rights


                         Freedom of Expression


------------------------------------------------------------------------
                     Liu Xiaobo's Death in July 2017
-------------------------------------------------------------------------
  Imprisoned writer Liu Xiaobo--an advocate of democracy and non-violent
 political reform and China's only Nobel Peace Prize laureate \1\--died
 of liver cancer on July 13, 2017, in Shenyang municipality, Liaoning
 province, on medical parole.\2\ In the nine years prior to his death,
 he spent one year in pretrial detention and nearly eight years in
 prison on the charge of ``inciting subversion of state power'' for his
 coauthorship of the political treatise Charter 08 and several essays
 critical of the Chinese Communist Party and government.\3\ Granted
 medical parole on June 26, 2017,\4\ Liu remained under official
 surveillance at a hospital in Shenyang, serving his 11-year prison
 sentence,\5\ until his death.\6\ Liu's political activism dated back to
 the 1989 Tiananmen protests,\7\ for which Chinese authorities
 imprisoned him for 21 months; Liu subsequently served 3 years of
 reeducation through labor from 1996 through 1999 for criticizing
 government policies.\8\ Before his final detention in December 2008,
 Liu was a prolific essayist and poet \9\ and active within Chinese
 democracy and writers' advocacy communities.\10\
  International media outlets,\11\ human rights organizations and
 proponents,\12\ representatives of foreign governments,\13\ and the UN
 human rights commissioner,\14\ among others,\15\ expressed concern and
 censure regarding the Chinese government's treatment of Liu Xiaobo and
 his wife, the poet and artist Liu Xia. Condemnation focused on Chinese
 authorities' denial of Liu's request to receive medical treatment
 outside China \16\ and restrictions on access in the hospital for Liu's
 family.\17\ In the hospital, Liu reportedly wrote the forward to an
 unpublished collection of Liu Xia's photography,\18\ but it is unknown
 if he was able to speak openly about his conditions and medical
 treatment in prison, his political and familial concerns, his wishes
 with regard to his burial, or any other matters while under official
 surveillance.\19\ The government and Party continued to isolate Liu Xia
 in extralegal confinement after her husband's death, a condition that
 Chinese authorities imposed on her starting in October 2010 when the
 Norwegian Nobel Committee announced that it would award the 2010 Nobel
 Peace Prize to Liu Xiaobo,\20\ despite ongoing calls for her
 release.\21\
  Observers commented on the combination of propaganda and control in
 the limited Chinese media coverage of Liu's illness and death.\22\ The
 Party-run English-language media outlet Global Times,\23\ together with
 other government and Party actors, engaged in an ``all-out government
 propaganda effort to counter domestic and international criticism,''
 according to Radio Free Asia.\24\ An academic group in Canada that
 studies censorship reported Chinese censors deleted text and images
 about Liu Xiaobo sent via the instant messaging tool WeChat before
 content reached intended recipients.\25\ Individuals who sought to
 commemorate Liu's death in China faced government harassment,\26\
 including at least nine detained by authorities in Guangdong, Fujian,
 and Liaoning provinces.\27\
------------------------------------------------------------------------

            International Standards on Freedom of Expression

    The Chinese government and Communist Party continued to 
restrict expression in contravention of international human 
rights standards, including Article 19 of the International 
Covenant on Civil and Political Rights (ICCPR) and Article 19 
of the Universal Declaration of Human Rights.\28\ According to 
the ICCPR--which China signed \29\ but has not ratified \30\--
and as reiterated by the UN Special Rapporteur on the promotion 
and protection of the right to freedom of opinion and 
expression, countries may impose certain restrictions or 
limitations on freedom of expression, if such restrictions are 
provided by law and are necessary for the purpose of respecting 
the ``rights or reputations of others'' or protecting national 
security, public order, public health, or morals.\31\ An 
October 2009 UN Human Rights Council resolution declares 
restrictions on the ``discussion of government policies and 
political debate,'' ``peaceful demonstrations or political 
activities, including for peace or democracy,'' and 
``expression of opinion and dissent'' are inconsistent with 
Article 19(3) of the ICCPR.\32\ The UN Human Rights Committee 
noted in a 2011 General Comment that restrictions on freedom of 
expression specified in Article 19(3) should be interpreted 
narrowly and that the restrictions ``may not put in jeopardy 
the right itself.'' \33\

                          Freedom of the Press

    International non-governmental organization Reporters 
Without Borders again ranked China among the five worst 
countries for press freedom in its annual Press Freedom 
Index.\34\ The Chinese government continued to be one of the 
worst jailers of professional and citizen journalists, with 
estimates of individuals in detention or imprisoned ranging 
from 38 \35\ to approximately 100.\36\

                  POLITICAL CONTROL OF THE NEWS MEDIA

    The government and Party continued to prioritize control of 
the press and media outlets for ``maintaining social and 
political stability, and in advancing [the Party's] policy 
goals.'' \37\ Party General Secretary Xi Jinping and state 
media continued to stress the ``principle of Party character'' 
(dangxing yuanze) in the media,\38\ echoing Xi's highly 
publicized statement in February 2016 that the news media 
``must be surnamed Party'' (bixu xing dang).\39\ At a November 
2016 meeting with the All-China Journalists Association (ACJA), 
Xi urged media workers to ``embody the principle of Party 
character,'' and ``be reliable for the Party and the people.'' 
\40\ The ACJA expounded on Xi's November speech in the Party's 
theoretical journal Seeking Truth,\41\ describing the function 
of ``supervision by public opinion'' (yulun jiandu)--an 
official phrase debuted in 1987 to give the media some scope to 
hold officials accountable in the public interest \42\--as a 
form of positive, mainstream propaganda to pacify the 
public.\43\ In a Xinhua report of the ACJA meeting, a senior 
China Central Television executive declared positive news 
reporting and ``supervision by public opinion'' are not 
contrary to each other.\44\ Moreover, the government has 
encouraged, and in some cases paid, social media users to post 
positive comments about the government and Party to influence 
public opinion.\45\ U.S.-based researchers have estimated these 
types of social media comments to number around 448 million per 
year.\46\
    International experts have cautioned that media serving 
``as government mouthpieces instead of as independent bodies 
operating in the public interest'' are a major challenge to 
free expression.\47\ In the case of the government and Party's 
ongoing crackdown on human rights lawyers and advocates that 
began in and around July 2015, official print and television 
media outlets broadcasted forced confessions of human rights 
lawyers this past year.\48\ State- and Party-run media outlets 
The Paper, Legal Daily, and Procuratorial Daily published an 
almost identical article under different bylines on December 16 
and 17, 2016, that ascribed a litany of criminal offenses to 
Jiang Tianyong,\49\ a lawyer disbarred in 2009 in connection 
with his rights defense efforts.\50\ On March 1, 2017, the 
Party-run media outlet Global Times published an article about 
Jiang that alleged he fabricated the torture claims of fellow 
rights lawyer Xie Yang.\51\ On March 2, Phoenix TV, a Hong 
Kong-based station, reportedly broadcast a video of Jiang 
admitting to this allegation.\52\ Chen Jian'gang, one of Xie 
Yang's defense lawyers, repudiated the Global Times article and 
the Phoenix TV broadcast and affirmed his role in transcribing 
Xie's claims in the course of three meetings.\53\ [See Section 
II--Criminal Justice and Section III--Access to Justice for 
more information on Xie Yang and Jiang Tianyong as well as 
developments in other cases of human rights lawyers and 
advocates detained as part of the July 2015 crackdown.]

         CENSORSHIP OF NEWS WEBSITES, HARASSMENT OF JOURNALISTS

    Pervasive government and Party control and censorship 
contributed to the shrinking space for journalism and public 
debate.\54\ The International Federation of Journalists (IFJ) 
observed that ``the Communist Party of China . . . targeted the 
last few so-called `liberals' in the media'' in 2016, 
demonstrated by the closure of the reform-minded journal 
Yanhuang Chunqiu; \55\ the suspension of Consensus, a website 
known for open discussion and commentary; \56\ the shutdown of 
the economic think tank Unirule's website; \57\ and the two-
month suspension in October 2016 of Caixin news articles for 
republication in other news media.\58\ The government's 
punitive action against Caixin was for its alleged 
``problematic guidance'' (daoxiang wenti) \59\ in covering the 
opposition of some lawyers to revised administrative measures 
for law firms, which prohibited lawyers from using media 
outlets to publicize their cases.\60\
    The Party regularly issues propaganda directives to control 
Chinese news media through the Central Propaganda Department 
and its lower level bureaus. Censored topics include Tibet, 
Taiwan, and Falun Gong, as well as coverage of ``sensitive'' 
political anniversaries and events, such as the anniversary of 
the 1989 Tiananmen protests and their violent suppression.\61\ 
This past year, some of the official censorship directives 
reposted to the U.S.-based website China Digital Times \62\ 
targeted Liu Xiaobo's medical parole \63\ and reports on 
natural disasters,\64\ public health,\65\ and pollution.\66\ In 
June 2017, the Central Propaganda Department reportedly ordered 
Chinese news media not to report independently on a landslide 
in Sichuan province; journalists reportedly received government 
press releases upon which to base their reports.\67\ An 
international journalists' consortium selected nine 
investigative news stories published in domestic Chinese media 
outlets in 2016 that illustrated a range of public interest 
reporting.\68\ China Digital Times, however, posted official 
censorship directives for at least three of those news articles 
or their subject matter.\69\
    In spite of government-imposed censorship, media experts 
have pointed to a ```semipolitical' sphere,'' in which some 
Chinese journalists continued to cover ``. . . pertinent social 
issues such as official accountability, gender equality, and 
social welfare, amongst others.'' \70\ Another commentator 
remarked that the ``highly personal focus'' of this form of 
reporting may ``strip many articles of their larger, possibly 
charged, political contexts.'' \71\ For example, two Party-
affiliated media outlets,\72\ Beijing News and Sixth Tone, 
reported on the case of a man forced by local family planning 
authorities in Yunnan province to undergo a vasectomy in 
February 2017.\73\ Beijing News published an interview with the 
man without additional analysis of the incident.\74\ While 
Sixth Tone noted the government's ``strict birth control 
measures since the 1980s . . .,'' \75\ it emphasized local 
``unorthodox family planning practices,'' rather than examining 
national family planning policy more broadly.\76\ [For more 
information on this case and the implementation of population 
planning policy, see Section II--Population Control.]
    Several Chinese journalists and media outlets argued for 
the protection of journalists' physical safety, government 
accountability, and guarantees of their right to report on 
events in the public interest following incidents of physical 
violence against and obstruction of journalists on assignment 
this past year.\77\ In December 2016, township-level police in 
Qiqiha'er municipality, Heilongjiang province,\78\ reportedly 
beat up two journalists from the official media outlet China 
Education News who were investigating whistleblower allegations 
about a local school's lunch program.\79\ Beijing News demanded 
accountability from local officials for the violence against 
its reporters during a February 2017 report on a fire in 
Beijing municipality, noting that information on major 
emergencies is in the public interest.\80\ Xinhua reporters 
demanded accountability in the face of official obstruction 
when they attempted to report on the case of a teenager who may 
have committed suicide or been bullied to death in April 2017 
at a school in Sichuan province.\81\

------------------------------------------------------------------------
               Criminal Prosecution of Citizen Journalists
-------------------------------------------------------------------------
  Given the heavy government censorship of official and market-oriented
 media outlets, citizen journalists \82\ in China are a key source of
 information on labor protests,\83\ petitioning the government for
 redress of grievances, and other rights defense efforts.\84\ According
 to Chinese Human Rights Defenders, the detentions this past year of the
 founders of websites that featured citizen journalist reports
 demonstrated the government's drive ``to criminalize those who document
 human rights abuses and advocate for better human rights protections.''
 \85\
------------------------------------------------------------------------


------------------------------------------------------------------------
         Criminal Prosecution of Citizen Journalists--Continued
-------------------------------------------------------------------------
  <bullet> Lu Yuyu, founder of ``Not the News.'' In August 2017, the
   Dali Municipal People's Court in the Dali Bai Autonomous Prefecture,
   Yunnan province, sentenced citizen journalist Lu Yuyu to four years
   in prison on the charge of ``picking quarrels and provoking
   trouble.'' \86\ The same court reportedly released his collaborator
   and girlfriend Li Tingyu on bail \87\ sometime after holding a closed
   trial for her on the same charge in April 2017.\88\ Lu began
   documenting mass incidents, such as labor protests and strikes,
   across China in 2011; he and Li posted their work to Chinese and
   international social media platforms under the names ``Not the News''
   and ``Wickedonna.'' \89\ During Lu's trial in June 2017, Lu rejected
   the prosecution's accusation that he had fabricated information about
   mass incidents, emphasizing his aim to document history and make it
   available for public access.\90\
  <bullet> Liu Feiyue, founder of Civil Rights & Livelihood Watch
   website. In November 2016, authorities from Suizhou municipality,
   Hubei province, detained Liu Feiyue, editor of the human rights
   website Civil Rights & Livelihood Watch (CRLW),\91\ arresting him in
   December on the charge of ``subversion of state power.'' \92\ Radio
   Free Asia reported that authorities added the charge ``illegally
   supplying state secrets or intelligence for an overseas entity'' in
   August 2017 to the case against him.\93\ CRLW has reported on a range
   of human rights violations in China, such as protests and
   demonstrations by petitioners and military veterans, and on the
   forcible commitment of individuals without mental illness to
   psychiatric facilities as a ``stability maintenance'' tool.\94\
  <bullet> Huang Qi, founder of 64 Tianwang website. In November 2016,
   public security authorities from Sichuan province detained Huang Qi,
   the founder of 64 Tianwang, and subsequently arrested him in December
   on the charge of ``illegally supplying state secrets or intelligence
   for an overseas entity.'' \95\ Based in Chengdu municipality,
   Sichuan, Huang previously served prison sentences for posting
   articles about the violent suppression of the 1989 Tiananmen protests
   and Falun Gong,\96\ and for aiding the parents of children who died
   when poorly constructed school buildings collapsed during the 2008
   earthquake in Sichuan.\97\
  <bullet> 64 Tianwang volunteers. A number of volunteer citizen
   journalists for 64 Tianwang \98\ were detained this past year or
   served prison sentences. In September 2016, authorities in several
   locations in China detained five 64 Tianwang volunteers who planned
   to report on the G20 Summit in Hangzhou municipality, Zhejiang
   province.\99\ In June 2017, authorities criminally detained one of
   these volunteers, Yang Xiuqiong, for disclosing information about
   Huang Qi's case.\100\ In the cases of two additional 64 Tianwang
   volunteers, authorities in Zhuji municipality, Zhejiang, reportedly
   released Yang Dongying on November 5, 2016, upon her completion of a
   sentence of one year and six months related to her criticism of local
   police.\101\ Wang Jing continued to serve a four-year sentence in
   Jilin province related to her 2014 64 Tianwang report on a self-
   immolation incident at Tiananmen Square, despite multiple requests
   for medical parole due to brain cancer.\102\
------------------------------------------------------------------------

                   CHALLENGES FOR FOREIGN JOURNALISTS

    Several international organizations issued reports on the 
difficult working conditions for foreign journalists in China, 
including PEN America (September 2016),\103\ the Foreign 
Correspondents' Club of China (FCCC, November 2016),\104\ and 
the International Federation of Journalists (January 
2017).\105\ These reports detailed a range of methods used by 
the Chinese government to restrict and harass foreign 
journalists, including, as PEN America noted, ``physical abuse, 
physical and online surveillance, denying or threatening to 
deny reporters' visas, restricting reporters' access to certain 
areas of the country, and harassment of sources and news 
assistants.'' \106\ Selected cases from this reporting year 
included the following:

        <bullet> Detention. In September 2016, local officials 
        reportedly briefly detained foreign journalists 
        covering protests in Wukan village, Lufeng county, 
        Shanwei municipality, Guangdong province.\107\ 
        Plainclothes public security officers reportedly 
        assaulted several journalists from Hong Kong media in 
        Wukan and detained them for five hours at the Lufeng 
        Public Security Bureau before expelling them from 
        Lufeng.\108\
        <bullet> Harassment. A BBC correspondent and crew faced 
        at least two incidents of harassment and manhandling 
        while trying to interview an independent candidate for 
        a local election in Beijing municipality and a 
        petitioner in Hunan province in November 2016 \109\ and 
        March 2017,\110\ respectively.
        <bullet> Surveillance. A Los Angeles Times reporter 
        described tight surveillance of foreign journalists on 
        a government-organized tour in 2016 to Tibetan 
        autonomous areas of Sichuan province, noting: 
        ``Everything was recorded. The foreign journalists 
        recorded the tour guides, and the Chinese reporters 
        recorded the foreign ones. The shadowy men recorded us 
        all.'' \111\
        <bullet> Blocked access. The government also continued 
        to block online access to the New York Times, 
        Bloomberg, Reuters, the Economist, and Time, as well as 
        to YouTube, Instagram, Facebook, and Twitter.\112\ The 
        U.S. company Apple removed the New York Times 
        application (app) from its stores in China in December 
        2016, reportedly at the request of Chinese 
        authorities.\113\

    Chinese citizens continued to be at risk of sanctions for 
speaking with foreign journalists. The April 2017 judgment 
against human rights lawyer Li Heping cited his having spoken 
with foreign media as one of several activities that allegedly 
``subverted state power.'' \114\ Radio Free Asia reported that 
following its article in March 2017 on petitioning activities 
by a group of private school, substitute, and kindergarten 
teachers, security authorities had ``chats'' with some of the 
teachers, surveilled their phone calls and social media posts 
(blocking some messages), and threatened detention if the 
teachers spoke with foreign reporters again.\115\ The threat of 
retaliation, moreover, has resulted in a chilling effect: \116\ 
According to PEN America, Chinese expert sources were ``less 
willing to share information or opinions with foreign media for 
fear of government reprisal.'' \117\ Specific examples of 
reprisals reported on during this past year included the 
following:

        <bullet> Imprisonment. In November 2016, the Xinjiang 
        Uyghur Autonomous Region High People's Court upheld a 
        19-year sentence against Zhang Haitao, an electronics 
        salesman and rights defender, for ``inciting subversion 
        of state power'' and ``stealing, spying, buying and 
        illegally supplying state secrets or intelligence for 
        an overseas entity.'' \118\ Zhang criticized the 
        government's ethnic policies, among other issues, in 
        his online writings and interviews with overseas news 
        media.\119\
        <bullet> Detention. Tashi Wangchug remained in pretrial 
        detention on the charge of ``inciting separatism'' for 
        his efforts to promote Tibetan language education in 
        Yushu (Kyegudo) city, Yushu (Yulshul) Tibetan 
        Autonomous Prefecture, Qinghai province.\120\ In March 
        2016, authorities arrested him on the ``separatism'' 
        charge due to his contact with New York Times 
        journalists whose two articles and a short documentary 
        about him were published in the New York Times in 
        November 2015.\121\
        <bullet> Travel denial. In March 2017, security 
        authorities in Qianyang county, Baoji municipality, 
        Shaanxi province, reportedly refused to issue a 
        passport and Hong Kong-Macau travel permit to Lu 
        Dongli, a long-time petitioner, due allegedly to his 
        activities connected to the July 2015 crackdown on 
        human rights lawyers and legal advocates and for 
        speaking with foreign reporters.\122\
        <bullet> Dismissal. In April 2017, the Chinese Academy 
        of Governance, a training institute for government 
        officials in Beijing,\123\ removed a retired professor 
        from an expert committee at the institute for 
        presenting ``flawed viewpoints'' during interviews with 
        foreign media in 2016.\124\

 Intensifying Government and Party Control of the Internet and Social 
                                 Media


                               CENSORSHIP

    The government and Party employ methods to implement 
Internet and social media policies aimed at controlling the 
flow of information in order to, as one expert said, ``guide 
the narrative in the direction that the state determines.'' 
\125\ Reports this past year identified an intensification of 
control over the Internet and social media platforms, 
attributing it, in part, to the upcoming 19th National Congress 
of the Chinese Communist Party.\126\ The PRC Cybersecurity Law 
took effect on June 1, 2017,\127\ giving online censorship 
``the weight of law,'' according to the Wall Street 
Journal.\128\ Also in June, the Cyberspace Administration of 
China reportedly ordered the closure of 90 entertainment and 
gossip social media accounts, purportedly to bring the service 
providers into compliance with the Cybersecurity Law and 
``ensure political security.'' \129\
    Social media providers in China play a major role in 
carrying out censorship as required by the government's legal 
and regulatory requirements.\130\ The chairman of Weibo, a 
Twitter-like social media platform, reportedly stated that 
Weibo had been censoring fake news for years,\131\ following 
the news that the U.S. company Facebook had taken steps to stop 
the spread of misinformation.\132\ The domestic company Tencent 
shut down 45,000 WeChat accounts for a six-month period--
approximately September 2016 through February 2017--allegedly 
for rumor-mongering, though some WeChat group facilitators 
speculated that Tencent closed their groups because of 
politically sensitive content.\133\ [For more information on 
the PRC Cybersecurity Law, see Section III--Commercial Rule of 
Law.]
    Citizen Lab, an information technology and human rights 
research center based in Canada, published findings on content 
filtering of social media platforms WeChat and Weibo, observing 
a high level of flexibility and speed in response to issues and 
events deemed politically sensitive.\134\ Liu Xiaobo's death; 
\135\ the names of human rights lawyers, including many of 
those ensnared in the July 2015 crackdown; \136\ and 
information about the January 2017 Kalachakra, a major Tibetan 
Buddhist teaching convened by the Dalai Lama in India, were 
among the range of keywords, keyword combinations, and images 
filtered by censors during this reporting year.\137\ The 
consequences of the censorship are serious, according to 
Citizen Lab: in the case of the rights defenders, international 
advocacy via social messaging ``fail[s] to reach domestic 
audiences in China due to information control practices.'' 
\138\ Restricted access to information about events like the 
Kalachakra effectively constrains Tibetan Buddhists' religious 
freedom and right to freedom of movement and assembly.\139\

                      CLOSING DOWN ACCESS TO VPNS

    The Chinese government took aggressive action \140\ during 
this reporting year to limit online users' attempts to 
circumvent the Chinese government's censorship hardware and 
software--its ``Great Firewall'' \141\--by means of virtual 
private networks (VPNs) to access to prohibited websites and 
social media platforms.\142\ These efforts included a notice in 
January 2017 from the Ministry of Industry and Information 
Technology (MIIT) requiring government approval for VPN service 
providers in China \143\ and the publication by the Chongqing 
Municipality Public Security Bureau in March of administrative 
punishment guidelines for improper corporate or personal VPN 
use within Chongqing, a province-level municipality.\144\ 
Commentators raised concerns that these regulatory efforts 
``effectively [put] most of the country's providers of VPNs in 
violation of the law.'' \145\ According to Bloomberg News, MIIT 
authorities moved to prohibit individual use of VPN technology, 
directing state-run telecommunications companies in July to 
block such access by February 2018.\146\ MIIT refuted 
Bloomberg's report via The Paper, asserting it had not issued a 
directive toward that goal; rather, the targets of its January 
2017 notice were VPN service providers lacking official 
approval.\147\ In a similar vein, a provincial branch of the 
Cyberspace Administration of China contacted five e-commerce 
platforms in August, warning them to stop selling illegal 
VPNs.\148\ In the Xinjiang Uyghur Autonomous Region (XUAR), 
authorities took criminal measures against VPN users: Fei Chang 
Dao, a blog that monitors freedom of speech in China, reported 
the case of Tian Weiguo, whom authorities in Kuitun city, Yili 
(Ili) Kazakh Autonomous Prefecture, XUAR, sentenced to three 
years' imprisonment on the charge of ``inciting ethnic hatred'' 
after he circumvented the government's censorship technology to 
post comments on external social media platforms.\149\ In 
another case from the XUAR, in October 2016, police in Changji 
Hui Autonomous Prefecture reportedly detained an individual for 
downloading VPN software, referring to it as ``violent and 
terrorist software.'' \150\ [For more information on this case, 
see Section IV--Xinjiang.]

                  Punishing Citizens' Free Expression

    The government and Party continued to violate international 
standards on the right to freedom of expression, in part by 
using laws and regulations to prosecute speech the government 
finds politically sensitive.\151\ In addition to the Party and 
government censorship mechanisms used to control official 
narratives discussed earlier in this section, the Commission 
observed judicial and legislative developments this past year 
that aimed to protect the Party and government's version of the 
``national historical narrative.'' \152\ In October 2016, the 
Supreme People's Court (SPC) released four civil law model 
cases about the purported libel of several World War II and 
Korean War era figures, commenting that the protection of 
heroes' reputations and honor are linked to ``core socialist 
values'' and the protection of the public interest.\153\ SPC 
President Zhou Qiang subsequently urged provincial high 
people's court presidents at a January 2017 meeting to 
``develop judicial interpretations for cases that harm the 
reputations of heroes and historical figures; to protect 
leaders and heroic martyrs according to law; and to resolutely 
defend the Party and People's Liberation Army's glorious 
history.'' \154\ In March, the National People's Congress 
passed a code of civil law, which took effect on October 1, 
2017; the law contains a provision to impose civil liability on 
those who harm the ``names, portraits, reputations and honor'' 
of heroes and martyrs.\155\ This provision was a late addition 
to the draft civil code,\156\ reportedly in reaction to one of 
the model cases.\157\
    This past year, authorities took punitive action against 
Chinese officials, journalists, writers, publishers, and 
university professors, including disciplinary action, job 
termination, detention, and imprisonment for speech critical of 
President and Party General Secretary Xi Jinping,\158\ former 
leader Mao Zedong,\159\ and political campaigns and events of 
modern Chinese history.\160\ A scholar observed that the 
sensitivity around criticism of Xi Jinping and the Party 
reflects ``a leadership worried about political agitation and 
social unrest as disruptive reforms advance.'' \161\ Fei Chang 
Dao posted the court judgments of citizens sentenced to prison 
terms related to political opinions shared on social media 
platforms on the charges of ``picking quarrels and provoking 
trouble'' \162\ and ``defamation.'' \163\ In April 2017, a 
court in Shandong province sentenced long-time petitioner Wang 
Jiangfeng to two years' imprisonment on the charge of ``picking 
quarrels and provoking trouble'' after sharing material within 
two private social media chat groups that allegedly ``seriously 
disparaged the individual reputations of Mao Zedong and Xi 
Jinping.'' \164\ An ethnic Korean rights advocate Kwon Pyong 
(Quan Ping) ``disappeared'' on October 1, 2016, shortly after 
posting online a photo of himself wearing a T-shirt that 
allegedly mocked Xi Jinping.\165\ Authorities in Yanji city, 
Yanbian Korean Autonomous Prefecture, Jilin province, later 
indicted Kwon on the charge of ``inciting subversion of state 
power.'' \166\

                                                    Freedom of 
                                                     Expression
                                                Freedom of 
                                                Expression
    Notes to Section II--Freedom of Expression

    \1\ ``The Spirit of Liu Xiaobo,'' New York Times, 13 July 17.
    \2\ Ibid.; Shenyang Municipal Justice Bureau, ``Liu Xiaobo's Death 
Due to Illness'' [Liu xiaobo bing wang], 13 July 17.
    \3\ The Tragic Case of Liu Xiaobo, Hearing of the Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations, Committee on Foreign Affairs, U.S. House of 
Representatives, 14 July 17, Testimony of Yang Jianli, President, 
Initiatives for China/Citizen Power. See also ``The Criminal Verdict'' 
in No Enemies, No Hatred, eds. Perry Link, Tienchi Martin-Liao, and Liu 
Xia (Cambridge: Belknap Press of Harvard University Press, 2012), 336-
37, para. 15.
    \4\ Liaoning Prison Administrative Bureau, ``Liu Xiaobo Approved 
for Medical Parole Due to Illness'' [Liu xiaobo yin bing bei pizhun 
baowai jiuyi], 26 June 17.
    \5\ Dui Hua Foundation, ``Liu Xiaobo Granted Medical Parole,'' 26 
June 17. Dui Hua Foundation noted that, under Chinese law, ``[it] is 
not correct to say that the prisoner granted medical parole is `free,' 
nor is it correct to say that the prisoner has been `released.' The 
prisoner is still serving his/or her sentence, albeit in a location 
other than the prison itself.''
    \6\ Chris Buckley, ``Liu Xiaobo, Chinese Dissident Who Won Nobel 
While Jailed, Dies at 61,'' New York Times, 13 July 17.
    \7\ Ibid.; Josh Chin, ``Nobel Laureate Liu Xiaobo, Who Fought for 
Democracy in China, Dies in Police Custody,'' Wall Street Journal, 13 
July 17.
    \8\ Human Rights Watch, ``China: Democratic Voice Liu Xiaobo Dies 
in Custody,'' 13 July 17. See also ``The Criminal Verdict'' in No 
Enemies, No Hatred, eds. Perry Link, Tienchi Martin-Liao, and Liu Xia 
(Cambridge: Belknap Press of Harvard University Press, 2012), 337, 
para. 18.
    \9\ No Enemies, No Hatred, eds. Perry Link, Tienchi Martin-Liao, 
and Liu Xia (Cambridge: Belknap Press of Harvard University Press, 
2012), parts 1-3.
    \10\ Chris Buckley, ``Liu Xiaobo, Chinese Dissident Who Won Nobel 
While Jailed, Dies at 61,'' New York Times, 13 July 17; ``The Spirit of 
Liu Xiaobo,'' New York Times, 13 July 17. For more information on Liu 
Xiaobo, see the Commission's Political Prisoner Database record 2004-
03114.
    \11\ See, e.g., ``The Spirit of Liu Xiaobo,'' New York Times, 13 
July 17; ``The Guardian View on Liu Xiaobo's Death: Free the Nobel 
Laureate's Wife Now,'' Guardian, 13 July 17.
    \12\ See, e.g., Human Rights Watch, ``G20: Press China To Free 
Nobel Laureate,'' 5 July 17; Paul Carsten, ``Malala Condemns China Over 
Death of Fellow Nobel Laureate Liu Xiaobo,'' Reuters, 18 July 17; 
``Many Urge Release of Liu Xiaobo and Liu Xia, Beijing: Do Not 
Interfere in Internal Affairs'' [Duofang cu huan liu xiaobo fufu ziyou 
beijing: wu ganshe neizheng], Voice of America, 28 June 17.
    \13\ See, e.g., Chris Buckley, ``Liu Xiaobo, Chinese Dissident Who 
Won Nobel While Jailed, Dies at 61,'' New York Times, 13 July 17; 
``China Protests Criticism From Germany, UN, France Over Late Dissident 
Liu Xiaobo's Treatment,'' Agence-France Presse, reprinted in Hong Kong 
Free Press, 15 July 17.
    \14\ ``Concerned About Liu Xiaobo, UN Rights Office Urges Access to 
Jailed Rights Defender,'' UN News Centre, 7 July 17; ``World Loses 
`Principled Champion,' Says UN Rights Chief on Death of China's Liu 
Xiaobo,'' UN News Centre, 13 July 17.
    \15\ See, e.g., ``Many Urge Release of Liu Xiaobo and Liu Xia, 
Beijing: Do Not Interfere in Internal Affairs'' [Duofang cu huan liu 
xiaobo fufu ziyou beijing: wu ganshe neizheng], Voice of America, 28 
June 17; ``Hong Kong Group Holds Candlelight Vigil in Central, Pressing 
for Release of Liu Xiaobo'' [Gang tuanti zhonghuan zhuguang jihui cu 
fang liu xiaobo], Voice of America, 29 June 17.
    \16\ See, e.g., Tom Phillips, ``Activists Call on China To Release 
Liu Xiaobo for Cancer Treatment Abroad,'' Guardian, 9 July 17.
    \17\ See, e.g., Human Rights Watch, ``G20: Press China To Free 
Nobel Laureate,'' 5 July 17.
    \18\ Chris Buckley, ``Liu Xiaobo's Dying Words for His Wife,'' New 
York Times, 14 July 17; Zhang Jiping, ``Exclusive: Complete Text of Liu 
Xiaobo's Last Hand-Written Manuscript of July 5th Revealed, Last Gift 
for Liu Xia'' [Dujia: liu xiaobo 7 yue 5 ri zuihou shougao quanwen 
pilu, song gei liu xia zuihou liwu], Initium Media, 14 July 17.
    \19\ The Tragic Case of Liu Xiaobo, Hearing of the Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations, Committee on Foreign Affairs, U.S. House of 
Representatives, 14 July 17, Testimony of Yang Jianli, President, 
Initiatives for China/Citizen Power.
    \20\ Human Rights Watch, ``China: Democratic Voice Liu Xiaobo Dies 
in Custody,'' 13 July 17; ``Liu Xia Appears for First Time Since 
Husband Liu Xiaobo's Funeral,'' Reuters, reprinted in Guardian, 19 
August 17; Human Rights Watch, ``China: Widow of Nobel Laureate Feared 
`Disappeared,' '' 20 July 17.
    \21\ See, e.g., Chinese Human Rights Defenders, ``Hold Xi Jinping 
Accountable for Liu Xiaobo's Death in Custody, Free Liu Xia,'' 13 July 
17; ``The Guardian View on Liu Xiaobo's Death: Free the Nobel 
Laureate's Wife Now,'' Guardian, 13 July 17; ``U.N. Rights Chief Seeks 
Meeting With China Over Liu Xiaobo's Widow,'' Reuters, 20 July 17. For 
more information on Liu Xia, see the Commission's Political Prisoner 
Database record 2010-00629.
    \22\ Verna Yu, ``China's New Media Strategy: The Case of Liu 
Xiaobo,'' The Diplomat, 28 July 17; Gerry Shih, ``China Controls 
Information About Ailing Nobel Prize Laureate,'' 12 July 17; China 
Digital Times, ``China Controls Information About Liu Xiaobo,'' 12 July 
17; China Digital Times, ``Minitrue: No Reports on Liu Xiaobo's Medical 
Parole,'' 29 June 17.
    \23\ See, e.g., ``National Team of Medical Experts Treat Liu Xiaobo 
as Abdominal Swelling Worsens,'' Global Times, 6 July 17; ``Dissidents 
Waste Lives as China Prospers,'' Global Times, 16 July 17; ``Overseas 
Forces Must Stop Politicizing Liu Xiaobo's Wife,'' Global Times, 18 
July 17.
    \24\ ``China in `Whitewash Campaign' Ahead of Liu Xiaobo's Death,'' 
Radio Free Asia, 13 July 17.
    \25\ Masashi Crete-Nishihata et al., ``Remembering Liu Xiaobo,'' 
University of Toronto, Munk School of Global Affairs, Citizen Lab, 16 
July 17.
    \26\ Human Rights Watch, ``China: Widow of Nobel Laureate Feared 
`Disappeared,' '' 20 July 17; Chinese Human Rights Defenders, ``Seven 
Confirmed Detained for Mourning Liu Xiaobo, Whereabouts of Liu Xia 
Remain Unknown,'' 3 August 17; ``Poet Held in Southern China Over 
Planned Poetry Anthology Remembering Liu Xiaobo,'' Radio Free Asia, 22 
August 17.
    \27\ Chinese Human Rights Defenders, ``Seven Confirmed Detained for 
Mourning Liu Xiaobo, Whereabouts of Liu Xia Remain Unknown,'' 3 August 
17; Rights Defense Network, ``Bulletin on Guangdong Sea Commemoration 
Case: Wei Xiaobing and He Lin Released on Bail, All 6 of Those 
Originally Criminally Detained Released, Ma Qiang Only One For Whom 
Situation Is Unclear'' [Guangdong haiji an tongbao: wei xiaobing, he 
lin qubao huoshi yuan bei xingju 6 ren jun huoshi ma qiang 1 ren reng 
qingkuang bu ming], 20 August 17.
    \28\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19; Universal Declaration of Human Rights, 
adopted and proclaimed by UN General Assembly resolution 217A (III) on 
10 December 48, art. 19.
    \29\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 15 
July 17. China signed the convention on October 5, 1998.
    \30\ State Council Information Office, ``National Human Rights 
Action Plan (2016-2020),'' August 2016, reprinted in Xinhua, 29 
September 16, sec. V.
    \31\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 19(3); UN Human Rights Council, Report of 
the Special Rapporteur on the Promotion and Protection of the Right to 
Freedom of Opinion and Expression, Frank La Rue, A/HRC/17/27, 16 May 
11, para. 24.
    \32\ Promotion and Protection of All Human Rights, Civil, 
Political, Economic, Social and Cultural Rights, Including the Right to 
Development, adopted by Human Rights Council resolution 12/16, A/HRC/
RES/12/16, 12 October 09, para. 5(p)(i).
    \33\ UN Human Rights Committee, General Comment No. 34, Article 19, 
Freedom of Opinion and Expression, CCPR/C/GC/34, 12 September 11, para. 
21.
    \34\ Reporters Without Borders, ``World Press Freedom Index,'' last 
visited 16 May 17, Index details, China.
    \35\ Elana Beiser, Committee to Protect Journalists, ``Turkey's 
Crackdown Propels Number of Journalists in Jail Worldwide to Record 
High,'' 13 December 16; Committee to Protect Journalists, ``2016 Prison 
Census: 259 Journalists Jailed Worldwide,'' 13 December 16.
    \36\ Reporters Without Borders, ``World Press Freedom Index,'' last 
visited 16 May 17, China.
    \37\ David Bandurski, ``The Making of a Good Party Reporter,'' 
University of Hong Kong, Journalism and Media Studies Centre, China 
Media Project, 3 January 17.
    \38\ Wang Yanwen, ``Let the Principle of Party Character Stand Up 
and Be Strengthened'' [Rang dangxing yuanze li qilai qiang qilai], 
Seeking Truth, 15 February 17; Zhang Lei, ``Firmly Adhere to the 
Principle of Party Character Without Wavering'' [Laolao jianchi 
dangxing yuanze bu dongyao], Economic News, 17 February 17. See also Wu 
Jing and Wang Sibei, ``Xi Jinping: Be Reliable News Media Workers for 
the Party and the People'' [Xi jinping: zuo dang he renmin xinlai de 
xinwen gongzuozhe], Xinhua, 7 November 16.
    \39\ ``Xi Jinping's View on News and Public Opinion'' [Xi jinping 
de xinwen yulun guan], People's Daily, 25 February 16. See also ``Xi's 
Speech on News Reporting Resonates With Domestic Outlets,'' Xinhua, 22 
February 16; China Digital Times, ``Xi's State Media Tour: `News Must 
Speak for the Party,' '' 19 February 16; CECC, 2016 Annual Report, 6 
October 16, 61.
    \40\ All-China Journalists Association, ``Diligently Work at Being 
a Media Worker on Whom the Party and People Can Rely'' [Nuli zuo dang 
he renmin xinlai de xinwen gongzuozhe], Seeking Truth, 31 December 16. 
See also Wu Jing and Wang Sibei, ``Xi Jinping: Be Reliable News Media 
Workers for the Party and the People'' [Xi jinping: zuo dang he renmin 
xinlai de xinwen gongzuozhe], Xinhua, 7 November 16.
    \41\ All-China Journalists Association, ``Diligently Work at Being 
a Media Worker on Whom the Party and People Can Rely'' [Nuli zuo dang 
he renmin xinlai de xinwen gongzuozhe], Seeking Truth, 31 December 16; 
David Bandurski, ``The Making of a Good Party Reporter,'' University of 
Hong Kong, Journalism and Media Studies Centre, China Media Project, 3 
January 17.
    \42\ Li-Fung Cho, ``The Emergence of China's Watchdog Reporting,'' 
in Investigative Journalism in China: Eight Cases in Chinese Watchdog 
Journalism, eds. David Bandurski and Martin Hala (Hong Kong: Hong Kong 
University Press, 2010), 165-67. See also Anthony Kuhn, ``For Years, 
I've Been a Correspondent in China. This Month, I Became a Viral 
Star.,'' NPR, 18 March 17; CECC, 2016 Annual Report, 6 October 16, 62-
63.
    \43\ All-China Journalists Association, ``Diligently Work at Being 
a Media Worker on Whom the Party and People Can Rely'' [Nuli zuo dang 
he renmin xinlai de xinwen gongzuozhe], Seeking Truth, 31 December 16; 
David Bandurski, ``The Making of a Good Party Reporter,'' University of 
Hong Kong, Journalism and Media Studies Centre, China Media Project, 3 
January 17.
    \44\ Wu Jing et al., ``Be a Reliable News Media Worker for the 
Party and the People--Hugely Enthusiastic Responses Among News Workers 
to General Secretary Xi Jinping's Important Speech'' [Zuo dang he 
renmin xinlai de xinwen gongzuozhe--xi jinping zongshuji zhongyao 
jianghua zai guangda xinwen gongzuozhe zhong yinqi relie fanxiang], 
Xinhua, 8 November 16.
    \45\ China's Information Controls, Global Media Influence, and 
Cyber Warfare Strategy, Hearing of the U.S.-China Economic and Security 
Review Commission, 4 May 17, Testimony of Xiao Qiang, Adjunct 
Professor, Director, School of Information, University of California, 
Berkeley, and Founder and Chief Editor, China Digital Times, 2. See 
also Mary Gallagher and Blake Miller, ``Can the Chinese Government 
Really Control the Internet? We Found Cracks in the Great Firewall.,'' 
Washington Post, Monkey Cage (blog), 21 February 17.
    \46\ Gary King, Jennifer Pan, and Margaret E. Roberts, ``How the 
Chinese Government Fabricates Social Media Posts for Strategic 
Distraction, Not Engaged Argument,'' Harvard University, Faculty Page 
of Gary King, last visited 19 July 17, American Political Science 
Review (forthcoming), 34; China's Information Controls, Global Media 
Influence, and Cyber Warfare Strategy, Hearing of the U.S.-China 
Economic and Security Review Commission, 4 May 17, Testimony of 
Margaret E. Roberts, Assistant Professor of Political Science, 
University of California, San Diego, 2.
    \47\ UN Human Rights Council, Tenth Anniversary Joint Declaration: 
Ten Key Challenges to Freedom of Expression in the Next Decade, 
Addendum to Report of the Special Rapporteur on the Promotion and 
Protection of the Rights to Freedom of Opinion and Expression, A/HRC/
14/23/Add.2, 25 March 10, art. 1(a).
    \48\ International Federation of Journalists, ``Media Cooperate in 
Two More Televised `Confessions,' '' 9 March 17; China Change, ``Co-
opting Trump, Chinese State Propaganda Brands Torture Revelations `Fake 
News,' '' 9 March 17. See also PEN America, ``Darkened Screen: 
Constraints on Foreign Journalists in China,'' 22 September 16, 5.
    \49\ Zhuang An, ``Jiang Tianyong, Suspected of Breaking the Law, 
Placed Under Criminal Compulsory Measures According to Law'' [Jiang 
tianyong shexian weifa fanzui bei yifa caiqu xingshi qiangzhi cuoshi], 
The Paper, 16 December 16; Cai Changchun, ``Jiang Tianyong, Suspected 
of Breaking the Law, Placed Under Criminal Compulsory Measures 
According to Law'' [Jiang tianyong shexian weifa fanzui bei yifa caiqu 
xingshi qiangzhi cuoshi], Legal Daily, 16 December 16; Wang Zhiguo, 
``Jiang Tianyong, Suspected of Breaking the Law, Placed Under Criminal 
Compulsory Measures According to Law'' [Jiang tianyong shexian weifa 
fanzui bei yifa caiqu xingshi qiangzhi cuoshi], Procuratorial Daily, 17 
December 16.
    \50\ Amnesty International, ``China: Human Rights Lawyers 
Disbarred,'' 15 July 09; ``Human Rights Lawyer: Failed Annual 
Inspection and Registration, License Revoked, Worried Persecution Will 
Continue'' [Weiquan lushi: nianjian bu guo zhizhao bei diaoxiao you 
daya chixu], Radio Free Asia, 16 July 09; Elizabeth Lynch, ``Codifying 
Illegality? The Case of Jiang Tianyong,'' China Law & Policy (blog), 20 
January 17. See also Zhang Yan, ``Story of Torture Is `Fake,' '' China 
Daily, 2 March 17.
    \51\ ``Exposing the Truth of `Xie Yang's Torture': Catering to the 
West With Baseless, False News'' [Jiemi ``xie yang zao kuxing'' 
zhenxiang: wei yinghe xifang pingkong niezao], Global Times, 1 March 
17. The Global Times made reference to written records of Xie's January 
2017 meetings with his defense lawyers, detailing Changsha 
municipality, Hunan province, officials' use of torture against Xie. 
See Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie Yang 
(One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in Rights 
Defense Network, 19 January 17; Chen Jian'gang, ``Record of Meeting 
With Hunan Lawyer Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu 
(er)], reprinted in Rights Defense Network, 19 January 17; Josh Chin, 
``Document of Torture: One Chinese Lawyer's Story From Jail,'' Wall 
Street Journal, China Real Time Report (blog), 20 January 17. English 
translations of the records of Xie's meetings are available at the 
China Change website. See ``Transcript of Interviews With Lawyer Xie 
Yang (1)--Arrest, Questions About Chinese Human Rights Lawyers Group,'' 
China Change, 19 January 17; ``Transcript of Interviews With Lawyer Xie 
Yang (2)--Sleep Deprivation,'' China Change, 20 January 17; 
``Transcript of Interviews With Lawyer Xie Yang (3)--Dangling Chair, 
Beating, Threatening Lives of Loved Ones, and Framing Others,'' China 
Change, 21 January 17; ``Transcript of Interviews With Lawyer Xie Yang 
(4)--Admit Guilt, Keep Your Mouth Shut,'' China Change, 22 January 17.
    \52\ `` `Global Times' Slanders Jiang Tianyong for Fabricating Xie 
Yang's Torture, Jin Bianling Plans To Bring Lawsuit Against Authorities 
for Defamation'' [``Huanshi'' dihui jiang tianyong niezao xie yang zao 
kuxing jin bianling ni konggao dangju mohei], Radio Free Asia, 2 March 
17; Yaxue Cao, ``China's Extraordinary Response to the 11-Nation Letter 
Over the Torture of Human Rights Lawyers,'' China Change, 28 March 17.
    \53\ Rights Defense Network, ``Lawyer Chen Jian'gang: Before and 
After Meeting With Xie Yang'' [Chen jian'gang lushi: huijian xie yang 
de qianhou], 3 March 17.
    \54\ Other factors include financial and technical pressures. See, 
e.g., Li Xueqing, ``News Buzz to Biz II: Xu Jun on China's Content 
Entrepreneurs,'' Sixth Tone, 3 October 16; David Bandurski, 
``Millennial Shift for China's Journalists,'' University of Hong Kong, 
Journalism and Media Studies Centre, China Media Project, 25 April 17.
    \55\ International Federation of Journalists, ``Strangling the 
Media: China Tightens Its Grip,'' January 2017, 26-27. See also Xiao 
Bai, ``The Death of `Yanhuang Chunqiu,' '' [``Yanhuang chunqiu'' zhi 
si], InMediaHK, 10 October 16.
    \56\ David Bandurski, ``The End of Consensus,'' University of Hong 
Kong, Journalism and Media Studies Centre, China Media Project, 3 
October 16; Tom Tsui, ``China's Consensus Net, a Website for Open 
Intellectual Discussion, Has Suddenly Shut Down,'' Quartz, 3 October 
16.
    \57\ Jun Mai, ``Chinese Liberal Think Tank Slams Beijing Censors 
After Website and Media Accounts Shut Down,'' South China Morning Post, 
24 January 17.
    \58\ David Bandurski, ``Speak Not of Lawyers Speaking Out,'' 
University of Hong Kong, Journalism and Media Studies Centre, China 
Media Project, 12 October 16; Cao Guoxing, ``Caixin Online Temporarily 
Suspended for Two Months for Reporting With `Problematic Guidance' '' 
[Caixin wang yin baodao ``daoxiang wenti'' bei zanting zhuanzai liang 
ge yue], Radio France Internationale, 11 October 16; China Digital 
Times, ``Minitrue: Two-Month Ban on Republishing Caixin Content,'' 11 
October 16.
    \59\ Ibid. The government's criticism of Caixin's ``problematic 
guidance'' may be a reference to the ``theory of guidance,'' a 
government term from the 1990s that allowed space for market-oriented 
media but required ``correct political guidance.'' For the ``theory of 
guidance,'' see Qiao Mu, ``Stuck in the Middle,'' Oriental Daily, 13 
February 17, translated in University of Hong Kong, Journalism and 
Media Studies Centre, China Media Project, 15 February 17.
    \60\ David Bandurski, ``Speak Not of Lawyers Speaking Out,'' 
University of Hong Kong, Journalism and Media Studies Centre, China 
Media Project, 12 October 16; Cao Guoxing, ``Caixin Online Temporarily 
Suspended for Two Months for Reporting With `Problematic Guidance' '' 
[Caixin wang yin baodao ``daoxiang wenti'' bei zanting zhuanzai liang 
ge yue], Radio France Internationale, 11 October 16; China Digital 
Times, ``Minitrue: Two-Month Ban on Republishing Caixin Content,'' 11 
October 16.
    \61\ Beina Xu and Eleanor Albert, Council on Foreign Relations, 
``Media Censorship in China,'' 17 February 17; Sarah Cook, ``All the 
News Unfit To Print: What Beijing Quashed in 2016,'' Foreign Policy, 
Tea Leaf Nation (blog), 16 December 16. See also China Digital Times, 
``Minitrue: Do Not Present Taiwan as a Separate Political Entity,'' 24 
May 17; Sabine Peschel, ``Poet Yang Lian: `There Are Cracks and Holes 
in China's Censorship,' '' Deutsche Welle, 1 July 16.
    \62\ China Digital Times, a U.S.-based Web portal that aggregates 
and analyzes English and Chinese language media, features translations 
of leaked censorship directives at http://chinadigitaltimes.net/china/
directives-from-the-ministry-of-truth/. For an analysis of directives 
posted to China Digital Times in 2016, see Sarah Cook, ``All the News 
Unfit To Print: What Beijing Quashed in 2016,'' Foreign Policy, Tea 
Leaf Nation (blog), 16 December 16.
    \63\ China Digital Times, ``Minitrue: No Reports on Liu Xiaobo's 
Medical Parole,'' 29 June 17.
    \64\ See, e.g., China Digital Times, ``Minitrue: Follow Xinhua on 
Jiuzhaigou Earthquake,'' 8 August 17; China Digital Times, ``Jeremy 
Brown: How the Party Handles Accidents,'' 10 August 17.
    \65\ See, e.g., China Digital Times, ``Minitrue: Delete Report on 
Air Pollution Deaths,'' 6 February 17.
    \66\ See, e.g., China Digital Times, ``Minitrue: Do Not Repost News 
on Zhejiang HIV Infections,'' 9 February 17.
    \67\ Sue-Lin Wong, ``Chinese Reporters Say Blocked From Sichuan 
Landslide Coverage,'' Reuters, 28 June 17. See also China Digital 
Times, ``Jeremy Brown: How the Party Handles Accidents,'' 10 August 17. 
Jeremy Brown has observed that the Party ``put[s] natural disasters in 
the same category as accidents,'' viewing them as ``political 
disturbances.''
    \68\ Global Investigative Journalism Network, ``Best Investigative 
Stories in China--2016,'' 20 February 17. This reporting included The 
Paper's March 2016 report about an illegal vaccine trade network based 
in Shandong province; Beijing News' report in May 2016 that expressed 
skepticism of the official story about the death of an 
environmentalist; and Caixin media's reports on a toxic running track 
at a school in Beijing municipality and a fraudulent weight loss 
product.
    \69\ China Digital Times, ``Minitrue: Don't Hype Article on Illegal 
Vaccines,'' 22 March 16; China Digital Times, ``Minitrue: Police Escape 
Charges Over Arrest Death,'' 23 December 16; China Digital Times, 
``Minitrue: Inner Workings of Shady Medical Business [Updated],'' 10 
May 16.
    \70\ Maria Repnikova and Kecheng Fang, ``China's New Media: Pushing 
Political Boundaries Without Being Political,'' Foreign Affairs, 12 
October 16.
    \71\  Bethany Allen-Ebrahimian, ``China, Explained,'' Foreign 
Policy, 3 June 16.
    \72\ Joseph Kahn, ``Beijing Censors Taken to Task in Party 
Circles,'' New York Times, 15 February 06; Bethany Allen-Ebrahimian, 
``China, Explained,'' Foreign Policy, 3 June 16.
    \73\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jiezha nanzi: yi beizi bu xiang zai hui na ge 
difang], Beijing News, 14 February 17; Wang Lianzhang, ``Chinese Father 
of Four Forced To Undergo Vasectomy,'' Sixth Tone, 14 February 17.
    \74\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jiezha nanzi: yi beizi bu xiang zai hui na ge 
difang], Beijing News, 14 February 17.
    \75\ Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17.
    \76\ Ibid.
    \77\ See, e.g., Wang Yu, ``Luyi, Henan, Responds to `Journalist on 
Assignment Is Assaulted': Court Police Chief Removed and Others 
Suspected To Be Involved Receive Punishment'' [Henan luyi huiying 
``jizhe caifang zao ouda'': sheshi fajing duizhang bei mianzhi duoren 
shou chufen], Beijing News, 8 December 16; Wang Ruifeng, ``Follow-Up to 
Shandong Journalist Beaten While on Assignment: Four Prosecuted, Police 
Station Chief Loses Job'' [Shandong jizhe caifang bei da xu: si ren bei 
tiqi gongsu, paichusuozhang bei mianzhi], Southern Weekend, 9 October 
16.
    \78\ Wang Shichuan, ``How Many Shady Issues Are Hidden Behind Story 
of Beaten Reporters? '' [Jizhe bei da shijian cangzhe duoshao heimu], 
Beijing Times, 19 December 16.
    \79\ Sun Qianqian and Wang Ruifeng, ``Incident of Reporters Beaten 
Up in Gannan County, Heilongjiang: Deputy Chief of Police Station 
Dismissed'' [Heilongjiang gannan xian ouda jizhe shijian: paichusuo 
fusuozhang bei chezhi], Southern Weekend, 18 December 16.
    \80\ Wang Yanhu, ``Journalists on Assignment About Fire Emergency 
Are Beaten Up, Don't Let the Law-Breakers Remain Free With Impunity'' 
[Jizhe caifang huozai bei da, buneng rang weifazhe xiaoyao fawai], 
Beijing News, 27 February 17; Li Ming and Wang Yu, ``Beijing News 
Journalist on Assignment at Laiguangying Fire Pushed to Ground by 6 
Men, Cell Phone Confiscated'' [Xin jingbao jizhe caifang laiguangying 
huozai bei 6 nanzi fangdao zaidi qiangzou shouji], Beijing News, 27 
February 17.
    \81\ Lu Qingfu and Xie Jiao, ``Xinhua Agency's Three Questions 
About the On-Campus Death in Lu County: How Long Must We Wait for the 
Facts? '' [Xinhuashe san wen lu xian xiaoyuan siwang shijian: nachu 
shishi xuyao duojiu], Xinhua, reprinted in Sina, 5 April 17. Local 
officials prevented the journalists from speaking with the dead boy's 
mother and cordoned off access to the school. See also ``Xinhua Agency 
Report on Luzhou Incident Said To Be Coordinating With Stability 
Maintenance, Police Deny Similar Incident Already Took Place at This 
School'' [Xinhuashe baodao luzhou shijian bei zhi peihe weiwen chuan 
gai xiao ceng fasheng tonglei shijian jingfang fouren], Radio Free 
Asia, 6 April 17.
    \82\ UN Human Rights Committee, General Comment No. 34, Article 19, 
Freedom of Opinion and Expression, CCPR/C/GC/34, 12 September 11, para. 
44. The UN Human Rights Committee has noted that, ``Journalism is a 
function shared by a wide range of actors, including professional full-
time reporters and analysts, as well as bloggers and others who engage 
in forms of self-publication in print, on the internet or elsewhere . . 
..''
    \83\ Edward Wong, ``Chinese Police Detain Activist Who Documents 
Labor Protests,'' New York Times, 27 June 16; ``Blogger Who Compiled 
Reports of Protests, Demonstrations Stands Trial in China's Yunnan,'' 
Radio Free Asia, 23 June 17.
    \84\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 22; ``Five Citizen 
Journalists From 64 Tianwang Detained During the G20, Reporters Without 
Borders Calls on Authorities To Release Those Detained'' [Liusi 
tianwang wu gongmin jizhe G20 bei zhua wuguojie jizhe hu dangju shifang 
beibuzhe], Radio Free Asia, 8 September 16.
    \85\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 8.
    \86\ `` `Not the News' Founder Lu Yuyu Heavily Sentenced to 4 
Years'' [``Fei xinwen'' chuangbanren lu yuyu bei zhongpan 4 nian], 
Radio Free Asia (RFA), 3 August 17. According to RFA, authorities 
criminally detained Lu Yuyu and Li Tingyu--Lu's collaborator and 
girlfriend--in June 2016 on suspicion of ``picking quarrels and 
provoking trouble.''
    \87\ ``Case of `Not the News' Li Tingyu Tried in Secret on 
Thursday'' [``Fei xinwen'' li tingyu zhou si mimi shenxun], Radio Free 
Asia, 20 April 17; Rights Defense Network, `` `Not the News' Founder Lu 
Yuyu Sentenced to 4 Years Today, Girlfriend Li Tingyu Released on 
Bail'' [``Fei xinwen'' chuangbanren lu yuyu jin huoxing 4 nian nuyou li 
tingyu qubao huoshi], 3 August 17.
    \88\ ``Case of `Not the News' Li Tingyu Tried in Secret on 
Thursday'' [``Fei xinwen'' li tingyu zhou si mimi shenxun], Radio Free 
Asia, 20 April 17.
    \89\ Oiwan Lam, ``Founder of Protest Reporting Outlet Goes Missing 
in China,'' Global Voices, 23 June 16; Austin Ramzy, ``Chinese Court 
Sentences Activist Who Documented Protests to 4 Years in Prison,'' New 
York Times, 4 August 17. See also Wu Qiang, ``What Do Lu Yuyu's 
Statistics of Protest Tell Us About the Chinese Society Today? '' China 
Change, 6 July 16; CECC, 2016 Annual Report, 6 October 16, 82.
    \90\ Human Rights Campaign in China, ``Not the News Case: Defense 
Lawyers Wang Zongyue and Xiao Yunyang Broke Their Silence and Made 
Public the Court Hearing Record of Lu Yuyu Who Was Arrested for Picking 
Quarrels and Provoking Trouble for Documenting Civil Rights Defense 
Incidents'' [Fei xinwen an yin jilu minjian weiquan shijian yi xunxin 
zishi an daibu de lu yuyu qi bianhu lushi wang zongyue, xiao yunyang 
dapo chenmo gongkai tingshen qingkuang jilu], 25 June 17. For more 
information, see the Commission's Political Prisoner Database records 
2016-00177 on Lu Yuyu and 2016-00190 on Li Tingyu.
    \91\ Civil Rights & Livelihood Watch, ``Liu Feiyue, Director of 
Civil Rights & Livelihood Watch, Criminally Detained on Charge of 
Subversion of State Power'' [Minsheng guancha fuzeren liu feiyue bei yi 
dianfu guojia zhengquan zui xingju], 24 November 16; Nomaan Merchant, 
``China Detains Editor of Human Rights Website for Subversion,'' 
Associated Press, 25 November 16; ``Rights Website Founder Detained on 
Subversion Charges in China's Hubei,'' Radio Free Asia, 25 November 16.
    \92\ Rights Defense Network, ``Bulletin on CRLW Director Liu 
Feiyue's Case: Family Members Receive `Arrest Notice' From Suizhou, 
Hubei, PSB'' [Minsheng guancha fuzeren liu feiyue an tongbao: jiashu 
shoudao hubei suizhou shi gong'anju fa de ``daibu tongzhishu''], 11 
January 17.
    \93\ `` `Illegally Providing State Secrets Abroad' Added to Liu 
Feiyue's Case'' [Liu feiyue bei jiakong ``wei jingwai feifa tigong 
guojia mimi zui''], Radio Free Asia, 16 August 17.
    \94\ Nomaan Merchant, ``China Detains Editor of Human Rights 
Website for Subversion,'' Associated Press, 25 November 16. For more 
information about Liu Feiyue, see the Commission's Political Prisoner 
Database record 2016-00460.
    \95\ Rights Defense Network, ``Mainland NGO `64 Tianwang' Director 
Huang Qi Arrested by Authorities'' [Dalu NGO ``liusi tianwang'' fuzeren 
huang qi yi bei dangju zhixing daibu], 20 December 16.
    \96\ ``Police in China's Sichuan Raid Rights Website, Detain 
Founder,'' Radio Free Asia, 29 November 16; ``Web Site Manager Huang Qi 
Released After Completing Sentence, but Restricted to Home Village,'' 
Congressional-Executive Commission on China, 7 June 05.
    \97\ Sharon LaFraniere, ``School Construction Critic Gets Prison 
Term in China,'' New York Times, 23 November 09. For more information 
about Huang Qi, see the Commission's Political Prisoner Database record 
2004-04053.
    \98\ Catherine Lai, ``Interview: Prize-Winning Chinese Citizen 
Journalism Website Still Going Strong Despite Suppression,'' Hong Kong 
Free Press, 12 November 16.
    \99\ Reporters Without Borders, ``RSF Demands Release of Five 
Citizen Journalists Arrested During G20,'' 6 September 16; ``China 
Detains Five Women Citizen Journalists During the G20 Summit'' 
[Zhongguo zhuban G20 fenghui qijian daibu wuming nu gongmin jizhe], 7 
September 16. For more information, see the Commission's Political 
Prisoner Database records 2016-00394 on Qin Chao, 2016-00395 on Yuan 
Ying, 2016-00461 on Lin Xiurong, 2016-00462 on He Yazhen, and 2016-
00464 on Yang Xiuqiong.
    \100\ ``For Revealing Huang Qi's Indictment for `Disclosing 
Secrets,' Tianwang Volunteer Yang Xiuqiong Faces Arrest'' [Pilu huang 
qi bei kong ``xie mi'' tianwang yigong yang xiuqiong zao pibu], Radio 
Free Asia, 28 June 17.
    \101\ Huang Qi, 64 Tianwang, ``Tianwang Citizen Journalist Yang 
Dongying Released Upon Completing Sentence'' [Tianwang gongmin jizhe 
yang dongying xingman huoshi], 5 November 16; `` `They Took My 13-Year-
Old Son to the Police Station,' '' Radio Free Asia, 31 July 15. For 
more information about Yang Dongying, see the Commission's Political 
Prisoner Database record 2017-00290.
    \102\ ``Imprisoned Tianwang Citizen Journalist Wang Jing's Brain 
Cancer Worsens, Urgently Needs Surgery'' [Tianwang gongmin jizhe wang 
jing yuzhong naoliu jiazhong jixu shoushu], 13 February 17. For more 
information on Wang Jing, see the Commission's Political Prisoner 
Database record 2014-00104. See also CECC, 2016 Annual Report, 6 
October 16, 65.
    \103\ PEN America, ``Darkened Screen: Constraints on Foreign 
Journalists in China,'' 22 September 16.
    \104\ Foreign Correspondents' Club of China, ``Working Conditions 
Survey 2016,'' November 2016, reprinted in Committee to Protect 
Journalists, 15 November 16.
    \105\ International Federation of Journalists, ``Strangling the 
Media: China Tightens Its Grip,'' January 2017.
    \106\ PEN America, ``Darkened Screen: Constraints on Foreign 
Journalists in China,'' 22 September 16, 18; Foreign Correspondents' 
Club of China, ``Working Conditions Survey 2016,'' November 2016, 
reprinted in Committee to Protect Journalists, 15 November 16, 1; 
International Federation of Journalists, ``Strangling the Media: China 
Tightens Its Grip,'' January 2017, 34-41.
    \107\ Natalie Thomas (@natalieinchina), Twitter post, 14 September 
16, 10:12 p.m.; China Digital Times, ``Wukan: Press Expelled, Rewards 
Offered,'' 15 September 16; International Federation of Journalists, 
``Strangling the Media: China Tightens Its Grip,'' January 2017, 37-38. 
See also Stephen McDonnell (@StephenMcDonnell), Twitter post, 14 
September 16, 8:42 p.m.
    \108\ ``5 Hong Kong Journalists, Including From Ming Pao, Detained 
for 5 Hours, Faced Rough Treatment and Verbal Abuse, Forced To Leave 
That Night'' [Mingbao deng 5 gangji bei kou 5 xiaoshi zao cubao duidai 
ruma lianye bei song zou], Ming Pao, 14 September 16. See also China 
Digital Times, ``Wukan: Press Expelled, Rewards Offered,'' 15 September 
16.
    \109\ ``Foreign Journalist Interviewing NPC Independent Candidate 
`Attacked' '' [Waiguo jizhe caifang renda duli canxuanren zao 
``gongji''], Voice of America, 18 November 16; Benjamin Haas, ``BBC 
Crew Attacked in China and Forced To Sign Confession,'' Guardian, 3 
March 17. According to the Guardian, BBC correspondent John Sudworth 
was able to interview the independent candidate after the election took 
place.
    \110\ John Sudworth, ``China Congress: BBC Team Forced To Sign 
Confession,'' BBC, 3 March 17; Benjamin Haas, ``BBC Crew Attacked in 
China and Forced To Sign Confession,'' Guardian, 3 March 17.
    \111\ Jonathan Kaiman, ``Eat, Pray, Love the Communist Party: A 
Road Trip Through Tibetan Lands, Guided by China,'' Los Angeles Times, 
9 January 17.
    \112\ For information on the censorship status of websites and 
keywords, see GreatFire.org, GreatFire Analyzer, last visited 19 July 
17. See also Justin Ellick, ``Six Sites Blocked by China's Great 
Firewall,'' Index on Censorship, 27 February 17.
    \113\ Katie Benner and Sui-Lee Wee, ``Apple Removes New York Times 
Apps From Its Store in China,'' New York Times, 4 January 17.
    \114\ ``709 Crackdown: Lawyer Li Heping Released, Forced To Take 
Medicine While in Detention'' [709 da zhuabu: li heping lushi huoshi 
zaiya qijian zao qiangpo fuyao], Radio Free Asia, 10 May 17. For more 
information on Li Heping, see the Commission's Political Prisoner 
Database record 2015-00284.
    \115\ ``Private School Teachers in Sichuan Protest Around 
Government Offices, Call for Foreign Media Support and Face Threats of 
Possible Detention'' [Sichuan minshi wei zhengfu kangyi xiang waimei 
qiuzhu zao qiuhou suanzhang weixie zhuabu], Radio Free Asia, 5 April 
17.
    \116\ Te-Ping Chen, ``China Offers Rare Insight Into Punishment for 
Speaking With Foreign Media,'' Wall Street Journal, China Real Time 
Report (blog), 27 April 17.
    \117\ PEN America, ``Darkened Screen: Constraints on Foreign 
Journalists in China,'' 22 September 16, 7, 12, 26. See also Foreign 
Correspondents' Club of China, ``Working Conditions Survey 2016,'' 
November 2016, reprinted in Committee to Protect Journalists, 15 
November 16; Yaqiu Wang, ``In China, Sources Face Harassment, Jail for 
Speaking to Foreign Media,'' Huffington Post, 24 February 17.
    \118\ Chinese Human Rights Defenders, ``Zhang Haitao,'' last 
visited 19 July 17; Rights Defense Network, ``Xinjiang Human Rights 
Defender Zhang Haitao's Appeal Case Announced Today--Upholds First-
Instance Trial Judgment of 19 Years' Imprisonment'' [Xinjiang renquan 
hanweizhe zhang haitao an jin ershen xuanpan--weichi yishen 19 nian 
youqi tuxing de panjue], 28 November 16; Catherine Lai, ``Xinjiang 
Court Upholds `Extraordinarily Harsh' 19-Year Sentence for Outspoken 
Writer Zhang Haitao,'' Hong Kong Free Press, 29 November 16.
    \119\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 18; Yaqiu Wang, ``Activist 
in Xinjiang Sentenced to 19 Years for Online Writings and Rights 
Activities,'' China Change, 21 January 16.
    \120\ Human Rights Watch, ``China: Drop Charges Against Tibetan 
Education Activist,'' 15 January 17.
    \121\ Edward Wong, ``Police in China Push for Trial of Tibetan 
Education Advocate,'' New York Times, 30 August 16; Yaqiu Wang, ``In 
China, Sources Face Harassment, Jail for Speaking to Foreign Media,'' 
Huffington Post, 24 February 17; Edward Wong, ``Tibetans Fight To 
Salvage Fading Culture in China,'' New York Times, 28 November 15; 
Edward Wong, ``A Showcase of Tibetan Culture Serves Chinese Political 
Goals,'' New York Times, 19 December 15; Jonah M. Kessel, ``A Tibetan's 
Journey for Justice,'' New York Times, Times Documentaries, 28 November 
15. For more information on Tashi Wangchug, see the Commission's 
Political Prisoner Database record 2016-00077.
    \122\ Rights Defense Network, ``Jiangsu Rights Defender Xu Qin 
Blocked From Traveling to Hong Kong, Shaanxi's Lu Dongli Denied Regular 
Passport and Hong Kong-Macau Travel Permit on Suspicion of Involvement 
in `July 9' Incident'' [Jiangsu weiquan renshi xu qin chujing fu 
xianggang bei zu shaanxi lu dongli shexian canyu ``709'' shijian buyu 
qianfa putong huzhao he gang'ao tongxing zheng], 15 March 17; 
``Passport Not Processed for Suspected Involvement in 709 Case, Lu 
Dongli Sues Qianyang County Public Security Bureau'' [She 709 an buyu 
ban huzhao lu dongli qisu qianyang xian gong'anju], Radio Free Asia, 17 
March 17.
    \123\ Chinese Academy of Governance, ``About CAG,'' 29 December 10, 
last visited 11 May 17.
    \124\ Chinese Academy of Governance, ``Committee Bulletin on 
Corrections Following Disciplinary Investigation'' [Zhonggong guojia 
xingzheng xueyuan weiyuanhui guanyu xunshi zhenggai qingkuang de 
tongbao], 26 April 17, 2(2)(7); Te-Ping Chen, ``China Offers Rare 
Insight Into Punishment for Speaking With Foreign Media,'' Wall Street 
Journal, China Real Time Report (blog), 27 April 17.
    \125\ China's Information Controls, Global Media Influence, and 
Cyber Warfare Strategy, Hearing of the U.S.-China Economic and Security 
Review Commission, 4 May 17, Testimony of Xiao Qiang, Adjunct 
Professor, Director, School of Information, University of California, 
Berkeley, and Founder and Chief Editor, China Digital Times, 2.
    \126\ Liza Lin and Josh Chin, ``China's VPN Crackdown Weighs on 
Foreign Companies There,'' Wall Street Journal, 2 August 17; Cate 
Cadell, ``Amid VPN Crackdown, China Eyes Upgrades to Great Firewall,'' 
Reuters, 20 July 17.
    \127\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17.
    \128\ Josh Chin, ``China Targets Social-Media Giants WeChat, Weibo 
in Cybersecurity Probe,'' Wall Street Journal, 11 August 17.
    \129\ Josh Chin and Eva Dou, ``Communist Party Pushes China's 
Internet Censors To `Ensure Political Security,' '' Wall Street 
Journal, 12 June 17.
    \130\ Jedidiah R. Crandall et al., ``Chat Program Censorship and 
Surveillance in China: Tracking TOM-Skype and Sina UC,'' First Monday, 
Vol. 18, No. 7 (1 July 13), 2.1.
    \131\ Josh Chin, ``China Targets Social-Media Giants WeChat, Weibo 
in Cybersecurity Probe,'' Wall Street Journal, 11 August 17.
    \132\ Ibid.; David Pierson and Melissa Etehad, ``Facebook Is 
Working To Stop Fake News by Tapping Human Fact-Checkers,'' Los Angeles 
Times, 15 December 16.
    \133\ ``In Past Half Year, WeChat Closed 45,000 Accounts, and Is 
Criticized for Suppressing Freedom of Speech'' [Weixin bannian fenghao 
4.5 wan bei pi daya yanlun ziyou], Radio Free Asia, 6 March 17; ``Once 
Again, Tencent Shuts Down Large Number of WeChat Groups'' [Tengxun 
zaidu fengsha dapi weixin qun], Radio Free Asia, 22 March 17.
    \134\ Masashi Crete-Nishihata, Jeffrey Knockel, and Lotus Ruan, 
``Tibetans Blocked From Kalachakra at Borders and on WeChat,'' 
University of Toronto, Munk School of Global Affairs, Citizen Lab, 10 
January 17; Lotus Ruan, Jeffrey Knockel, and Masashi Crete-Nishihata, 
``We (can't) Chat: `709 Crackdown' Discussions Blocked on Weibo and 
WeChat,'' University of Toronto, Munk School of Global Affairs, Citizen 
Lab, 13 April 17.
    \135\ Masashi Crete-Nishihata et al., ``Remembering Liu Xiaobo,'' 
University of Toronto, Munk School of Global Affairs, Citizen Lab, 16 
July 17.
    \136\ Lotus Ruan, Jeffrey Knockel, and Masashi Crete-Nishihata, 
``We (can't) Chat: `709 Crackdown' Discussions Blocked on Weibo and 
WeChat,'' University of Toronto, Munk School of Global Affairs, Citizen 
Lab, 13 April 17.
    \137\ Masashi Crete-Nishihata, Jeffrey Knockel, and Lotus Ruan, 
``Tibetans Blocked From Kalachakra at Borders and on WeChat,'' 
University of Toronto, Munk School of Global Affairs, Citizen Lab, 10 
January 17.
    \138\ Lotus Ruan, Jeffrey Knockel, and Masashi Crete-Nishihata, 
``We (can't) Chat: `709 Crackdown' Discussions Blocked on Weibo and 
WeChat,'' University of Toronto, Munk School of Global Affairs, Citizen 
Lab, 13 April 17.
    \139\ Tibetan Centre for Human Rights and Democracy, ``China: Stop 
Violating Right to Freedom of Religion and Belief of Tibetans,'' 12 
January 17.
    \140\ ``What China's VPN Ban Means for Internet Users: Quicktake 
Q&A,'' Bloomberg, 10 July 17.
    \141\ Mary Gallagher and Blake Miller, ``Can the Chinese Government 
Really Control the Internet? We Found Cracks in the Great Firewall.,'' 
Washington Post, Monkey Cage (blog), 21 February 17.
    \142\ Gerry Shih, ``China Cracks Down on Tools Used To Get Around 
Web Filters,'' Associated Press, 23 January 17; Oiwan Lam, ``China 
Officially Outlaws Unauthorized VPNs,'' Global Voices, 23 January 17.
    \143\ Ministry of Industry and Information Technology, Circular on 
Cleaning Up and Standardizing the Internet Access Service Market 
[Qingli guifan hulianwang wangluo jieru fuwu shichang de tongzhi], 17 
January 17, issued 22 January 17, 2(2.4); Sidney Leng et al., ``The 
Who, What and Why in China's Latest VPN Crackdown,'' South China 
Morning Post, 26 January 17.
    \144\ Chongqing Municipal Public Security Bureau, Chongqing 
Municipality Public Security Agencies' Internet Security Management 
Administrative Punishment Guidelines [Wangluo anquan guanli xingzheng 
chufa cailiang jizhun], effective 27 July 16, issued 17 March 17; Eva 
Li, ``Chongqing Police To Punish Those Skirting China's Great 
Firewall,'' South China Morning Post, 29 March 17.
    \145\ China's Information Controls, Global Media Influence, and 
Cyber Warfare Strategy, Hearing of the U.S.-China Economic and Security 
Review Commission, 4 May 17, Testimony of Sophie Richardson, China 
Director, Human Rights Watch, 5.
    \146\ ``China Tells Carriers To Block Access to Personal VPNs by 
February,'' Bloomberg, 10 July 17.
    \147\ Li Xiyin, ``MIIT Refutes It Requested Telecoms To Prohibit 
Individual VPN Service Providers: Regulatory Targets Are Unqualified 
Ones'' [Gongxinbu fouren yao yunyingshang jinzhi geren VPN yewu: guifan 
duixiang shi wu zizhizhe], The Paper, 12 July 17.
    \148\ Cate Cadell, ``China Targets Alibaba's Taobao, Other E-
Commerce Sites, in VPN Crackdown,'' Reuters, 17 August 17; April Ma, 
``Alibaba's Taobao Runs Afoul of Cyber-Regulators With Sale of Banned 
Items,'' Caixin, 18 August 17.
    \149\ ``Court Cites GFW Circumvention Software in Convicting Man 
for Three Tweets That Incited Ethnic Hatred,'' Fei Chang Dao (blog), 29 
March 17; Xinjiang Uyghur Autonomous Region, Kuitun Municipal People's 
Court, Criminal Judgment [Xinjiang weiwu'er zizhiqu kuitun shi renmin 
fayuan zingshi panjue shu], (2016) Xin 4003 Xing Chu No. 5, 24 March 
16, reprinted in China Judgements Online, 1 November 16. For more 
information on Tian Weiguo, see the Commission's Political Prisoner 
database record 2017-00195.
    \150\ Oiwan Lam, ``Leaked Xinjiang Police Report Describes 
Circumvention Tools as `Terrorist Software,' '' Global Voices, 26 
October 16; ``Man Held in China's Xinjiang for Downloading `Terrorist' 
Circumvention Software,'' Radio Free Asia, 28 October 16.
    \151\ Human Rights Watch, ``China: Abusive Cybersecurity Law Set To 
Be Passed,'' 6 November 16; Chinese Human Rights Defenders, `` `They 
Target My Human Rights Work as a Crime': Annual Report on the Situation 
of Human Rights Defenders in China (2016),'' February 2017, 14-15.
    \152\ Orville Schell, ``To Forget or Remember? China's Struggle 
With Its Past,'' Washington Quarterly, Fall 2016, 150-53; Josh Chin, 
``In China, Xi Jinping's Crackdown Extends to Dissenting Versions of 
History,'' Wall Street Journal, 1 August 16; Josh Chin, ``China Set To 
Tweak Civil Code To Punish Revisions of Martyr Lore,'' Wall Street 
Journal, China Real Time Report (blog), 13 March 17; Kiki Zhao, ``For 
Mocking a Martyr, Chinese Blogger Runs Afoul of Beijing Court,'' New 
York Times, Sinosphere (blog), 23 September 16.
    \153\ Zhou Lihang, ``Supreme People's Court Issues Model Cases on 
the Protection of Historical Figures' Personal Rights and Interests'' 
[Zuigao fayuan fabu baohu yingxiong renwu renge quanyi dianxing anli], 
China Court Net, 19 October 17; Jeremy Daum, ``Not Heroes of Free 
Speech,'' China Law Translate (blog), 21 October 16.
    \154\ Zhang Ziyang, ``Zhou Qiang: Dare To Draw the Sword Against 
Erroneous Western Thought'' [Zhou qiang: yao gan yu xiang xifang cuowu 
sichao liang jian], China News Service, 14 January 17.
    \155\ PRC General Provisions of the Civil Law [Zhonghua renmin 
gongheguo minfa zongze], passed 15 March 17, effective 1 October 17, 
art. 185; ``China Focus: China Adopts General Provisions of the Civil 
Law,'' Xinhua, 15 March 17.
    \156\ Shan Yuxiao, ``Draft Civil Code Changed Again in Many Places, 
Those Defaming the Reputations of Heroes and Martyrs Will Be Held 
Responsible'' [Minfa zongze cao'an zai gai duo chu qinfan yinglie 
mingyu jiang danze], Caixin, 12 March 17.
    \157\ Zhou Lihang, ``Supreme People's Court Issues Model Cases on 
the Protection of Historical Figures' Personal Rights and Interests'' 
[Zuigao fayuan fabu baohu yingxiong renwu renge quanyi dianxing anli], 
China Court Net, 19 October 17; Verna Yu, ``China Bans `Defamation' of 
Communist Party Heroes,'' America: The Jesuit Review, 20 March 17.
    \158\ See, e.g., ``Typo Says Soccer Chairman Is China's Chairman, 
LeTV Sacks Staffer'' [Wu cheng zuxie zhuxi wei guojia zhuxi leshi 
chaoren], Apple Daily, 7 November 16; Rights Defense Network, ``Zhu 
Delong, Former Associate Professor at Capital Normal University Who 
Criticized CCP General Secretary Xi Jinping in WeChat Group for 
Creating Personality Cult, Had Online Opinions Shut Down and Served 5 
Days of Administrative Detention'' [Qian shoudu shifan daxue fu 
jiaoshou zhu delong yin zai weixin qun piping zhonggong zongshuji xi 
jinping gao geren chongbai, fengsha wangluo minyi, jing bei xingzheng 
juliu 5 tian], 15 August 17.
    \159\ See, e.g., Bai Tiantian, ``Mao-Bashers Receive Punishment,'' 
Global Times, 17 January 17; ``Chinese Official Fired After Calling Mao 
a `Devil,' '' Reuters, 16 January 17; ``Chinese Professor Sacked After 
Criticizing Mao Online,'' Reuters, 10 January 17; Ben Blanchard, 
``Chinese Academic Who Called Mao a `Devil' Says He Was Sacked,'' 
Reuters, 4 August 17.
    \160\ See, e.g., ``Police Officer Who Reposted Article Critical of 
`Land Reform' Is Sentenced to Prison'' [Jingyuan zhuanfa piping 
``tugai'' wenzhang bei panxing], Radio Free Asia, 7 December 16. For 
more information on Miao Yue, see the Commission's Political Prisoner 
Database record 2017-00261. ``Writer Xiong Feijun Among Three 
Criminally Detained, Defense Lawyer Will Request Obtaining Guarantee 
Pending Further Investigation'' [Zuojia xiong feijun an san ren zao 
xingju daili lushi jiang ti qubao houshen], Radio Free Asia, 2 January 
17; ``Wife of Hubei Writer Xiong Feijun Breaks Silence, Speaks of 
Husband's Criminal Detention'' [Hubei zuojia xiong feijun qizi dapo 
chenmo tan qi zhangfu bei xingju], Radio Free Asia, 31 December 16. For 
more information on Xiong Yingxue (pen name Xiong Feijun), see the 
Commission's Political Prisoner Database record 2016-00502. China 
Digital Times, ``Rebel Pepper: Who's Afraid of the Big Banned Book? '' 
15 February 17. For more information, see the Commission's Political 
Prisoner Database records 2017-00112 on Dai Xuelin and 2017-00113 on 
Zhang Xiaoxiong.
    \161\ Alice Miller, ``What Would Deng Do? '' China Leadership 
Monitor, Hoover Institution, Stanford University, No. 52 (Winter 2017), 
14 February 17, 9.
    \162\ ``Woman Sentenced to 18 Months Imprisonment for Tencent QQ 
Posts That Insulted Leaders and Policies,'' Fei Chang Dao (blog), 27 
February 17. Judicial authorities in Jinzhou municipality, Hebei 
province, sentenced ``Ms. Li'' to one year and six months' imprisonment 
on the charge of ``picking quarrels and provoking trouble'' for 
material she shared via a QQ chat group that ``insulted and vilified 
foreign and domestic heads of state, national leaders, and national 
religious policies as well as false information about major domestic 
incidents.''
    \163\ ``Man Sentenced to Six Months Imprisonment for Tencent Wechat 
Posts Defaming Xi Jinping,'' Fei Chang Dao (blog), 23 February 17. In 
January 2017, judicial authorities in Ningling county, Shangqiu 
municipality, Henan province, sentenced ``Mr. Yu'' to six months' 
imprisonment on the charge of ``defamation'' (PRC Criminal Law, Article 
246). The verdict stated that ``Mr. Yu'' posted statements that 
``defamed Comrade Chairman Xi Jinping'' to a WeChat group. PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 246.
    \164\ ``For Satirizing `Bandit Mao' and `Steamed Bun Xi,' Shandong 
Netizen Wang Jiangfeng Sentenced to Two Years in Prison'' [Fengci ``mao 
zei'' ``xi baozi'' shandong wangmin panxing liang nian], Radio Free 
Asia, 12 April 17; Rights Defense Network, ``Wang Jiangfeng of Shandong 
Criminally Convicted for Speech, Sentenced to 2 Years in Prison'' 
[Shandong wang jiangfeng yin yan huozui bei pan 2 nian youqi tuxing], 
12 April 17. For more information about Wang Jiangfeng, see the 
Commission's Political Prisoner Database record 2016-00490.
    \165\ Rights Defense Network, ``Yanji City, Jilin Province, Netizen 
Kwon Pyong [Quan Ping] Suspected To Have Been Detained on October 1 for 
Wearing T-Shirt in Public With Slogan Critical of Xi Jinping'' [Jilin 
sheng yanji shi wangyou quan ping yi yin yu 10 yue 1 ri chuanxie you 
piping xi jinping biaoyu de wenhua shan shang jie er zao jubu], 31 
October 16; ``China Detains Jilin Activist for Wearing Anti-Xi Jinping 
T-Shirt,'' Radio Free Asia, 2 November 16.
    \166\ ``For Wearing T-Shirt Satirizing Xi Jinping, Kwon Pyong [Quan 
Ping] Accused of `Inciting Subversion' '' [Quan ping chuan fengci xi 
jinping wenhua shan bei kong ``shandian''], Radio Free Asia, 10 
February 17.

                                                  Worker Rights
                                                Worker Rights

                             Worker Rights


                              Trade Unions

    The All-China Federation of Trade Unions (ACFTU) remains 
the only trade union organization permitted under Chinese 
law,\1\ and Chinese labor advocates and international observers 
report that the ACFTU does not effectively represent workers' 
rights and interests.\2\ The ACFTU constitution describes the 
ACFTU as a ``mass organization'' \3\ under the leadership of 
the Chinese Communist Party and ``an important social pillar of 
state power.'' \4\ During the Commission's 2017 reporting year, 
leading union officials held concurrent positions in the 
government and Party,\5\ including ACFTU Chairman Li Jianguo, 
who also served as Vice Chairman of the National People's 
Congress Standing Committee and a member of the Party Central 
Committee Political Bureau.\6\ At the enterprise level, company 
management typically selects union representatives, often 
selecting company managers to represent workers.\7\ Earlier 
experiments with elections of ACFTU representatives and other 
union reforms have reportedly stalled in recent years.\8\ 
Restrictions on workers' rights to freely establish and join 
independent trade unions violate international standards set 
forth by the International Labour Organization (ILO),\9\ 
Universal Declaration of Human Rights,\10\ International 
Covenant on Civil and Political Rights,\11\ and International 
Covenant on Economic, Social and Cultural Rights.\12\

                         Collective Bargaining

    This past year, workers' right to collective bargaining 
remained limited in law and in practice. Provisions in the PRC 
Labor Law, PRC Labor Contract Law, and PRC Trade Union Law 
provide a legal framework for negotiating collective 
contracts,\13\ but these laws designate the Party-controlled 
ACFTU as responsible for negotiating with employers and signing 
collective contracts on behalf of workers.\14\ The PRC Trade 
Union Law requires trade unions to ``whole-heartedly serve 
workers''; \15\ in practice, however, Chinese labor advocates 
and other experts report that the ACFTU and its lower level 
branches do not adequately represent workers' interests,\16\ 
often siding instead with enterprise management.\17\ In the 
absence of effective union representation,\18\ some Chinese 
labor non-governmental organizations (NGOs) had shifted their 
focus in recent years, from providing legal aid and other 
services to training workers in collective bargaining.\19\ A 
December 2015 crackdown on labor rights advocates and NGOs in 
Guangdong province, however, has reportedly had a chilling 
effect on labor advocates' ability to promote collective 
bargaining rights.\20\ As a member of the ILO, China is 
obligated to respect workers' rights to collective 
bargaining.\21\

                             Civil Society

    The situation of labor rights advocates and NGOs has 
worsened in recent years, and government suppression of labor 
NGOs continued during this reporting year. Grassroots labor 
NGOs have existed in China for decades, offering legal aid, 
helping workers seek redress for workplace injuries and unpaid 
wages, educating workers about their legal rights, and 
providing a variety of social services to workers.\22\ In 
recent years, some labor NGOs also began training workers in 
collective bargaining.\23\ Authorities have long subjected 
labor NGOs to various forms of harassment,\24\ but labor rights 
advocates reported increasing pressure from authorities 
beginning in late 2014.\25\ In December 2015, authorities 
detained at least 18 labor advocates affiliated with several 
labor NGOs \26\ in a crackdown that domestic and international 
observers described as ``unprecedented.'' \27\ Labor advocates 
and NGOs reportedly continued to face heightened surveillance 
and pressure from authorities this past year.\28\ In May 2017, 
authorities in Jiangxi province detained three Chinese men 
conducting research on behalf of a U.S.-based labor NGO 
regarding working conditions in factories producing shoes for 
international brands.\29\ Authorities reportedly released all 
three on bail in June.\30\ In addition, scholar Anita Chan 
warned that the PRC Law on the Management of Overseas NGOs' 
Activities, which took effect on January 1, 2017,\31\ may 
further hinder the work of labor NGOs in China, as many of them 
rely on sources of funding outside of mainland China.\32\

                     SENTENCING OF LABOR ADVOCATES

    In fall 2016, a Guangdong province court sentenced four 
labor advocates detained in the December 2015 crackdown: Zeng 
Feiyang,\33\ Zhu Xiaomei,\34\ Tang Jian,\35\ and Meng Han.\36\ 
All four advocates were current or former staff of Guangdong-
based labor NGOs,\37\ and Zeng was the director of the Panyu 
Workers' Services Center.\38\ On September 26, 2016, the Panyu 
District People's Court in Guangzhou municipality, Guangdong, 
found Zeng, Zhu, and Tang guilty of ``gathering a crowd to 
disturb social order.'' \39\ The court sentenced Zeng to three 
years' imprisonment, suspended for four years; and sentenced 
Zhu and Tang both to one year and six months' imprisonment, 
suspended for two years.\40\ Authorities reportedly released 
them following the trial.\41\ Though released, a suspended 
sentence means the advocates may be constrained in their 
ability to continue their labor advocacy work.\42\ On November 
3, the same court found Meng Han guilty of ``gathering a crowd 
to disturb social order,'' \43\ sentencing him to one year and 
nine months' imprisonment.\44\ Authorities reportedly released 
Meng upon completion of his sentence on September 3, 2017.\45\ 
The ILO Committee on Freedom of Association stated that 
authorities seemed to have targeted these labor advocates for 
``being involved in a labour dispute,'' and noted that 
targeting individuals for such activities ``constitutes a 
serious interference with civil liberties in general and with 
trade union rights in particular.'' \46\

                     CHILLING EFFECT ON LABOR NGOS

    The detention and sentencing of labor advocates has 
reportedly had a chilling effect on labor NGOs this past 
year.\47\ Labor advocates and NGOs have maintained low 
profiles,\48\ and NGOs have reportedly canceled trainings and 
reduced programs.\49\ Legal scholar Aaron Halegua noted in an 
October 2016 report that the December 2015 crackdown has made 
labor NGOs reluctant to continue collective bargaining 
work.\50\ Some international scholars have argued that in 
targeting these labor advocates, Chinese authorities were 
signaling that labor NGOs should stop working on collective 
bargaining altogether.\51\ Panyu Workers' Services Center, the 
organization reportedly at the center of the December 2015 
crackdown,\52\ had trained and advised workers on collective 
bargaining.\53\ The Chinese government's restrictions on labor 
NGOs contravene international standards on freedom of 
association, including those found in the Universal Declaration 
of Human Rights, the International Covenant on Civil and 
Political Rights, and the ILO Declaration on Fundamental 
Principles and Rights at Work.\54\ [For more information on 
NGOs in China, see Section III--Civil Society.]

                      Worker Strikes and Protests

    Following reports of a significant increase in worker 
strikes and protests in the previous reporting year,\55\ the 
number of worker actions appeared to remain high this past 
year, though the Commission did not observe reliable 
statistics. The Hong Kong-based NGO China Labour Bulletin 
(CLB), which compiles data on worker actions collected from 
traditional news and social media,\56\ documented 2,663 strikes 
in 2016.\57\ This is fewer than the 2,776 strikes CLB 
documented in 2015, but approximately double the 1,379 strikes 
documented in 2014.\58\ According to their data, 76 percent of 
worker actions in 2016 involved wage arrears.\59\ The 
construction sector saw the largest number of strikes, 
accounting for 40 percent of the total, followed by 
manufacturing with 23 percent, and retail and services with 15 
percent.\60\ CLB statistics from the first half of 2017 
indicated similar trends: 40 percent of worker actions sampled 
by CLB researchers were in the construction sector and 22 
percent were in the retail and services sectors; 66 percent of 
sampled strikes in the first half of 2017 involved wage 
arrears.\61\ CLB researchers cautioned that their data were 
limited and likely represented a small fraction of the total 
number of strikes in China.\62\ Some local government figures 
indicate that the number of strikes may be much higher: The 
Party-run People's Daily reported that in the first 10 months 
of 2016, labor and social security inspection bureaus across 
Zhejiang province handled 1,701 labor-related ``sudden 
incidents'' (tufa shijian),\63\ a term the government often 
uses to refer to strikes and protests; \64\ China National 
Radio, an official broadcaster, reported that in 2016, 
Chongqing municipality handled 1,113 ``sudden incidents'' 
involving 64,500 workers.\65\ The Chinese government does not 
publish national statistics on strikes.\66\
    This past year, labor advocates noted increasing difficulty 
in finding information on strikes in China due to the chilling 
effect of the December 2015 crackdown on labor NGOs and 
tightening government control of the media. In January 2017, 
one Guangdong-based advocate told Radio Free Asia (RFA) that in 
the past two years he observed fewer official media reports on 
strikes, and noted that censorship of information relating to 
strikes on social media had also increased.\67\ An advocate 
from the Hong Kong Confederation of Trade Unions believes that 
because mainland labor NGOs are keeping a low profile following 
the 2015 detention of labor advocates, some observers have the 
``mistaken impression'' that strikes have decreased.\68\ In 
addition, in June 2016, authorities targeted an independent 
source of information on strikes and protests in China, 
detaining citizen journalists Lu Yuyu and Li Tingyu, who 
documented strikes and protests.\69\ On August 3, 2017, the 
Dali City People's Court in Yunnan province reportedly 
sentenced Lu to four years' imprisonment for ``picking quarrels 
and provoking trouble.'' \70\ The same court tried Li in secret 
in April, and authorities reportedly released her on bail on an 
unknown date.\71\ [For more information on censorship and media 
restrictions, see Section II--Freedom of Expression.]
    During this reporting year, government responses to worker 
strikes and protests appeared to be mixed, and some labor 
advocates asserted that the government's suppression of strikes 
had increased. The Commission observed reports of disputes in 
which Chinese authorities resolved disputes in court \72\ or 
assisted in finalizing negotiations between workers and 
management,\73\ as well as disputes in which authorities did 
not get involved.\74\ The Commission also observed reports of 
cases in which police responded violently to worker strikes and 
protests.\75\ According to CLB data, police responded in some 
way to approximately 26 percent of worker actions in 2016.\76\ 
In January 2017, labor advocates from Hong Kong and mainland 
China told RFA that mainland authorities had increased 
monitoring and suppression of worker strikes and protests.\77\
    Chinese law does not protect workers' right to strike.\78\ 
A February 2017 study in the Journal of Industrial Relations 
examined nearly 900 court cases between 2008 and 2015 in which 
employers dismissed workers for their involvement in a strike; 
the study found that courts deemed strikes to be unlawful in 64 
percent of cases, typically holding that striking violated 
workplace rules, and thus was acceptable grounds for 
dismissal.\79\ The International Covenant on Economic, Social 
and Cultural Rights, which China has signed and ratified, 
guarantees workers' right to strike,\80\ and a December 2016 
report from the ILO Committee on Freedom of Association noted 
that the Committee ``has always recognized the right to strike 
by workers and their organizations as a legitimate means of 
defending their economic and social interests.'' \81\

                              Child Labor

    The Commission continued to observe reports of the use of 
child labor in China this past year.\82\ In one widely reported 
case, clothing manufacturers in Changshu city, Suzhou 
municipality, Jiangsu province, had hired workers from Yunnan 
province through recruiters, and many of the workers were under 
the age of 16.\83\ According to the Party-run Chuncheng Evening 
Post, employers beat the children for working too slowly and 
withheld pay and identification documents to prevent them from 
quitting.\84\ Such actions are indicators of forced labor, 
according to the ILO.\85\ Authorities detained at least two 
individuals following the media reports.\86\ Domestic laws 
generally prohibit the employment of minors under the age of 
16,\87\ and China has ratified the two fundamental ILO 
conventions on the elimination of child labor.\88\ The ILO 
Country Office for China and Mongolia noted that the Chinese 
government has not released official statistics on child labor 
in China, nor has it reported any cases to the ILO.\89\ [For 
more information on forced labor in China, see Section II--
Human Trafficking.]

                     Occupational Health and Safety

    During this reporting year, government data showed a 
continued decline in both workplace accidents and deaths, 
though the Commission continued to observe reports of lax 
enforcement of work safety laws and regulations. The State 
Administration of Work Safety (SAWS) reported in January 2017 
that workplace accidents and deaths declined 5.8 and 4.1 
percent, respectively, in 2016 compared to 2015.\90\ SAWS also 
reported that accidents and deaths in the coal, fireworks, and 
transportation industries decreased during the same period, but 
did not provide statistics.\91\ Although China has numerous 
work safety laws and regulations,\92\ the Commission continued 
to observe reports of lax enforcement of those laws.\93\
    Official statistics indicate that pneumoconiosis--a lung 
disease caused by inhaling dust \94\--is the most prevalent 
form of occupational illness in China; moreover, pneumoconiosis 
sufferers reportedly face difficulty obtaining workers' 
compensation. The National Health and Family Planning 
Commission (NHFPC) reported in December 2015 that 
pneumoconiosis accounted for roughly 90 percent of all cases of 
occupational illness in China in 2014.\95\ Although the 
Commission did not observe officially published statistics for 
2015 or 2016, the NHFPC noted in January 2016 that experts 
expected rates of pneumoconiosis to remain high in the near 
future.\96\ A December 2016 report by Beijing-based non-
governmental organization (NGO) Love Save Pneumoconiosis \97\ 
found that pneumoconiosis sufferers had difficulty obtaining 
workers' compensation, as only 9.5 percent of surveyed 
pneumoconiosis sufferers had signed formal contracts with 
employers, and 84.8 percent had not obtained workers' 
compensation insurance.\98\ The Party-run newspaper Workers' 
Daily reported in March 2017 that pneumoconiosis sufferers 
often had to spend significant time and money to obtain proper 
diagnoses and receive compensation.\99\ In October 2016, 
authorities in Ganluo county, Liangshan Yi Autonomous 
Prefecture, Sichuan province, briefly detained several former 
miners who suffer from pneumoconiosis for petitioning and 
protesting to demand workers' compensation.\100\
    This past year, the government issued several documents 
setting targets and outlining plans for improving occupational 
health and safety. The National Human Rights Action Plan of 
China (2016-2020), released in September 2016, set the goal of 
reducing workplace accident deaths by 10 percent by 2020.\101\ 
In December 2016, the State Council General Office issued the 
National Occupational Illness Control Plan (2016-2020), with 
stated goals including ``establishing and improving 
occupational illness control structures for employer 
responsibility, administrative supervision, enterprise self-
discipline, worker participation, and societal monitoring.'' 
\102\ In January 2017, the State Council General Office also 
issued the 13th Five-Year Plan on Work Safety calling for 
reductions in workplace accidents and deaths in various 
categories, including reducing the number of deaths in 
workplace accidents by 10 percent.\103\ A January 2017 National 
Bureau of Economic Research working paper evaluating a previous 
policy aimed at reducing workplace deaths found evidence that 
local governments had manipulated statistics on workplace 
deaths in order to meet their yearly targets.\104\

                              Wage Arrears

    Wage arrears remained a significant problem this past year, 
and were reportedly a growing problem in some sectors of the 
economy. Wage arrears have long been a problem for China's 281 
million migrant workers,\105\ particularly in the construction 
industry.\106\ In 2016, 76 percent of all strikes documented by 
China Labour Bulletin involved wage arrears.\107\ The Supreme 
People's Procuratorate reported in March 2017 that the number 
of prosecutions for failure to pay wages had increased 26.5 
percent in 2016 compared to 2015.\108\ Although a January 2016 
opinion issued by the State Council General Office set the goal 
of containing the problem of migrant worker wage arrears by 
2020,\109\ in January 2017, an official from the Ministry of 
Human Resources and Social Security told the People's Daily 
that slowing economic growth had increased the risk of wage 
arrears in the construction industry as well as other 
sectors.\110\ International and domestic media reported this 
past year that while wage arrears remained a problem in 
traditional sectors of the economy, they were also becoming a 
problem in new industries such as Internet commerce.\111\ Vice 
Minister of Human Resources and Social Security Qiu Xiaoping 
told People's Daily in January 2017 that one of the reasons 
wage arrears remained a problem was that the penalties for 
companies that failed to pay workers were ``especially low.'' 
\112\

                              Unemployment

    China's economic growth rate continued to decline, and the 
official unemployment rate reportedly did not provide an 
accurate picture of employment in China. According to the 
National Bureau of Statistics of China (NBS), in 2016, China's 
rate of GDP growth was 6.7 percent.\113\ This was the slowest 
rate in 26 years,\114\ though international economists 
questioned the accuracy of China's GDP growth estimates.\115\ 
International news media reported declining employment in some 
types of manufacturing,\116\ as well as layoffs, 
underemployment, and early retirement in state sectors such as 
steel and coal.\117\ Other economic indicators suggested that 
both the service sector and manufacturing overall continued to 
grow at a modest pace.\118\ The official urban registered 
unemployment rate at the end of 2016 was 4.02 percent,\119\ but 
this figure only included those urban residents who officially 
registered as unemployed, rather than the number of unemployed 
individuals nationwide.\120\ A study by the Hunan Provincial 
Bureau of Statistics cautioned that the current methodology 
excludes many of China's migrant workers,\121\ while one 
official at a county-level human resources and social security 
bureau noted increasing levels of ``hidden unemployment'' in 
rural areas.\122\ In his June 2017 report to the United 
Nations, Special Rapporteur on extreme poverty and human rights 
Philip Alston emphasized that accurate statistics are necessary 
for ``successful'' economic policymaking.\123\ The 2010 PRC 
Social Insurance Law stipulates that workers and employers 
contribute to an unemployment insurance fund.\124\ NBS, 
however, reported that as of late 2016, only around 23 percent 
of workers contributed to unemployment insurance funds,\125\ 
and the Ministry of Human Resources and Social Security 
(MOHRSS) further reported in March 2017 that only around 17 
percent of migrant workers contributed to unemployment 
insurance funds.\126\

                            Social Insurance

    During this reporting year, workers' rates of social 
insurance coverage showed some improvement, but overall 
remained low.\127\ According to the PRC Social Insurance Law, 
workers are entitled to five forms of social insurance: basic 
pension insurance, health insurance, work-related injury 
insurance, unemployment insurance, and maternity 
insurance.\128\ Under the law, employers and workers are 
required to contribute to basic pension, health, and 
unemployment insurance; in addition, employers are required to 
contribute to work-related injury and maternity insurance on 
workers' behalf.\129\ According to NBS and MOHRSS, from 2015 to 
2016, workers' compensation coverage increased slightly overall 
from 27.7 to 28.2 percent,\130\ but decreased slightly for 
migrant workers from 27.0 to 26.7 percent participating.\131\ 
Employment-based pension insurance coverage rates increased 
from 45.7 percent to 48.8 percent for all workers, and 
increased from 20.1 percent to 20.7 percent for migrant 
workers.\132\ Employer-based health insurance coverage remained 
below 40 percent for all workers and below 20 percent for 
migrant workers.\133\ Unemployment and maternity insurance 
coverage remained below 25 percent for all workers.\134\ In 
addition to low levels of coverage, international experts noted 
that because local governments manage social insurance funds, 
many migrant workers face bureaucratic obstacles when 
transferring their social insurance benefits to new 
jurisdictions.\135\ Some migrant workers reportedly preferred 
not to participate in social insurance programs, as they were 
not confident their contributions would be available to them in 
the future.\136\

                             Dispatch Labor

    The Commission continued to observe reports this past year 
\137\ of employers violating domestic laws and regulations on 
the use of dispatch workers.\138\ In order to cut costs, firms 
often use dispatch labor (laowu paiqian)--workers hired through 
subcontracting agencies.\139\ Provisions in the PRC Labor 
Contract Law stipulate that employers pay dispatch workers the 
same as full-time workers doing similar work, and generally 
only employ dispatch workers on a temporary, auxiliary, or 
substitute basis.\140\ The 2014 Interim Provisions on Dispatch 
Labor further required that dispatch labor make up no more than 
10 percent of a firm's total workforce by March 2016.\141\ 
Despite these requirements, Chinese legal professionals found 
that dispatch workers continued to receive lower wages and 
benefits than their directly employed counterparts, and often 
faced difficulties holding firms and dispatch agencies 
accountable for labor law violations.\142\ Moreover, firms are 
reportedly using ``outsourced labor'' (laowu waibao), another 
form of subcontracted labor, to get around the requirement to 
reduce the percentage of dispatch laborers they employ.\143\ 
According to a researcher with the Chinese Academy of Labour 
and Social Security, although the number of dispatch workers in 
China has declined in recent years, the use of workers who are 
`` `outsourced in name, dispatch in reality' is rampant.'' 
\144\

          ``Employment Relationships'' and China's Labor Laws

    This past year, many categories of workers were unable to 
benefit fully from the protections provided under Chinese 
law,\145\ including workers above the retirement age,\146\ 
student workers and interns,\147\ and independent contractors 
or informal workers.\148\ The PRC Labor Law and PRC Labor 
Contract Law apply to workers who have an ``employment 
relationship'' (laodong guanxi) with their employers.\149\ 
Workers past the retirement age and students, however, are not 
able to legally form an official ``employment relationship,'' 
\150\ and thus do not receive the protection of these labor 
laws.\151\ Interns are protected by separate regulations 
requiring that internships be relevant to students' plans of 
study and prohibiting interns from working more than eight 
hours per day.\152\ Yet the Commission continued to observe 
reports of vocational schools sending students to work long 
hours for low pay in jobs unrelated to their fields of 
study,\153\ and one former recruiter said such practices were 
common.\154\ Moreover, contract workers and casual or informal 
employees such as delivery drivers, window washers, and street 
cleaners \155\ typically do not receive social insurance 
benefits, and are often unable to benefit from labor law 
protections due to difficulties proving the existence of an 
``employment relationship.'' \156\

                                                  Worker Rights
                                                Worker Rights
    Notes to Section II--Worker Rights

    \1\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed 3 April 92, amended and effective 27 October 01, arts. 9-11; 
``China's Complicated Relationship With Workers' Rights,'' World 
Politics Review, 25 January 17; Aaron Halegua, ``Who Will Represent 
China's Workers? Lawyers, Legal Aid, and the Enforcement of Labor 
Rights,'' New York University School of Law, U.S.-Asia Law Institute, 
October 2016, 11. See also UN Committee on Economic, Social and 
Cultural Rights, Concluding Observations on the Second Periodic Report 
of China, including Hong Kong, China and Macao, China, adopted by the 
Committee at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 
14, para. 23.
    \2\ Dexter Roberts, ``Beijing Wants One Union To Rule Them All,'' 
Bloomberg Businessweek, 10 November 16; Wang Jiangsong (wang 
jiangsong), ``Worker Representative Peng Jiayong Discusses a Workers' 
Representative System at `Unirule Institute of Economics Bi-Weekly 
Forum' '' [Gongren daibiao peng jiayong zai ``tianze shuang zhou 
luntan'' changtan gongren daibiao zhi], WeChat post, 24 January 17; 
Diana Fu, ``Disguised Collective Action in China,'' Comparative 
Political Studies, Vol. 50, Issue 4 (March 2017), 505; Aaron Halegua, 
``Who Will Represent China's Workers? Lawyers, Legal Aid, and the 
Enforcement of Labor Rights,'' New York University School of Law, U.S.-
Asia Law Institute, October 2016, 11; Tim Pringle, ``What Do Labour 
NGOs in China Do? '' University of Nottingham, China Policy Institute: 
Analysis (blog), 17 October 16.
    \3\ Embassy of the People's Republic of China in the Federal 
Democratic Republic of Nepal, ``Major Mass Organizations,'' 27 October 
04; Anthony J. Spires, ``Contingent Symbiosis and Civil Society in an 
Authoritarian State: Understanding the Survival of China's Grassroots 
NGOs,'' American Journal of Sociology, Vol. 117, No. 1 (July 2011), 9; 
Karla Simon, Civil Society in China: The Legal Framework From Ancient 
Times to the ``New Reform Era'' (New York: Oxford University Press, 
2013), 167-74. ``Mass organizations'' are organizations under the 
Chinese Communist Party such as the All-China Women's Federation, 
Communist Youth League of China, and All-China Federation of Industry 
and Commerce. The Chinese Embassy in Nepal described these 
organizations as ``a bridge linking the CPC [Communist Party of China] 
and government with the people.'' According to scholar Anthony J. 
Spires, in practice ``mass organizations'' have functioned as ``one-way 
conduits for instructions from the top to the bottom.''
    \4\ Constitution of the Chinese Trade Unions [Zhongguo gonghui 
zhangcheng], issued 22 October 13, General Principles.
    \5\ See, e.g., All-China Federation of Trade Unions, ``Xu Zhenchao, 
All-China Federation of Trade Unions Vice Chairman (Part Time)'' [Xu 
zhenchao quanguo zong gonghui fuzhuxi (jianzhi)], last visited 21 March 
17; Fujian Provincial Federation of Trade Unions, ``Provincial 
Federation Leadership'' [Sheng zong lingdao], last visited 22 March 17; 
Beijing Municipal Federation of Trade Unions, ``Municipal Federation 
Profile'' [Shi zong gaikuang], last visited 22 March 17; Pingchang 
County Trade Association, ``Trade Union Leadership'' [Gonghui lingdao], 
last visited 9 June 17.
    \6\ All-China Federation of Trade Unions, ``Li Jianguo, Chairman of 
the All-China Federation of Trade Unions'' [Li jianguo quanguo zong 
gonghui zhuxi], last visited 21 March 17.
    \7\ Tim Pringle, ``What Do Labour NGOs in China Do? '' University 
of Nottingham, China Policy Institute: Analysis (blog), 17 October 16; 
Jens Lerche et al., ``The Triple Absence of Labour Rights: Triangular 
Labour Relations and Informalisation in the Construction and Garment 
Sectors in Delhi and Shanghai,'' University of London, SOAS, Centre for 
Development Policy and Research, Working Paper 32/17, February 2017, 
11, 19; Samuel Wrest, ``Evaluating Trade Union Law and Collective 
Bargaining in China: Key Considerations for Foreign Firms,'' China 
Briefing (blog), 8 March 17.
    \8\ Kevin Lin, ``Rising Inequality and Its Discontents in China,'' 
New Labor Forum, Vol. 25, No. 3 (2016), 71; ``China's Complicated 
Relationship With Workers' Rights,'' World Politics Review, 25 January 
17. For examples of reform efforts from previous reporting years, see 
CECC, 2010 Annual Report, 10 October 10, 73-74; CECC, 2012 Annual 
Report, 10 October 12, 60; CECC, 2013 Annual Report, 10 October 13, 67-
68.
    \9\ International Labour Organization, ILO Convention (No. 87) 
Concerning Freedom of Association and Protection of the Right To 
Organise, 4 July 50, arts. 2, 3, 5. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, 14 September 16, 
paras. 3, 16-17, 54, 57.
    \10\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
23(4).
    \11\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22(1); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 9 June 17. China has signed but not 
ratified the ICCPR. See also UN General Assembly, Report of the Special 
Rapporteur on the Rights to Freedom of Peaceful Assembly and of 
Association, Maina Kiai, A/71/385, 14 September 16, para. 55.
    \12\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 9 June 17. China has 
signed and ratified the ICESCR. See also UN General Assembly, Report of 
the Special Rapporteur on the Rights to Freedom of Peaceful Assembly 
and of Association, Maina Kiai, A/71/385, 14 September 16, para. 55.
    \13\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 16-35; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, arts. 51-56; PRC Trade 
Union Law [Zhonghua renmin gongheguo gonghui fa], passed 3 April 92, 
amended and effective 27 October 01, arts. 6, 20.
    \14\ Ibid., art. 33; Ibid., arts. 6, 51, 56; Ibid., arts. 6, 20. 
See also ``China's Complicated Relationship With Workers' Rights,'' 
World Politics Review, 25 January 17.
    \15\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed 3 April 92, amended and effective 27 October 01, art. 6.
    \16\ Dexter Roberts, ``Beijing Wants One Union To Rule Them All,'' 
Bloomberg Businessweek, 10 November 16; Wang Jiangsong (wang 
jiangsong), ``Worker Representative Peng Jiayong Discusses a Workers' 
Representative System at `Unirule Institute of Economics Bi-Weekly 
Forum' '' [Gongren daibiao peng jiayong zai ``tianze shuang zhou 
luntan'' changtan gongren daibiao zhi], WeChat post, 24 January 17; 
Diana Fu, ``Disguised Collective Action in China,'' Comparative 
Political Studies, Vol. 50, Issue 4 (March 2017), 505; Tim Pringle, 
``What Do Labour NGOs in China Do? '' University of Nottingham, China 
Policy Institute: Analysis (blog), 17 October 16.
    \17\ Dexter Roberts, ``Beijing Wants One Union To Rule Them All,'' 
Bloomberg Businessweek, 10 November 16; Tim Pringle, ``What Do Labour 
NGOs in China Do? '' University of Nottingham, China Policy Institute: 
Analysis (blog), 17 October 16.
    \18\ Dexter Roberts, ``Beijing Wants One Union To Rule Them All,'' 
Bloomberg Businessweek, 10 November 16; Aaron Halegua, ``Who Will 
Represent China's Workers? Lawyers, Legal Aid, and the Enforcement of 
Labor Rights,'' New York University School of Law, U.S.-Asia Law 
Institute, October 2016, 11; Kevin Lin, ``Rising Inequality and Its 
Discontents in China,'' New Labor Forum, Vol. 25, No. 3 (2016), 71.
    \19\ Tim Pringle, ``What Do Labour NGOs in China Do? '' University 
of Nottingham, China Policy Institute: Analysis (blog), 17 October 16; 
Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, Legal 
Aid, and the Enforcement of Labor Rights,'' New York University School 
of Law, U.S.-Asia Law Institute, October 2016, 38. See also Ivan 
Franceschini, ``Revisiting Chinese Labour NGOs: Some Grounds for Hope? 
'' Made in China, Issue 1 (January-March 2016), 19.
    \20\ Chun Han Wong, ``Chinese Labor Activists Handed Suspended 
Sentences,'' Wall Street Journal, 26 September 16; Tim Pringle, ``What 
Do Labour NGOs in China Do? '' University of Nottingham, China Policy 
Institute: Analysis (blog), 17 October 16; Aaron Halegua, ``Who Will 
Represent China's Workers? Lawyers, Legal Aid, and the Enforcement of 
Labor Rights,'' New York University School of Law, U.S.-Asia Law 
Institute, October 2016, 2, 43.
    \21\ International Labour Organization, ILO Declaration on 
Fundamental Principles and Rights at Work and Its Follow-Up, 18 June 
98, art. 2(a). Article 2 of the ILO Declaration on Fundamental 
Principles and Rights at Work states that ``all Members, even if they 
have not ratified the Conventions in question, have an obligation 
arising from the very fact of membership in the Organization to 
respect, to promote and to realize, in good faith and in accordance 
with the Constitution, the principles concerning the fundamental rights 
which are the subject of those Conventions, namely: (a) freedom of 
association and the effective recognition of the right to collective 
bargaining . . ..'' International Labour Organization, ``China,'' 
NORMLEX Information System on International Labour Standards, last 
visited 9 June 17. China became a member of the ILO in 1919.
    \22\ ``Interpreting Chinese Labour: Informalisation or Empowerment? 
'' in Made in China Yearbook 2016: Disturbances in Heaven, eds. Ivan 
Franceschini et al. (Canberra: Australian National University Press, 
February 2017), 37; Diana Fu, ``Disguised Collective Action in China,'' 
Comparative Political Studies, Vol. 50, Issue 4 (March 2017), 506-7; 
Tim Pringle, ``What Do Labour NGOs in China Do? '' University of 
Nottingham, China Policy Institute: Analysis (blog), 17 October 16.
    \23\ Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, 
Legal Aid, and the Enforcement of Labor Rights,'' New York University 
School of Law, U.S.-Asia Law Institute, October 2016, 38; Tim Pringle, 
``What Do Labour NGOs in China Do? '' University of Nottingham, China 
Policy Institute: Analysis (blog), 17 October 16. See also Ivan 
Franceschini, ``Revisiting Chinese Labour NGOs: Some Grounds for Hope? 
'' Made in China, Issue 1 (January-March 2016), 18-19.
    \24\ Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, 
Legal Aid, and the Enforcement of Labor Rights,'' New York University 
School of Law, U.S.-Asia Law Institute, October 2016, 36; Diana Fu, 
``Disguised Collective Action in China,'' Comparative Political 
Studies, Vol. 50, Issue 4 (March 2017), 507-8. See also CECC, 2012 
Annual Report, 10 October 12, 59, 122.
    \25\ Lin Yunfei, Nan Fei Yan Social Work Services Center, `` `Dead 
End,' an Open Letter From Labor Rights Defense Organization Nan Fei 
Yan'' [``Ci lu butong'' zhi laogong weiquan zuzhi nan fei yan de 
gongkai xin], reprinted in New Citizens' Movement (blog), 19 October 
15; Feng Renke and Li Linjin, ``The Plight of Chinese Labor Rights 
NGOs'' [Zhongguo laogong weiquan NGO de kunjing], Financial Times, 2 
March 15; Alexandra Harney, ``China Labor Activists Say Facing 
Unprecedented Intimidation,'' Reuters, 21 January 15. For information 
on the harassment of labor rights advocates and NGOs in the 2015 and 
2016 reporting years, see CECC, 2016 Annual Report, 6 October 16, 84-
85; CECC, 2015 Annual Report, 8 October 15, 85-86.
    \26\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected; Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Tom Phillips, ``Call for China To Free 
Labour Activists or Risk Backlash From Frustrated Workforce,'' 
Guardian, 9 December 15; Yaxue Cao, ``Chinese Authorities Orchestrate 
Surprise Raid of Labor NGOs in Guangdong, Arresting Leaders,'' China 
Change, 10 December 15. See also ``Guangdong Authorities Arrest Labor 
Rights Advocates,'' Congressional-Executive Commission on China, 21 
January 16.
    \27\ ``Labor Conflicts at Hong Kong-Invested Enterprises in 
Mainland Worsen, Worker Strikes and Protests Increase 30 Percent'' 
[Neidi gangzi qiye laozi ehua gongchao zeng sancheng], Radio Free Asia, 
12 October 16; Michael Forsythe and Chris Buckley, ``China Arrests at 
Least 3 Workers' Rights Leaders Amid Rising Unrest,'' New York Times, 5 
December 15; Tom Phillips, ``Call for China To Free Labour Activists or 
Risk Backlash From Frustrated Workforce,'' Guardian, 9 December 15. For 
more information on government suppression of labor NGOs in previous 
years, see CECC, 2016 Annual Report, 6 October 16, 84-85; CECC, 2015 
Annual Report, 8 October 15, 85-86; CECC, 2012 Annual Report, 10 
October 12, 59, 122.
    \28\ ``Under Increased Control, Labor Rights Defense Incidents 
Difficult To Expose'' [Jiaqiang guankong xia laogong weiquan shijian 
nan puguang], Radio Free Asia, 27 January 17; James Griffiths, `` `We 
the Workers': On the Front Lines of China's Record-Level Labor 
Unrest,'' CNN, 22 February 17; Dexter Roberts, ``Beijing Wants One 
Union To Rule Them All,'' Bloomberg Businessweek, 10 November 16; Aaron 
Halegua, ``Who Will Represent China's Workers? Lawyers, Legal Aid, and 
the Enforcement of Labor Rights,'' New York University School of Law, 
U.S.-Asia Law Institute, October 2016, 36.
    \29\ John Ruwitch, ``Activist Probing Factories Making Ivanka Trump 
Shoes in China Arrested: Group,'' Reuters, 31 May 17; Zhuang An, ``Case 
of Illegal Use of Surveillance Equipment Uncovered in Ganzhou, Jiangxi, 
Three Individuals Criminally Detained'' [Jiangxi ganzhou pohuo yi qi 
feifa shiyong qieting qiezhao zhuanyong qicai fanzui an, xingju san 
ren], The Paper, 6 June 17; China Labor Watch, ``Three China Labor 
Watch's Investigators Released on Bail, Pending a Trial,'' 28 June 17.
    \30\ Erika Kinetz, ``Making Ivanka Trump Shoes: Long Hours, Low Pay 
and Abuse,'' Associated Press, 28 June 17; China Labor Watch, ``Three 
China Labor Watch's Investigators Released on Bail, Pending a Trial,'' 
28 June 17.
    \31\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities [Zhonghua renmin gongheguo jingwai feizhengfu 
zuzhi jingnei huodong guanli fa], passed 28 April 16, effective 1 
January 17.
    \32\ Renato Marques, ``Analysis: Labor-Related NGOs in China Facing 
Hard Times,'' Macau Daily Times, 16 January 17. See also Ivan 
Franceschini, ``Meet the State Security: Chinese Labour Activists and 
Their Controllers,'' Made in China, Vol. 2, Issue 1 (January-March 
2017), 37; UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 74. For more information 
on the PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities, see CECC, 2016 Annual Report, 6 October 16, 
226-27.
    \33\ For more information on Zeng Feiyang, see the Commission's 
Political Prisoner Database record 2015-00427.
    \34\ For more information on Zhu Xiaomei, see the Commission's 
Political Prisoner Database record 2015-00428.
    \35\ For more information on Tang Jian, see the Commission's 
Political Prisoner Database record 2016-00017.
    \36\ For more information on Meng Han, see the Commission's 
Political Prisoner Database record 2014-00026.
    \37\ Rights Defense Network, `` `12/3 Guangzhou Labor NGO Case' 
Arrests Approved for Four Individuals, One Released, Whereabouts of Two 
Unknown'' [``12.3 guangzhou laogong NGO an'' jin si ren bei pizhun 
daibu, yi ren huoshi, liang ren wu xialuo], 8 January 16.
    \38\ Rights Defense Network, ``Detained Guangdong Labor NGO Member 
Zhu Xiaomei Applies for Bail Because Child Still Nursing, Application 
Rejected; Currently Five NGO Members Criminally Detained, Two Forcibly 
Disappeared (Introduction to 7 Detained NGO Members Attached)'' 
[Guangdong bei zhua laogong NGO chengyuan zhu xiaomei yin haizi reng 
zai buru qi shenqing qubao bei ju muqian gong wu ming NGO chengyuan zao 
xingju, liang wei zao qiangpo shizong (fu 7 wei bei zhua NGO chengyuan 
jianjie)], 15 December 15; Red Balloon Solidarity, ``Sunday Topic: They 
Promoted the Rights and Interests of Migrants, but Spent Migrant's Day 
in a Detention Center'' [Zhouri huati: tamen wei yimingong shenzhang 
quanyi yimin ri que zai kanshousuo duguo], Ming Pao, 19 December 15. 
For additional information on Panyu Workers' Services Center, see Zhen 
Jinghui, ``Zeng Feiyang: A Labor NGO's Fight for Survival'' [Zeng 
feiyang: yi ge laogong NGO de jiafeng shengcun], South Reviews, 27 
March 10, reprinted in Sina, 5 December 13.
    \39\ ``Zeng Feiyang, Tang Huanxing, and Zhu Xiaomei Sentenced at 
First Instance Trial for Gathering a Crowd To Disturb Social Order, 
Three Defendants Admit Guilt, Express Remorse'' [Zeng feiyang tang 
huanxing zhu xiaomei juzhong raoluan shehui zhixu an yishen dangting 
xuanpan san beigao biaoshi renzui huizui], Xinhua, 26 September 16; PRC 
Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, effective 1 November 15, 
art. 290.
    \40\ ``Zeng Feiyang, Tang Huanxing, and Zhu Xiaomei Sentenced at 
First Instance Trial for Gathering a Crowd To Disturb Social Order, 
Three Defendants Admit Guilt, Express Remorse'' [Zeng feiyang tang 
huanxing zhu xiaomei juzhong raoluan shehui zhixu an yishen dangting 
xuanpan san beigao biaoshi renzui huizui], Xinhua, 26 September 16; 
Michael Forsythe, ``3 Labor Activists in China Get Suspended Prison 
Terms,'' New York Times, 26 September 16.
    \41\ ``Zeng Feiyang One of 3 Labor Figures Released With Suspended 
Sentences'' [Zeng feiyang deng 3 laogong renshi bei pan huanxing 
huoshi], Radio Free Asia, 26 September 16.
    \42\ Michael Forsythe, ``3 Labor Activists in China Get Suspended 
Prison Terms,'' New York Times, 26 September 16; Shawn Shieh, 
``Guangzhou Labor Activists Are Given Suspended Sentences,'' NGOs in 
China (blog), 14 October 16; Venus Wu and James Pomfret, ``Prominent 
Southern China Labor Activist Avoids Jail,'' Reuters, 26 September 16. 
For legal provisions on suspended sentences, see PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, arts. 75-77.
    \43\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 290.
    \44\ ``Guangdong Labor Rights Defender Meng Han Found Guilty of 
Gathering a Crowd To Disturb Social Order, Sentenced to 21 Months in 
Prison'' [Guangdong laogong weiquan renshi meng han juzhong raoluan 
shehui zhixu zuicheng, pan jian 21 ge yue], Initium Media, 4 November 
16; Catherine Lai, ``Guangdong Labour Activist Meng Han Sentenced to 1 
Year, 9 Months,'' Hong Kong Free Press, 3 November 16.
    \45\ China Labour Bulletin, ``Labour Activist Meng Han Released 
After 21 Months in Prison,'' 4 September 17.
    \46\ International Labour Office, Reports of the Committee on 
Freedom of Association: 380th Report of the Committee on Freedom of 
Association, GB.328/INS/14, 23 November-10 December 16, para. 236.
    \47\ ``Labor Conflicts at Hong Kong-Invested Enterprises in 
Mainland Worsen, Worker Strikes and Protests Increase 30 Percent'' 
[Neidi gangzi qiye laozi ehua gongchao zeng sancheng], Radio Free Asia, 
12 October 16; Aaron Halegua, ``Who Will Represent China's Workers? 
Lawyers, Legal Aid, and the Enforcement of Labor Rights,'' New York 
University School of Law, U.S.-Asia Law Institute, October 2016, 2.
    \48\ ``Under Increased Control, Labor Rights Defense Incidents 
Difficult To Expose'' [Jiaqiang guankong xia laogong weiquan shijian 
nan puguang], Radio Free Asia, 27 January 17; Aaron Halegua, ``Who Will 
Represent China's Workers? Lawyers, Legal Aid, and the Enforcement of 
Labor Rights,'' New York University School of Law, U.S.-Asia Law 
Institute, October 2016, 36.
    \49\ Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, 
Legal Aid, and the Enforcement of Labor Rights,'' New York University 
School of Law, U.S.-Asia Law Institute, October 2016, 36-37.
    \50\ Ibid., 2.
    \51\ Ivan Franceschini, ``Revisiting Chinese Labour NGOs: Some 
Grounds for Hope? '' Made in China, Issue 1 (January-March 2016), 19; 
Chun Han Wong, ``Chinese Labor Activists Handed Suspended Sentences,'' 
Wall Street Journal, 26 September 16; Tim Pringle, ``What Do Labour 
NGOs in China Do? '' University of Nottingham, China Policy Institute: 
Analysis (blog), 17 October 16.
    \52\ ``Four Detained Labor Rights Defenders Arrested, Two Out on 
Bail, Attack Aimed at Panyu Workers' Services Center'' [Bei zhua lao 
wei renshi si pibu liang qubao maotou zhi zhi panyu dagongzu], Radio 
Free Asia, 10 January 16; Zou Wei, ``Behind the Halo of the `Star of 
the Labor Movement'--`Panyu Workers' Services Center' Manager Zeng 
Feiyang and Others Investigated as Suspects in Serious Crimes'' [Jiekai 
``gong yun zhi xing'' guanghuan de beihou--``panyu dagongzu wenshu 
chuli fuwu bu'' zhuren zeng feiyang deng ren shexian yanzhong fanzui 
anjian diaocha], Xinhua, 22 December 15.
    \53\ Chun Han Wong, ``Chinese Labor Activists Handed Suspended 
Sentences,'' Wall Street Journal, 26 September 16; China Labour 
Bulletin, ``Labour Activist Meng Han Goes to Trial Amidst Intimidation 
and Blatant Procedural Violations,'' 24 October 16.
    \54\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
20(1), 23(4); International Covenant on Civil and Political Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 22(1); International Labour 
Organization, ILO Declaration on Fundamental Principles and Rights at 
Work, 18 June 98, art. 2(a).
    \55\ See, e.g., ``Ministry of Human Resources and Social Security: 
Guarantee Migrant Workers' Wages Before the Spring Festival, 
Maliciously Withholding Wages Will Bring Consequences'' [Renshebu: 
chunjie qian baozhang nongmingong gongzi zhifu eyi qianxin jiang la 
hei], People's Daily, 21 November 15; China Labour Bulletin, ``Strikes 
and Protests by China's Workers Soar to Record Heights in 2015,'' 7 
January 16; Pete Sweeney, ``China's Labour Law Under Fire as 
Restructuring Threatens Jobs,'' Reuters, 12 March 16.
    \56\ For information on China Labour Bulletin's methodology through 
the end of 2016, see China Labour Bulletin, ``An Introduction to China 
Labour Bulletin's Strike Map,'' 29 March 16. China Labour Bulletin 
changed their methodology beginning in 2017. China Labour Bulletin, 
``Strike Map Applies New Fixed Sampling Method in 2017,'' 17 February 
17.
    \57\ China Labour Bulletin, ``CLB Strike Map,'' last visited 15 May 
17.
    \58\ Ibid.
    \59\ Ibid.
    \60\ Ibid.
    \61\ China Labour Bulletin, ``New Normal? Strike Map Shows Steady 
Trends in Worker Actions in First Half of 2017,'' 15 August 17.
    \62\ China Labour Bulletin, ``Strike Map Applies New Fixed Sampling 
Method in 2017,'' 17 February 17; Hudson Lockett, ``China Labour Unrest 
Spreads to `New Economy,' '' Financial Times, 2 February 17.
    \63\ Shang Yang et al., ``Without Deterrent, Wage Arrears Become 
Chronic Illness (Three Questions on People's Livelihoods--Focus on 
Migrant Workers' Pay Demands (Part 2))'' [Meiyou zhensheli qianxin 
cheng wanji (minsheng san wen jujiao nongmingong tao xin (xia))], 
People's Daily, 6 January 17; China Labour Bulletin, ``Strike Map 
Applies New Fixed Sampling Method in 2017,'' 17 February 17.
    \64\ See, e.g., China Labour Bulletin, ``Strike Map Applies New 
Fixed Sampling Method in 2017,'' 17 February 17; Human Rights Watch, `` 
`A Great Danger for Lawyers': New Regulatory Curbs on Lawyers 
Representing Protesters,'' Vol. 18, No. 15(c) (December 2006), 17; John 
Kamm, Dui Hua Foundation, ``Statement on China's Initial Report Under 
the International Covenant on Economic, Social and Cultural Rights,'' 
25 April 05.
    \65\ Liu Zhan, ``Chongqing Strikes Hard Against Illegal Employment, 
Protects Workers' Interests'' [Chongqing yanli daji feifa yonggong 
baozhang laodongzhe liyi], China National Radio, 9 January 17.
    \66\ China Labour Bulletin, ``Strike Map Applies New Fixed Sampling 
Method in 2017,'' 17 February 17; Tianyu Wang and Fang Lee Cooke, 
``Striking the Balance in Industrial Relations in China? An Analysis of 
Court Decisions of 897 Strike Cases (2008-2015),'' Journal of 
Industrial Relations, Vol. 59, Issue 1 (February 2017), 27.
    \67\ ``Under Increased Control, Labor Rights Defense Incidents 
Difficult To Expose'' [Jiaqiang guankong xia laogong weiquan shijian 
nan puguang], Radio Free Asia, 27 January 17.
    \68\ Ibid.
    \69\ Committee to Protect Journalists, ``Two Chinese Journalists 
Detained for `Picking Quarrels and Provoking Trouble,' '' 28 June 16; 
Oiwan Lam, ``Founder of Protest Reporting Outlet Goes Missing in 
China,'' Global Voices, 23 June 16; Human Rights Campaign in China, 
``Arrests of Lu Yuyu, Founder of `Not the News' Site Documenting Civil 
Society Rights Defense Incidents, and Li Tingyu on Suspicion of Picking 
Quarrels and Provoking Trouble Approved by Dali Procuratorate'' [Jilu 
minjian weiquan shijian ``fei xinwen'' chuangbanren lu yuyu ji li 
tingyu liang ren bei dali jianchayuan yi shexian xunxin zishi zui 
pizhun daibu], 22 July 16. For more information, see the Commission's 
Political Prisoner Database records 2016-00177 on Lu Yuyu and 2016-
00190 on Li Tingyu. For more information about Lu Yuyu and Li Tingyu's 
efforts documenting protests in China, see Wu Qiang, ``What Do Lu 
Yuyu's Statistics of Protest Tell Us About the Chinese Society Today? 
'' China Change, 6 July 16; Yaqiu Wang, ``Meet China's Protest 
Archivist,'' Foreign Policy, Tea Leaf Nation (blog), 3 April 14.
    \70\ `` `Not the News' Founder Lu Yuyu Receives Heavy Sentence of 4 
Years'' [``Fei xinwen'' chuangbanren lu yuyu bei zhong pan 4 nian], 
Radio Free Asia, 3 August 17; Rights Defense Network, `` `Not the News' 
Founder Lu Yuyu Sentenced to 4 Years Today, Girlfriend Li Tingyu 
Released on Bail'' [``Fei xinwen'' chuangbanren lu yuyu jin huo xing 4 
nian nuyou li tingyu qubao huoshi], 3 August 17.
    \71\ Chinese Human Rights Defenders, ``Li Tingyu,'' 20 February 17; 
Rights Defense Network, `` `Not the News' Founder Lu Yuyu Sentenced to 
4 Years Today, Girlfriend Li Tingyu Released on Bail'' [``Fei xinwen'' 
chuangbanren lu yuyu jin huo xing 4 nian nuyou li tingyu qubao huoshi], 
3 August 17.
    \72\ China Labour Bulletin, ``The Hidden Cost of Settling Yet 
Another Labour Dispute,'' 23 December 16.
    \73\ China Labour Bulletin, ``Official Union Catches Up With Labour 
NGO in Collective Bargaining Case,'' 4 January 17.
    \74\ Javier C. Hernandez, ``Across China, Walmart Faces Labor 
Unrest as Authorities Stand Aside,'' New York Times, 16 November 16.
    \75\ Yu Nakamura, ``Sony Worker Revolt Spotlights China Exit 
Hazards,'' Nikkei Asian Review, 23 November 16; Yan Ning, ``Striking 
Coca Cola Workers in Chengdu Encounter Violent Suppression, HKTCU 
Protests at Hong Kong Headquarters'' [Chengdu kekou kele gongren bagong 
zao wuli zhenya zhigongmeng dao gang zongbu kangyi], InMediaHK, 2 
December 16.
    \76\ China Labour Bulletin, ``CLB Strike Map,'' last visited 15 May 
17.
    \77\ ``Under Increased Control, Labor Rights Defense Incidents 
Difficult To Expose'' [Jiaqiang guankong xia laogong weiquan shijian 
nan puguang], Radio Free Asia, 27 January 17.
    \78\ International Trade Union Confederation, ``The 2016 ITUC 
Global Rights Index: The World's Worst Countries for Workers,'' 2016, 
24; Tianyu Wang and Fang Lee Cooke, ``Striking the Balance in 
Industrial Relations in China? An Analysis of Court Decisions of 897 
Strike Cases (2008-2015),'' Journal of Industrial Relations, Vol. 59, 
Issue 1 (February 2017), 22.
    \79\ Tianyu Wang and Fang Lee Cooke, ``Striking the Balance in 
Industrial Relations in China? An Analysis of Court Decisions of 897 
Strike Cases (2008-2015),'' Journal of Industrial Relations, Vol. 59, 
Issue 1 (February 2017), 27-28, 30-33.
    \80\ International Covenant on Economic, Social and Cultural Rights 
(ICESCR), adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 8.1(d); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Economic, Social and Cultural Rights, last visited 10 June 17. China 
has signed and ratified the ICESCR. See also UN General Assembly, 
Report of the Special Rapporteur on the Rights to Freedom of Peaceful 
Assembly and of Association, Maina Kiai, A/71/385, 14 September 16, 54, 
56-57.
    \81\ International Labour Office, Reports of the Committee on 
Freedom of Association: 380th Report of the Committee on Freedom of 
Association, GB.328/INS/14, 23 November-10 December 16, para. 236.
    \82\ See, e.g., ``Sale of Yunnan Child Workers Exposed in China's 
Clothing Capital: Yunnan Kids Easily Cheated'' [Zhongguo fuzhuang zhi 
du bei pu maimai yunnan tonggong: yunnan wa hao pian], Chuncheng 
Evening Post, reprinted in Sina, 21 November 16; Wang Lin, ``Suspected 
Child Labor! 14-Year-Old Working in Guang'an for 9 Months, Paid Only 
100 Yuan'' [She guyong tonggong! yu 14 sui shaonian guang'an dagong 9 
ge yue gongzi jin 100 yuan], Sichuan Online, 18 January 17. For 
information on child labor from previous reporting years, see CECC, 
2016 Annual Report, 6 October 16, 85-86; CECC, 2015 Annual Report, 8 
October 15, 86; CECC, 2014 Annual Report, 9 October 14, 76-77.
    \83\ ``Sale of Yunnan Child Workers Exposed in China's Clothing 
Capital: Yunnan Kids Easily Cheated'' [Zhongguo fuzhuang zhi du bei pu 
maimai yunnan tonggong: yunnan wa hao pian], Chuncheng Evening Post, 
reprinted in Sina, 21 November 16; ``Buying and Selling Child Laborers 
From Yunnan in China Clothing Capital Changshu Revealed'' [Zhongguo 
fuzhuang zhi du changshu bei pu maimai yunnan tonggong], Beijing Times, 
22 November 16; Mandy Zuo, ``Under 16 and Working 16 Hours a Day . . . 
Chinese Clothes Factories Import Cheap Child Labour From Across 
China,'' South China Morning Post, 22 November 16.
    \84\ ``Sale of Yunnan Child Workers Exposed in China's Clothing 
Capital: Yunnan Kids Easily Cheated'' [Zhongguo fuzhuang zhi du bei pu 
maimai yunnan tonggong: yunnan wa hao pian], Chuncheng Evening Post, 
reprinted in Sina, 21 November 16.
    \85\ International Labour Organization, ``Questions and Answers on 
Forced Labour,'' 1 June 12.
    \86\ Wang Jiliang, ``Jiangsu Changshu Employers Suspected of Using 
Child Labor: Children Endure Hardship To Work, [We] Have Never Beaten 
or Verbally Abused Them'' [Jiangsu changshu shiyong tonggong xianyiren: 
haizi gongzuo xinku cong mei da ma guo tamen], People's Daily, 24 
November 16.
    \87\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, art. 15; PRC Law on the Protection of 
Minors [Zhonghua renmin gongheguo wei chengnianren baohu fa], passed 4 
September 91, amended 29 December 06, effective 1 June 07, art. 38. 
Article 15 of the PRC Labor Law prohibits the employment of minors 
under 16, with exceptions for literature and the arts, sports, and 
special handicrafts, provided the employer undergoes inspection and 
approval and guarantees the child's right to compulsory education.
    \88\ International Labour Organization, ILO Convention (No. 138) 
Concerning Minimum Age for Admission to Employment, 26 June 73; 
International Labour Organization, ILO Convention (No. 182) Concerning 
the Prohibition and Immediate Action for the Elimination of the Worst 
Forms of Child Labour, 17 June 99; International Labour Organization, 
``Ratifications of C138--Minimum Age Convention, 1973 (No. 138),'' last 
visited 10 June 17; International Labour Organization, ``Ratifications 
of C182--Worst Forms of Child Labour Convention, 1999 (No. 182),'' last 
visited 10 June 17.
    \89\ International Labour Organization, Country Office for China 
and Mongolia, ``Child Labour in China and Mongolia,'' last visited 6 
April 17.
    \90\ Cui Shijie et al., ``CCTV: 60 Thousand Accidents and 41 
Thousand Deaths in China in 2016'' [Yangshi wang: 2016 nian woguo 
fasheng anquan shigu 6 wan qi siwang 4.1 wan ren], CCTV, reprinted in 
State Administration of Work Safety, 16 January 17. For more 
information on the 2017 National Work Safety Conference, see ``2017 
National Work Safety Conference'' [2017 nian quanguo anquan shengchan 
gongzuo huiyi], State Administration of Work Safety, last visited 20 
July 17.
    \91\ Cui Shijie et al., ``CCTV: 60 Thousand Accidents and 41 
Thousand Deaths in China in 2016'' [Yangshi wang: 2016 nian woguo 
fasheng anquan shigu 6 wan qi siwang 4.1 wan ren], CCTV, reprinted in 
State Administration of Work Safety, 16 January 17.
    \92\ See, e.g., PRC Work Safety Law [Zhonghua renmin gongheguo 
anquan shengchan fa], passed 29 June 02, amended 31 August 14, 
effective 1 December 14; State Administration of Work Safety, 
Production and Operations Work Unit Safety Training Provisions 
[Shengchan jingying danwei anquan peixun guiding], issued 17 January 
06, effective 1 March 06; Ministry of Industry and Information 
Technology et al., Measures on Managing the Restricted Use of Harmful 
Materials in Electrical and Electronic Goods [Dianqi dianzi chanpin 
youhai wuzhi xianzhi shiyong guanli banfa], issued 21 January 16, 
effective 1 July 16.
    \93\ Zhang Ping, ``National People's Congress Standing Committee 
Law Enforcement Inspection Group Report on Inspection of PRC Work 
Safety Law Implementation'' [Quanguo renmin daibiao dahui changwu 
weiyuanhui zhifa jiancha zu guanyu jiancha ``zhonghua renmin gongheguo 
anquan shengchan fa'' shishi qingkuang de baogao], 21 December 16, 
2(2); Lu Hongyong, ``Risky Business for China's Window Cleaners,'' 
Sixth Tone, 20 October 16. See also Mark Melnicoe, ``China: Fixing 
Factory Labor Abuse Remains Elusive Goal,'' Bloomberg BNA, 19 December 
16; China Labor Watch, ``Labor Rights Violations in Walmart and Home 
Depot's Supplier Factory,'' 1 December 16, 13-14.
    \94\ American Lung Association, ``Learn About Pneumoconiosis,'' 
last visited 5 June 17; American Lung Association, ``Pneumoconiosis 
Symptoms, Causes and Risk Factors,'' last visited 5 June 17.
    \95\ National Health and Family Planning Commission, ``2014 Report 
on Occupational Illness Nationwide'' [2014 nian quanguo zhiye bing 
baogao qingkuang], 3 December 15.
    \96\ National Health and Family Planning Commission, Interpretation 
of ``Opinion on Strengthening Pneumoconiosis Prevention Efforts for 
Migrant Laborers'' [Jiedu ``guanyu jiaqiang nongmingong chenfeibing 
fangzhi gongzuo de yijian''], 21 January 16.
    \97\ Love Save Pneumoconiosis, ``About Us'' [Guanyu women], last 
visited 6 April 17.
    \98\ ``Love Save Pneumoconiosis Foundation Convenes Conference in 
Beijing on Methods for Controlling Pneumoconiosis'' [Da ai qing chen 
jijin chenfei bing fangzhi moshi yantaohui zai jing juxing], Xinhua, 12 
December 16.
    \99\ Zhang Rui and Chen Xiaoyan, ``CPPCC Delegate: Resolve 
Pneumoconiosis Sufferers' `Painful Breaths' '' [Zhengxie weiyuan: gong 
jie chenfei bing huanzhe ``huxi zhi tong''], Workers' Daily, 14 March 
17.
    \100\ Qian Jinghua, ``Black Lung Miners Demand Compensation, Get 
Detention,'' Sixth Tone, 22 October 16. For more information on the 
ongoing dispute between former miners and the Ganluo county government, 
see China Labour Bulletin, ``Sichuan Detains Dying Miner Fighting for 
Compensation,'' 11 August 16. For more information on the detained 
miners, see the Commission's Political Prisoner Database records 2016-
00365 on Rao Zhongwen, 2017-00213 on Amu Ziha, and 2017-00214 on Luo 
Ronggui.
    \101\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 1(1). For an official English-
language translation, see State Council Information Office, ``National 
Human Rights Action Plan of China (2016-2020),'' August 2016, reprinted 
in Xinhua, 29 September 16, sec. I(1).
    \102\ State Council General Office, ``National Occupational Illness 
Control Plan (2016-2020)'' [Guojia zhiye bing fangzhi guihua (2016-2020 
nian)], issued 26 December 16, sec. 2(3).
    \103\ State Council General Office, `` `13th Five-Year' Plan on 
Work Safety'' [Anquan shengchan ``shisan wu'' guihua], issued 12 
January 17, sec. 2(3).
    \104\ Raymond Fisman and Yongxiang Wang, ``The Distortionary 
Effects of Incentives in Government: Evidence From China's `Death 
Ceiling' Program,'' National Bureau of Economic Research, Working Paper 
23098, January 2017, 2-4, 8, 13.
    \105\ National Bureau of Statistics of China, ``People's Republic 
of China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17. Migrant workers (nongmingong) 
are Chinese nationals with rural household registrations who work in 
urban areas. For more information on migrant workers, see, e.g., China 
Labour Bulletin, ``Migrant Workers and Their Children,'' last visited 
24 April 17; Sarah Swider, ``The Hukou System, Migration, and the 
Construction Industry,'' in Building China: Informal Work and the New 
Precariat (Ithaca: Cornell University Press, 2015), 21-29. For more 
information on the household registration (hukou) system, see Section 
II--Freedom of Residence and Movement.
    \106\ Shang Yang et al., ``People's Daily Three Questions on Wage 
Arrears: Still No Cure After Much Effort, What Is the Reason? '' 
[Renmin ribao san wen qianxin shijian: jiuzhi buyu, yuanyin shi 
shenme?], People's Daily, 6 January 17; Bai Tianliang, ``Ensure the 
Payment of Wages, Give Migrant Workers Peace of Mind for the New Year'' 
[Quanli baozhang gongzi zhifu rang nongmingong anxin guonian], People's 
Daily, 24 January 17; Hudson Lockett, ``China Labour Unrest Spreads to 
`New Economy,' '' Financial Times, 2 February 17. See also State 
Council Information Office, ``National Human Rights Action Plan of 
China (2016-2020)'' [Guojia renquan xingdong jihua (2016-2020 nian)], 
29 September 16, 1(1).
    \107\ China Labour Bulletin, ``CLB Strike Map,'' last visited 15 
May 17.
    \108\ ``Supreme People's Procuratorate Work Report'' [Zuigao renmin 
jianchayuan gongzuo baogao], 12 March 17, reprinted in National 
People's Congress, 15 March 17.
    \109\ State Council General Office, Opinion on Comprehensively 
Managing the Problem of Migrant Worker Wage Arrears [Guowuyuan 
bangongting guanyu quanmian zhili tuoqian nongmingong gongzi wenti de 
yijian], issued 17 January 16, 1(2).
    \110\ Shang Yang et al., ``People's Daily Three Questions on Wage 
Arrears: Still No Cure After Much Effort, What Is the Reason? '' 
[Renmin ribao san wen qianxin shijian: jiuzhi buyu, yuanyin shi 
shenme?], People's Daily, 6 January 17.
    \111\ Ibid.; Joyce Huang, ``Chinese Migrant Workers Protest Over 
Unpaid Wages,'' Voice of America, 19 January 17; Hudson Lockett, 
``China Labour Unrest Spreads to `New Economy,' '' Financial Times, 2 
February 17.
    \112\ Bai Tianliang, ``Fully Ensure the Payment of Wages, Give 
Migrant Workers Peace of Mind for the New Year'' [Quanli baozhang 
gongzi zhifu rang nongmingong anxin guonian], People's Daily, 24 
January 17.
    \113\ National Bureau of Statistics of China, ``People's Republic 
of China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17.
    \114\ Katie Allen, ``Chinese Growth Slips to Slowest Pace for 26 
Years,'' Guardian, 20 January 17. For comparison, China's GDP growth 
rate was 6.9 in 2015, 7.4 in 2014, and 7.7 in 2013. National Bureau of 
Statistics of China, ``National Economy Making Steady Progress, Stable 
in 2015'' [2015 nian guomin jingji yunxing wenzhong youjin, wenzhong 
youhao], 19 January 16; National Bureau of Statistics of China, ``2014 
National Economy Running Smoothly Under the New Normal'' [2014 nian 
guomin jingji zai xin changtai xia pingwen yunxing], 20 January 15; 
National Bureau of Statistics of China, ``2013 National Economy 
Development Stable and Improved'' [2013 nian guomin jingji fazhan 
wenzhong xianghao], 20 January 14.
    \115\ Leslie Shaffer, ``The Curious Case of China's Remarkably 
Consistent Economic Growth,'' CNBC, 19 October 16; ``Thank Fathom It's 
Friday--Leading Questions on Chinese Growth,'' Fathom Consulting 
(blog), 30 September 16. See also ``China Statistics Agency Sets Up 
Special Arm To Combat Fake Data,'' Bloomberg, 20 April 17.
    \116\ Pearl Forss and Yvonne Lim, ``As Economy Flags, Labour 
Protests Multiply Across China,'' Channel NewsAsia, 18 October 16; Xie 
Yu, ``Soaring Costs Force More Chinese Firms To Look Overseas, as 
Latest Figures Show ODI Surges 53.7pc in Year to Date,'' South China 
Morning Post, 18 October 16; Venus Wu, ``Cheap, but Not So Cheerful, 
for China's Low-End Textile Exporters,'' Reuters, 4 November 16.
    \117\ Christian Shepherd and Lucy Hornby, ``China Plans Early 
Retirements To Trim Bloated State Payrolls,'' Financial Times, 13 
November 16; Sue-Lin Wong, ``In China's Rustbelt Towns, Displaced Coal, 
Steel Workers Lose Hope and Voice,'' Reuters, 5 March 17; China Labour 
Bulletin, ``Coal, Steel Workers Oppose Raw Deals in Capacity 
Reduction,'' 4 November 16.
    \118\ Kelvin Chan, ``Official Survey: China Factory Activity Rises 
to 2-Year High,'' Associated Press, reprinted in US News & World 
Report, 30 November 16; ``China Manufacturing Gauge Climbs to Highest 
in Almost Five Years,'' Bloomberg, 30 March 17; Pei Li and Mark 
Magnier, ``Acupuncture and Amusement Parks: China Rolls Out Service-
Economy Gauge,'' Wall Street Journal, China Real Time Report (blog), 14 
March 17.
    \119\ National Bureau of Statistics of China, ``People's Republic 
of China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17.
    \120\ Deng Lianri et al., Shaoyang Municipal Bureau of Statistics, 
Hunan Province Bureau of Statistics, ``Study of Unemployment Rate 
Statistical Methodology'' [Shiye lu tongji fangfa yanjiu], 5 December 
16; Pei Li and Mark Magnier, ``Acupuncture and Amusement Parks: China 
Rolls Out Service-Economy Gauge,'' Wall Street Journal, China Real Time 
Report (blog), 14 March 17.
    \121\ Deng Lianri et al., Shaoyang Municipal Bureau of Statistics, 
Hunan Province Bureau of Statistics, ``Study of Unemployment Rate 
Statistical Methodology'' [Shiye lu tongji fangfa yanjiu], 5 December 
16.
    \122\ Han Shuhong, ``Analysis of the Current Increase in the Rural 
Unemployment Rate'' [Muqian dui nongcun laodong shiye lu zenggao de 
fenxi], Modern Economic Information, 20 March 17.
    \123\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 77.
    \124\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, art. 44.
    \125\ National Bureau of Statistics of China, ``People's Republic 
of China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17. See also China Labour Bulletin, 
``China's Social Security System,'' last visited 3 April 17.
    \126\ Xu Bo, ``Population of Migrant Workers Nationwide Reaches 282 
Million'' [Quanguo nongmingong zongliang dadao 2.82 yi], Xinhua, 14 
March 17; National Bureau of Statistics of China, ``People's Republic 
of China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17.
    \127\ For information on workers' low levels of social insurance 
coverage in previous reporting years, see CECC, 2016 Annual Report, 6 
October 16, 81-82; CECC, 2015 Annual Report, 8 October 15, 87-88; CECC, 
2014 Annual Report, 9 October 14, 75.
    \128\ PRC Social Insurance Law [Zhonghua renmin gongheguo shehui 
baoxian fa], passed 28 October 10, effective 1 July 11, arts. 1-4.
    \129\ Ibid., arts. 10, 23, 33, 44, 53. See also China Labour 
Bulletin, ``China's Social Security System,'' last visited 3 April 17.
    \130\ Ministry of Human Resources and Social Security, ``2015 
Annual Statistics Bulletin on Human Resources and Social Security 
Developments'' [2015 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 30 May 16, secs. 1-2; National Bureau of 
Statistics of China, ``People's Republic of China 2016 National 
Economic and Social Development Statistical Bulletin'' [Zhonghua renmin 
gongheguo 2016 nian guomin jingji he shehui fazhan tongji gongbao], 28 
February 17.
    \131\ Ibid.; Xu Bo, ``Population of Migrant Workers Nationwide 
Reaches 282 Million'' [Quanguo nongmingong zongliang dadao 2.82 yi], 
Xinhua, 14 March 17.
    \132\ Ibid.
    \133\ Ministry of Human Resources and Social Security, ``2015 
Annual Statistics Bulletin on Human Resources and Social Security 
Developments'' [2015 niandu renli ziyuan he shehui baozhang shiye 
fazhan tongji gongbao], 30 May 16, secs. 1-2; National Bureau of 
Statistics of China, ``People's Republic of China 2016 National 
Economic and Social Development Statistical Bulletin'' [Zhonghua renmin 
gongheguo 2016 nian guomin jingji he shehui fazhan tongji gongbao], 28 
February 17.
    \134\ Ibid.
    \135\ Beatriz Carillo, ``Migrant Labour and the Sustainability of 
China's Welfare System,'' Made in China, Issue 4 (October-December 
2016), 16; Matthias Stepan, ``How Sustainable Is China's Social 
Security System? '' University of Nottingham, China Policy Institute: 
Analysis (blog), 14 October 16; Kevin Lin, ``Rising Inequality and Its 
Discontents in China,'' New Labor Forum, Vol. 25, No. 3 (2016), 69.
    \136\ Wu Lirong, ``How Far Are Workers From Pensions? `Money in 
Hand Is Most Secure' '' [Yanglaojin li nongmingong you duo yuan? ``qian 
zuan zai shouli zui anquan''], Workers' Daily, reprinted in Xinhua, 19 
January 17; Kevin Lin, ``Rising Inequality and Its Discontents in 
China,'' New Labor Forum, Vol. 25, No. 3 (2016), 69; China Labor Watch, 
``An Investigation Into Four Toy Sweatshops,'' 15 November 16, 15.
    \137\ See, e.g., Thomas Kohlmann, ``VW's Casual Workers in China 
Fight for Equal Pay,'' Deutsche Welle, 6 March 17; Miao Chunyu, 
``Regulating Dispatch Labor and Perfecting the Supervision Mechanism'' 
[Guifan laowu paiqian yonggong wanshan jianguan jizhi], China Labour 
and Social Security News, 21 January 17.
    \138\ Ministry of Human Resources and Social Security, Interim 
Provisions on Dispatch Labor [Laowu paiqian zanxing guiding], issued 24 
January 14, effective 1 March 14; PRC Labor Contract Law [Zhonghua 
renmin gongheguo laodong hetong fa], passed 29 June 07, amended 28 
December 12, effective 1 July 13, chap. 5, sec. 2; National People's 
Congress Standing Committee, Decision on Amending the ``PRC Labor 
Contract Law'' [Quanguo renmin daibiao dahui changwu weiyuanhui guanyu 
xiugai ``zhonghua renmin gongheguo laodong hetong fa'' de jueding], 
issued 28 December 12, effective 1 July 13.
    \139\ Zhang Shiyi, ``Study of the Dispatch Labor Legal Regime'' 
[Laowu paiqian falu zhidu yanjiu], Legality Vision, Vol. 34 (December 
2016), 244; Aaron Halegua, ``Who Will Represent China's Workers? 
Lawyers, Legal Aid, and the Enforcement of Labor Rights,'' New York 
University School of Law, U.S.-Asia Law Institute, October 2016, 7; 
Miao Chunyu, ``Regulating Dispatch Labor and Perfecting the Supervision 
Mechanism'' [Guifan laowu paiqian yonggong wanshan jianguan jizhi], 
China Labour and Social Security News, 21 January 17.
    \140\ PRC Labor Contract Law [Zhonghua renmin gongheguo laodong 
hetong fa], passed 29 June 07, amended 28 December 12, effective 1 July 
13, arts. 63, 66; National People's Congress Standing Committee, 
Decision on Amending the ``PRC Labor Contract Law'' [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu xiugai ``zhonghua renmin 
gongheguo laodong hetong fa'' de jueding], issued 28 December 12, 
effective 1 July 13.
    \141\ Ministry of Human Resources and Social Security, Interim 
Provisions on Dispatch Labor [Laowu paiqian zanxing guiding], issued 24 
January 14, effective 1 March 14, arts. 4, 28. Article 28 includes an 
exception allowing firms with dispatch labor agreements that were 
signed prior to the effective date of the amendment to the PRC Labor 
Contract Law to continue to employ those dispatch workers until their 
contracts expire.
    \142\ Miao Chunyu, ``Regulating Dispatch Labor and Perfecting the 
Supervision Mechanism'' [Guifan laowu paiqian yonggong wanshan jianguan 
jizhi], China Labour and Social Security News, 21 January 17; Zhang 
Shiyi, ``Study of the Dispatch Labor Legal Regime'' [Laowu paiqian falu 
zhidu yanjiu], Legality Vision, Vol. 34 (December 2016), 244; Deng 
Yaling, ``Study of Legal Issues Regarding Equal Pay for Equal Work 
Among Labor Dispatch Workers'' [Laowu paiqian yonggong tonggong 
tongchou falu wenti yanjiu], Legal System and Society, Vol. 32 
(November 2016), 283.
    \143\ Miao Chunyu, ``Regulating Dispatch Labor and Perfecting the 
Supervision Mechanism'' [Guifan laowu paiqian yonggong wanshan jianguan 
jizhi], China Labour and Social Security News, 21 January 17; Aaron 
Halegua, ``Who Will Represent China's Workers? Lawyers, Legal Aid, and 
the Enforcement of Labor Rights,'' New York University School of Law, 
U.S.-Asia Law Institute, October 2016, 7. For a discussion of the 
differences between dispatch and outsourced labor, see Xi Lulu, ``On 
the Differences Between Dispatch Labor and Outsourced Labor'' [Lun 
laowu paiqian yu laowu waibao de jiebie], Journal of Heilongjiang 
Administrative Cadre College of Politics and Law, Vol. 6 (2016), 70-73.
    \144\ Miao Chunyu, ``Regulating Dispatch Labor and Perfecting the 
Supervision Mechanism'' [Guifan laowu paiqian yonggong wanshan jianguan 
jizhi], China Labour and Social Security News, 21 January 17.
    \145\ For more information on how different categories of workers 
are not afforded protections under Chinese labor laws, see 
``Interpreting Chinese Labour: Informalisation or Empowerment? '' in 
Made in China Yearbook 2016: Disturbances in Heaven, eds. Ivan 
Franceschini et al. (Canberra: Australian National University Press, 
February 2017), 32-39; Aaron Halegua, ``Who Will Represent China's 
Workers? Lawyers, Legal Aid, and the Enforcement of Labor Rights,'' New 
York University School of Law, U.S.-Asia Law Institute, October 2016, 
7; Philip C. C. Huang, ``Misleading Chinese Legal and Statistical 
Categories: Labor, Individual Entities, and Private Enterprises,'' 
Modern China, Vol. 39, Issue 4 (July 2013), 348.
    \146\ China Labour Bulletin, ``Two Years With No Pay: Court Finally 
Recognises Sanitation Workers' Struggle,'' 13 January 17.
    \147\ Mark Melnicoe, ``China: Students Get Grim Lesson in Factory 
Work,'' Bloomberg BNA, 14 December 16; Du Jiangqian and Yin Hang, ``A 
Sichuan School's Student Internships Suspected of Becoming Cheap Labor, 
Working 12 Hours in 1 Day'' [Sichuan yi xuexiao xuesheng shixi yi bian 
lianjia gong 1 tian gongzuo 12 xiaoshi], Western China Metropolitan 
Daily, reprinted in Tencent News, 21 October 16.
    \148\ Ryan McMorrow, ``For Couriers, China's E-Commerce Boom Can Be 
a Tough Road,'' New York Times, 31 January 17; ``Interpreting Chinese 
Labour: Informalisation or Empowerment? '' in Made in China Yearbook 
2016: Disturbances in Heaven, eds. Ivan Franceschini et al. (Canberra: 
Australian National University Press, February 2017), 34, 37-38.
    \149\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 
5 July 94, effective 1 January 95, art. 2; PRC Labor Contract Law 
[Zhonghua renmin gongheguo laodong hetong fa], passed 29 June 07, 
amended 28 December 12, effective 1 July 13, art. 2; Aaron Halegua, 
``Who Will Represent China's Workers? Lawyers, Legal Aid, and the 
Enforcement of Labor Rights,'' New York University School of Law, U.S.-
Asia Law Institute, October 2016, 2, 7; Philip C. C. Huang, 
``Misleading Chinese Legal and Statistical Categories: Labor, 
Individual Entities, and Private Enterprises,'' Modern China, Vol. 39, 
Issue 4 (July 2013), 348.
    \150\ For legal provisions relating to workers above the retirement 
age, see State Council, PRC Labor Contract Law Implementing Regulations 
[Zhonghua renmin gongheguo laodong hetong fa shishi tiaoli], issued 18 
September 08, art. 21; PRC Labor Contract Law [Zhonghua renmin 
gongheguo laodong hetong fa], passed 29 June 07, amended 28 December 
12, effective 1 July 13, art. 44(2); Supreme People's Court, 
Interpretation Regarding Various Issues in Using Appropriate Laws When 
Accepting Labor Dispute Cases (Three) [Zuigao renmin fayuan guanyu 
shenli laodong zhengyi anjian shiyong falu ruogan wenti de jishi 
(san)], issued 13 September 10, art. 7. For legal provisions relating 
to students, see Ministry of Labor, Opinion on Certain Issues Regarding 
Fully Implementing the ``PRC Labor Law'' [Guanyu guanche zhixing 
``zhonghua renmin gongheguo laodong fa'' ruogan wenti de yijian], 
reprinted in China Law Information, issued 4 August 95, art. 12; Gao 
Linlin, ``Students in School Do Not Qualify as Subjects of an 
Employment Relationship'' [Zai xiao sheng bushi shige de laodong guanxi 
zhuti], Beijing Court Net, 24 May 12.
    \151\ Mark Melnicoe, ``China: Students Get Grim Lesson in Factory 
Work,'' Bloomberg BNA, 14 December 16; China Labour Bulletin, ``Two 
Years With No Pay: Court Finally Recognises Sanitation Workers' 
Struggle,'' 13 January 17. See also Luan Jun, ``Case Analysis: Labor 
Service Relationship Is Not the Same as Employment Relations'' [Anli 
jiexi: laowu guanxi bu dengyu laodong guanxi], Jiadong Online, 3 March 
14.
    \152\ Ministry of Education and Ministry of Finance, Measures on 
Managing Secondary Vocational School Student Internships [Zhongdeng 
zhiye xuexiao xuesheng shixi guanli banfa], issued 26 June 07, arts. 3, 
5; Ministry of Education et al., Provisions on Managing Vocational 
School Student Internships [Zhiye xuexiao xuesheng shixi guanli 
guiding], issued 11 April 16, arts. 6, 9.
    \153\ Du Jiangqian and Yin Hang, ``A Sichuan School's Student 
Internships Suspected of Becoming Cheap Labor, Working 12 Hours in 1 
Day'' [Sichuan yi xuexiao xuesheng shixi yi bian lianjia gong 1 tian 
gongzuo 12 xiaoshi], Western China Metropolitan Daily, reprinted in 
Tencent News, 21 October 16; Jiang Jingjing, ``Farce of `Forced 
Internships' Frequent, Corrupts the Moral Foundation of Vocational 
Schools'' [``Bei shixi'' naoju pin chu baihuaile zhijiao de daode 
jichu], Western China Metropolitan Daily, 20 November 16.
    \154\ Du Jiangqian and Yin Hang, ``A Sichuan School's Student 
Internships Suspected of Becoming Cheap Labor, Working 12 Hours in 1 
Day'' [Sichuan yi xuexiao xuesheng shixi yi bian lianjia gong 1 tian 
gongzuo 12 xiaoshi], Western China Metropolitan Daily, reprinted in 
Tencent News, 21 October 16.
    \155\ Ryan McMorrow, ``For Couriers, China's E-Commerce Boom Can Be 
a Tough Road,'' New York Times, 31 January 17; Lu Hongyong, ``Risky 
Business for China's Window Cleaners,'' Sixth Tone, 20 October 16; Lu 
Yue et al., ``Protection of Online Contract Workers' Rights and 
Interests Can't Be `Up in the Air' '' [Wang yue gong de quanyi baozhang 
buke ``xuankong''], Workers' Daily, 9 March 17; ``Interpreting Chinese 
Labour: Informalisation or Empowerment? '' in Made in China Yearbook 
2016: Disturbances in Heaven, eds. Ivan Franceschini et al. (Canberra: 
Australian National University Press, February 2017), 34, 37-38.
    \156\ Ryan McMorrow, ``For Couriers, China's E-Commerce Boom Can Be 
a Tough Road,'' New York Times, 31 January 17; Lu Yue et al., 
``Protection of Online Contract Workers' Rights and Interests Can't Be 
`Up in the Air' '' [Wang yue gong de quanyi baozhang buke 
``xuankong''], Workers' Daily, 9 March 17; ``Interpreting Chinese 
Labour: Informalisation or Empowerment? '' in Made in China Yearbook 
2016: Disturbances in Heaven, eds. Ivan Franceschini et al. (Canberra: 
Australian National University Press, February 2017), 37-38.

                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice

                            Criminal Justice


                              Introduction

    During the Commission's 2017 reporting year, Chinese 
government and Communist Party officials continued to abuse 
criminal law and police power to further their priorities in 
``maintaining social stability'' and perpetuating one-party 
rule at the expense of individual freedoms.\1\

                   Ongoing Use of Arbitrary Detention

    Extralegal and extrajudicial forms of detention that 
restrict a person's liberty without judicial oversight \2\ 
violate Article 9 of the Universal Declaration of Human Rights 
(UDHR) \3\ and Article 9(1) of the International Covenant on 
Civil and Political Rights (ICCPR).\4\ Some commonly used forms 
of extralegal and extrajudicial detention in China are 
described below.

                              BLACK JAILS

    ``Black jails'' are detention sites that operate outside of 
China's judicial and administrative detention systems.\5\ After 
the Chinese government abolished the reeducation through labor 
system in 2013,\6\ the Commission continued to observe Chinese 
authorities' use of ``black jails'' \7\--including a type known 
as ``legal education centers'' \8\--to suppress individuals 
such as Falun Gong practitioners \9\ and petitioners.\10\ The 
Commission also observed multiple reports of Chinese 
authorities detaining rights advocates in ``black jails'' prior 
to and during the annual meetings of the National People's 
Congress and Chinese People's Political Consultative Conference 
in March 2017.\11\ [For more information on Falun Gong 
practitioners and petitioners, see Section II--Freedom of 
Religion and Section III--Access to Justice.]

                        PSYCHIATRIC INSTITUTIONS

    Despite provisions in the PRC Mental Health Law \12\ and 
related regulations \13\ aimed at protecting citizens from such 
abuse, Chinese authorities continued to forcibly commit 
individuals to psychiatric facilities for political reasons 
\14\ and used psychiatric hospital staff as instruments of 
``maintaining social stability.'' Civil Rights & Livelihood 
Watch (CRLW), a human rights monitoring group based in China, 
documented a case in Anhui province in which personnel of a 
psychiatric facility participated in ``stability maintenance'' 
efforts by preventing a petitioner from traveling to Beijing 
municipality.\15\ CRLW observed that despite new laws and 
regulations aimed at improving mental health services, 
individuals who need mental health care lack access, while 
authorities continue to abuse the system to control petitioners 
and others defending their rights.\16\

        CHINESE COMMUNIST PARTY DISCIPLINARY PROCESS (SHUANGGUI)

    Under an investigation process known as ``double 
designation'' (shuanggui), Party investigators may summon Party 
members \17\ to appear for interrogation at a designated time 
and place for alleged Party discipline violations such as 
corruption.\18\ The shuanggui process is within the Party's 
control and outside China's legal system; it is a form of 
extralegal detention \19\ that contravenes rights guaranteed 
under the UDHR and the ICCPR.\20\ Human Rights Watch reported 
in December 2016 that prolonged solitary confinement, ill 
treatment, and threats against family members during shuanggui 
remained common.\21\ In March 2017, a Canada-based media outlet 
published a report detailing the torture and abuse that Wang 
Longming, a former manager of a state-run tobacco factory, 
suffered during his nearly two-month stay in shuanggui in 
2015.\22\ According to the report, authorities subjected Wang 
to numerous forms of torture, including sleep deprivation and 
being forced to sit on a small stool for 20 hours.\23\
    In December 2016, the National People's Congress Standing 
Committee announced a pilot reform program that establishes 
supervisory commissions (jiancha weiyuanhui) in three province-
level jurisdictions to take over the functions of investigating 
corruption and other official misconduct, functions orginally 
performed by three government bodies.\24\ The program 
authorizes the supervisory commissions to carry out 12 
investigative measures including interrogation (xunwen) and 
confinement (liuzhi), without specifying limitations on the 
length of time or the manner of implementation.\25\ According 
to legal experts, the implications of this new program, such as 
whether it will replace shuanggui \26\ and how the detention 
authority will be exercised,\27\ remain unclear.

                              Criminal Law


           USE OF CRIMINAL LAW TO PROSECUTE RIGHTS ADVOCATES

    This past year, the Chinese government continued to use 
broadly defined crimes to punish individuals such as rights 
advocates, lawyers, and members of some ethnic minority groups. 
The UN Working Group on Arbitrary Detention (Working Group) 
considers a detention arbitrary ``even if it is authorized by 
law . . . if it is premised upon an arbitrary piece of 
legislation or is inherently unjust, relying for instance on 
discriminatory grounds.'' \28\ During the Commission's 2017 
reporting year, the Working Group found the detentions of 
rights lawyer Xia Lin \29\ and religious leader Wu Zeheng \30\ 
to be arbitrary.\31\

        <bullet> Endangering state security. The Chinese 
        government continued to prosecute individuals under 
        ``endangering state security'' charges for peacefully 
        exercising their rights.\32\ Articles 102 to 112 of the 
        PRC Criminal Law--listing offenses including 
        ``subversion of state power,'' ``separatism,'' and 
        ``espionage''--are collectively referred to as crimes 
        of ``endangering state security,'' some of which carry 
        the death penalty.\33\ In one recent example, in March 
        2017, the Foshan Intermediate People's Court in Foshan 
        municipality, Guangdong province, convicted Su Changlan 
        \34\ and Chen Qitang \35\ of ``inciting subversion of 
        state power'' and sentenced them to three years' and 
        four years and six months' imprisonment, respectively, 
        for ``attacking the socialist system'' by means of 
        spreading rumors and committing libel on the 
        Internet.\36\ Authorities in Foshan detained Su and 
        Chen in October and November 2014, after they voiced 
        support for the fall 2014 pro-democracy protests in 
        Hong Kong.\37\
        <bullet> Extortion. Authorities continued \38\ to 
        charge rights advocates and petitioners \39\ with 
        ``extortion,'' \40\ the elements of which are undefined 
        in the PRC Criminal Law and judicial 
        interpretations.\41\ In cases of petitioners \42\ 
        allegedly committing ``extortion'' against local 
        government entities,\43\ judgments published during 
        this past year show that some courts viewed petitioning 
        as a means of threat.\44\ Relying on information from 
        the Chinese judiciary's judgment database, a China-
        based legal scholar observed an increase in such cases 
        between 2013 and 2016, from about 25 to 280 across 
        China.\45\
        <bullet> Gathering a crowd to disturb social order and 
        gathering a crowd to disturb order in a public place. 
        Authorities continued to invoke Articles 290 and 291 of 
        the PRC Criminal Law \46\ against citizens \47\ in 
        manners that infringed on their rights, including the 
        freedom of assembly and religion.\48\ For example, in 
        April 2017, the Changji Municipal People's Court in 
        Changji Hui Autonomous Prefecture, Xinjiang Uyghur 
        Autonomous Region, tried five individuals \49\ on the 
        charge of ``gathering a crowd to disturb social order'' 
        for participating in unauthorized Christian 
        gatherings.\50\ In February 2017, the Supreme People's 
        Court issued measures specifying that individuals who 
        participate in sit-in protests, distribute print 
        materials, chant slogans, or hold up banners outside a 
        courthouse are subject to criminal prosecution under a 
        range of criminal offenses, including Articles 290 and 
        291 of the PRC Criminal Law.\51\
        <bullet> Picking quarrels and provoking trouble. This 
        past year, authorities prosecuted petitioners and 
        rights advocates \52\ for ``picking quarrels and 
        provoking trouble.'' \53\ A U.S.-based legal scholar 
        observed that ``the vagueness of the `crime' . . . 
        allows police unlimited discretion to detain and arrest 
        offenders for almost any action.'' \54\ The Chinese 
        government expanded this provision to cover Internet 
        activities in 2013 \55\ and has since used it to 
        prosecute individuals for online speech.\56\ For 
        example, in September 2016, the Gangzha District 
        People's Court in Nantong municipality, Jiangsu 
        province, sentenced Shan Lihua \57\ to two years and 
        three months' imprisonment partly in connection with 
        her online activities advocating women's rights and 
        helping victims of forcible demolition and 
        relocation.\58\
        <bullet> Illegal assembly, procession, or 
        demonstration. In December 2016, the Haifeng County 
        People's Court in Shanwei municipality, Guangdong, 
        convicted eight individuals \59\ of ``illegal assembly, 
        procession, or demonstration,'' \60\ among other 
        crimes, and imposed sentences ranging from 2 years' to 
        10 years and 6 months' imprisonment for participating 
        in protests that lasted for 85 days in Wukan village, 
        Donghai subdistrict, Lufeng city, Shanwei, calling on 
        the government to release Wukan's elected village 
        committee head Lin Zulian (also known as Lin Zuluan) 
        and to address villagers' complaints regarding official 
        corruption in village land sales.\61\ [For more 
        information on the Wukan village protests, see Section 
        III--Institutions of Democratic Governance.]
        <bullet> Other criminal offenses. This past year, 
        authorities accused rights advocates and religious 
        practitioners of other criminal offenses, including 
        ``illegal business activity,'' \62\ ``defamation,'' 
        \63\ ``misappropriation of funds,'' \64\ ``sabotaging 
        production and operation,'' \65\ ``organizing and using 
        a cult to undermine implementation of the law,'' \66\ 
        and ``disturbing court order.'' \67\

 Ongoing Challenges in the Implementation of the Criminal Procedure Law


                          COERCED CONFESSIONS

    The Chinese government and Communist Party emphasized the 
procuratorate's supervisory role over criminal investigation 
and continued to improve implementation of the existing legal 
provisions \68\ that address the problem of investigators' use 
of coercion and overreliance on confession in criminal 
cases.\69\ In October 2016, five central government bodies 
issued a joint opinion that obligates the procuratorate in 
certain important cases to ensure the legality of evidence 
before the conclusion of an investigation by directly 
questioning the criminal suspect about the existence of a 
coerced confession or illegal evidence collection 
practices.\70\ In June 2017, the same government bodies issued 
provisions specific to the exclusion of evidence obtained by 
torture.\71\ A U.S.-based legal scholar, however, noted the 
ineffectiveness of the provisions because ``they maintain a 
narrow view of what type of evidence should be excluded and 
also continue to allow subsequent non-coerced confessions after 
an initial coerced one.'' \72\ In March 2017, Cao Jianming, 
Procurator-General of the Supreme People's Procuratorate (SPP), 
reported that in 2016, the procuratorate corrected 34,230 cases 
of illegal investigation practices, such as extracting 
confessions by torture, but did not report any instance of 
criminal prosecution of investigators who engaged in abuse.\73\ 
Despite these official pronouncements, reports of coerced 
confession continued to emerge this past year,\74\ with some 
indicating that procurators participated in the practice.\75\ 
[For more information on custodial torture and abuse, see 
Torture and Abuse in Custody in this section.]

           RESIDENTIAL SURVEILLANCE AT A DESIGNATED LOCATION

    Under Article 73 of the PRC Criminal Procedure Law (CPL), 
authorities can enforce a form of detention known as 
``residential surveillance at a designated location'' (RSDL) 
\76\ to detain a person at an undisclosed location for up to 
six months in cases involving charges of ``endangering state 
security'' (ESS), terrorism, or serious bribery.\77\ A U.S.-
based scholar noted that RSDL is susceptible to abuse if 
authorities apply ESS charges as a pretext to forgo criminal 
suspects' rights.\78\ Reports that emerged this past year 
indicate that torture and abuse took place in the enforcement 
of RSDL.\79\ In some cases, authorities reportedly enforced 
RSDL even when they did not allege any of the three types of 
offenses that permit this form of detention.\80\ In the case of 
Jiang Tianyong, a disbarred rights lawyer who disappeared on 
November 21, 2016, authorities reportedly did not provide his 
family notice of him being detained under RSDL within the 
timeframe required by law \81\ and refused to disclose his 
detention location or to allow his family and lawyers to meet 
with him.\82\ The location of Jiang's detention remained 
unknown for over six months.\83\

                           ACCESS TO COUNSEL

    This past year, the Chinese government denied access to 
legal counsel to some individuals, particularly those detained 
in politically sensitive cases. Individuals charged with ESS 
crimes--which the government often used against rights 
advocates \84\--continued to face obstacles in meeting with 
their lawyers.\85\ In cases involving ESS, terrorism, and 
serious bribery (``three categories of cases'' (sanlei 
anjian)),\86\ Article 33 of the PRC Lawyers Law as amended in 
2012 \87\ qualifies detainees' right to meet with their lawyers 
by referencing the PRC Criminal Procedure Law, which requires 
lawyers to obtain approval from the agency investigating the 
case but does not provide for a specific timeframe within which 
the agency must decide on such an application.\88\ In the case 
of detained lawyer Jiang Tianyong,\89\ his lawyers questioned 
the legality of the authorities' decision to repeatedly deny 
Jiang access to counsel on ESS grounds yet permit a news 
reporter to interview him.\90\
    This past year, authorities obstructed or denied access to 
counsel for those detained in cases involving rights advocacy 
or the exercise of internationally recognized freedoms,\91\ and 
in some cases harassed or intimidated their lawyers.\92\ Liu 
Zhengqing, lawyer of democracy advocate Chen Yunfei,\93\ said 
that after a December 2016 court hearing in which he 
represented Chen before the Wuhou District People's Court in 
Chengdu municipality, Sichuan province, court officials 
detained him for four hours, searched his briefcase, and seized 
his computer.\94\ Another report from this past year indicated 
that the lawyer initially retained by the family of petitioner 
Ding Meifang \95\ withdrew representation after government 
officials reportedly asked the lawyer to demand that Ding make 
a guilty plea.\96\
    In May 2017, authorities detained rights lawyer Chen 
Jian'gang, his wife, and their two minor children when they 
were traveling in Yunnan province.\97\ Previously, Chen 
publicized accounts of authorities torturing his client \98\ 
Xie Yang,\99\ a rights lawyer detained as part of the crackdown 
against rights lawyers and advocates that began in and around 
July 2015 (July 2015 crackdown).\100\

                       OTHER DUE PROCESS CONCERNS

    The following examples highlight certain due process 
violations that infringe on individuals' substantive rights:

        <bullet> Prolonged pretrial detention. Although the PRC 
        Criminal Procedure Law permits law enforcement 
        officials to extend the prescribed investigation 
        period,\101\ prolonged pretrial detention constitutes a 
        violation of international human rights standards.\102\ 
        Some detainees reportedly remained in prolonged 
        pretrial detention,\103\ in some cases because 
        authorities extended the investigation period or 
        canceled scheduled hearings.\104\ One example suggests 
        that cooperation with the authorities can reduce a 
        detainee's time in detention: Zhang Wanhe,\105\ whom 
        authorities detained in June 2015 outside a courthouse 
        where she participated in an advocacy event,\106\ said 
        that authorities tried and then released her in January 
        2017 after she admitted guilt and terminated her 
        lawyer, whereas Yao Jianqing,\107\ whom authorities 
        detained at the same event, did not cooperate as Zhang 
        did and remained in pretrial detention.\108\
        <bullet> Delay in judicial proceedings. Delays in 
        judicial proceedings likewise lengthen a person's time 
        in detention.\109\ In one example, after military 
        veteran and petitioner Gao Hancheng \110\ appealed a 
        June 2016 conviction for ``gathering a crowd to disturb 
        social order,'' the Wuhan Intermediate People's Court 
        in Hubei province, after three adjournments, held a 
        pretrial conference for the first time on April 25, 
        2017, and did not issue a trial date.\111\ While in 
        detention, Gao reportedly had a stroke and lost 
        mobility in January 2017; the prolonged detention 
        reportedly contributed to the deterioration of his 
        health.\112\
        <bullet> Procedural irregularities in law enforcement. 
        Reports from this past year indicate that law 
        enforcement authorities in some localities did not 
        present proper documentation before restricting 
        citizens' liberty or conducting a search \113\ in 
        violation of China's domestic laws.\114\

------------------------------------------------------------------------
             Draft Amendment to the PRC People's Police Law
-------------------------------------------------------------------------
  In December 2016, the Ministry of Public Security issued a draft
 amendment \115\ to the PRC People's Police Law \116\ that includes
 proposed statutory codification of existing regulations defining the
 scope of police authority to carry and use firearms.\117\ The draft
 amendment seeks to authorize police to use firearms in five situations,
 including when someone commits or escapes after having committed an
 offense that seriously endangers ``state security'' or ``public
 safety,'' and when someone damages property that the government has
 designated as a target of protection.\118\ Noting the broad definitions
 of ``state security'' and ``public safety'' under Chinese law, Human
 Rights Watch (HRW) criticized the draft amendment for being
 inconsistent with international standards that prohibit law enforcement
 officials from using firearms unless it is necessary to prevent
 ``imminent threat of death or serious injury . . ..'' \119\ HRW also
 pointed out the lack of meaningful limitations on other police powers
 covered by the proposed amendment.\120\ Radio Free Asia, for example,
 published multiple reports of such abuse of police power this past
 year.\121\
------------------------------------------------------------------------

                      Torture and Abuse in Custody

    This past year, reports continued to emerge that Chinese 
authorities tortured and abused individuals in detention,\122\ 
including rights lawyers and advocates detained as part of the 
July 2015 crackdown. Family members of rights lawyer Li Chunfu 
\123\ reported that he returned home in January 2017 in a 
severely altered physical and mental state, exhibiting paranoia 
and schizophrenic behavior \124\ as well as having damage to 
his neck and spine.\125\ Li told his wife that authorities had 
drugged him daily for the first portion of his detention.\126\ 
Rights advocate Wu Gan \127\ and rights lawyer Wang Yu \128\ 
both reported that authorities tortured them with methods 
including sleep deprivation and shackling of their hands and 
feet.\129\ The China Human Rights Lawyers Concern Group 
reported in January 2017 that rights lawyers Wang Quanzhang 
\130\ and Li Heping \131\ had been tortured by electric shock 
to the point of fainting during the period they spent in 
RSDL.\132\ Li Heping's wife also said that authorities had 
forcibly medicated Li for 22 months with a drug that caused 
``muscle pains, lethargy, and blurred vision'' and shackled him 
for a month in such a way that he could not stand upright.\133\ 
Other reports from this past year described additional 
instances in which authorities administered medication as a 
means of torture.\134\
    Rights lawyer Xie Yang also gave detailed descriptions of 
the torture he suffered during his detention in connection with 
the July 2015 crackdown. In January 2017, Xie told his lawyers 
that during the portion of his detention spent under 
residential surveillance at a designated location (RSDL),\135\ 
authorities deprived him of sleep, interrogated him for periods 
of over 20 hours, forced him to sit on stacked stools, punched 
him, kicked him, and kneed him in his abdomen and lower 
extremities on multiple occasions.\136\ Xie noted that 
officials carried out these actions directly under the camera 
in the room to avoid being recorded.\137\ Xie also identified 
over 20 officials who participated in his abuse \138\ and 
revealed that officials repeatedly pressured him to confess and 
to keep quiet about his torture.\139\ Xie said in a letter that 
he reported the torture to two procurators, but they did not 
make a record of it.\140\ Party- and state-run media claimed 
that another detained lawyer fabricated the accounts of Xie's 
torture,\141\ but Xie's lawyer affirmed their veracity.\142\

                      Inadequate Medical Treatment

    The Commission further observed reports of authorities 
denying or failing to provide detainees adequate medical 
treatment,\143\ which may amount to torture \144\ or violation 
of other international human rights standards.\145\ For 
example, political reform advocate and Nobel Peace Prize 
laureate Liu Xiaobo died of liver cancer in July 2017 while 
serving an 11-year sentence for ``inciting subversion of state 
power.'' \146\ Liu's health condition prompted questions of 
``whether the cancer could have been diagnosed earlier, or 
whether poor treatment contributed to his declining health.'' 
\147\

        Lack of Accountability for Officials Involved in Torture

    The Commission did not observe reports of Chinese 
authorities imposing criminal liability on the perpetrators of 
abuse in the above-mentioned cases, or in the case of Lei Yang. 
A resident of Beijing municipality, Lei Yang died in May 2016 
shortly after plainclothes police officers in Beijing took him 
into custody.\148\ In December, authorities announced their 
decision not to criminally prosecute the officers despite their 
finding that the officers committed ``dereliction of duty'' 
\149\ and caused Lei's death by twice restraining him, 
including by kneeling and stomping on his neck and face, 
wrapping an arm around his neck, and pressing on the back of 
his neck.\150\ Chinese law requires criminal prosecution if a 
government official causes the death of one or more persons as 
a result of dereliction of duty.\151\ The Convention against 
Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, which China signed and ratified,\152\ requires a 
State Party to prosecute the perpetrator of torture or other 
forms of mistreatment.\153\

      Draft Law Affecting Public Security Bureau Detention Centers

    The Chinese government issued a draft law that proposes to 
limit the use of shackling in detention, but legal experts 
question its effectiveness in curbing custodial abuse in 
general because it does not improve transparency or resolve an 
apparent conflict by continuing to allow police to run 
detention centers. In a January 2017 ruling, the Supreme 
People's Court (SPC) affirmed a lower court's dismissal of a 
compensation claim filed by a former death-row inmate who 
alleged that he suffered disfiguration and loss of mobility in 
his limbs as a result of wearing shackles during 
detention.\154\ The SPC found that the treatment alleged by the 
claimant was consistent with the PRC Public Security Bureau 
Detention Center Regulations (PSB Detention Center 
Regulations),\155\ which require every death-row inmate to be 
shackled.\156\ The UN Standard Minimum Rules for the Treatment 
of Prisoners, however, prohibit the use of chains or irons as 
restraints and limit other kinds of restraints to the extent 
necessary for reasons such as prevention of escape during 
transfer, and of personal injury or property damage.\157\ In 
June 2017, the Ministry of Public Security issued a draft law 
that would replace the PSB Detention Center Regulations.\158\ 
The draft law limits the use of shackles to what is necessary 
for ``preventing danger,'' bringing the current legal framework 
closer to international standards in this respect.\159\ Lawyers 
and legal scholars, however, are skeptical about the draft 
law's effectiveness in curbing custodial abuse in general 
because it lacks provisions that improves transparency and it 
continues to give police the power to control PSB detention 
centers, an arrangement that conflicts with the role of police 
as investigators.\160\

                          Wrongful Conviction

    In the past reporting year, the Chinese government made 
some efforts to address the problem of wrongful conviction, but 
custodial abuse and political interference continued to be 
subjects of concern.\161\ According to a scholar, false 
confessions--obtained mainly through torture--are the 
predominant cause of wrongful convictions, and police 
obstruction in procuratorial investigations undermined efforts 
to curb this practice.\162\ To prevent local influence on 
investigations, the Supreme People's Procuratorate reportedly 
drafted provisions allowing criminal petitions (xingshi shensu) 
involving possible grave injustice to be transferred to 
agencies in other locations.\163\ The Commission did not 
observe the publication of these provisions.
    In February 2017, the Supreme People's Court (SPC) reported 
that courts across China in 2016 corrected 11 cases of wrongful 
conviction involving 17 individuals.\164\ In one case, the 
SPC's second circuit tribunal rescinded the murder and rape 
convictions of Nie Shubin, who was executed in 1995, after 
another person confessed to the crimes in 2005.\165\ The court 
concluded that, due to inconsistencies in Nie's confession, it 
could not preclude the possibility that investigators induced 
or directed him to confess, but it declined to find that 
torture took place.\166\
    While the SPC reported that authorities continued to grant 
compensation in wrongful conviction cases,\167\ a report citing 
official statistics notes that fewer courts disclosed state 
compensation statistics between 2014 and 2016, which a Chinese 
legal scholar said was inconsistent with central authorities' 
stated goal of improving judicial protection against wrongful 
conviction.\168\

                             Death Penalty


              LACK OF TRANSPARENCY IN DEATH PENALTY CASES

    The Chinese government's claim of limited use of the death 
sentence \169\ remained unverifiable as authorities continued 
to treat the number of executions as a state secret. An April 
2017 Amnesty International report estimated that the number of 
executions in China remained in the thousands, exceeding the 
number for all other countries combined, and reported that the 
Chinese government continued its policy of nondisclosure of 
death sentence statistics on state secrecy grounds.\170\ 
Amnesty International found that death penalty-related 
documents published in China's official judicial document 
database represented a fraction of the execution reports 
retrieved from a search engine in China--about 5 percent in 
2015 and 8.5 percent in 2016--which in turn is a fraction of 
credible estimates given by non-governmental organizations and 
scholars.\171\

                 JUDICIAL REVIEW OF DEATH PENALTY CASES

    In the 10-year period after the Supreme People's Court 
(SPC) regained exclusive authority to review death penalty 
cases,\172\ the low rate of legal representation in death 
penalty cases and the lack of a uniform legal standard of 
review have remained issues of concern. While the PRC Criminal 
Procedure Law requires legal representation in cases where the 
defendants may receive the death penalty,\173\ there is no 
corresponding requirement in death penalty review cases before 
the SPC.\174\ A study of judicial opinions published between 
2014 and 2016 shows that legal counsel participated in 22 out 
of 255 (8.63 percent) death penalty review cases, and the 
majority of the defendants involved had junior high school or 
lower levels of education.\175\ A legal practitioner reported 
difficulty in preparing an effective defense due to the lack of 
a uniform standard of review and further noted that some SPC 
judges disposed of cases without addressing the points raised 
by defense counsel.\176\

                ORGAN HARVESTING FROM EXECUTED PRISONERS

    This past year, the Commission did not observe any 
rulemaking efforts to ban harvesting organs from executed 
prisoners,\177\ but authorities reportedly imposed sanctions on 
persons involved in one case of organ transplantation from an 
executed prisoner. Amnesty International observed that China is 
likely ``still sourcing organs from prisoners on death row'' as 
of 2017, noting that senior Chinese health official Huang 
Jiefu, who spoke at an international summit on organ 
trafficking held at the Vatican in February 2017, did not deny 
that the practice continued.\178\ Huang told reporters he was 
sure that there were some violations of China's ban on 
harvesting organs from executed prisoners, given China's 
population size.\179\ In October 2016, Huang said at a 
conference in Beijing municipality that he received information 
about a paramilitary police hospital transplanting a kidney 
from an executed prisoner to a Canadian patient for 30,000 
Canadian dollars (approximately US$21,900).\180\ Huang said he 
relayed the information to the Ministry of Public Security and 
the National Health and Family Planning Commission, after which 
authorities revoked the license of the doctor and the hospital, 
sanctioned the hospital director, and detained court personnel 
who facilitated the transaction.\181\

                                                      Criminal 
                                                        Justice
                                                Criminal 
                                                Justice
    Notes to Section II--Criminal Justice

    \1\ See, e.g., Rights Defense Network, ``As June Fourth Approaches, 
Stability Maintenance Across the Country Intensifies, Dissidents and 
Citizens Who Defend Rights Targeted for Stability Maintenance'' [Liusi 
linjin gedi weiwen yankong jiaju, yijian renshi ji weiquan gongmin bei 
mijixing weiwen], 1 June 17; Rights Defense Network, ``Communist Party 
Member Zi Su Formally Arrested on `Inciting Subversion of State Power 
Offense' for Asking Communist Party To Implement Direct Elections at 
19th Party Congress'' [Yaoqiu zhonggong 19 da zhixuan de zhonggong 
dangyuan zi su bei yi ``shandong dianfu guojia zhengquan zui'' zhengshi 
daibu], 15 June 17. See also Jerome A. Cohen, ``Disappearance of 
Chinese Human Rights Lawyer: What It Means To Be Placed Under 
`Residential Surveillance' in China,'' Jerry's Blog, 26 December 16; 
Sophie Richardson, Human Rights Watch, ``Submission by Human Rights 
Watch to the National People's Congress Standing Committee on the Draft 
Revisions to the Police Law,'' 22 December 16; Chang Wang and Vivian 
Wu, Thomson Reuters, ``China's Legal System: 2016 Reviews and 2017 
Predictions,'' Legal Current (blog), 2 March 17; Alex Linder, ``China's 
Chief Justice Lists Jailing Human Rights Lawyer as Legal System's Top 
Achievement of 2016,'' Shanghaiist, 14 March 17.
    \2\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief, Vol. 21, Issue 1 (Winter 2014), 4.
    \3\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9.
    \4\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 9(1); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 7 September 17. China has signed but 
not ratified the ICCPR. See also CECC, 2014 Annual Report, 9 October 
14, 81; State Council Information Office, ``National Human Rights 
Action Plan of China (2009-2010),'' 13 April 09, Introduction, sec. 
V(1). The 2009-2010 National Human Rights Action Plan issued by the 
Chinese government in April 2009 stated that the ``essentials'' of the 
ICCPR were some of the ``fundamental principles'' on which the plan was 
framed, and that the government would ``continue legislative, judicial 
and administrative reforms to make domestic laws better linked with 
this Covenant, and prepare the ground for ratification of the ICCPR.'' 
See also Body of Principles for the Protection of All Persons Under Any 
Form of Detention or Imprisonment, adopted by UN General Assembly 
resolution 43/173 of December 9, 1988, principle 4; International 
Justice Resource Center, ``Increased Oppression of Chinese Human Rights 
Defenders Draws International Criticism,'' 22 February 16.
    \5\ Harry Wu and Cole Goodrich, ``A Jail by Any Other Name: Labor 
Camp Abolition in the Context of Arbitrary Detention in China,'' Human 
Rights Brief, Vol. 21, Issue 1 (Winter 2014), 4; Amnesty International, 
``China: Submission to the United Nations Committee against Torture 
59th Session, 9 November-9 December 2015,'' October 2015, 16; Chinese 
Human Rights Defenders, ``We Can Beat You to Death With Impunity,'' 
October 2014, 6. See also ``Guo Gai and Wang Jianfen: Details of Black 
Jails in Wuxi: Rescue and Torture Reenactment'' [Guo gai, wang jianfen: 
wuxi hei jianyu shimo: yingjiu he kuxing yanshi], Charter 08 (blog), 23 
December 15.
    \6\ National People's Congress Standing Committee, Decision on 
Abolishing Laws and Regulations Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], issued and effective 28 
December 13; CECC, 2014 Annual Report, 9 October 14, 82-84.
    \7\ Amnesty International, ``China: Submission to the United 
Nations Committee against Torture 59th Session, 9 November-9 December 
2015,'' October 2015, 16; ``Black Jails Still in Vogue in Mainland, 
Reeducation Through Labor Continues To Exist Under a Different Name'' 
[Dalu hei jianyu shengxing laojiao huan tang bu huan yao], Radio Free 
Asia, 3 November 15. A petitioner reported that ``black jails'' 
provided no procedural protection and that human rights conditions had 
deteriorated after the abolition of RTL.
    \8\ Teng Biao, ``What Is a `Legal Education Center' in China,'' 
China Change, 3 April 14; ``2016 Summary of Persecution Against Falun 
Gong Practitioners in Wuhan Municipality'' [Wuhan shi falun gong 
xueyuan 2016 nian shou pohai zongshu], Clear Wisdom, 2 February 17. 
``Legal education centers'' are sometimes called ``brainwashing 
classes.''
    \9\ See, e.g., ``2016 Summary of Persecution Against Falun Gong 
Practitioners in Wuhan Municipality'' [Wuhan shi falun gong xueyuan 
2016 nian shou pohai zong shu], Clear Wisdom, 2 February 17; ``2016 
Case Summary of Persecution Against Falun Gong Practitioners in 
Guangdong'' [2016 nian guangdong falun gong xueyuan shou pohai anli 
zongshu], Clear Wisdom, 28 January 17.
    \10\ Petitioners are citizens who use the ``letters and visits 
system,'' also known as the petitioning system, to seek redress of 
their grievances against the government. See, e.g., ``Two Petitioners 
Put in Black Jail for 13 Days, Coughed Up Blood After Being Beaten and 
Forced To Write About `Learning Experience' '' [Liang fangmin qiu hei 
jianyu 13 ri bei ou tuxie bi xie ``xuexi xinde''], Radio Free Asia, 23 
September 16; Rights Defense Network, ``On Legal System Promotion Day, 
25 Petitioners From Sichuan and Chongqing Detained and Put in Black 
Jail'' [Fazhi xuanchuan ri sichuan, chongqing 25 ming fangmin zaodao 
kouya, guan hei jianyu], 4 December 16; ``Sixteen Petitioners From 
Chongqing Expressing Injustice at Front Entrance of Zhongnanhai in 
Beijing, Detained in Black Jail'' [16 ming chongqing fangmin beijing 
zhongnanhai zhengmen han yuan bei song hei jianyu jiya], Radio Free 
Asia, 21 December 16.
    \11\ See, e.g., Rights Defense Network, ``Statistical Report on 
Shanghai Rights Defenders Persecuted in Connection With National Two 
Sessions'' [Shanghai weiquan renshi yin quanguo lianghui er zao pohai 
de tongji baogao], 12 March 17; Rights Defense Network, ``Statistical 
Report on Rights Defenders in Shanghai Who Were Put in Black Jails or 
Detained Before and After Two Sessions (Supplement)'' [Lianghui qianhou 
shanghai weiquan renshi zao guan hei jianyu he juliu de tongji baogao 
(buchong)], 16 March 17; ``Victims of Demolition, Hangzhou Farmer Put 
in `Black Jail,' Police Did Not Accept Case Despite Report Being Made'' 
[Hangzhou chaiqian nongmin bei guan ``hei jianyu'' bao'an bu huo 
shouli], Radio Free Asia, 18 March 17. See also Liu Shaohua, ``China 
Enters Two Sessions Period'' [Zhongguo jinru lianghui shijian], 
People's Daily, 2 March 17.
    \12\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1). See also ``[Editorial] Beware of Arbitrary Psychiatric 
Treatment Due to Petitioning Dilemma'' [[Shelun] jingti xinfang kunju 
xia de jingshenbing shouzhi luanxiang], Southern Metropolitan Daily, 14 
June 16.
    \13\ Supreme People's Procuratorate, Measures on Implementation of 
Compulsory Medical Treatment (Trial) [Renmin jianchayuan qiangzhi 
yiliao zhixing jiancha banfa (shixing)], issued 13 May 16, effective 2 
June 16, arts. 9, 12.
    \14\ Civil Rights & Livelihood Watch, ``2016 Year-End Summary of 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2016 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], 26 January 17.
    \15\ Civil Rights & Livelihood Watch, ``Anhui Petitioner Shi 
Chuanfeng Intends To Travel to Beijing, Psychiatric Facility Personnel 
Join Interception!'' [Anhui fangmin shi chuanfeng yu jin jing 
jingshenbing yuan renyuan canyu jie fang!], 8 November 16. See also 
Civil Rights & Livelihood Watch, ``2016 Year-End Report on Mental 
Health and Human Rights (Forced Psychiatric Commitment)'' [2016 nian 
zhongguo jingshen jiankang yu renquan (bei jingshenbing) nianzhong 
zongjie], 26 January 17.
    \16\ Civil Rights & Livelihood Watch, ``2016 Year-End Summary of 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2016 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], 26 January 17.
    \17\ Chinese Communist Party Central Commission for Discipline 
Inspection, Provisions for Investigative Work of Cases by Disciplinary 
Investigation Agencies [Zhongguo gongchandang jilu jiancha jiguan 
anjian jiancha gongzuo tiaoli], issued 25 March 94, effective 1 May 94, 
art. 28. Article 28 of the 1994 provisions requires any person or 
organization having information about a case under investigation to 
comply with the shuanggui process. Chinese Communist Party Central 
Commission for Discipline Inspection, Opinion on Strengthening the 
Coordination Mechanisms in Case Investigation and on Further Regulating 
the Measure of ``Double Designation'' [Zhongyang jiwei guanyu wanshan 
cha ban anjian xietiao jizhi jinyibu gaijin he guifan ``lianggui'' 
cuoshi de yijian], issued 20 January 05, item 2(1); Flora Sapio, 
``Shuanggui and Extralegal Detention in China,'' China Information, 
Vol. 22, No. 1 (March 2008), 14-15. The 2005 Central Commission for 
Discipline Inspection opinion limits the application of shuanggui to 
Party members.
    \18\ Chinese Communist Party Central Commission for Discipline 
Inspection, Provisions for Investigative Work of Cases by Disciplinary 
Investigation Agencies [Zhongguo gongchandang jilu jiancha jiguan 
anjian jiancha gongzuo tiaoli], issued 25 March 94, effective 1 May 94, 
arts. 10, 28(3), 39; Human Rights Watch, `` `Special Measures': 
Detention and Torture in the Chinese Communist Party's Shuanggui 
System,'' 6 December 16; Amnesty International, ``No End in Sight: 
Torture and Forced Confessions in China,'' November 2015, 34, 47.
    \19\ Human Rights Watch, `` `Special Measures': Detention and 
Torture in the Chinese Communist Party's Shuanggui System,'' 6 December 
16; Flora Sapio, ``Shuanggui and Extralegal Detention in China,'' China 
Information, Vol. 22, No. 1 (March 2008), 24.
    \20\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 9; 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 9. See also CECC, 2015 Annual Report, 8 October 
15, 102-3; CECC, 2014 Annual Report, 9 October 14, 87-88.
    \21\ Human Rights Watch, `` `Special Measures': Detention and 
Torture in the Chinese Communist Party's Shuanggui System,'' 6 December 
16.
    \22\ Nathan VanderKlippe, ``Shuanggui: The Harsh, Hidden Side of 
China's War on Graft, and How One Man Disappeared Into It,'' Globe and 
Mail, 26 March 17.
    \23\ Ibid.
    \24\ National People's Congress Standing Committee, Decision on 
Launching State Supervision System Reform Pilot Program in Beijing 
Municipality, Shanxi Province, and Zhejiang Province, [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu zai beijing shi, shanxi sheng, 
zhejiang sheng kaizhan guojia jiancha tizhi gaige shidian gongzuo de 
jueding], issued 25 December 16, effective 26 December 16, item 1; 
``Three Provincial-Level Administrative Jurisdictions, Beijing, Shanxi, 
and Zhejiang, Establish Supervisory Commissions'' [Beijing, shanxi, 
zhejiang san sheng shi jiancha weiyuanhui chengli], Supervision 
Department of Central Commission for Discipline Inspection, 24 January 
17. See also ``Promote Comprehensive and Rigorous Development of Party 
Governance, Welcome the Opening of the Nineteenth Party Congress With 
Exceptional Performance--Work Report from the Chinese Communist Party's 
Eighteenth Central Commission for Discipline Inspection's Seventh 
Plenary Session'' [Tuidong quanmian congyan zhi dang xiang zongshen 
fazhan yi youyi chengji yingjie dang de shijiuda zhaokai--zai zhongguo 
gongchandang di shiba jie zhongyang jilu jiancha weiyuanhui di qi ci 
quanti huiyi shang de gongzuo baogao], Xinhua, 19 January 17, sec. 
1(2).
    \25\ National People's Congress Standing Committee, Decision on 
Launching State Supervision System Reform Pilot Program in Beijing 
Municipality, Shanxi Province, and Zhejiang Province, [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu zai beijing shi, shanxi sheng, 
zhejiang sheng kaizhan guojia jiancha tizhi gaige shidian gongzuo de 
jueding], issued 25 December 16, effective 26 December 16, item 2. See 
also Ge Wenxiu et al., ``Fifty-Nine Lawyers Including Ge Wenxiu Openly 
and Jointly Issued Four Suggestions to National People's Congress 
Regarding `State Supervision Law (Draft)' '' [Ge wenxiu deng 59 wei 
lushi lianming jiu ``guojia jiancha fa (cao'an)'' lifa xiang quanguo 
renda gongkai tichu sidian jianyi], 11 August 17, reprinted in Rights 
Defense Network, 13 August 17.
    \26\ Flora Sapio, ``An Interview About Shuanggui With the Globe and 
Mail,'' REACH (blog), 10 January 17.
    \27\ Lin Zizhen, ``Chen Guangzhong: Supervisory System Reform 
Requires Initiating a Systematic Legislative Amendment Process'' [Chen 
guangzhong: jiancha tizhi gaige xu qidong xitong xiu fa gongcheng], 
Caixin, 17 January 17; Wang Lina, `` `Detention Authority' Makes First 
Appearance in Supervision Pilot Reform, `Shuanggui,' `Shuangzhi' May Be 
Affected'' [Jiancha gaige shidian shou xian ``liuzhi quan'' 
``shuanggui'' ``shuangzhi'' huo shou yingxiang], Caijing, 31 December 
16.
    \28\ UN Human Rights Council, Report of the Working Group on 
Arbitrary Detention, A/HRC/22/44, 24 December 12, para. 63.
    \29\ For more information on Xia Lin, see the Commission's 
Political Prisoner Database record 2014-00432.
    \30\ For more information on Wu Zeheng, see the Commission's 
Political Prisoner Database record 2017-00235.
    \31\ UN Human Rights Council, Opinions adopted by the Working Group 
on Arbitrary Detention at Its 77th Session, 21-25 November 2016, 
Opinion No. 46/2016 concerning Wu Zeheng and 18 Others (China), A/HRC/
WGAD/2016/46, 27 January 17, para. 64; UN Human Rights Council, 
Opinions adopted by the UN Working Group on Arbitrary Detention at Its 
76th Session, 22-26 August 2016, Opinion No. 43/2016 Concerning Xia Lin 
(China), A/HRC/WGAD/2016/43, 12 October 16, para. 28.
    \32\ See, e.g., Rights Defense Network, ``Bulletin on CRLW Director 
Liu Feiyue's Case: Family Members Receive `Arrest Notice' From Suizhou, 
Hubei, PSB'' [Minsheng guancha fuzeren liu feiyue an tongbao: jiashu 
shoudao hubei suizhou shi gong'anju jifa de ``daibu tongzhishu''], 11 
January 17; Rights Defense Network, ``Director of Mainland NGO `64 
Tianwang' Huang Qi Arrested by Authorities'' [Dalu NGO ``liusi 
tianwang'' fuzeren huang qi yi bei dangju zhixing daibu], 20 December 
16; ``Li Heping Charged With `Subversion of State Power' '' [Li heping 
bei kong ``dianfu guojia zhengquan zui''], Radio Free Asia, 9 December 
16; ``Lawyer Wang Quanzhang in 709 Case Formally Indicted on Subversion 
Charge'' [709 an wang quanzhang lushi zhengshi bei qisu dianfu 
zuiming], Radio Free Asia, 15 February 17; ``Indictment Against Xie 
Yang Exposed, Lawyer To Counter Each Allegation'' [Xie yang an qisushu 
baoguang daili lushi jiang zhu tiao fanbo], Radio Free Asia, 1 February 
17; ``Sun Feng Convicted for Speech, Articles Posted Online Result in 5 
Years' Imprisonment'' [Sun feng bei yi yan ru zui wangshang fawen huan 
5 nian jianjin], Radio Free Asia, 21 November 16; ``Shenzhen's Li 
Jiangpeng Accused of `Subversion,' Wang Jun's Pregnant Wife Remains 
Subject to Monitoring After Returning to Shenzhen'' [Shenzhen li 
jiangpeng bei kong ``dianfu'' wang jun yun qi hui shen reng shou 
jiankong], Radio Free Asia, 10 April 17; Human Rights Watch, ``China: 
Drop Charges Against Tibetan Education Activist,'' 15 January 17; 
Tibetan Centre for Human Rights and Democracy, ``Charged of [sic] 
Inciting Separatism, Detained Former Tibetan Political Prisoner Tsegon 
Gyal on `Silent Protest,' '' 29 December 16.
    \33\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 54(2), 56, 102-113. All crimes of ``endangering 
state security'' (ESS) carry a mandatory supplemental sentence of 
deprivation of political rights, which include the rights of speech, 
publication, assembly, association, procession, and demonstration. PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
passed 1 July 79, amended 17 March 96, 14 March 12, effective 1 January 
13, art. 73; UN Committee against Torture, Concluding Observations on 
the Fifth Periodic Report of China, adopted by the Committee at its 
1391st and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 
February 16, para. 14. In addition to the severe criminal penalty, ESS 
offenses permit authorities to use ``residential surveillance at a 
designated location,'' which in practice could ``amount to 
incommunicado detention . . . putting detainees at a high risk of 
torture or ill-treatment.''
    \34\ For more information on Su Changlan, see the Commission's 
Political Prisoner Database record 2014-00406.
    \35\ For more information on Chen Qitang, see the Commission's 
Political Prisoner Database record 2009-00002.
    \36\ ``Su Changlan and Chen Qitang Sentenced to 3 Years and 4 Years 
and 6 Months Respectively, Citizens Expressed Support Online'' [Su 
changlan, chen qitang fen huoxing 3 nian ji 4 nian ban gongmin wangluo 
biaoda shengyuan], Radio Free Asia, 31 March 17. The Guangdong High 
People's Court dismissed the appeals of Su and Chen on June 6, 2017. 
``Appeals of Su Changlan and Chen Qitang Dismissed'' [Su changlan, chen 
qitang shangsu zao bohui], Radio Free Asia, 7 June 17.
    \37\ ``Hong Kong Groups Went to China Liaison Office To Support Su 
Changlan and Tian Li'' [Xianggang tuanti dao zhonglianban shengyuan su 
changlan, tian li], Radio Free Asia, 31 March 17; ``Appeals of Su 
Changlan and Chen Qitang Dismissed'' [Su changlan, chen qitang shangsu 
zao bohui], Radio Free Asia, 7 June 17.
    \38\ Hua Xuan, ``The Logic of Different Areas Making Different 
Judgments When Petitioners `Extort' Government'' [Dang fangmin 
``qiaozha'' zhengfu butong diqu butong pan de luoji], Southern Weekend, 
28 July 16.
    \39\ See, e.g., Uncle Ou of Huiyang's Younger Sister (Huiyang ou bo 
meimei), ``Progress Status of Case Against `Uncle Ou of Huiyang' Li 
Jianxin'' [``Huiyang ou bo'' li jianxin anqing jinzhan qingkuang], 
Weibo post, 27 March 17, 9:36 a.m.; Voice of Petitioners, ``Six 
Petitioners From Hebei Accused of Extortion, Family Members Gather and 
Kneel Down To Demand Explanation'' [Hebei liu fangmin bei kong qiaozha 
lesuo jiashu jiti xiagui yao shuofa], reprinted in Civil Rights & 
Livelihood Watch, 19 January 17. For more information on Li Jianxin 
(also known as Uncle Ou of Huiyang (Huiyang Ou Bo)), see the 
Commission's Political Prisoner Database record 2016-00498.
    \40\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 274. See also Supreme People's Court and Supreme 
People's Procuratorate, Interpretation on Certain Issues Concerning the 
Application of Law in Handling Criminal Cases Involving Extortion 
[Zuigao renmin fayuan, zuigao renmin jianchayuan guanyu banli qiaozha 
lesuo xingshi anjian shiyong falu ruogan wenti de jieshi], issued 1 
April 13, effective 27 April 13, art. 1.
    \41\ Cao Bo and Xiao Zhonghua, ``Doctrinal Critique of Using 
Extortion Charge To Regulate Petitioning Activity'' [Yi qiaozha lesuo 
zui guizhi xinfang xingwei de jiaoyixue pipan], Journal of Law 
Application, No. 9 (2016), 43.
    \42\ Petitioners are citizens who use the ``letters and visits 
system'' to seek redress of their grievances against the government. 
See, e.g., Philip Wen, ``Rare Disclosure Sheds Light on Plight of 
China's Aggrieved Petitioners,'' Reuters, 2 March 17. Such grievances 
reportedly include cases concerning demolition or expropriation of 
property, social security, agriculture, land and resources, and 
environmental protection. Benjamin L. Liebman, ``A Populist Threat to 
China's Courts? '' in Chinese Justice: Civil Dispute Resolution in 
Contemporary China, eds. Margaret Y.K. Woo and Mary E. Gallagher 
(Cambridge: Cambridge University Press, 2011), 309; Liang Shibin, 
``Resolutely Fight To Win the Battle on Clearing Backlog of Petitioning 
Cases'' [Jianjue da ying huajie xinfang ji'an gong jian zhan], Legal 
Daily, 27 April 16.
    \43\ Chinese courts reportedly have not settled the legal question 
as to whether petitioning constitutes ``extortion.'' See, e.g., Li 
Shide, ``Judges Explaining Law: Does Extorting the Government by Means 
of Petitioning Constitute a Crime? How Should the Nature of the Matter 
Be Determined? (Model Cases)'' [Faguan shuofa: yi shangfang yaoxie 
qiaozha lesuo zhengfu shifou goucheng fanzui? ying ruhe dingxing chuli? 
(dianxing anli)], Empirelawyers (fake diguo) (blog), 29 August 16; Cao 
Bo and Xiao Zhonghua, ``Doctrinal Critique of Using Extortion Charge To 
Regulate Petitioning'' [Yi qiaozha lesuo zui guizhi xinfang xingwei de 
jiaoyixue pipan], Legal Application, No. 9 (2016), 43. See also Zhushan 
County People's Procuratorate, ``Improper Petitioning Can Easily 
Violate Ten Criminal Offenses!'' [Shangfang budang, rongyi chufan shi 
zong zui!], 8 March 17.
    \44\ See, e.g., Linying County People's Court, Luohe Municipality, 
Henan Province, Criminal Judgment [Henan sheng linying xian renmin 
fayuan, xingshi panjue shu], (2013) Lin Xing Chu Zi No. 30, 18 October 
16, reprinted in China Judgements Online, 4 November 16; Hailun City 
People's Court, Suihua Municipality, Heilongjiang Province, Criminal 
Judgment [Heilongjiang sheng hailun shi renmin fayuan xingshi panjue 
shu], (2016) Hei 1283 Xing Chu No. 120, 27 December 16, reprinted in 
China Judgements Online, 19 January 17.
    \45\ Cai Yiwen, ``Petitioning Henan Farmer Prosecuted for 
`Blackmailing' Officials,'' Sixth Tone, 30 March 17.
    \46\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, arts. 290, 291.
    \47\ See, e.g., `` `Gathering a Crowd To Disturb Social Order Case' 
Against 6 Nanjing Petitioners Commences, Public Blocked From 
Attending'' [Nanjing 6 fangmin ``juzhong raoluan shehui zhixu an'' 
kaiting minzhong pangting zao ju], Radio Free Asia, 13 October 16; 
Rights Defense Network, ``Old Lady Chen Xuebing of Guizhou Died in 
Injustice Over an Acre of Life-Sustaining Land Being Divided Into 
Three, Daughter Wang Hong Arrested for Petitioning'' [Wei yimu sanfen 
huoming di, guizhou laotai chen xuebing bei yuansi nu'er wang hong 
shangfang zao daibu], 3 November 16; Rights Defense Network, ``Ethnic 
Mongolian Rights Defender Wenming From Horqin Left Rear Banner, 
Tongliao Municipality, Inner Mongolia, Criminally Detained for Making a 
Post Online'' [Neimenggu tongliao shi ke zuohou qi menggu zu weiquan 
gongmin wenming yin wangshang fa tie bei xingshi juliu], 20 December 
16; ``Filed Complaint Against Public Security Bureau Head, Arrest for 
Shenyang Rights Defender Lin Mingjie Approved'' [Zhuanggao gong'an 
juzhang shenyang weiquan renshi lin mingjie bei pi bu], Radio Free 
Asia, 11 October 16; Rights Defense Network, ``Trial for Guangdong 
Labor NGO Figure Meng Han, Charged on Suspicion of Gathering a Crowd to 
Disturb Social Order, To Begin November 3, 2016'' [Guangdong laogong 
NGO renshi meng han shexian ju zhong raoluan shehui zhixu an jiang yu 
2016 nian 11 yue 3 ri zhi 4 ri kaiting], 20 October 16; ``Zeng Feiyang 
and Two Other Labor Advocates Receive Suspended Sentences, Released'' 
[Zeng feiyang deng 3 laogong renshi bei pan huanxing huoshi], Radio 
Free Asia, 26 September 16.
    \48\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
18, 20(1); International Covenant on Civil and Political Rights, 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 18, 21, 22.
    \49\ For more information on the five individuals, see the 
following records in the Commission's Political Prisoner Database: 
2016-00454 on Yang Zhaocun, 2016-00470 on Wang Lulu, 2016-00471 on 
Cheng Yajie, 2016-00472 on Zheng Lan, and 2016-00473 on Liu Yan.
    \50\ ``5 Christians From Xinjiang Tried for Illegally Preaching'' 
[Xinjiang 5 jidutu feifa chuandao shou shen], Radio Free Asia, 27 
October 16; State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05.
    \51\ Supreme People's Court, Implementing Measures on People's 
Courts' Carrying Out ``Provisions on Protecting Judicial Personnel in 
Duly Performing Duties Designated by Law'' [Renmin fayuan luoshi 
``baohu sifa renyuan yifa luxing fading zhize guiding'' de shishi 
banfa], issued and effective 7 February 17, art. 11. The Supreme 
People's Court issued the implementing measures pursuant to a set of 
rules jointly issued by the general offices of the State Council and 
Chinese Communist Party Central Committee. Tang Weijian, 
``Interpretation Related to `Provisions on Protecting Judicial 
Personnel in Duly Performing Duties Designated by Law' '' [``Baohu sifa 
renyuan yifa luxing fading zhize guiding'' xiangguan jiedu], China 
Peace Net, 28 July 16.
    \52\ See, e.g., ``Lin Bingxing `Picking Quarrels and Provoking 
Trouble,' Lawyer Expects Heavy Sentence'' [Lin bingxing ``xunxin 
zishi'' lushi yuqi zhong pan], Radio Free Asia, 29 November 16; ``Zhao 
Hongyan, Female Petitioner From Hefei, Sentenced to 2 Years' 
Imprisonment at Trial of First Instance for Picking Quarrels and 
Provoking Trouble, Lawyer Cheng Hai Retained To File Appeal'' [Hefei nu 
fangmin zhao hongyan yishen bei yi xunxin zishi zui panxing 2 nian 
cheng hai lushi shou tuo shangsu], Radio Free Asia, 14 December 16; 
``Wang Fengyun, Petitioner From Inner Mongolia, Sentenced to 2 and a 
Half Years, Asserts Appeal at Court'' [Neimeng fangmin wang fengyun bei 
pan 2 nian ban dang ting ti shangsu], Radio Free Asia, 29 March 17; 
Rights Defense Network, ``Court Hearing Concludes in Wuxi 413 Crackdown 
Case, Court Did Not Announce Judgment'' [Wuxi 413 da zhuabu an tingshen 
jieshu wei dangting xuanpan], 24 April 17; Rights Defense Network, 
``Fuzhou Crackdown Bulletin: Today 8 Released on Bail, 3 People Still 
Detained (October 12, 2016)'' [Fuzhou da zhuabu tongbao: jin 8 ren 
qubao huoshi, reng you 3 ren zao jiya (2016 nian 10 yue 12 ri)], 12 
October 16; Rights Defense Network, ``Bulletin on 908 Suzhou Crackdown: 
Changsu Rights Defender Gu Xiaofeng Placed Under `Residential 
Surveillance at a Designated Location' by Suzhou Police for `Picking 
Quarrels and Provoking Trouble,' Gu Yimin Released on Bail Last Month, 
11 People Remain Under Residential Surveillance at a Designated 
Location (February 7, 2017)'' [Suzhou 908 da zhuabu tongbao: changshu 
weiquan gongmin gu xiaofeng bei suzhou jingfang yi ``xunxin zishi zui'' 
zhixing zhiding jusuo jianshijuzhu gu yimin shangyuedi huo qubao huoshi 
reng you 11 ren bei zhiding jianshi juzhu (2017 nian 2 yue 7 ri)], 7 
February 17.
    \53\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 293.
    \54\ Stanley Lubman, `` `Picking Quarrels' Casts Shadow Over 
Chinese Law,'' Wall Street Journal, China Real Time Report (blog), 30 
June 14.
    \55\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Concerning the Application of Law in 
the Handling of Criminal Cases Including Defamation by Means of the 
Internet [Guanyu banli liyong xinxi wangluo shishi feibang deng xingshi 
anjian shiyong falu ruogan wenti de jieshi], issued 10 September 13, 
art. 5.
    \56\ Edward Wong, ``China Uses `Picking Quarrels' Charge To Cast a 
Wider Net Online,'' New York Times, 26 July 15. See also ``Hu Changgen 
Probably Being Retaliated Against for Courageous Online Speech, To Be 
Tried on Wednesday'' [Hu changgen yongyu wangshang jinyan yi zao baofu 
zhou san shenxun], Radio Free Asia, 20 September 16; ``Hearing on Wang 
Jiangfeng `Picking Quarrels and Provoking Trouble Case' Temporarily 
Postponed, Family Emphasize Charge Unfounded'' [Wang jiangfeng ``xunxin 
zishi an'' linshi yanqi jiashu qiangdiao zuiming moxuyou], Radio Free 
Asia, 21 February 17; ``11 Petitioners Face Prosecution for 
Demonstration, Indicted on `Picking Quarrels and Provoking Trouble' '' 
[11 fangmin shiwei zao qingsuan bei qisu ``xunxin zishi'' zui], Radio 
Free Asia, 3 March 17.
    \57\ For more information on Shan Lihua, see the Commission's 
Political Prisoner Database record 2016-00033.
    \58\ Gangzha District People's Court, Nantong Municipality, Jiangsu 
Province, Criminal Judgment [Jiangsu sheng nantong shi gangzha qu 
renmin fayuan xingshi panjue shu], (2016) Su 0611 Xing Chu No. 50, 29 
September 16, reprinted in Rights Defense Network, 29 September 16; `` 
`Picking Quarrels and Provoking Trouble' Again, Jiangsu Rights Defender 
Shan Lihua Sentenced to 2 Years and 3 Months'' [You shi ``xunxin 
zishi'' jiangsu weiquan renshi shan lihua panxing 2 nian 3 ge yue], 
Radio Free Asia, 29 September 16.
    \59\ For more information on the eight individuals, see the 
following records in the Commission's Political Prisoner Database: 
2016-00463 on Zhuang Songkun, 2017-00100 on Hong Yongzhong, 2017-00101 
on Wu Fang, 2017-00102 on Cai Jialin, 2017-00103 on Li Chulu, 2017-
00104 on Wei Yonghan, 2017-00105 on Chen Suzhuan, and 2017-00107 on 
Yang Jinzhen.
    \60\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 296.
    \61\ Haifeng County People's Court, ``Haifeng County People's Court 
Publicly Announces First Instance Judgment in Case Against Nine People, 
Including Wei Yonghan and Zhang Bingchai, for Gathering a Crowd To 
Disturb Social Order, Illegal Assembly, Procession, or Demonstration, 
Gathering a Crowd To Disrupt Traffic, Obstructing Official Business, 
and Intentionally Disseminating False Information, Haifeng First 
Instance Judgment Announced'' [Haifeng xian renmin fayuan yishen 
gongkai xuanpan wei yonghan, zhang bingchai deng 9 ren juzhong raoluan 
shehui zhixu, feifa jihui, youxing, shiwei, juzhong raoluan jiaotong 
zhixu, fanghai gongwu, guyi chuanbo xujia xinxi an haifeng yishen 
xuanpan], 26 December 16; ``China Moves Ahead With Trials of Rebel 
Villagers in Secret,'' Radio Free Asia, 20 December 16; ``China Jails 
Nine Protestors From Guangdong's Rebel Village of Wukan,'' Radio Free 
Asia, 27 December 16; Zhuang Liehong, ``How Nine Wukan Villagers Were 
Illegally Tried and Sentenced in December, 2016,'' China Change, 5 
January 17; ``Day Before Lin Zulian's Trial, Tension Builds in Wukan 
Village Despite Relaxed Appearance'' [Lin zulian shenxun qianxi wukan 
cun wai chi nei zhang], Radio Free Asia, 7 September 16. For background 
information on Wukan village, see CECC, 2012 Annual Report, 10 October 
12, 129; CECC, 2014 Annual Report, 9 October 14, 142-43; CECC, 2016 
Annual Report, 6 October 16, 240.
    \62\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 225. See, e.g., ``Exclusive: Xin Lijian, Outspoken 
Entrepreneur From Guangdong, Indicted on Two Charges: `Illegal Business 
Activity and Destruction of Accounting Evidence' [Dujia: guangdong 
ganyan qiyejia xin lijian bei yi ``feifa jingying, xiaohui kuaiji 
pingju'' liang zui yisong qisu], Bowen Press, 5 November 16; ``Writer 
Xiong Feijun Among Three Criminally Detained, Defense Lawyer Will 
Request Bail'' [Zuojia xiong feijun an san ren zao xingju daili lushi 
jiang ti qubao houshen], Radio Free Asia, 2 January 17; Human Rights 
Campaign in China, ``Accused of Illegal Business Activity Due to 
Printing Religious Publications, Believer Li Hongmin of Guangfu Church 
in Guangzhou Sentenced to 10 Months and Fined Ten Thousand Yuan by 
Baiyun District Court'' [Yin yinshua zongjiao kanwu bei kong feifa 
jingying zui guangzhou guangfu jiaohui xintu li hongmin zao baiyun qu 
fayuan panxing 10 ge yue ji chufa jin yiwan yuan], 27 March 17.
    \63\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 246. See, e.g., ``Lawyer Zhang Lei: Explanation 
Regarding Hubei Liu Yanli's Case (January 4, 2017)'' [Zhang lei lushi: 
guanyu hubei liu yanli an de shuoming (2017 nian 1 yue 4 ri)], 
reprinted in Rights Defense Network, 4 January 17. For more information 
on Liu Yanli, see the Commission's Political Prisoner Database record 
2016-00380.
    \64\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 272. See, e.g., ChinaAid, ``Pastor Gu Yuese 
Formally Arrested on January 7'' [1 yue 7 ri gu yuese mushi zhengshi 
bei daibu], 9 January 17. For more information on Gu Yuese, see the 
Commission's Political Prisoner Database record 2016-00100.
    \65\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 276. See, e.g., Rights Defense Network, ``Five 
Farmers in Gushi County, Henan Province, Criminally Detained on 
`Sabotaging Production Operation' for Protecting Dam and Field by 
Stopping Sand Trucks From Moving Sand'' [Henan sheng gushi xian wu 
nongmin wei hudi baotian zuzhi yunshache yun sha bei yi ``pohuai 
shengchan jingying zui'' xing ju], 6 October 16.
    \66\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300. See, e.g., Qiao Nong, ChinaAid, ``Dali, Yunnan 
Christian Tu Yan Case Transferred to Procuratorate, Two Female Pastors 
in Chuxiong Arrested for Proselytizing'' [Yunnan dali jidutu tu yan an 
yisong jian chuxiong liang nu mushi yin chuanjiao zao daibu], 7 
February 17; ``Accused Langfang Hebei Falun Gong Practitioner Zhu 
Xiaomei's `Cult Case' Sent Back for Investigation'' [Hebei langfang 
falun gong xueyuan zhu xiaomei bei kong ``xiejiao an'' tui zhen], Radio 
Free Asia, 4 May 17.
    \67\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 309. See, e.g., ``At Least Nine Rights Activists 
`Secretly Detained' in China's Suzhou,'' Radio Free Asia, 24 March 17; 
``Xie Yang Indicted for Inciting Subversion of State and Disrupting 
Court Order'' [Xie yang bei qisu shan dian guojia ji raoluan fating 
zhixu zui], Radio Free Asia, 21 December 16.
    \68\ See, e.g., PRC Criminal Procedure Law [Zhonghua renmin 
gongheguo xingshi susong fa], passed 1 July 79, amended 17 March 96, 14 
March 12, effective 1 January 13, arts. 54, 121. The 2012 amendment to 
the PRC Criminal Procedure Law (CPL) provided for the exclusion of 
evidence obtained through illegal means such as torture, force, or 
threat, and required audiovisual recording of the interrogation process 
in serious cases involving life imprisonment or the death penalty. Xing 
Shiwei, ``Audiovisual Recording Will Be Implemented in All Criminal 
Cases'' [Suoyou xing'an xunwen jiang quan luyin luxiang], Beijing News, 
22 September 15. In September 2015, the Ministry of Public Security 
(MPS) announced that law enforcement agencies were implementing the 
audiovisual recording system, as prescribed by the CPL, and that MPS 
planned eventually to expand the scope of the system to cover all 
criminal cases. Ministry of Public Security, Provisions on 
Accountability for Public Security Agencies and People's Police in Law 
Enforcement Misconduct [Gong'an jiguan renmin jingcha zhifa guocuo 
zeren zhuijiu guiding], issued 24 February 16, effective 1 March 16, 
arts. 12, 19. In March 2016, the MPS issued disciplinary rules to hold 
police officers accountable for misconduct and subject them to 
criminal, administrative, and disciplinary sanctions, including for 
obtaining confessions through torturing detainees and retaliating 
against whistleblowers or complainants.
    \69\ ``Supreme People's Procuratorate Report on Strengthening 
Supervision on Investigation and Protecting Judicial Justice 
(Excerpts)'' [Zuigao renmin jianchayuan guanyu jiaqiang zhencha jiandu, 
weihu sifa gongzheng qingkuang de baogao (zhaiyao)], Procuratorial 
Daily, 7 November 16; Zheng Bochao et al., ``NPCSC Members Hope 
Procuratorate To Improve Effectiveness of Supervision'' [Renda 
changweihui zucheng renyuan xiwang jianfang zengqiang jiandu shixiao], 
Procuratorial Daily, 8 November 16.
    \70\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of State Security, and Ministry 
of Justice, Opinion on Promoting Trial-Centered Criminal Procedure 
System Reform [Guanyu tuijin yi shenpan wei zhongxin de xingshi susong 
zhidu gaige yijian], 11 October 16, item 5. The 2016 opinion obligates 
procurators to ask criminal suspects before the conclusion of 
investigation about the existence of coerced confession or illegal 
evidence collection. Supreme People's Court, Supreme People's 
Procuratorate, Ministry of Public Security, Ministry of State Security, 
and Ministry of Justice, Provisions on Certain Questions Regarding 
Excluding Illegal Evidence in Handling Criminal Cases [Guanyu banli 
xingshi anjian paichu feifa zhengju ruogan wenti de guiding], effective 
1 July 10, art. 7. An earlier set of provisions required the 
procuratorate to produce evidence concerning the legality of the 
evidence only upon inquiry by the court, rather than questioning the 
criminal suspect at the pretrial stage.
    \71\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of State Security, and Ministry 
of Justice, Provisions on Certain Issues Relating to Strictly Excluding 
Illegal Evidence in Criminal Cases, issued and effective 27 June 17.
    \72\ Margaret Lewis, ``Penetrating Law Into the Walls of Chinese 
Detention Centers,'' University of Nottingham, China Policy Institute: 
Analysis (blog), 18 July 17. See also Jeremy Daum, ``Exclusive Focus: 
Why China's Exclusionary Rules Won't Stop Police Torture,'' China Law 
Translate (blog), 1 July 17.
    \73\ ``Supreme People's Procuratorate Work Report'' [Zuigao renmin 
jianchayuan gongzuo baogao], 12 March 17, 7; PRC Criminal Law [Zhonghua 
renmin gongheguo xing fa], passed 1 July 79, amended 14 March 97, 
effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 247; 
``Supreme People's Procuratorate Report on Strengthening Supervision on 
Investigation and Protecting Judicial Justice (Excerpts)'' [Zuigao 
renmin jianchayuan guanyu jiaqiang zhencha jiandu, weihu sifa gongzheng 
qingkuang de baogao (zhaiyao)], Procuratorial Daily, 7 November 16. 
This November report states that the procuratorate corrected 175,062 
cases of illegal evidence collection practices between 2013 and 2016. 
The report does not provide disaggregated information in terms of the 
specific actions taken by the procuratorate.
    \74\ See, e.g., Craig Offman and Nathan VanderKlippe, ``Detained 
Canadian Says China Tortured Her Into Giving Bribery Confession,'' 
Globe and Mail, 17 November 16; Te-Ping Chen, ``China's Anticorruption 
Drive Ensnares the Lowly and Rattles Families,'' Wall Street Journal, 
20 December 16.
    \75\ See, e.g., Chen Jian'gang, ``Record of Meeting With Hunan 
Lawyer Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu (er)], 
reprinted in Rights Defense Network, 19 January 17; ``Former State 
Security Captain From Jinyang, Sichuan, Coerced To Confess Under 
Torture (I)'' [Sichuan jinyang yuan guobao daduizhang bei xingxun 
bigong (shang)], Radio Free Asia, 8 March 17.
    \76\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73; Dui Hua Foundation, ``China Issues 
Oversight Rules for `Non-Residential' Residential Surveillance,'' Dui 
Hua Human Rights Journal, 9 February 16. The Dui Hua Foundation 
translated the term ``residential surveillance at a designated 
location'' as ``designated-location residential surveillance.'' See 
also UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 14. The UN Committee against Torture used the translation 
``residential surveillance at a designated location.''
    \77\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 73, 77. See also Eva Pils et al., `` 
`Rule by Fear?' '' Asia Society, ChinaFile, 18 February 16. Scholar Eva 
Pils wrote: ``. . . whereas in 2011, the authorities made people 
disappear stealthily and generally without admitting that this was 
happening, forced disappearances have now effectively become part of 
the system, and the authorities carry them out `in accordance with 
law.' '' UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 14. The UN Committee against Torture criticized this coercive 
measure because it ``may amount to incommunicado detention in secret 
places, putting detainees at a high risk of torture or ill-treatment.'' 
Nathan VanderKlippe, ``Canada, 10 Other Countries Call Out China for 
Torturing Human Rights Lawyers,'' Globe and Mail, 20 March 17.
    \78\ Elizabeth M. Lynch, ``Codifying Illegality? The Case of Jiang 
Tianyong,'' China Law & Policy (blog), 20 January 17. See also Chinese 
Human Rights Defenders, ``NGO Mid-Term Assessment of China's 
Implementation of 2nd Universal Periodic Review (UPR) Recommendations 
(Report),'' 22 November 16, 56-57.
    \79\ Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie Yang 
(One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in Rights 
Defense Network, 19 January 17; Chen Jian'gang, ``Record of Meeting 
With Hunan Lawyer Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu 
(er)], reprinted in Rights Defense Network, 19 January 17; Wang 
Qiaoling, ``A Third Update on Lawyer Li Chunfu: He Was Drugged in 
Custody,'' reprinted in China Change, 15 January 17; China Human Rights 
Lawyers Concern Group (chrlcg), ``Li Heping and Wang Quanzhang Tortured 
With Electric Shocks To Faint,'' Twitter post, 23 January 17, 1:17 a.m.
    \80\ See, e.g., ``Two More People in Suzhou Crackdown Under 
Residential Surveillance'' [Suzhou da zhuabu zai you liang ren jianshi 
juzhu], Radio Free Asia, 9 November 16; Rights Defense Network, 
``Rights Defense Network: Monthly Report on Detained Awaiting Trial and 
Forcibly Disappeared Individuals in Mainland China (March 31, 2017) 
Issue No. 18 (Total 199 Persons)'' [Weiquan wang: zhongguo dalu jiya 
wei pan ji qiangpo shizong renyuan yue du baogao (2017 nian 3 yue 31 
ri) di shiba qi (gong 199 ren)], 31 March 17.
    \81\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 73; Zhuang An, ``Suspected of Committing a 
Crime, Jiang Tianyong Duly Placed Under Criminal Coercive Measure'' 
[Jiang tianyong shexian weifa fanzui bei yifa caiqu xingshi qiangzhi 
cuoshi], The Paper, 16 December 16; ``Lawyer Tan Chenshou: Case Status 
Explanation Regarding Jiang Tianyong'' [Tan chenshou lushi: jiang 
tianyong an ban'an qingkuang shuoming], China Free Press, 21 March 17.
    \82\ ``Lawyer Tan Chenshou: Case Status Explanation Regarding Jiang 
Tianyong'' [Tan chenshou lushi: jiang tianyong an ban'an qingkuang 
shuoming], China Free Press, 21 March 17; ``Changsha PSB Denied Meeting 
Request, Jiang Tianyong's Father and Lawyers Lodged Complaint'' 
[Changsha gong'an ju huijian jiang tianyong fu ji lushi ti kongsu], 
Radio Free Asia, 30 December 16.
    \83\ ``709 Crackdown: Lawyer Jiang Tianyong Formally Arrested After 
Expiration of `Residential Surveillance at a Designated Location' '' 
[709 da zhuabu: jiang tianyong lushi ``jianshi juzhu'' qiman zao 
zhengshi daibu], Radio Free Asia, 1 June 17; ``Jiang Tianyong's Family 
Received Arrest Notice, Charge Changed for the Third Time'' [Jiang 
tianyong jiashu shoudao daibu tongzhishu zhikong zuiming san ci 
biangeng], Radio Free Asia, 5 June 17.
    \84\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Charged of Inciting Separatism, Detained Former Tibetan Political 
Prisoner Tsegon Gyal on `Silent Protest,' '' 29 December 16; Chinese 
Human Rights Defenders, `` `They Target My Human Rights Work as a 
Crime': Annual Report on the Situation of Human Rights Defenders in 
China (2016),'' February 17, 26; ``Punishing Rights Lawyers a Top 
Achievement, Says China,'' Al Jazeera, 12 March 17.
    \85\ See, e.g., ``Study Abroad Student Quan Ping Wears T-Shirt That 
Satirizes Leader, Right to Defense Counsel Illegally Stripped'' [Chuan 
wenhua shan fengci lingdaoren liuxuesheng quan ping bianhu lushi zao 
weigui boduo], Radio Free Asia, 13 February 17; Rights Defense Network, 
``Lawyer Chen Jinxue: Lawyer Applies for Meeting With Jiang Tianyong on 
Grounds That Meeting With Reporter Already Took Place, Changsha 
Municipal Public Security Bureau Again Ignores Lawyer'' [Chen jinxue 
lushi: lushi yi jizhe yi jian wei you shenqing huijian jiang tianyong, 
changsha shi gong'anju you ju lushi yu men wai], 2 March 17; Civil 
Rights & Livelihood Watch, ``Lawyer Wen Donghai's Third Application To 
Meet Liu Feiyue Denied'' [Wen donghai lushi di san ci shenqing huijian 
liu feiyue zao ju], 24 March 17; Rights Defense Network, ``Lawyer Sui 
Muqing: Circular on Huang Qi Case--Lawyer Not Permitted To Meet With 
Huang Qi or Make Bail Application on His Behalf (1 April, 2017)'' [Sui 
muqing lushi: huang qi an tongbao--bu tongyi lushi huijian huang qi ji 
wei qi banli qubao (2017 nian 4 yue 1 ri)], 1 April 17; ``Huang Qi of 
64 Tianwang in Sichuan Has Worrying Health Conditions While Held in PSB 
Detention Center'' [Sichuan liu si tianwang huang qi kanshousuo zhong 
bingkuang kanyou], Voice of America, 21 February 17.
    \86\ Tai Jianlin, ``Lawyers' Meeting Rooms at PSB Detention Center 
Increased From Two to Nine'' [Kanshousuo lushi huijian shi liang jian 
bian jiu jian], Legal Daily, reprinted in Xinhua, 24 May 16.
    \87\ PRC Lawyers Law [Zhonghua renmin gongheguo lushi fa], passed 
28 October 07, amended 26 October 12, effective 1 January 13, art. 33. 
For the prior version, see PRC Lawyers Law [Zhonghua renmin gongheguo 
lushi fa], passed 28 October 07, effective 1 June 08, art. 33.
    \88\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 37; Amnesty International, ``China: 
Submission to the United Nations Committee against Torture 59th 
Session, 9 November-9 December 2015,'' October 2015, 9.
    \89\ For more information on Jiang Tianyong, see the Commission's 
Political Prisoner Database record 2011-00179.
    \90\ Rights Defense Network, ``Lawyers Chen Jinxue and Tan 
Chenshou: Lawyers' Opinion and Declaration Regarding Jiang Tianyong's 
Purported Acceptance of Being Interviewed by Global Times'' [Chen 
jinxue lushi, tan chenshou lushi: guanyu jiang tianyong suowei jieshou 
huanqiu shibao caifang yi shi de lushi yijian ji shengming], 2 March 
17; Rights Defense Network, ``Lawyer Chen Jinxue: Lawyer Applies for 
Meeting With Jiang Tianyong on Grounds That Meeting With Reporter 
Already Took Place, Changsha Municipal Public Security Bureau Again 
Ignores Lawyer'' [Chen jinxue lushi: lushi yi jizhe yi jian wei you 
shenqing huijian jiang tianyong, changsha shi gong'anju you ju lushi yu 
men wai], 2 March 17.
    \91\ See, e.g., ``Zhang Wanhe in Shandong Weifang Case Completed 
Sentence and Released From Jail'' [Shandong weifang an zhang wanhe xing 
man chuyu], Radio Free Asia, 4 January 17; ``Suzhou Rights Advocate Gu 
Xiaofeng Taken Away by Police, Residence Raided'' [Suzhou weiquan 
renshi gu xiaofeng bei jing daizou zhuzhai bei chao], Radio Free Asia, 
6 February 17; Rights Defense Network, ``Status Report of Lawyer Tan 
Chenshou's Meeting With Guiyang Living Stone Church Accountant and 
Christian Zhang Xiuhong, Who Was Sentenced to Five Years' Imprisonment 
on Illegal Business Activity'' [Tan chenshou lushi huijian yishen bei 
yi feifa jingying zui panchu 5 nian youqi tuxing guiyang huoshi jiaohui 
kuaiji jidutu zhang xiuhong de qingkuang tongbao], 24 February 17.
    \92\ See, e.g., ``Call for Efforts To Save Hubei Veteran 
Association President and Rights Defense Representative Gao Hancheng'' 
[Yu qing yingjiu hubei laobing huizhang weiquan daibiao gao hancheng], 
Boxun, 12 March 17.
    \93\ For more information on Chen Yunfei, see the Commission's 
Political Prisoner Database record 2010-00014.
    \94\ Liu Zhengqing, Human Rights in China, ``Solemn Declaration 
Regarding Wuhou Court's Seizure of My Computer at Chen Yunfei's 
Hearing'' [Guanyu chen yunfei an kaiting shi wuhou fayuan qiang wo 
diannao de zhengzhong shengming], 26 December 16; Chen Yunfei, ``Lawyer 
Liu Zhengqing, Defense Lawyer for Chen Yunfei, Issued Letter Addressed 
to Chengdu Wuhou Court President'' [Chen yunfei bianhu lushi lushi liu 
zhengqing zhi xin chengdu wuhou fayuan yuanzhang], reprinted in Free 
China News, 2 January 17; ``Chen Yunfei's Termination of Legal 
Representation Caused Cancellation of Court Hearing'' [Chen yunfei 
jiepin lushi zhi tingshen liu chan gaozhong], Radio Free Asia, 26 
December 16.
    \95\ For more information on Ding Meifang, see the Commission's 
Political Prisoner Database record 2017-00094.
    \96\ Rights Defense Network, ``Hefei Female Petitioner Ding 
Meifang, Who Previously Voiced Support for Zhang Anni, Again Sentenced 
to 2 Years for Petitioning, Parents Adamantly Insist She Was 
Persecuted'' [Ceng canyu shengyuan zhang anni de hefei shi nu fangmin 
ding meifang yin shangfang zaici bei panxing 2 nian, fumu jian cheng 
shi bei pohai], 10 January 17.
    \97\ ``Over a Hundred Lawyers in China Issued Joint Letter Calling 
for Release of Human Rights Lawyer and His Family'' [Zhongguo baiming 
lushi lianshu cu shifang renquan lushi ji jiaren], Voice of America, 4 
May 17; Civil Rights & Livelihood Watch, ``Six Individuals, Including 
Chen Jian'gang, Detained During Trip to Yunnan'' [Chen jian'gang deng 
liuren yunnan luyou beizhua], 3 May 17.
    \98\ Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie Yang 
(One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in Rights 
Defense Network, 19 January 17; Chen Jian'gang, ``Record of Meeting 
With Hunan Lawyer Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu 
(er)], reprinted in Rights Defense Network, 19 January 17; ``Chen 
Guiqiu Writes Letter to Government-Appointed Lawyer, Chen Jian'gang 
Summoned by Ministry of Justice Again'' [Chen guiqiu zhi xin xie yang 
an guanpai lushi chen jian'gang zai bei sifaju yuetan], Radio Free 
Asia, 10 April 17.
    \99\ For more information on Xie Yang, see the Commission's 
Political Prisoner Database record 2015-00295.
    \100\ Rights Defense Network, ``Lawyer Liu Zhengqing: Bulletin on 
Developments in 709 Xie Yang Case--Formal Indictment Received, Hearing 
Won't Be Held Until After Spring Festival (January 4, 2017)'' [Liu 
zhengqing lushi: 709 xie yang an jinzhan qingkuang tongbao--nadao qisu 
shu chunjie qian buhui kaiting (2017 nian 1 yue 4 ri)], 4 January 17.
    \101\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 154-57, 162.
    \102\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 9(3), 9(4), 14(3)(c). The International 
Covenant on Civil and Political Rights entitles a person to be released 
or to ``be brought promptly before a judge or other officer authorized 
by law to exercise judicial power'' and ``be tried without undue 
delay'' for the purposes of determining the lawfulness of the detention 
and the criminal charge. See also Universal Declaration of Human 
Rights, adopted and proclaimed by UN General Assembly resolution 217A 
(III) on 10 December 48, arts. 9, 10; UN General Assembly, Body of 
Principles for the Protection of All Persons under Any Form of 
Detention or Imprisonment, A/RES/43/173, 9 December 88, principles 4, 
11.
    \103\ See, e.g., Huang Qi, 64 Tianwang, ``Gathering a Crowd To 
Promote Mao Zedong and Xi Jinping, Mianyang Tries Deng Xuemei This 
Month'' [Juzhong chuanbo mao zedong xi jinping mianyang ben yue shen 
deng xuemei], 4 April 16; ``Su Changlan and Chen Qitang Sentenced to 3 
Years and 4 Years and 6 Months Respectively, Citizens Expressed Support 
Online'' [Su changlan, chen qitang fen huo xing 3 nian ji 4 nian ban 
gongmin wangluo biaoda shengyuan], Radio Free Asia, 31 March 17; 
``Appearing in Court in Pajamas and Having `Chinese Dream,' Chen Yunfei 
Sentenced to 4 Years' Imprisonment'' [Shenchuan shuiyi chuting zuo 
``zhongguo meng'' chen yunfei bei panqiu 4 nian], Radio Free Asia, 31 
March 17; Rights Defense Network, ``Zhang Xiaoyu From Jiaozuo, Henan, 
Sentenced to 3 Years and 6 Months' Imprisonment at Trial of First 
Instance for Picking Quarrels and Provoking Trouble, Husband Xu Youchen 
Sentenced to Death'' [Henan jiaozuo zhang xiaoyu yishen bei yi xunxin 
zishi zui panchu 3 nian 6 ge yue xingqi zhangfu xu youchen bei pan 
sixing], 10 January 17; ``Liu Shaoming, a 1989 Veteran and a Labor 
Activist, Remains Imprisoned Without Sentence,'' China Change, 31 May 
17; ``PSB Detention Center Refused To Allow Dong Guangping To Receive 
Money Deposited for Him, Citizen Seeks Information Disclosure'' 
[Kanshousuo ju wei dong guangping cunqian gongmin yaoqiu xinxi 
gongkai], Radio Free Asia, 23 May 17.
    \104\ See, e.g., China Labour Bulletin, ``Labour Activist Meng Han 
Goes to Trial Amidst Intimidation and Blatant Procedural Violations,'' 
24 October 16; Edward Wong, ``Chinese Prosecutors Ask Court for More 
Time in Detained Tibetan's Case,'' New York Times, 28 December 16; `` 
`June Fourth Liquor Case' Returned for Investigation a Third Time, 
Defendant's Counsel Sends Letter Urging Non-Prosecution'' [``Liusi jiu 
an'' di san ci tuizhen beigao lushi quxin yaoqiu bu qisu], Radio Free 
Asia, 1 March 17.
    \105\ For more information on Zhang Wanhe (also known as Zhang 
Weihong), see the Commission's Political Prisoner Database record 2016-
00116.
    \106\ ``In the Weifang Placard-Holding Case, Lawyer Met With Yao 
Jianqing'' [Weifang jupai an lushi huijian yao jianqing], Radio Free 
Asia, 17 May 16.
    \107\ For more information on Yao Jianqing, see the Commission's 
Political Prisoner Database record 2016-00160.
    \108\ ``Zhang Wanhe in Shandong Weifang Case Completed Sentence and 
Released From Jail'' [Shandong weifang an zhang wanhe xing man chuyu], 
Radio Free Asia, 4 January 17.
    \109\ See, e.g., Wang Jian, ``6 Petitioners From Hebei Charged With 
Extortion: Received `Stipend for Food and Lodging' When Petitioning, 
Victim of Extortion Unknown'' [Hebei 6 fangmin bei kong qiaozha: 
shangfang shi shou ``shisu butie,'' qiaozha duixiang buming], The 
Paper, 22 October 16; Voice of Petitioners, ``Six Petitioners From 
Hebei Charged With Extortion, Family Gathered and Knelt Down To Ask for 
Explanation'' [Hebei liu fangmin bei kong qiaozha lesuo jiashu jiti 
xiagui yao shuofa], 19 January 17; Civil Rights & Livelihood Watch, 
``Hearing Adjourned in Case Against Shandong Petitioner Li Chunhua, 
Charged on Suspicion of Obstructing Official Business'' [Shandong 
fangmin li chunhua shexian fang'ai gongwu an yanqi kaiting], 2 
September 16; ``Hu Changgen's Court Hearing Suddenly Cancelled'' [Hu 
changgen tingshen tu bei quxiao], Radio Free Asia, 21 September 16; 
Huang Qi, 64 Tianwang, ``Support Xi Jinping and Bo Xilai and Oppose Wu 
and Wen, Sichuan Deng Xuemei Sentenced to 2 Years'' [Ting xi jinping bo 
xilai fan hu wen sichuan deng xuemei huoxing 2 nian], 10 November 16; 
``Yin Xu'an Trial of First Instance Concluded, Judgment To Be Announced 
Another Day'' [Yin xu'an yishen jieshu zeri xuanpan], Radio Free Asia, 
13 September 16; Rights Defense Network, ``Rights Defense Network: 
Monthly Report on Individuals in Mainland China Not Yet Sentenced and 
Forcibly Disappeared (March 31, 2017) No. 18 (199 People in Total)'' 
[Weiquan wang: zhongguo dalu jiya wei pan ji qiangpo shizong renyuan 
yuedu baogao (2017 nian 3 yue 31 ri) di shiba qi (gong 199 ren)], 31 
March 17. PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 156, 202. Article 202 of the PRC Criminal 
Procedure Law provides that the court of first instance generally must 
render a judgment within two and at most three months after a case has 
been filed. A three-month extension may be granted by the high people's 
court for the following four reasons, as specified in Article 156: ``1) 
grave and complex cases in outlying areas where traffic is most 
inconvenient; 2) grave cases that involve criminal syndicates; 3) grave 
and complex cases that involve people who commit crimes from one place 
to another; and 4) grave and complex cases that involve various 
quarters and for which it is difficult to obtain evidence.'' Further 
extension requires approval by the Supreme People's Court and is 
granted only under special circumstances.
    \110\ For more information on Gao Hancheng, see the Commission's 
Political Prisoner Database record 2017-00218.
    \111\ Voice of Petitioners, ``Several Hundred Veterans Who Showed 
Support for Eight Veterans at Their Hearing, Including Gao Hancheng, 
Detained by Police'' [Shubai laobing shengyuan gao hancheng deng ba 
laobing an kaiting zao jingfang zhuabu guanya], 27 April 17; ``Pretrial 
Conference Held in Vietnam War Veteran Gao Hancheng's Case, Fellow 
Soldiers Who Show Support Intercepted'' [Yuezhan laobing gao hancheng 
an zhaokai tingqian huiyi zhanyou shengyuan zao lanjie], Radio Free 
Asia, 27 April 17; Rights Defense Network, ``Lawyers Li Yuhan and Wang 
Fei Filed Bail Application for the Fourth Time for War Veteran Gao 
Hancheng, Accused Wuhan Ankang Hospital of Torture'' [Li yuhan wang fei 
lushi di si ci wei can zhan laobing gao hancheng shenqing qubao konggao 
wuhan ankang yiyuan nuedai], 26 February 17; ``Call for Efforts To Save 
Hubei Veteran Association President and Rights Defense Representative 
Gao Hancheng'' [Yu qing yingjiu hubei laobing huizhang weiquan daibiao 
gao hancheng], Boxun, 12 March 17. See also PRC Criminal Procedure Law 
[Zhonghua renmin gongheguo xingshi susong fa], passed 1 July 79, 
amended 17 March 96, 14 March 12, effective 1 January 13, arts. 156, 
232. Article 232 of the PRC Criminal Procedure Law provides that the 
court of second instance generally must adjudicate a case within two 
months. A two-month extension may be granted by the high people's court 
for the following four reasons, as specified in Article 156: ``1) grave 
and complex cases in outlying areas where traffic is most inconvenient; 
2) grave cases that involve criminal gangs; 3) grave and complex cases 
that involve people who commit crimes from one place to another; and 4) 
grave and complex cases that involve various quarters and for which it 
is difficult to obtain evidence.'' Further extension requires approval 
by the Supreme People's Court and is granted only under special 
circumstances.
    \112\ Rights Defense Network, ``Lawyers Li Yuhan and Wang Fei Filed 
Bail Application the Fourth Time for War Veteran Gao Hancheng, Accused 
Wuhan Ankang Hospital of Torture'' [Li yuhan wang fei lushi disi ci wei 
canzhan laobing gao hancheng shenqing qubao konggao wuhan ankang yiyuan 
nuedai], 26 February 17; ``Call for Efforts To Save Hubei Veteran 
Association President and Rights Defense Representative Gao Hancheng'' 
[Yu qing yingjiu hubei laobing huizhang weiquan daibiao gao hancheng], 
Boxun, 12 March 17.
    \113\ See, e.g., ``Xie Yang's Legal Representative Chen Jian'gang 
Detained in Yunnan'' [Xie yang daili lushi chen jian'gang zai yunnan 
beizhua], Radio Free Asia, 3 May 17; ``Jiangsu Wang Jian To Be Tried on 
Wednesday'' [Jiangsu wang jian zhou san shenxun], Radio Free Asia, 15 
November 16; Rights Defense Network, ``Chang Hongyan, Host of 
`Petitioners Saturday,' Taken into Custody in Lu Village, Beijing, on 
Suspicion of Obstruction of Public Service, Under Which Arrest Was 
Approved'' [``Fangmin xingqi liu'' zhuchiren chang hongyan zai beijing 
lu cun bei yi shexian fanghai gongwu zui pibu zhua zou], 21 January 17; 
``Family Church in Xinjiang Weili Construction Corps Suffered Search 
and Seizure by Government'' [Xinjiang weili jianshe bingtuan yi jiating 
jiaohui zao dangju chachao], Radio Free Asia, 1 March 17; Rights 
Defense Network, ``Shandong Linqu Chen Zengjiang Detained While on a 
Ride, Ate Guaranty Document at Police Station and Beaten'' [Shandong 
linqu chen zengjiang chengche bei zhua paichusuo nei tunshi baozheng 
shu zao da], 20 March 17; ``Three Important Burial Sites Become 
Restricted Areas on `Tomb Sweeping Day,' 10 People Detained While 
Paying Respect to Yang Jia'' [San da muqu cheng ``qingming'' jindi ji 
yang jia 10 ren bei zhua], Radio Free Asia, 5 April 17.
    \114\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, arts. 83, 91, 117, 122, 136; PRC People's 
Police Law [Zhonghua renmin gongheguo renmin jingcha fa], passed 28 
February 95, amended 26 October 12, effective, 1 January 13, art. 9.
    \115\ Ministry of Public Security, PRC People's Police Law 
(Amendment Draft) [Zhonghua renmin gongheguo renmin jingcha fa (xiuding 
cao'an gao)], 1 December 16, arts. 31-35. See also Liu Yizhan and Xiong 
Feng, ``Three Points of Focus of Proposed Substantial Revision to 
People's Police Law'' [Renmin jingcha fa ni daxiu jujiao san da guanzhu 
dian], Xinhua, 3 December 16.
    \116\ PRC People's Police Law [Zhonghua renmin gongheguo renmin 
jingcha fa], passed 28 February 95, amended and effective 26 October 
12.
    \117\ Ministry of Public Security, Provisions on the Administration 
and Use of Public Security Agencies' Official-Use Firearms [Gong'an 
jiguan gongwu yong qiang guanli shiyong guiding], issued and effective 
9 October 99, arts. 2, 3; State Council, PRC Regulations on the 
People's Police Use of Police Equipment and Weapons [Zhonghua renmin 
gongheguo renmin jingcha shiyong jingxie he wuqi tiaoli], issued and 
effective 16 January 96, arts. 3, 9; Ministry of Public Security, 
Operating Rules and Procedures for On-Site Stopping of Illegal and 
Criminal Conduct of Public Security Agencies by the People's Police 
[Gong'an jiguan renmin jingcha xianchang zhizhi weifa fanzui xingwei 
caozuo guicheng], issued and effective 27 January 10, arts. 30, 31. See 
also PRC Firearms Management Law [Zhonghua renmin gongheguo qiangzhi 
guanli fa], passed 5 July 96, amended and effective 27 August 09, art. 
5; Ministry of Public Security, Measures on Equipping Official-Use 
Firearms [Gongwu yong qiang peibei banfa], issued 26 May 98, amended 
and effective 28 August 02, art. I(1).
    \118\ Ministry of Public Security, PRC People's Police Law 
(Amendment Draft) [Zhonghua renmin gongheguo renmin jingcha fa (xiuding 
cao'an gao)], 1 December 16, art. 31.
    \119\ Sophie Richardson, Human Rights Watch, ``Submission by Human 
Rights Watch to the National People's Congress Standing Committee on 
the Draft Revisions to the Police Law,'' reprinted in Human Rights 
Watch, 22 December 16, 2-3, citing UN Basic Principles on the Use of 
Force and Firearms by Law Enforcement Officials, adopted by the Eighth 
UN Congress on the Prevention of Crime and the Treatment of Offenders, 
Havana, Cuba (27 August-7 September 1990), A/CONF.144/28/Rev.1, 
principle 9.
    \120\ Sophie Richardson, Human Rights Watch, ``Submission by Human 
Rights Watch to the National People's Congress Standing Committee on 
the Draft Revisions to the Police Law,'' reprinted in Human Rights 
Watch, 22 December 16.
    \121\ See, e.g., ``Dozens of Police Grab, Beat, and Detain 
Demolition Victims, Mother and Daughter With Disabilities; Accused of 
Wrongdoing After Sleeping in Government Building and Making Reports to 
Foreign Media'' [Shushi jingcha zhua da juliu zao qiangchai canji munu 
lusu zhengfu xiang waimei baoliao huozui], Radio Free Asia, 25 May 17; 
``Man in Inner Mongolia Shot Dead After `Attacking Police' While 
Intoxicated, Sparks Public Opinion and Debate'' [Neimenggu nanzi jiuzui 
``xi jing'' bei jibi yinfa yulun zhengyi], Radio Free Asia, 10 January 
17; ``Villagers From Taxian District, Anhui, Refuse To Relocate, 
Several Hundred Police Cordon Off Village, Beat and Grab Villagers'' 
[Anhui taxian qu cunmin jujue banqian zao shubai jingcha feng cun zhua 
da], Radio Free Asia, 2 June 17.
    \122\ See, e.g., ``Chu Ling Refuses To Remain Silent, Exposes Jiang 
Yefei Cruelly Beaten and Twice Underwent Operations'' [Chu ling jujue 
zai chenmo pu jiang yefei bei dacan shoushu liangci], Radio Free Asia, 
23 May 17; ``Chen Yunfei Tortured and Abused While Serving Sentence'' 
[Chen yunfei fuxing zhong shou kuxing nuedai], Radio Free Asia, 4 May 
17; ``Wang Yuping, Prisoner Convicted of Inciting Subversion, Suffering 
From Kidney Stones; Abused, Beaten, and Threatened in Jail'' [Shandian 
fan wang yuping shenhuan jieshi yuzhong zao nuedai ouda weixie], Radio 
Free Asia, 8 September 16.
    \123\ For more information on Li Chunfu, see the Commission's 
Political Prisoner Database record 2015-00311.
    \124\ ``Li Chunfu's Schizophrenia Suspected To Be Linked to Drug 
That Public Security Gave Him'' [Li chunfu jingshen fenlie yi yu gongan 
gei ta yong yao youguan], Radio Free Asia, 16 January 17; Wang 
Qiaoling, ``A Third Update on Lawyer Li Chunfu: He Was Drugged in 
Custody,'' China Change, 15 January 17; Wang Qiaoling, ``A Fourth 
Update on Lawyer Li Chunfu's Situation: `What Are You Hiding From Me?' 
'' China Change, 17 January 17; China Human Rights Lawyers Concern 
Group, `` `709 Crackdown' Lawyers and Activists' Case Update* 
(2015.10.24-2015.10.30),'' 30 October 15.
    \125\ Wang Qiaoling, ``A Third Update on Lawyer Li Chunfu: He Was 
Drugged in Custody,'' China Change, 15 January 17.
    \126\ Wang Qiaoling, ``A Fourth Update on Lawyer Li Chunfu's 
Situation: `What Are You Hiding From Me?' '' China Change, 17 January 
17.
    \127\ For more information on Wu Gan, see the Commission's 
Political Prisoner Database record 2010-00348.
    \128\ For more information on Wang Yu, see the Commission's 
Political Prisoner Database record 2015-00252.
    \129\ Yan Xin, ``Complaint by Lawyer Yan Xin Addressed to Tianjin 
Municipal Procuratorate'' [Yan xin lushi zhi tianjin shi jianchayuan de 
konggao han], reprinted in Human Rights in China, 16 December 16; Shen 
Yu, ``Lawyer of `Butcher' Wu Gan Writes Letter to Tianjin Municipal 
Procuratorate, Saying Wu Tortured by Domestic Security Officials'' 
[``Tufu'' wu gan lushi zhi xin tianjin shi jianchayuan zhi qi zaoyu 
guobao jingcha kuxing], Radio France Internationale, 16 December 16; 
``Wang Yu Reveals Custodial Abuse for the First Time, 709 Supporters 
Protest at Courthouse in the Hague'' [Wang yu shouci baoguang yuzhong 
shou kuxing 709 shengyuanzhe hai ya fating kangyi], Radio Free Asia, 10 
July 17.
    \130\ For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \131\ For more information on Li Heping, see the Commission's 
Political Prisoner Database record 2015-00284.
    \132\ China Human Rights Lawyers Concern Group (chrlcg), ``Li 
Heping and Wang Quanzhang Tortured With Electric Shocks To Faint'' 
Twitter post, 23 January 17, 1:17 a.m.; ``Li Heping, Wang Quanzhang 
Rendered Unconscious From Electric Shock'' [Li heping, wang quanzhang 
ceng zao dianji zhi hunjue], Radio Free Asia, 23 January 17.
    \133\ June Cheng, ``Wives of Chinese Torture Victims Beg Congress 
for Help,'' World, 19 May 17; ``709 Crackdown: Lawyer Li Heping 
Released, Forced To Take Medicine While in Detention'' [709 da zhuabu: 
li heping lushi huoshi zaiya qijian zao qiangpo fuyao], Radio Free 
Asia, 10 May 17.
    \134\ Bob Fu, ``China's Tortured Lawyers,'' Wall Street Journal, 29 
May 17; ``Two More Individuals in 709 Case Reported To Have Been Forced 
To Take Medicine'' [709 an zaiyou liang ren bei qiangbi fuyao], Radio 
Free Asia, 16 May 17; ``July 9 Lawyer Li Shuyun Exposes Torture, 
Reveals Forced Drugging'' [709 lushi li shuyun jie kuxing pilu beipo 
fuyao], Radio Free Asia, 14 May 17; John Sudworth, ``Chinese Lawyer Li 
Heping `Suffered Torture by Torture Instruments for a Month' at Tianjin 
PSB Detention Center'' [Zhongguo lushi li heping zai tianjin kanshousuo 
``zheng yue zaoshou xingju zhemo''], BBC, 13 May 17; ``Li Heping 
Exposes Torture Detail Again, Jiang Tianyong's Daughter Writes Open 
Letter to Father'' [Li heping zai pu kuxing xijie jiang tianyong nu'er 
gongkai zhi fu xin], Radio Free Asia, 31 May 17.
    \135\ Civil Rights & Livelihood Watch, ``Hunan Lawyer Xie Yang 
Placed Under Residential Surveillance at a Designated Location on 
Suspicion of Disturbing Court Order, Inciting Subversion of State 
Power'' [Hunan xie yang lushi bei shexian raoluan fating zhixu, 
shandian zui zhiding jusuo jianshi juzhu], 15 July 15; Chinese Human 
Rights Defenders, ``Individuals Affected by July 9 Crackdown on Rights 
Lawyers,'' 13 July 15, updated 6 February 17; Rights Defense Network, 
``In 709 Crackdown, Arrest Approved for Lawyer Xie Yang, Lawyer Xie 
Yanyi, and Lawyer Li Heping's Assistant Zhao Wei (Kao La)'' [709 da 
zhuabu shijian zhong xie yang lushi, xie yanyi lushi, li heping lushi 
zhuli zhao wei (kao la) yi bei pizhun daibu], 11 January 16.
    \136\ Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie 
Yang (One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in 
Rights Defense Network, 19 January 17. According to the meeting record, 
a domestic security officer told Xie that the amount of rest Xie would 
be allowed to have was undefined in the law and would be entirely at 
the authorities' discretion, and could be as short as five minutes.
    \137\ Ibid.
    \138\ Ibid.; Chen Jian'gang, ``Record of Meeting With Hunan Lawyer 
Xie Yang (Two)'' [Hunan xie yang lushi huijian jilu (er)], reprinted in 
Rights Defense Network, 19 January 17; ``Transcript of Interviews With 
Lawyer Xie Yang (1)--Arrest, Questions About Chinese Human Rights 
Lawyers Group,'' China Change, last visited 8 August 17. Xie Yang 
identified the following officials who were involved in torturing and 
abusing him, directly or in complicity: 1) Captain Li Kewei of the 
Changsha Municipal Domestic Security Detachment; 2) Lieutenant Wang 
Dehua of the Changsha Municipal Domestic Security Detachment; 3) 
Captain Wang Tietuo of the Sixth Brigade of the Changsha Municipal 
Domestic Security Detachment; 4) Lieutenant Zhu Heng of the Sixth 
Brigade of the Changsha Municipal Domestic Security Detachment; 5) 
Instructor Ye Yun of the Sixth Brigade of the Changsha Municipal 
Domestic Security Detachment; 6) Li Feng of the Hunan Domestic Security 
Corps; 7) Captain Xie Leshi of the Dongkou County Domestic Security 
Corps; 8) public security officers Zhou Lang, 9) Yin Zhuo, 10) Qu Ke, 
11) Li Yang, 12) Zhou Yi, and 13) Zhuang Xiaoliang; 14) Department 
Director Liu Xiaohong of the Hunan Provincial People's Procuratorate 
Second Public Prosecution Department; 15) procurators Duan Xiaolong, 
16) Jiang Bin, 17) Li Zhiming, 18) Wang Zhiyong, 19) Fang Hui, 20) Hu 
Yongchao, 21) Li Weining, and 22) a deputy director surnamed Jin; and 
22) Bailiff Yuan Jin. See also `` `China Human Rights Accountability 
Center' Issues a Public Announcement To Collect Personal Information on 
Seven Human Rights Abusers Who Tortured 709 Lawyer Xie Yang'' 
[``Zhongguo renquan wenze zhongxin'' fabu gonggao, zhengji dui 709 
lushi xie yang shi yi kuxing de qi wei renquan shihaizhe geren xinxi], 
Radio Free Asia, 31 January 17.
    \139\ Chen Jian'gang, ``Record of Meeting With Hunan Lawyer Xie 
Yang (One)'' [Hunan xie yang lushi huijian jilu (yi)], reprinted in 
Rights Defense Network, 19 January 17; Chen Jian'gang, ``Record of 
Meeting With Hunan Lawyer Xie Yang (Two)'' [Hunan xie yang lushi 
huijian jilu (er)], reprinted in Rights Defense Network, 19 January 17.
    \140\ ``Xie Yang of the 709 Case Personally Wrote Letter Seeking 
Accountability From Changsha Procurators'' [709 an xie yang qinbi xin 
wenze changsha jianchaguan], Radio Free Asia, 21 January 17.
    \141\ ``Investigation Reveals Fake `Torture Stories' About Lawyer 
Xie Yang,'' Xinhua, reprinted in Global Times, 2 March 17; ``Truth of 
`Xie Yang Tortured' Revealed: Fabricated To Cater to the West'' [Jiemi 
``xie yang zao kuxing'' zhenxiang: wei yinghe xifang pingkong niezao], 
Global Times, 1 March 17; Zhang Yan, ``Story of Torture Is `Fake,' '' 
China Daily, 2 March 17.
    \142\ Rights Defense Network, ``Lawyer Chen Jian'gang: Before and 
After Meeting With Xie Yang'' [Chen jian'gang lushi: huijian xie yang 
de qianhou], 3 March 17.
    \143\ See, e.g., ``Lu Gengsong Tortured in Jail and His Health 
Deteriorates, Outside World Calls for Granting Political Prisoners 
Medical Parole'' [Lu gengsong yu zhong shounue jiankang ehua waijie 
huyu yingjiu zhengzhifan baowai jiuyi], Radio Free Asia, 23 December 
16; ``Hubei Prisoner of Conscience Wang Yuping Has Worrying Health 
Concerns, Jiangsu Shan Lihua Lacks Medical Treatment and Medicine While 
Imprisoned'' [Hubei liangxin fan wang yuping jiankang kanyou jiangsu 
shan lihua yu zhong que yi shao yao], Radio Free Asia, 13 April 17; 
``Hu Shigen's Seriously Deteriorating Health Exposes `Deal,' Huang 
Wenxun Denied Tumor Treatment by Prison [Authorities]'' [Hu shigen 
jiankang yanzhong shousun baoguang ``jiaoyi'' huang wenxun huan 
zhongliu jianyu ju zhi], Radio Free Asia, 13 July 17.
    \144\ UN Human Rights Council, Report of the Special Rapporteur on 
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, 
Juan E. Mendez, A/HRC/22/53, 1 February 13, paras. 17-22; Convention 
against Torture and Other Cruel, Inhuman or Degrading Treatment or 
Punishment, adopted by UN General Assembly resolution 39/46 of 10 
December 84, entry into force 26 June 87.
    \145\ Standard Minimum Rules for the Treatment of Prisoners, 
adopted by the First UN Congress on the Prevention of Crime and the 
Treatment of Offenders, Geneva 1955, approved by the Economic and 
Social Council resolutions 663 C (XXIV) of 31 July 57 and 2076 (LXII) 
of 13 May 77, arts. 22-26; Body of Principles for the Protection of All 
Persons Under Any Form of Detention or Imprisonment, adopted by UN 
General Assembly resolution A/RES/43/173 9 December 88, principle 24.
    \146\ Chris Buckley, ``Liu Xiaobo, Chinese Dissident Who Won Nobel 
While Jailed, Dies at 61,'' New York Times, 13 July 17.
    \147\ Austin Ramzy, ``Chinese Hospital Invites Cancer Experts To 
Help Treat Nobel Laureate,'' New York Times, 4 July 17. See also Tom 
Phillips, `` `Time Running Out' for Terminally Ill Chinese Dissident 
Liu Xiaobo,'' Guardian, 5 July 17; ``Questions Raised About Liu 
Xiaobo's Prison Medical Treatment,'' Associated Press, 27 June 17.
    \148\ Didi Kirsten Tatlow, ``Chinese Man's Death in Custody Prompts 
Suspicion of Police Brutality,'' New York Times, Sinosphere (blog), 12 
May 16.
    \149\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 397.
    \150\ Beijing Municipal People's Procuratorate, ``Beijing 
Procuratorate Lawfully Conducted Examination and Investigation on Five 
Police Officers, Including a Person Surnamed Xing, and Found Elements 
of Dereliction of Duty Offense Established'' [Beijing jianfang yifa 
shencha rending xing moumou deng wu ming she'an jingwu renyuan fuhe 
wanhu zhishou zui goucheng tiaojian], 23 December 16; ``Person in 
Charge of Fengtai District People's Procuratorate in Beijing Answers 
Reporters' Questions About Dereliction of Duty Case of Five 
Individuals, Including a Person Surnamed Xing'' [Beijing shi fengtai qu 
renmin jianchayuan youguan fuzeren jiu xing moumou deng wu ren wanhu 
zhishou an da jizhe wen], Qianlong Web, 23 December 16; Chris Buckley 
and Adam Wu, ``No Trial for Beijing Officers Over Death of 
Environmentalist,'' New York Times, 23 December 16; Beijing Municipal 
Public Security Bureau (Ping'an Beijing), ``Police Officers and Persons 
Responsible for the Lei Yang Case Receive Party and Government 
Discipline'' [Lei yang an she an jingwu renyuan he xiangguan zerenren 
shoudao dang zheng ji chuli], Weibo, 29 December 16, 4:00 p.m. 
Authorities reported that they imposed administrative sanctions on law 
enforcement personnel connected to the Lei Yang case.
    \151\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 397; Supreme People's Court and Supreme People's 
Procuratorate, Interpretation of Certain Issues Regarding the 
Application of Law in Handling Criminal Cases Involving Dereliction of 
Duty by Public Officials (One) [Guanyu banli duzhi xingshi anjian 
shiyong falu ruogan wenti de jieshi (yi)], issued 7 December 12, 
effective 9 January 13, art. 1(1).
    \152\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 11 May 17. China signed the 
convention on December 12, 1986, and ratified it on October 4, 1988.
    \153\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, arts. 
4, 7, 16(1). Article 7 of the Convention against Torture provides, 
``The State Party . . . shall submit the case to its competent 
authorities for the purpose of prosecution.'' Article 16(1) provides, 
``Each State Party shall undertake to prevent in any territory under 
its jurisdiction other acts of cruel, inhuman or degrading treatment or 
punishment which do not amount to torture as defined in article 1 . . 
..'' See also Universal Declaration of Human Rights, adopted and 
proclaimed by UN General Assembly resolution 217A (III) of 10 December 
48, art. 5 (``No one shall be subjected to torture or to cruel, inhuman 
or degrading treatment or punishment''); International Covenant on 
Civil and Political Rights, adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, art. 7 
(``No one shall be subjected to torture or to cruel, inhuman or 
degrading treatment or punishment''); Basic Principles on the Use of 
Force and Firearms by Law Enforcement Officials, adopted by the Eighth 
United Nations Congress on the Prevention of Crime and the Treatment of 
Offenders, Havana, 27 August-7 September 90, 7 (``Governments shall 
ensure that arbitrary or abusive use of force and firearms by law 
enforcement officials is punished as a criminal offence under their 
law'').
    \154\ Compensation Committee, Supreme People's Court, State 
Compensation Decision [Guojia peichang jueding shu], Case No. (2016) 
Zui Gao Fa Wei Pei 11 Hao, 24 January 17.
    \155\ PRC Public Security Bureau Detention Center Regulations 
[Zhonghua renmin gongheguo kanshousuo tiaoli], issued and effective 17 
March 90, art. 17.
    \156\ Compensation Committee, Supreme People's Court, State 
Compensation Decision [Guojia peichang jueding shu], Case No. (2016) 
Zui Gao Fa Wei Pei 11 Hao, 24 January 17.
    \157\ Standard Minimum Rules for the Treatment of Prisoners, 
adopted by the First United Nations Congress on the Prevention of Crime 
and the Treatment of Offenders, Geneva 1955, approved by the Economic 
and Social Council resolutions 663 C (XXIV) of 31 July 57 and 2076 
(LXII) of 13 May 77, principles 33-34.
    \158\ Ministry of Public Security, ``Ministry of Public Security's 
Public Comments Solicitation Notice on the PRC Public Security Bureau 
Detention Center Law (Draft for Solicitation of Comments)'' [Gong'anbu 
guanyu ``zhonghua renmin gongheguo kanshousuo fa `gongkai zhengqiu 
yijian gao' '' gongkai zhengqiu yijian de gonggao], 15 June 17; Ni 
Dandan, ``Lawyers Skeptical About China's New Detention Center Law,'' 
Sixth Tone, 19 June 17.
    \159\ Ministry of Public Security, PRC Public Security Bureau 
Detention Center Law (Draft for Solicitation of Comments) [Zhonghua 
renmin gongheguo kanshousuo fa (gongkai zhengqiu yijian gao)], issued 
19 June 17, art. 71; Standard Minimum Rules for the Treatment of 
Prisoners, adopted by the First United Nations Congress on the 
Prevention of Crime and the Treatment of Offenders, Geneva 1955, 
approved by the Economic and Social Council resolutions 663 C (XXIV) of 
31 July 57 and 2076 (LXII) of 13 May 77, principles 33-34.
    \160\ Margaret Lewis, ``Penetrating Law Into the Walls of Chinese 
Detention Centers,'' University of Nottingham, China Policy Institute: 
Analysis (blog), 18 July 17; Cui Xiankang et al., ``Draft Law on 
Detention Centers Won't Help Reduce Police Torture, Critics Say,'' 
Caixin, 20 June 17; ``Over a Hundred Chinese Lawyers and Citizens 
Jointly Sign Citizen Opinion Letter on `Public Security Bureau 
Detention Center Law' '' [Zhongguo bai lushi he gongmin lianshu 
``kanshousuo fa'' gongmin yijianshu], Radio Free Asia, 6 July 17; Ge 
Wenxiu et al., ``PRC Public Security Bureau Detention Center Law 
(Public Comments Draft)'' [Zhonghua renmin gongheguo kanshousuo fa 
(gongmin jianyi gao)], reprinted in Rights Defense Network, 5 July 17. 
See also Ni Dandan, ``Lawyers Skeptical About China's New Detention 
Center Law,'' Sixth Tone, 19 June 17.
    \161\ For the Commission's past reporting on wrongful conviction, 
see CECC, 2014 Annual Report, 9 October 14, 88-89; CECC, 2015 Annual 
Report, 8 October 15, 106-8; and CECC, 2016 Annual Report, 6 October 
16, 106.
    \162\ He Jiahong, Back From the Dead: Wrongful Convictions and 
Criminal Justice in China, (Honolulu: University of Hawai'i Press, 
2016), 47, 50.
    \163\ Zhang Cong, ``The Bottom Line of Adamantly Preventing 
Wrongful Convictions (Dialogue)'' [Jianshou fangzhi yuanjia cuo'an de 
dixian (duihua)], People's Daily, 29 March 17; ``SPP Official: 
Provisions on Conducting Criminal Petition Examination in a Different 
Locality Researched and Drafted'' [Zuigaojian guanyuan: yi yanjiu qicao 
xingshi shensu anjian yidi shencha guiding], China News Service, 10 
February 17; Zhou Bin, ``Supreme Procuratorate Criminal Case Petition 
Office Director Explains Procuratorate's Work in Criminal Case 
Petitions: Firmly Guard Against Wrongful Convictions'' [Zuigaojian 
xingshi shensu ting tingzhang jiedu xingshi shensu jiancha gongzuo: 
shoulao fangzhi yuanjia cuo'an dixian], Legal Daily, reprinted in 
Supreme People's Procuratorate, 22 February 17.
    \164\ Cao Yajing, ``Supreme People's Court Issues Judicial Reform 
and Judicial Transparency White Papers'' [Zuigao renmin fayuan fabu 
sifa gaige, sifa gongkai baipishu], People's Court Daily, reprinted in 
China Court Network, 27 February 17.
    \165\ Supreme People's Court, Criminal Judgment [Zhonghua renmin 
gongheguo zuigao renmin fayuan xingshi panjue shu], (2016) Zui Gao Fa 
Xing Zai No. 3, 30 November 16, reprinted in China Judgements Online, 2 
December 16; Luo Sha and Bai Yang, ``Supreme People's Court Finds Nie 
Shubin Not Guilty After Retrial'' [Zuigao renmin fayuan zaishen gaipan 
nie shubin wuzui], Xinhua, 2 December 16.
    \166\ Supreme People's Court, Criminal Judgment [Zhonghua renmin 
gongheguo zuigao renmin fayuan xingshi panjue shu], (2016) Zui Gao Fa 
Xing Zai No. 3, 30 November 16, reprinted in China Judgements Online, 2 
December 16. In another case published during the Commission's 2017 
reporting year, the Supreme People's Court rescinded several 
intentional homicide convictions without directly addressing the 
defendants' claims of torture. Supreme People's Court, Criminal 
Judgment [Zhonghua renmin gongheguo zuigao fayuan xingshi panjue shu], 
(2016) Zui Gao Fa Xing Zai No. 2, 20 January 17, reprinted in China 
Judgements Online, 14 March 17; ``Supreme Court Announces Judgment in 
Retrial in Case Involving Charges of Organizing, Leading, and 
Participating in Criminal Syndicates, Intentional Homicide, and 
Extortion Against Defendants, Including Sun Baoguo, Sun Baodong, and 
Sun Baomin'' [Zuigaofa dui yuanshen beigaoren sun baoguo, sun baodong, 
sun baomin deng ren zuzhi, lingdao, canjia heishehui xingzhi zuzhi, 
guyi sharen, qiaozha lesuo deng zaishen yi an xuanpan], Xinhua, 23 
January 17.
    \167\ Supreme People's Court, ``Court Reform in China,'' 14 March 
17, III. See also PRC State Compensation Law [Zhonghua renmin gongheguo 
guojia peichang fa], passed 12 May 94, amended 29 April 10, 26 October 
12, effective 1 January 13, art. 17; Supreme People's Court and Supreme 
People's Procuratorate, Interpretations on Certain Issues Regarding the 
Application of Law in Handling Criminal Compensation Cases [Guanyu 
banli xingshi peichang anjian shiyong falu ruogan wenti de jieshi], 
issued 28 December 15, effective 1 January 16, art. 21; ``Supreme 
People's Court Issues Newest State Compensation Standard, Daily 
Compensation Amount for Infringement of Personal Freedom Set at 258.89 
Yuan Per Day'' [Zuigao renmin fayuan gongbu guojia peichang zuixin 
biaozhun qinfan gongmin renshen ziyou quan de peichangjin biaozhun wei 
meiri 258.89 yuan], People's Court Daily, reprinted in Supreme People's 
Court, 31 May 17; 2016 China Law Yearbook [2016 zhongguo falu nianjian] 
(Beijing: China Law Yearbook Press, 2016), 1299, table 9. According to 
the 2016 China Law Yearbook, in 2015, official data indicates that 
courts awarded compensation in 606 of 2,528 adjudicated cases involving 
compensation claims in criminal matters.
    \168\ Shan Yuxiao, ``Awaiting Further Disclosure on State 
Compensation'' [Guojia peichang dai jinyibu gongkai], Caixin, 28 
February 17.
    \169\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 17.
    \170\ Amnesty International, ``China's Deadly Secrets,'' April 
2017, 14, 27-28; Amnesty International, ``Death Sentences and 
Executions 2016,'' April 2017, 2, 4, 19; Amnesty International, ``Death 
Penalty: World's Biggest Executioner China Must Come Clean About 
`Grotesque' Level of Capital Punishment,'' 11 April 17.
    \171\ Amnesty International, ``China's Deadly Secrets,'' April 
2017, 27-28.
    \172\ National People's Congress Standing Committee, PRC People's 
Courts Organic Law (Amended) [Zhonghua renmin gongheguo renmin fayuan 
zuzhi fa (xiuzheng)], passed 1 July 79, amended 2 September 83, 2 
December 86, 31 October 06, effective 1 January 07, art. 12; National 
People's Congress Standing Committee, Decision on Amending PRC People's 
Courts Organic Law [Quanguo renmin daibiao dahui changwu weiyuanhui 
guanyu xiugai ``zhonghua renmin gongheguo renmin fayuan zuzhi fa'' de 
jueding], issued 31 October 06, effective 1 January 07; Supreme 
People's Court, Decision on Issues Relating to the Unified Exercise of 
the Approval Authority on Death Penalty Cases [Zuigao renmin fayuan 
guanyu tongyi xingshi sixing anjian hezhunquan youguan wenti de 
jueding], issued 13 December 06, effective 1 January 07.
    \173\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 34; Supreme People's Court and Ministry of 
Justice, Several Provisions on Comprehensively Protecting Lawyers in 
Fulfilling Their Duty To Defend According to Law, and Ensuring Quality 
in the Handling of Death Penalty Cases [Zuigao renmin fayuan sifabu 
guanyu chongfen baozhang lushi yifa luxing bianhu zhize, quebao sixing 
anjian banli zhiliang de ruogan guiding], issued 21 May 08, art. 2.
    \174\ Hua Xuan, ``Ten Years After Regaining Death Penalty Review 
Authority: What Can Lawyers Do for Death Row Inmates'' [Sixing fuhe 
shangshou shinian: lushi neng wei sixingfan zuo shenme], Southern 
Weekend, 16 September 16; Li Haiyang, ``Ten Years After Regaining Death 
Penalty Review Authority, Experts Call for Uniform Adjudication 
Standard'' [Sixing fuhe quan shouhui shinian zhuanjia huyu tongyi 
caipan biaozhun], Legal Weekly of Business Daily, 10 October 16.
    \175\ Ibid.
    \176\ Ibid. See also Chinese Human Rights Defenders, ``NGO Mid-Term 
Assessment of China's Implementation of 2nd Universal Periodic Review 
(UPR) Recommendations (Report),'' 22 November 16, 31.
    \177\ Although the Chinese government has promulgated rules to 
regulate the sourcing of organs, it has not outlawed sourcing organs 
from executed prisoners. PRC Criminal Law [Zhonghua renmin gongheguo 
xing fa], passed 1 July 79, amended 14 March 97, effective 1 October 
97, amended 25 December 99, 31 August 01, 29 December 01, 28 December 
02, 28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 
August 15, effective 1 November 15, art. 234-1. The PRC Criminal Law 
prohibits organized trading of organs, the removal of organs without 
consent, and the inducement of another to donate organs by fraud or 
coercion. State Council, Regulations on Human Organ Transplants [Renti 
qiguan yizhi tiaoli], issued 31 March 07, effective 1 May 07, arts. 7, 
21. The State Council's Regulations on Human Organ Transplants prohibit 
medical facilities from charging a fee for the transplanted organ. 
Ministry of Health, Certain Provisions on Standardizing Live Organ 
Transplantation [Weishengbu guanyu guifan huoti qiguan yizhi de ruogan 
guiding], issued and effective 28 December 09. In general, the Ministry 
of Health's Certain Provisions on Standardizing Live Organ 
Transplantation implement the State Council's Regulations on Human 
Organ Transplants. National Health and Family Planning Commission, 
Regulations on Administering Procurement and Distribution of Human 
Organ Donations (Trial) [Renti juanxian qiguan huoqu yu fenpei guanli 
guiding (shixing)], issued 13 August 13, effective 1 September 13, 
arts. 5, 6. The trial Regulations on Administering Procurement and 
Distribution of Human Organ Donations create organ procurement 
organizations in every provincial-level administrative jurisdiction and 
require them to register procured organs in a national registry.
    \178\ Amnesty International, ``China's Deadly Secrets,'' April 
2017, 12; Stephanie Kirchgaessner, ``China May Still Be Using Executed 
Prisoners' Organs, Official Admits,'' Guardian, 7 February 17.
    \179\ Stephanie Kirchgaessner, ``China May Still Be Using Executed 
Prisoners' Organs, Official Admits,'' Guardian, 7 February 17. See also 
Amnesty International, ``China's Deadly Secrets,'' April 2017, 12.
    \180\ `` `Zero Tolerance on Transplantation of Organs Sourced From 
Executed Prisoners,' Huang Jiefu Said Armed Police Hospital's License 
Revoked for Illegal Operation'' [``Ling rongren siqiu qiguan yizhi'' 
huang jiefu zhi wujing yiyuan feifa shoushu zao chupai], Ming Pao, 17 
October 16.
    \181\ Ibid.

                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion

                          Freedom of Religion


           International and Chinese Law on Religious Freedom

    Both Chinese and international law provide guarantees for 
religious freedom. Despite these guarantees, the Commission 
continued to observe widespread and systematic violation of the 
principles of religious freedom as Chinese authorities 
exercised broad discretion over the religious practice of 
Chinese citizens.
    Under international law, freedom of religion or belief 
encompasses both the right to form, hold, and change 
convictions, beliefs, and religion--which cannot be 
restricted--and the right to outwardly manifest those beliefs--
which can be limited for certain, specific justifications.\1\ 
These principles are codified in various international 
instruments, including the Universal Declaration of Human 
Rights and the International Covenant on Civil and Political 
Rights (ICCPR).\2\ China has signed \3\ and stated its intent 
to ratify \4\ the ICCPR, which obligates China to refrain in 
good faith from acts that would defeat the treaty's purpose.\5\
    Article 36 of China's Constitution guarantees citizens 
``freedom of religious belief'' and protection for ``normal 
religious activities.'' \6\ With essential terms such as 
``normal'' undefined, it is unclear whether China's 
Constitution protects the same range of belief and outward 
manifestation that is recognized under international law.\7\ In 
other ways, however, China's Constitution and other Chinese 
legal provisions \8\ join the ICCPR in prohibiting 
discrimination based on religion \9\ and loosely parallel the 
ICCPR's prohibition on coercion \10\ by forbidding state 
agencies, social organizations, and individuals from compelling 
citizens to believe or not believe in any religion.\11\
    China's Constitution prohibits ``making use of religion to 
engage in activities that disrupt social order, impair the 
health of citizens, or interfere with the educational system of 
the State.'' \12\ The ICCPR does allow State Parties to 
restrict outward manifestations of religion or belief, but such 
restrictions must be ``prescribed by law and . . . necessary to 
protect public safety, order, health, or morals or the 
fundamental rights and freedoms of others.'' \13\

                Religious Affairs Regulations and Policy

    Religious affairs in China are administered by a network of 
Party committees, government agencies, and official religious 
organizations under the direction of the Standing Committee of 
the Communist Party Central Committee Political Bureau 
(Politburo).\14\ The United Front Work Department (UFWD), under 
the Party's Central Committee, develops and oversees 
implementation of Party policies on religion and monitors 
religious groups and leaders on behalf of the Party.\15\ The 
government agency responsible for religious affairs at the 
national level is the State Administration for Religious 
Affairs (SARA) under the State Council, while subnational 
bureaus manage religious affairs at lower levels.\16\ These 
religious affairs agencies have effective authority over the 
state-sanctioned ``patriotic'' religious associations that act 
as liaisons between the government and practitioners of the 
five ``main'' religions in China,\17\ while the UFWD vets the 
association leaders.\18\ Public security bureaus are generally 
responsible for enforcement of laws against religious activity 
deemed illegal.\19\ The ``610 Office'' is a working group, made 
up of officials from a number of Party and government agencies, 
that was originally established in 1999 to coordinate and 
execute operations for campaigns aimed at eliminating the 
practice of Falun Gong.\20\ In 2003, the ``610 Office'' was 
authorized to target other religions as well.\21\
    The Chinese government's regulatory framework for religious 
affairs imposes numerous restrictions on religious freedom. The 
2005 Regulations on Religious Affairs (RRA), in effect during 
this reporting period, protect ``lawful'' religious rights.\22\ 
``Lawful'' is not defined, and religious activity is subject to 
extensive government approvals and restrictions.\23\ These 
include official guidelines for the content and distribution of 
religious publications, restrictions that limit religious 
activities to government-approved sites, and requirements that 
religious personnel be approved by local religious affairs 
authorities.\24\
    Current regulations require religious groups to register 
with the government, and legal protection of religious 
activities is contingent on complying with registration 
requirements.\25\ Registration requirements can be burdensome 
and sometimes impossible for religious groups to fulfill--for 
example, smaller groups may not have the requisite 50 
individual members \26\ or the resources to complete complex 
financial reporting requirements.\27\ Officials will deny 
registration applications of religious groups that are not 
affiliated with a state-sanctioned patriotic association.\28\ 
This poses a challenge for the registration of religious groups 
that refuse to join patriotic associations; some groups prefer 
not to join due to their desire to maintain autonomy or their 
view that doing so would violate their religious beliefs.\29\ 
Registration and the regulatory system that it facilitates 
impose restrictions \30\ on rights to religious freedom or 
belief recognized under international law, such as the right to 
meet as a religious group,\31\ the right to determine religious 
leadership \32\ and content of worship,\33\ the right to 
religious education,\34\ the right to publication and 
dissemination of religious materials,\35\ and the right to 
international communication and exchange.\36\
    Unregistered groups and registered groups alike operate in 
an environment that is uncertain, as officials may tolerate or 
punish them depending on whether their activities align with 
government and Party interests. In practice, experts observe 
that officials may tolerate the religious activities of 
unregistered groups,\37\ especially if officials believe that 
the activities promote social or economic development 
interests.\38\ Unregistered religious and spiritual communities 
are vulnerable to government harassment, detention, and other 
abuses,\39\ yet groups may be sanctioned regardless of 
registration status when officials view them as posing a 
challenge to government authority or the Party's interests,\40\ 
with some religious groups and practices banned outright.\41\ 
The UN Special Rapporteur on freedom of religion and belief has 
stated that ``registration as a precondition for practicing 
one's religion or belief'' is a limitation interfering with the 
right to freedom of religion or belief.\42\

------------------------------------------------------------------------
            Revisions to the Regulations on Religious Affairs
-------------------------------------------------------------------------
  The Chinese government released draft revisions to the Regulations on
 Religious Affairs in September 2016,\43\ soliciting public comment for
 a one-month period.\44\ In a written explanation, the government
 highlighted objectives that included addressing the use of religion to
 threaten national security, strengthening the role of patriotic
 religious organizations, regulating religious content on the Internet,
 allowing religious groups to register for legal status and obtain
 property rights over their assets, and combatting commercialization in
 the religious sector.\45\ Some Chinese religious believers and scholars
 viewed a few of the proposed changes as potential improvements on
 current regulations, particularly the provision allowing religious
 groups to register for legal status.\46\ The draft revisions also
 included new provisions codifying the role of public security in the
 implementation of religious affairs regulations \47\ and increased
 government scrutiny of religious groups,\48\ prompting observations
 that such measures would serve to increase government control of
 religious groups.\49\ The draft revisions also included new penalties
 for those ``providing facilities'' for unauthorized religious
 activities,\50\ which experts believed might be used to target
 unregistered Protestant groups.\51\ Observers also noted that the draft
 revisions failed to clearly define some important terms, such as
 ``extremism,'' ``normal,'' and ``abnormal,'' thus giving authorities
 broad discretion to restrict citizens' religious rights.\52\ One Muslim
 leader said that such discretion over the definition of ``extremism''
 in local regulations had already led to large-scale repression of
 religious freedom in the Xinjiang Uyghur Autonomous Region.\53\ The
 release of the draft revisions followed a major leadership conference
 on religious policy convened by President and Party General Secretary
 Xi Jinping in April 2016,\54\ during which Xi promoted the
 ``sinicization'' of religion in China, a term that officials have used
 often in recent years to encourage the adaptation of religious beliefs
 and activities to align with government and Party interests.\55\ One
 international rights organization characterized the revisions as
 ``implementing the new ideology [of sinicization] on a legislative
 level.'' \56\ The revisions are in line with a long-term Party policy
 of using religion as an instrument for promoting national unity and
 social stability,\57\ although commentators also drew parallels with
 recently implemented restrictions on civil society groups through
 legislative measures such as the PRC Law on the Management of Overseas
 Non-Governmental Organizations' Activities.\58\ In January 2017, the
 SARA included implementation of revisions to the RRA in its 2017 Work
 Objectives, stating that it would hold meetings and trainings regarding
 implementation and provide guidance to local governments to align local
 regulations with the revisions.\59\
  On September 7, 2017, the State Council issued revisions to the RRA,
 to take effect on February 1, 2018.\60\ The final revisions contained
 few changes from the draft released for public feedback.\61\ One
 scholar stated that he believed some of the ``candid'' recommendations
 offered by lawyers and legal scholars went unconsidered and that the
 final revisions were ``more restrictive'' than the draft version.\62\
------------------------------------------------------------------------

    Other laws and Party policies also continued to restrict 
citizens' freedom to hold religious beliefs and practice 
religion. Article 300 of the PRC Criminal Law criminalizes 
``organizing and using a cult to undermine implementation of 
the law.'' \63\ In January 2017, the Supreme People's Court and 
the Supreme People's Procuratorate issued a joint 
interpretation of Article 300 that set out new sentencing 
guidelines and expressly criminalized certain forms of Internet 
usage to disseminate information about a ``cult,'' among other 
revisions.\64\ One international rights organization speculated 
that the new sentencing guidelines might reduce the length of 
sentences under Article 300, yet also expressed concern about 
the authorization of new penalties, such as deprivation of 
political rights.\65\ The revised interpretation took effect in 
February 2017.\66\ In addition, the PRC National Security Law 
stipulates that ``the use of religion to conduct illegal 
criminal activities that threaten state security'' must be 
prevented and punished.\67\ The law also contains mandates to 
``maintain the order of normal religious activities,'' ``oppose 
the interference of foreign influence into domestic religious 
affairs,'' and ``suppress cult organizations.'' \68\ The long-
standing \69\ ban on religious belief for Party members 
remained in effect; SARA Director Wang Zuo'an reiterated the 
ban in a July 2017 article for a major Party journal,\70\ 
noting that in recent years, certain high level officials had 
been found to believe in religion and that officials with 
religious beliefs would ``undergo education to relinquish their 
beliefs'' or face punishment.\71\

               Chinese Buddhism (Non-Tibetan) and Taoism

    While government and Party officials rarely targeted 
Chinese Buddhist and Taoist communities with direct 
suppression, they nonetheless continued to subject these 
religions to extensive regulation and control. A large number 
of Chinese citizens engage in Buddhist and Taoist practices, 
with estimates of around 244 million Buddhists as of 2010,\72\ 
and 173 million citizens engaging in some Taoist practices as 
of 2007.\73\ [For information on Tibetan Buddhism, see Section 
V--Tibet.]
    Government regulations continued to require Taoist and 
Buddhist temples to register with their local religious affairs 
bureau,\74\ and to forbid unregistered sites from conducting 
religious activities and collecting donations.\75\ Despite this 
prohibition, numerous active Buddhist and Taoist sites have not 
registered.\76\
    The government and Party continued their wide-ranging 
control and support of officially sanctioned practice of 
Chinese Buddhism and Taoism. In addition to maintaining 
extensive regulations,\77\ authorities continued to exercise 
control over sanctioned practice by, for example, administering 
sanctioned sites in conjunction with religious leaders.\78\ 
Authorities ensure the political reliability of Taoist 
religious leadership by requiring all candidates for the clergy 
to obtain the approval of the local patriotic association and 
religious affairs bureau for ordination.\79\
    Chinese officials continued to hold the leader of the 
Buddhist Huazang Dharma group, Wu Zeheng,\80\ and several 
followers in custody. Authorities sentenced Wu to life in 
prison in 2015 on charges of ``organizing and using a cult to 
undermine implementation of the law,'' \81\ rape, fraud, and 
the production and sale of poisonous or harmful food.\82\ In 
November 2016, the UN Working Group on Arbitrary Detention 
issued opinions concluding that the Chinese government 
arbitrarily detained Wu and his followers for ``legitimate 
exercise of the right to freedom of opinion and expression, 
freedom of religion and freedom of association,'' opining that 
Wu and the other detainees should be released immediately and 
compensated for the violations of their rights.\83\ Wu served 
an 11-year sentence from 1999 to 2010 for ``economic crimes'' 
after openly criticizing official restrictions on religious 
freedom in China.\84\

                       Christianity--Catholicism

    The Chinese government maintained measures that impede the 
freedom under international standards \85\ of Chinese Catholic 
congregations to be led by clergy who are selected and who 
conduct their ministry according to Catholic religious beliefs. 
The number of Catholics is estimated to be around 12 million, 
with the State Administration for Religious Affairs reporting 
that 5.7 million Catholics were part of officially sanctioned 
congregations in 2014.\86\ The government continued to push for 
Chinese Catholic bishops to be ``self-selected and self-
ordained'' \87\--selected through the patriotic religious 
organizations in consultation with government and Party 
officials, and then ordained by Chinese bishops without the 
involvement of the Holy See.\88\ Many Chinese Catholics, 
sometimes known as ``underground Catholics,'' avoid the 
ministry of these bishops because they believe legitimate 
ecclesiastical authority can be conferred only by the Pope's 
mandate.\89\ Many Chinese Catholics also object to bishops who 
are members of the patriotic religious association for Chinese 
Catholics, the Catholic Patriotic Association (CPA).\90\ The 
Holy See has declared the CPA ``incompatible with Catholic 
doctrine'' because it claims authority over Chinese bishops and 
their church communities while being backed by the Chinese 
government and maintaining independence from the Holy See.\91\
    The Chinese government and the Holy See were reportedly 
close to an agreement about the system of bishop appointments 
in China in October 2016,\92\ but the potential agreement was 
in question after Paul Lei Shiyin, an excommunicated bishop 
ordained without papal approval, participated in two ordination 
ceremonies for Chinese bishops later in the year.\93\ Local 
observers reportedly believed that Lei's inclusion in the 
ordinations was directed by the Chinese government to signal 
its ultimate authority over the Catholic Church in China.\94\ A 
Catholic news media outlet reported that a round of talks in 
June 2017 ``was not smooth,'' ending with ``no open gesture 
from either side.'' \95\
    Government officials continued to detain or otherwise 
restrict the freedom of Catholic leaders in both the 
underground and official church. In April 2017, officials 
reportedly detained two underground Catholic bishops in 
undisclosed locations--Peter Shao Zhumin of the Diocese of 
Wenzhou in Zhejiang province \96\ and Vincent Guo Xijin of the 
Diocese of Mindong in Fujian province.\97\ The bishops were 
unable to preside over Easter services, and Catholic news media 
reported that the local governments intended to pressure the 
bishops into joining the CPA.\98\ Guo was reportedly released 
in May 2017; Shao was released after five days in detention, 
but detained again in May 2017.\99\ According to the Catholic 
news outlet LaCroix, this was the fourth time authorities had 
detained Shao since he became the Bishop of Wenzhou after his 
predecessor passed away in September 2016.\100\ As of August 
2017, the Commission had not observed any reports as to the 
whereabouts or condition of Shao or of several underground 
Catholic leaders from Hebei province, including Coadjutor 
Bishop Cui Tai, Bishop Cosmos Shi Enxiang, and Bishop James Su 
Zhimin.\101\ A bishop in the official church, Thaddeus Ma Daqin 
of the Diocese of Shanghai, remained under surveillance and 
extralegal confinement at Sheshan seminary in Shanghai 
municipality, although he reportedly rejoined the Shanghai 
branch of the CPA by January 2017.\102\ Authorities had 
restricted Ma's freedom of movement and communication after his 
public resignation from the CPA during his ordination ceremony 
in July 2012.\103\

                      Christianity--Protestantism

    Chinese government and Communist Party officials continued 
to subject Protestant Christian belief and practice to a wide 
range of restrictions, infringing upon the religious freedom of 
an estimated 60 to 80 million Chinese Protestants.\104\
    Instances of official persecution of Protestant communities 
in 2016 reportedly increased from the prior year.\105\ 
International rights organization ChinaAid said that the 
intensified clampdown of recent years may be due in part to 
official concern that Protestant communities pose a potential 
threat to the dominance of the Communist Party because of their 
size, socioeconomic diversity, independent and decentralized 
manner of organization, and connections with Christian groups 
based in foreign, democratic countries.\106\ International 
observers asserted that official hostility toward Protestantism 
may also be connected to the Party's ``sinicization'' campaign 
in recent years aimed at adapting religious belief and 
practices in China to align with government and Party 
interests.\107\
    Officials increased restrictions and monitoring for 
churches that have joined the Three-Self Patriotic Movement 
(TSPM), the state-controlled organization that manages 
Protestant religious practice.\108\ These increased 
restrictions, commentators noted, continued a trend of 
expanding the enforcement of repressive policies from house 
churches to officially sanctioned churches.\109\ Such measures 
included a prohibition on churches organizing summer activities 
for youth in Henan province \110\ and a ban on minors 
participating in any church activities for many churches in 
Wenzhou municipality, Zhejiang province.\111\ Earlier in the 
year, the Zhejiang TSPM reportedly issued a written requirement 
for all churches, including Catholic churches, to install 
surveillance cameras for the purported purpose of 
``strengthening anti-terrorism efforts.'' \112\ Local officials 
began the forcible installation of cameras in some churches in 
March 2017 and reportedly beat those who attempted to oppose 
their efforts.\113\
    Chinese officials continued policies aimed at pressuring 
unregistered Protestant congregations, commonly known as house 
churches, to join the TSPM.\114\ As in previous years,\115\ 
Protestant house churches continued to face raids during church 
gatherings,\116\ eviction from meeting spaces,\117\ and 
official bans on worship.\118\ ChinaAid further reported that 
authorities forced some churches in Wenzhou to install 
surveillance cameras for government monitoring, in apparent 
connection with the TSPM notice mentioned above.\119\ 
Authorities also reportedly subjected some believers to 
harassment,\120\ violence,\121\ or detention.\122\ In Jiangxi 
province, local governments reportedly issued directives to 
forcibly remove crosses and perimeter walls from churches; 
\123\ by August 2017, authorities had removed at least 10 
church crosses,\124\ leading local religious leaders to raise 
concerns about parallels to the official cross-removal campaign 
in Zhejiang beginning in 2014 that ultimately removed more than 
2,000 crosses.\125\ The Wenzhou Municipality Ethnic and 
Religious Affairs Bureau in Zhejiang announced a new plan for a 
program that would deploy over 1,500 religious affairs bureau 
liaisons to monitor the religious activity of all households in 
Lucheng district, Wenzhou.\126\ In several instances, 
authorities detained house church members on charges of 
``organizing and using a cult to undermine implementation of 
the law,'' under Article 300 of the PRC Criminal Law.\127\ Some 
researchers have noted with concern that some Chinese 
authorities may be applying the criminal ``cult'' designation 
to religious groups beyond those officially banned by the 
government to generally cover all religious organizations not 
officially registered with the government.\128\ Chinese 
Protestant communities expressed concern that the revisions to 
the Regulations on Religious Affairs \129\ would provide a 
legal basis for further restricting the activities of 
unregistered Protestant congregations.\130\
    During this reporting year, prominent cases involving the 
detention of Protestant Christian believers included:

        <bullet> Li Hongmin. Authorities arrested Li Hongmin, a 
        member of a house church in Guangdong province, in July 
        2016 and tried him for ``illegal business activity'' 
        \131\ in October 2016.\132\ The indictment accused him 
        of printing Christian books without official 
        permission.\133\ In March 2017, authorities sentenced 
        him to 10 months' imprisonment and a fine of 10,000 
        yuan.\134\ Local authorities harassed his wife, Xu Lei, 
        and pressured her landlord to evict her after she 
        attempted to petition authorities in Beijing 
        municipality regarding Li's detention.\135\
        <bullet> Living Stone Church members. Authorities tried 
        several members of the Living Stone Church, a house 
        church in Guiyang municipality, Guizhou province, after 
        extended periods of detention, including Pastor Li 
        Guozhi (also known as Yang Hua, sentenced to two years 
        and six months' imprisonment in December 2016 for 
        ``intentionally leaking state secrets''),\136\ Zhang 
        Xiuhong (a church deacon, sentenced to five years' 
        imprisonment in February 2017 for ``illegal business 
        activity,'' \137\ later reduced in August 2017 to a 
        three-year sentence, suspended for five years),\138\ 
        and church members Wang Yao and Yu Lei (tried in 
        October 2016 for ``intentionally leaking state 
        secrets,'' both had yet to receive a ruling as of 
        August 2017).\139\ In March 2017, Pastor Yang Hua's 
        lawyers asserted that he urgently needed to be 
        hospitalized for a serious medical condition and asked 
        the procuratorate to review the necessity of his 
        detention.\140\ The Guiyang government subjected many 
        other Living Stone Church members to repressive 
        measures such as fines, harassment, surveillance, and 
        detention after designating the church an ``illegal 
        social group'' in 2015.\141\
        <bullet> Zhang Shaojie. The pastor of a registered TSPM 
        church in Nanle county, Puyang municipality, Henan 
        province, Zhang Shaojie continued to serve a 12-year 
        sentence issued in 2014 for ``fraud'' and ``gathering a 
        crowd to disturb social order.'' \142\ In June 2017, 
        his daughter reported that authorities were depriving 
        him of sleep, food, and access to the outdoors, and 
        also forbid him from discussing conditions in prison 
        with family members during visits.\143\ Authorities 
        detained Zhang in November 2013, after a group of 
        church members traveled to Beijing municipality to file 
        a petition regarding a land dispute with local 
        authorities.\144\
        <bullet> Gu Yuese. Authorities in Hangzhou 
        municipality, Zhejiang province, detained Gu Yuese for 
        a second time in December 2016 and re-arrested him in 
        January 2017 for ``misappropriation of funds.'' \145\ 
        Gu is reportedly the highest level figure within a 
        government-sponsored religious organization to have 
        been arrested in nearly thirty years--he was the leader 
        of China's largest officially sanctioned church \146\ 
        and chairperson of the China Christian Council, a 
        patriotic religious organization, at the provincial 
        level.\147\ He was detained in January 2016 and 
        stripped of these positions in February 2016 after he 
        expressed opposition to the ongoing cross-removal 
        campaign in Zhejiang.\148\ Authorities had arrested Gu 
        on the same charge in January 2016 and released him on 
        bail in March 2016.\149\

                               Falun Gong

    As in previous years, authorities continued to detain Falun 
Gong practitioners and subject them to harsh treatment.\150\ 
Due to extreme government suppression, it is difficult to 
determine the number of Falun Gong practitioners in China.\151\ 
Officials have reportedly subjected practitioners to extreme 
physical and psychological coercion, with human rights 
organizations \152\ and Falun Gong practitioners documenting 
coercive and violent practices against practitioners during 
custody, including physical violence,\153\ forced drug 
administration,\154\ and other forms of torture.\155\ In March 
2017, Minghui (Clear Wisdom), a U.S.-based news organization 
affiliated with Falun Gong, reported 80 confirmed deaths of 
Falun Gong practitioners in 2016 due to treatment while in 
custody.\156\ Authorities commonly prosecute Falun Gong 
practitioners under Article 300 of the PRC Criminal Law.\157\
    International observers continued to express concern over 
reports that numerous organ transplants in China have used the 
organs of detained prisoners, including Falun Gong 
practitioners.\158\ International medical professionals were 
skeptical \159\ of a Chinese health official's claims that 
organ procurement systems have been reformed in compliance with 
international standards, noting a lack of transparency \160\ 
and discrepancies in official data.\161\

                                 Islam

    During this reporting year, officials maintained policies 
exerting strong influence and control over the religious belief 
and activities of an estimated 10.5 million \162\ Hui Muslim 
believers. Although policies for Hui Muslims remained less 
repressive than those affecting Muslims in the Xinjiang Uyghur 
Autonomous Region (XUAR),\163\ hostile rhetoric targeting 
Muslims in general from both officials and the public \164\ 
increased.\165\ One expert said that this could increase the 
likelihood that policies affecting the religious freedom of Hui 
Muslims may become more restrictive.\166\ [For information on 
freedom of religion for Uyghur and other minority group Muslim 
believers in the XUAR, see Section IV--Xinjiang.]
    Ongoing policies included ``political reliability'' and 
``patriotic education'' requirements for religious leaders. To 
be officially certified, imams must be educated at state-
sanctioned Islamic schools and be approved by the local 
religious affairs bureau and the Islamic Association of China, 
the patriotic religious association for Chinese Muslims.\167\ 
After certification, imams must continue to attend political 
training sessions.\168\ Both the Islamic Association of China 
(IAC) and the State Administration for Religious Affairs (SARA) 
continued to promote interpretations of Islamic law and belief 
that support the Chinese political system.\169\ All Chinese 
Muslims seeking to carry out the Hajj pilgrimage must fulfill 
requirements for ``political reliability,'' including taking 
``patriotic education'' classes, obtaining approval from their 
local religious affairs bureau, and participating only through 
tours arranged by the IAC.\170\
    This past year, officials made a number of statements 
claiming a need to counter an alleged increase of Muslim 
extremist influence in Chinese society, while reportedly 
tacitly approving anti-Muslim commentary and the harassment of 
Muslim believers on social media networks. SARA Director Wang 
Zuo'an stated in November 2016 that Islamic extremism was 
spreading to China's ``inland provincial areas,'' and that 
authorities should respect Islamic beliefs, but that religious 
influence on political, legal, or educational affairs would not 
be tolerated.\171\ A U.S.-based scholar stated that ``interest 
groups'' had used the recently permissive environment for 
``Islamophobia'' online to justify security measures taken 
against Uyghur communities in the XUAR.\172\ Observers also 
noted a connection with the recent ascendance of Party 
officials who support hard-line policies on religion.\173\ In 
one example from December 2016, a propaganda official in the 
XUAR used inflammatory language in an online post regarding the 
rebuilding of a historic mosque in Hefei municipality, Anhui 
province, by the local Hui Muslim community; locals 
subsequently held demonstrations against the mosque and 
threatened local Hui Muslim believers.\174\ Domestic online 
commentators have also criticized the Chinese government's 
restrictions on Hui Muslim believers for being too lax relative 
to restrictions on Muslims in the XUAR.\175\ One expert stated 
that the anti-Muslim anxiety generated on social media could 
put pressure on local officials to respond with policy 
measures,\176\ making Hui Muslim communities vulnerable to 
increased surveillance and restrictions.\177\

                      Other Religious Communities

    Religious communities outside of the five religions that 
are the main objects of religious affairs regulation \178\ 
continue to exist in China; some enjoy official support, while 
others face suppression from authorities. For example, despite 
lacking formal recognition at the national level, some folk 
religious sites \179\ and Eastern Orthodox Christian 
communities \180\ are recognized at the local level. In 
contrast, authorities maintained the restrictions imposed 
suddenly in 2014 on Jewish religious activity in Kaifeng 
municipality, Henan province.\181\ The Chinese government also 
maintained its official policy of allowing some foreign 
religious communities to hold religious services for foreign 
nationals.\182\

                                                    Freedom of 
                                                       Religion
                                                Freedom of 
                                                Religion
    Notes to Section II--Freedom of Religion

    \1\ Paul M. Taylor, Freedom of Religion: UN and European Human 
Rights Law and Practice (New York: Cambridge University Press, 2005), 
19.
    \2\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
18; International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 18. Article 18 of the ICCPR 
upholds a person's right to ``have or adopt a religion or belief'' and 
the freedom to manifest that religion or belief ``in worship, 
observance, practice and teaching.'' Article 18 also prohibits coercion 
that impairs an individual's freedom to freely hold or adopt a religion 
or belief. See also Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, adopted 
by UN General Assembly resolution 36/55 of 25 November 81.
    \3\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76; United Nations Treaty Collection, 
Chapter IV, Human Rights, International Covenant on Civil and Political 
Rights, last visited 18 July 17. China has signed but not ratified the 
ICCPR.
    \4\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 5. The Chinese government most 
recently stated its intent to ratify the ICCPR in its 2016-2020 
National Human Rights Action Plan. See also State Council Information 
Office, ``Progress in China's Human Rights in 2012,'' reprinted in 
Xinhua, May 2013, chap. VI; Permanent Mission of the People's Republic 
of China to the United Nations, ``Aide Memoire,'' reprinted in United 
Nations, 13 April 06, para. IV; State Council and European Union, 
``Joint Statement of the 12th China-EU Summit,'' reprinted in PRC 
Ministry of Foreign Affairs, 30 November 09, para. 8.
    \5\ United Nations Conference on the Law of Treaties, Vienna 
Convention on the Law of Treaties, adopted 23 May 69, entry into force 
27 January 80, arts. 18, 26.
    \6\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 36.
    \7\ Ibid., art. 36; Liu Peng, ``Crisis of Faith,'' China Security, 
Vol. 4, No. 4 (Autumn 2008), 30.
    \8\ State Council, Regulations on Religious Affairs [Zongjiao shiwu 
tiaoli], issued 30 November 04, effective 1 March 05, art. 2(2); PRC 
Constitution, issued 4 December 82, amended 12 April 88, 29 March 93, 
15 March 99, 14 March 04, art. 36.
    \9\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 26.
    \10\ Ibid., art. 18(2).
    \11\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 36; State Council, 
Regulations on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, art. 2.
    \12\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 36.
    \13\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18; UN Human Rights Committee, General 
Comment No. 22: Article 18 (Freedom of Thought, Conscience or 
Religion), CCPR/C/21/Rev.1/Add.4, 30 July 93, para. 8.
    \14\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 38-39.
    \15\ Ibid.; Carsten T. Vala, ``Protestant Christianity and Civil 
Society in Authoritarian China,'' China Perspectives, No. 3 (October 
2012), 46.
    \16\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 38-39.
    \17\ Vincent Goossaert and David A. Palmer, The Religious Question 
in Modern China (Chicago: University of Chicago Press, 2011), 153, 330. 
The ``patriotic'' religious associations are state-controlled 
institutions that represent the five ``main'' religions of China: the 
Buddhist Association of China, the China Islamic Association, the China 
Taoist Association, the Chinese Catholic Patriotic Association, the 
National Conference of Bishops (an organization led by Catholic 
clergy), the Three-Self (for ``self-governing, self-supporting, and 
self-propagating'') Patriotic Movement and the Chinese Christian 
Council (the latter two organizations have overlapping membership and 
represent Protestants). According to Goossaert and Palmer, although 
``nominally independent,'' the ``patriotic'' religious associations are 
effectively under the authority of the State Council's agency for 
religious affairs.
    \18\ Ibid.,154.
    \19\ Jessica Batke, ``PRC Religious Policy: Serving the Gods of the 
CCP,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 52 (Winter 2017), 14 February 17, 3; Vincent Goossaert 
and David A. Palmer, The Religious Question in Modern China (Chicago: 
University of Chicago Press, 2011), 330.
    \20\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 41. See also Sarah Cook 
and Leeshai Lemish, ``The 610 Office: Policing the Chinese Spirit,'' 
Jamestown Foundation, China Brief, Vol. 11, Issue 17, 16 September 11.
    \21\ Ibid.
    \22\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 3.
    \23\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05. The 
Regulations on Religious Affairs (RRA) contains provisions authorizing 
official intervention into religious practices, beliefs, and 
organization, e.g., art. 6 (requiring religious groups to register with 
the government); art. 8 (requiring institutions for religious education 
to apply for government approval); art. 11 (requiring hajj, the 
religious pilgrimage undertaken by Muslims, to be organized through the 
national religious body of Islam); art. 17 (requiring sites for 
religious activities to set up management organizations and exercise 
democratic management); and art. 18 (requiring sites for religious 
activities to set up management systems for personnel, finance, 
accounting, hygiene, and health, among other requirements, all under 
the supervision of local government agencies).
    \24\ Ibid. The Regulations on Religious Affairs (RRA) contains 
provisions authorizing official intervention into religious practices, 
beliefs, and organization, e.g., art. 6 (requiring religious groups to 
register with the government); art. 7 (providing official guidelines 
for the content and distribution of religious publications); art. 8 
(requiring institutions for religious education to apply for government 
approval); art. 11 (requiring hajj, the religious pilgrimage undertaken 
by Muslims, to be organized through the national religious body of 
Islam); art. 12 (requiring religious activities to be held at state-
approved sites); art. 17 (requiring sites for religious activities to 
set up management organizations and exercise democratic management); 
art. 18 (requiring sites for religious activities to set up management 
systems for personnel, finance, accounting, hygiene, and health, among 
other requirements, all under the supervision of local government 
agencies); and art. 27 (subjecting religious personnel to qualification 
by a religious body and subsequent reporting to religious affairs 
bureaus).
    \25\ Ibid., art. 6. Article 6 requires religious organizations to 
register in accordance with the Regulations on the Management of the 
Registration of Social Organizations.
    \26\ Ibid., art. 10(1).
    \27\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 16, 32-33.
    \28\ China Human Rights Lawyers Concern Group, ``Report on 
Religious Freedom in Mainland China (2016),'' 27.
    \29\ ``Some Perspectives and Analysis From Several Scholars and 
House Church Pastors on the `Draft Revisions to the Regulations on 
Religious Affairs (Deliberation Draft)' '' [Guanyu ``zongjiao shiwu 
tiaoli xiuding cao'an (songsheng gao)'' laizi jiwei zongjiao xuezhe yu 
jiating jiaohui muzhe de guandian yu fenxi], Christian Times, 16 
September 16; Huoshi (Living Stone) Church Members, ``The Huoshi Church 
Case--The Typical Pattern of Government Suppression of House 
Churches,'' reprinted in ChinaAid, 13 June 17; Sarah Cook, Freedom 
House, ``The Battle for China's Spirit: Religious Revival, Repression, 
and Resistance Under Xi Jinping,'' February 2017, 53.
    \30\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 6; 
State Council, Regulations on the Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued 25 October 
98, amended and effective 6 February 16, art. 35. Article 6 of the 
Regulations on Religious Affairs require religious organizations to 
register in accordance with the Regulations on the Registration and 
Management of Social Organizations, and protects the religious 
activities of only those religious organizations in compliance with the 
latter regulations. The religious activities of all other religious 
organizations receive no such explicit protection under the Regulations 
and as such may be deemed illegal, resulting in a restriction of 
certain religious activities. See also ChinaAid, ``Church Torn Apart by 
Abuse Pens Letter Describing Persecution,'' 13 June 17.
    \31\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(a); State Council, 
Regulations on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, art. 6; State Council, Regulations 
on the Registration and Management of Social Organizations [Shehui 
tuanti dengji guanli tiaoli], issued 25 October 98, amended and 
effective 6 February 16, art. 35. While the Declaration includes the 
freedom to ``worship or assemble in connection with a religion or 
belief, and to establish and maintain places for these purposes,'' 
Article 6 of the Regulations on Religious Affairs requires religious 
organizations to register in accordance with the Regulations on the 
Registration and Management of Social Organizations. The latter in turn 
prohibit activities conducted by unregistered social organizations 
(art. 35), thus restricting the right of unregistered religious groups 
to assemble and worship, as well as establish and maintain places for 
those purposes.
    \32\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(g); State Council, 
Regulations on Religious Affairs [Zongjiao shiwu tiaoli], issued 30 
November 04, effective 1 March 05, art. 27. While the Declaration 
includes the freedom to ``train, appoint, elect or designate by 
succession appropriate leaders called for by the requirements and 
standards of any religion or belief,'' the Regulations on Religious 
Affairs permit only those religious personnel approved by the relevant 
religious associations, referred to as ``religious organizations'' 
(zongjiao tuanti), to conduct religious activities (art. 27). China 
Human Rights Lawyers Concern Group, ``Report on Religious Freedom in 
Mainland China (2016),'' 27.
    \33\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(c), (h); State 
Council, Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, art. 12. While the 
Declaration includes the freedoms to ``make, acquire, and use to an 
adequate extent the necessary articles and materials related to the 
rites or customs of a religion or belief'' (art. 6(c)), and to 
``celebrate holidays and ceremonies in accordance with the precepts of 
one's religion or belief'' (art. 6(h)), the Regulations on Religious 
Affairs have provisions such as requiring group religious activities to 
be held at registered sites with ``qualified'' religious personnel and 
in ``compliance with religious doctrines and canons'' (art. 12).
    \34\ Ibid., arts. 5(2), 6(e); Ibid., arts. 3, 8, 9, 43. While the 
Declaration includes the freedom of every child to ``have access to 
education in the matter of religion or belief in accordance with the 
wishes of his parents'' (art. 5(2)), and the freedom to ``teach a 
religion or belief in places suitable for these purposes'' (art. 6(e)), 
the Regulations on Religious Affairs prohibit use of religion to 
``interfere with the educational system of the State'' (art. 3) and 
require institutions for religious education to be approved at the 
national level (art. 8).
    \35\ Ibid., art. 6(d); Ibid., art. 7. While the Declaration 
includes the freedom to ``write, issue and disseminate relevant 
publications'' (art. 6(d)), the Regulations on Religious Affairs 
regulate the contents of religious publications and require compliance 
with other administrative rules (art. 7).
    \36\ Ibid., art. 6(i); Ibid., arts. 10, 11, 22, 43. While the 
Declaration includes the freedom to ``establish and maintain 
communications with individuals and communities in matters of religion 
and belief at the national and international levels'' (art. 6(i)), the 
Regulations on Religious Affairs require separate approval for large-
scale religious activity that involves those governed by different 
provincial-level administrations (art. 22) and further require the hajj 
pilgrimage and religious studies abroad to be arranged by the state-
sanctioned national religious organizations (arts. 10-11).
    \37\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 16; Ian Johnson, The Souls of China (New York: Pantheon 
Books, 2017), 28, 56-57; Tim Oakes and Donald S. Sutton, 
``Introduction,'' in Faiths on Display: Religion, Tourism, and the 
Chinese State (Lanham: Rowman & Littlefield Publishers, 2010), 15-17; 
Richard Madsen, ``Church State Relations in China--Consequences for the 
Catholic Church,'' Religions & Christianity in Today's China, Vol. 5, 
Nos. 3-4 (2015), 66.
    \38\ Tim Oakes and Donald S. Sutton, ``Introduction,'' in Faiths on 
Display: Religion, Tourism, and the Chinese State (Lanham: Rowman & 
Littlefield Publishers, 2010), 15-17; Richard Madsen, ``Church State 
Relations in China--Consequences for the Catholic Church,'' Religions & 
Christianity in Today's China, Vol. 5, Nos. 3-4 (2015), 66.
    \39\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 16, 44.
    \40\ Ibid., 5-7.
    \41\ Ibid., 2; Maria Hsia Chang, Falun Gong: The End of Days (New 
Haven: Yale University Press, 2004), 9, 144-53; Vincent Goossaert and 
David A. Palmer, The Religious Question in Modern China (Chicago: 
University of Chicago Press, 2011), 339.
    \42\ UN Human Rights Council, Report of the Special Rapporteur on 
Freedom of Religion and Belief, Ahmed Shaheed, A/HRC/34/50, 17 January 
17.
    \43\ State Council Legislative Affairs Office, Draft Revisions to 
the Regulations on Religious Affairs (Review Draft) [Zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)], 7 September 16.
    \44\ State Council Legislative Affairs Office, Request for Public 
Comment on ``Draft Revisions to the Regulations on Religious Affairs 
(Review Draft)'' [``Zongjiao shiwu tiaoli xiuding cao'an (songshen 
gao)'' gongkai zhengqiu yijian], 8 September 16.
    \45\ Department on Legislative Affairs for Politics, Law, and 
National Defense, State Council Legislative Affairs Office, Explanation 
Regarding the ``Draft Revisions to the Regulations on Religious Affairs 
(Review Draft)'' [Guanyu ``zongjiao shiwu tiaoli xiuding cao'an 
(songshen gao)'' de shuoming], 7 September 16.
    \46\ Wang Lude, ``Some Religious Scholars and House Church Pastors 
Offer Perspectives and Analyses of the `Draft Revisions to the 
Regulations on Religious Affairs (Review Draft)' '' [Guanyu ``zongjiao 
shiwu tiaoli xiuding cao'an (songshen gao)'' laizi jiwei zongjiao 
xuezhe yu jiating jiaohui muzhe de guandian yu fenxi], Christian Times, 
23 September 16; Yang Kaile, ``Commentary on the `Draft Revisions to 
the Regulation on Religious Affairs (Review Draft)' (I)'' [``Zongjiao 
shiwu tiaoli xiuding cao'an (songshen gao)'' pinglun (yi)], Pu Shi 
Institute for Social Sciences, 23 September 16.
    \47\ State Council Legislative Affairs Office, Draft Revisions to 
the Regulations on Religious Affairs (Review Draft) [Zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)], 7 September 16, arts. 42, 63, 
67, 71.
    \48\ See, e.g., State Council Legislative Affairs Office, Draft 
Revisions to the Regulations on Religious Affairs (Review Draft) 
[Zongjiao shiwu tiaoli xiuding cao'an (songshen gao)], 7 September 16, 
arts. 6, 9, 33, 35, 65.
    \49\ ``China Amends `Regulations on Religious Affairs' To Expand 
Authority of Public Security'' [Zhongguo xiuding ``zongjiao shiwu 
tiaoli'' wei gong'an kuoquan], Radio Free Asia, 11 September 16; Wang 
Lude, ``Some Religious Scholars and House Church Pastors Offer 
Perspectives and Analyses of the `Draft Revisions to the Regulations on 
Religious Affairs (Review Draft)' '' [Guanyu ``zongjiao shiwu tiaoli 
xiuding cao'an (songshen gao)'' laizi jiwei zongjiao xuezhe yu jiating 
jiaohui muzhe de guandian yu fenxi], Christian Times, 23 September 16.
    \50\ State Council Legislative Affairs Office, Draft Revisions to 
the Regulations on Religious Affairs (Review Draft) [Zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)], 7 September 16, art. 68.
    \51\ Guo Baosheng, ``House Churches Already Lack Legal Space To 
Exist--Comments on the Draft Revisions to the Regulations on Religious 
Affairs'' [Jiating jiaohui yi wu falu shengcun kongjian--ping zongjiao 
shiwu tiaoli xiuding cao'an], Human Rights in China Biweekly, Issue 
192, 16-29 September 16; ChinaAid, ``Professor Yang Fenggang Discusses 
`Regulations on Religious Affairs Draft Revisions' '' [Yang fenggang 
jiaoshou tan ``zongjiao shiwu tiaoli xiugai gao''], 10 September 16.
    \52\ Li Guisheng et.al., ``Five Lawyers Challenge `Draft Revisions 
to the Religious Affairs Regulations (Review Draft)' '' [Wu lushi 
tiaozhan ``zongjiao shiwu tiaoli xiuding cao'an (songshen gao)''], 
reprinted in WeChat Bay, 19 September 16; International Campaign for 
Tibet, ``Suffocating Religious Freedom in Tibet: China's Draft 
Regulations on Religious Affairs,'' 25 October 16.
    \53\ Cao Guoxing, ``Muslim Scholar Provides Opinion Regarding 
Chinese Government's Revisions to `Religious Affairs Regulations' '' 
[Musilin xuezhe jiu zhongguo guanfang xiugai ``zongjiao shiwu tiaoli'' 
tichu yijian], Radio France Internationale, 23 September 16.
    \54\ ``Xi Jinping: Comprehensively Improve Religious Work Standards 
Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi xia 
zongjiao gongzuo shuiping], Xinhua, 23 April 16. For more information 
on the April 2016 National Conference on Religious Work, see CECC, 2016 
Annual Report, 6 October 16, 122.
    \55\ ``Xi Jinping: Comprehensively Improve Religious Work Standards 
Under the New Situation'' [Xi jinping: quanmian tigao xin xingshi xia 
zongjiao gongzuo shuiping], Xinhua, 23 April 16; CECC, 2016 Annual 
Report, 6 October 16, 128.
    \56\ ChinaAid, ``2016 Annual Report: Chinese Government Persecution 
of Churches and Christians in Mainland China,'' 1 February 17, 5.
    \57\ State Council Legislative Affairs Office, Draft Revisions to 
the Regulations on Religious Affairs (Review Draft) [Zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)], 7 September 16, art. 4; Chinese 
Communist Party Central Committee, ``The Basic Viewpoint and Policy on 
the Religious Question During China's Socialist Period'' [Guanyu woguo 
shehuizhuyi shiqi zongjiao wenti de jiben guandian he jiben zhengce], 
reprinted in China Ethnicity and Religion Net, 31 March 82; Chinese 
Communist Party Central Committee and State Council, Document No. 6: On 
Some Problems Concerning Further Improving Work on Religion, 5 February 
91, translated in Asia Watch, ``Freedom of Religion in China,'' January 
1992, 35-42. See also Vincent Goossaert and David A. Palmer, The 
Religious Question in Modern China (Chicago: University of Chicago 
Press, 2011), 325; State Council, Regulations on Religious Affairs 
(RRA) [Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 March 
05, art. 3. The RRA states that ``Religious organizations, sites for 
religious activities and religious citizens shall . . . safeguard 
unification of the country, unity of all nationalities, and stability 
of society.''
    \58\ Jessica Batke, ``PRC Religious Policy: Serving the Gods of the 
CCP,'' China Leadership Monitor, Hoover Institution, Stanford 
University, No. 52 (Winter 2017), 14 February 17, 4-5; Ian Johnson, 
``China Seeks Tighter Grip in Wake of a Religious Revival,'' New York 
Times, 7 October 16.
    \59\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2017 Work Objectives'' [Guojia 
zongjiao shiwu ju 2017 nian gongzuo yaodian], 26 January 17.
    \60\ ``Li Keqiang Signs State Council Order Issuing Revised 
`Regulations on Religious Affairs' '' [Li keqiang qianshu guowu ling 
gongbu xiuding hou de ``zongjiao shiwu tiaoli''], Xinhua, 7 September 
17.
    \61\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, amended 14 June 17, effective 1 
February 18. See also Ying Fuk Tsang, ``Is Practicing Socialist Core 
Values the Core Value of Religious Beliefs? '' [Jianxing shehui zhuyi 
hexin jiazhiguan shi zongjiao xinyang de hexin jiazhi ma?], Stand News, 
8 September 17; ``China Passes New Religious Regulations `To Prevent 
Extremism,' '' World Watch Monitor, 8 September 17; Bernardo 
Cervellera, ``New Regulations on Religions: Annihilate Underground 
Communities, Suffocate Official Communities,'' AsiaNews, 11 September 
17.
    \62\ ``12 Years Later: The New `Regulations on Religious Affairs' 
Issued by China'' [12 nian hou zhongguo gongbu xinde ``zongjiao shiwu 
tiaoli''], Voice of America, 9 September 17. For more commentary 
critical of the revisions to the RRA, see also Ying Fuk Tsang, ``Is 
Practicing Socialist Core Values the Core Value of Religious Beliefs? 
'' [Jianxing shehui zhuyi hexin jiazhiguan shi zongjiao xinyang de 
hexin jiazhi ma?], Stand News, 8 September 17; ``Chinese Government 
Strengthen Control of Religion'' [Zhongguo zhengfu qianghua dui 
zongjiao de guanzhi], Radio Free Asia 7 September 17; Wang Yi, ``My 
Five Positions on the New `Regulations on Religious Affairs' '' [Wo dui 
xin ``zongjiao shiwu tiaoli'' de wu ge lichang], Wang Yi's Microphone, 
reprinted in Rights Defense Network, 8 September 17; International 
Campaign for Tibet, ``International Campaign for Tibet Statement on 
China's Revised Religious Regulations,'' 8 September 17.
    \63\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300.
    \64\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Related to Handling Criminal Cases 
Concerning Organizing, Using a Cult To Undermine Implementation of the 
Law [Guanyu banli zuzhi, liyong xiejiao zuzhi pohuai falu shishi deng 
xingshi anjian shiyong falu ruogan wenti de jieshi], issued 25 January 
17, effective 1 February 17; Dui Hua Foundation, ``Will a New Judicial 
Interpretation on Cults Lead to Greater Leniency? '' Dui Hua Human 
Rights Journal, 24 February 17.
    \65\ Dui Hua Foundation, ``Will a New Judicial Interpretation on 
Cults Lead to Greater Leniency? '' Dui Hua Human Rights Journal, 24 
February 17.
    \66\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Related to Handling Criminal Cases 
Concerning Organizing, Using a Cult To Undermine Implementation of the 
Law [Guanyu banli zuzhi, liyong xiejiao zuzhi pohuai falu shishi deng 
xingshi anjian shiyong falu ruogan wenti de jieshi], issued 25 January 
17, effective 1 February 17.
    \67\ PRC National Security Law [Zhonghua renmin gonghe guo guojia 
anquan fa], passed and effective 1 July 15, art. 27.
    \68\ Ibid.
    \69\ Zhu Weiqun, ``Communist Party Members Cannot Believe in 
Religion'' [Gongchandang yuan buneng xinyang zongjiao], Seeking Truth, 
17 December 11.
    \70\ Liu Caiyu, ``Party Members Told To Give Up Religion for Party 
Unity or Face Punishment,'' Global Times, 18 July 17.
    \71\ Wang Zuo'an, ``Doing Religious Work Well Requires Discussion 
of Politics'' [Zuo hao zongjiao gongzuo bixu jiang zhengzhi] Seeking 
Truth, 14 July 17.
    \72\ Pew Research Center, ``Pew-Templeton Global Religious Futures 
Project--China,'' last visited 10 June 17. See also Zhe Ji, ``Chinese 
Buddhism as a Social Force: Reality and Potential of Thirty Years of 
Revival,'' Chinese Sociological Review, Vol. 45, No. 2 (Winter 2012-
2013), 10-12. Quantitative assessments for the total number of 
Buddhists are difficult because Buddhist religious identity does not 
need to be formalized within a particular institution and may overlap 
with other religious practices.
    \73\ Katharina Wenzel-Teuber, ``2015 Statistical Update on 
Religions and Churches in the People's Republic of China,'' China 
Heute, No. 1 (2016), translated in Religions & Christianity in Today's 
China, Vol. 6, No. 2 (2016), 25.
    \74\ State Council, Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, art. 15; 
Sarah Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
32-33.
    \75\ State Administration for Religious Affairs et al., Opinion 
Regarding Issues Related to the Management of Buddhist Monasteries and 
Taoist Temples [Guanyu chuli sheji fojiao simiao, daojiao gongguan 
guanli youguan wenti de yijian], issued 8 October 12; Sarah Cook, 
Freedom House, ``The Battle for China's Spirit: Religious Revival, 
Repression, and Resistance Under Xi Jinping,'' February 2017, 32-33.
    \76\ Meijiang District People's Government, ``Regional Variations 
in Chinese Taoism'' [Zhongguo daojiao de diyuxing chayi], 6 October 14.
    \77\ State Council, Regulations on Religious Affairs (RRA) 
[Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 March 05, 
arts. 6, 8, 13-15, 27. See, e.g., RRA, art. 6 (requiring religious 
organizations to register in accordance with the Regulations on the 
Management of the Registration of Social Organizations); art. 8 
(requiring an application to the State Administration for Religious 
Affairs (SARA) to establish an institute for religious learning); arts. 
13-15 (imposing an application procedure to register venues for 
religious activity); and art. 27 (requiring the appointment of 
religious personnel to be reported to the religious affairs bureau at 
or above the county level and requiring reporting the succession of 
living Buddhas for approval to governments at the prefecture level or 
higher, and requiring reporting for the record the appointment of 
Catholic bishops to SARA). For measures regulating Taoist religious 
activity, see, e.g., Chinese Taoist Association, Measures for the 
Management of Taoist Temples [Daojiao gongguan guanli banfa], issued 23 
June 10, amended 29 June 15, reprinted in State Administration for 
Religious Affairs, 15 October 15; Chinese Taoist Association, Measures 
for the Appointment of Key Religious Personnel in Taoist Temples 
[Daojiao gongguan zhuyao jiaozhi renzhi banfa], issued 23 June 10, 
amended 29 June 15, reprinted in State Administration for Religious 
Affairs, 15 October 15. For measures regulating Buddhist religious 
activity, see, e.g., Buddhist Association of China, Measures for the 
Appointment of the Heads of Theravada Buddhist Monasteries [Nanchuan 
fojiao siyuan zhuchi renzhi banfa], issued 3 November 11, reprinted in 
State Administration for Religious Affairs, 21 December 11; Buddhist 
Association of China, Measures for the Management of Monastic Vows in 
National Chinese Buddhist Monasteries [Quanguo hanchuan fojiao siyuan 
chuanshou santan dajie guanli banfa], issued 3 November 11, reprinted 
by State Administration for Religious Affairs, 21 December 11.
    \78\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 32.
    \79\ Ibid., 33; Vincent Goossaert and David A. Palmer, The 
Religious Question in Modern China (Chicago: University of Chicago 
Press, 2011), 332-33.
    \80\ For more information on Wu Zeheng, see the Commission's 
Political Prisoner Database record 2017-00235.
    \81\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 300.
    \82\ Jared Genser, ``The Detention of Wu Zeheng,'' The Diplomat, 4 
February 17; Wei Meng, ``Wu Zeheng, Leader of Evil Cult `Huazang 
Dharma,' Sentenced to Life Imprisonment in First Instance Trial'' 
[Xiejiao zuzhi ``huazang zongmen'' toumu wu zeheng yishen bei panchu 
wuqi tuxing], Xinhua, 31 October 15.
    \83\ UN Human Rights Council, Opinions of the Working Group on 
Arbitrary Detention, A/HRC/WGAD/2016/46, 21-25 November 16, paras. 60-
66.
    \84\ Jared Genser, ``The Detention of Wu Zeheng,'' The Diplomat, 4 
February 17; Chinese Human Rights Defenders, ``Wu Zeheng,'' 22 July 16.
    \85\ Declaration on the Elimination of All Forms of Intolerance and 
of Discrimination Based on Religion or Belief, adopted by UN General 
Assembly resolution 36/55 of 25 November 81, art. 6(g).
    \86\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 45.
    \87\ State Administration for Religious Affairs, ``State 
Administration for Religious Affairs 2017 Work Objectives'' [Guojia 
zongjiao shiwu ju 2017 nian gongzuo yaodian], 26 January 17.
    \88\ China Catholic Patriotic Association and Bishops' Conference 
of the Catholic Church, Provisions for Selecting and Ordaining Bishops 
[Zhujiao tuan guanyu xuan sheng zhujiao de guiding], 8 April 13.
    \89\ Rachel Xiaohong Zhu, ``The Division of the Roman Catholic 
Church in Mainland China: History and Challenges,'' Religions, Vol. 8, 
No. 3 (March 2017), 1, 3, 6-7.
    \90\ ``This Year's Religious Work Agenda: Push `Self-Selection, 
Self-Ordination' and Celebrate the 60th Anniversary of the Catholic 
Patriotic Association'' [Bennian zongjiao gongzuo jihua: tuijin zixuan 
zisheng ji qingzhu aiguo hui liushi zhounian], Union of Catholic Asian 
News, 14 February 17; Rachel Xiaohong Zhu, ``The Division of the Roman 
Catholic Church in Mainland China: History and Challenges,'' Religions, 
Vol. 8, No. 3 (March 2017), 7.
    \91\ Letter of the Holy Father Pope Benedict XVI to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China, 27 May 07; Rachel Xiaohong Zhu, ``The 
Division of the Roman Catholic Church in Mainland China: History and 
Challenges,'' Religions, Vol. 8, No. 3 (March 2017), 7-8.
    \92\ Lisa Jucca and Benjamin Kang Lim, ``Exclusive: Vatican and 
China in Final Push for Elusive Deal on Bishops,'' Reuters, 20 October 
16.
    \93\ Ilaria Maria Sala, ``The Warming Relations Between China and 
the Vatican Seem To Have Gone Cold,'' Quartz, 22 December 16. See also 
``A Reminder of Who Is In Charge,'' Sunday Examiner, 10-16 December 16.
    \94\ ``A Reminder of Who Is In Charge,'' Sunday Examiner, 10-16 
December 16.
    \95\ ``Vatican Admits to New Challenges in China Talks,'' La Croix, 
2 August 17.
    \96\ Bernardo Cervellera, ``Msgr. Peter Shao Zhumin, Bishop of 
Wenzhou (Underground) Seized by Police,'' AsiaNews, 13 April 17.
    \97\ Wang Zhicheng, ``Underground Mindong Bishop Guo Xijin Missing 
for Four Days,'' AsiaNews, 10 April 17.
    \98\ Ibid.; Bernardo Cervellera, ``Msgr. Peter Shao Zhumin, Bishop 
of Wenzhou (Underground) Seized By Police,'' AsiaNews, 13 April 17.
    \99\ ``Vatican-Approved Bishop Seized for a Fourth Time in China,'' 
La Croix, 25 May 17.
    \100\ Ibid.
    \101\ ``China: Catholic Priests Missing; Woman Killed in Church 
Demolition,'' Independent Catholic News, 19 April 16; Victoria Ma, 
``Baoding Catholics Call for Safe Return of Missing Father Yang,'' 
AsiaNews, 16 April 16. In Hebei province, three underground Catholic 
priests remained missing after disappearing under suspicious 
circumstances in April 2016. ``Chinese Catholics Appeal for Release of 
Long-Imprisoned Bishop,'' Union of Catholic Asian News, 1 September 15; 
Bernardo Cervellera, ``Two Chinese Bishop Martyrs Recognised as 
`Illustrious Unknown' for 2011,'' AsiaNews, 30 December 11; Michael 
Forsythe, ``Questions Rise on Fate of Chinese Bishop,'' New York Times, 
13 February 15. Authorities in Hebei have not given any information as 
to the whereabouts or condition of three underground Hebei bishops: 
Coadjutor Bishop Cui Tai of Xuanhua district, Zhangjiakou municipality 
(detained in August 2014); Bishop Cosmas Shi Enxiang (missing since 
2001; in February 2015 officials denied an unconfirmed report that he 
had passed away); and Bishop James Su Zhimin of Baoding municipality 
(detained in 1996; last seen in public in 2003). For more information, 
see the Commission's Political Prisoner Database records 2004-05378 on 
Shi Enxiang and 2004-05380 on Su Zhimin.
    \102\  ``Bishop Thaddeus Ma Daqin Returns to Shanghai CPA, Still 
Doesn't Appear Completely Free'' [Ma daqin zhujiao chongfan shanghai 
aiguohui, wei xianshi yi huode wanquan ziyou], Union of Catholic Asian 
News, 25 January 17. See also ``Chinese Bishop's Weibo Account Blocked, 
Movement Restricted,'' Union of Catholic Asian News, 3 May 16; John 
Sudworth, ``Missing China Bishop Thaddeus Ma Daqin `Sent to Political 
Classes,' '' BBC, 24 December 13; CECC, 2013 Annual Report, 10 October 
13, 88-89; CECC, 2014 Annual Report, 9 October 14, 92; CECC, 2015 
Annual Report, 8 October 15, 122. For more information on Ma Daqin, see 
the Commission's Political Prisoner Database record 2013-00336.
    \103\ ``Shanghai Ordination Under Investigation,'' Union of 
Catholic Asian News, 11 July 12; ``Chinese Bishop's Weibo Account 
Blocked, Movement Restricted,'' Union of Catholic Asian News, 3 May 16; 
John Sudworth, ``Missing China Bishop Thaddeus Ma Daqin `Sent to 
Political Classes,' '' BBC, 24 December 13. See also CECC, 2013 Annual 
Report, 10 October 13, 88-89.
    \104\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 9.
    \105\ ChinaAid, ``2016 Annual Report: Chinese Government 
Persecution of Churches and Christians in Mainland China,'' 1 February 
17, 34-35.
    \106\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 49-50.
    \107\ Anna Scott Bell, ``Revisionist Religion: Xi Jinping's 
Suppression of Christianity and Elevation of Traditional Culture as 
Part of a Revisionist Power Agenda,'' Georgetown Journal of Asian 
Affairs, Vol. 3, No. 1 (Fall 2016), 79-81; ChinaAid, ``2016 Annual 
Report: Chinese Government Persecution of Churches and Christians in 
Mainland China,'' 1 February 17, 9, 14.
    \108\ See, e.g., Sarah Cook, Freedom House, ``The Battle for 
China's Spirit: Religious Revival, Repression, and Resistance Under Xi 
Jinping,'' February 2017, 44.
    \109\ Guo Baosheng, ``Analysis of the Movement to Sinicize 
Christianity'' [Jidu jiao zhongguohua yundong pouxi], China Strategic 
Analysis, Vol. 1, No. 2 (15 January 17); ``Henan Government Prohibits 
Churches From Holding Summer Activities for Youth'' [Henan zhengfu 
jinzhi jiaohui juban qingshaonian shuqi huodong], Radio Free Asia, 18 
July 17; ``Zhejiang Repressing Religion Again, Prohibits Minors From 
Participating in Meetings'' [Zhejiang zaidu daya zongjiao jin wei 
chengnianren canjia juhui], Radio Free Asia, 21 August 17.
    \110\ ``Henan Government Prohibits Churches From Holding Summer 
Activities for Youth'' [Henan zhengfu jinzhi jiaohui juban qingshaonian 
shuqi huodong], Radio Free Asia, 18 July 17.
    \111\ ``Zhejiang Repressing Religion Again, Prohibits Minors from 
Participating in Meetings'' [Zhejiang zaidu daya zongjiao jin wei 
chengnianren canjia juhui], Radio Free Asia, 21 August 17.
    \112\ ``Forced Installation of Surveillance Cameras at All Churches 
in Zhejiang, Officials Claim Reason Is `Anti-Terrorism' '' [Zhejiang ge 
jiaotang bei qiang zhuang jiankong tantou guan cheng weile ``fan 
kong''], Radio Free Asia, 25 March 17.
    \113\ Ibid.; ChinaAid, ``Zhejiang Province Orders Churches To 
Install Surveillance Equipment,'' 2 April 17.
    \114\ Guo Baosheng, ChinaAid, ``The Extant Danger for House 
Churches in the `Four Groups' Religious Policy'' [Weiji jiating jiaohui 
cunzai de ``si ge yi pi'' zongjiao zhengce], 17 October 16; ChinaAid, 
``Ultimatum Forces Choice of Truth or Government Monitoring for 
Guangdong Church,'' 31 July 17; Sarah Cook, Freedom House, ``The Battle 
for China's Spirit: Religious Revival, Repression, and Resistance Under 
Xi Jinping,'' February 2017, 42, 46-47.
    \115\ CECC, 2016 Annual Report, 6 October 16, 127-28; CECC, 2015 
Annual Report, 8 October 15, 126-28; CECC, 2014 Annual Report, 9 
October 14, 95-98; CECC, 2013 Annual Report, 10 October 13, 91-94.
    \116\ ChinaAid, ``Raids Continue on House Church Meetings in 
Guangdong,'' 3 April 17; ``China Cracks Down on Xinjiang's Christians 
in `Anti-Terror' Campaign,'' Radio Free Asia, 24 February 17. See also 
ChinaAid, ``2016 Annual Report: Chinese Government Persecution of 
Churches and Christians in Mainland China,'' 1 February 17, 20-22, 24-
25.
    \117\ Qiao Nong, ChinaAid, ``Guangdong House Church Evicted After 
Multiple Raids,'' 7 September 16; ChinaAid, ``Church Evicted, 
Christians Barred From Renewing Residential Permits,'' 15 May 17.
    \118\ Qiao Nong et al., ChinaAid, ``Sichuan Church Penalized for 
Holding Services,'' 27 September 16; ``China Cracks Down on Xinjiang's 
Christians in `Anti-Terror' Campaign,'' Radio Free Asia, 24 February 
17.
    \119\ ChinaAid, ``Further Denials of Water, Electricity for House 
Churches in Wenzhou,'' 8 June 17.
    \120\ Ian Johnson, ``In China, Unregistered Churches Are Driving a 
Religious Revolution,'' Atlantic, 23 April 17; Qiao Nong, ChinaAid, 
``Beijing Holy Love Fellowship House Church Gathering Harassed by Visit 
From Public Security'' [Beijing sheng ai tuanqi jiating juhui gong'an 
dengmen saorao], 7 July 17. See also ChinaAid, ``2016 Annual Report: 
Chinese Government Persecution of Churches and Christians in Mainland 
China,'' 1 February 17, 39.
    \121\ ChinaAid, ``More Than 20 Christians Beat by Officials,'' 25 
October 16; ChinaAid, ``Christians Hospitalized Resisting Authorities' 
Forced Surveillance Attempts,'' 10 April 17.
    \122\ ``China Cracks Down on Xinjiang's Christians in `Anti-Terror' 
Campaign,'' Radio Free Asia, 24 February 17. See also ChinaAid, ``2016 
Annual Report: Chinese Government Persecution of Churches and 
Christians in Mainland China,'' 1 February 17, 35.
    \123\ ``Governments Throughout Jiangxi Forcibly Remove Crosses in 
Effort To Control Protestant Believers'' [Jiangxi duochu zhengfu qiang 
chai shizijia tu kongzhi jidutu], Radio Free Asia, 4 August 17.
    \124\ ChinaAid, ``Jiangxi Officials Remove Crosses,'' 4 August 17.
    \125\ ``Governments Throughout Jiangxi Forcibly Remove Crosses in 
Effort To Control Protestant Believers'' [Jiangxi duochu zhengfu qiang 
chai shizijia tu kongzhi jidutu], Radio Free Asia, 4 August 17. See 
also CECC, 2014 Annual Report, 9 October 14, 96-97; CECC, 2015 Annual 
Report, 8 October 15, 127-28; CECC, 2016 Annual Report, 6 October 16, 
128-29.
    \126\ Wenzhou Municipal Ethnic and Religious Affairs Bureau, 
``Lucheng District, Wenzhou Municipality, Uses Advantage of Large Grid 
To Increase the Level of Regulation of Religious Affairs According to 
Law'' [Wenzhou shi lucheng qu yituo da wangge youshi tisheng zongjiao 
shiwu yifa guanli shuiping], Zhejiang Province Ethnic and Religious 
Affairs Committee, 11 October 16; ChinaAid, ``Lucheng District in 
Wenzhou Increases Monitoring of Religion, Prevents Children From 
Attending Church'' [Wenzhou lucheng qu qianghua zongjiao jiankong, 
zuzhi ertong qianwang jiaotang], 19 October 16.
    \127\ ChinaAid, ``Nine Unlawfully Detained Christians Released,'' 6 
February 17; ``Protestant Church Member Prosecuted for Involvement in 
`Evil Cult,' '' Radio Free Asia, 9 February 17; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 300. 
For more information, see the Commission's Political Prisoner Database 
records 2017-00144 on Tu Yan and 2017-00145 on Su Min. See also Sarah 
Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
48-49.
    \128\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 48-49. See also Teresa Wright and Teresa Zimmerman-Liu, 
``Engaging and Evading the Party-State: Unofficial Chinese Protestant 
Groups in China's Reform Era,'' China: An International Journal, Vol. 
11, No. 1 (April 2013), 10.
    \129\ State Council Legislative Affairs Office, Draft Revisions to 
the Regulations on Religious Affairs (Review Draft) [Zongjiao shiwu 
tiaoli xiuding cao'an (songshen gao)], 7 September 16.
    \130\ Wang Lude, ``Some Perspectives and Analysis From Several 
Scholars and House Church Pastors on the `Draft Revisions to the 
Regulations on Religious Affairs (Review Draft)' '' [Guanyu ``zongjiao 
shiwu tiaoli xiuding cao'an (songshen gao)'' laizi jiwei zongjiao 
xuezhe yu jiating jiaohui muzhe de guandian yu fenxi], Christian Times, 
23 September 16.
    \131\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 
1 July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 225.
    \132\ Rights Defense Network, ``Li Hongmin, Christian in Guangzhou, 
Charged With Illegal Business Activity for Printing Christian 
Publications, Judgment Not Made at Hearing Held on October 17'' 
[Guangzhou jidutu li hongmin yin yinshua jidujiao kanwu bei kong feifa 
jingying zui an 10 yue 17 ri kaiting weipan], 20 October 16. For more 
information on Li Hongmin, see the Commission's Political Prisoner 
Database record 2017-00019.
    \133\ Rights Defense Network, ``Li Hongmin, Christian in Guangzhou, 
Charged With Illegal Business Activity for Printing Christian 
Publications, Judgment Not Made at Hearing Held on October 17'' 
[Guangzhou jidutu li hongmin yin yinshua jidujiao kanwu bei kong feifa 
jingying zui an 10 yue 17 ri kaiting weipan], 20 October 16.
    \134\ Human Rights Campaign in China, ``Accused of Illegal Business 
Activity Due to Printing Religious Publications, Believer Li Hongmin of 
Guangfu Church in Guangzhou Sentenced to 10 Months and Fined 10 
Thousand Yuan by Baiyun District Court'' [Yin yinshua zongjiao kanwu 
bei feifa jingying zui Guangzhou guangfu jiaohui xintu li hongmin zao 
baiyun qu fayuan panxing 10 ge yue ji chufa jin yi wan yuan], 27 March 
17.
    \135\ ChinaAid, ``Wife Fears Lengthened Prison Sentence, Financial 
Ruin After Selling Christian Books,'' 1 March 17.
    \136\ Rights Defense Network, ``Guiyang Living Stone Church Pastor 
Yang Hua (Li Guozhi) Sentenced To Serve 2 Years and 6 Months'' [Guiyang 
huoshi jiaohui yang hua mushi (li guozhi) an yishen bei pan youqi 
tuxing 2 nian liu ge yue], 5 January 17. For more information on Li 
Guozhi, see the Commission's Political Prisoner Database record 2016-
00001.
    \137\ Qiao Nong, ChinaAid, ``Living Stone Church Christian Zhang 
Xiuhong Released on Suspended Sentence on Appeal'' [Huoshi jiaohui 
jidutu zhang xiuhong ershen huanxing huo shi], 9 August 17.
    \138\ Christian Solidarity Worldwide, ``Church Deacon Released on 
Probation,'' 9 August 17. For more information on Zhang Xiuhong, see 
the Commission's Political Prisoner Database record 2016-00014.
    \139\ ``Trial Commences for Two Religious Believers Suspected of 
Revealing State Secrets, Family Members Not Allowed To Attend'' [Liang 
xintu she xiemi zui kaiting, jiaren buzhun pangting], Radio Free Asia, 
25 October 16. For more information, see the Commission's Political 
Prisoner Database records 2016-00383 on Wang Yao and 2016-00453 on Yu 
Lei.
    \140\ ``Jailed Living Stone House Church Pastor Now in Critical 
Condition; Lawyers Request Medical Bail,'' China Change, 25 March 17.
    \141\ Yaxue Cao, ``Living Stone: A Portrait of a House Church in 
China,'' China Change, 21 December 15.
    \142\ Qiao Nong, ChinaAid, ``No Daylight, One Steamed Bun a Day: 
Pastor Zhang Shaojie Subject to Torture in Jail'' [Bu jian tian ri mei 
ri yi mantou zhang shaojie mushi yuzhong shou nuedai], 21 June 17; Qiao 
Nong, ChinaAid, ``County Officials Call Nanle Three-Self Church a Cult, 
Pastor Zhang Shaojie and Twelve Others Stripped of Office'' [Nanle 
sanzi jiaohui bei xian guan zhi xiejiao zhang shaojie mushi deng 12 ren 
bei che zhi], 13 July 17. For more information on Zhang Shaojie, see 
the Commission's Political Prisoner Database record 2014-00126.
    \143\ Qiao Nong, ChinaAid, ``No Daylight, One Steamed Bun a Day: 
Pastor Zhang Shaojie Subject to Torture in Jail'' [Bu jian tian ri mei 
ri yi mantou zhang shaojie mushi yuzhong shou nuedai], 21 June 17.
    \144\ ChinaAid, ``Arrested Pastor and Believers of Protestant 
Church in Nanle County, Puyang Municipality, Henan Province Hitherto 
Still Not Released'' [Henan puyang shi nanle xian jidu jiaohui bei zhua 
mushi he xintu zhijin wei shifang], 18 November 13; ChinaAid, 
``Updated: Exclusive: Incarcerated Pastor Reports Torture in Prison for 
Attempting Court Appeal,'' 25 July 17.
    \145\ ChinaAid, ``Authorities Arrest Highest-Profile Pastor Since 
Cultural Revolution,'' 10 January 17. For more information on Gu Yuese, 
see the Commission's Political Prisoner Database record 2016-00100.
    \146\ ChinaAid, ``Authorities Arrest Highest-Profile Pastor Since 
Cultural Revolution,'' 10 January 17.
    \147\ ``The Case of Hangzhou Pastor Gu Yuese: Re-Detained After 
Bail'' [Hangzhou gu yuese mushi jiao'an: qubao hou zai zao daibu], 
Radio Free Asia, 10 January 17.
    \148\ Ibid.
    \149\ Ibid.
    \150\ For information on suppression of Falun Gong practitioners 
from previous years, see, e.g., CECC, 2016 Annual Report, 6 October 16, 
125-27; CECC, 2015 Annual Report, 8 October 15, 123-25. See also 
``Communist Party Calls for Increased Efforts To `Transform' Falun Gong 
Practitioners as Part of Three-Year Campaign,'' Congressional-Executive 
Commission on China, 22 March 11.
    \151\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 113.
    \152\ Human Rights Watch, ``World Report 2017,'' 2017, 196; Amnesty 
International, ``Amnesty International Report 2016/17: The State of the 
World's Human Rights,'' 22 February 17, 121; Sarah Cook, Freedom House, 
``The Battle for China's Spirit: Religious Revival, Repression, and 
Resistance Under Xi Jinping,'' February 2017, 108, 115.
    \153\ ``Ms. Guo Baohua Savagely Beaten at Tianjin Women's Prison,'' 
Clear Wisdom, 9 March 17; Amnesty International, ``Urgent Action: Falun 
Gong Practitioner Said To Have Been Tortured in Detention,'' 23 
September 16.
    \154\ ``Retired Teacher Drugged Again Following Second Arrest in 
Less Than 9 Months,'' Clear Wisdom, 20 April 17; ``Inner Mongolia Woman 
Given Psychiatric Drugs in Prison,'' Clear Wisdom, 4 March 17.
    \155\ ``Mr. Liao Zhijun Tortured in Wangling Prison,'' Clear 
Wisdom, 24 April 17; ``Anhui Man Arrested and Interrogated With 
Torture,'' Clear Wisdom, 28 March 17; ``Practitioner Who Escaped Labor 
Camp Seized and Brutally Abused in Detention,'' Clear Wisdom, 22 March 
17.
    \156\ ``80 Falun Gong Practitioners Confirmed To Have Died in 2016 
as a Result of Arrests and Torture,'' Clear Wisdom, 23 March 17.
    \157\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 115-16; PRC Criminal Law [Zhonghua renmin gongheguo xing 
fa], passed 1 July 79, amended 14 March 97, effective 1 October 97, 
amended 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 
15, effective 1 November 15, art. 300.
    \158\ Didi Kirsten Tatlow, ``Debate Flares Over China's Inclusion 
at Vatican Organ Trafficking Meeting,'' New York Times, Sinosphere 
(blog), 7 February 17; Stephanie Kirchgaessner, ``Vatican Defends 
Inviting Chinese Ex-Minister to Organ Trafficking Talks,'' Guardian, 6 
February 17; Maria Cheng and Nicole Winfield, ``UN: China Moves To Stop 
Taking Organs From Prisoners,'' Associated Press, 9 February 17; Sarah 
Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
120-21; T. Trey et al., ``Transplant Medicine in China: Need for 
Transparency and International Scrutiny Remains,'' American Journal of 
Transplantation, 19 September 16. See also David Kilgour, Ethan 
Gutmann, and David Matas, ``Bloody Harvest/The Slaughter: An Update,'' 
International Coalition to End Organ Pillaging in China, 22 June 16, 
updated 30 April 17; Matthew Robertson, ``Investigative Report: A 
Hospital Built for Murder,'' Epoch Times, 4 February 16; Matthew 
Robertson, ``At Congressional Hearing, China's Organ Harvesting Seen 
Through Rose-Colored Glasses,'' Epoch Times, 29 June 16.
    \159\ Didi Kirsten Tatlow, ``Debate Flares Over China's Inclusion 
at Vatican Organ Trafficking Meeting,'' New York Times, Sinosphere 
(blog), 7 February 17; Stephanie Kirchgaessner, ``Vatican Defends 
Inviting Chinese Ex-Minister to Organ Trafficking Talks,'' Guardian, 6 
February 17; Maria Cheng and Nicole Winfield, ``UN: China Moves To Stop 
Taking Organs From Prisoners,'' Associated Press, 9 February 17.
    \160\ T. Trey et al., ``Transplant Medicine in China: Need for 
Transparency and International Scrutiny Remains,'' American Journal of 
Transplantation, 19 September 16; Didi Kirsten Tatlow, ``Debate Flares 
Over China's Inclusion at Vatican Organ Trafficking Meeting,'' New York 
Times, Sinosphere (blog), 7 February 17; Stephanie Kirchgaessner, 
``Vatican Defends Inviting Chinese Ex-Minister to Organ Trafficking 
Talks,'' Guardian, 6 February 17; Maria Cheng and Nicole Winfield, 
``UN: China Moves To Stop Taking Organs From Prisoners,'' Associated 
Press, 9 February 17.
    \161\ Ibid.
    \162\ Alice Y. Su, ``The Separation Between Mosque and State,'' 
Asia Society, ChinaFile, 21 October 16; Sarah Cook, Freedom House, 
``The Battle for China's Spirit: Religious Revival, Repression, and 
Resistance Under Xi Jinping,'' February 2017, 68.
    \163\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 66.
    \164\ Mu Chunshan, ``Anti-Muslim Sentiment Is Taking Over China's 
Social Media Scene,'' The Diplomat, 13 September 16.
    \165\ Gerry Shih, ``Unfettered Online Hate Speech Fuels 
Islamophobia in China,'' Associated Press, 10 April 17.
    \166\ Viola Zhou, ``Why China's Hui Muslims Fear They're Next To 
Face Crackdown on Religion,'' South China Morning Post, 11 March 17.
    \167\ Islamic Association of China, Measures for Confirming the 
Credentials of Islamic Professional Religious Personnel [Yisilan jiao 
jiaozhi renyuan zige rending banfa], issued 7 August 06, art. 3.
    \168\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 76.
    \169\ Ibid., 77. See also CECC, 2011 Annual Report, 10 October 11, 
101-2.
    \170\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 77. See also State Council, Regulations on Religious 
Affairs [Zongjiao shiwu tiaoli], issued 30 November 04, effective 1 
March 05, art. 11; Islamic Association of China, ``2017 Sichuan Hajj 
Participants Pre-Departure Training Held in Chengdu'' [2017 nian 
sichuan chaojin renyuan xing qian peixun zai chengdu juxing], 7 July 
17.
    \171\ Christian Shepherd and Michael Martina, ``Religious Extremism 
Is Spreading to Inland China: Official,'' Reuters, 28 November 16; 
Laura Zhou, ``China's Muslims Urged To Resist Extremism,'' South China 
Morning Post, 6 January 17.
    \172\ Gerry Shih, ``Unfettered Online Hate Speech Fuels 
Islamophobia in China,'' Associated Press, 10 April 17.
    \173\ Ibid.
    \174\ Ibid.
    \175\ Viola Zhou, ``Why China's Hui Muslims Fear They're Next To 
Face Crackdown on Religion,'' South China Morning Post, 11 March 17.
    \176\ Ibid.
    \177\ Ibid.
    \178\ State Council Information Office, ``The Situation of 
Religious Freedom in China'' [Zhongguo de zongjiao xinyang ziyou 
zhuangkuang], October 1997, sec. I. The central government has referred 
to the five religions as China's ``main religions,'' stating that the 
religions citizens ``mainly'' follow are Buddhism, Taoism, Islam, 
Catholicism, and Protestantism. Henan Province People's Congress 
Standing Committee, Henan Province Regulations on Religious Affairs 
[Henan sheng zongjiao shiwu tiaoli], issued 30 July 05, effective 1 
January 06, art. 2; Shaanxi Province People's Congress Standing 
Committee, Shaanxi Province Regulations on Religious Affairs [Shaanxi 
sheng zongjiao shiwu tiaoli], issued 23 September 00, amended 30 July 
08, effective 1 October 08, art. 2. Some local regulations on religious 
affairs define ``religion'' to mean only these five religions.
    \179\ See, e.g., Zhejiang Province Ethnic and Religious Affairs 
Committee, Zhejiang Province Measures for the Management of 
Registration of Venues for Folk Belief Activity [Zhejiang sheng minjian 
xinyang huodong changsuo dengji bianhao guanli banfa], issued 19 
October 14, effective 1 January 15; Taizhou Municipality Ethnic and 
Religious Affairs Bureau, Circular Concerning the 2016 Launch of 
Registration Work for Venues for Folk Belief Activity [Guanyu kaizhan 
2016 minjian xinyang huodong changsuo dengji bianhao gongzuo de 
tongzhi], issued 13 April 16; Hunan Province People's Government, Hunan 
Province Measures for the Management of Registration of Venues for Folk 
Belief Activity [Hunan sheng minjian xinyang huodong changsuo dengji 
guanli banfa], issued and effective 24 August 09; Shaoxing Municipality 
Ethnic and Religious Affairs Bureau, Shaoxing Municipality Implementing 
Plan for Registration of Venues for Folk Belief Activity [Shaoxing shi 
minjian xinyang huodong changsuo dengji bianhao gongzuo shishi 
fang'an], issued 14 May 15; State Administration for Religious Affairs, 
``State Administration for Religious Affairs Convenes Expert Scholars' 
Forum on Folk Beliefs'' [Guojia zongjiao shiwuju zhaokai minjian 
xinyang zhuanjia xuezhe zuotanhui], 18 March 16. See also Vincent 
Goossaert and David A. Palmer, The Religious Question in Modern China 
(Chicago: University of Chicago Press, 2011), 343, 346. According to 
Goossaert and Palmer, there is limited official tolerance outside this 
framework for ethnic minority and ``folk'' religious practices.
    \180\ See, e.g., Songbei District People's Government, Harbin 
Municipal Measures for the Management of Venues for Religious Activity 
[Ha'erbin shi zongjiao huodong changsuo guanli banfa], issued 10 
September 09, reprinted in Harbin Municipal People's Government, 5 
April 17, art. 2; State Council Information Office, ``The Situation of 
Religious Freedom in Xinjiang'' [Xinjiang de zongjiao xinyang ziyou 
zhuangkuang], reprinted in Xinhua, 2 June 16, secs. 1, 3. The Orthodox 
church has also been recognized to varying degrees at the local 
government level.
    \181\ Chris Buckley, ``Chinese Jews of Ancient Lineage Huddle Under 
Pressure,'' New York Times, 24 September 16; ``Chinese Jews Living in 
Kaifeng, Henan, Recently Encountered Suppression by Authorities'' 
[Zhongguo henan kaifeng de youtai jiao shequn, jinlai zaodao dangju 
daya], Radio Free Asia, 26 September 16.
    \182\ State Council, Provisions on the Management of Religious 
Activities of Foreigners Within the People's Republic of China 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding], issued and effective 31 January 94, art. 4. See also State 
Administration for Religious Affairs, Implementing Details for the 
Provisions on the Management of Religious Activities of Foreigners 
Within the PRC [Zhonghua renmin gongheguo jingnei waiguoren zongjiao 
huodong guanli guiding shishi xize], issued 26 September 00, amended 29 
November 10, effective 1 January 11, arts. 7, 17(5).

                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights

                         Ethnic Minority Rights


                              Introduction

    During the Commission's 2017 reporting year, Chinese 
government and Communist Party officials continued to act in 
contravention of domestic and international law with regard to 
members of China's 55 recognized minority ``nationalities.'' 
\1\ The PRC Regional Ethnic Autonomy Law contains protections 
for the languages, religious beliefs, and customs of these 
``nationalities,'' in addition to a system of regional autonomy 
in designated areas.\2\ Article 27 of the International 
Covenant on Civil and Political Rights, which China has signed 
and declared an intention to ratify, contains safeguards for 
the rights of ``ethnic, religious or linguistic minorities'' 
within a state.\3\ In practice, however, Chinese authorities 
reportedly implemented policies that marginalized the cultures 
and languages of ethnic minority populations.\4\ [See Section 
IV--Xinjiang and Section V--Tibet for additional information on 
these areas.]

                         State Minority Policy

    According to the 2016-2020 National Human Rights Action 
Plan issued by the State Council, Chinese authorities will 
``prioritize'' rights for ethnic minorities including ``[t]heir 
ability to participate in the deliberation and administration 
of state affairs,'' their right to economic development, and 
their right ``to learn, use and develop their own spoken and 
written languages.'' \5\ Nevertheless, during this reporting 
year, officials continued to promote top-down development 
initiatives that restricted ethnic minorities' ability to 
preserve and practice their cultures and languages.\6\ The UN 
Special Rapporteur on extreme poverty and human rights, Philip 
Alston, following his 2016 visit to China, issued a report 
criticizing what he saw as authorities' lack of consultation 
with ethnic minorities regarding economic development that 
affects them, and he recommended that the State Ethnic Affairs 
Commission develop policies integrating human rights 
considerations into all aspects of its policymaking.\7\ He 
noted that ``most ethnic minorities in China are exposed to 
serious human rights challenges, including significantly higher 
poverty rates, ethnic discrimination and forced relocation.'' 
\8\

                LIMITS ON MONGOLIAN-LANGUAGE INSTRUCTION

    Mongol parents and students in the Inner Mongolia 
Autonomous Region (IMAR) reportedly faced limits on access to 
Mongolian-language instruction during the past reporting year, 
in spite of Chinese law protecting the use of minority 
languages.\9\ In late 2016, Mongol parents in Chifeng 
municipality, IMAR, published open letters on social media \10\ 
and demonstrated outside government offices to protest the 
appointment of Han Chinese principals to the only two 
kindergartens in Chifeng that provide instruction in the 
Mongolian language.\11\ The administrations of the two schools 
reportedly restricted the use of the Mongolian language, and at 
least one of the schools banned Mongol teachers from speaking 
Mongolian in the office.\12\ In April 2017, four rights 
advocates, representing 429 Mongol teachers who had taught in 
the Mongolian language in Horchin (Ke'erqin) Right Forward 
Banner, Hinggan (Xing'an) League, IMAR, petitioned regional 
government authorities in Hohhot municipality, IMAR, over 
authorities' dismissal of the teachers from their jobs 
beginning in the year 2000, which they said authorities did 
without providing justification.\13\

                 Grasslands Protests in Inner Mongolia

    During this reporting year, Mongol herders in the IMAR 
demonstrated over the state's role in the loss of their 
traditional grazing lands, the harmful ecological effect of 
state development on grassland and livestock,\14\ and the 
state's failure to provide herders with adequate compensation 
for their land.\15\ As in past reporting years,\16\ authorities 
detained many of the Mongol herders who peacefully protested, 
including those who voiced their concerns online or talked with 
foreign reporters about their complaints.\17\
    Representative examples of protests by Mongol herders and 
villagers included the following:

        <bullet> On October 17, 2016, in Hailas (Hailasu) 
        township, Ongniud (Wengniute) Banner, Chifeng, nearly 
        200 herders marched toward the construction site of a 
        state-run pig farm and blocked the road, in protest 
        against what they alleged was the farm's occupation of 
        their traditional grazing lands.\18\ Local officials 
        reportedly sent more than 400 police officers to deal 
        with the protest; the police beat many herders and 
        detained at least three.\19\
        <bullet> On November 2, 2016, dozens of herders in 
        Zaruud (Zalute) Banner, Tongliao municipality, IMAR, 
        protested in front of banner government offices over an 
        aluminum plant's pollution of a local river, which the 
        herders said had poisoned their sheep.\20\ Security 
        personnel reportedly detained nine of the herders, and 
        prevented others from attending the protest.\21\
        <bullet> On April 10, 2017, over 300 herders in Horchin 
        (Ke'erqin) Left Rear Banner, Tongliao, gathered in an 
        attempt to block bulldozers and tractors from turning 
        up earth on their grazing lands for a government 
        afforestation project.\22\ On April 13, security 
        personnel reportedly took 13 of the herders into 
        custody, placing them under administrative detention 
        for 10 days.\23\
        <bullet> On April 10, 2017, in Horchin (Ke'erqin) Right 
        Forward Banner, Hinggan (Xing'an) League, IMAR, over 
        3,000 Mongols protested in the streets and in front of 
        a local government building, demanding compensation for 
        Mongols whose traditional land had reportedly been 
        taken or ruined due to state initiatives and 
        policies.\24\ Protesters clashed with nearly 1,000 
        security personnel, who reportedly detained at least 30 
        people and beat many protesters, some severely.\25\

    In addition, in early August 2017, in Evenk Autonomous 
Banner, Hulunbei'er municipality, IMAR, more than 100 ethnic 
Evenki herders reportedly protested over restrictions on 
livestock grazing on local grasslands.\26\ Police reportedly 
beat and injured many of the herders.\27\
    Beginning on May 10, authorities in Xilingol (Xilinguole) 
League, IMAR, reportedly administratively detained Mongol 
Yangjindolma for 15 days for ``inciting and planning an illegal 
gathering.'' \28\ She told Radio Free Asia (RFA) that she had 
planned an activity to call for the designation of a ``Protect 
the Grasslands Day,'' and to commemorate the sixth anniversary 
of the death of Mongol herder Mergen, who was run over by a 
coal truck in 2011 while protesting against a mining company's 
destruction of grasslands.\29\ On June 20, Yangjindolma 
submitted a petition in Hohhot municipality, IMAR, the regional 
capital, to protest against her alleged detention and 
torture.\30\ She told RFA that authorities had shackled her to 
a ``tiger bench'' for 24 hours while interrogating her.\31\

            Hada Continues To Protest Official Mistreatment

    Mongol rights advocate Hada reportedly continued to press 
authorities to hold officials accountable for mistreating him 
during his 15-year prison sentence and subsequent detention and 
surveillance.\32\ IMAR authorities imprisoned Hada for 15 years 
starting in 1995 and then extralegally detained him for another 
4 years,\33\ following his organization of peaceful 
demonstrations for Mongol rights and his establishment of the 
banned Southern Mongolian Democratic Alliance.\34\ In a 
November 2016 interview, he described his current living 
conditions, in an apartment heavily surveilled by security 
personnel, as similar to those he experienced under detention, 
and complained that authorities had at times cut off his 
family's water and heat in an effort to compel him to 
``cooperate with them and give up [his] ideas.'' \35\ In the 
same interview, his wife Xinna said Chinese officials were 
determined to force Hada to ``admit to his crimes.'' \36\ In a 
separate development, in May 2017, authorities in Hohhot 
reportedly forcibly demolished a building that Xinna used to 
store books and other items without her consent.\37\ In the 
summer of 2017, authorities reportedly restricted her Internet 
access.\38\
    In an example of government restrictions on Mongols' 
freedom of speech, in October 2016, authorities shut down the 
Genghis Khan website, after numerous tributes to recently 
deceased Mongol rights advocate and author Govruud Huuchinhuu 
appeared on the site.\39\ Authorities had for years persecuted 
Huuchinhuu in part due to her advocacy on behalf of Hada.\40\

                                                Ethnic Minority 
                                                         Rights
                                                Ethnic Minority 
                                                Rights
    Notes to Section II--Ethnic Minority Rights

    \1\ Shenghai He, ``An Overview of China's Ethnic Groups and Their 
Interactions,'' Sociology Mind, Vol. 7, No. 1 (January 2017), 1. The 
Sociology Mind article provides the number of officially recognized 
ethnic minorities, or ``nationalities,'' as 55.
    \2\ PRC Regional Ethnic Autonomy Law [Zhonghua renmin gongheguo 
minzu quyu zizhi fa], passed 31 May 84, effective 1 October 84, amended 
28 February 01. For protections related to languages, religious 
beliefs, and customs, see Articles 10, 11, 21, 36, 37, 47, 49, and 53.
    \3\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 27.
    \4\ See, e.g., ``China Bans `Extreme' Islamic Baby Names Among 
Xinjiang's Uyghurs,'' Radio Free Asia, 20 April 17; Southern Mongolian 
Human Rights Information Center, ``Parents Protest Appointment of 
Chinese Principals and Ban of Mongolian Language in Kindergartens,'' 22 
November 16; Letter to the Ambassador and Permanent Representative, 
Permanent Mission of the People's Republic of China to the United 
Nations Office at Geneva, from Six Special Rapporteurs (each covering a 
separate area of human rights): the Special Rapporteur in the field of 
cultural rights; the Special Rapporteur on the issue of human rights 
obligations relating to the enjoyment of a safe, clean, healthy and 
sustainable environment; the Special Rapporteur on the rights to 
freedom of peaceful assembly and of association; the Special Rapporteur 
on adequate housing as a component of the right to an adequate standard 
of living, and on the right to non-discrimination in this context; the 
Special Rapporteur on minority issues; and the Special Rapporteur on 
freedom of religion or belief, AL CHN 10/2016, 7 November 16.
    \5\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 3(1); State Council 
Information Office, ``Full Text: National Human Rights Action Plan of 
China (2016-2020),'' August 2016, reprinted in Xinhua, 29 September 16, 
sec. III(1).
    \6\ See, e.g., Uyghur Human Rights Project, ``End of the Road: One 
Belt, One Road and the Cumulative Economic Marginalization of the 
Uyghurs,'' 6 March 17, 13-14, 31; Simon Denyer, ``China Says Tourism Is 
Tibet's Best Hope. But Can Its Culture Survive the Onslaught? '' 
Washington Post, 6 October 16.
    \7\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 45.
    \8\ Ibid., para. 44.
    \9\ ``Parents Protest Curbs on Mongolian Language Teaching in 
Chinese Schools,'' Radio Free Asia, 5 December 16. See also ``Inner 
Mongolian Mother Language Substitute Teachers Petition IMAR Government, 
Request Truth Behind Dismissals'' [Neimenggu muyu daike jiaoshi zizhiqu 
zhengfu qingyuan yaoqiu chaming jiegu zhenxiang], Radio Free Asia, 19 
April 17. For Chinese law protecting the use of minority languages, 
religious beliefs, and customs, see PRC Regional Ethnic Autonomy Law 
[Zhonghua renmin gongheguo minzu quyu zizhi fa], passed 31 May 84, 
effective 1 October 84, amended 28 February 01, arts 10-11, 21, 36-37, 
47, 49, 53.
    \10\ Southern Mongolian Human Rights Information Center, ``Parents 
Protest Appointment of Chinese Principals and Ban of Mongolian Language 
in Kindergartens,'' 22 November 16.
    \11\ ``Parents Protest Curbs on Mongolian Language Teaching in 
Chinese Schools,'' Radio Free Asia, 5 December 16.
    \12\ Southern Mongolian Human Rights Information Center, ``Parents 
Protest Appointment of Chinese Principals and Ban of Mongolian Language 
in Kindergartens,'' 22 November 16.
    \13\ ``Inner Mongolian Mother Language Substitute Teachers Petition 
IMAR Government, Request Truth Behind Dismissals'' [Neimenggu muyu 
daike jiaoshi zizhiqu zhengfu qingyuan yaoqiu chaming jiegu zhenxiang], 
Radio Free Asia, 19 April 17. See also Rights Defense Network, ``The 
Voice of IMAR Xing'an League Substitute Teachers'' [Neimenggu xing'an 
meng daike jiaoshi de xinsheng], 19 April 17.
    \14\ Southern Mongolian Human Rights Information Center, 
``Mongolian Herders Stage Protest, Demanding Halt of COFCO Pig Farm 
Project,'' 21 October 16; `` `The Leaseholders Have Destroyed the 
Forest,' '' Radio Free Asia, 19 April 17; ``More Than a Hundred Herders 
Block Pig Farm Construction Site in Chifeng, IMAR, Protest Against 
Pollution of Grasslands and Disruption of Means of Livelihood'' 
[Neimeng chifeng bai duo mumin du yangzhuchang gongdi kangyi wuran 
caoyuan duan shenglu], Radio Free Asia, 22 October 16; ``Several 
Hundred Inner Mongolian Farmers and Herders Block Road To Protest COFCO 
Pollution, 18 Individuals Taken Into Custody'' [Nei menggu shubai 
nongmumin du lu kangyi zhongliang jituan wuran 18 ren bei zhua], Radio 
Free Asia, 29 May 17; ``Inner Mongolian Farmers and Herders Protesting 
Pollution From State-Owned Enterprise Criminally Detained, 2 Approved 
for Arrest'' [Nei menggu nongmumin kangyi guoqi wuran bei xingju 2 ren 
bei pibu], Radio Free Asia, 12 July 17.
    \15\ Southern Mongolian Human Rights Information Center, ``3,000 
Mongolians Take to the Streets, 30 Arrested, Protest Continues,'' 12 
April 17; ``Violent Conflict as Inner Mongolian Herders Protest Against 
Occupation of Grasslands Without Compensation, 7 People Are Detained'' 
[Neimeng mumin kangyi qiangzhan caochang wu butie bao chongtu 7 ren bei 
bu], Radio Free Asia, 18 May 17.
    \16\ See, e.g., CECC, 2016 Annual Report, 6 October 16, 143-44; 
CECC, 2015 Annual Report, 8 October 15, 138-39.
    \17\ ``Ethnic Mongolian Activist Detained After Tweet About Land 
Dispute,'' Radio Free Asia, 20 December 16; ``China To Prosecute Ethnic 
Mongolian Over Tweet About Land Dispute,'' Radio Free Asia, 6 February 
17; ``Two Mongol Youths in Inner Mongolia Who Criticized Officials on 
WeChat Detained'' [Neimeng liang menggu zu qingnian weixin piping 
guanyuan bei ju], Radio Free Asia, 27 February 17; ``Mongol Youth 
Arrested for Online Posts, Wife Sends Open Letter to IMAR Secretary 
Asking for Help'' [Menggu zu qingnian wangshang fatie bei bu qizi xiang 
neimeng shuji fa gongkai xin qiuzhu], Radio Free Asia, 7 February 17.
    \18\ Southern Mongolian Human Rights Information Center, 
``Mongolian Herders Stage Protest, Demanding Halt of COFCO Pig Farm 
Project,'' 21 October 16. For reports on the herders' concerns about 
untreated sewage and other pollutants from the state-run pig farm, see 
``Several Hundred Inner Mongolian Farmers and Herders Block Road To 
Protest COFCO Pollution, 18 Individuals Taken Into Custody'' [Nei 
menggu shubai nongmumin du lu kangyi zhongliang jituan wuran 18 ren bei 
zhua], Radio Free Asia, 29 May 17; ``Inner Mongolian Farmers and 
Herders Protesting Pollution From State-Owned Enterprise Criminally 
Detained, 2 Approved for Arrest'' [Nei menggu nongmumin kangyi guoqi 
wuran bei xingju 2 ren bei pibu], Radio Free Asia, 12 July 17.
    \19\ Southern Mongolian Human Rights Information Center, 
``Mongolian Herders Stage Protest, Demanding Halt of COFCO Pig Farm 
Project,'' 21 October 16.
    \20\ ``Herders Protest Pollution in Tongliao, Inner Mongolia, 9 
People Are Detained'' [Neimenggu tongliao mumin kangyi wuran 9 ren bei 
bu], Radio Free Asia, 3 November 16; Rights Defense Network, ``Nine 
Rights Defenders in Arikunduleng, Zaruud Banner, IMAR, Detained by 
Authorities for Opposing Huolin River Aluminum Plant Pollution'' 
[Neimenggu zalute qi arikunduleng 9 weiquan gongmin yin kangyi huolin 
he luchang wuran bei dangju zhuabu], 3 November 16.
    \21\ Ibid. For more information, see the Commission's Political 
Prisoner Database records 2017-00244 on Buren, 2017-00250 on Tian Hu, 
2017-00251 on Eridemutu, 2017-00252 on Shuang Fu, 2017-00253 on 
Huricha, 2017-00254 on Alata, 2017-00255 on Buhechaolu, and 2017-00256 
on Hanggaili. One of the nine herders was unnamed.
    \22\ Southern Mongolian Human Rights Information Center, ``Herders 
Protest Afforestation Project, 13 Detained,'' 15 April 17.
    \23\ Ibid. See also ``Hundreds of Herders Suppressed for Protesting 
Occupation of Grasslands, 13 People Detained'' [Shu bai mumin kangyi 
caochang bei zhan shou zhenya 13 ren bei juliu], Radio Free Asia, 14 
April 17.
    \24\ Southern Mongolian Human Rights Information Center, ``3,000 
Mongolians Take to the Streets, 30 Arrested, Protest Continues,'' 12 
April 17.
    \25\ Ibid.
    \26\ ``Clashes as Ethnic Evenk Herders Protest China's Grazing Ban 
in Inner Mongolia,'' Radio Free Asia, 4 August 17; ``Inner Mongolian 
Herders Clash With Police Over Grasslands Protest, Etuoke Forward 
Banner Herders Say Thousands of Mu of Grassland Have Been Seized'' [Nei 
menggu mumin caochang jiufen yu jing chongtu e qian qi mumin su qian mu 
caochang bei qiangzhan], Radio Free Asia, 4 August 17.
    \27\ Ibid.
    \28\ ``Ethnic Mongolian Activist Lodges Formal Complaint Over 
`Tiger Bench' Torture, Interrogation,'' Radio Free Asia, 22 June 17; 
``Organizer of Event Commemorating Mergen Detained, Herders Call on 
Government To Designate Grasslands' Environmental Protection Day'' 
[Zuzhi jinian morigen huodong bei juliu mumin cu zhengfu queding 
caoyuan huanbao ri], Radio Free Asia, 22 June 17.
    \29\ Ibid. For Commission analysis on the death of Mergen, see 
``Mongols Protest in Inner Mongolia After Clashes Over Grasslands Use, 
Mining Operations,'' Congressional-Executive Commission on China, 1 
July 11.
    \30\ ``Ethnic Mongolian Activist Lodges Formal Complaint Over 
`Tiger Bench' Torture, Interrogation,'' Radio Free Asia, 22 June 17; 
``Organizer of Event Commemorating Mergen Detained, Herders Call on 
Government To Designate Grasslands' Environmental Protection Day'' 
[Zuzhi jinian morigen huodong bei juliu mumin cu zhengfu queding 
caoyuan huanbao ri], Radio Free Asia, 22 June 17.
    \31\ Ibid.
    \32\ ``Ethnic Mongolian Dissident Appeals `Separatism' Conviction 
to China's Highest Court,'' Radio Free Asia, 23 November 16. See also 
Southern Mongolian Human Rights Information Center, ``Hada's Appeal to 
the Supreme People's Court of the People's Republic of China,'' 21 
November 16; Kerry Brown, ``Lost in Time: Hada, an Inner Mongolian 
Dissident,'' openDemocracy, 7 December 16.
    \33\ Southern Mongolian Human Rights Information Center, ``Hada's 
Appeal to the Supreme People's Court of the People's Republic of 
China,'' 21 November 16; Southern Mongolian Human Rights Information 
Center, ``Mongolian Dissident's Son Arrested and Detained for 
`Obstructing Official Business,' '' 16 October 15.
    \34\ ``Inner Mongolian Dissident's Family Targeted,'' Radio Free 
Asia, 5 December 10; Hada, Xinna, and Uiles, ``Open Letter From Hada 
and His Family Members,'' reprinted in Southern Mongolian Human Rights 
Information Center, 2 July 14; Southern Mongolian Human Rights 
Information Center, ``SMHRIC Statement to the UN Special Rapporteur on 
the Rights to Freedom of Peaceful Assembly and Association,'' 19 
February 14. For Commission analysis on Hada, Xinna, and Uiles, see 
``Authorities Heighten Persecution of Detained Mongol Rights Advocate's 
Wife and Son,'' CECC China Human Rights and Rule of Law Update, No. 1, 
3 January 13, 2. For more information, see the Commission's Political 
Prisoner Database records 2004-02045 on Hada, 2010-00704 on Xinna, and 
2010-00705 on Uiles.
    \35\ ``Ethnic Mongolian Dissident Appeals `Separatism' Conviction 
to China's Highest Court,'' Radio Free Asia, 23 November 16.
    \36\ Ibid.
    \37\ ``Mongolian Rights Advocate Xinna's Building Demolished'' 
[Menggu zu weiquan renshi xinna jiafang wu zao tou chai], Radio Free 
Asia, 23 May 17.
    \38\ Ben Blanchard, ``China Marks 70 Years of Inner Mongolia's 
Founding, Activist Complains of Curbs,'' Reuters, 8 August 17; 
``Mongolian Rights Advocate Xinna's WeChat [Account] Shut Down, Mongol 
Herder Detained for Forwarding Picture of Xi Jinping'' [Menggu zu 
weiquan renshi xinna weixin bei fenghao menggu zu mumin zhuanfa xi 
jinping xiang bei juliu], Radio Free Asia, 21 June 17.
    \39\ `` `She Was the Pride of the Mongolian People,' '' Radio Free 
Asia, 28 October 16.
    \40\ Ibid. Southern Mongolian Human Rights Information Center, 
``Southern Mongolian Human Rights Defender, Dissident Writer and 
Activist Huuchinhuu Died,'' 25 October 16. See also CECC, 2015 Annual 
Report, 8 October 15, 140.

                                                    Population 
                                                        Control
                                                Population 
                                                Control

                           Population Control


    International Standards and China's Coercive Population Policies

    During the Commission's 2017 reporting year, Chinese 
authorities continued to actively promote and implement 
coercive population control policies that violate international 
standards. 2016 marked the first full year that the Chinese 
Communist Party and central government authorities implemented 
the ``universal two-child policy'' that allows all married 
couples to have two children.\1\ Authorities continued to place 
an emphasis on birth limits and adherence to family planning as 
a ``basic national policy.'' \2\ The amended PRC Population and 
Family Planning Law and provincial-level regulations limit 
couples' freedom to build their families as they see fit, and 
include provisions that require couples be married to have 
children and limit them to bearing two children.\3\ Exceptions 
allowing for additional children exist for couples who meet 
certain criteria, which vary by province, including some 
exceptions for ethnic minorities,\4\ remarried couples, and 
couples who have children with disabilities.\5\ Officials 
reportedly continued to enforce compliance with population 
planning targets using methods including heavy fines,\6\ 
detention,\7\ forced sterilization,\8\ and abortion.\9\
    Coercive controls imposed on Chinese women and their 
families, and additional abuses engendered by China's 
population and family planning system, violate standards set 
forth in the 1995 Beijing Declaration and Platform for Action 
and the 1994 Programme of Action of the Cairo International 
Conference on Population and Development.\10\ China was a state 
participant in the negotiation and adoption of both.\11\ Acts 
of official coercion committed in the implementation of 
population control policies contravene provisions of the 
Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment (Convention),\12\ which China 
has ratified.\13\ In November 2015, the UN Committee against 
Torture conducted its most recent periodic review of China's 
compliance with the Convention.\14\ In its concluding 
observations, the Committee stated its concerns about China's 
``use of coercive measures for the implementation of the 
population policy,'' and ``reports of coerced sterilization and 
forced abortions, [and] the lack of information on the number 
of investigations into such allegations.'' \15\

            Implementation of the Universal Two-Child Policy

    Amid demographic and economic concerns voiced by population 
experts and research institutions,\16\ central Party 
authorities issued a decision at the Fifth Plenum of the 18th 
Central Committee of the Chinese Communist Party in October 
2015 to adopt a ``universal two-child policy'' (quanmian 
erhai), thereby allowing all married couples to have two 
children.\17\ On December 27, 2015, the National People's 
Congress Standing Committee amended the PRC Population and 
Family Planning Law, which became effective on January 1, 
2016.\18\ As of August 2017, 30 provincial-level jurisdictions 
had revised their population and family planning regulations in 
accordance with the amended national law.\19\ Despite these 
policy and legislative revisions, central government officials 
emphasized that family planning policy will remain a ``basic 
national policy'' (jiben guoce) \20\ and stressed the need to 
``maintain and strengthen'' the family planning apparatus at 
the grassroots level.\21\ Human rights advocates, demographic 
experts, and others expressed concerns that the coercive 
implementation of family planning measures and human rights 
abuses will persist despite the adoption of the universal two-
child policy.\22\
    Chinese government statistics showed that the universal 
two-child policy had limited to moderate impact during its 
first year of implementation in 2016. During the Commission's 
previous reporting year, the National Health and Family 
Planning Commission (NHFPC) had predicted that the universal 
two-child policy would result in population growth,\23\ with an 
additional 3 million children born per year \24\ and an 
estimated total of 17.5 to 21 million children born per year 
during the 13th Five-Year Plan period (2016-2020).\25\ 
According to data released by the National Bureau of Statistics 
of China (NBS) in January 2017, the number of total births in 
2016 was 17.86 million, 1.31 million more births than the 2015 
NBS figure of 16.55 million.\26\ The NHFPC employed a different 
methodology; its data showed that the number of total births in 
2016 was 18.46 million, or approximately 1.91 million more 
births than the 2015 NBS figure.\27\ Although both the NBS and 
NHFPC figures were lower than the predicted annual growth of 3 
million additional births, NHFPC officials stated that the 
growth had met official expectations \28\ and that the 
universal two-child policy was effective,\29\ and predicted 
that the growth would continue.\30\ The numbers of total births 
in 2016 as reported by NBS and NHFPC--of which approximately 45 
percent were second children--were the highest since 2000.\31\
    Some government reports and observers differed from the 
NHFPC over the impact of the universal two-child policy, 
suggesting that the growth in the number of births in 2016 
might be a short-term phenomenon.\32\ Some married couples were 
reportedly waiting for the government policy to change in 2016 
in order to avoid fines associated with having a second child, 
while others were waiting to have a child in the Year of the 
Monkey, a more auspicious year for having children according to 
the traditional lunar calendar.\33\ Reports suggested that the 
impact of the universal two-child policy may be limited in the 
long term, as the fertility rate is likely to remain low.\34\ 
Other population experts, such as Yi Fuxian and Huang Wenzheng, 
expressed reservations about the official birth data, 
estimating a lower number of total births in 2016 in the range 
of 12 million to 13 million.\35\ Some experts also noted that 
the universal two-child policy does not adequately address the 
issue of low fertility rate and the high costs associated with 
controlling fertility, and urged the Chinese government to end 
all birth restrictions.\36\
    Many married couples were reportedly reluctant to have a 
second child due to a number of factors, including the high 
cost of rearing an additional child,\37\ lack of adequate child 
care and education options,\38\ lack of energy to look after 
children,\39\ disruption to career development,\40\ and the 
perception that having one child is enough due to decades-long 
government propaganda.\41\ Central government authorities 
pledged to implement ``supporting policy measures'' to address 
these concerns, including efforts to enhance public services 
for women and children's health care,\42\ child care, and 
education,\43\ in order to ``promote long-term and balanced 
population development.'' \44\ During this reporting year, 
government authorities continued to implement the birth 
registration system and promoted registration of children 
online, allowing married couples to register their first two 
children without going through complicated approval or 
application processes \45\ that were common prior to the 2016 
amendment to the PRC Population and Family Planning Law.\46\

                        Coercive Implementation

    Abuses committed during the implementation of family 
planning policies continued during the Commission's 2017 
reporting year. The amended PRC Population and Family Planning 
Law contains provisions that prohibit officials from infringing 
upon the ``legitimate rights and interests'' of citizens while 
implementing family planning policies.\47\ Some provincial-
level population planning regulations and local family planning 
agencies, however, continued to explicitly instruct officials 
to carry out abortions, often referred to as ``remedial 
measures'' (bujiu cuoshi), for ``out-of-plan'' pregnancies.\48\

                           OFFICIAL CAMPAIGNS

    Language used in official speeches and government reports 
from jurisdictions across China continued to reflect an 
emphasis on the harsh enforcement of family planning measures. 
During this reporting year, as in previous years,\49\ official 
reports from several provinces across China--including 
Hainan,\50\ Henan,\51\ Hubei,\52\ Hunan,\53\ and Jiangxi \54\--
continued to promote ``family planning work'' that entailed 
harsh and invasive family planning measures. Phrases such as 
``fight the family planning battle'' (da hao jisheng fanshen 
zhan),\55\ ``resolutely implement'' (hen zhua),\56\ and ``spare 
no efforts'' (quanli yifu) \57\ continued to appear in official 
speeches and government reports, indicating sustained efforts 
to promote these family planning campaigns.\58\
    Some local government authorities stated in official 
reports that the goal of ``family planning work'' is to 
``maintain a low birth level'' (wending di shengyu 
shuiping),\59\ while others emphasized the need to strictly 
control and punish ``illegal reproductive behaviors'' \60\ and 
implement ``remedial measures'' to address ``illegal 
pregnancies.'' \61\ Authorities imposed implementation 
targets,\62\ demanded family planning officials carry out the 
invasive ``three inspections'' (intrauterine device (IUD), 
pregnancy, and health inspections) \63\ and ``four procedures'' 
(IUD insertion, first-trimester abortion, mid- to late-term 
abortion, and sterilization),\64\ and demanded the collection 
of ``social compensation fees'' (shehui fuyang fei).\65\ In one 
example, a government report from Shaoyang municipality, Hunan, 
indicated that municipal authorities carried out 2,320 ``birth-
control'' operations in 2016--1,790 IUD insertions, 430 IUD 
removals, 10 sterilizations, and 90 abortions.\66\

------------------------------------------------------------------------
             Case of Forced Sterilization in Yunnan Province
-------------------------------------------------------------------------
  According to state-funded news media Sixth Tone and Party-run media
 Beijing News, in February 2017, government officials in Luokan
 township, Zhenxiong county, Zhaotong municipality, Yunnan province,
 detained Hu Zhenggao and later beat him and forced him to undergo a
 vasectomy.\67\ The alleged incident occurred when Hu, currently a
 registered resident of Sichuan province, returned to his hometown in
 Yunnan for the lunar New Year holiday.\68\ Local authorities accused
 Hu, a father of four, of violating the family planning policy \69\ and
 demanded that he either pay 20,000 yuan (approximately US$2,900) or
 undergo a vasectomy.\70\ Hu had three children with his ex-wife--who
 underwent sterilization afterward--and had paid a fine in 2000 for
 violating the family planning policy.\71\ In 2015, Hu had another child
 with his current wife in Sichuan, and Sichuan authorities reportedly
 approved the birth.\72\ Zhenxiong authorities denied that Hu had been
 threatened or maltreated, insisting that Hu had ``volunteered to
 undergo the vasectomy,'' \73\ and that enforcement action was
 lawful.\74\
  According to Sixth Tone, village-level leaders in Zhenxiong confirmed
 that such operations are commonplace, as the county government imposes
 annual quotas on village officials to carry out sterilizations.\75\ One
 village was punished by cuts in government funding and public sector
 jobs after it had failed to meet its sterilization target.\76\
 Following the news reports, the Yunnan Province Health and Family
 Planning Commission directed local authorities to investigate the
 incident.\77\ According to a March 2017 Beijing Youth Daily report, the
 Zhenxiong County Party Standing Committee ordered the county's Party
 Discipline Inspection Commission to ``admonish'' Luokan township
 leaders and urged them to hold relevant family planning personnel
 accountable.\78\ Futhermore, the Yunnan Province Health and Family
 Planning Commission issued a circular forbidding local governments from
 carrying out forcible family planning operations.\79\
------------------------------------------------------------------------

                      PUNISHMENT FOR NONCOMPLIANCE

    Chinese authorities continued to use various methods of 
punishment to enforce citizens' compliance with population 
planning policies. In accordance with national-level legal 
provisions,\80\ local governments have directed officials to 
punish noncompliance through heavy fines, termed ``social 
compensation fees,'' which reportedly compel couples to choose 
between undergoing an unwanted abortion and incurring a fine 
much greater than the average annual income in their 
locality.\81\ On November 10, 2016, official Chinese news media 
Taihai Net reported a case in which local authorities in Wuping 
county, Longyan municipality, Fujian province, launched a 
``special action group'' to forcibly collect ``social 
compensation fees'' from violators who had children in excess 
of birth quotas.\82\ During an enforcement campaign, Wuping 
authorities detained two individuals surnamed Cheng and Lan who 
had refused to pay the fines.\83\ The report also warned that 
the authorities would continue to forcibly collect ``social 
compensation fees'' within their jurisdiction and ``to punish 
and educate'' violators, in order to ``effectively curb illegal 
births.'' \84\
    This past year, domestic news media reported an increase in 
the number of administrative lawsuits Chinese citizens filed 
against family planning agencies for the collection of ``social 
compensation fees.'' \85\ These cases were related to married 
couples who gave birth to a second child in violation of 
previous family planning policies and birth limits.\86\ Some 
observers called on government authorities to rescind these 
imposed fines; \87\ during the annual parliamentary meetings in 
March, several National People's Congress delegates and members 
of the Chinese People's Political Consultative Conference also 
urged the government to abolish the ``social compensation fees 
system.'' \88\ The State Council issued draft Regulations on 
the Collection and Management of Social Compensation Fees in 
November 2014; \89\ as of July 2017, the Commission had not 
observed reports of the Chinese government issuing the 
regulations.
    In addition to fines, officials imposed or threatened other 
punishments for family planning violations. These punishments 
included detention,\90\ forced sterilization,\91\ and 
abortion.\92\ The PRC Population and Family Planning Law 
prohibits and provides punishments for officials' infringement 
on citizens' personal, property, and other rights while 
implementing population planning policies.\93\

------------------------------------------------------------------------
       Hukou Reform Addressing the Issue of ``Illegal Residents''
-------------------------------------------------------------------------
  During the Commission's 2017 reporting year, central and local
 governments continued to implement household registration (hukou)
 reforms to register ``illegal residents'' (heihu), a term commonly used
 to refer to people who lack hukou in China. According to 2010 national
 census data, there were approximately 13 million ``illegal residents''
 in China,\94\ of whom over 60 percent were people born in excess of
 birth quotas.\95\ Other reports indicated that the number of ``illegal
 residents'' might be higher than 13 million.\96\ These ``illegal
 residents'' face considerable difficulty accessing social benefits
 typically afforded to registered citizens, including government-
 subsidized healthcare, public education, and social security.\97\
 According to U.S.-based news media Duowei, survey data from the Chinese
 Academy of Macroeconomic Research of the National Development and
 Reform Commission showed that nearly half of the 13 million
 unregistered population were illiterate or people who had never
 received formal education, and about 43.8 percent of the unregistered
 population were unemployed.\98\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Hukou Reform Addressing the Issue of ``Illegal Residents''-- Continued
-------------------------------------------------------------------------
  Central Party and government authorities issued directives during the
 Commission's previous reporting year to address the issue of ``illegal
 residents.'' \99\ According to a March 2017 People's Daily report, all
 31 provincial-level governments have issued implementing opinions for
 hukou reform, and approximately 14 million ``illegal residents'' have
 registered for hukou since November 2012.\100\ The state-run media
 China Central Television reported in February 2017 that authorities
 registered 1.435 million ``illegal residents'' in 2016.\101\ Some
 ``illegal residents,'' however, reportedly continued to face difficulty
 in registering for hukou, including those born to unmarried
 parents.\102\ According to a March 2017 People's Daily report, a
 Ministry of Public Security (MPS) official stated that the MPS aims to
 completely resolve the issue of ``illegal residents'' within the next
 two to three years.\103\ [For more information on China's hukou system,
 see Section II--Freedom of Residence and Movement.]
------------------------------------------------------------------------

        Demographic Consequences of Population Control Policies

    Decades of population control policies have exacerbated 
China's demographic challenges, which include a rapidly aging 
population, shrinking workforce, and sex ratio imbalance. 
Affected in recent decades by government restrictions on the 
number of births per couple, China's total fertility rate has 
dropped from approximately 3 births per woman in the late 1970s 
\104\ to a reported 1.7 births per woman in 2017, below the 
replacement rate of 2.1 births per woman necessary to maintain 
a stable population.\105\ The fertility rate is even lower in 
some major cities, such as Shanghai municipality, which has a 
fertility rate of approximately 0.7 births per woman, 
reportedly one of the lowest in the world.\106\
    China's low fertility rate has contributed to a rapidly 
aging population and a shrinking workforce. According to a 
January 2017 National Bureau of Statistics of China (NBS) 
report, from 2015 to 2016, China's working-age population 
(persons between the ages of 16 and 59) declined by 3.49 
million people to 907.47 million, continuing a downward trend 
from the previous year.\107\ At the same time, the elderly 
population (persons aged 60 or older) increased by 
approximately 8.86 million in 2016 to 230.86 million people, or 
16.7 percent of the total population.\108\ According to the 
2017 State Council National Population Development Plan, 
China's working-age population is expected to decline rapidly 
from 2021 to 2030, while the elderly population will increase 
markedly during the same period and is predicted to reach a 
quarter of the population by 2030.\109\ Some population experts 
suggested that the elderly population would account for 
approximately one-third of China's total population by 2050, 
according to a China Daily report.\110\ These demographic 
trends reportedly may burden China's health care, public 
services, and retirement systems,\111\ and weaken China's 
economy as labor costs rise and competitiveness erodes.\112\
    The Chinese government's restrictive family planning 
policies also have exacerbated China's sex ratio imbalance. 
Although Chinese authorities continue to implement a ban on 
``non-medically necessary sex determination and sex-selective 
abortion,'' \113\ some people reportedly continue the practice 
in keeping with a traditional cultural preference for 
sons.\114\ According to an NBS report, China's overall sex 
ratio in 2016 was 104.98 males to 100 females, and there were 
approximately 33.59 million more males than females in China 
(708.15 million males to 674.56 million females).\115\ 
Demographic experts have expressed concerns that the sex ratio 
imbalance in China could lead to ``violent crime,'' \116\ ``sex 
crimes,'' ``trafficking of women,'' \117\ and social 
instability.\118\ This past year, international media reports 
continued to suggest a link between China's large number of 
``surplus males'' \119\ and the trafficking of foreign women--
from countries including Cambodia,\120\ Burma (Myanmar),\121\ 
North Korea,\122\ and Vietnam \123\--into China for forced 
marriage or commercial sexual exploitation. [For more 
information on cross-border trafficking, see Section II--Human 
Trafficking.]
    Reports also indicate that decades of birth limits under 
China's population control policies combined with a traditional 
preference for sons may have contributed to a black market for 
illegal adoptions.\124\ In November 2016, public security 
authorities in seven provinces detained 157 individuals 
involved in the acquisition and selling of children, and 
rescued 36 children, some of whom reportedly were 10 days old 
when taken.\125\ As of December 2016, authorities had not been 
able to locate the parents of at least nine of the 
children.\126\ According to reports, some parents sold their 
children because of financial difficulty, while some buyers 
wanted male children due to a traditional preference for 
sons.\127\

                                                    Population 
                                                        Control
                                                Population 
                                                Control
    Notes to Section II--Population Control

    \1\ National Health and Family Planning Commission, ``December 12, 
2016, National Health and Family Planning Commission Regular Press 
Conference Text Record'' [2016 nian 12 yue 12 ri guojia weisheng 
jishengwei lixing xinwen fabuhui wenzi shilu], 12 December 16; PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], passed 29 December 01, amended 27 December 15, 
effective 1 January 16, art. 18.
    \2\ State Council, National Population Development Plan (2016-2030) 
[Guojia renkou fazhan guihua (2016-2030 nian)], issued 30 December 16, 
chaps. 2(1), 3(1); National Health and Family Planning Commission, 
``December 12, 2016, National Health and Family Planning Commission 
Regular Press Conference Text Record'' [2016 nian 12 yue 12 ri guojia 
weisheng jishengwei lixing xinwen fabuhui wenzi shilu], 12 December 16; 
National Health and Family Planning Commission, ``State Council Policy 
Regular Press Conference: `13th Five-Year Plan' Health Plan and 
Deepening Medical and Health System Reform Plan During the `13th Five-
Year Plan' Period'' [Guowuyuan zhengce lixing chuifeng hui: `` `shisan 
wu' weisheng yu jiankang guihua'' ji `` `shisan wu' qijian shenhua 
yiyao weisheng tizhi gaige guihua'' youguan qingkuang], 23 December 16.
    \3\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, art. 18. Article 18 of the 
Population and Family Planning Law stipulates, ``the state advocates 
two children per married couple.'' For provincial population 
regulations that require couples be married to have children and limit 
them to bearing two children, see, e.g., Fujian Province People's 
Congress Standing Committee, Fujian Province Population and Family 
Planning Regulations [Fujian sheng renkou yu jihua shengyu tiaoli], 
issued 29 April 88, amended 28 June 91, 25 October 97, 18 November 00, 
26 July 02, 14 December 12, 29 March 14, 19 February 16, arts. 8, 12; 
Guangxi Zhuang Autonomous Region People's Congress Standing Committee, 
Guangxi Zhuang Autonomous Region Population and Family Planning 
Regulations [Guangxi zhuang zu zizhiqu renkou he jihua shengyu tiaoli], 
issued 23 March 12, amended 13 January 14, 15 January 16, art. 13.
    \4\ See, e.g., Fujian Province People's Congress Standing 
Committee, Fujian Province Population and Family Planning Regulations 
[Fujian sheng renkou yu jihua shengyu tiaoli], issued 29 April 88, 
amended 28 June 91, 25 October 97, 18 November 00, 26 July 02, 14 
December 12, 29 March 14, 19 February 16, art. 9(4-5); Heilongjiang 
Province People's Congress Standing Committee, Heilongjiang Province 
Population and Family Planning Regulations [Heilongjiang sheng renkou 
yu jihua shengyu tiaoli], issued 18 October 02, amended 13 December 13, 
22 April 14, 17 April 15, 21 April 16, art. 13.
    \5\ For provincial population planning provisions that allow these 
exceptions for having an additional child, see, e.g., Zhejiang Province 
People's Congress Standing Committee, Zhejiang Province Population and 
Family Planning Regulations [Zhejiang sheng renkou yu jihua shengyu 
tiaoli], issued 3 September 02, amended 28 September 07, 13 January 14, 
14 January 16, reprinted in Zhejiang Province Health and Family 
Planning Commission, art. 18(1-4); Sichuan Province People's Congress 
Standing Committee, Sichuan Province Population and Family Planning 
Regulations [Sichuan sheng renkou yu jihua shengyu tiaoli], issued 2 
July 87, amended 15 December 93, 17 October 97, 26 September 02, 24 
September 04, 20 March 14, 22 January 16, art. 13(1); Guangxi Zhuang 
Autonomous Region People's Congress Standing Committee, Guangxi Zhuang 
Autonomous Region Population and Family Planning Regulations [Guangxi 
zhuang zu zizhiqu renkou he jihua shengyu tiaoli], issued 23 March 12, 
amended 13 January 14, 15 January 16, art. 14(1-5); Jiangxi Province 
People's Congress Standing Committee, Jiangxi Province Population and 
Family Planning Regulations [Jiangxi sheng renkou yu jihua shengyu 
tiaoli], issued 16 June 90, amended 30 June 95, 20 June 97, 29 July 02, 
27 March 09, 16 January 14, 20 January 16, reprinted in People's Daily, 
art. 9(2-3).
    \6\ See, e.g., Song Shiqing and Liu Jiaying, ``China Fining Parents 
for Second Kid Born Before One-Child Policy Scrapped,'' Caixin, 6 
February 17; ``Wuping Court Detains Another 2 People, Special Action To 
Forcibly Collect Social Compensation Fees Continues According to Law!'' 
[Wuping fayuan you ju 2 ren yifa qiangzhi zhengshou shehui fuyang fei 
zhuanxiang xingdong zai chixu!], Taihai Net, 15 November 16.
    \7\ See, e.g., Sun Ruili and Li Jin, ``Man Forcibly Sterilized in 
Zhenxiong, Yunnan: [I] Never Want To Go Back to That Place Again'' 
[Yunnan zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui 
nage difang], Beijing News, 14 February 17; ``Wuping Court Detains 
Another 2 People, Special Action To Forcibly Collect Social 
Compensation Fees Continues According to Law!'' [Wuping fayuan you ju 2 
ren yifa qiangzhi zhengshou shehui fuyang fei zhuanxiang xingdong zai 
chixu!], Taihai Net, 15 November 16.
    \8\ See, e.g., Sun Ruili and Li Jin, ``Man Forcibly Sterilized in 
Zhenxiong, Yunnan: [I] Never Want To Go Back to That Place Again'' 
[Yunnan zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui 
nage difang], Beijing News, 14 February 17; Zhao Meng and Fu Danni, 
``Sterilization Quotas Endure in Two-Child Policy Era,'' Sixth Tone, 22 
February 17.
    \9\ See, e.g., John Sudworth, ``China's Forbidden Babies Still an 
Issue,'' BBC, 28 October 16. See also Reggie Littlejohn, Women's Rights 
Without Frontiers, ``Will You Let Them Get Away With This? '' 19 
December 16.
    \10\ Beijing Declaration and Platform for Action, adopted at the 
Fourth World Conference on Women on 15 September 95, and endorsed by UN 
General Assembly resolution 50/203 on 22 December 95, paras. 9(Annex 
1), 17. The Beijing Declaration states that governments which 
participated in the Fourth World Conference on Women reaffirmed their 
commitment to ``[e]nsure the full implementation of the human rights of 
women and of the girl child as an inalienable, integral and indivisible 
part of all human rights and fundamental freedoms;'' (para. 9) and 
``[t]he explicit recognition and reaffirmation of the right of all 
women to control all aspects of their health, in particular their own 
fertility, is basic to their empowerment (para. 17). Programme of 
Action adopted by the Cairo International Conference on Population and 
Development, 13 September 94, paras. 7.2, 8.25. Paragraph 7.2 states, 
``Reproductive health therefore implies that people . . . have the 
capability to reproduce and the freedom to decide if, when and how 
often to do so. Implicit in this last condition are the right of men 
and women to be informed and to have access to safe, effective, 
affordable and acceptable methods of family planning of their choice . 
. ..'' Paragraph 8.25 states, ``In no case should abortion be promoted 
as a method of family planning.'' For coercive controls imposed on 
Chinese women and their families, see, e.g., Wang Lianzhang, ``Chinese 
Father of Four Forced To Undergo Vasectomy,'' Sixth Tone, 14 February 
17; John Sudworth, ``China's Forbidden Babies Still an Issue,'' BBC, 28 
October 16; ``Wuping Court Detains Another 2 People, Special Action To 
Forcibly Collect Social Compensation Fees Continues According to Law!'' 
[Wuping fayuan you ju 2 ren yifa qiangzhi zhengshou shehui fuyang fei 
zhuanxiang xingdong zai chixu!], Taihai Net, 15 November 16; Zhao Meng 
and Fu Danni, ``Sterilization Quotas Endure in Two-Child Policy Era,'' 
Sixth Tone, 22 February 17.
    \11\ United Nations, Report of the Fourth World Conference on 
Women, A/CONF.177/20/Rev.1, 27 October 95, chap. II, para. 3; chap. VI, 
para. 12. China was one of the participating States at the Fourth World 
Conference on Women, which adopted the Beijing Declaration and Platform 
for Action. United Nations Population Information Network, Report of 
the International Conference on Population and Development (ICPD), A/
Conf.171/13, 18 October 94, chap. II, sec. C; chap. VI, sec. 1. China 
was one of the participating States at the ICPD, which reached general 
agreement on the Programme of Action. The Programme of Action is 
provided as an annex to the above ICPD report.
    \12\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
1; UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 51. In 2016, the UN Committee against Torture noted its concern 
regarding ``reports of coerced sterilization and forced abortions, and 
regrets the lack of information on the number of investigations into 
such allegations . . . [and] the lack of information regarding redress 
provided to victims of past violations.'' For acts of coercion 
committed in the implementation of population planning policies, see, 
e.g., Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17; Zhao Meng and Fu Danni, 
``Sterilization Quotas Endure in Two-Child Policy Era,'' Sixth Tone, 22 
February 17.
    \13\ United Nations Treaty Collection, Chapter IV, Human Rights, 
Convention against Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, last visited 22 March 17. China signed the 
Convention on December 12, 1986, and ratified it on October 4, 1988.
    \14\ UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16.
    \15\ Ibid., para. 51.
    \16\ ``What's It Like To Be an `Invisible' Child Under China's One-
Child Policy? '' Catholic News Agency, 5 March 17; Wang Ling, 
``Population Report to the Decisionmaking Level, Proposes To 
Immediately Implement Universal Two-Child [Policy]'' [Renkou baogao 
shangdi juece ceng jianyi liji fangkai quanmian sheng erhai], China 
Business Network, 16 October 15; Olivia Lowenberg, ``Why China Is 
Shifting to a `Two-Child' Policy,'' Christian Science Monitor, Global 
News Blog, 21 October 15.
    \17\ Chinese Communist Party Central Committee, ``Chinese Communist 
Party 18th Party Congress Fifth Plenum Announcement,'' [Zhongguo 
gongchandang di shiba jie zhongyang weiyuanhui di wu ci quanti huiyi 
gongbao], 29 October 15; Peng Xiaofei et al., ``China To Adopt 
Universal `Two-Child' Policy'' [Woguo quanmian fangkai ``erhai'' 
zhengce], Beijing Youth Daily, 30 October 15.
    \18\ National People's Congress Standing Committee, Decision on 
Amending the Population and Family Planning Law [Quanguo renda 
changweihui guanyu xiugai renkou yu jihua shengyu fa de jueding], 
issued 27 December 15; PRC Population and Family Planning Law [Zhonghua 
renmin gongheguo renkou yu jihua shengyu fa], passed 29 December 01, 
amended 27 December 15, effective 1 January 16.
    \19\ ``Social Compensation Fee [Collection] Standards Clearly 
Defined in 25 Provinces, How Much Is the Excess Birth Fine in Your 
Hometown? '' [25 shengfen mingque shehui fuyang fei biaozhun ni de 
jiaxiang chaosheng fa duoshao?], People's Daily, reprinted in Beijing 
Daily, 3 August 17.
    \20\ State Council, National Population Development Plan (2016-
2030) [Guojia renkou fazhan guihua (2016-2030 nian)], issued 30 
December 16, chaps. 2(1), 3(1); National Health and Family Planning 
Commission, ``December 12, 2016, National Health and Family Planning 
Commission Regular Press Conference Text Record'' [2016 nian 12 yue 12 
ri guojia weisheng jishengwei lixing xinwen fabuhui wenzi shilu], 12 
December 16; National Health and Family Planning Commission, ``State 
Council Policy Regular Press Conference: `13th Five-Year Plan' Health 
Plan and Deepening Medical and Health System Reform Plan During the 
`13th Five-Year Plan' Period'' [Guowuyuan zhengce lixing chuifeng hui: 
`` `shisan wu' weisheng yu jiankang guihua'' ji `` `shisan wu' qijian 
shenhua yiyao weisheng tizhi gaige guihua'' youguan qingkuang], 23 
December 16.
    \21\ National Health and Family Planning Commission, ``National 
Health and Family Planning Commission General Office Bulletin on the 
State of Supervision and Inspection Work on the `Population and Family 
Planning Law' '' [Guojia weisheng jisheng wei bangong ting guanyu 
``renkou yu jihua shengyu fa'' jiandu jiancha gongzuo qingkuang de 
tongbao], 3 March 17, sec. 3(4); National Health and Family Planning 
Commission, ``January 2017 Regular Press Conference Document Two: 
National Health and Family Planning Work Meeting Arranges Key Tasks for 
2017'' [2017 nian 1 yue lixing xinwen fabuhui cailiao er: quanguo 
weisheng jisheng gongzuo huiyi bushu 2017 nian zhongdian renwu], 9 
January 17; State Council, `` `13th Five-Year Plan' Health and Wellness 
Plan'' [``Shisan wu'' weisheng yu jiankang guihua], 27 December 17, 
sec. 3(6).
    \22\ See e.g., Reggie Littlejohn et al., ``Continued Coercion: 
China's Two-Child Policy Threatens Human Rights and Prosperity'' 
[Webcast], Heritage Foundation, Washington, D.C., 8 March 17; Jonathan 
Abbamonte, ``Women Continue To Face Coercion, Crippling Fines Under 
Two-Child Policy,'' Epoch Times, 29 November 16; Zhang Jing, Women's 
Rights in China, ``Can Implementing the Two-Child Policy Improve 
China's Human Rights Conditions? '' [Kaifang erhai zhengce neng gaishan 
zhongguo renquan zhuangkuang ma?], 4 October 16; ``China Birth Rate Up 
After One-Child Rule Change,'' BBC, 23 January 17.
    \23\ National Health and Family Planning Commission, ``Text Record 
of Director Li Bin and Others Answering Journalists' Questions 
Regarding `The Implementation of the Universal Two-Child Policy' '' [Li 
bin zhuren deng jiu ``shishi quanmian lianghai zhengce'' da jizhe wen 
wenzi shilu], 8 March 16.
    \24\ ``Chinese Officials Say, Three Million Additional Births Per 
Year With the Universal Two-Child Policy'' [Zhongguo guanfang shuo, 
kaifang ertai meinian duo sheng sanbai wan ren], Radio Free Asia, 10 
November 15.
    \25\ National Health and Family Planning Commission, ``Department 
of Community Family Planning Official Answers Questions From Health 
News and China Population Daily Journalists Regarding the Number of 
Births in 2015'' [Zhidaosi fuzeren jiu 2015 nian chusheng renkou shu da 
jiankang bao, zhongguo renkou bao jizhe wen], 20 January 16.
    \26\ National Bureau of Statistics of China, ``National Economy 
Achieved a Good Start for the `13th Five-Year Plan' Period in 2016'' 
[2016 nian guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 
January 17; Shan Juan, ``Second-Child Policy Increases Births by 7.9 
Percent,'' China Daily, 23 January 17. For the total number of births 
in 2015, see National Bureau of Statistics of China, ``National Economy 
Making Steady Progress, Stable in 2015'' [2015 nian guomin jingji 
yunxing wenzhong youjin, wenzhong youhao], 19 January 16.
    \27\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17. For an 
estimate of the total number of births in 2015, see National Bureau of 
Statistics of China, ``National Economy Making Steady Progress, Stable 
in 2015'' [2015 nian guomin jingji yunxing wenzhong youjin, wenzhong 
youhao], 19 January 16.
    \28\ Huang Ying, ``NHFPC: Universal Two-Child Policy Implemented 
for One Year, 18.64 Million Newborns'' [Guojia weijiwei: quanmian erhai 
shixing yi nian xinsheng ying'er 1864 wan], Beijing News, 11 March 17. 
See also `` `Universal Two-Child Policy' Implemented, Chinese 
Population Grows by Only One Million, Much Lower Than Expected'' 
[``Quanmian erhai'' shanglu zhongguo renkou jin zeng yibai wan yuan di 
yu yuqi], Bowen Press, 10 January 17; Deng Xiaoci, ``Two-Child Policy 
Brings China 1 Million More Newborns in 2016,'' Global Times, 15 
December 16.
    \29\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; Scott 
Cendrowski, ``China's Landmark One-Child Policy Reversal Doesn't Seem 
To Be Working,'' Fortune, 24 February 17; Shan Juan, ``Second-Child 
Policy Increases Births by 7.9 Percent,'' China Daily, 23 January 17.
    \30\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17.
    \31\ Ibid.; Li Hongmei, ``China's Two-Child Policy Shows Evident 
Effects,'' People's Daily, reprinted in Global Times, 28 February 17.
    \32\ See, e.g., Scott Cendrowski, ``China's Landmark One-Child 
Policy Reversal Doesn't Seem To Be Working,'' Fortune, 24 February 17; 
State Council, National Population Development Plan (2016-2030) [Guojia 
renkou fazhan guihua (2016-2030 nian)], issued 30 December 16; Mu 
Guangzong, ``Two-Child Policy Has Demographic Limits,'' China Daily, 26 
December 16; John Clinkard, ``Below Replacement Birth Rates in China 
and Japan Colour Their Future Population Grey,'' Daily Commercial News, 
9 February 17.
    \33\ Scott Cendrowski, ``China's Landmark One-Child Policy Reversal 
Doesn't Seem To Be Working,'' Fortune, 24 February 17; John Clinkard, 
``Below Replacement Birth Rates in China and Japan Colour Their Future 
Population Grey,'' Daily Commercial News, 9 February 17; ``Lifting the 
One-Child Policy Fails To Stem China's Population Woes,'' World Weekly, 
2 March 17.
    \34\ State Council, National Population Development Plan (2016-
2030) [Guojia renkou fazhan guihua (2016-2030 nian)], issued 30 
December 16; Mu Guangzong, ``Two-Child Policy Has Demographic Limits,'' 
China Daily, 26 December 16; Ko Tin-yau, ``Why China's Baby Boom May 
Not Last Long,'' Hong Kong Economic Journal, 25 January 17.
    \35\ Zhuang Pinghui and Josh Ye, ``China Sees 1.3 Million More New 
Babies in 2016 . . . But Workforce Shrinks As Population Ages,'' South 
China Morning Post, 22 January 17.
    \36\ `` `Universal Two-Child Policy' Implemented, Chinese 
Population Grows by Only One Million, Much Lower Than Expected'' 
[``Quanmian erhai'' shanglu zhongguo renkou jin zeng yibai wan yuan di 
yu yuqi], Bowen Press, 10 January 17; Andrew Mason, ``Strategies for 
Addressing Demographic Challenges,'' China Daily, 10 January 17; Deng 
Xiaoci, ``Two-Child Policy Brings China 1 Million More Newborns in 
2016,'' Global Times, 15 December 16.
    \37\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; Huang Ying, 
``NHFPC: Universal Two-Child Policy Implemented for One Year, 18.64 
Million Newborns'' [Guojia weijiwei: quanmian erhai shixing yi nian 
xinsheng ying'er 1864 wan], Beijing News, 11 March 17; Li Hongmei, 
``China's Two-Child Policy Shows Evident Effects,'' People's Daily, 
reprinted in Global Times, 28 February 17.
    \38\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; Li Hongmei, 
``China's Two-Child Policy Shows Evident Effects,'' People's Daily, 
reprinted in Global Times, 28 February 17; All-China Women's 
Federation, ``Joining Efforts To Safeguard Women's Rights in 2nd-Child 
Policy Era,'' 20 January 17; Huang Ying, ``NHFPC: Universal Two-Child 
Policy Implemented for One Year, 18.64 Million Newborns'' [Guojia 
weijiwei: quanmian erhai shixing yi nian xinsheng ying'er 1864 wan], 
Beijing News, 11 March 17.
    \39\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17.
    \40\ Ibid.; Huang Ying, ``NHFPC: Universal Two-Child Policy 
Implemented for One Year, 18.64 Million Newborns'' [Guojia weijiwei: 
quanmian erhai shixing yi nian xinsheng ying'er 1864 wan], Beijing 
News, 11 March 17; Li Hongmei, ``China's Two-Child Policy Shows Evident 
Effects,'' People's Daily, reprinted in Global Times, 28 February 17.
    \41\ Yanzhong Huang, ``China's New Two Child Policy: Too Little, 
Too Late,'' Council on Foreign Relations, Asia Unbound (blog), 1 
December 16. See also Simon Denyer and Congcong Zhang, ``China Drops 
One-Child Policy, but `Exhausted' Tiger Moms Say One Is Plenty,'' 
Washington Post, 16 October 16.
    \42\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; State 
Council, `` `13th Five-Year Plan' Health and Wellness Plan'' [``Shisan 
wu'' weisheng yu jiankang guihua], 27 December 17, sec. 3(6); Huang 
Ying, ``NHFPC: Universal Two-Child Policy Implemented for One Year, 
18.64 Million Newborns'' [Guojia weijiwei: quanmian erhai shixing yi 
nian xinsheng ying'er 1864 wan], Beijing News, 11 March 17.
    \43\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; State 
Council, `` `13th Five-Year Plan' Health and Wellness Plan'' [``Shisan 
wu'' weisheng yu jiankang guihua], 27 December 17, sec. 3(6); State 
Council, National Population Development Plan (2016-2030) [Guojia 
renkou fazhan guihua (2016-2030 nian)], issued 30 December 16.
    \44\ Huang Ying, ``NHFPC: Universal Two-Child Policy Implemented 
for One Year, 18.64 Million Newborns'' [Guojia weijiwei: quanmian erhai 
shixing yi nian xinsheng ying'er 1864 wan], Beijing News, 11 March 17; 
National Health and Family Planning Commission, ``Text Record of 
January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17.
    \45\ State Council, `` `13th Five-Year Plan' Health and Wellness 
Plan'' [``Shisan wu'' weisheng yu jiankang guihua], 27 December 17, 
sec. 3(6); National Health and Family Planning Commission, ``January 
2017 Regular Press Conference Document Two: National Health and Family 
Planning Work Meeting Arranges Key Tasks for 2017'' [2017 nian 1 yue 
lixing xinwen fabuhui cailiao er: quanguo weisheng jisheng gongzuo 
huiyi bushu 2017 nian zhongdian renwu], 9 January 17, para. 3; Chinese 
Communist Party Central Committee and State Council, Decision Regarding 
the Implementation of the Universal Two-Child Policy and Reform and 
Improvement of Family Planning Service Management [Guanyu shishi 
quanmian lianghai zhengce gaige wanshan jihua shengyu fuwu guanli de 
jueding], issued 31 December 15, sec. 3(8); Department of 
Communications, National Health and Family Planning Commission, 
``January 15, 2016, NHFPC's Regular Press Conference Text Record'' 
[2016 nian 1 yue 15 ri guojia weisheng jisheng wei lixing xinwen fabu 
hui wenzi shilu], 15 January 16.
    \46\ See, e.g., Jiang Dahong and Wang Yue, ``Some Required More 
Than 40 Seals, Some Had Not Obtained [Birth Permits] After the Children 
Were Born'' [You de yao gai 40 duo ge zhang, you de haizi sheng le hai 
mei na dao shou], Life Times, 20 November 12. See also CECC, 2015 
Annual Report, 8 October 15, 145.
    \47\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39.
    \48\ For examples of provincial-level population planning 
regulations instructing officials to carry out abortions, see Jiangxi 
Province People's Congress Standing Committee, Jiangxi Province 
Population and Family Planning Regulations [Jiangxi sheng renkou yu 
jihua shengyu tiaoli], issued 16 June 90, amended 30 June 95, 20 June 
97, 29 July 02, 27 March 09, 16 January 14, 20 January 16, art. 15; 
Hubei Province People's Congress Standing Committee, Hubei Province 
Population and Family Planning Regulations [Hubei sheng renkou yu jihua 
shengyu tiaoli], issued 1 December 02, amended 29 November 08, 30 July 
10, 27 March 14, 13 January 16, art. 12. See also Judith Banister and 
Christina Wu Harbaugh, Center for International Research, Bureau of the 
Census, ``China's Family Planning Program: Inputs and Outcomes,'' June 
1994, iv. For some examples of local family planning agencies 
instructing officials to carry out abortions, see Yongshun County 
People's Government, Yongshun County People's Government Office 
Circular Regarding Carrying Out 2017 Annual Winter Population and 
Family Planning Quality Service Activities [Yongshun xian renmin 
zhengfu bangongshi guanyu kaizhan 2017 niandu dongji renkou he jihua 
shengyu youzhi fuwu huodong de tongzhi], 10 November 16, sec. 3(2); 
Chongyi County Health and Family Planning Commission, ``Chongyi County 
Health and Family Planning Commission 2016 Draft Budget Instructions'' 
[Chongyi xian weijiwei 2016 nian bumen yusuan cao'an bianzhi shuoming], 
5 January 17, sec. 2(8). See also Yu Han, ``Chinese People Suffer From 
Family Planning [Policy's] Forced Sterilizations and Abortions'' [Jihua 
shengyu qiangzhi jiezha renliu hai ku le zhongguo ren], Tencent, 15 
June 12.
    \49\ CECC, 2016 Annual Report, 6 October 16, 149-50; CECC, 2015 
Annual Report, 8 October 15, 146; CECC, 2014 Annual Report, 9 October 
14, 104; CECC, 2013 Annual Report, 10 October 13, 100; CECC, 2012 
Annual Report, 10 October 12, 91; CECC, 2011 Annual Report, 10 October 
11, 111; CECC, 2010 Annual Report, 10 October 10, 118.
    \50\ See, e.g., Lin Shengdong, Haikou Municipality Population and 
Family Planning Commission, ``Impose Responsibility, Promote 
Rectification--Changliu Township of Xiuying District Convenes Family 
Planning Work Promotion Meeting'' [Yashi zeren, tuijin zhenggai--
xiuying qu changliu zhen zhaokai renkou jisheng gongzuo tuijin hui], 8 
March 17. See also Yu Han, ``Chinese People Suffer From Family Planning 
[Policy's] Forced Sterilizations and Abortions'' [Jihua shengyu 
qiangzhi jiezha renliu hai ku le zhongguo ren], Tencent, 15 June 12.
    \51\ See, e.g., Moling Township Communist Party Committee and 
Government Office, ``Moling Township's Carrying Out of Spring Family 
Planning Centralized Service Activities Welcomed'' [Moling zhen kaizhan 
chunji jihua shengyu jizhong fuwu huodong shou huanying], reprinted in 
Xiangcheng People's Government, 28 March 17. See also Judith Banister 
and Christina Wu Harbaugh, Center for International Research, Bureau of 
the Census, ``China's Family Planning Program: Inputs and Outcomes,'' 
June 1994, iv.
    \52\ See, e.g., Zitongya Village Party Branch, Zitongya Village 
Committee, ``Zitongya Village Family Planning Work Report'' [Zitongya 
cun jihua shengyu gongzuo qingkuang baogao], 13 October 16. See also Yu 
Han, ``Chinese People Suffer From Family Planning [Policy's] Forced 
Sterilizations and Abortions'' [Jihua shengyu qiangzhi jiezha renliu 
hai ku le zhongguo ren], Tencent, 15 June 12.
    \53\ See, e.g., Wang Bin and Zhu Mingde, ``Yintang Township's 
`Three Clearings and Three Implementations' Special Campaign Achieved 
Tangible Results'' [Yintang xiang ``san qing san shi'' zhuanxiang 
xingdong qude shixiao], Shuangfeng Net, 28 March 17. See also Yu Han, 
``Chinese People Suffer From Family Planning [Policy's] Forced 
Sterilizations and Abortions'' [Jihua shengyu qiangzhi jiezha renliu 
hai ku le zhongguo ren], Tencent, 15 June 12; Yongshun County People's 
Government, Yongshun County People's Government Office Circular 
Regarding Carrying Out 2017 Annual Winter Population and Family 
Planning Quality Service Activities [Yongshun xian renmin zhengfu 
bangongshi guanyu kaizhan 2017 niandu dongji renkou he jihua shengyu 
youzhi fuwu huodong de tongzhi], 10 November 16, sec. 3(2). See also 
Judith Banister and Christina Wu Harbaugh, Center for International 
Research, Bureau of the Census, ``China's Family Planning Program: 
Inputs and Outcomes,'' June 1994, iv.
    \54\ See, e.g., Chongyi County Health and Family Planning 
Commission, ``Chongyi County Health and Family Planning Commission 2016 
Draft Budget Instructions'' [Chongyi xian weijiwei 2016 nian bumen 
yusuan cao'an bianzhi shuoming], 5 January 17, sec. 2(8); Wen Yan, 
Xiushui County Communist Party and Government, ``Based on Practice, 
Rely on Strength, Use Innovative Ideas To Promote the Economic and 
Social Development of Huanggang'' [Lizu shijian yituo youshi yi 
chuangxin linian tuidong huanggang jingji shehui fazhan], 31 October 
16, sec. 4(4). See also Yu Han, ``Chinese People Suffer From Family 
Planning [Policy's] Forced Sterilizations and Abortions'' [Jihua 
shengyu qiangzhi jiezha renliu hai ku le zhongguo ren], Tencent, 15 
June 12.
    \55\ Shi Zhenghai, Kapu Ethnic Mao'nan Township Government, ``Kapu 
Ethnic Mao'nan Township Implements the Spirit of the Countywide Family 
Planning Promotion Meeting and Convenes the Family Planning Work 
Deployment Meeting'' [Kapu maonan zu xiang guanche luoshi quanxian 
jihua shengyu tuijin huiyi jingshen ji zhaokai jihua shengyu gongzuo 
bushu hui], reprinted in Pingtang County People's Government, 22 March 
17. See also Yang Zhihui and Zhang Donghong, ``Yang Yiwen: Know Shame 
and Have Courage, Spare No Efforts To Fight Well and Win the Battle'' 
[Yang yiwen: zhichi houyong quanli yifu dahao daying fanshen zhang], 
Red Net, 20 February 17; Lin Shengdong, Haikou Municipality Population 
and Family Planning Commission, ``Impose Responsibility, Promote 
Rectification--Changliu Township of Xiuying District Convenes Family 
Planning Work Promotion Meeting'' [Yashi zeren, tuijin zhenggai--
xiuying qu changliu zhen zhaokai renkou jisheng gongzuo tuijin hui], 8 
March 17.
    \56\ Yongshun County People's Government, Yongshun County People's 
Government Office Circular Regarding Carrying Out 2017 Annual Winter 
Population and Family Planning Quality Service Activities [Yongshun 
xian renmin zhengfu bangongshi guanyu kaizhan 2017 niandu dongji renkou 
he jihua shengyu youzhi fuwu huodong de tongzhi], 10 November 16, sec. 
3(2); Wen Yan, Xiushui County Communist Party and Government, ``Based 
on Practice, Rely on Strength, Use Innovative Ideas To Promote the 
Economic and Social Development of Huanggang'' [Lizu shijian yituo 
youshi yi chuangxin linian tuidong huanggang jingji shehui fazhan], 31 
October 16, sec. 4(4); Chongyi County Health and Family Planning 
Commission, ``Chongyi County Health and Family Planning Commission 2016 
Draft Budget Instructions'' [Chongyi xian weijiwei 2016 nian bumen 
yusuan cao'an bianzhi shuoming], 5 January 17, sec. 2(8).
    \57\ Yang Zhihui and Zhang Donghong, ``Yang Yiwen: Know Shame and 
Have Courage, Spare No Efforts To Fight Well and Win the Battle'' [Yang 
yiwen: zhichi houyong quanli yifu dahao daying fanshen zhang], Red Net, 
20 February 17; Wang Rong et al., Yuyang District People's Government, 
``Yuyang District Convenes Population and Family Planning Work 
Meeting'' [Woqu zhaokai renkou he jihua shengyu gongzuo huiyi], 19 
March 17.
    \58\ See, e.g., CECC, 2016 Annual Report, 6 October 16, 150; CECC, 
2015 Annual Report, 8 October 15, 146; CECC, 2014 Annual Report, 9 
October 14, 104; CECC, 2013 Annual Report, 10 October 13, 100.
    \59\ See, e.g., Zitongya Village Party Branch, Zitongya Village 
Committee, ``Zitongya Village Family Planning Work Report'' [Zitongya 
cun jihua shengyu gongzuo qingkuang baogao], 13 October 16; Wang Rong 
et al., Yuyang District People's Government, ``Yuyang District Convenes 
Population and Family Planning Work Meeting'' [Woqu zhaokai renkou he 
jihua shengyu gongzuo huiyi], 19 March 17.
    \60\ See, e.g., Wang Rong et al., Yuyang District People's 
Government, ``Yuyang District Convenes Population and Family Planning 
Work Meeting'' [Woqu zhaokai renkou he jihua shengyu gongzuo huiyi], 19 
March 17.
    \61\ See, e.g., Yongshun County People's Government, Yongshun 
County People's Government Office Circular Regarding Carrying Out 2017 
Annual Winter Population and Family Planning Quality Service Activities 
[Yongshun xian renmin zhengfu bangongshi guanyu kaizhan 2017 niandu 
dongji renkou he jihua shengyu youzhi fuwu huodong de tongzhi], 10 
November 16.
    \62\ Ibid.; Lin Shengdong, Haikou Municipality Population and 
Family Planning Commission, ``Impose Responsibility, Promote 
Rectification--Changliu Township of Xiuying District Convenes Family 
Planning Work Promotion Meeting'' [Yashi zeren, tuijin zhenggai--
xiuying qu changliu zhen zhaokai renkou jisheng gongzuo tuijin hui], 8 
March 17.
    \63\ See, e.g., Shen Yantong, Qingyuan County People's Government, 
``Lingtou Township Actively Carries Out Spring `Three Inspections' 
Service Work for Women of Child-Bearing Age'' [Lingtou xiang jiji 
kaizhan chunji yuling funu ``san cha'' fuwu gongzuo], 22 March 17; Li 
Xiaoxia, Wujiagang District People's Government, ``Family Planning 
Service Down to the Grassroots, `Three Inspections' Event Warms 
People's Hearts'' [Jisheng fuwu song xiaxiang ``san cha'' huodong nuan 
ren xin], 27 March 17. See also Ma Jian, Women's Rights in China, 
``Investigation Into the `Three Inspections' of Rural Family Planning'' 
[Nongcun jihua shengyu zhong de ``san cha'' qingkuang diaocha], 
reprinted in Boxun, 15 April 09.
    \64\ See, e.g., Lin Shengdong, Haikou Municipality Population and 
Family Planning Commission, ``Impose Responsibility, Promote 
Rectification--Changliu Township of Xiuying District Convenes Family 
Planning Work Promotion Meeting'' [Yashi zeren, tuijin zhenggai--
xiuying qu changliu zhen zhaokai renkou jisheng gongzuo tuijin hui], 8 
March 17; Wen Yan, Xiushui County Communist Party and Government, 
``Based on Practice, Rely on Strength, Use Innovative Ideas To Promote 
the Economic and Social Development of Huanggang'' [Lizu shijian yituo 
youshi yi chuangxin linian tuidong huanggang jingji shehui fazhan], 31 
October 16, sec. 4(4). See also Yu Han, ``Chinese People Suffer From 
Family Planning [Policy's] Forced Sterilizations and Abortions'' [Jihua 
shengyu qiangzhi jiezha renliu hai ku le zhongguo ren], Tencent, 15 
June 12.
    \65\ See, e.g., Yongshun County People's Government, Yongshun 
County People's Government Office Circular Regarding Carrying Out 2017 
Annual Winter Population and Family Planning Quality Service Activities 
[Yongshun xian renmin zhengfu bangongshi guanyu kaizhan 2017 niandu 
dongji renkou he jihua shengyu youzhi fuwu huodong de tongzhi], 10 
November 16; Wen Yan, Xiushui County Communist Party and Government, 
``Based on Practice, Rely on Strength, Use Innovative Ideas To Promote 
the Economic and Social Development of Huanggang'' [Lizu shijian yituo 
youshi yi chuangxin linian tuidong huanggang jingji shehui fazhan], 31 
October 16, sec. 4(4). ``Social compensation fees'' are also known as 
``social maintenance fees.''
    \66\ Fan Yuedong and Hu Hongtao, Statistical Bureau of Shaoyang 
Municipality, ``Study on the Effectiveness of Universal Two-Child 
Policy Implementation in Shaoyang Municipality'' [Shaoyang shi quanmian 
lianghai zhengce shishi xiaoguo diaocha], reprinted in Statistical 
Bureau of Hunan Province, 2 August 17.
    \67\ Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17; Sun Ruili and Li Jin, ``Man 
Forcibly Sterilized in Zhenxiong, Yunnan: [I] Never Want To Go Back to 
That Place Again'' [Yunnan zhenxiong bei qiangzhi jieza nanzi: yibeizi 
buxiang zai hui nage difang], Beijing News, 14 February 17.
    \68\ Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17.
    \69\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui nage 
difang], Beijing News, 14 February 17.
    \70\ Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17; Sun Ruili and Li Jin, ``Man 
Forcibly Sterilized in Zhenxiong, Yunnan: [I] Never Want To Go Back to 
That Place Again'' [Yunnan zhenxiong bei qiangzhi jieza nanzi: yibeizi 
buxiang zai hui nage difang], Beijing News, 14 February 17.
    \71\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui nage 
difang], Beijing News, 14 February 17.
    \72\ Ibid.
    \73\ Wang Lianzhang, ``Chinese Father of Four Forced To Undergo 
Vasectomy,'' Sixth Tone, 14 February 17.
    \74\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui nage 
difang], Beijing News, 14 February 17.
    \75\ Zhao Meng and Fu Danni, ``Sterilization Quotas Endure in Two-
Child Policy Era,'' Sixth Tone, 22 February 17.
    \76\ Ibid.
    \77\ Ibid.
    \78\ Zhang Fan, ``Man Did Not Sign Consent Document Prior to 
Operation, Relevant Accountability [Measures] Already Initiated'' 
[Nanzi shu qian wei qian tongyi shu yi qidong xiangguan wenze], Beijing 
Youth Daily, 1 March 17.
    \79\ Ibid.
    \80\ State Council, Measures for Administration of Collection of 
Social Maintenance Fees [Shehui fuyang fei zhengshou guanli banfa], 
issued 2 August 02, effective 1 September 02, arts. 3, 7. See also PRC 
Population and Family Planning Law [Zhonghua renmin gongheguo renkou yu 
jihua shengyu fa], passed 29 December 01, amended 27 December 15, 
effective 1 January 16, arts. 18, 41.
    \81\ See, e.g., John Sudworth, ``China's Forbidden Babies Still an 
Issue,'' BBC, 28 October 16; ``Two-Child Policy Implemented for 10 
Months, Questioning Again the Social Compensation Fees'' [Erhai zhengce 
luodi shi yue zai wen shehui fuyang fei], Radio Free Asia, 7 October 
16.
    \82\ ``Wuping Court Detains Another 2 People, Special Action To 
Forcibly Collect Social Compensation Fees Continues According to Law!'' 
[Wuping fayuan you ju 2 ren yifa qiangzhi zhengshou shehui fuyang fei 
zhuanxiang xingdong zai chixu!], Taihai Net, 15 November 16.
    \83\ Ibid.
    \84\ Ibid.
    \85\ Wang Ling, ``NHFPC: Administrative Lawsuits Related to Social 
Compensation Fees Increase in Some Areas'' [Weijiwei: bufen diqu shehui 
fuyang fei xiangguan xingzheng susong anjian zengjia], Chinese Business 
Network, 4 March 17; Wang Ling, ``More `Second Child Born Before Policy 
Became Effective' Cases Nationwide, Need To Make Clear Whether To Keep 
or Abolish Social Compensation Fees'' [Quanguo ``qiang sheng erhai'' 
anjian zengduo shehui fuyang fei cun fei dai mingque], China Business 
Network, 24 March 17; ``Zhejiang Couples Fined for `Giving Birth' 
Before the Two-Child Policy Became Effective, Lawsuit Filed Against 
Family Planning Agencies'' [Zhejiang fuqi zai erhai zhengce qian 
``qiang sheng'' bei fa qisu jisheng bumen], China Youth Daily, 24 March 
17.
    \86\ ``Zhejiang Couples Fined for `Giving Birth' Before the Two-
Child Policy Became Effective, Lawsuit Filed Against Family Planning 
Agencies'' [Zhejiang fuqi zai erhai zhengce qian ``qiang sheng'' bei fa 
qisu jisheng bumen], China Youth Daily, 24 March 17; Wang Ling, ``More 
`Second Child Born Before Policy Became Effective' Cases Nationwide, 
Need To Make Clear Whether To Keep or Abolish Social Compensation 
Fees'' [Quanguo ``qiang sheng erhai'' anjian zengduo shehui fuyang fei 
cun fei dai mingque], China Business Network, 24 March 17.
    \87\ Wang Zhongde, ``Social Compensation Fees Associated with 
`Illegal' Second Child, Need To Question Whether Policy [Is 
Implemented] in Good Faith'' [``Weifa'' sheng erhai de shehui fuyang 
fei xu kaowen zhengce shanyi], Guangming Net, 3 February 17; Wang Ling, 
``More `Second Child Born Before Policy Became Effective' Cases 
Nationwide, Need To Make Clear Whether To Keep or Abolish Social 
Compensation Fees'' [Quanguo ``qiang sheng erhai'' anjian zengduo 
shehui fuyang fei cun fei dai mingque], China Business Network, 24 
March 17; Ma Weihui, ``Zhou Guangquan: Not Good To Pursue Collection of 
Social Compensation Fees for Violators Who Did Not Pay for the Second 
Child Born in Excess of Birth Quota'' [Zhou guangquan: shangwei shi 
jiao de ertai chaosheng shehui fuyang fei buyi zai zhuishou], China 
Times, 8 March 17.
    \88\ Wang Ling, ``More `Second Child Born Before Policy Became 
Effective' Cases Nationwide, Need To Make Clear Whether To Keep or 
Abolish Social Compensation Fees'' [Quanguo ``qiang sheng erhai'' 
anjian zengduo shehui fuyang fei cun fei dai mingque], China Business 
Network, 24 March 17; Wang Ling, ``NHFPC: Administrative Lawsuits 
Related to Social Compensation Fees Increase in Some Areas'' [Weijiwei: 
bufen diqu shehui fuyang fei xiangguan xingzheng susong anjian 
zengjia], Chinese Business Network, 4 March 17.
    \89\ Wang Ling, ``More `Second Child Born Before Policy Became 
Effective' Cases Nationwide, Need To Make Clear Whether To Keep or 
Abolish Social Compensation Fees'' [Quanguo ``qiang sheng erhai'' 
anjian zengduo shehui fuyang fei cun fei dai mingque], China Business 
Network, 24 March 17; See also Wang Ling, ``Reporter Observations: Why 
Haven't Regulations on the Management of Social Compensation Fee 
Collection Been Issued? '' [Jizhe guancha: shehui fuyang fei zhengshou 
guanli tiaoli weihe nanchan?], China Business Network, 17 February 16.
    \90\ Sun Ruili and Li Jin, ``Man Forcibly Sterilized in Zhenxiong, 
Yunnan: [I] Never Want To Go Back to That Place Again'' [Yunnan 
zhenxiong bei qiangzhi jieza nanzi: yibeizi buxiang zai hui nage 
difang], Beijing News, 14 February 17.
    \91\ Ibid.; Wang Lianzhang, ``Chinese Father of Four Forced To 
Undergo Vasectomy,'' Sixth Tone, 14 February 17.
    \92\ John Sudworth, ``China's Forbidden Babies Still an Issue,'' 
BBC, 28 October 16.
    \93\ PRC Population and Family Planning Law [Zhonghua renmin 
gongheguo renkou yu jihua shengyu fa], passed 29 December 01, amended 
27 December 15, effective 1 January 16, arts. 4, 39(1-2). Article 4 of 
the PRC Population and Family Planning Law states that officials 
``shall perform their family planning work duties strictly in 
accordance with the law, and enforce the law in a civil manner, and 
they may not infringe upon the legitimate rights and interests of 
citizens.'' Article 39 states that an official is subject to criminal 
or administrative punishment if he ``infringe[s] on a citizen's 
personal rights, property rights, or other legitimate rights and 
interests'' or ``abuse[s] his power, neglect[s] his duty, or engage[s] 
in malpractice for personal gain'' in the implementation of population 
planning policies.
    \94\ ``Over Ten Million Illegal Residents in China Are a Lost 
Generation, Truth About Their Lives Is Shocking'' [Zhongguo qian wan 
heihu cheng shiluo yi dai shenghuo zhenxiang chumu jingxin], Duowei, 20 
December 16; ``Ministry of Public Security: 1.4 Million More 
Individuals Without Hukou Registered for Hukou in 2016'' [Gong'anbu: 
2016 nian you you 140 duo wan wu hukou renyuan dengji shang le hukou], 
CCTV, reprinted in Xinhua, 13 February 17.
    \95\ ``Over Ten Million Illegal Residents in China Are a Lost 
Generation, Truth About Their Lives Is Shocking'' [Zhongguo qian wan 
heihu cheng shiluo yi dai shenghuo zhenxiang chumu jingxin], Duowei, 20 
December 16.
    \96\ Ibid. See also Wang Ling, ``Ministry of Public Security High-
Level Meeting Discusses the Unresolved Issue of 13 Million `Illegal 
Residents' '' [Gong'anbu gaoceng kaihui shangtao 1300 wan ``heihu'' 
wenti dai jie], China Business Network, 23 November 15.
    \97\ Coco Liu and Shanshan Chen, ``Lost Lives: The Battle of 
China's Invisible Children To Recover Missed Years,'' Reuters, 14 
December 16; ``Ministry of Public Security: 1.4 Million More 
Individuals Without Hukou Registered for Hukou in 2016'' [Gong'anbu: 
2016 nian you you 140 duo wan wu hukou renyuan dengji shang le hukou], 
CCTV, reprinted in Xinhua, 13 February 17; ``Over Ten Million Illegal 
Residents in China Are a Lost Generation, the Truth About Their Lives 
Is Shocking'' [Zhongguo qian wan heihu cheng shiluo yi dai shenghuo 
zhenxiang chumu jingxin], Duowei, 20 December 16.
    \98\ ``Over Ten Million Illegal Residents in China Are a Lost 
Generation, the Truth About Their Lives Is Shocking'' [Zhongguo qian 
wan heihu cheng shiluo yi dai shenghuo zhenxiang chumu jingxin], 
Duowei, 20 December 16.
    \99\ ``Ministry of Public Security: 1.4 Million More Individuals 
Without Hukou Registered for Hukou in 2016'' [Gong'anbu: 2016 nian you 
you 140 duo wan wu hukou renyuan dengji shang le hukou], CCTV, 
reprinted in Xinhua, 13 February 17. See also CECC, 2016 Annual Report, 
6 October 16, 152-53.
    \100\ Zhang Yang, ``Ministry of Public Security: Completely Resolve 
Hukou Registration Issue for `Illegal Residents' in Two to Three 
Years'' [Gong'anbu: 2 zhi 3 nian nei chedi jiejue ``heihu'' luohu 
wenti], People's Daily, 25 March 17.
    \101\ ``Ministry of Public Security: 1.4 Million More Individuals 
Without Hukou Registered for Hukou in 2016'' [Gong'anbu: 2016 nian you 
you 140 duo wan wu hukou renyuan dengji shang le hukou], CCTV, 
reprinted in Xinhua, 13 February 17.
    \102\ Ibid.; ``Over Ten Million Illegal Residents in China Are a 
Lost Generation, Truth About Their Lives Is Shocking'' [Zhongguo qian 
wan heihu cheng shiluo yi dai shenghuo zhenxiang chumu jingxin], 
Duowei, 20 December 16.
    \103\ Zhang Yang, ``Ministry of Public Security: Completely Resolve 
Hukou Registration Issue for `Illegal Residents' in Two to Three 
Years'' [Gong'anbu: 2 zhi 3 nian nei chedi jiejue ``heihu'' luohu 
wenti], People's Daily, 25 March 17.
    \104\ World Bank, ``Fertility Rate, Total (Births Per Woman),'' 
last visited 10 May 17.
    \105\ National Health and Family Planning Commission, ``Text Record 
of January 2017 Special Press Conference on Progress of Universal Two-
Child Policy Work'' [2017 nian 1 yue quanmian lianghai zhengce gongzuo 
jinzhan zhuanti xinwen fabuhui wenzi shilu], 22 January 17; Huang Ying, 
``NHFPC: Universal Two-Child Policy Implemented for One Year, 18.64 
Million Newborns'' [Guojia weijiwei: quanmian erhai shixing yi nian 
xinsheng ying'er 1864 wan], Beijing News, 11 March 17; ``After 
`Universal Two-Child Policy,' Growth in the Number of Newborns Still 
Lower Than Expected'' [``Quanmian erhai'' hou xinsheng'er jizeng dan 
reng diyu yuqi], BBC, 26 January 17.
    \106\ Hua'erjie Laoye, ``Ren Dapao: Is China's Real Estate Market 
Really China's `Ticking Time Bomb?' '' [Ren dapao: zhongguo loushi zhen 
de shi zhongguo jingji de ``dingshi zhadan'' ma?], Sina, 14 March 17.
    \107\ National Bureau of Statistics of China, ``National Economy 
Achieved a Good Start for the `13th Five-Year Plan' Period in 2016'' 
[2016 nian guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 
January 17; Zhuang Pinghui and Josh Ye, ``China Sees 1.3 Million More 
New Babies in 2016 . . . But Workforce Shrinks As Population Ages,'' 
South China Morning Post, 22 January 17.
    \108\ Ibid.
    \109\ State Council, National Population Development Plan (2016-
2030) [Guojia renkou fazhan guihua (2016-2030 nian)], issued 30 
December 16.
    \110\ Wang Xiaodong, ``Family-Planning Policy May Need More 
`Adjustment,' '' China Daily, 1 December 16.
    \111\ ``The World's Most Populous Country Is Turning Gray,'' 
Bloomberg, 26 January 17; Yanzhong Huang, ``China's New Two Child 
Policy: Too Little, Too Late,'' Council on Foreign Relations, Asia 
Unbound (blog), 1 December 16; Mark Hanrahan and Eric Baculinao, 
``China Population Crisis: New Two-Child Policy Fails To Yield Major 
Gains,'' NBC News, 28 January 17.
    \112\ ``The World's Most Populous Country Is Turning Gray,'' 
Bloomberg, 26 January 17; Yue Wang and Paul Armstrong, ``Aging China 
Considers Incentives To Boost Child Birth--Too Little, Too Late? '' 
Forbes, 7 March 17; Mark Hanrahan and Eric Baculinao, ``China 
Population Crisis: New Two-Child Policy Fails To Yield Major Gains,'' 
NBC News, 28 January 17.
    \113\ For national laws and regulations prohibiting the practices 
of non-medically necessary gender determination testing and sex-
selective abortion, see PRC Population and Family Planning Law 
[Zhonghua renmin gongheguo renkou yu jihua shengyu fa], passed 29 
December 01, amended 27 December 15, effective 1 January 16, art. 35; 
National Health and Family Planning Commission et al., Regulations on 
Prohibiting Non-Medically Necessary Sex Determination and Sex-Selective 
Abortion [Jinzhi fei yixue xuyao de tai'er xingbie jianding he xuanze 
xingbie rengong zhongzhi renshen de guiding], issued 28 March 16, 
effective 1 May 16. For provincial regulations that ban non-medically 
necessary sex determination and sex-selective abortion, see, e.g., 
Hubei Province People's Congress Standing Committee, Hubei Province 
Population and Family Planning Regulations [Hubei sheng renkou yu jihua 
shengyu tiaoli], issued 1 December 02, amended 29 November 08, 30 July 
10, 27 March 14, 13 January 16, art. 31; Sichuan Province People's 
Congress Standing Committee, Sichuan Province Population and Family 
Planning Regulations [Sichuan sheng renkou yu jihua shengyu tiaoli], 
issued 2 July 87, amended 15 December 93, 17 October 97, 26 September 
02, 24 September 04, 20 March 14, 22 January 16, art. 23.
    \114\ See, e.g., Xi Lu, ``Uprooting Generations-Old Gender Bias,'' 
Global Times, 12 January 17; ``China Cracks Down on Fetus Sex 
Diagnosis,'' China Internet Information Center, 12 January 17; ``China 
Arrests Over Illegal Network Determining Baby Gender,'' BBC, 15 October 
16.
    \115\ National Bureau of Statistics of China, ``National Economy 
Achieved a Good Start for the `13th Five-Year Plan' Period in 2016'' 
[2016 nian guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 
January 17; ``Chinese Birthrate Rises in 2016,'' GB Times, 20 January 
17.
    \116\ Andrea den Boer and Valerie M. Hudson, ``The Security Risks 
of China's Abnormal Demographics,'' Washington Post, 30 April 14. See 
also Xuan Li, ``China's `Bare Branches': Unmarried Men Stuck Between 
Tradition and Capitalism,'' Scroll.in, 29 January 17.
    \117\ Peng Xunwen, ``Who Will Marry the 30 Million `Surplus Men' '' 
[3000 wan ``shengnan'' gen shui jiehun], People's Daily, 13 February 
17; Xiao Shan, ``2030: 30 Million Bare Branches in China, Concerns 
About Crime'' [2030 nian: zhongguo guanggun da jun 3000 wan you fanzui 
yinyou], Radio France Internationale, 13 February 17.
    \118\ Peng Xunwen, ``Who Will Marry the 30 Million `Surplus Men' '' 
[3000 wan ``shengnan'' gen shui jiehun], People's Daily, 13 February 
17; ``Millions of Chinese Males Face Difficulty Finding a Partner,'' 
CGTN, 11 March 17; ``Gender Equality in China Would Bring Huge Economic 
Benefits,'' South China Morning Post, 31 October 16.
    \119\ See, e.g., Peng Xunwen, ``Who Will Marry the 30 Million 
`Surplus Men' '' [3000 wan ``shengnan'' gen shui jiehun], People's 
Daily, 13 February 17.
    \120\ See, e.g., ``Trafficked Cambodian Woman in China Rescued and 
Returned Home'' [Guaimai zhi zhongguo de jianpuzhai funu bei jiejiu 
huiguo], Sohu, 1 March 17.
    \121\ See, e.g., Nick Grono, ``Sold Into China for Marriage,'' 
Huffington Post, World Post, 8 March 17.
    \122\ See, e.g., Robbie Gramer and Bethany Allen-Ebrahimian, ``With 
Human Trafficking Report, Tillerson Rebukes China on Human Rights,'' 
Foreign Policy, 27 June 17.
    \123\ See, e.g., Huileng Tan, ``Vietnamese Child Bride Alarms China 
as Official Says Gender Imbalance To Weigh for Years,'' CNBC News, 12 
October 16; ``China Police Rescue 32 Trafficked Vietnamese Brides,'' 
Agence France-Presse, reprinted in The Nation, 9 February 17.
    \124\ See, e.g., Taidejia'er, ``Taidejia'er's Thoughts Regarding 
News of Trafficking of Children'' [Taidejia'er guanyu guaimai ertong 
xinwen de sikao], 17 December 16; ``Ministry of Public Security Cracks 
Infant Trafficking Case in 7 Provinces, Parents Sell Children, Rescued 
Children Now Orphans'' [Gong'an pohuo 7 sheng fan ying an qinsheng fumu 
chushou huojiu ying'er bian gu'er], Ming Pao, 14 December 16.
    \125\ `` `Very Large Infant-Trafficking Case,' Shocking Source of 
Trafficked Infants: Some Gave Birth to Children in Order To Sell'' 
[``Te da fan ying an'' bei guai ying'er laiyuan ling ren zhenjing: you 
ren zhuanmen sheng xiaohai lai mai], CCTV, reprinted in The Paper, 15 
December 16; ``Ministry of Public Security Cracks Infant Trafficking 
Case in 7 Provinces, Parents Sell Children, Rescued Children Now 
Orphans'' [Gong'an pohuo 7 sheng fan ying an qinsheng fumu chushou 
huojiu ying'er bian gu'er], Ming Pao, 14 December 16.
    \126\ ``Ministry of Public Security Cracks Infant Trafficking Case 
in 7 Provinces, Parents Sell Children, Rescued Children Now Orphans'' 
[Gong'an pohuo 7 sheng fan ying an qinsheng fumu chushou huojiu ying'er 
bian gu'er], Ming Pao, 14 December 16.
    \127\ Ibid.; `` `Very Large Infant-Trafficking Case,' Shocking 
Source of Trafficked Infants: Some Gave Birth to Children in Order To 
Sell'' [``Te da fan ying an'' bei guai ying'er laiyuan ling ren 
zhenjing: you ren zhuanmen sheng xiaohai lai mai], CCTV, reprinted in 
The Paper, 15 December 16.

                                                    Freedom of 
                                                 Residence and 
                                                       Movement
                                                Freedom of 
                                                Residence and 
                                                Movement

                   Freedom of Residence and Movement


                          Freedom of Residence

    During the Commission's 2017 reporting year, the Chinese 
government continued to restrict the freedom of residence of 
Chinese citizens through the use of the household registration 
(hukou) system, established in 1958.\1\ The hukou system 
classifies Chinese citizens as rural or urban, conferring 
certain legal rights and access to public services based on the 
classification.\2\ Implementation of this system discriminates 
against rural hukou holders and migrants to urban areas by 
denying them equal access to public benefits and services 
enjoyed by registered urban residents, including housing, 
education, and social insurance.\3\ The hukou system 
contravenes international human rights standards guaranteeing 
freedom of residence and prohibiting discrimination on the 
basis of ``national or social origin, . . . birth or other 
status.'' \4\
    The Chinese government continued to implement reforms to 
residence policies, including the hukou and residence permit 
systems. Hukou reform, including the expansion to new urban 
residents and migrants of public benefits traditionally tied to 
hukou status, remained a policy goal for the Chinese 
government, as outlined in several national-level policy 
documents.\5\ In line with previous policy pronouncements aimed 
at increasing China's rate of urbanization,\6\ in September 
2016, the State Council issued a plan building on previous 
efforts to facilitate 100 million residents in obtaining urban 
hukou by 2020.\7\ The plan also calls for 45 percent of the 
population to have urban hukou by 2020.\8\ According to a 
February 2017 National Bureau of Statistics of China report, at 
the end of 2016, China's urban population stood at over 792.9 
million people, or 57.4 percent of the population; \9\ 41.2 
percent of the population were urban residents with urban-
registered hukou.\10\
    After the State Council issued national provisional 
regulations on residence permits that took effect in January 
2016,\11\ at least 29 provincial-level jurisdictions had 
reportedly issued implementing measures for residence permits 
as of August 2017.\12\ The Ministry of Public Security (MPS) 
reportedly announced that provincial- and local-level 
governments issued more than 28.9 million residence permits 
nationwide in 2016.\13\ The MPS also reportedly announced that 
provincial and local authorities nationwide abolished all 
previous temporary residence permit systems (zanzhuzheng) and 
replaced them with the newer residence permit systems 
(juzhuzheng).\14\
    In February 2017, the MPS reportedly confirmed a State 
Council decision \15\ that urban areas with fewer than 3 
million permanent residents would not be permitted under hukou 
reform policies to implement points systems to determine 
applicants' eligibility for obtaining local hukou.\16\ These 
systems assign values, determined by local governments, to 
migrants based on factors including education level, 
contributions to social insurance, and preferred work 
experience.\17\ Urban areas with populations above 3 million 
will be able to keep points systems and tighter restrictions on 
migrants' ability to apply for local hukou.\18\ A draft Beijing 
municipality planning document, for example, proposed setting a 
cap on Beijing's population at 23 million in 2020.\19\
    While some policymakers recognized the difficulties migrant 
workers face in settling in large cities and obtaining hukou or 
residence permits there, as well as the need to relax 
restrictions on in-migration,\20\ policy experts noted that 
existing proposals to reform the hukou and residence permit 
systems did not meaningfully address disparities in rural and 
urban status, especially as many rural-to-urban migrants seek 
economic opportunity in larger cities where in-migration 
remained strictly controlled.\21\

                          International Travel

    Chinese authorities continued to deny some citizens who 
criticized the government, those citizens' relatives and 
associates, and others--including ethnic minorities--their 
internationally recognized right to leave the country. Article 
12 of the International Covenant on Civil and Political Rights, 
which China has signed and committed to ratify,\22\ provides 
that ``[e]veryone shall be free to leave any country . . ..'' 
\23\ Under Article 12, countries may restrict this right, but 
only ``to protect national security, public order'' and other 
select public interests.\24\ Chinese laws grant officials the 
authority to prevent from leaving the country those deemed 
threatening to state security or whose ``exit from China is not 
allowed.'' \25\ Chinese officials used this authority to 
arbitrarily keep government critics, rights defenders, and 
others from leaving China.\26\ The Commission observed the 
following representative cases during the 2017 reporting year:

        <bullet> Chinese authorities continued \27\ to restrict 
        the travel rights of individuals in connection with a 
        nationwide crackdown on public interest lawyers and 
        rights advocates that began in or around July 2015.\28\ 
        For example, in March 2017, public security authorities 
        in Shaanxi province refused to issue rights defender Lu 
        Dongli a passport or permit to travel to Hong Kong or 
        Macau, reportedly in connection with his support for 
        detainees in the July 2015 crackdown as well as his 
        interviews with foreign media about the crackdown.\29\
        <bullet> Beginning in October 2016, public security 
        officials in several county-level jurisdictions of the 
        Xinjiang Uyghur Autonomous Region (XUAR) reportedly 
        ordered residents of those areas to turn in their 
        passports to authorities.\30\ Officials also required 
        residents to apply for approval before traveling 
        abroad.\31\ Rights organizations criticized the 
        passport confiscations as restricting the movement of 
        XUAR residents \32\ and serving as ``collective 
        punishment.'' \33\ In 2017, officials in some XUAR 
        jurisdictions also reportedly ordered around 200,000 
        ethnic Kazakhs to turn in their passports and 
        Kazakhstan permanent residence permits, though 
        officials subsequently returned at least some of the 
        documents.\34\ [For more information, see Section IV--
        Xinjiang--Freedom of Movement.]
        <bullet> Chinese authorities threatened Tibetans who 
        traveled, or planned to travel, to India to participate 
        in a January 2017 religious gathering led by the Dalai 
        Lama.\35\ Officials in some parts of Gansu, Qinghai, 
        and Sichuan provinces seized passports from Tibetan 
        residents to prevent them from traveling.\36\ Chinese 
        authorities in some Tibetan areas destroyed the 
        religious pilgrims' passports upon their return to 
        China and questioned them about their activities in 
        India.\37\
        <bullet> In March 2017, Chinese authorities prevented 
        Feng Chongyi, a Chinese citizen and Australian 
        permanent resident, from leaving China after he spent 
        several weeks conducting research on Chinese rights 
        lawyers.\38\ Border control officials in Guangzhou 
        municipality, Guangdong province, detained Feng on 
        March 24 at the Guangzhou airport; authorities later 
        held him at a Guangzhou hotel.\39\ Feng's lawyer said 
        that authorities accused Feng of ``threatening national 
        security,'' and surmised that the travel restrictions 
        were due to Feng's research on rights lawyers detained 
        in the crackdown beginning in or around July 2015.\40\ 
        Authorities allowed Feng to return to Australia in 
        early April.\41\ Feng told Australian media that his 
        detention was meant to deter other academics from 
        researching ``sensitive issues or sensitive topics'' 
        related to China.\42\
        <bullet> In March 2017, Chinese authorities reportedly 
        prevented several dozen mainland Chinese residents from 
        traveling to Hong Kong to participate in a history 
        seminar on the 1950s Anti-Rightist Movement.\43\ 
        Chinese authorities used a variety of means to dissuade 
        or prevent seminar participants from attending, 
        including confiscating their travel permits.\44\

                           Domestic Movement

    During this reporting year, the Commission observed reports 
of Chinese government officials punishing rights advocates and 
their families and associates, and targeting members of some 
ethnic minority groups, by restricting their freedom of 
movement domestically. Article 12 of the International Covenant 
on Civil and Political Rights provides that ``[e]veryone 
lawfully within the territory of a State shall, within that 
territory, have the right to liberty of movement . . ..'' \45\ 
Authorities increased restrictions on freedom of movement 
during politically sensitive periods, including before and 
during the May 2017 Belt and Road Initiative forum in Beijing 
municipality \46\ and the June 2017 anniversary of the 1989 
Tiananmen protests.\47\
    During the March 2017 meetings of the National People's 
Congress and the Chinese People's Political Consultative 
Conference in Beijing (``Two Sessions''), Chinese authorities 
repeatedly seized or detained critics of the government as well 
as petitioners who sought meetings in Beijing with government 
officials, temporarily restricting their movement and sometimes 
forcibly returning them to their places of residence.\48\ 
During this time, authorities sent some individuals on ``forced 
travel'' (bei luyou), compelling them to leave their places of 
residence and preventing them from traveling to politically 
sensitive areas, especially Beijing.\49\ For example, 
authorities in Qianjiang municipality, Hubei province, forced 
former independent local people's congress candidate Yao Lifa 
to leave Qianjiang during the Two Sessions, reportedly moving 
him between five different provinces for 18 days before 
allowing him to return to Qianjiang.\50\ Local authorities 
sometimes held these individuals in ``black jails'' (hei 
jianyu), a form of extralegal confinement.\51\ Authorities also 
continued restrictions on the movement of lawyers, particularly 
lawyers who have worked on behalf of rights advocates or 
political prisoners, such as Liu Zhengqing \52\ and Chen 
Jian'gang.\53\ Before the May 2017 trial of Chen's former 
client Xie Yang, authorities in Yunnan province briefly 
detained Chen and his family, later forcibly escorting him back 
to Beijing.\54\
    Tibetans, Uyghurs, and other residents of ethnic minority 
areas in particular faced strict controls on their freedom of 
movement. Tibetans and residents of Tibetan areas had 
restrictions placed on their freedom of movement around the 
time of the March 2017 anniversary of the 1959 Tibetan uprising 
against Chinese rule, including the imposition of requirements 
on some Tibetans to obtain local government approval for local 
travel.\55\ In February 2017, authorities in Gansu province 
prevented more than one thousand Tibetans from traveling to 
participate in a Tibetan Buddhist gathering at Kirti Monastery 
in Aba (Ngaba) county, Aba Tibetan and Qiang Autonomous 
Prefecture, Sichuan province.\56\ Security officials in 
Bayinguoleng (Bayingol) Mongol Autonomous Prefecture, Xinjiang 
Uyghur Autonomous Region, reportedly ordered all drivers to 
have satellite navigation systems installed in their cars by 
June 30, 2017,\57\ effectively allowing authorities to surveil 
drivers.\58\ Authorities characterized the order as a counter-
terrorism measure.\59\ [For more information on government 
restrictions on Uyghurs and Tibetans, see Section IV--Xinjiang 
and Section V--Tibet.]

                                                    Freedom of 
                                                 Residence and 
                                                       Movement
                                                Freedom of 
                                                Residence and 
                                                Movement
    Notes to Section II--Freedom of Residence and Movement

    \1\ National People's Congress Standing Committee, PRC Regulations 
on Household Registration [Zhonghua renmin gongheguo hukou dengji 
tiaoli], issued and effective 9 January 58.
    \2\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67; Spencer Sheehan, ``China's Hukou Reforms and 
the Urbanization Challenge,'' The Diplomat, 22 February 17.
    \3\ Kam Wing Chan, ``Crossing the 50 Percent Population Rubicon: 
Can China Urbanize to Prosperity? '' Eurasian Geography and Economics, 
Vol. 53, No. 1 (2012), 67; UN Committee on Economic, Social and 
Cultural Rights, Concluding Observations on the Second Periodic Report 
of China, Including Hong Kong, China, and Macao, China, adopted by the 
Committee at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 
14, para. 15. See also Ming Lu and Yiran Xia, ``Migration in the 
People's Republic of China,'' Asian Development Bank Institute, ADBI 
Working Paper Series, No. 593, September 2016, 3, 5-7; Mark Magnier, `` 
`Apartheid Without the Racism': How China Keeps Rural Folks Down,'' 
Wall Street Journal, 24 April 17.
    \4\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 2(1), 12(1), 12(3), 26; Universal 
Declaration of Human Rights, adopted and proclaimed by UN General 
Assembly resolution 217A (III) of 10 December 48, arts. 2, 13(1); UN 
Committee on Economic, Social and Cultural Rights, Concluding 
Observations on the Second Periodic Report of China, Including Hong 
Kong, China, and Macao, China, adopted by the Committee at its 40th 
Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 14, para. 15; UN Human 
Rights Council, Reports of the Special Rapporteur on Extreme Poverty 
and Human Rights on His Mission to China, Philip Alston, A/HRC/35/26/
Add.2, 28 March 17, paras. 27-28.
    \5\ See, e.g., State Council, Opinion on Further Carrying Out 
Household Registration System Reform [Guowuyuan guanyu jinyibu tuijin 
huji zhidu gaige de yijian], issued 24 July 14, 1(9); State Council, 
Provisional Regulations on Residence Permits [Juzhuzheng zanxing 
tiaoli], issued 26 November 15, effective 1 January 16, arts. 1, 2; 
State Council Information Office, ``National Human Rights Action Plan 
of China (2016-2020)'' [Guojia renquan xingdong jihua (2016-2020 
nian)], 29 September 16, sec. 1(2), 1(3).
    \6\ PRC Central People's Government, ``National New-Type 
Urbanization Plan (2014-2020)'' [Guojia xinxing chengzhenhua guihua 
(2014-2020 nian)], 16 March 14; State Council, Certain Opinions on 
Deeply Carrying Out New-Type Urbanization Construction [Guowuyuan 
guanyu shenru tuijin xinxing chengzhenhua jianshe de ruogan yijian], 
issued 2 February 16; State Council, Opinion on Further Carrying Out 
Household Registration System Reform [Guowuyuan guanyu jinyibu tuijin 
huji zhidu gaige de yijian], issued 24 July 14.
    \7\ State Council General Office, ``Plan Promoting 100 Million 
Individuals in Cities Without Household Registration To Obtain Hukou'' 
[Tuidong 1 yi fei huji renkou zai chengshi luohu fang'an], issued 30 
September 16.
    \8\ Ibid., 1(3).
    \9\ National Bureau of Statistics of China, ``People's Republic of 
China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17.
    \10\ Ibid.; Liu Yizhan, ``China's Household Registration System 
Reform Makes Major Progress'' [Woguo huji zhidu gaige qude zhongda 
jinzhan], Xinhua, 11 February 17.
    \11\ State Council, Provisional Regulations on Residence Permits 
[Juzhuzheng zanxing tiaoli], issued 26 November 15, effective 1 January 
16.
    \12\ Han Pengfei, ``Ministry of Public Security: Full Coverage of 
Residence Permit System To Be Implemented Within the Year'' [Gong'anbu: 
juzhuzheng zhidu yu nian nei shixian quan fugai], China Macroeconomic 
Information Network, 8 August 17; ``Residence Permit System To Achieve 
Full Coverage Within the Year'' [Juzhuzheng zhidu quan fugai jiang yu 
nian nei shixian], Xinhua, 6 August 17. See, e.g., Chongqing Municipal 
People's Government, Chongqing Municipality Implementing Measures for 
Residence Permits [Chongqing shi juzhuzheng shishi banfa], issued 18 
September 16; Henan Province People's Government, Henan Provincel 
Implementing Measures for Residence Permits [Henan sheng juzhuzheng 
shishi banfa], issued 8 December 16.
    \13\ Liu Yizhan, ``China's Household Registration System Reform 
Makes Major Progress'' [Woguo huji zhidu gaige qude zhongda jinzhan], 
Xinhua, 11 February 17.
    \14\ Ibid.
    \15\ State Council General Office, ``Plan Promoting 100 Million 
Individuals in Cities Without Household Registration To Obtain Hukou'' 
[Tuidong 1 yi fei huji renkou zai chengshi luohu fang'an], issued 30 
September 16, (6).
    \16\ ``Ministry of Public Security: Urban Areas With Under 3 
Million Permanent Residents May Not Implement Points Systems for 
Obtaining Hukou'' [Gong'anbu: chengqu changzhu renkou 300 wan yixia 
chengshi bude shishi jifen luohu], Caixin, 9 February 17.
    \17\ Spencer Sheehan, ``China's Hukou Reforms and the Urbanization 
Challenge,'' The Diplomat, 22 February 17; Zhou Dongxu, ``China 
Democratic League Central Committee: Propose Abolishing `Invisible 
Threshold' for Migrant Workers Settling in Cities'' [Minmeng zhongyang: 
jianyi xiaochu nongmingong luohu chengzhen de ``yinxing menkan''], 
Caixin, 9 March 17.
    \18\ ``Ministry of Public Security: Urban Areas With Under 3 
Million Permanent Residents May Not Implement Points Systems for 
Obtaining Hukou'' [Gong'anbu: chengqu changzhu renkou 300 wan yixia 
chengshi bude shishi jifen luohu], Caixin, 9 February 17.
    \19\ Kong Xiangxin and Luo Xiaoguang, `` `Beijing Municipality 
Master Plan (2016-2030)' Set To Begin Public Comment Period'' 
[``Beijing chengshi zongti guihua (2016 nian-2030 nian)'' bianzhi jinru 
zhengqiu gongzhong yijian jieduan], Xinhua, 28 March 17; Lucy Hornby, 
``Beijing's Migrants No Longer Welcome as City Caps Population,'' 
Financial Times, 20 April 17.
    \20\ Huang Ziyi, ``Deputy Cai Jiming: Large Cities Should Relax 
Restrictions on Population Size'' [Cai jiming daibiao: da chengshi ying 
fangkai renkou guimo xianzhi], Caixin, 3 March 17; Zhou Dongxu, ``China 
Democratic League Central Committee: Propose Abolishing `Invisible 
Threshold' for Migrant Workers Settling in Cities'' [Minmeng zhongyang: 
jianyi xiaochu nongmingong luohu chengzhen de ``yinxing menkan''], 
Caixin, 9 March 17.
    \21\ Cara Wallis, ``Hukou Reform and China's Migrant Workers,'' 
University of Nottingham, China Policy Institute: Analysis (blog), 10 
October 16; Juan Chen et al., ``Beyond Hukou Reform: Enhancing Human-
Centered Urbanization in China,'' Paulson Institute, 23 February 17, 6-
7.
    \22\ United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Civil and Political Rights, last visited 13 
July 17; State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020)'' [Guojia renquan xingdong jihua 
(2016-2020 nian)], 29 September 16, sec. 5.
    \23\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2).
    \24\ Ibid., art. 12(3).
    \25\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], issued 
29 April 06, effective 1 January 07, art. 13(7); PRC Exit and Entry 
Administration Law [Zhonghua renmin gongheguo chujing rujing guanli 
fa], issued 30 June 12, effective 1 July 13, art. 12(5).
    \26\ See, e.g., ``Christian Pastor Accused of [Being] `Falun Gong,' 
Denied Issuance of Passport and Hong Kong-Macau Travel Permit'' 
[Jidujiao mushi bei zhi ``falun gong'' ju fa huzhao ji gang'ao tongxing 
zheng], Radio Free Asia, 16 November 16; ``Pastor Zhang Chongzhu 
Prevented From Leaving Country'' [Zhang chongzhu mushi bei xianzhi 
chujing], Radio Free Asia, 13 June 17; ``China Demands Ethnic Kazakh 
Nationals Hand Over Passports, Hundreds of Thousands Unable To Unite 
With Family'' [Zhongguo yaoqiu hasakezu guomin jiao hui huzhao shu 
shiwan ren wufa yu jiaren tuanju], Radio Free Asia, 13 June 17.
    \27\ CECC, 2016 Annual Report, 6 October 16, 170-71.
    \28\ Rights Defense Network, ``Jiangsu Rights Defender Xu Qin 
Blocked From Traveling to Hong Kong, Shaanxi's Lu Dongli Denied Common 
Passport and HK-Macau Travel Permit on Suspicion of Involvement in 
`July 9' Incident'' [Jiangsu weiquan renshi xu qin chujing fu xianggang 
bei zu shaanxi lu dongli shexian canyu ``709'' shijian bu yu qianfa 
putong huzhao he gang'ao tongxingzheng], 15 March 17; ``Two Rights 
Defenders Prohibited From Leaving Country To Go to Hong Kong'' [Liang 
weiquan renshi bei jin chujing dao xianggang], Radio Free Asia, 15 
March 17; Rights Defense Network, ``Feng Zhenghu: The Tribulations of 
China's Lawyers--42 Lawyers and Others Prevented From Leaving Country'' 
[Feng zhenghu: zhongguo lushi de zaoyu--42 ming lushi deng ren bei 
xianzhi chujing], 2 July 17.
    \29\ Rights Defense Network, ``Jiangsu Rights Defender Xu Qin 
Blocked From Traveling to Hong Kong, Shaanxi's Lu Dongli Denied Common 
Passport and HK-Macau Travel Permit on Suspicion of Involvement in 
`July 9' Incident'' [Jiangsu weiquan renshi xu qin chujing fu xianggang 
bei zu shaanxi lu dongli shexian canyu ``709'' shijian bu yu qianfa 
putong huzhao he gang'ao tongxingzheng], 15 March 17; ``Two Rights 
Defenders Prohibited From Leaving Country To Go to Hong Kong'' [Liang 
weiquan renshi bei jin chujing dao xianggang], Radio Free Asia, 15 
March 17; ``Passport Not Processed for Suspected Involvement in 709 
Case, Lu Dongli Sues Qianyang County Public Security Bureau'' [She 709 
an bu yu ban huzhao lu dongli qisu qianyang xian gong'anju], Radio Free 
Asia, 17 March 17.
    \30\ ``Shihezi, Xinjiang, Tightens Border Controls Again, Public 
Security Requires Residents To Turn in Passports'' [Xinjiang shihezi 
biankong zai shoujin gong'an yao jumin shangjiao huzhao], Voice of 
America, 21 October 16; ``China Recalls Passports Across Xinjiang Amid 
Ongoing Security Crackdown,'' Radio Free Asia, 20 October 16; Edward 
Wong, ``Police Confiscate Passports in Parts of Xinjiang, in Western 
China,'' New York Times, 1 December 16.
    \31\ Human Rights Watch, ``China: Passports Arbitrarily Recalled in 
Xinjiang,'' 21 November 16.
    \32\ World Uyghur Congress, ``The World Uyghur Congress Raises 
Strong Concerns Over the Confiscation of Passports,'' 21 October 16; 
Human Rights Watch, ``China: Passports Arbitrarily Recalled in 
Xinjiang,'' 21 November 16.
    \33\ Human Rights Watch, ``China: Passports Arbitrarily Recalled in 
Xinjiang,'' 21 November 16.
    \34\ ``Protests Continue in Kazakhstan Over China's Treatment of 
Kazakhs,'' Radio Free Asia, 6 July 17; ``Dozens of Ethnic Kazakhs 
Detained Amid Security Crackdown in China's Xinjiang,'' Radio Free 
Asia, 1 August 17.
    \35\ ``China Seizes Tibetans' Passports in a Bid To Block Travel,'' 
Radio Free Asia, 14 November 16; Annie Gowen, ``Hundreds of Tibetans 
Defy China, Gather at Birthplace of Buddhism in India,'' Washington 
Post, 13 January 17.
    \36\ ``China Seizes Tibetans' Passports in a Bid To Block Travel,'' 
Radio Free Asia, 14 November 16.
    \37\ ``Tibetans Ordered Home by China Are Questioned by Police, 
Lose Their Passports,'' Radio Free Asia, 23 January 17; ``Tibetan 
Pilgrims See Passports Destroyed on Their Return,'' Radio Free Asia, 31 
January 17.
    \38\ Chris Buckley, ``China Bars Professor at Australian University 
From Leaving, Lawyer Says,'' New York Times, 26 March 17; Louise Watt, 
``Scholars Urge China To Let Academic Return to Australia,'' Associated 
Press, 30 March 17.
    \39\ Chris Buckley, ``China Bars Professor at Australian University 
From Leaving, Lawyer Says,'' New York Times, 26 March 17; ``Australia-
Based Scholar Feng Chongyi Still Held in Soft Detention in Guangzhou'' 
[Lu ao xuezhe feng chongyi reng bei ruanjin guangzhou], Radio Free 
Asia, 27 March 17.
    \40\ ``Australia-Based Scholar Feng Chongyi Still Held in Soft 
Detention in Guangzhou'' [Lu ao xuezhe feng chongyi reng bei ruanjin 
guangzhou], Radio Free Asia, 27 March 17.
    \41\ Philip Wen, ``Australia-Based Academic Leaves China After 
Questioning,'' Reuters, 1 April 17; Nick McKenzie et al., ``China's 
Operation Australia: The Party Line,'' Sydney Morning Herald, last 
visited 16 August 17.
    \42\ Nick McKenzie et al., ``China's Operation Australia: The Party 
Line,'' Sydney Morning Herald, last visited 16 August 17.
    \43\ ``Dozens of Mainlanders Blocked From Going to Hong Kong To 
Attend Seminar on Anti-Rightist Movement'' [Dalu shu shi ren bei jin 
lai gang chuxi fanyou yundong yantaohui], Radio Free Asia, 28 March 17.
    \44\ ``HK Holds Seminar on Anti-Rightist Movement, CCP Uses 
Underhanded Suppression'' [Gang ban fanyou yundong yantaohui zhonggong 
yinzhao daya], Apple Daily, 28 March 17.
    \45\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(1).
    \46\ See, e.g., ``China Ups `Stability Maintenance' Alert as PLA 
Veterans Head to Beijing,'' Radio Free Asia, 25 April 17; ``China in 
Nationwide Security Crackdown During New Silk Road Forum,'' Radio Free 
Asia, 15 May 17; Nathan VanderKlippe, ``China Jails Its Citizens as It 
Touts Global Benefits of `New Silk Road,' '' Globe and Mail, 17 May 17.
    \47\ See, e.g., ``As Sensitive Dates Approach, Guangzhou Begins To 
Pressure Rights Defenders'' [Min'gan rizi jiang zhi sui kaishi dui 
weiquan renshi shiya], Radio Free Asia, 18 May 17; ``China Puts 
Activists Under House Arrest, Surveillance Ahead of Massacre 
Anniversary,'' Radio Free Asia, 30 May 17; ``Chinese Writer and Lawyer 
Girlfriend Forced To Leave Guangzhou on Sensitive Dates'' [Zhongguo 
zuojia ji lushi nuyou min'gan ri bei bi li guangzhou], Voice of 
America, 30 May 17; ``Chinese Police Tighten Security in Beijing, Round 
Up Activists for Tiananmen Massacre Anniversary,'' Radio Free Asia, 4 
June 17.
    \48\ See, e.g., ``With National Two Sessions About To Convene, 
Local Governments on Guard Against Petitioners Heading to Beijing'' 
[Quanguo lianghui jijiang zhaokai difang zhengfu yanfang fangmin fu 
jing], Radio Free Asia, 9 February 17; ``As Beijing's Two Sessions 
Near, Authorities Hold Large-Scale Clearing Out of Petitioner 
Villages'' [Beijing lianghui jiang zhi dangju daju saodang shangfang 
cun], Radio Free Asia, 13 February 17; ``With `Two Sessions' Drawing 
Near, Large-Scale Suppression of Dissidents in Many Areas'' 
[``Lianghui'' linjin gedi da guimo yazhi yiyi renshi], Radio Free Asia, 
28 February 17.
    \49\ See, e.g., ``Hu Jia's Two Sessions `Forced Travel' Excessively 
Long, Health Suffers Without Way To Take Scheduled Medicine'' [Hu jia 
lianghui ``bei luyou'' chaoshi wufa dingshi fuyao jiankang shousun], 
Radio Free Asia, 21 March 17.
    \50\ Rights Defense Network, ``Former Qianjiang, Hubei, People's 
Congress Deputy, Yao Lifa Has Freedom of Person Restricted and Forced 
To Travel for 18 Days Before and After Two Sessions'' [Hubei qianjiang 
shi qian renda daibiao yao lifa lianghui qianhou bei xianzhi renshen 
ziyou qiangzhi luyou 18 tian], 18 March 17. For more information on Yao 
Lifa, see the Commission's Political Prisoner Database record 2011-
00532.
    \51\ See, e.g., Rights Defense Network, ``Statistical Report on 
Rights Defenders in Shanghai Who Were Put in Black Jails or Detained 
Before and After the Two Sessions (Supplement)'' [Lianghui qianhou 
shanghai weiquan renshi zao guan hei jianyu he juliu de tongji baogao 
(buchong)], 16 March 17; Rights Defense Network, ``Zhuhai Authorities 
Build Black Jail on Hilltop, Chen Fengming Held for 18 Days [During] 
`Two Sessions' '' [Zhuhai dangju shanding shang jian hei jianyu, chen 
fengming ``lianghui'' bei qiujin 18 tian], 19 March 17.
    \52\ Civil Rights & Livelihood Watch, ``Lawyer Liu Zhengqing 
Prevented From Traveling to Beijing To Work on Case Because of 
`Convening of Two Sessions' '' [Liu zhengqing lushi fu jing ban'an bei 
yi ``kai lianghui'' wei you lanjie], 27 February 17.
    \53\ Amnesty International, ``China: Human Rights Lawyer Released 
on Bail Amid Relentless Crackdown,'' 10 May 17.
    \54\ ``Xie Yang's Legal Representative Chen Jian'gang Detained in 
Yunnan'' [Xie yang daili lushi chen jian'gang zai yunnan bei zhua], 
Radio Free Asia, 3 May 17; Amnesty International, ``China: Human Rights 
Lawyer Released on Bail Amid Relentless Crackdown,'' 10 May 17. See 
also Office of the UN High Commissioner for Human Rights, ``Press 
Briefing Notes on China,'' 5 May 17.
    \55\ ``During Sensitive Period in March, Multiple Places in Tibetan 
Areas Under Strict Controls and Surveillance'' [San yue min'gan qi zang 
qu duo di bei yanguan yankong], Radio Free Asia, 14 March 17.
    \56\ ``Police Block Over One Thousand Tibetans From Traveling to 
Sichuan To Participate in Religious Activity'' [Jingfang zu'nao yu qian 
zangren fu chuan canyu zongjiao huodong], Radio Free Asia, 16 February 
17.
    \57\ Edward Wong, ``Western China Region Aims To Track People by 
Requiring Car Navigation,'' New York Times, 24 February 17; ``China 
Orders Satellite Positioning Installed in All Cars in Autonomous 
Prefecture in Xinjiang'' [Zhongguo xialing xinjiang yi zizhizhou quanbu 
qiche anzhuang weixing dingwei], Radio Free Asia, 21 February 17.
    \58\ Tom Phillips, ``China Orders GPS Tracking of Every Car in 
Troubled Region,'' Guardian, 20 February 17; Philip Wen, ``Region in 
China's Restive Xinjiang To Track Vehicles as Anti-Terror Measure,'' 
Reuters, 21 February 17.
    \59\ Ibid.

                                                Status of Women
                                                Status of Women

                            Status of Women


                          Public Participation


                        POLITICAL DECISIONMAKING

    The Chinese government is obligated under its international 
commitments \1\ and domestic laws \2\ to ensure gender-equal 
political participation; women, however, continued to be 
underrepresented in political decisionmaking positions. Female 
representation in top-level Communist Party and government 
leadership remains low or non-existent,\3\ and one scholar 
noted that it would likely remain negligible after the 
leadership change at the 19th National Congress of the Chinese 
Communist Party scheduled for autumn 2017.\4\
    Overall, representation at upper and lower levels of the 
government continues to fall short of the 30 percent target 
recommended by the UN Commission on the Status of Women.\5\ The 
proportion of female delegates at the 12th National People's 
Congress (NPC), seated in 2013, was 23.4 percent.\6\ A draft 
decision presented during the annual session of the 12th NPC in 
March 2017 projected that a greater proportion of female 
delegates would be elected to the 13th NPC in January 2018, but 
did not specify how.\7\

                       CIVIL SOCIETY AND ADVOCACY

    During the Commission's 2017 reporting year, Chinese 
officials prevented some women's rights advocates from engaging 
in activism and providing services--a continuation of the 
intensifying restrictions on women's rights advocacy that began 
in 2015 \8\--while promoting Party-affiliated alternatives for 
protecting women's rights and interests.
    A leading feminist activist described the political 
environment as ``very difficult'' and reported that independent 
groups were unable to organize activities on behalf of women's 
rights.\9\ Activists also voiced serious concern about online 
censorship after a social media company blocked a prominent 
social media account for women's rights, ``Feminist Voices,'' 
for 30 days in February 2017.\10\ The account shutdown was 
allegedly directed by the Cyberspace Administration of China, 
the government agency responsible for overseeing all online 
content.\11\ [For more information on censorship, see Section 
II--Freedom of Expression.]

------------------------------------------------------------------------
      May 2017 ``Human Billboard'' Anti-Sexual Harassment Campaign
-------------------------------------------------------------------------
  On May 1, 2017,\12\ women's rights advocate Zhang Leilei initiated an
 anti-sexual harassment campaign with the feminist group Women Awakening
 Network \13\ based in Guangzhou municipality, Guangdong province.\14\
 feminist group Women Awakening Network.\14\ Zhang recruited 100
 volunteers from across China via social media as ``human billboards''
 who would publicly carry posters to raise awareness about preventing
 sexual harassment on public transportation.\15\ Volunteers from at
 least 23 cities participated and around 10 feminist or LGBT groups held
 activities in conjunction with the campaign.\16\ Zhang started the
 campaign after authorities repeatedly refused permission for a crowd-
 funded advertisement against sexual harassment in a Guangzhou subway
 station.\17\ On May 17, 2017, authorities ordered Zhang to halt the
 billboard campaign because it was ``too large,'' comparing it to the
 planned anti-sexual harassment activity in March 2015 that led to the
 criminal detention of five women's rights advocates (also known as the
 Feminist Five).\18\ They also told Zhang to suspend all other
 activities and leave the city for the remainder of the year due to
 heightened public security in anticipation of the 2017 Fortune Global
 Forum to be held in Guangzhou in December.\19\ Guangzhou authorities
 also searched the home of three others involved in the campaign.\20\
 Zhang subsequently suspended the campaign and canceled a series of
 planned follow-up activities.\21\
------------------------------------------------------------------------

    In September 2016, the Party's Central Committee General 
Office launched a nationwide initiative to reform the Party-
affiliated All-China Women's Federation (ACWF).\22\ The reforms 
direct the ACWF to more actively intervene in individual cases 
to protect women against violations of their rights and 
interests, to improve aid delivery, and to enhance the ACWF's 
online presence.\23\ The initiative also charged the ACWF with 
``leading women to listen to the Party [and] follow the path of 
the Party'' and ``strengthening the leadership of the Party.'' 
\24\
    The Chinese government also continued to target individual 
women's rights advocates with criminal prosecution and other 
forms of harassment and intimidation.

        <bullet> The Foshan Intermediate People's Court in 
        Guangdong province convicted Su Changlan,\25\ an 
        influential organizer and advocate for women's rights 
        and democratic village elections, of ``inciting 
        subversion of state power'' on March 31, 2017.\26\ The 
        court sentenced Su to three years in prison and a 
        subsequent three-year deprivation of political 
        rights.\27\ Su is expected to be released in October 
        2017.\28\ Authorities repeatedly violated her legal and 
        procedural rights by holding her in secret detention, 
        denying her legal counsel, repeatedly extending her 
        detention before her trial in April 2016, and deferring 
        a judgment four times.\29\ In June 2017, her brother 
        reported that her life was ``definitely in danger'' 
        because of inadequate medical treatment,\30\ and 
        Amnesty International said in August 2017 that her 
        health suffered ``a sharp deterioration due to ill-
        treatment and poor detention conditions over the past 
        years.'' \31\ The UN Working Group on Arbitrary 
        Detention in 2015 determined that the Chinese 
        government had arbitrarily detained Su and called on 
        the government to release her immediately and grant 
        reparation for harm suffered during her detention.\32\ 
        Public security officials detained Su in October 2014 
        after she voiced support for the pro-democracy 
        demonstrations in Hong Kong.\33\
        <bullet> Also on March 31, 2017, the same Foshan court 
        sentenced Chen Qitang,\34\ to four years and six 
        months' imprisonment and three years' deprivation of 
        political rights for ``inciting subversion of state 
        power.'' \35\ Chen had worked with Su to document 
        domestic violence in Guangdong and actively published 
        essays critical of government policies.\36\ Authorities 
        prolonged his detention for more than two years.\37\
        <bullet> The Gangzha District People's Court in Nantong 
        municipality, Jiangsu province, convicted Shan 
        Lihua,\38\ a women's rights advocate, of ``picking 
        quarrels and provoking trouble'' in September 2016.\39\ 
        During her detention, authorities reportedly subjected 
        Shan to torture and other rights violations; her 
        brother stated that officials at the Nantong PSB 
        Detention Center beat her ``until she couldn't stand,'' 
        \40\ and that authorities refused her access to 
        counsel.\41\ The judgment sentencing Shan referenced 
        her protesting the sexual abuse of students by school 
        officials in Hainan province in 2013 and the detention 
        of women's rights advocate Ye Haiyan.\42\
        <bullet> Local authorities in Beijing municipality 
        repeatedly pressured Ye Haiyan, a prominent advocate 
        for women, commercial sex workers, and people living 
        with AIDS, to move residences between January and March 
        2017.\43\ [For more information on restrictions on 
        residence and movement prior to the annual meetings of 
        the National People's Congress and Chinese People's 
        Political Consultative Conference, see Section II--
        Freedom of Residence and Movement.] Ye reportedly 
        remained under constant surveillance by authorities, 
        and was unable to participate in public demonstrations 
        or leave the country after Chinese authorities told her 
        that her passport was ``lost'' after she attempted to 
        apply for a visa in 2014.\44\ A U.S.-based filmmaker 
        making a documentary about Ye's activism reported that 
        officials threatened the filmmaker's family in China in 
        order to discourage her from releasing the film.\45\

                      Gender-Based Discrimination


                               EMPLOYMENT

    Women in China continued to face a variety of 
institutional, legal, and social barriers to equal employment, 
which the Chinese government is obligated to address under its 
international commitments \46\ and domestic laws.\47\ Employers 
frequently discriminate against women in recruiting,\48\ 
hiring,\49\ and promotion.\50\ Although existing laws prohibit 
such practices,\51\ the system for enforcement remains 
inadequate: Repercussions for violating the law are rare \52\ 
and negligible,\53\ and victims of discrimination at work are 
reluctant to seek a legal remedy due to the risk of dismissal 
and time involved.\54\ Discriminatory legal policies also 
continued to bar women from performing certain jobs--in some 
cases based on whether they are menstruating, pregnant, or 
breastfeeding.\55\ Disparities in the workplace also manifested 
in widespread sexual harassment \56\ and women earning on 
average 65 percent of what men earn.\57\ Although the 
Commission did not observe statistics on the pay gap for rural 
women this past year, in 2011 women's income was 56 percent 
that of men's in rural areas,\58\ despite the fact that women 
reportedly make up a majority of the rural labor force, 
according to a February 2015 news report.\59\
    Experts and female respondents to a recent survey 
attributed much of the discrimination against women in 
employment to employers' desire to avoid the cost of maternity 
leave for female employees.\60\ An All-China Women's Federation 
survey found that 54.7 percent of employers asked women about 
their marital status and reproduction-related issues during the 
interview process, and many women reported that employer 
concerns about maternity had resulted in reduced salary and 
impeded career development and advancement.\61\ In another 
survey, the greatest proportion of women reporting gender 
discrimination were those between 25 and 34, particularly those 
without children.\62\ Experts said that such discrimination 
would likely be exacerbated by the ``universal two-child 
policy'' implemented in January 2016.\63\ [For more information 
on the ``universal two-child policy,'' see Section II--
Population Control.]
    Some women continued to demand more active enforcement of 
existing Chinese law through gender discrimination lawsuits, 
the first of which was reportedly settled out of court in 
2013.\64\ In September 2016, Gao Xiao (pseudonym) obtained a 
judgment from the Guangzhou Intermediate People's Court in 
Guangdong province for 2,000 yuan (US$300) and a public apology 
from a restaurant chain that refused to interview or hire her 
for a chef's apprentice position based on her gender.\65\ In 
March 2017, following the company's inaction, the court again 
ordered the restaurant to publicly apologize.\66\ In another 
case in July 2017, a university student filed the first gender-
based employment discrimination suit in Shenzhen municipality, 
Guangdong, against the Shenzhen Municipal Human Resources and 
Social Security Bureau for failing to address her complaint 
regarding a discriminatory job recruitment advertisement posted 
online by a local business.\67\
    Some Chinese government officials promoted the use of law 
to resolve gender discrimination issues in employment. The 
Supreme People's Court (SPC) included a recent gender 
discrimination case among the guiding cases released in August 
2016,\68\ making it a judgment that courts ``at all levels 
should refer to . . . when adjudicating similar cases.'' \69\ 
The judgment granted compensation to a female plaintiff who 
sued a courier service that refused to hire her because of her 
gender.\70\ SPC official Guo Feng said that imposing civil 
liability would deter employers from discriminating on the 
basis of gender.\71\ In March 2017, several National People's 
Congress (NPC) delegates spoke out in support of creating an 
anti-discrimination law for employment to address widespread 
discrimination.\72\

                            PROPERTY RIGHTS

    Women, particularly after marriage, continued to lack 
secure rights to property in both rural and urban areas due to 
a combination of legal policies and traditionalist cultural 
pressures. One NPC Standing Committee member noted that rural 
women continue to face challenges in asserting rights to land 
due to a lack of decisionmaking power at both the household and 
village level.\73\ According to a 2016 interview with a Chinese 
professor, 18 percent of married rural women did not have their 
names included on the land contracts of the household of either 
their husband or parents, and nearly 53 percent of married 
women had had land contracts canceled by their home villages as 
of 2014.\74\ Urban women also face difficulties defending their 
property rights; for example, in fall 2016, a court ruled 
against a woman who, after her husband proposed divorce, sued 
to have her name added to the title of a home she had 
contributed to purchasing.\75\ A 2011 Supreme People's Court 
interpretation of the PRC Marriage Law grants property in a 
divorce to the party named on the deed.\76\ Research from 2012 
indicated that a majority of married women or their families 
contribute to the purchase of homes, but most women are not 
named on the deed of the home.\77\

                         Violence Against Women

    Women in China continued to face challenges with domestic 
and sexual violence as officials continued to develop a legal 
and institutional infrastructure to prevent such abuse. All-
China Women's Federation statistics show that ``30 percent of 
married women have experienced some form of domestic 
violence.'' \78\ At the end of June 2017, courts reportedly had 
issued 1,284 total protection orders under the PRC Anti-
Domestic Violence Law,\79\ in effect since March 2016.\80\ 
Experts on the domestic violence law note that challenges to 
implementation include lack of awareness,\81\ inadequate 
resources for training of officials,\82\ gender discrimination 
within the legal system,\83\ and enforcement that prioritizes 
family cohesion and ``social stability'' over the safety of 
victims.\84\ Victims of sexual violence also face challenges in 
obtaining legal redress--experts note that victims of sexual 
harassment are reluctant to come forward due to pressure from 
family and society.\85\ A 2013 UN study found that nearly one 
in five Chinese women reported being the victims of rape,\86\ 
and a 2015 survey of Chinese college students found that 34.8 
percent of female respondents (and 35.6 percent of male 
respondents) had experienced sexual harassment or violence.\87\ 
The non-governmental organization China Labour Bulletin noted 
that while sexual harassment is ``widespread,'' it is rare for 
women to obtain justice through the legal system.\88\

                                                Status of Women
                                                Status of Women
    Notes to Section II--Status of Women

    \1\ Convention on the Elimination of All Forms of Discrimination 
against Women (CEDAW), adopted by UN General Assembly resolution 34/180 
of 18 December 79, entry into force 3 September 81, arts. 7, 24. Under 
Article 7(b) of CEDAW, China, as a State Party, is obligated to 
``ensure to women, on equal terms with men,'' the right ``[t]o 
participate in the formulation of government policy and the 
implementation thereof and to hold public office and perform all public 
functions at all levels of government . . ..'' United Nations Treaty 
Collection, Chapter IV, Human Rights, Convention on the Elimination of 
All Forms of Discrimination against Women, last visited 13 July 17. 
China signed the convention on July 17, 1980, and ratified it on 
November 4, 1980, thereby committing to undertake the legal rights and 
obligations contained in these articles.
    \2\ PRC Law on the Protection of Women's Rights and Interests 
[Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 April 92, 
amended 28 August 05, effective 1 December 05, art. 11; PRC Electoral 
Law of the National People's Congress and Local People's Congresses 
[Zhonghua renmin gongheguo quanguo renmin daibiao dahui he difang geji 
renmin daibiao dahui xuanju fa], passed 1 July 79, amended 10 December 
82, 2 December 86, 28 February 95, 27 October 04, 14 March 10, 29 
August 15, art. 6. Both of these laws stipulate that an ``appropriate 
number'' of female deputies should serve at all levels of people's 
congresses.
    \3\ ``China Political Leaders'' [Zhongguo zhengyao], Chinese 
Communist Party News, People's Daily, last visited 17 July 17; 
``Chinese Communist Party 18th Central Leadership Organization Members' 
Biographies'' [Zhonggong shiba jie zhongyang lingdao jigou chengyuan 
jianli], Xinhua, 15 November 12. Within Party leadership, only 2 of the 
25 members of the Political Bureau of the Communist Party Central 
Committee (Politburo) are women, and there are no women among the 7 
members of the Politburo Standing Committee--the most powerful 
governing body in China. There are no women serving as Party 
secretaries at the provincial level. In government leadership, women 
hold 2 out of 25 national-level ministerial positions and 2 out of 31 
governorships of provinces, provincial-level municipalities, and 
autonomous regions. For more information on female members of the 
Politburo since 1945, see CECC, 2015 Annual Report, 8 October 15, Notes 
to Section II--Status of Women, 176, endnote 5.
    \4\ Cheng Li, Brookings Institute, ``Status of China's Women 
Leaders on the Eve of 19th Party Congress,'' 30 March 17.
    \5\ Ibid.; Women's Studies Institute of China, ``The Shadow Report 
of Chinese Women's NGOs on the Combined Seventh and Eighth Periodic 
Report Submitted by China Under Article 19 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Temporary 
Special Measures and the Political and Public Life (Article 4 & 7),'' 
September 2014, 1-2; Permanent Mission of the People's Republic of 
China to the United Nations, Introductory Statement by H.E. Mme. Song 
Xiuyuan, Head of the Chinese Delegation, Consideration of China's 
Combined Seventh and Eighth Periodic Reports by the Committee on the 
Elimination of Discrimination against Women, 23 October 14, sec. 3. 
According to official statistics from 2013, women made up 23.4 percent 
of the 12th National People's Congress and 22.6 percent of all village 
committee members. ``Target: 30 Percent of Leadership Positions to 
Women by 1995--United Nations Commission on the Status of Women,'' UN 
Chronicle, Vol. 27, No. 2, June 1990, reprinted in Popline. The target 
of 30-percent female representation in leadership positions by 1995 was 
recommended by the UN Commission on the Status of Women at its 34th 
session in 1990.
    \6\ Women's Studies Institute of China, ``The Shadow Report of 
Chinese Women's NGOs on the Combined Seventh and Eighth Periodic Report 
Submitted by China Under Article 19 of the Convention on the 
Elimination of All Forms of Discrimination against Women: Temporary 
Special Measures and the Political and Public Life (Article 4 & 7),'' 
September 2014, 1-2. In the 12th Session of the National People's 
Congress, which began in 2013, women held 23.4 percent of seats.
    \7\ Wang Chen, ``Explanation of the `(Draft) Decision of the 5th 
Meeting of the 12th National People's Congress on Member Quotas and 
Election Issues for the 13th National People's Congress' '' [Guanyu 
``di shi'er jie quanguo renmin daibiao dahui di wuci huiyi guanyu di 
shisan jie quanguo renmin daibiao dahui daibiao ming'e he xuanju wenti 
de jueding (cao'an)'' de shuoming], National People's Congress, 8 March 
17, item 3.
    \8\ See, e.g., Rebecca E. Karl et al., ``Dark Days for Women in 
China? '' Asia Society, ChinaFile, 18 March 15; Maya Wang, ``China's 
Chilling Message to Women,'' CNN, 7 April 15. See also CECC, 2015 
Annual Report, 8 October 15, 172-73; CECC, 2016 Annual Report, 6 
October 16, 178-79.
    \9\ Echo Huang, ``Activist Li Maizi on Why Feminism Is `Going 
Backwards' in China,'' Quartz, 13 March 17; Leta Hong Fincher, 
``China's Feminist Five,'' Dissent Magazine, 4 October 16.
    \10\ Didi Kristen Tatlow, ``Chinese Feminist Group's Social Media 
Account Suspended,'' New York Times, Sinosphere (blog), 22 February 17.
    \11\ Ibid. See also CECC, 2016 Annual Report, 6 October 16, 66-67.
    \12\ Zhang Leilei, ``They Said: You Must Call Off the Anti-Sexual 
Harassment Campaign You Started'' [Tamen shuo: ni bixu jiaoting ni faqi 
de fan xing saorao xingdong], 18 May 17, reprinted in China Digital 
Times, last visited 22 August 17.
    \13\ ``Anti-Sexual Harassment: Guangzhou Women's Rights Advocate 
Starts `Human Billboard' Campaign'' [Fandui xing saorao guangzhou 
nuquan huodongzhe faqi ``renrou guanggao pai'' huodong], Radio Free 
Asia, 9 May 17.
    \14\ Sarah O'Meara, ``How To Be More Than a Token Woman in Chinese 
Politics,'' Sixth Tone, 26 December 16.
    \15\ Zhang Leilei, ``They Said: You Must Call Off the Anti-Sexual 
Harassment Campaign You Started'' [Tamen shuo: ni bixu jiaoting ni faqi 
de fan xing saorao xingdong], 18 May 17, reprinted in China Digital 
Times, last visited 22 August 17; Women Awakening Network (GZxmtnx), 
``Let's Go! This Girl Is Becoming China's First Human Billboard Against 
Sexual Harassment'' [Xingdong! zhege nuhai jiang chengwei zhongguo 
shouge fan xing saorao roushen guanggao pai], Weibo post, 1 May 17, 
2:27 p.m.
    \16\ Zhang Leilei, ``They Said: You Must Call Off the Anti-Sexual 
Harassment Campaign You Started'' [Tamen shuo: ni bixu jiaoting ni faqi 
de fan xing saorao xingdong], 18 May 17, reprinted in China Digital 
Times, last visited 22 August 17.
    \17\ Zou Yun, ``Feminist Activist Ignores Police Advice To Leave 
City,'' Sixth Tone, 22 May 17; Tony Lin, ``End of the Line for Subway 
Ad Against Sexual Harassment,'' Sixth Tone, 28 April 17.
    \18\ ``Guangzhou Anti-Sexual Harassment `Human Billboard' Campaign 
Called Off, Police Order Women's Rights Organization Member To Leave 
Guangzhou'' [Guangzhou fan xing saorao ``renrou guanggao pai'' huodong 
bei jiaoting, nuquan zuzhizhe bei jingcha yaoqiu likai guangzhou], 
Radio Free Asia, 19 May 17; Zhang Leilei, ``They Said: You Must Call 
Off the Anti-Sexual Harassment Campaign You Started'' [Tamen shuo: ni 
bixu jiaoting ni faqi de fan xing saorao xingdong], 18 May 17, 
reprinted in China Digital Times, last visited 22 August 17; Edward 
Wong, ``5 Women's Rights Activists Are Formally Detained in Beijing,'' 
New York Times, 13 March 15; Rachel Lu, `` `They Are the Best Feminist 
Activists in China,' '' Foreign Policy, Tea Leaf Nation (blog), 17 
March 15. See also CECC, 2016 Annual Report, 6 October 16, 178; CECC, 
2015 Annual Report, 8 October 15, 173.
    \19\ Zou Yun, ``Feminist Activist Ignores Police Advice To Leave 
City,'' Sixth Tone, 22 May 17; ``Guangzhou Anti-Sexual Harassment 
`Human Billboard' Campaign Called Off, Police Order Women's Rights 
Organization Member To Leave Guangzhou'' [Guangzhou fan xing saorao 
``renrou guanggao pai'' huodong bei jiaoting, nuquan zuzhizhe bei 
jingcha yaoqiu likai guangzhou], Radio Free Asia, 19 May 17.
    \20\ Nuala Gathercole Lam, ``Guangzhou Police Search House of 
Feminist Activists,'' Sixth Tone, 27 June 17.
    \21\ ``Guangzhou Anti-Sexual Harassment `Human Billboard' Campaign 
Called Off, Police Order Women's Rights Organization Member To Leave 
Guangzhou'' [Guangzhou fan xing saorao ``renrou guanggao pai'' huodong 
bei jiaoting, nuquan zuzhizhe bei jingcha yaoqiu likai guangzhou], 
Radio Free Asia, 19 May 17.
    \22\ ``CCP Central Committee General Office Publishes `ACWF Reform 
Agenda' '' [Zhongban yinfa ``quanguo fulian gaige fang'an''], People's 
Daily, 22 September 16.
    \23\ Ibid.
    \24\ Ibid.
    \25\ For more information on Su Changlan, see the Commission's 
Political Prisoner Database record 2014-00406.
    \26\ Catherine Lai, ``An `Absurd Verdict': Jail Terms for China 
Activists Who Voiced Support for Hong Kong's Pro-Democracy Occupy 
Protests,'' Hong Kong Free Press, 31 March 17; Foshan Intermediate 
People's Court, Guangdong Province, Criminal Court Judgment [Guangdong 
sheng foshan shi zhongji renmin fayuan, xingshi panjue shu], (2015) Fo 
Zhong Fa Xing Yi Chu Zi No. 131, 30 March 17, reprinted in Independent 
Chinese PEN Center, 31 March 17.
    \27\ Ibid.
    \28\ Foshan Intermediate People's Court, Guangdong Province, 
Criminal Court Judgment [Guangdong sheng Foshan shi zhongji renmin 
fayuan xingshi panjue shu], (2015) Fo Zhong Fa Xing Yi Chu Zi No. 131, 
30 March 17, reprinted in Independent Chinese PEN Center, 31 March 17.
    \29\ Chinese Human Rights Defenders, ``Su Changlan Named 2017 
Recipient of Cao Shunli Memorial Award for Human Rights Defenders,'' 13 
March 17.
    \30\ ``Fears Grow for Health of Chinese Women's Rights Activist Su 
Changlan,'' Radio Free Asia, 27 June 17.
    \31\ Amnesty International, ``Open Letter Calling for the Urgent 
Medical Attention of Su Changlan,'' 10 August 17.
    \32\ UN Human Rights Council, Opinions adopted by the Working Group 
on Arbitrary Detention at Its 74th Session, 30 November-4 December 
2015, Opinion No. 39/2015 Concerning Su Changlan (China), A/HRC/WGAD/
2015/39, 25 February 16, paras. 22-32.
    \33\ Chinese Human Rights Defenders, ``Su Changlan Named 2017 
Recipient of Cao Shunli Memorial Award for Human Rights Defenders,'' 13 
March 17; UN Human Rights Council, Opinions adopted by the Working 
Group on Arbitrary Detention at Its 74th Session, 30 November-4 
December 2015, Opinion No. 39/2015 Concerning Su Changlan (China), A/
HRC/WGAD/2015/39, 25 February 16, paras. 6-7.
    \34\ For more information on Chen Qitang, see the Commission's 
Political Prisoner Database record 2009-00002.
    \35\ ``Su Changlan and Chen Qitang Heavily Sentenced for Supporting 
Occupy Movement'' [Su changlan, chen qitang zhichi zhanlin yundong bei 
zhongpan], Radio Free Asia, 31 March 17.
    \36\ Rights Defense Network, ``Lawyer Liu Xiaoyuan: Some Thoughts 
on Su Changlan's Indictment'' [Liu xiaoyuan lushi: wo dui su changlan 
an qisu yijianshu de jidian kanfa], Rights Defense Network, 6 May 15.
    \37\ ``Su Changlan and Chen Qitang Heavily Sentenced for Supporting 
Occupy Movement'' [Su changlan, chen qitang zhichi zhanlin yundong bei 
zhongpan], Radio Free Asia, 31 March 17.
    \38\ For more information on Shan Lihua, see the Commission's 
Political Prisoner Database record 2016-00033.
    \39\ `` `Picking Quarrels and Provoking Trouble' Again, Jiangsu 
Rights Defender Shan Lihua Sentenced to 2 Years and 3 Months'' [You shi 
``xunxin zishi'' jiangsu weiquan renshi shan lihua panxing 2 nian 3 ge 
yue], Radio Free Asia, 29 September 16.
    \40\ ``China Jails Women's Rights Campaigner After `Torture' in 
Detention,'' Radio Free Asia, 29 September 16.
    \41\ `` `Picking Quarrels and Provoking Trouble' Again, Jiangsu 
Rights Defender Shan Lihua Sentenced to 2 Years and 3 Months'' [You shi 
``xunxin zishi'' jiangsu weiquan renshi shan lihua panxing 2 nian 3 ge 
yue], Radio Free Asia, 29 September 16.
    \42\ Gangzha District People's Court, Nantong Municipality, Jiangsu 
Province, Criminal Judgment [Jiangsu sheng nantong shi gangzha qu 
renmin fayuan xingshi panjue shu], (2016) Su 0611 Xing Chu No. 50, 29 
September 16, reprinted in Rights Defense Network, 29 September 16.
    \43\ ``Striking Hard Before the Two Sessions, Ye Haiyan Forced To 
Relocate Again'' [Lianghui qian yanda: ye haiyan zai bei banqian], 
Deutsche Welle, 6 March 17; Civil Rights & Livelihood Watch, ``Women's 
Rights Defender Ye Haiyan Ordered by Beijing's Songzhuang Government To 
Move'' [Nu quan hanweizhe ye haiyan bei beijing songzhuang zhengfu 
xialing bipo banqian], 18 January 17.
    \44\ Joanna Chiu, ``Documentary `Hooligan Sparrow' Shows How 
Dangerous It Is To Protest Against Rape in China,'' Quartz, 24 October 
16; Sophie Richardson, Human Rights Watch, ``Dispatches: Clipping a 
Sparrow's Wings in China,'' 15 July 14.
    \45\ Joanna Chiu, ``Documentary `Hooligan Sparrow' Shows How 
Dangerous It Is To Protest Against Rape in China,'' Quartz, 24 October 
16.
    \46\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 11.1; United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
23 June 17. China signed the convention on July 17, 1980, and ratified 
it on November 4, 1980. International Covenant on Economic, Social and 
Cultural Rights (ICESCR), adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 3 January 76, art. 7; 
United Nations Treaty Collection, Chapter IV, Human Rights, 
International Covenant on Economic, Social and Cultural Rights, last 
visited 23 June 17. China signed the ICESCR on October 27, 1997, and 
ratified it on March 27, 2001.
    \47\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 48; PRC Labor Law 
[Zhongghua renmin gongheguo laodong fa], passed 5 July 94, effective 1 
January 95, art. 13; PRC Law on the Protection of Women's Rights and 
Interests [Zhonghua renmin gongheguo funu quanyi baozhang fa], passed 3 
April 92, amended 28 August 05, effective 1 December 05, art. 2.
    \48\ China Labour Bulletin, ``Workplace Discrimination,'' last 
visited 23 July 17; ``Nearly 90 percent of Female College Students 
Experience Discrimination in On-Campus Recruitment'' [Zhongguo daxue 
xiaoyuan zhaopin jin 9 cheng nu daxuesheng zao qishi], Radio Free Asia, 
25 November 16.
    \49\ Zhong Yi, ``NPC Representative Sun Xiaomei: To Protect Women's 
Legal Labor Rights, Employment Discrimination Should Be Eliminated'' 
[Renda daibiao sun xiaomei: weihu funu hefa laodong quan ying xiaochu 
jiuye qishi], China News Service, 12 March 17.
    \50\ World Economic Forum, ``The Global Gender Gap Report 2016,'' 
26 October 16, 142-43. According to the World Economic Forum report, 
women remained underrepresented in management positions, with 17.5 
percent of firms including women in top-level management. Zhaopin, 
``Zhaopin: Chinese Women Still Facing Discrimination in Workplace,'' 6 
March 17. In a 2017 survey conducted by Zhaopin, an online job-seeking 
and recruitment platform, 25 percent of women reported experiencing 
severe or very severe gender discrimination in promotions and generally 
waited longer for promotions.
    \51\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 12-13. Gender-based 
discrimination against employees or applicants for employment is 
prohibited under Articles 12 and 13 of the PRC Labor Law. See also 
Ministry of Human Resources and Social Security, Provisions on 
Employment Services and Employment Management [Jiuye fuwu yu jiuye 
guanli guiding], issued 5 November 07, amended 23 December 14, 
effective 1 February 15, arts. 20, 58(2); PRC Constitution, issued 4 
December 82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 
04, art. 48.
    \52\ Tang Xiaoqing, ``Female College Students Face Employment 
Discrimination; Multi-Pronged Approach Can Eliminate `Obstacles' '' [Nu 
daxuesheng zaoyu jiuye qishi duoguanqi xiafang neng xiaochu 
``lanlushi''], China News Service, reprinted in Xinhua, 20 November 16; 
Lim Yan Liang, ``Job Seekers in China Face All Manner of 
Discrimination,'' Straits Times, 12 June 17; China Labour Bulletin, 
``Workplace Discrimination,'' last visited 23 July 17.
    \53\ China Labour Bulletin, ``Workplace Discrimination,'' last 
visited 23 July 17; Tang Xiaoqing, ``Female College Students Face 
Employment Discrimination; Multi-Pronged Approach Can Eliminate 
`Obstacles' '' [Nu daxuesheng zaoyu jiuye qishi duoguanqi xiafang neng 
xiaochu ``lanlushi''], China News Service, reprinted in Xinhua, 20 
November 16.
    \54\ Hatty Liu, ``Getting Rights Wrong,'' World of Chinese, 13 
October 16.
    \55\ PRC Labor Law [Zhonghua renmin gongheguo laodong fa], passed 5 
July 94, effective 1 January 95, arts. 59-61, 63; State Council, 
Special Provisions for the Protection of Female Employees' Labor [Nu 
zhigong laodong baohu tebie guiding], issued and effective 28 April 12, 
Appendix, para. 1 (labor restrictions for all women), para. 2 (labor 
restrictions during menstruation), para. 3 (labor restrictions during 
pregnancy), para. 4 (labor restrictions while breastfeeding).
    \56\ China Labour Bulletin, ``Workplace Discrimination,'' last 
visited 23 July 17; `` `Refuse To Get Laid, Get Laid Off': Supervisors 
Responsible for 80 Percent of Workplace Sexual Harassment'' [``Bu shang 
chuang jiu xia gang'' ba cheng zhichang xing saorao laizi shangsi], 
Radio Free Asia, 14 December 16; Jane Li, ``Young Chinese Women Dare To 
Say No to Sexual Harassment, Says Expert,'' South China Morning Post, 
14 December 16.
    \57\ World Economic Forum, ``The Global Gender Gap Report 2016,'' 
26 October 16, 142.
    \58\ All-China Women's Federation and National Bureau of Statistics 
of China, ``Report on Major Results of the Third Wave Survey on the 
Social Status of Women in China,'' 21 October 11, 2.
    \59\ Tania Branigan, ``For Richer, For Poorer: How China's Laws Put 
Women Second,'' Guardian, 24 February 15.
    \60\ Zhong Yi, ``NPC Delegate Sun Xiaomei: To Protect Women's Legal 
Labor Rights, Employment Discrimination Should Be Eliminated'' [Renda 
daibiao sun xiaomei: weihu funu hefa laodong quan ying xiaochu jiuye 
qishi], China News Service, 12 March 17; ``Prolonged Maternity Leave 
May Worsen Women's Employment Status: Experts,'' The Paper, translated 
and reprinted in All-China Women's Federation, 21 October 16. See also 
Tang Xiaoqing, ``Female College Students Face Employment 
Discrimination; Multi-Pronged Approach Can Eliminate `Obstacles' '' [Nu 
daxuesheng zaoyu jiuye qishi duoguanqi xiafang neng xiaochu 
``lanlushi''], China News Service, reprinted in Xinhua, 20 November 16; 
China Labour Bulletin, ``Workplace Discrimination,'' last visited 23 
July 17.
    \61\ Zhong Yi, ``NPC Delegate Sun Xiaomei: To Protect Women's Legal 
Labor Rights, Employment Discrimination Should Be Eliminated'' [Renda 
daibiao sun xiaomei: weihu funu hefa laodong quan ying xiaochu jiuye 
qishi], China News Service, 12 March 17.
    \62\ Zhaopin, ``Zhaopin: Chinese Women Still Facing Discrimination 
in Workplace,'' 6 March 17.
    \63\ Zhao Yusha, ``New Two-Child Policy Makes Employers Leery of 
Hiring Women,'' Global Times, 23 March 17.
    \64\ China Labour Bulletin, ``Plaintiff Obtains 30,000 Yuan in 
China's First Gender Discrimination Lawsuit,'' 9 January 14; China 
Labour Bulletin, ``Workplace Discrimination,'' last visited 23 July 17. 
See also CECC, 2016 Annual Report, 6 October 16, 179-80; CECC, 2015 
Annual Report, 8 October 15, 173; CECC, 2014 Annual Report, 9 October 
14, 113; CECC, 2013 Annual Report, 10 October 13, 110.
    \65\ Wang Lianzhang, ``Restaurant To Serve Feminist Chef Apology, 
Court Orders,'' Sixth Tone, 21 September 16.
    \66\ `` `I Was Hoping for a Legal Breakthrough,' '' Radio Free 
Asia, 31 March 17.
    \67\ ``Shenzhen's First Gender-Based Employment Discrimination 
Case: Female College Student Takes Bureau of Human Resources and Social 
Security to Court'' [Shenzhen xingbie jiuye qishi di yi an: nu 
daxuesheng jiang renshebu gaoshang fating], China Banned Book News, 14 
July 17. See also Gender-Based Employment Discrimination Supervision 
Brigade (Jiuye xingbie qishi jiancha dadui), ``Only Men Need Apply, 
Where Is the Bureau of Human Resources and Social Security? '' [Zhaopin 
xian nanxing, rensheju zai nali?], WeChat Post, 16 February 17; China 
Labour Bulletin, ``China's Women Fight Back Against Workplace 
Discrimination,'' 8 March 17.
    \68\ ``Supreme People's Court Model Cases on Enhancing Core 
Socialist Values'' [Zuigao renmin fayuan guanyu hongyang shehui zhuyi 
hexin jiazhiguan dianxing anli], 23 August 16; Wang Chunxia, ``Protect 
Women's Rights to Equal Employment Through Law'' [Yifa baohu funu 
pingdeng jiuye quan], China Women's News, 23 August 16.
    \69\ Supreme People's Court Judicial Committee, Supreme People's 
Court Provisions on Case Guidance Work, issued 26 November 10, 
reprinted in Stanford Law School, Guiding Cases Project, art. 7; Mark 
Jia, ``Chinese Common Law? Guiding Cases and Judicial Reform,'' Harvard 
Law Review, Vol. 129, No. 8 (10 June 16), 2213.
    \70\ ``Supreme People's Court Model Cases on Enhancing Core 
Socialist Values'' [Zuigao renmin fayuan guanyu hongyang shehui zhuyi 
hexin jiazhiguan dianxing anli], 23 August 16; Wang Chunxia, ``Protect 
Women's Rights to Equal Employment Through Law'' [Yifa baohu funu 
pingdeng jiuye quan], China Women's News, 23 August 16. For more 
information on recent gender discrimination cases, see CECC, 2016 
Annual Report, 6 October 16, 179-80.
    \71\ Wang Chunxia, ``Protect Women's Rights to Equal Employment 
Through Law'' [Yifa baohu funu pingdeng jiuye quan], China Women's 
News, 23 August 16.
    \72\ Fu Dongyan, ``Anti-Discrimination Law for Employment Should Be 
Introduced Soon'' [Fan jiuye qishi fa yinggai jinkuai chutai], China 
Women's News, reprinted in People's Daily, 15 March 17; Li Huifang, 
``NPC Delegate Luo He'an: Proposes Introducing `Anti-Employment 
Discrimination Law' '' [Quanguo renda daibiao luo he'an: tiqing chutai 
``fan jiuye qishi fa''], Red Net, 12 March 17.
    \73\ Yang Yifan, ``Protecting Rural Women's Land Contract Rights'' 
[Weihu nongcun funu tudi chengbao quanyi], China Women's News, 6 March 
17.
    \74\ Li Huiying, ``Rural Land Rights Certificates Should Safeguard 
Women's Legal Interests: Expert,'' Women of China, 22 April 16.
    \75\ Wei Zhezhe, ``Real Estate Bought in Wedlock, Why Can't a Name 
Be Added? '' [Hunnei gouzhi fangchan, weisha bu neng jia mingzi?], 
People's Daily, 19 October 16.
    \76\ ``Supreme People's Court Guidance on `Certain Issues on the 
Application of the PRC Marriage Law' (Three)'' [Zuigao renmin fayuan 
guanyu shiyong ``zhonghua renmin gongheguo hunyin fa'' ruogan wenti de 
jieshi (san)], issued 9 August 11, art. 10. See also CECC, 2015 Annual 
Report, 8 October 15, 174.
    \77\ Tania Branigan, ``For Richer, For Poorer: How China's Laws Put 
Women Second,'' Guardian, 24 February 15.
    \78\ ``Domestic Abuse Towards Women Happen Every 7.4 Seconds in 
China,'' CRI English, 25 November 16.
    \79\ PRC Anti-Domestic Violence Law [Zhonghua renmin gongheguo fan 
jiating baoli fa], passed 27 December 15, effective 1 March 16, chap. 
4.
    \80\ Luo Sha, ``Nation's Courts Issue Total of 1,284 Protection 
Orders Since Implementation of Anti-Domestic Violence Law'' [Fan jiabao 
fa shishi yilai quanguo fayuan fachu renshen anquan baohu ling 1284 
fen], Xinhua, 19 July 17. See also CECC, 2016 Annual Report, 6 October 
16, 180.
    \81\ Bibek Bhandari, ``Domestic Violence Law Ignored by Most 
Employers, Study Finds,'' Sixth Tone, 9 May 17.
    \82\ Ibid. See also Wang Chunxia, ``Seminar on Discussing Prominent 
Problems of Anti-Domestic Violence Law Held in Beijing,'' Women of 
China, 25 October 16.
    \83\ Emily Rauhala, ``Despite a New Law, China Is Failing Survivors 
of Domestic Violence,'' Washington Post, 7 February 17.
    \84\ Ibid. See also ``Effectiveness of Chinese Laws Against 
Abuse,'' CCTV, 25 November 16.
    \85\ Cherie Chan, ``Combating Stigma of Sexual Harassment in 
China,'' Deutsche Welle, 9 August 16.
    \86\ Wang Xiangxian et. al., ``Research on Gender-Based Violence 
and Masculinities in China: Quantitative Findings,'' UN Population Fund 
China Office, 2013, 25.
    \87\ Yu Mingshan, ``Chinese Family Planning Association: Over 30 
Percent of Surveyed College Students Suffered Sexual Violence or 
Harassment'' [Zhongguo jisheng xiehui: chao san cheng shoufang 
daxuesheng ceng zao xing baoli huo xing saorao], Xinmin Evening Post, 
27 September 16; Catherine Lai, ``Over 30 Per Cent of College Students 
in China have Experienced Sexual Violence or Harassment--Survey,'' Hong 
Kong Free Press, 29 September 16.
    \88\ China Labour Bulletin, ``Why Sexual Harassment Persists in the 
Workplace,'' 9 January 17.

                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking

                           Human Trafficking


                       Defining Human Trafficking

    As a State Party to the UN Protocol to Prevent, Suppress 
and Punish Trafficking in Persons, Especially Women and 
Children (UN TIP Protocol),\1\ China is obligated to enact 
legislation criminalizing human trafficking as defined by the 
UN TIP Protocol.\2\ The definition of human trafficking under 
the PRC Criminal Law,\3\ however, remains inconsistent with UN 
TIP Protocol standards.\4\ The UN TIP Protocol definition of 
human trafficking involves three components: the action of 
recruiting, transporting, harboring, or receiving persons; the 
means of coercion, deception, or control; \5\ and ``the purpose 
of exploitation,'' including sexual exploitation or forced 
labor.\6\ Chinese law focuses on the act of selling a woman or 
child,\7\ rather than the purpose of exploitation.\8\ The 
definition of trafficking in the PRC Criminal Law does not 
clearly cover all forms of trafficking in the UN TIP 
Protocol,\9\ including certain types of non-physical coercion; 
\10\ offenses against male victims; \11\ and forced labor,\12\ 
though forced labor is illegal under a separate provision of 
the law.\13\ In addition, the Chinese legal definition of 
trafficking includes the purchase or abduction of children for 
subsequent sale without specifying the purpose of these 
actions.\14\ Under the UN TIP Protocol, illegal adoptions 
constitute trafficking only if the purpose is exploitation.\15\ 
Human trafficking experts note a dearth of reliable statistics 
on the scale of human trafficking in general; \16\ in China, 
inconsistencies between domestic law and international 
standards further contribute to the difficulty of assessing the 
scale of human trafficking.\17\ A scholar with the Centre for 
Human Rights Studies at the University of Zurich, Switzerland, 
argued that the discrepancies in the Chinese legal definition 
make international comparisons of human trafficking difficult 
and have ``serious, negative implications for formulating an 
effective national anti-trafficking strategy.'' \18\

                        Trends and Developments


                        CROSS-BORDER TRAFFICKING

    China remains a destination country for the trafficking of 
men, women, and children from throughout Asia,\19\ and a source 
country for trafficking to Europe, the United States, and 
elsewhere.\20\ Vietnamese media reported an increase in the 
number of victims of human trafficking in 2016; the majority of 
cases were reportedly women trafficked to China for forced 
marriage or sexual exploitation.\21\ According to a study of 
trafficked men and boys, Vietnamese males were also trafficked 
to China for the purpose of forced labor in factories.\22\ 
Burmese and Cambodian nationals were reportedly trafficked to 
China for forced marriage and forced labor,\23\ and Nepalese 
and Lao women were reportedly trafficked to China for sexual 
exploitation.\24\ According to the UN Office on Drugs and Crime 
and the International Organization for Migration, China is also 
a source country for human trafficking to Europe.\25\ This past 
year, the Commission observed reports of alleged human 
trafficking of Chinese nationals to the United States \26\ and 
elsewhere \27\ for forced labor and sexual exploitation.

                          DOMESTIC TRAFFICKING

    According to UN Action for Cooperation against Trafficking 
in Persons (UN-ACT), men, women, and children were trafficked 
within China's borders for forced labor, forced begging, forced 
marriage, and sexual exploitation.\28\ During this reporting 
year, the Commission observed domestic media reports of women, 
including women with intellectual disabilities, trafficked for 
the purpose of forced marriage,\29\ and of men trafficked for 
forced labor in brick kilns in Yunnan, Guizhou, and Guangdong 
provinces.\30\ A case involving the use of child labor by 
clothing manufacturers in Jiangsu province,\31\ also appeared 
to constitute trafficking for forced labor, as employers 
reportedly used violence against the children and withheld pay 
and identity documents.\32\ [For more information on this case 
and child labor in China, see Section II--Worker Rights--Child 
Labor.]

                   GOVERNMENT-SPONSORED FORCED LABOR

    This past year, the Chinese government subjected 
individuals to forced labor during pretrial detention and while 
held in administrative detention centers. The International 
Labour Organization (ILO) definition of forced labor makes an 
exception for labor performed ``as a consequence of a 
conviction in a court of law . . .''; \33\ however, the 
Commission observed reports of individuals performing forced 
labor in detention before trial.\34\ In a form of 
administrative detention known as compulsory drug 
detoxification, authorities detained suspected drug users 
without trial and reportedly required them to perform 
labor.\35\ According to a March 2017 article in the state-run 
news agency Xinhua, one compulsory drug detoxification center 
in Shaanxi province typically held detainees for two years.\36\ 
The center provided education and training for two months, and 
for the remainder of the time, detainees ``participated in 
handicraft labor.'' \37\ As the government does not convict 
compulsory detoxification detainees in court, the requirement 
to perform labor constitutes forced labor under the ILO 
definition \38\ and human trafficking under the UN TIP 
Protocol.\39\ Compulsory drug detoxification centers are 
similar to reeducation through labor (RTL),\40\ another form of 
administrative punishment in which detainees were detained 
without trial \41\ and subjected to forced labor.\42\ Although 
the government abolished RTL in 2013,\43\ Zhang Sujun, Vice 
Minister of the Ministry of Justice, said in November 2014 that 
authorities had converted most RTL facilities to compulsory 
drug detoxification centers.\44\
    According to the World Uyghur Congress (WUC), authorities 
in the Xinjiang Uyghur Autonomous Region (XUAR) subjected some 
Uyghur residents to hashar, a type of forced labor for public 
works projects.\45\ A November 2016 WUC report found that some 
local governments in the XUAR periodically required Uyghur 
residents to participate in forced labor under threat of 
financial penalty and detention.\46\ In February 2017, Uyghur 
farmers told Radio Free Asia that local officials claimed to 
have abolished hashar, yet still required Uyghur residents to 
participate in flood control and tree planting.\47\ Government-
sponsored compulsory labor constitutes forced labor as defined 
by the ILO \48\ and human trafficking under the UN TIP 
Protocol.\49\ [For more information on forced labor in the 
XUAR, see Section IV--Xinjiang.]

                              Risk Factors

    This past year, Chinese workers migrating within China and 
individuals with disabilities were at risk of human 
trafficking, and government restrictions on worker rights 
exacerbated this risk. Despite reforms, international observers 
reported that the household registration (hukou) system 
continued to disadvantage and marginalize internal migrant 
workers,\50\ reportedly exacerbating their vulnerability to 
trafficking.\51\ Migrant workers' children, often unable to 
migrate with their parents due in part to the hukou system,\52\ 
were also at an increased risk for human trafficking.\53\ [For 
more information on the hukou system, see Section II--Freedom 
of Residence and Movement.] Individuals with disabilities were 
at risk for forced marriage and forced labor, including forced 
begging.\54\ The Chinese government limits workers' right to 
freedom of association by restricting independent unions \55\ 
and limiting the right to collective bargaining.\56\ A 
September 2016 UN report noted that the government's failure to 
protect workers' fundamental right to freedom of association 
limits workers' ability to advocate for their rights, 
``directly contribut[ing] to problems such as human trafficking 
and slavery.'' \57\ [For more information on restrictions on 
worker rights in China, see Section II--Worker Rights.]
    In addition to domestic human trafficking, men, women, and 
children in neighboring countries face the risk of human 
trafficking into China. Poverty in Southeast Asian countries 
contributes to human trafficking from that region.\58\ Migrants 
and women are particularly at risk.\59\ The Chinese government 
continued to treat North Korean refugees as economic migrants 
and maintained a policy of repatriating undocumented North 
Koreans,\60\ leaving the refugees, who are predominantly women, 
vulnerable to trafficking for forced marriage.\61\ 
Additionally, the government of the Democratic People's 
Republic of Korea (DPRK) reportedly continued to generate 
revenue by sending North Korean nationals to work in China 
under conditions that one expert described as slave labor.\62\ 
Reporting from this past year indicated that North Korean 
security personnel accompanied the workers and withheld their 
passports.\63\ Workers reportedly worked up to 20 hours per day 
and typically did not receive their wages until they returned 
to North Korea.\64\ [For more information, see Section II--
North Korean Refugees in China.]
    China's sex ratio imbalance--exacerbated by government-
imposed birth limits and in keeping with a traditional bias for 
sons \65\--created a demand for marriageable women that may 
contribute to human trafficking for forced marriage and sexual 
exploitation.\66\ According to the National Bureau of 
Statistics of China, in 2016, China had approximately 33.59 
million more men than women.\67\ The official sex ratio at 
birth was approximately 113.5 boys born for every 100 girls in 
2015.\68\ According to demographers, a typical sex ratio at 
birth is within the range of 103 to 107 boys born for every 100 
girls.\69\ As of August 2017, the government had not released 
the sex ratio at birth for 2016. [For more information on 
China's population policies, see Section II--Population 
Control.]

                        Anti-Trafficking Efforts

    During this reporting year, the Supreme People's Court 
(SPC) issued an interpretation on the trafficking of women and 
children, while the number of human trafficking cases tried in 
the courts declined. The December 2016 SPC interpretation 
clarified the application of the law in trying trafficking 
cases.\70\ The interpretation specified the meaning of certain 
terms used in anti-trafficking provisions of the PRC Criminal 
Law,\71\ including defining ``children'' as under the age of 
14.\72\ This is inconsistent with the UN TIP Protocol, which 
defines children as under the age of 18.\73\ Additionally, the 
SPC Information Center and Judicial Cases Research Institute 
reported that Chinese courts tried 4 percent fewer human 
trafficking cases in the first nine months of 2016 than in the 
same period in 2015.\74\
    The Ministry of Public Security maintained a mobile 
application (app) launched in May 2016 to locate missing 
children.\75\ The app reportedly assisted in locating 533 
missing children, including 21 trafficked children, as of 
December 2016.\76\ This figure relies upon the definition of 
human trafficking in Chinese law,\77\ which does not conform to 
the UN TIP Protocol.\78\
    The Chinese government continued its involvement in the 
Coordinated Mekong Ministerial Initiative Against Trafficking 
(COMMIT),\79\ developing with other member states a set of 
common indicators of human trafficking and common guidelines 
for identifying trafficking victims.\80\ UN Action for 
Cooperation against Trafficking in Persons (UN-ACT), a project 
of the UN Development Programme that serves as the COMMIT 
Secretariat,\81\ reported that the new indicators and 
guidelines aimed to improve victim identification and service 
provision.\82\

                               Hong Kong

    This past year, Hong Kong remained \83\ a destination for 
human trafficking, with migrant domestic workers (MDWs) 
particularly at risk of exploitation for forced labor. The Hong 
Kong Census and Statistics Department's 2016 annual digest 
reported that in 2015, there were over 340,000 MDWs working for 
households in Hong Kong, the majority of whom came from the 
Philippines and Indonesia.\84\ According to local and regional 
non-governmental organizations, MDWs are often in debt due to 
excessive fees paid to employment agencies both in their home 
countries and in Hong Kong, and many employers exert control 
over MDWs by confiscating their passports, preventing them from 
contacting friends and family, and in some cases through 
physical and emotional abuse.\85\ Local advocacy groups noted 
that two regulations--requiring MDWs to live with their 
employers \86\ and to leave Hong Kong within two weeks of 
termination of a contract \87\--contributed to MDWs' risk of 
exploitation for forced labor.\88\
    A December 2016 ruling by the High Court of the Hong Kong 
Special Administrative Region, Court of First Instance, found 
that Hong Kong's laws do not adequately address human 
trafficking.\89\ The current definition of human trafficking in 
Hong Kong's Crimes Ordinance covers only the cross-border 
movement of persons ``for the purpose of prostitution'' and not 
other forms of trafficking such as trafficking within Hong 
Kong's borders and forced labor.\90\ A victim of human 
trafficking challenged the Hong Kong government in court, 
arguing that Hong Kong's Bill of Rights Ordinance requires the 
Hong Kong government to enact stronger anti-trafficking 
legislation.\91\ In December 2016, the court ruled in favor of 
the victim, finding that the Hong Kong government had an 
obligation under the Bill of Rights Ordinance ``to enact 
measures to ensure the prohibition of forced or compulsory 
labour.'' \92\ Hong Kong lawmaker Kenneth Leung submitted 
questions to the Hong Kong government regarding what steps it 
had taken following the December 2016 ruling.\93\ The 
government responded in June 2017 that it ``attaches great 
importance to combating [trafficking in persons],'' but also 
stated that human trafficking ``is not prevalent or widespread 
in Hong Kong,'' and that human trafficking ``is effectively 
prohibited by various pieces of existing legislation in Hong 
Kong.'' \94\ While China acceded to the UN TIP Protocol in 
2010, the Chinese central government has not extended the 
Protocol to apply to Hong Kong.\95\ [For more information on 
Hong Kong, see Section VI--Developments in Hong Kong and 
Macau.]

                                                         Human 
                                                    Trafficking
                                                Human 
                                                Trafficking
    Notes to Section II--Human Trafficking

    \1\ United Nations Treaty Collection, Chapter XVIII, Penal Matters, 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, supplementing the United Nations 
Convention against Transnational Organized Crime, last visited 12 May 
17.
    \2\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 5.1. See also UN Human Rights Council, Report of 
the Special Rapporteur on Trafficking in Persons, Especially Women and 
Children, Maria Grazia Giammarinaro, A/HRC/35/37, 28 March 17, para. 
14.
    \3\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240.
    \4\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03. Topics that need to be addressed in domestic 
legislation to bring it into compliance with the UN TIP Protocol 
include the addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol, Article 3(a)), the 
trafficking of men (covered under the definition of ``trafficking in 
persons'' in Article 3(a) of the UN TIP Protocol), and stipulating the 
``purpose of exploitation'' (see UN TIP Protocol, Article 3(a)). For an 
examination of the ways in which Chinese laws are inconsistent with the 
UN TIP Protocol, see Bonny Ling, ``Human Trafficking and China: 
Challenges of Domestic Criminalisation and Interpretation,'' Asia-
Pacific Journal on Human Rights and the Law, Vol. 17 (2016), 148-77.
    \5\ UN Office on Drugs and Crime, ``What Is Human Trafficking? '' 
last visited 11 June 17; UN Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime (UN 
TIP Protocol), adopted by General Assembly resolution 55/25 of 15 
November 00, entry into force 25 December 03, art. 3(a). Note that for 
children younger than 18 years old, the means described in Article 3(a) 
are not required for an action to constitute human trafficking.
    \6\ Ibid.; Ibid., art. 3(a), (c), (d). For information on how 
international standards regarding forced labor fit into the framework 
of the UN TIP Protocol, see International Labour Office, International 
Labour Organization, ``Human Trafficking and Forced Labour 
Exploitation: Guidance for Legislation and Law Enforcement,'' 2005, 7-
15; International Labour Office, International Labour Organization, 
``Hard To See, Harder To Count: Survey Guidelines To Estimate Forced 
Labour of Adults and Children,'' Second Edition, 2012, 12, 19; 
International Labour Organization, ``Questions and Answers on Forced 
Labour,'' last visited 13 April 17.
    \7\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 240. The PRC Criminal Law defines trafficking as 
``abducting, kidnapping, buying, trafficking in, fetching, sending, or 
transferring a woman or child, for the purpose of selling [the 
victim].''
    \8\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 159.
    \9\ Ibid., 151, 166; PRC Criminal Law [Zhonghua renmin gongheguo 
xing fa], passed 1 July 79, amended 14 March 97, effective 1 October 
97, amended 25 December 99, 31 August 01, 29 December 01, 28 December 
02, 28 February 05, 29 June 06, 28 February 09, 25 February 11, 29 
August 15, effective 1 November 15, art. 240; UN Protocol to Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children, Supplementing the United Nations Convention against 
Transnational Organized Crime (UN TIP Protocol), adopted by General 
Assembly resolution 55/25 of 15 November 00, entry into force 25 
December 03, art. 3(a). See also UN Office on Drugs and Crime, ``What 
Is Human Trafficking? '' last visited 12 April 17.
    \10\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 159; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 240; UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by General Assembly resolution 55/25 of 15 November 00, entry 
into force 25 December 03, art. 3(a). See also Office To Monitor and 
Combat Trafficking in Persons, U.S. Department of State, ``Trafficking 
in Persons Report,'' 19 June 13, 130.
    \11\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 160, 166; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 240; UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by General Assembly resolution 55/25 of 15 November 00, entry 
into force 25 December 03, art. 3(a). See also Supreme People's Court 
Information Center and Judicial Cases Research Institute, ``Judicial 
Big Data Special Report on Crimes Involving Trafficking'' [Sifa da 
shuju zhuanti baogao she guai fanzui], 22 December 16, 11. The PRC 
Criminal Law defines trafficking as ``abducting, kidnapping, buying, 
trafficking in, fetching, sending, or transferring a woman or child, 
for the purpose of selling [the victim].''
    \12\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 159; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 240; UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by General Assembly resolution 55/25 of 15 November 00, entry 
into force 25 December 03, art. 3(a).
    \13\ PRC Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, effective 
1 November 15, art. 244.
    \14\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 166-67, 170-71; PRC Criminal 
Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 
March 97, effective 1 October 97, amended 25 December 99, 31 August 01, 
29 December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 240; UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by General Assembly resolution 55/25 of 15 November 00, entry 
into force 25 December 03, art. 3(a). The PRC Criminal Law defines 
trafficking as ``abducting, kidnapping, buying, trafficking in, 
fetching, sending, or transferring a woman or child, for the purpose of 
selling [the victim].'' In contrast, the purpose of exploitation is a 
key element of the UN TIP Protocol definition of human trafficking. For 
reports from the 2017 reporting year that describe the sale of children 
as human trafficking without specifying the purpose of the sale, see, 
e.g., Chen Xiaobo, ``Zhejiang Announces Sentences in Large Cross-
Provincial Infant Trafficking Case, First Defendant Receives Suspended 
Death Sentence'' [Zhejiang xuanpan yiqi teda kuasheng fanying an di yi 
beigaoren bei pan sihuan], Xinhua, 4 November 16; Zhu Hengshun, 
``Combating Trafficking in Women and Children Also Requires Amending 
the `Adoption Law' '' [Daji guaimai ertong funu yexu xiugai ``shouyang 
fa''], Beijing News, 24 December 16.
    \15\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entry into force 25 December 03, art. 3(a), (c). The purpose of 
exploitation is one of the required elements of a trafficking case 
under Article 3 of the UN TIP Protocol. See also UN General Assembly, 
Report of the Ad Hoc Committee on the Elaboration of a Convention 
against Transnational Organized Crime on the Work of Its First to 
Eleventh Sessions, Addendum, Interpretive Notes for the Official 
Records (Travaux Preparatoires) of the Negotiation of the United 
Nations Convention against Transnational Organized Crime and Protocols 
Thereto, A/55/383/Add.1, 3 November 00, para. 66; Bonny Ling, ``Human 
Trafficking and China: Challenges of Domestic Criminalisation and 
Interpretation,'' Asia-Pacific Journal on Human Rights and the Law, 
Vol. 17 (2016), 171.
    \16\ Anne T. Gallagher, ``Editorial: The Problems and Prospects of 
Trafficking Prosecutions: Ending Impunity and Securing Justice,'' Anti-
Trafficking Review, Issue 6 (2016), 2-3; Jan van Dijk and Peter G.M. 
van der Heijden, ``Multiple Systems Estimation for Estimating the 
Number of Victims of Human Trafficking Across the World,'' UN Office on 
Drugs and Crime, 15 June 16, 2-4; Patrick L. Kerr and Rachel Dash, 
``Ethical Considerations in Mandatory Disclosure of Data Acquired While 
Caring for Human Trafficking Survivors,'' AMA Journal of Ethics, Vol. 
19, No. 1 (January 2017), 45-46.
    \17\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 177; Office To Monitor and 
Combat Trafficking in Persons, U.S. Department of State, ``Trafficking 
in Persons Report,'' June 2016, 131.
    \18\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 176-77.
    \19\ See, e.g., Nicola S. Pocock et al., ``Labour Trafficking Among 
Men and Boys in the Greater Mekong Subregion: Exploitation, Violence, 
Occupational Health Risks and Injuries,'' PLoS ONE, Vol. 11, No. 12 (16 
December 16), 7; ``Chinese Marriage Proposals Become Prostitution 
Nightmares for Some Lao Girls,'' Radio Free Asia, 13 February 17; UN 
Office on Drugs and Crime, ``Global Report on Trafficking in Persons 
2016,'' December 2016, 106.
    \20\ See, e.g., UN Office on Drugs and Crime, ``Global Report on 
Trafficking in Persons 2016,'' December 2016, 76, 106; Polaris, ``More 
Assistance. More Action. 2016 Statistics From the National Human 
Trafficking Hotline and BeFree Textline,'' January 2017, 2; Kong 
Linghan, ``Chinese Individuals With Disabilities Trafficked to Malaysia 
To Beg'' [Zhongguo canjiren bei guaipian dao malaixiya xingqi], Beijing 
Youth Daily, 19 October 16.
    \21\ ``Rise in Organised Crime Reported,'' Viet Nam News, 8 March 
17; ``Vietnam's Human Trafficking Victims Rise 13 Pct in 2016,'' 
VnExpress International, 6 January 17; ``VN Faces Growing Human 
Trafficking to China,'' Viet Nam News, 24 October 16. See also Zhang 
Yan, ``China, Vietnam Fight Human-Trafficking,'' China Daily, 22 May 
17.
    \22\ Nicola S. Pocock et al., ``Labour Trafficking Among Men and 
Boys in the Greater Mekong Subregion: Exploitation, Violence, 
Occupational Health Risks and Injuries,'' PLoS ONE, Vol. 11, No. 12 (16 
December 16), 7.
    \23\ Office To Monitor Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report--Burma,'' June 2017; San Yamin 
Aung, ``Government Releases Trafficking Statistics for 2016,'' 
Irrawaddy, 11 January 17; Nadia Jung, Chab Dai Coalition, ``New Trends 
and Observations in Cambodian Trafficking Cases,'' 20 July 17; Khy 
Sovuthy and Zsombor Peter, ``Hopeful Fashion Students Trafficked to 
China To Work in Factory,'' Cambodia Daily, 9 January 17.
    \24\ Office To Monitor Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report--Nepal,'' June 2017; Bikash 
Sangraula, ``Traffickers Ensnaring Easy Targets in Nepal 2 Years After 
Quakes,'' Kyodo News, 24 April 17; ``Chinese Marriage Proposals Become 
Prostitution Nightmares for Some Lao Girls,'' Radio Free Asia, 13 
February 17.
    \25\ UN Office on Drugs and Crime, ``Global Report on Trafficking 
in Persons 2016,'' December 2016, 76. See also International 
Organization for Migration, ``China, EU Work To Combat Human 
Trafficking,'' 15 November 16.
    \26\ See, e.g., Polaris, ``More Assistance. More Action. 2016 
Statistics From the National Human Trafficking Hotline and BeFree 
Textline,'' January 2017, 2; Lee Rood, ``Des Moines Identified as Top 
100 Human Trafficking Site,'' Des Moines Register, 16 November 16; 
``Wis. Veterinarian Sentenced for Sex, Labor Trafficking in Twin 
Cities,'' WCCO CBS Minnesota, 8 March 17.
    \27\ See, e.g., Kong Linghan, ``Chinese Individuals With 
Disabilities Trafficked to Malaysia To Beg'' [Zhongguo canjiren bei 
guaipian dao malaixiya xingqi], Beijing Youth Daily, 19 October 16; 
Chester Robards, ``Human Rights Group Wants Probe After DPM Revealed 
CCA Workers' Passports Withheld,'' Nassau Guardian, 20 March 17; Isla 
Binnie, ``Spanish Police Arrest 25 in Suspected Chinese Mafia Bust,'' 
Reuters, 19 April 17; UN Office on Drugs and Crime, ``Global Report on 
Trafficking in Persons 2016,'' December 2016, 106.
    \28\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``China,'' last visited 13 April 17.
    \29\ See, e.g., Chen Tong, ``Woman With Intellectual Disability 
Trafficked Several Times, Tuanfeng Police Crack Trafficking in Women 
Case, 3 Caught'' [Zhizhang nu bei duo ci guaimai tuanfeng jingfang 
pohuo guaimai funu an 3 ren luowang], China News Service, 25 November 
16; Li Bin, ``Man Who Trafficked Woman With Intellectual Disability 
Sentenced'' [Nanzi guaimai zhizhang nu bei panxing], Anhui Legal News, 
6 December 16; Sun Shengfeng and Yi Zhang, ``Ziyuan Girl Went Out To 
Work, Trafficked to Fujian Mountains, To Be Wife of Man in His 
Forties'' [Ziyuan shaonu waichu dagong bei guaimai dao fujian shanli 
gei 4 xun nanzi dang laopo], Guilin Life, 25 January 17.
    \30\ Chen Jin and Ma Junjie, ``Putian Man Trapped in Illegal Yunnan 
Brick Kiln for 13 Years: Only Two Meals a Day, Beaten for Running 
Away'' [Putian nanzi bei kun yunnan hei zhuan chang 13 nian: yitian jin 
liang dun fan taopao zao duda], Southeast Net, 10 November 16; Qiu 
Yanxia, ``Lincang Man Escapes Illegal Brick Kiln, Warm-Hearted Traffic 
Police Help Him Return Home'' [Lincang nanzi taochu hei zhuan chang 
nuanxin jiaojing zhu qi hui jiaxiang], Qujing Daily, 16 March 17.
    \31\ ``Sale of Yunnan Child Workers Exposed in China's Clothing 
Capital: Yunnan Kids Easily Cheated'' [Zhongguo fuzhuang zhi du bei pu 
maimai yunnan tonggong: yunnan wa hao pian], Chuncheng Evening Post, 
reprinted in Sina, 21 November 16.
    \32\ Ibid.; International Labour Organization, ``Questions and 
Answers on Forced Labour,'' last visited 13 April 17. The International 
Labour Organization lists ``withholding of wages or identity documents 
[and] physical or sexual violence'' as indicators of forced labor. UN 
Protocol to Prevent, Suppress and Punish Trafficking in Persons, 
Especially Women and Children, Supplementing the United Nations 
Convention against Transnational Organized Crime (UN TIP Protocol), 
adopted by General Assembly resolution 55/25 of 15 November 00, entry 
into force 25 December 03, art. 3(a), (c), (d). Note that for children 
under age 18, the means described in Article 3(a) are not required for 
an action to constitute human trafficking.
    \33\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2.1, 2.2(c); 
``Ratifications of CO29--Forced Labour Convention, 1930 (No. 29),'' 
International Labour Organization, last visited 10 July 17. Article 2.1 
defines forced or compulsory labor as ``all work or service which is 
exacted from any person under the menace of any penalty and for which 
the said person has not offered himself voluntarily.'' China has not 
ratified this convention.
    \34\ Rights Defense Network, ``Lawyers Huang Simin and Ge Yongxi: 
Record of Pre-Spring Festival Meeting With Li Tingyu (January 14, 
2017)'' [Huang simin lushi, ge yongxi lushi: chunjie qian huijian li 
tingyu xiao ji (2017 nian 1 yue 14 ri)], 15 January 17; Yang Baolu, `` 
`Hope for Acquittal, Don't Want To Lose My Job' '' [``Qiwang wu zui 
panjue, bu xiang diudiao gongzuo''], Beijing Youth Daily, 16 February 
17.
    \35\ Patrick Tibke, International Drug Policy Consortium, ``Drug 
Dependence Treatment in China: A Policy Analysis,'' February 2017, 4, 
8; Global Commission on Drug Policy, ``Advancing Drug Policy Reform: A 
New Approach to Decriminalization,'' 2016, 14. For relevant legal 
provisions, see PRC Narcotics Law [Zhonghua renmin gongheguo jindu fa], 
passed 29 December 07, effective 1 June 08, arts. 38, 41, 43, 47; State 
Council, Drug Detoxification Regulations [Jiedu tiaoli], issued 26 June 
11; Ministry of Justice, Judicial and Administrative Bureaus Compulsory 
Drug Detoxification Work Regulations [Sifa xingzheng jiguan qiangzhi 
geli jiedu gongzuo gui-
ding], issued 3 April 13, effective 1 June 13. See also Human Rights 
Watch, `` `Where Darkness Knows No Limits': Incarceration, Ill-
Treatment, and Forced Labor as Drug Rehabilitation in China,'' January 
2010, 27-31.
    \36\ ``Shaanxi Province Women's Compulsory Drug Detoxification 
Center Hosts Open House, Calls on Everyone To Stay Away From Drugs'' 
[Shaanxi sheng nu qiangzhi geli jiedusuo kaifang ri huodong huyu dajia 
yuanli dupin], Xinhua, 8 March 17.
    \37\ Ibid.
    \38\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2. See also 
Patrick Tibke, International Drug Policy Consortium, ``Drug Dependence 
Treatment in China: A Policy Analysis,'' February 2017, 8; Human Rights 
Watch, `` `Where Darkness Knows No Limits': Incarceration, Ill-
Treatment, and Forced Labor as Drug Rehabilitation in China,'' January 
2010, 27-31.
    \39\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3(a). Compulsory drug detoxification center 
detainee labor can be viewed as constituting trafficking under Article 
3(a) of the UN TIP Protocol, as authorities engage in the 
``harbouring'' and ``receipt of persons, by means of the threat or use 
of force . . . for the purpose of exploitation.'' According to Article 
3(a), exploitation includes ``forced labour.'' See also Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report,'' June 2017, 126, 128.
    \40\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13, 9.
    \41\ Ibid., 5; Human Rights Watch, ``China: Fully Abolish Re-
Education Through Labor,'' 8 January 13; State Council, Decision on the 
Issue of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang 
wenti de jueding], issued 3 August 57, item 3; State Council, 
Supplementary Provisions on Reeducation Through Labor [Guowuyuan guanyu 
laodong jiaoyang de buchong guiding], issued 29 November 79, items 1-2.
    \42\ Amnesty International, `` `Changing the Soup but Not the 
Medicine?': Abolishing Re-Education Through Labour in China,'' 17 
December 13, 17-18; Human Rights Watch, ``China: Fully Abolish Re-
Education Through Labor,'' 8 January 13; State Council, Decision on the 
Issue of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang 
wenti de jueding], issued 3 August 57, item 2.
    \43\ National People's Congress Standing Committee, Decision on 
Abolishing Legal Provisions Regarding Reeducation Through Labor 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu feizhi youguan 
laodong jiaoyang falu guiding de jueding], issued and effective, 28 
December 13; Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2016, 130.
    \44\ Sun Ying, ``Ministry of Justice: Vast Majority of Nation's 
Former Reeducation Through Labor Centers Have Been Turned Into 
Compulsory Drug Detoxification Centers'' [Sifabu: quanguo jueda duoshu 
yuan laojiao changsuo zhuan wei qiangzhi geli jiedu changsuo], China 
National Radio, 5 November 14.
    \45\ World Uyghur Congress, ``Forced Labour in East Turkestan: 
State-Sanctioned Hashar System,'' November 2016, 4-5. See also ``For 
Xinjiang's Uyghurs, `Hashar' by Any Other Name Still Means Forced 
Labor,'' Radio Free Asia, 16 February 17.
    \46\ World Uyghur Congress, ``Forced Labour in East Turkestan: 
State-Sanctioned Hashar System,'' November 2016, 4.
    \47\ ``For Xinjiang's Uyghurs, `Hashar' by Any Other Name Still 
Means Forced Labor,'' Radio Free Asia, 16 February 17.
    \48\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30, art. 2. See also 
Office To Monitor and Combat Trafficking in Persons, U.S. Department of 
State, ``Trafficking in Persons Report,'' June 2017, 126, 128.
    \49\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3(a). Compulsory labor in the Xinjiang Uyghur 
Autonomous Region can be viewed as constituting trafficking under 
Article 3(a) of the UN TIP Protocol, as authorities engage in the 
``harbouring'' and ``receipt of persons, by means of the threat or use 
of force . . . for the purpose of exploitation.'' According to Article 
3(a), exploitation includes ``forced labour.'' See also Office To 
Monitor and Combat Trafficking in Persons, U.S. Department of State, 
``Trafficking in Persons Report,'' June 2017, 126, 128.
    \50\ Cara Wallis, ``Hukou Reform and China's Migrant Workers,'' 
University of Nottingham, China Policy Institute: Analysis (blog), 10 
October 16; Spencer Sheehan, ``China's Hukou Reforms and the 
Urbanization Challenge,'' The Diplomat, 22 February 17; Bonny Ling, 
``Human Trafficking and China: Challenges of Domestic Criminalisation 
and Interpretation,'' Asia-Pacific Journal on Human Rights and the Law, 
Vol. 17 (2016), 157.
    \51\ Bonny Ling, ``Human Trafficking and China: Challenges of 
Domestic Criminalisation and Interpretation,'' Asia-Pacific Journal on 
Human Rights and the Law, Vol. 17 (2016), 157; Office To Monitor and 
Combat Trafficking in Persons, U.S. Department of State, ``Trafficking 
in Persons Report,'' June 2017, 128.
    \52\ ``The Changing Face of China's Migrant Population,'' 
Economist, 2 December 16; Mark Robertson and Aine McCarthy, ICTI Care 
Foundation, ``Supply Chain Solutions to China's Left-Behind Children 
Problem,'' 20 November 16; China Labour Bulletin, ``Migrant Workers and 
Their Children,'' last visited 10 May 17.
    \53\ ``Lawmaker Calls for End to Issue of Left-Behind Children,'' 
Xinhua, reprinted in China Daily, 9 March 17; Mark Robertson and Aine 
McCarthy, ICTI Care Foundation, ``Supply Chain Solutions to China's 
Left-Behind Children Problem,'' 20 November 16.
    \54\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``China,'' last visited 13 April 17; Kevin Schoenmakers, 
``Mentally Disabled Freed From Slavery in Yunnan Brick Kiln,'' Sixth 
Tone, 18 September 16; Kong Linghan, ``Chinese Individuals With 
Disabilities Abducted and Taken to Malaysia To Beg'' [Zhongguo canjiren 
bei guaipian dao malaixiya xingqi], Beijing Youth Daily, 19 October 16; 
Chen Tong, ``Woman With Intellectual Disability Trafficked Several 
Times, Tuanfeng Police Crack Trafficking in Women Case, 3 Caught'' 
[Zhizhang nu bei duo ci guaimai tuanfeng jingfang pohuo guaimai funu an 
3 ren luowang], China News Service, 25 November 16.
    \55\ PRC Trade Union Law [Zhonghua renmin gongheguo gonghui fa], 
passed 3 April 92, amended and effective 27 October 01, arts. 9-11; 
``China's Complicated Relationship With Workers' Rights,'' World 
Politics Review, 25 January 17; Aaron Halegua, ``Who Will Represent 
China's Workers? Lawyers, Legal Aid, and the Enforcement of Labor 
Rights,'' New York University School of Law, U.S.-Asia Law Institute, 
October 2016, 11. See also UN Committee on Economic, Social and 
Cultural Rights, Concluding Observations on the Second Periodic Report 
of China, including Hong Kong, China, and Macao, China, adopted by the 
Committee at its 40th Meeting (23 May 2014), E/C.12/CHN/CO/2, 13 June 
14, para. 23. For relevant international standards regarding the right 
to freely form and join independent unions, see International Labour 
Organization, ILO Convention (No. 87) Concerning Freedom of Association 
and Protection of the Right To Organise, 4 July 50, arts. 2, 3, 5; 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, art. 23(4); 
International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 22.1; International Covenant on Economic, 
Social and Cultural Rights, adopted by UN General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 3 January 76, art. 8.1.
    \56\ Eli Friedman, ``Collective Bargaining Is Dead: The Situation 
Is Excellent,'' Chinoiresie, 20 April 17; Aaron Halegua, ``Who Will 
Represent China's Workers? Lawyers, Legal Aid, and the Enforcement of 
Labor Rights,'' New York University School of Law, U.S.-Asia Law 
Institute, October 2016, 11, 43; Chun Han Wong, ``Chinese Labor 
Activists Handed Suspended Sentences,'' Wall Street Journal, 26 
September 16. For relevant international standards regarding the right 
to collective bargaining, see International Labour Organization, ILO 
Convention (No. 98) Concerning the Application of the Principles of the 
Right to Organise and to Bargain Collectively, 18 July 51; 
International Labour Organization, ILO Convention (No. 154) Concerning 
the Promotion of Collective Bargaining, 11 August 83; International 
Labour Organization, ILO Declaration on Fundamental Principles and 
Rights at Work and Its Follow-Up, 18 June 98, art. 2(a).
    \57\ UN General Assembly, Report of the Special Rapporteur on the 
Rights to Freedom of Peaceful Assembly and of Association, Maina Kiai, 
A/71/385, 14 September 16, paras. 2, 4, 11, 74.
    \58\ Catherine Renshaw, ``Human Trafficking in Southeast Asia: 
Uncovering the Dynamics of State Commitment and Compliance,'' Michigan 
Journal of International Law, Vol. 37, Issue 4 (2016), 629, 656; Siv 
Hong Lim, ``Cross-Border Labor Migration Surges in Cambodia, Raising 
Risk of Human Trafficking,'' Asia Foundation, In Asia (blog), 14 
December 16; ``Vietnam's Human Trafficking Victims Rise 13 Pct in 
2016,'' VnExpress International, 6 January 17.
    \59\ Office To Monitor and Combat Trafficking in Persons, U.S. 
Department of State, ``Trafficking in Persons Report,'' June 2017, 108, 
115, 129, 245-46, 428; Nicola S. Pocock et al., ``Labour Trafficking 
Among Men and Boys in the Greater Mekong Subregion: Exploitation, 
Violence, Occupational Health Risks and Injuries,'' PLoS ONE, Vol. 11, 
No. 12 (16 December 16), 2; International Organization for Migration, 
``Myanmar,'' last visited 11 May 17; Siv Hong Lim, ``Cross-Border Labor 
Migration Surges in Cambodia, Raising Risk of Human Trafficking,'' Asia 
Foundation, In Asia (blog), 14 December 16; UN Action for Cooperation 
against Trafficking in Persons (UN-ACT), ``Human Trafficking 
Vulnerabilities in Asia: A Study on Forced Marriage Between Cambodia 
and China,'' 25 August 16, v; ``Vietnam's Human Trafficking Victims 
Rise 13 Pct in 2016,'' VnExpress International, 6 January 17.
    \60\ Human Rights Watch, ``China: Don't Force 8 Refugees Back to 
North Korea,'' 23 April 17; ``North Korean Defectors Urge China To Help 
People Fleeing Hermit State,'' Kyodo, reprinted in South China Morning 
Post, 18 March 17; Christine Chung, Committee for Human Rights in North 
Korea, ``North Korean Mothers Fight To Be Reunited With Stateless 
Children Left Behind in China,'' HRNK Insider (blog), 4 November 16. 
See also UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46.
    \61\ Jubilee Campaign, ``Statement Submitted by Jubilee Campaign, a 
Non-Governmental Organization in Consultative Status With the Economic 
and Social Council,'' UN Commission on the Status of Women, E/CN.6/
2017/NGO/103, 28 November 16, 2-3; ``North Korean Defectors Urge China 
To Help People Fleeing Hermit State,'' Kyodo, reprinted in South China 
Morning Post, 18 March 17; Christine Chung, Committee for Human Rights 
in North Korea, ``North Korean Mothers Fight To Be Reunited With 
Stateless Children Left Behind in China,'' HRNK Insider (blog), 4 
November 16.
    \62\ Sylvia Yu, ``Gaps in Records Cloak China's North Korean `Slave 
Labourers' in Mystery,'' South China Morning Post, 10 August 17; Sue-
Lin Wong and Philip Wen, ``North Korea Factories Humming With `Made in 
China' Clothes, Traders Say,'' Reuters, 12 August 17. For information 
on North Korean workers in China from previous reporting years, see UN 
General Assembly, Situation of Human Rights in the Democratic People's 
Republic of Korea, A/70/362, 8 September 15, paras. 24-27; Shin Chang-
Hoon and Go Myong-Hyun, Asan Institute for Policy Studies, ``Beyond the 
UN COI Report on Human Rights in DPRK,'' 11 December 14, 21-30; 
International Network for the Human Rights of North Korean Overseas 
Labor, ``The Conditions of the North Korean Overseas Labor,'' December 
2012, 19-21; CECC, 2016 Annual Report, 6 October 16, 186.
    \63\ Sylvia Yu, ``Gaps in Records Cloak China's North Korean `Slave 
Labourers' in Mystery,'' South China Morning Post, 10 August 17.
    \64\ Ibid.
    \65\ Zhuang Pinghui, ``Boys To Vastly Outnumber Girls in China for 
Years: Population Official,'' South China Morning Post, 12 October 16; 
Liberty Asia and Thomson Reuters Foundation, ``From Every Angle: Using 
the Law To Combat Human Trafficking in Southeast Asia,'' November 2014, 
44; Population Reference Bureau, ``PRB Discuss Online: Will China Relax 
Its One-Child Policy? '' 22 February 11.
    \66\ ``Vietnam's Human Trafficking Victims Rise 13 Pct in 2016,'' 
VnExpress International, 6 January 17; Get It Right This Time: A 
Victims-Centered Trafficking in Persons Report, Hearing of the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Committee on Foreign Affairs, U.S. House 
of Representatives, 22 March 16, Testimony of Mark Lagon, President, 
Freedom House; Liberty Asia and Thomson Reuters Foundation, ``From 
Every Angle: Using the Law To Combat Human Trafficking in Southeast 
Asia,'' November 2014, 44.
    \67\ National Bureau of Statistics of China, ``People's Republic of 
China 2016 National Economic and Social Development Statistical 
Bulletin'' [Zhonghua renmin gongheguo 2016 nian guomin jingji he shehui 
fazhan tongji gongbao], 28 February 17.
    \68\ National Bureau of Statistics of China, ``2015 National 
Economy Steadily Progressing and Stable'' [2015 nian guomin jingji 
yunxin wenzhong youjin, wenzhong youhao], 19 January 16.
    \69\ See, e.g., UN Department of Economic and Social Affairs, ``The 
World's Women 2015: Trends and Statistics,'' 2015, 6; Christophe Z. 
Guilmoto, ``Skewed Sex Ratios at Birth and Future Marriage Squeeze in 
China and India, 2005-2100,'' Demography, Vol. 49 (2012), 77-78; Stuart 
Basten and Georgia Verropoulou, `` `Maternity Migration' and the 
Increased Sex Ratio at Birth in Hong Kong SAR,'' Population Studies, 
Vol. 67, No. 3 (2013), 325; Population Control in China: State-
Sponsored Violence Against Women and Children, Hearing of the 
Congressional-Executive Commission on China, 30 April 15, Testimony of 
Dr. Nicholas Eberstadt, Henry Wendt Chair in Political Economy, 
American Enterprise Institute for Public Policy Research, 2.
    \70\ Supreme People's Court, Interpretation of Certain Issues 
Regarding the Specific Application of Laws for Trying Trafficking of 
Women and Children Cases [Zuigao renmin fayuan guanyu shenli guaimai 
funu ertong fanzui anjian juti yingyong falu ruogan wenti de jieshi], 
issued 22 December 16, effective 1 January 17.
    \71\ Ibid., arts. 1, 9.
    \72\ Ibid., art. 9.
    \73\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime (UN TIP 
Protocol), adopted by General Assembly resolution 55/25 of 15 November 
00, entry into force 25 December 03, art. 3(d).
    \74\ Supreme People's Court Information Center and Judicial Cases 
Research Institute, ``Judicial Big Data Special Report on Crimes 
Involving Trafficking'' [Sifa da shuju zhuanti baogao she guai fanzui], 
22 December 16, 3.
    \75\ Ren Huan, `` `Everyone Combatting Trafficking' Aids in 
Reunions'' [``Quanmin daguai'' zhu tuanyuan], Guangming Daily, 26 
January 17; Ryan Woo, ``Mobile App Helps China Recover Hundreds of 
Missing Children,'' Reuters, 4 February 17; ``China's Online Platform 
Helps Track Down 260 Missing Kids,'' Asia One, 17 November 16.
    \76\ Ren Huan, `` `Everyone Combatting Trafficking' Aids in 
Reunions'' [``Quanmin daguai'' zhu tuanyuan], Guangming Daily, 26 
January 17.
    \77\ Ibid.; PRC Criminal Law [Zhonghua renmin gongheguo xing fa], 
passed 1 July 79, amended 14 March 97, effective 1 October 97, amended 
25 December 99, 31 August 01, 29 December 01, 28 December 02, 28 
February 05, 29 June 06, 28 February 09, 25 February 11, 29 August 15, 
effective 1 November 15, art. 240.
    \78\ UN Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, Supplementing the United 
Nations Convention against Transnational Organized Crime, adopted by 
General Assembly resolution 55/25 of 15 November 00, entry into force 
25 December 03, art. 3. Topics that need to be addressed in domestic 
legislation to bring it into compliance with the UN TIP Protocol 
include the addition of non-physical forms of coercion into the legal 
definition of trafficking (see UN TIP Protocol, Article 3(a)), the 
trafficking of men (covered under the definition of ``trafficking in 
persons'' in Article 3(a) of the UN TIP Protocol), and stipulating the 
``purpose of exploitation'' (see UN TIP Protocol, Article 3(a)). For an 
examination of the ways in which Chinese laws are inconsistent with the 
UN TIP Protocol, see Bonny Ling, ``Human Trafficking and China: 
Challenges of Domestic Criminalisation and Interpretation,'' Asia-
Pacific Journal on Human Rights and the Law, Vol. 17 (2016), 148-77.
    \79\ Memorandum of Understanding (MOU) on Cooperation against 
Trafficking in Persons in the Greater Mekong Sub-Region, signed 29 
October 04, reprinted in UN Action for Cooperation against Trafficking 
in Persons (UN-ACT), last visited 11 June 17. The six signatories to 
the MOU were Cambodia, China, Lao PDR, Burma (Myanmar), Thailand, and 
Vietnam.
    \80\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``New in `Tools & Guidelines': COMMIT Indicators of Human 
Trafficking & Guidelines on Victim Identification and Referral 
Mechanisms,'' 17 February 17; UN Action for Cooperation against 
Trafficking in Persons (UN-ACT), ``COMMIT SOM 11 in Vientiane, Lao PDR 
Concluded,'' 28 November 16; Coordinated Mekong Ministerial Initiative 
against Trafficking (COMMIT), ``Identifying Victims of Trafficking and 
Associated Forms of Exploitation: Common Indicators for First 
Responders,'' reprinted in UN Action for Cooperation against 
Trafficking in Persons (UN-ACT), November 2016; Coordinated Mekong 
Ministerial Initiative against Trafficking (COMMIT), ``Victim 
Identification and Referral Mechanisms: Common Guidelines for the 
Greater Mekong Sub-Region,'' reprinted in UN Action for Cooperation 
against Trafficking in Persons (UN-ACT), November 2016.
    \81\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``Who,'' last visited 12 May 17.
    \82\ UN Action for Cooperation against Trafficking in Persons (UN-
ACT), ``COMMIT SOM 11 in Vientiane, Lao PDR Concluded,'' 28 November 
16.
    \83\ For information on human trafficking in Hong Kong from 
previous reporting years, see CECC, 2016 Annual Report, 6 October 16, 
189-90; CECC, 2015 Annual Report, 8 October 15, 187-88.
    \84\ Census and Statistics Department, Hong Kong Special 
Administrative Region, ``Hong Kong Annual Digest of Statistics'' 
[Xianggang tongji niankan], October 2016, 43. The Hong Kong government 
refers to migrant domestic workers as ``foreign domestic helpers.'' For 
general information on migrant domestic workers, see International 
Labour Organization, ``Domestic Workers,'' last visited 12 July 17; 
International Labour Organization, ``Migrant Domestic Workers,'' last 
visited 12 July 17.
    \85\ Hong Kong Federation of Asian Domestic Workers and Progressive 
Labor Union of Domestic Workers in Hong Kong, ``Between a Rock and a 
Hard Place,'' October 2016, 4-5, 34, 36; Chenyu Liang, Migration Policy 
Institute, ``Maid in Hong Kong: Protecting Foreign Domestic Workers,'' 
Migration Information Source, 20 October 16; Mike Ives, ``After Window-
Washing Deaths, a Debate Over Migrants' Rights in Hong Kong,'' New York 
Times, Sinosphere (blog), 23 November 16; Justin Heifetz, ``Foreign 
Domestic Worker Abuse Is Rampant in Hong Kong,'' Vice, 4 April 17.
    \86\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad [Cong waiguo shoupin lai gang jiating 
yonggong qianzheng/yanchang douliu qixian shenqing biao], last visited 
21 April 17, 6(ii); Hong Kong Special Administrative Region Government, 
Immigration Department, Employment Contract for a Domestic Helper 
Recruited From Outside Hong Kong, last visited 21 April 17, item 3; 
Hong Kong Special Administrative Region Government, Immigration 
Department, ``Foreign Domestic Helpers,'' last visited 21 April 17, 
Q30.
    \87\ Hong Kong Special Administrative Region Government, 
Immigration Department, Visa/Extension of Stay Application Form for 
Domestic Helper From Abroad [Cong waiguo shoupin lai gang jiating 
yonggong qianzheng/yanchang douliu qixian shenqing biao], last visited 
21 April 17, 6(vi); Hong Kong Special Administrative Region Government, 
Immigration Department, ``Conditions of Employment for Foreign Domestic 
Helpers: A General Guide to the Helper,'' last visited 21 April 17, 
item 3; Hong Kong Special Administrative Region Government, Immigration 
Department, ``Foreign Domestic Helpers,'' last visited 21 April 17, 
Q33, Q44.
    \88\ Hong Kong Federation of Asian Domestic Workers and Progressive 
Labor Union of Domestic Workers in Hong Kong, ``Between a Rock and a 
Hard Place,'' October 2016, 4-5; Mike Ives, ``After Window-Washing 
Deaths, a Debate Over Migrants' Rights in Hong Kong,'' New York Times, 
Sinosphere (blog), 23 November 16; Justin Heifetz, ``Foreign Domestic 
Worker Abuse Is Rampant in Hong Kong,'' Vice, 4 April 17.
    \89\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, 
No. 15 of 2015, HCAL 15/2015, 23 December 16, paras. 351, 355-57, 367. 
See also Legislative Council of the Hong Kong Special Administrative 
Region, Hong Kong Bill of Rights Ordinance (Cap. 383) [Di 383 zhang 
xianggang renquan fa'an tiaoli], issued 8 June 91, amended 15 Feburary 
17, sec. 8, art. 4.
    \90\ Legislative Council of the Hong Kong Special Administrative 
Region, Crimes Ordinance (Cap. 200) [Di 200 zhang xingshi zuixing 
tiaoli], issued 31 December 72, amended 2 August 12, sec. 129(1); Hong 
Kong Bar Association, ``Hong Kong Bar Association's Submission to the 
United Nations Committee Against Torture,'' 17 October 15, para. 22; 
Liberty Asia and Reed Smith Richards Butler, ``Legal Overview of Human 
Trafficking in Hong Kong,'' 2015, 15.
    \91\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, 
No. 15 of 2015, HCAL 15/2015, 23 December 16. For details of the man's 
case, see paragraphs 160 and 161. For a discussion of the legal issues 
under consideration in the case, see paragraphs 162 and 163. See also 
Adam Severson, ``Reviewing Hong Kong's Human Trafficking Case,'' 
Justice Centre Hong Kong (blog), 15 January 16; Eddie Lee, ``South 
Asian in Judicial Review Had To Return to Hong Kong for Unpaid Wages, 
High Court Hears,'' South China Morning Post, 15 January 16; 
Legislative Council of the Hong Kong Special Administrative Region, 
Hong Kong Bill of Rights Ordinance (Cap. 383) [Di 383 zhang xianggang 
renquan fa'an tiaoli], issued 8 June 91, amended 15 February 17, sec. 
8, art. 4.
    \92\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, 
No. 15 of 2015, HCAL 15/2015, 23 December 16, paras. 351, 355-57, 366-
67.
    \93\ Hong Kong Special Administrative Region Government, ``LCQ21: 
Combating and Preventing Trafficking in Persons,'' 21 June 17.
    \94\ Ibid.
    \95\ United Nations Treaty Collection, Chapter XVIII, Penal 
Matters, 12.a., Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, supplementing the United 
Nations Convention against Transnational Organized Crime, last visited 
7 July 17. See also UN Committee on the Elimination of Discrimination 
against Women, Concluding Observations on the Combined Seventh and 
Eighth Periodic Reports of China, adopted by the Committee at its 59th 
Session (20 October-7 November 2014), CEDAW/C/CHN/CO/7-8, 14 November 
14, para. 56.

                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China

                     North Korean Refugees in China


                              Introduction

    During the Commission's 2017 reporting year, the Chinese 
government's policy of detaining North Korean refugees and 
repatriating them to the Democratic People's Republic of Korea 
(DPRK) remained in place, despite substantial evidence that 
repatriated persons face torture, imprisonment, execution, and 
other inhuman treatment.\1\ The Chinese government regards 
North Koreans who enter China without proper documentation as 
illegal economic migrants \2\ and maintains a policy of 
forcible repatriation based on a 1998 border protocol with the 
DPRK.\3\ China's repatriation of North Korean refugees 
contravenes its international obligations under the 1951 UN 
Convention Relating to the Status of Refugees and the 
Convention's 1967 Protocol, to which China has acceded.\4\ 
China is also obligated under the Convention against Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment 
to refrain from repatriating persons if there are ``grounds for 
believing that [they] would be in danger of being subject to 
torture.'' \5\

             Repatriation of Refugees and Border Conditions

    This past year, heightened security measures along the 
China-North Korea and China-Southeast Asia borders increased 
the risks North Korean refugees face, and may be limiting the 
outflow of refugees from the DPRK. South Korean Ministry of 
Unification data reportedly showed that 1,414 refugees reached 
South Korea in 2016, continuing the trend of a significant 
decline in the number of refugees entering South Korea since 
2009.\6\ International news media reported cases in which 
Chinese authorities detained North Korean refugees, causing 
concerns that authorities planned to repatriate them.

        <bullet> November 2016. Chinese authorities reportedly 
        detained over 30 North Korean refugees in Shenyang 
        municipality, Liaoning province, while they were in 
        transit to Southeast Asia.\7\ South Korean media 
        reported that authorities later transferred the 
        refugees to Dandong municipality, Liaoning--near the 
        North Korean border--possibly in preparation for 
        repatriation.\8\
        <bullet> March 2017. Chinese authorities reportedly 
        detained in total about 20 North Korean refugees in the 
        following four locations: Hubei province; \9\ Shenyang, 
        Liaoning; Tianjin municipality; and an unknown location 
        near the China-Laos border.\10\
        <bullet> June 2017. According to Human Rights Watch, 
        Chinese authorities detained five North Korean refugees 
        near Yanji city, Yanbian Korean Autonomous Prefecture 
        (KAP), Jilin province.\11\
        <bullet> July 2017. According to South Korean news 
        media Chosun Ilbo, Chinese authorities detained in 
        total 43 North Korean refugees in the following three 
        locations: 27 in Yunnan province; 5 in the Guangxi 
        Zhuang Autonomous Region; and 11 in Jilin.\12\ The five 
        members of a North Korean refugee family detained in 
        Yunnan, including a former senior North Korean Workers' 
        Party official, reportedly committed suicide after 
        Chinese authorities transferred them to Shenyang, 
        Liaoning, for deportation.\13\ Moreover, according to a 
        Daily NK report, Chinese authorities repatriated 70 
        North Korean refugees who were held in Tumen city, 
        Yanbian KAP, Jilin.\14\

    The North Korean government's imprisonment and torture of 
repatriated North Koreans render North Koreans in China 
refugees sur place who fear persecution upon return to their 
country of origin.\15\ In July 2017, Tomas Ojea Quintana, UN 
Special Rapporteur on the situation of human rights in the 
Democratic People's Republic of Korea, voiced his concern over 
the increase in the number of detentions and repatriations of 
North Koreans refugees caught in China, urging the Chinese 
government to abide by its obligations under the 1951 UN 
Convention Relating to the Status of Refugees and to give 
``special protection to DPRK citizens who transit through 
China's territory.'' \16\ In response, China's Ministry of 
Foreign Affairs spokesperson Lu Kang stated that ``North 
Koreans who illegally enter Chinese territory are not 
refugees,'' and that ``the Chinese government has properly 
addressed the issue . . . in accordance with domestic and 
international laws and humanitarian principles.'' \17\

                    Crackdown on Foreign Aid Workers

    During this reporting year, Chinese authorities appeared to 
have intensified crackdowns on organizations and individuals--
including foreign aid workers, Christian missionaries and 
churches, and non-governmental organizations--that have played 
a crucial role in assisting and facilitating the movement of 
North Korean refugees outside the DPRK.

        <bullet> December 2016. Chinese authorities reportedly 
        deported more than 30 South Korean citizens, including 
        Christian missionaries, who were based in Yanbian 
        Korean Autonomous Prefecture (KAP), Jilin province.\18\ 
        According to United Press International, some of these 
        South Koreans ``were known to have been involved in 
        assisting North Korean defectors,'' and a South Korean 
        diplomatic source described the simultaneous 
        deportation of this many South Korean citizens as 
        ``unprecedented.'' \19\
        <bullet> January 2017. According to international media 
        reports, Chinese authorities deported 32 South Korean 
        missionaries, who were based in Yanji city, Yanbian 
        KAP.\20\ Many of the missionaries reportedly provided 
        assistance to North Korean refugees to escape to South 
        Korea.\21\
        <bullet> February 2017. Chinese authorities reportedly 
        detained four people, including a South Korean 
        missionary and a Korean-American pastor, at a hotel in 
        Yanji.\22\ According to international media reports, 
        Chinese authorities also detained two South Korean 
        pastors and their family members in Qingdao 
        municipality, Shandong province, and Qinhuangdao 
        municipality, Hebei province, respectively.\23\ Chinese 
        authorities reportedly accused the pastors of ``human 
        smuggling,'' for assisting North Korean refugees at 
        risk of repatriation.\24\

                   Trafficking of North Korean Women

    North Korean women who enter China illegally remain 
particularly vulnerable to human trafficking. The demand for 
trafficked North Korean women has been linked to a sex ratio 
imbalance in China exacerbated by the Chinese government's 
population planning policies.\25\ Sources indicate that the 
majority of North Korean refugees--approximately 70 to 80 
percent--leaving the DPRK are women,\26\ many of whom are 
trafficked by force or deception from the DPRK into or within 
China for the purposes of forced marriage and commercial sexual 
exploitation.\27\ The Chinese government's refusal to recognize 
these women as refugees denies them legal protection and is 
thought to encourage the trafficking of North Korean women and 
girls within China.\28\ China is obligated under the Convention 
on the Elimination of All Forms of Discrimination against Women 
and the UN Protocol to Prevent, Suppress and Punish Trafficking 
in Persons, Especially Women and Children, to take measures to 
safeguard trafficking victims and suppress all forms of 
trafficking of women.\29\ [For more information on the sex 
ratio imbalance and trafficking of women in China, see Section 
II--Population Control and Section II--Human Trafficking.]

              Children of North Korean and Chinese Parents

    Many children born to Chinese fathers and North Korean 
mothers remain deprived of basic rights to education and other 
public services, owing to the children's lack of legal resident 
status in China. According to some estimates, the population of 
children born in China to North Korean women ranges between 
20,000 and 30,000.\30\ The PRC Nationality Law provides that 
all children born in China are entitled to Chinese nationality 
if either parent is a Chinese citizen.\31\ Chinese authorities 
reportedly continue to largely deprive these children of their 
rights to birth registration and nationality.\32\ Without proof 
of resident status, these children are unable to access 
education and other public services.\33\ In some cases, bribery 
of local officials reportedly has allowed some children to 
obtain identification documents.\34\ The denial of nationality 
rights and access to education for these children contravenes 
China's obligations under the Convention on the Rights of the 
Child.\35\

                                                  North Korean 
                                                   Refugees in 
                                                          China
                                                North Korean 
                                                Refugees in 
                                                China
    Notes to Section II--North Korean Refugees in China

    \1\ James Burt, ``Actions Speak Louder Than Words,'' Korea JoongAng 
Daily, 6 February 17; John Hemmings and Talia Jessener, ``Don't Forget 
the Treatment of North Korean Defectors,'' The Diplomat, 14 February 
17; UN Committee against Torture, Concluding Observations on the Fifth 
Periodic Report of China, adopted by the Committee at its 1391st and 
1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46. In November 2015, in its Concluding Observations on the Fifth 
Periodic Report of China, the UN Committee against Torture noted ``over 
100 testimonies received by United Nations sources . . . in which 
nationals of the Democratic People's Republic of Korea indicate that 
persons forcibly repatriated to the Democratic People's Republic of 
Korea have been systematically subjected to torture and ill-
treatment.''
    \2\ Human Rights Watch, ``China: Don't Force 8 Refugees Back to 
North Korea,'' 23 April 17; Jack Kim, ``China Detains Two South Korean 
Pastors for Helping North Korea Defectors: Report,'' Reuters, 15 March 
17; Megan McQueen, ``The Second Escape: Human Rights Violations Reach 
Beyond the North Korean Border,'' Politic, 14 December 16.
    \3\ Democratic People's Republic of Korea Ministry of State 
Security and People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Areas, signed 8 July 98, 
effective 28 August 98, arts. 4, 9. The protocol commits each side to 
treat as illegal those border crossers who do not have proper visa 
certificates, except in cases of ``calamity or unavoidable factors.''
    \4\ Convention Relating to the Status of Refugees, adopted on 28 
July 51 by the UN Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429(V) of 14 December 50, entry into force 22 April 54, 
arts. 1(A)(2), 33(1). Article 1 of the 1951 Convention, as amended by 
the 1967 Protocol, defines a refugee as someone who, `` . . . owing to 
well-founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group or political 
opinion, is outside the country of his nationality and is unable or, 
owing to such fear, is unwilling to avail himself of the protection of 
that country . . ..'' Article 33 of the 1951 Convention mandates that, 
``No Contracting State shall expel or return (`refouler') a refugee in 
any manner whatsoever to the frontiers of territories where his life or 
freedom would be threatened on account of his race, religion, 
nationality, membership of a particular social group or political 
opinion.'' United Nations Treaty Collection, Chapter V, Refugees and 
Stateless Persons, Convention Relating to the Status of Refugees, last 
visited 10 July 17. China acceded to the Convention Relating to the 
Status of Refugees on September 24, 1982. Protocol Relating to the 
Status of Refugees (1967 Protocol), adopted by UN General Assembly 
resolution 2198 (XXI) of 16 December 66, entry into force 4 October 67; 
United Nations Treaty Collection, Chapter V, Refugees and Stateless 
Persons, Protocol Relating to the Status of Refugees, last visited 10 
July 17. China acceded to the Protocol Relating to the Status of 
Refugees on September 24, 1982. See also Human Rights Watch, ``China: 
Don't Force 8 Refugees Back to North Korea,'' 23 April 17; Greg 
Scarlatoiu, Korean Economic Institute, ``The North Korean Human Rights 
Conundrum: Moving Forward,'' 28 February 17.
    \5\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by UN General Assembly 
resolution 39/46 of 10 December 84, entry into force 26 June 87, art. 
3. Article 3 states that, ``No State Party shall expel, return 
(`refouler') or extradite a person to another State where there are 
substantial grounds for believing that he would be in danger of being 
subjected to torture.'' United Nations Treaty Collection, Chapter IV, 
Human Rights, Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, last visited 10 July 17. China 
signed the Convention on December 12, 1986, and ratified it on October 
4, 1988. UN Committee against Torture, Concluding Observations on the 
Fifth Periodic Report of China, adopted by the Committee at its 1391st 
and 1392nd Meetings (2-3 December 2015), CAT/C/CHN/CO/5, 3 February 16, 
para. 46. In November 2015, in its Concluding Observations on the Fifth 
Periodic Report of China's compliance with the Convention, the UN 
Committee against Torture stated its concerns about China's lack of 
``national asylum legislation and administrative procedures'' for 
determining refugee status, as well as China's ``rigorous policy of 
forcibly repatriating all nationals of the [DPRK] on the ground that 
they have illegally crossed the border solely for economic reasons.'' 
See also Human Rights Watch, ``China: Don't Force 8 Refugees Back to 
North Korea,'' 23 April 17.
    \6\ ``Number of N.K. Defectors Grows 11 Pct On-Year 2016: Data,'' 
Yonhap News Agency, 3 January 17; ``North Korean Defectors to South Up 
by 10.9% in 2016,'' Business Standard, 3 January 17. The number of 
North Koreans who defected to South Korea in 2009 was 2,914.
    \7\ Kim Seong Hwan, ``8 More N. Korean Escapees Arrested in 
China,'' Daily NK, 6 December 16; Elizabeth Shim, ``Report: Dozens of 
North Korean Defectors Arrested in China,'' United Press International, 
1 December 16.
    \8\ Kim Seong Hwan, ``8 More N. Korean Escapees Arrested in 
China,'' Daily NK, 6 December 16. See also Elizabeth Shim, ``Report: 
Dozens of North Korean Defectors Arrested in China,'' United Press 
International, 1 December 16.
    \9\ Kim Myong-song, ``6 N. Korean Defectors Arrested in China,'' 
Chosun Ilbo, 17 March 17.
    \10\ Elizabeth Shim, ``China Arrests More Than a Dozen North Korea 
Defectors,'' United Press International, 17 March 17.
    \11\ Human Rights Watch, ``China: Don't Return 5 Refugees to North 
Korea,'' 24 June 17. See also ``Human Rights Group Urges China Not To 
Repatriate 5 N.K. Defectors,'' Yonhap News Agency, 26 June 17.
    \12\ Kim Myong-song, ``Fugitive N. Korean Family Kill Themselves in 
China,'' Chosun Ilbo, 24 July 17.
    \13\ Ibid.
    \14\ Kim Ga Young, ``China Repatriates 70 North Korean Defectors,'' 
Daily NK, 2 August 17.
    \15\ Human Rights Watch, ``China: Don't Return 5 Refugees to North 
Korea,'' 24 June 17; Human Rights Watch, ``Letter From HRW to Chinese 
President Xi Jinping Re: North Korean Refugees,'' 24 June 17; UN High 
Commissioner for Refugees, Refugee Protection and International 
Migration, 17 January 07, para. 20.
    \16\ UN Office of the High Commissioner for Human Rights, ``End of 
Visit Press Statement by the Special Rapporteur on the Situation of 
Human Rights in the Democratic People's Republic of Korea to the 
Republic of Korea,'' 21 July 17; ``U.N. Human Rights Envoy Welcomes S. 
Korea's Push for Engagement With N. Korea,'' Yonhap News Agency, 21 
July 17.
    \17\ Ministry of Foreign Affairs, ``Ministry of Foreign Affairs 
Spokesperson Lu Kang Holds Regular Press Briefing on July 24, 2017'' 
[2017 nian 7 yue 24 ri waijiaobu fayanren lu kang zhuchi lixing 
jizhehui], 24 July 17.
    \18\ Elizabeth Shim, ``China Deported 30 South Korean Nationals, 
Report Says,'' United Press International, 25 January 17.
    \19\ Ibid.
    \20\ Gu Li, ``China Deported 32 South Korean Missionaries, Possible 
Retaliation Against THAAD'' [Zhongguo zhu 32 ming hanguo chuanjiaoshi 
yi baofu sade], Radio France Internationale, 11 February 17; Jack Kim 
and Ju-min Park, ``China Expels 32 South Korea Missionaries Amid 
Missile Defense Tension,'' Reuters, 11 February 17.
    \21\ Gu Li, ``China Deported 32 South Korean Missionaries, Possible 
Retaliation Against THAAD'' [Zhongguo zhu 32 ming hanguo chuanjiaoshi 
yi baofu sade], Radio France Internationale, 11 February 17.
    \22\ Ibid.; Jack Kim and Ju-min Park, ``China Expels 32 South Korea 
Missionaries Amid Missile Defense Tension,'' Reuters, 11 February 17.
    \23\ Elizabeth Shim, ``China Arrests Christian Missionaries for 
North Korea Activities,'' United Press International, 15 March 17; Jack 
Kim, ``China Detains Two South Korean Pastors for Helping North Korea 
Defectors: Report,'' Reuters, 15 March 17.
    \24\ Ibid.
    \25\ See, e.g., Robbie Gramer et al., ``With Human Trafficking 
Report, Tillerson Rebukes China on Human Rights,'' Foreign Policy, 27 
June 17; ``North Korean Women Defectors Escape From Life of Deprivation 
Only To Be Forced Into Slavery, Says Activist,'' Agence France-Presse, 
reprinted in Straits Times, 3 November 16.
    \26\ Kim Myong-song, ``Statistics Highlight Abuse of N. Korean 
Women in China,'' Chosun Ilbo, 9 November 16; ``Human Traffickers, 
Forcible Repatriation, Female North Korean Defectors Still Suffering in 
China'' [Renkou fanzi, qiangzhi qianfan, tuobei nuxing zai hua reng 
shou jian'ao], Voice of America, 5 November 16; Christina Couch, ``The 
Psychological Trauma of Defecting From North Korea,'' PBS, NOVA Next, 
16 February 17.
    \27\ ``Trafficked Into China With No Escape for 15 Years,'' 
Unification Media Group, reprinted in Daily NK, 25 April 17; ``Human 
Traffickers, Forcible Repatriation, Female North Korean Defectors Still 
Suffering in China'' [Renkou fanzi, qiangzhi qianfan, tuobei nuxing zai 
hua reng shou jian'ao], Voice of America, 5 November 16; ``My Mission: 
One Woman's Calling To Help North Korean Women in China,'' World Watch 
Monitor, reprinted in Sight, 24 January 17.
    \28\ ``Human Traffickers, Forcible Repatriation, Female North 
Korean Defectors Still Suffering in China'' [Renkou fanzi, qiangzhi 
qianfan, tuobei nuxing zai hua reng shou jian'ao], Voice of America, 5 
November 16; ``North Korean Women Defectors Escape From Life of 
Deprivation Only To Be Forced Into Slavery, Says Activist,'' Agence 
France-Presse, reprinted in Straits Times, 3 November 16; Hong Mei, 
``If Father Is Chinese, Defectors Face Difficulty in Obtaining South 
Korean Government Financial Assistance'' [Ruo fuqin wei zhongguo ren 
tuobeizhe nan huo han zhengfu zizhu], Epoch Times, 10 November 16.
    \29\ Convention on the Elimination of All Forms of Discrimination 
against Women, adopted by UN General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; United Nations 
Treaty Collection, Chapter IV, Human Rights, Convention on the 
Elimination of All Forms of Discrimination against Women, last visited 
10 July 17. China signed the Convention on July 17, 1980, and ratified 
it on November 4, 1980. Protocol to Prevent, Suppress and Punish 
Trafficking in Persons, Especially Women and Children, Supplementing 
the United Nations Convention against Transnational Organized Crime, 
adopted by UN General Assembly resolution 55/25 of 15 November 00, 
entry into force 25 December 03, arts. 6-9; United Nations Treaty 
Collection, Chapter XVIII, Penal Matters, A Protocol To Prevent, 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children, Supplementing the United Nations Convention against 
Transnational Organized Crime, last visited 10 July 17. China acceded 
to the Protocol on February 8, 2010.
    \30\ Kim Myong-song, ``Statistics Highlight Abuse of N. Korean 
Women in China,'' Chosun Ilbo, 9 November 16; Hong Mei, ``If Father Is 
Chinese, Defectors Face Difficulty in Obtaining South Korean Government 
Financial Assistance'' [Ruo fuqin wei zhongguo ren tuobeizhe nan huo 
han zhengfu zizhu], Epoch Times, 10 November 16.
    \31\ PRC Nationality Law [Zhonghua renmin gongheguo guoji fa], 
passed, issued, and effective 10 September 80, art. 4. Article 4 of the 
PRC Nationality Law provides that, ``Any person born in China whose 
parents are both Chinese nationals and one of whose parents is a 
Chinese national shall have Chinese nationality.''
    \32\ Christine Chung, Committee for Human Rights in North Korea, 
``North Korean Mothers Fight To Be Reunited With Stateless Children 
Left Behind in China,'' HRNK Insider (blog), 4 November 16; Janelle L. 
B. Macintosh et al., ``Global Immunizations: Health Promotion and 
Disease Prevention Worldwide,'' American Journal of Maternal/Child 
Nursing, Vol. 42, No. 3 (May/June 2017), 140; Hong Mei, ``If Father Is 
Chinese, Defectors Face Difficulty in Obtaining South Korean Government 
Financial Assistance'' [Ruo fuqin wei zhongguo ren tuobeizhe nan huo 
han zhengfu zizhu], Epoch Times, 10 November 16; Yang Tianheng, 
``Farmers Buy North Korean Defector Wives, Generating Misfortune'' 
[Nongmin mairu tuobei xinniang shuchu le buxing], Oriental Daily, 19 
November 16.
    \33\ Ibid.
    \34\ See, e.g., ``Trafficked Into China With No Escape for 15 
Years,'' Daily NK, 25 April 17; Sylvia Kim and Yong Joon Park, European 
Alliance for Human Rights in North Korea, ``Invisible Children: The 
Stateless Children of North Korean Refugees,'' December 2015, 88.
    \35\ Convention on the Rights of the Child, adopted by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, arts. 2, 7, 28(1)(a). Under the Convention on the Rights 
of the Child, China is obligated to register children born within the 
country immediately after birth and also provide all children with 
access to education without discrimination on the basis of nationality. 
See also Christine Chung, Committee for Human Rights in North Korea, 
``North Korean Mothers Fight To Be Reunited With Stateless Children 
Left Behind in China,'' HRNK Insider (blog), 4 November 16.

                                                  Public Health
                                                Public Health

                             Public Health


Report of the UN Special Rapporteur on Extreme Poverty and Human Rights

    During the Commission's 2017 reporting year, the UN Special 
Rapporteur on extreme poverty and human rights issued a report 
that assessed whether the Chinese government's poverty 
alleviation efforts, many of which dovetail with public health 
and the right to health,\1\ ``have ensured full respect for 
human rights in China.'' \2\ The report, based on the Special 
Rapporteur's official mission to China in August 2016, 
commended the government's massive scale of poverty alleviation 
in China over the past three decades,\3\ noting improved 
mortality rates and greater access to healthcare and health 
insurance.\4\ The Special Rapporteur, however, observed that 
the government has overly emphasized development goals,\5\ and 
highlighted fundamental challenges, including:

        <bullet> the Chinese Communist Party's ``leading role'' 
        over government, civil society, and public 
        participation, which is difficult to ``reconcile'' with 
        individual rights protection and accountability 
        mechanisms; \6\
        <bullet> the government's top-down approach, which 
        leaves ``marginal'' space for non-governmental 
        organizations and affected individuals to participate 
        in policymaking and advocacy; \7\ and
        <bullet> the lack of publicly available, accurate 
        data,\8\ such as on the employment of persons with 
        disabilities \9\ and the number of children completing 
        compulsory education.\10\

              Developments in Mental Health Policy and Law

    The government and Party continued to prioritize mental 
health in public health policymaking.\11\ Despite 
implementation of the PRC Mental Health Law (MHL), which became 
effective in 2013,\12\ significant challenges in the treatment 
of mental health disorders include the shortage of 
psychiatrists, psychiatric nurses, and community-based 
rehabilitation services.\13\ According to a psychiatric expert 
at Shanghai Jiao Tong University, resources are concentrated 
primarily in urban, developed areas in eastern China; rural 
areas and less developed areas of central and western regions 
``lag far behind in availability of services.'' \14\ A senior 
health official reported in April 2017 that more than 50 
percent of individuals with severe mental illness live in 
poverty.\15\

             INVOLUNTARY AND FORCED PSYCHIATRIC COMMITMENT

    The MHL provides protections against wrongful involuntary 
admission and treatment,\16\ which are intended, in part, to 
prevent the forced commitment to psychiatric facilities of 
individuals without mental illness (bei jingshenbing).\17\ In 
June 2017, a district court in Zhumadian municipality, Henan 
province, reportedly invoked these provisions in a lawsuit 
against a psychiatric hospital for having involuntarily 
committed a man for 19 days in 2015 to undergo ``conversion 
therapy'' at the direction of his wife and her family.\18\ The 
court found in favor of the plaintiff, noting that his 
hospitalization ``infringed on his personal liberty'' as he did 
not meet the MHL's standard of dangerousness to himself or to 
others under which an individual may be involuntarily 
committed.\19\ News media, moreover, reported a positive 
outcome for a case in Shanghai municipality known as the first 
under the MHL.\20\ In July 2017, the plaintiff in that case, 
after 15 years in a psychiatric facility, obtained approval to 
discharge himself following a psychiatric evaluation that found 
the plaintiff ``possessed full competence in civil matters.'' 
\21\ Prior to that evaluation, the plaintiff remained subject 
to his guardian's refusal to allow discharge \22\ ever since 
his initial involuntary commitment due to schizophrenia.\23\
    The Commission continued to observe reports of official use 
of forced psychiatric commitment in response to activities the 
government deemed to be ``troublemaking'' or politically 
sensitive,\24\ including petitioning the government over legal 
grievances and rights violations. Reports of petitioners and 
others whom public security officials temporarily committed to 
psychiatric facilities this past year included Sheng Lanfu,\25\ 
Ren Naijun,\26\ and Zhu Liangqun.\27\ In January 2017, 
authorities reportedly released petitioner Li Jiafu after more 
than two years' detention at a Zhejiang province psychiatric 
facility.\28\ The Paper--a state-funded news outlet--continued 
to cover the case of Xu Xueling, a petitioner sentenced to four 
years in prison in April 2016 by a court in Shandong province 
on the charge of ``picking quarrels and provoking trouble.'' 
\29\ Media coverage of her case linked her petitioning to her 
grievances over two instances of bei jingshenbing imposed by 
authorities for ``stability maintenance,'' \30\ which a news 
outlet described as a form of extrajudicial detention.\31\ The 
December 2016 arrest \32\ of Liu Feiyue--founder of the human 
rights website Civil Rights & Livelihood Watch (CRLW) \33\--may 
have consequences for grassroots reporting of forced 
psychiatric commitment given CRLW's regular coverage of the 
topic.\34\

                      Health-Based Discrimination

    Health-based discrimination in access to employment, 
welfare, education, and medical treatment, as well as 
difficulties in accessing legal relief or accountability, 
reportedly remain widespread,\35\ despite prohibitions to 
prevent it under Chinese laws and regulations.\36\ Contributing 
factors, according to rights lawyers, include a lack of 
compliance with the law and inconsistencies among laws and 
regulations.\37\ The Special Rapporteur on extreme poverty and 
human rights also cited ``access to basic services and . . . 
problems of exclusion'' due to the multidimensional character 
of poverty \38\ as factors that create barriers for persons 
with disabilities, ethnic minority groups, and the rural 
poor.\39\ The following reports from this past year illustrate 
aspects of these challenges.

        <bullet> Employment. Two HIV-positive men--one in 
        Guangdong province \40\ and the other in Jiangxi 
        province \41\--pursued legal remedies after being 
        deemed ineligible for employment following physical 
        examinations that disclosed their health status to 
        their employers. In June 2017, the plaintiff in the 
        Guangdong case won his case on appeal in China's first-
        ever judgment that held an employer-defendant violated 
        Chinese law by discriminating against a plaintiff 
        because he or she was HIV positive.\42\ The court, 
        however, rejected the plaintiff's request to be 
        reinstated to his job.\43\ The plaintiff in the Jiangxi 
        case appealed the trial court's dismissal of his claims 
        in October 2016,\44\ but withdrew the appeal in June 
        2017 after settlement.\45\ In a November 2016 letter to 
        the central government, a group of lawyers cited the 
        Jiangxi case, asserting the Civil Servants' General 
        Recruitment Physical Eligibility Standards--which 
        designate HIV/AIDS a disqualifying factor for 
        government employment \46\--are the ``most significant 
        systemic obstacle'' for persons living with HIV/AIDS in 
        accessing equal employment opportunities.\47\
        <bullet>  Welfare. In March 2017, the Beijing News 
        reported on the death of an autistic teenager in 
        Shaoguan municipality, Guangdong,\48\ that raised 
        concerns about the oversight of care centers and 
        government accountability in providing welfare to those 
        in need.\49\ Poor quality food and negligence by a care 
        center in Shaoguan and additional negligence on the 
        part of police and a homeless shelter in Dongguan 
        municipality, Guangdong, contributed to the boy's 
        death.\50\ Coverage of the case, moreover, revealed 
        that at least 20 individuals had died at the Shaoguan 
        care center between January 1 and February 18, 
        2017.\51\
        <bullet> Education. In a positive development, the 
        government revised the regulatory framework on access 
        to education for students with disabilities, including 
        revised Regulations on Education for Disabled Persons 
        (Regulations) \52\ that stipulate local governments 
        should provide funding in official budgets for the 
        education of disabled students,\53\ and revised 
        provisions on reasonable accommodations for students 
        with disabilities who take the college entrance exam 
        (gaokao).\54\ In June 2017, news media reported 
        education authorities in Shanghai municipality and 
        Guangxi province provided accommodations for a few 
        dozen students with disabilities taking the gaokao.\55\ 
        Human Rights Watch cautioned that the revised 
        Regulations were not sufficient to ensure inclusive 
        education standards at mainstream schools.\56\ A 
        research survey released in March 2017 found that 
        nearly 30 percent of children with disabilities are 
        asked to leave mainstream schools due, in part, to a 
        shortage of teachers with special education 
        training.\57\

                                                  Public Health
                                                Public Health
    Notes to Section II--Public Health

    \1\ Office of the United Nations High Commissioner for Human Rights 
and World Health Organization, The Right to Health, Fact Sheet No. 31, 
June 2008, 1-4. See also State Council Information Office, ``National 
Human Rights Action Plan of China (2009-2010),'' 13 April 09, secs. 
I(2)-(4), III(3); State Council Information Office, ``National Human 
Rights Action Plan of China (2012-2015),'' 11 June 12, secs. I(2)-(4), 
III(2)-(5); State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
29 September 16, secs. I(2), (3), (5); III(3)-(5).
    \2\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 15; Office of the United 
Nations High Commissioner for Human Rights, ``End-of-Mission Statement 
on China, by Professor Philip Alston, United Nations Special Rapporteur 
on Extreme Poverty and Human Rights,'' 23 August 16.
    \3\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, paras. 12-14, 56 (achieving 
``almost universal health coverage''), 76 (``strong and genuine 
commitment to building a `moderately prosperous society' '' ).
    \4\ Ibid., paras. 13, 56.
    \5\ Ibid., para. 45; Human Rights in China, ``UN Expert: Chinese 
Government Needs `Genuine Accountability,' '' 23 August 16.
    \6\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 16.
    \7\ Ibid., paras. 6(b)-(g), 7, 8, 30, 32, 36. The Special 
Rapporteur censured this ``top-down'' approach as manifested in the 
Chinese government's intrusive control over his meeting schedule in 
China, which prevented and obstructed a variety of non-governmental 
stakeholders from meeting with him. He stressed that the Chinese 
government's control over his schedule was contrary to the level of 
access that is expected during Special Rapporteur missions. 
Additionally, the Special Rapporteur pointed out that the China 
Federation for Persons with Disabilities, which facilitated some of the 
meetings during his mission, is led by government officials and 
performs government functions; thus ``it hardly qualifies as a civil 
society organization.''
    \8\ Ibid., para. 29.
    \9\ Ibid., para. 35.
    \10\ Ibid., paras. 54, 55.
    \11\ National Health and Family Planning Commission, ``Text 
Transcript of Regular News Conference in April'' [Guojia weisheng 
jishengwei 4 yue lixing xinwen fabuhui wenzi shilu], 7 April 17; 
National Health and Family Planning Commission, Propaganda Department, 
et al., Guiding Opinion on Strengthening Mental Health Services [Guanyu 
jiaqiang xinli jiankang fuwu de zhidao yijian], issued 30 December 16; 
State Council, `` `13th Five-Year' Hygiene and Health Plan'' [``Shisan 
wu'' weisheng yu jiankang guihua], 10 January 17, 3 (1, 7, 11, 12); 
State Council General Office, ``National Mental Health Work Plan (2015-
2020)'' [Quanguo jingshen weisheng gongzuo guihua (2015-2020 nian)], 18 
June 15. See also Bin Xie, ``Strategic Mental Health Planning and Its 
Practice in China: Retrospect and Prospect,'' Shanghai Archives of 
Psychiatry, Vol. 29, No. 2 (2017), 115.
    \12\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13; ``Li Keqiang: 
Promoting the Emphasis of Healthcare Services' Shift Downward and 
Deepening Resources for Clinical Treatment'' [Li keqiang: tuidong 
yiliao fuwu zhongxin xiayi he zhenliao ziyuan xiachen], Caixin, 21 
December 16; State Council General Office, ``National Mental Health 
Work Plan (2015-2020)'' [Quanguo jingshen weisheng gongzuo guihua 
(2015-2020 nian)], 18 June 15; State Council Information Office, 
``National Human Rights Action Plan of China (2016-2020),'' August 
2016, sec. I(5).
    \13\ Su Weichu, ``Total Number of Registered Individuals With 
Severe Mental Disorders Is 5.4 Million, Still Have Major Shortage of 
Psychiatrists'' [Quanguo zai ce yanzhong jingshen zhang'ai huanzhe 540 
wan jingshen ke yisheng quekou rengran hen da], Jiemian, 7 April 17; 
Qiuping Zhong et al., ``China Mental Health Reform--Perspective About 
Psychiatric Nursing Assistants,'' Journal of Preventive Medicine & 
Healthcare, 31 March 17; Bin Xie, ``Strategic Mental Health Planning 
and Its Practice in China: Retrospect and Prospect,'' Shanghai Archives 
of Psychiatry, Vol. 29, No. 2 (2017), 116. See also Liu Jiaying, ``More 
Than Half of Those With Severe Mental Disorders Fall Into Poverty, 
Overall Increase in Depression-Related Mental Disorders'' [Zhongguo 
guoban yanzhong jingshen zhang'aizhe xian pinkun yiyu zhang'ai zongti 
shangsheng], Caixin, 7 April 17.
    \14\ Bin Xie, ``Strategic Mental Health Planning and Its Practice 
in China: Retrospect and Prospect,'' Shanghai Archives of Psychiatry, 
Vol. 29, No. 2 (2017), 116.
    \15\ National Health and Family Planning Commission, ``Text 
Transcript of National Health and Family Planning Commission Regular 
News Conference in April'' [Guojia weisheng jishengwei 4 yue lixing 
xinwen fabuhui wenzi shilu], 7 April 17; Liu Jiaying, ``More Than Half 
of Those With Severe Mental Disorders Fall Into Poverty, Overall 
Increase in Depression-Related Mental Disorders'' [Zhongguo guoban 
yanzhong jingshen zhang'aizhe xian pinkun yiyu zhang'ai zongti 
shangsheng], Caixin, 7 April 17.
    \16\ PRC Mental Health Law [Zhonghua renmin gongheguo jingshen 
weisheng fa], passed 26 October 12, effective 1 May 13, arts. 27, 30, 
75(5), 78(1).
    \17\ Danuta Mendelson and Nuannuan Lin, ``Mental Health Legislation 
(Civil) in Australia and China: A Comparative Perspective,'' Journal of 
Law and Medicine, Vol. 23, No. 4 (June 2016), 775. See also Liu Xing 
and Gao Siwei, `` `Mental Health Law' Puts End to `Forcible Psychiatric 
Commitment' '' [``Jingshen weisheng fa'' zhongjie ``bei 
jingshenbing''], China Youth Daily, 29 October 12; ``China Adopts 
Mental Health Law, Protecting Rights,'' Xinhua, 26 October 12.
    \18\ Xing Bingyin, ``Gay Man From Henan Forcibly Committed for 19 
Days, Sued Psychiatric Hospital and Won Lawsuit, Compensated 5,000'' 
[Henan tongxinglian nanzi bei qiangzhi zhiliao 19 tian zhuanggao 
jingshenbing yuan shengsu, huo pei 5 qian], The Paper, 3 July 17; ``Gay 
Man From Henan Sued Psychiatric Hospital'' [Henan tongxinglian nanzi 
zhuanggao jingshenbing yuan], Radio Free Asia, 13 July 17. See also Li 
Tiezhu, ``Trial Postponed in Case of `Gay Man Forcibly Committed to 
Psychiatric Hospital' in Henan'' [Henan ``tongxinglian bei 
jingshenbing'' an yanqi kaiting], Beijing Youth Daily, 22 September 16.
    \19\ ``Gay Man From Henan Sued Psychiatric Hospital'' [Henan 
tongxinglian nanzi zhuanggao jingshenbing yuan], Radio Free Asia, 13 
July 17; Jonathan Tcheng, Human Rights Watch, ``Dispatches: China Court 
Rules Against Forced Conversion Therapy,'' 10 July 17; Cai Jiaxin and 
Li Rongde, ``Court Rules Hospital Violated Gay Man's Liberty,'' Caixin, 
5 July 17. See also Yang Shao and Bin Xie, ``Operationalizing the 
Involuntary Treatment Regulations of China's New Mental Health Law,'' 
Shanghai Archives of Psychiatry, Vol. 25, No. 6 (2013), 384.
    \20\ Wang Jingshuo, ``Litigant in `First Case Under Mental Health 
Law' Obtains Approval To Discharge Himself From Hospital'' [``Jingshen 
weisheng fa di yi an'' dangshiren huozhun zixing banli chuyuan shouxu], 
China Youth Daily, 8 August 17; Qu Zhengzhou, ``That the Rights of 
Mentally Ill Persons Have Been Ignored Makes Me Cry'' [Jingshenbing 
huanzhe quanli bei hushi lingren xixu], Yanzhao Metropolitan Daily, 
reprinted in Phoenix News, 9 August 17. See also CECC, 2014 Annual 
Report, 9 October 14, 124-25; CECC, 2015 Annual Report, 8 October 15, 
203.
    \21\ Wang Jingshuo, ``Litigant in `First Case Under Mental Health 
Law' Obtains Approval To Discharge Himself From Hospital'' [``Jingshen 
weisheng fa di yi an'' dangshiren huozhun zixing banli chuyuan shouxu], 
China Youth Daily, 8 August 17. See also Yang Shao and Bin Xie, 
``Operationalizing the Involuntary Treatment Regulations of China's New 
Mental Health Law,'' Shanghai Archives of Psychiatry, Vol. 25, No. 6 
(2013), 384-85. According to Shao and Xie, one of the challenges 
involuntarily committed patients face regarding hospital discharge 
under the PRC Mental Health Law is that ``[in] China, hospitals are not 
permitted to simply discharge involuntarily admitted patients on their 
own recognizance, they need to be discharged to the family member or 
organization that signed the admission procedures.''
    \22\ Wang Jingshuo, ``Litigant in `First Case Under Mental Health 
Law' Obtains Approval To Discharge Himself From Hospital'' [``Jingshen 
weisheng fa di yi an'' dangshiren huozhun zixing banli chuyuan shouxu], 
China Youth Daily, 8 August 17; Qu Zhengzhou, ``That the Rights of 
Mentally Ill Persons Have Been Ignored Makes Me Cry'' [Jingshenbing 
huanzhe quanli bei hushi lingren xixu], Yanzhao Metropolitan Daily, 
reprinted in Phoenix News, 9 August 17.
    \23\ Luo Jieqi, ``Involuntarily Committed for 10 Years, Lawsuit 
Against Psychiatric Hospital Allowed To File'' [Fei ziyuan zhu yuan shi 
nian su jingshenbing yuan huo li'an], Caixin, 24 December 13.
    \24\ Civil Rights & Livelihood Watch, ``2016 Year-End Summary on 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2016 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], 26 January 17; ``Petitioners Forcibly 
Committed to Psychiatric Hospitals, Disguises Control of Personal 
Liberty'' [Fangmin bei guan jingshenbing yuan bianxiang kongzhi renshen 
ziyou], Radio Free Asia, 2 February 17.
    \25\ Voice of Petitioners, ``After Dalian Petitioner Sheng Lanfu 
Held for Ten Days, Faced Forced Commitment in Psychiatric Hospital and 
Treatment for Fifteen Days'' [Dalian fangmin sheng lanfu bei ju shi 
tian hou zao qiangsong jingshenbing yuan zhiliao shiwu tian], 4 April 
17.
    \26\ Rights Defense Network, ``Shanghai Online Political 
Commentator Ren Naijun Released From Detention Center, Then Forcibly 
Committed to Psychiatric Hospital, Family Had To Make 6 Promises for 
Him To Be Allowed To Return Home'' [Shanghai wangluo zhenglun zuojia 
ren naijun huoshi likai kanshousuo you bei zhuan jingshenbing yuan 
jiaren zuochu 6 xiang chengnuo cai huozhun huijia], 22 May 17.
    \27\ Civil Rights & Livelihood Watch, ``Zhu Liangqun Maltreated 
While at Detention Center and Forcibly Detained at Psychiatric 
Hospital'' [Zhu liangqun zai kanshousuo zaoshou nuedai bing bei 
qiangzhi song jingshenbing yuan], 27 December 16.
    \28\ Voice of Petitioners, ``Forcibly Committed to Psychiatric 
Hospital for Over Two Years, Zhejiang Petitioner Li Jiafu Released'' 
[Bei guan jingshenbing yuan liang nian duo de zhejiang fangmin li jiafu 
huoshi], 27 January 17; ``Petitioners Forcibly Committed to Psychiatric 
Hospitals, Disguises Control of Personal Liberty'' [Fangmin bei guan 
jingshenbing yuan bianxiang kongzhi renshen ziyou], Radio Free Asia, 2 
February 17.
    \29\ Song Jiangxuan, ``Shandong Petitioner Forcibly Committed to 
Psychiatric Hospital Twice, Is Found Not To Have Mental Illness Before 
Criminal Sentencing, Appeal Rejected'' [Shandong fangmin liang ci bei 
song jingshenbing yuan, huoxing qian you bei rending mei bing, shensu 
zao bohui], The Paper, 4 January 17. See also Song Jiangxuan, 
``Petitioner From Shandong Forcibly Committed to Psychiatric Hospital 
Sentenced to 4 Years: Coerced Money From Government, Now No Longer 
Mentally Ill'' [Shandong ceng bei song jingshengbing yuan fangmin 
zhongshen pan 4 nian: qiangna zhengfu qian, xian mei jingshenbing], The 
Paper, 22 July 16; Song Jiangxuan, ``Shandong Petitioner Committed to 
Psychiatric Hospital Two Times, Prior to Sentencing She Was Evaluated 
as `Showing No Signs of Mental Illness' '' [Shandong fangmin liang ci 
bei song jingshenbing yuan, panxing qian you bei jianding ``wu 
jingshenbing biaoxian''], The Paper, 13 June 16. According to The 
Paper's report in January 2017, in December 2016, a Shandong court 
denied Xu's legal challenge of her conviction, holding that Xu's 
repeated petitioning established the basis of the offense. For more 
information on Xu Xueling, see the Commission's Political Prisoner 
Database record 2017-00018.
    \30\ Huang Yuhao, ``Many Petitioners From Xintai, Shandong, Seeking 
To Petition in Beijing Sent to Psychiatric Hospitals'' [Shandong xintai 
duoming yu jin jing shangfangzhe bei qiang song jingshenbing yuan], 
Beijing News, reprinted in Sina, 8 December 08; Song Jiangxuan, 
``Shandong Petitioner Committed to Psychiatric Hospital Two Times, 
Prior to Sentencing She Was Evaluated as `Showing No Signs of Mental 
Illness' '' [Shandong fangmin liang ci bei song jingshenbing yuan, 
panxing qian you bei jianding ``wu jingshenbing biaoxian''], The Paper, 
13 June 16. See also Andrew Jacobs, ``Whistle-Blowers in Chinese City 
Sent to Mental Hospital,'' New York Times, 8 December 08.
    \31\ ``[Editorial] Beware of Arbitrary Psychiatric Treatment Due to 
Petitioning Dilemma'' [(Shelun) jingti xinfang kunju xia de 
jingshenbing shouzhi luanxiang], Southern Metropolitan Daily, 14 June 
16.
    \32\ Rights Defense Network, ``Bulletin on CRLW Director Liu 
Feiyue's Case: Family Members Receive `Arrest Notice' From Suizhou, 
Hubei, Public Security Bureau'' [Minsheng guancha fuzeren liu feiyue an 
tongbao: jiashu shoudao hubei suizhou shi gong'anju jifa de ``daibu 
tongzhishu''], 11 January 17.
    \33\ Civil Rights & Livelihood Watch, ``Civil Rights & Livelihood 
Watch Founder Liu Feiyue Criminally Detained on Charge of Subversion of 
State Power'' [Minsheng guancha fuzeren liu feiyue bei yi dianfu guojia 
zhengquan zui xingju], 24 November 16; Nomaan Merchant, ``China Detains 
Editor of Human Rights Website for Subversion,'' Associated Press, 25 
November 16; ``Rights Website Founder Detained on Subversion Charges in 
China's Hubei,'' Radio Free Asia, 25 November 16.
    \34\ Chinese Human Rights Defenders, ``Liu Feiyue,'' 19 December 
16; Nomaan Merchant, ``China Detains Editor of Human Rights Website for 
Subversion,'' Associated Press, 25 November 16. See also Civil Rights & 
Livelihood Watch, ``2016 Year-End Summary on Mental Health and Human 
Rights in China (Forced Psychiatric Commitment)'' [2016 nian zhongguo 
jingshen jiankang yu renquan (bei jingshenbing) nianzhong zongjie], 26 
January 17; Civil Rights & Livelihood Watch, ``2015 Year-End Summary on 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [2015 nian zhongguo jingshen jiankang yu renquan (bei 
jingshenbing) nianzhong zongjie], 8 February 16; Civil Rights & 
Livelihood Watch, ``2014 Year-End Report on Mental Health and Human 
Rights in China (Forced Psychiatric Commitment)'' [2014 nian zhongguo 
jingshen jiankang yu renquan (bei jingshenbing) nianzhong baogao], 14 
January 15; Civil Rights & Livelihood Watch, ``2013 Year-End Report on 
Mental Health and Human Rights in China (Forced Psychiatric 
Commitment)'' [Erlingyisan nian zhongguo jingshen jiankang yu renquan 
(bei jingshenbing) nianzhong baogao], 13 February 14.
    \35\ See, e.g., ``AIDS in China: Mostly Sexually-Transmitted, 
Discrimination Widespread'' [Zhongguo ai xianzhuang: xing chuanbo 
weizhu shou qishi pubian], Deutsche Welle, 1 December 16 (employment 
discrimination); Zeng Yu and Wang Chengwei, ``For Blind Students, 
Braille Exams Pave Way to Higher Education,'' Sixth Tone, 17 November 
16 (access to education); Yang Jingru and Sha Lu, ``I Would Like a Set 
of Exam Papers in Braille'' [``Wo jiushi xiangyao yi fen mangwen 
shijuan''], Beijing News, 16 May 17 (access to education); Catherine 
Lai, ``China's New Rules on Education for People With Disabilities 
Still Fall Short, Says NGO,'' Hong Kong Free Press, 25 February 17 
(access to education); C. Hutchison et al., ``Financial Barriers and 
Coping Strategies: Qualitative Study of Accessing Multidrug-Resistant 
Tuberculosis and Tuberculosis Care in Yunnan,'' BMC Journal, 22 
February 17 (access to medical treatment); Li Jie, ``More Than Half of 
HIV-Positive Persons of Multiple Sexual Orientations Have Delayed 
Medical Care'' [Guoban HIV yangxing duoyuan xingbiezhe ceng tuoyan 
jiuyi], Southern Daily, 7 December 16 (access to medical treatment).
    \36\ National laws and regulations that promote equal access to 
employment and education and prohibit health-based discrimination 
include the PRC Law on the Protection of Persons with Disabilities 
[Zhonghua renmin gongheguo canjiren baozhang fa], passed 28 December 
90, amended 24 April 08, effective 1 July 08, arts. 3, 30-40; PRC 
Employment Promotion Law [Zhonghua renmin gongheguo jiuye cujin fa], 
passed 30 August 07, effective 1 January 08, arts. 3, 29, 30; State 
Council, Regulations on the Treatment and Control of HIV/AIDS [Aizibing 
fangzhi tiaoli], issued 18 January 06, effective 1 March 06, art. 3; 
State Council, Regulations on the Employment of Persons with 
Disabilities [Canjiren jiuye tiaoli], issued 14 February 07, effective 
1 May 07, arts. 3, 4, 13, 27. See also Wan Yanhai, ``AIDS, Human Rights 
and Public Security in China,'' University of British Columbia, Peter 
A. Allard School of Law, Asia Pacific Dispute Resolution Project, 
Working Paper 16-1, 13 June 16.
    \37\ ``On the Eve of AIDS Day, 60 Lawyers Advocate for the End of 
Employment Discrimination in Letter to State Council'' [Aizibing ri 
qianxi, 60 lushi jianyan guowuyuan xiaochu jiuye qishi], China Free 
Press, 28 November 16; Chu Hua, ``Hearing Held on First Case in 
Guangzhou Involving Employment Discrimination Against HIV-Infected 
Person, Plaintiff Asks for Renewal of Contract'' [Guangzhou shouci aizi 
ganranzhe jiuye qishi an kaiting yuangao yaoqiu xuqian hetong], Knews, 
21 December 16; Gao Feng, ``Legal Community Urges Guarantees So That 
Persons With HIV/AIDS Seeking Employment Do Not Face Discrimination'' 
[Falu jie cu baozhang aizibingren qiuzhi bu shou qishi], Radio Free 
Asia, 28 April 17.
    \38\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 21.
    \39\ Ibid., paras. 34-36.
    \40\ Chu Hua, ``Hearing Held on First Case in Guangzhou Involving 
Employment Discrimination Against HIV-Infected Person, Plaintiff Asks 
for Renewal of Contract'' [Guangzhou shouci aizi ganranzhe jiuye qishi 
an kaiting yuangao yaoqiu xuqian hetong], Knews, 21 December 16.
    \41\ ``AIDS in China: Mostly Sexually-Transmitted, Discrimination 
Widespread'' [Zhongguo ai zhuangkuang: xing chuanbo wei zhu shou qishi 
pubian], Deutsche Welle, 1 December 16.
    \42\ ``First Case of Person With HIV/AIDS Winning Employment 
Discrimination Lawsuit Against Work Unit'' [Quanguo shouli aizibingren 
gao danwei jiuye qishi shengsu], Radio Free Asia, 21 June 17; Yang Hai 
and Lin Jie, ``The First Winning Lawsuit'' [Di yi ci shengsu], China 
Youth Daily, 28 June 17. See also Chu Hua, ``Hearing Held on First Case 
in Guangzhou Involving Employment Discrimination Against HIV-Infected 
Person, Plaintiff Asks for Renewal of Contract'' [Guangzhou shouci aizi 
ganranzhe jiuye qishi an kaiting yuangao yaoqiu xuqian hetong], Knews, 
21 December 16.
    \43\ Yang Xiaomei and Gan Shangzhao, ``Final Ruling Announced in 
Guangdong's First Case of Employment Discrimination Due to HIV/AIDS'' 
[Guangdong shouli aizibing jiuye qishi an zhongshen xuanpan], People's 
Court News, reprinted in China Court Net, 21 June 17.
    \44\ ``AIDS in China: Mostly Sexually-Transmitted, Discrimination 
Widespread'' [Zhongguo ai zhuangkuang: xing chuanbo wei zhu shou qishi 
pubian], Deutsche Welle, 1 December 16.
    \45\ ``Guy in Jiangxi With AIDS Sues Human Resources Bureau and 
Wins 50,000 Yuan in Compensation, Legal Community Advocates Eliminating 
Discrimination at the Source'' [Jiangxi aizi xiao huo qisu rensheju 
huochang wu wan yuan lushi jie huju qingchu qishi yuantou], China Free 
Press, 6 June 17.
    \46\ Ministry of Human Resources and Ministry of Health, Civil 
Servants' General Recruitment Physical Eligibility Standards (Trial) 
[Gongwuyuan luyong tijian tongyong biaozhun (shixing)], issued 17 
January 05, reprinted in State Administration of Civil Service, 29 
October 08, art. 18.
    \47\ ``On the Eve of AIDS Day, 60 Lawyers Advocate for the End of 
Employment Discrimination in Letter to State Council'' [Aizibing ri 
qianxi, 60 lushi jianyan guowuyuan xiaochu jiuye qishi], China Free 
Press, 28 November 16. China Free Press included a copy of the lawyers' 
letter and the list of cosigners. ``Chinese Lawyers Call for End to HIV 
Testing of New Employees on World AIDS Day,'' Radio Free Asia, 1 
December 16.
    \48\ Wang Jingyi and Deng Yuchen, ``An Autistic Youth's Road to 
Death'' [Yige zibizheng shaonian de siwang zhi lu], Beijing News, 20 
March 17; Chen Yuanyuan, ``Why Is There a High Frequency of Deaths at 
Care Centers Among Persons Receiving Emergency Assistance? '' [Bei 
jiuzhu renyuan heyi zai tuoyang zhongxin gaopin siwang], Beijing News, 
20 March 17; Wang Jingyi, ``Follow-up on `Investigation Into Death of 
Autistic Youth at Lianxi Care Center,' Xinfeng County Head: Life Is 
Precious, We Are Responsible'' [``Lianxi tuoyang zhongxin zibizheng 
shaonian siwang diaocha'' zhuizong xinfeng xianzhang: renming guantian 
women you zeren], Beijing News, 20 March 17. See also Chris Buckley and 
Adam Wu, ``Autistic Boy's Death One of Many Linked to Squalid `Care 
Center' in China,'' New York Times, 20 March 17.
    \49\ Cai Jiaxin and Sheng Menglu, ``20 Deaths in 49 Days Exposed at 
Care Center, Inadequate Oversight, Who Will Be Held Responsible? '' [49 
tian wang 20 ren bao tuoyang zhongxin jianguan shicha shui lai danze?], 
Caixin, 21 March 17; ``High Rate of Death at Homeless Shelter in 
Shaoguan, Guangdong, Raises Public Attention'' [Guangdong shaoguan yi 
tuoyang zhongxin siwanglu gaofa yulun guanzhu], Radio Free Asia, 21 
March 17; Zhou Ke, ``Guangdong Conducting Serious Investigation Into 
Responsible Persons for Lianxi, Xinfeng Care Center Incident'' 
[Guangdong yansu chachu xinfeng lianxi tuoyang zhongxin shijian 
zerenren], Xinhua, 27 March 17; ``Responsible Persons in Shaoguan `Care 
Center Death Incident' Taken Under Control'' [Guangdong shaoguan 
``tuoyang zhongxin siwang shijian'' fuzeren bei kongzhi], CCTV, 21 
March 17; Chris Buckley and Adam Wu, ``Autistic Boy's Death One of Many 
Linked to Squalid `Care Center' in China,'' New York Times, 20 March 
17.
    \50\ Wang Jingyi and Deng Yuchen, ``An Autistic Youth's Road to 
Death'' [Yige zibizheng shaonian de siwang zhi lu], Beijing News, 20 
March 17; Chen Yuanyuan, ``Why Is There a High Frequency of Death at 
Care Centers Among Persons Receiving Emergency Assistance? '' [Bei 
jiuzhu renyuan heyi zai tuoyang zhongxin gaopin siwang], Beijing News, 
20 March 17; Wang Jingyi, ``Follow-up on `Investigation Into Death of 
Autistic Youth at Lianxi Care Center,' Xinfeng County Head: Life Is 
Precious, We Are Responsible'' [``Lianxi tuoyang zhongxin zibizheng 
shaonian siwang diaocha'' zhuizong xinfeng xianzhang: renming guantian 
women you zeren], Beijing News, 20 March 17.
    \51\ Chen Yuanyuan, ``Why Is There a High Frequency of Death at 
Care Centers Among Persons Receiving Emergency Assistance? '' [Bei 
jiuzhu renyuan heyi zai tuoyang zhongxin gaopin siwang], Beijing News, 
20 March 17; Cai Jiaxin and Sheng Menglu, ``20 Deaths in 49 Days 
Exposed at Care Center, Inadequate Oversight, Who Will Be Held 
Responsible? '' [49 tian wang 20 ren bao tuoyang zhongxin jianguan 
shicha shui lai danze?], Caixin, 21 March 17.
    \52\ State Council, Regulations on Education for Persons with 
Disabilities [Canjiren jiaoyu tiaoli], issued 23 August 94, amended 1 
February 17, effective 1 May 17. See also CECC, 2013 Annual Report, 10 
October 13, 122.
    \53\ State Council, Regulations on Education for Persons with 
Disabilities [Canjiren jiaoyu tiaoli], issued 23 August 94, amended 1 
February 17, effective 1 May 17, art. 48; Hu Hao et al., ``Protecting 
Persons With Disabilities' Enjoyment of the Equal Right To Receive an 
Education--Three Major Highlights of the Revised `Regulations on 
Education for Persons With Disabilities' '' [Baozhang canjiren xiangyou 
pingdeng jieshou jiaoyu de quanli--xiuding hou de ``canjiren jiaoyu 
tiaoli'' tuxian san da liangdian], Xinhua, 23 February 17.
    \54\ Ministry of Education and China Disabled Persons Federation, 
Nationwide Provisions for the Uniform Management of Ordinary College- 
and Higher-Level School Entrance Examinations for Participating 
Students With Disabilities [Canjiren canjia putong gaodeng xuexiao 
zhaosheng quanguo tongyi kaoshi guanli guiding], 27 April 17; `` `New 
Regulations' Again Released for Disabled Students Taking College Exam: 
Braille Test-Takers Can Extend Exam Time by a Half' '' [Canjiren gaokao 
zaichu ``xingui'': mangwen kaosheng ke yanchang yiban kaoshi shijian], 
Jiemian, 29 April 17.
    \55\ Lin Yanhua, ``Guangxi To Provide Reasonable Accommodation for 
Disabled and Special Needs Student Test-Takers, Fostering a Warm and 
Harmonious College Exam'' [Guangxi wei canji, teshu kaosheng tigong 
heli bianli dazao wenxin hexie gaokao], China News Service, 6 June 17; 
Li Jing, ``Shanghai Municipal Education Commission Foreign Language 
Listening Skills Items for Attention, 18 Students With Hearing 
Disabilities Took Test for Free'' [Shanghai shi jiaowei fa waiyu tingli 
zhuyi shixiang, 18 ming tingli canji kaosheng mian ceshi], The Paper, 7 
June 17.
    \56\ Human Rights Watch, ``China: New Rules for Students With 
Disabilities Inadequate,'' 6 March 17; Catherine Lai, ``China's New 
Rules on Education for People With Disabilities Still Fall Short, Says 
NGO,'' Hong Kong Free Press, 25 February 17. See also CECC, 2013 Annual 
Report, 10 October 13, 122.
    \57\ Save the Children, ``Integrated (Inclusive) Education Round 
Table Convened, Release of Sample Survey Report on Mainstreaming 
Students'' [Quanna (ronghe) jiaoyu zuotanhui zhaokai fabu suiban jiudu 
chouyang diaocha baogao], 7 March 17; ``About 30 Percent of Chinese 
Students With Disabilities Are Asked by Schools To Drop Out of School'' 
[Zhongguo canji xuesheng zhong jin sancheng ceng bei xuexiao yaoqiu 
tuixue], Radio Free Asia, 15 March 17. Radio Free Asia noted that 
official statistics show that the percentage of disabled children in 
total receiving compulsory education is around 70 percent.

                                                The Environment
                                                The Environment

                            The Environment


                              Introduction

    During the Commission's 2017 reporting year, the Chinese 
government reported modest progress in air and water pollution 
reduction,\1\ while Chinese and international media reports 
detailed the ongoing severity of China's air, water, and soil 
pollution, and related health concerns.\2\ Chinese President 
and Communist Party General Secretary Xi Jinping reiterated the 
government's commitment to environmental protection.\3\ Some 
reports noted improvements in data disclosure for air pollution 
and on pollution sources,\4\ yet lack of transparency with 
respect to environmental data remains a problem.\5\ Government 
inspectors this past year found widespread violations of 
domestic environmental standards by firms in China,\6\ and in 
at least one incident of data falsification, prosecuted 
environmental officials for manipulating air quality monitoring 
readings.\7\ Chinese officials continued to make statements 
calling for public participation in environmental protection; 
\8\ in terms of holding polluters accountable, however, as 
highlighted in a report by the UN Special Rapporteur on extreme 
poverty and human rights, ``the Government tends to rely almost 
entirely on top-down processes.'' \9\ During this reporting 
year, authorities detained environmental advocates,\10\ 
censored media reporting on the environment \11\ and natural 
disasters,\12\ and cracked down on environmental protests,\13\ 
highlighting the government's conflicting goals of improving 
the environment and ``maintaining social stability.'' \14\

                    Reported Environmental Progress

    During this reporting year, non-governmental organizations 
(NGOs) and Chinese authorities reported modest progress toward 
achieving the government's goals of improving air quality and 
reducing water pollution. According to analysis of official 
data by Greenpeace, an international environmental advocacy 
group, ``74 percent of Chinese cities fail[ed] to meet China's 
national air quality standards'' in 2016,\15\ an improvement 
from the 80 percent of cities that failed to meet the standards 
in 2015.\16\ The government reported that in 2016, national 
targets for surface water pollution were met, with 67.8 percent 
of surface water meeting officially designated moderate to high 
standards and only 8.6 percent of surface water failing to meet 
the lowest standards.\17\ In the first half of 2017, 70.0 
percent of surface water reportedly met the moderate to high 
standards and 8.8 percent of surface water failed to meet the 
lowest standards.\18\ Authorities and independent sources 
nevertheless noted continuing areas of concern, such as 
deteriorating water quality in some areas and the prevalence of 
cancer villages and groundwater pollution.\19\

                     Environmental Health Concerns

    Reports from this past year continued to demonstrate that 
air,\20\ water,\21\ and soil pollution \22\ caused serious harm 
to the health of persons living in China. In February 2017, a 
U.S.-based research team published a report finding that air 
pollution globally may be responsible for approximately one out 
of five dementia cases for persons living in areas with high 
concentrations of fine particulate matter 
(PM<INF>2.5</INF>).\23\ Many cities in China have high annual 
average concentrations of PM<INF>2.5</INF>.\24\ In May 2017, a 
group of international scientists published research on the 
``striking'' consequences of diesel emissions on public health, 
finding that 31,400 premature deaths in China per year may be 
caused by diesel emissions.\25\ In July 2017, a European non-
profit organization reported the health costs in China ``from 
fossil fuels through air pollution-caused premature deaths'' at 
approximately US$1.7 trillion in 2015.\26\ Chinese and 
international media reported that health concerns motivated 
some urban residents to move away from polluted areas \27\ or 
take other action, such as beginning to monitor pollution or 
requesting government information on pollution, to protect 
their health.\28\

               Transparency Regarding Environmental Data

    During this reporting year, environmental NGOs and the 
Chinese government expressed concern regarding the transparency 
or accuracy of pollution-related data. The Institute of Public 
& Environmental Affairs (IPE), a Beijing-based NGO, reported 
there were still ``significant issues'' with air pollution 
disclosures by many cities, and that in some key cities, 
monitoring data was still withheld from public disclosure.\29\ 
IPE developed Blue Map, a mobile application (app) that 
provides real-time information on environmental quality.\30\ As 
of January 2017, users had reportedly downloaded the app over 3 
million times.\31\ In January 2017, a provincial environmental 
protection bureau reportedly ordered developers of another 
mobile application, Air Matters, to stop reporting pollution 
levels above a certain amount.\32\ In October 2016, Chinese 
authorities reportedly detained three environmental officials 
in Xi'an municipality, Shaanxi province, for ``falsification'' 
of air quality data.\33\ In June 2017, the Xi'an Intermediate 
People's Court sentenced seven environmental officials, 
including the three officials previously detained, to prison 
terms ranging from 1 year and 3 months to 1 year and 10 months 
for ``damaging the computer information system.'' \34\ In July 
2017, the Ministry of Environmental Protection (MEP), following 
a month-long inspection, strongly criticized the Tianjin 
municipal government for ``wantonly covering up'' its failed 
environmental protection efforts, finding that although Tianjin 
authorities had convened many meetings and launched campaigns, 
``it was more lip service than action.'' \35\ MEP inspectors 
discovered that officials from the Binhai New Area and Wuqing 
districts in Tianjin had ``taken shortcuts'' (zou jiejing) to 
report better air quality by spraying water and reducing 
traffic near air quality monitors, and that Jinghai district 
water bureau officials had fabricated official documents.\36\

                       Public Interest Litigation

    The Supreme People's Court (SPC) continued to take steps to 
strengthen the legal framework that provides for environmental 
organizations to file environmental public interest 
lawsuits.\37\ The number of organizations filing this type of 
lawsuit, however, remained low.\38\ In March 2017, the SPC 
released for the first time summaries of 10 public interest 
lawsuits as model cases.\39\ The plaintiffs in some of the 
model cases were entities under government supervision, 
including procuratorates in three cases, rather than 
independent non-governmental organizations (NGOs).\40\ Although 
an estimated 700 environmental NGOs in China have standing to 
bring public interest lawsuits, the number of environmental 
NGOs that filed litigation in China reportedly decreased from 
11 in 2015 to 6 in the first 11 months of 2016.\41\ Some 
foreign experts remain optimistic about the future of 
environmental public interest litigation in China due to the 
government's apparent support for such litigation,\42\ although 
significant challenges exist, including the high costs of 
litigation.\43\

------------------------------------------------------------------------
                 Soil Pollution Litigation in Changzhou
-------------------------------------------------------------------------
  In April 2016, Chinese media reported that hundreds of students had
 fallen ill at the Changzhou Foreign Languages School in Changzhou
 municipality, Jiangsu province.\44\ Following these reports, two
 environmental NGOs--Friends of Nature (FON) and the China Biodiversity
 Conservation and Green Development Foundation (CBCGDF)--sued three
 chemical manufacturers that allegedly polluted the soil near the
 school.\45\ In January 2017, the Changzhou Intermediate People's Court
 ruled in favor of the chemical manufacturers and held that the two NGOs
 were responsible for court fees totaling 1.89 million yuan
 (US$270,000).\46\ The head of the litigation department at CBCGDF
 expressed concern that this case ``would set a precedent for courts to
 use similar charging standards for future environmental public interest
 lawsuits.'' \47\ In February 2017, FON and CBCGDF reportedly appealed
 the judgment.\48\
------------------------------------------------------------------------

          Suppression of Environmental Protests and Advocates

    Chinese citizens continued to raise their concerns about 
health issues related to the environment through street-level 
protests and other forms of public advocacy.\49\ China's 
Constitution provides for freedom of speech, assembly, 
association, and demonstration,\50\ as do the International 
Covenant on Civil and Political Rights \51\ and the Universal 
Declaration of Human Rights.\52\ The following cases illustrate 
the ongoing lack of protection for citizens' rights to freedom 
of speech, assembly, association, and demonstration when they 
raise environmental concerns:

        <bullet> Shaanxi province. In October 2016, residents 
        in Xi'an municipality, Shaanxi, protested plans to 
        build a waste incinerator in a local drinking water 
        priority protection area.\53\ Local residents 
        reportedly estimated that the crowds numbered over 
        10,000 people.\54\ Following the protests, authorities 
        reportedly restricted residents' movement and censored 
        media coverage.\55\
        <bullet> Sichuan province. In December 2016, 
        authorities reportedly briefly detained a number of 
        advocates in Chengdu municipality, Sichuan, after they 
        gathered wearing face masks to protest air 
        pollution.\56\ In addition, authorities in Chengdu 
        responded to the local pollution protests by 
        prohibiting students from wearing face masks, issuing 
        censorship instructions to the media, and sending text 
        messages to local students urging them to ``trust in 
        the government to carry out anti-pollution work.'' \57\
        <bullet> Henan province. Between September 29 and 
        October 10, 2016, public security officials in Gushi 
        county, Xinyang municipality, Henan, took into custody 
        seven residents of Tianhu village, Yangji township, 
        Gushi,\58\ initially holding them at the Gushi PSB 
        Detention Center and criminally detaining them on 
        suspicion of ``sabotaging production and business 
        operations.'' \59\ The detentions were reportedly 
        connected to the residents' protests against and 
        attempts to prevent illegal sand mining that threatened 
        village fields and irrigation systems.\60\ One detained 
        villager reported that authorities tortured him to 
        obtain his signature on investigation documents.\61\
        <bullet> Hunan province. According to Radio Free Asia, 
        on October 9, 2016, police in Changsha municipality, 
        Hunan, took environmental NGO leader Liu Shu into 
        custody.\62\ On October 10, authorities ordered Liu to 
        serve 10 days of administrative detention for ``leaking 
        counter-espionage work state secrets''; her alleged 
        offense was sharing pollution data.\63\ Liu is the 
        director of the Shuguang Environmental Protection and 
        Public Interest Development Center, an NGO in 
        Changsha.\64\
        <bullet> Liaoning province. In August 2016, the Panjin 
        Intermediate People's Court in Panjin municipality, 
        Liaoning, rescinded a 12-year prison sentence against 
        Tian Jiguang.\65\ Upon retrial, however, the 
        Shuangtaizi District People's Court in Panjin sentenced 
        him to four years and six months in prison in June 
        2017.\66\ Tian was the founder and leader of the Panjin 
        City Association of Volunteers for the Protection of 
        the Spotted Seal.\67\ Authorities in Panjin detained 
        Tian in October 2013 on charges including ``extortion'' 
        after he wrote a blog post in which he criticized a 
        state-owned enterprise for water pollution.\68\

                        Regulatory Developments

    During this reporting year, the Chinese government 
implemented or drafted regulatory changes affecting 
environmental monitoring and wildlife protection. In December 
2016, the National People's Congress (NPC) passed the PRC 
Environmental Tax Law.\69\ The legislation, which will take 
effect in January 2018,\70\ provides for new environmental 
taxes that will be jointly managed by environmental and tax 
authorities,\71\ superseding the previous pollution discharge 
fees that had only been managed by environmental 
authorities.\72\ Some legal experts believe the potential for 
tax authorities to collect taxes from polluters may result in a 
strengthening of pollution monitoring systems.\73\ In July 
2016, the NPC amended the PRC Wildlife Protection Law, which 
took effect in January 2017.\74\ An international non-
governmental organization noted ``positive changes'' and areas 
of concern with the law, including that the breeding and 
selling of protected animals like the tiger may continue.\75\ 
During this reporting year, the NPC reportedly was in the 
process of drafting a new soil pollution law,\76\ and in June 
2017, the NPC amended the PRC Water Pollution Prevention and 
Control Law.\77\ China Daily, a state-run media outlet, 
highlighted a new ``river chief system'' that gives provincial 
and local officials ``major responsibility for addressing water 
pollution'' in the amended law.\78\
    In December 2016, the Supreme People's Court (SPC) and 
Supreme People's Procuratorate issued an interpretation on 
environmental crimes that, if implemented, may lead to more 
criminal enforcement for environmental data manipulation.\79\ 
The interpretation, which took effect on January 1, 2017, 
provides that criminal penalties for companies found in 
violation of environmental standards may be based on the amount 
of money the company saved by not operating the pollution 
control equipment; \80\ criminal charges of more than three 
years could be imposed if the money saved totaled over 1 
million yuan (US$140,000).\81\ The Director of the SPC research 
office said that the new interpretation would enhance the 
effectiveness of relevant legislation to allow for the 
prosecution of environmental crimes.\82\
    The government continued to develop and release 
comprehensive plans for improving the environment, although the 
government also announced plans to increase coal-fired power 
capacity. In December 2016, the National Development and Reform 
Commission released China's 13th Five-Year Energy Development 
Plan (Energy Development Plan),\83\ which builds upon mandatory 
environmental targets in China's overall 13th Five-Year Plan 
for National Economic and Social Development adopted in March 
2016.\84\ The Energy Development Plan set a mandatory target 
that energy from coal will account for 58 percent or less of 
energy production by 2020, a 6-percent decrease from 2015.\85\ 
The 13th Five-Year Electricity Development Plan, however, 
included plans to increase coal-fired power capacity from 900 
gigawatts in 2015 to no more than 1,100 gigawatts in 2020,\86\ 
despite plans to reduce carbon dioxide emissions and existing 
coal overcapacity.\87\

                                                The Environment
                                                The Environment
    Notes to Section II--The Environment

    \1\ Ministry of Environmental Protection, ``2016 Report on 
Environmental Conditions in China'' [2016 nian zhongguo huanjing 
zhuangkuang gongbao], 31 May 17, 5; ``State Council Report on 2016 
China Environmental Conditions and Fulfillment of Environmental 
Protection Targets, and Report on Study of Environmental Protection Law 
Enforcement and Investigation and Consideration of Opinions'' 
[Guowuyuan guanyu 2016 niandu huanjing zhuangkuang he huanjing baohu 
mubiao wancheng qingkuang yu yanjiu chuli huanjing baohu fa zhifa 
jiancha baogao ji shenyi yijian qingkuang de baogao], 24 April 17, 
para. 1(1)-(2); Gao Jing, ``Environmental Quality Improvement a `Heavy 
Burden Going Forward'--Minister of Environmental Protection Chen Jining 
Responds to Hot Topic of Serious Air Pollution'' [Huanjing zhiliang 
gaishan ``fuzhong qian xing''--huanbaobu buzhang chen jining huiying 
zhong wuran tianqi redian huati], Xinhua, 7 January 17; ``China 
Exclusive: Environment Minister Feels `Guilty' for Air Pollution,'' 
Xinhua, 7 January 17.
    \2\ Alice Yan, ``Smog Linked to Third of Deaths in China, Study 
Finds,'' South China Morning Post, 23 December 16; Ruan Yulin, ``61 
Chinese Cities Begin Air Pollution Warnings'' [Zhongguo 61 ge chengshi 
qidong kongqi wuran yujing], China News Service, 31 December 16; 
``Local Govts Need To Be Tougher on Polluters,'' China Daily, 6 January 
17; Deng Tingting, ``In China, the Water You Drink Is as Dangerous as 
the Air You Breathe,'' Guardian, 2 June 17; Zheng Jinran, ``Water 
Quality To Be Prioritized,'' China Daily, 20 December 16; ``The Most 
Neglected Threat to Public Health in China Is Toxic Soil,'' Economist, 
8 June 17.
    \3\ Wang Zihui, ``Since the 18th Party Congress, Xi Jinping Has 
Repeatedly Stressed `Clear Water and Green Mountains' '' [Shiba da 
yilai, xi jinping fanfu qiangdiao ``lu shui qing shan''], Xinhua, 5 
June 17; ``Xi Calls for Building of Socialist Ecological 
Civilization,'' Xinhua, 2 December 16.
    \4\ Institute of Public & Environmental Affairs, ``Seeking Blue 
Together: Institute of Public & Environmental Affairs 2016 Annual 
Report,'' 19 January 17, 7, 9; Institute of Public & Environmental 
Affairs, ``Blue Sky Roadmap Phase IV: Managing the `Gap Effect,' '' 
August 2016, 3; Angel Hsu et al., ``Addressing Gaps in China's 
Environmental Data: The Existing Landscape,'' Yale Data-Driven 
Environmental Solutions Group, January 2017, 4; Beth Gardiner, 
``China's Surprising Solutions To Clear Killer Air,'' National 
Geographic, 5 May 17.
    \5\ Deng Tingting, ``In China, the Water You Drink Is as Dangerous 
as the Air You Breathe,'' Guardian, 2 June 17; Angel Hsu et al., 
``Addressing Gaps in China's Environmental Data: The Existing 
Landscape,'' Yale Data-Driven Environmental Solutions Group, January 
2017, 8-9; Institute of Public & Environmental Affairs, ``Blue Sky 
Roadmap Phase IV: Managing the `Gap Effect,' '' August 2016, 1.
    \6\ Ministry of Environmental Protection, ``Bulletin on 
Strengthening the State of Supervision and Investigation of Air 
Pollution Prevention in Beijing, Tianjin, Hebei, and Neighboring 
Areas'' [Huanjing baohubu tongbao jing jin ji ji zhoubian diqu daqi 
wuran fangzhi qianghua du cha qingkuang], 8 June 17; ``Inspections Find 
70 Pct of Firms Violated Environmental Rules,'' Xinhua, 11 June 17; 
Ministry of Environmental Protection, ``Bulletin on 2017 First Quarter 
Air Quality Special Inspection Situation'' [Huanjing baohubu tongbao 
2017 nian di yi jidu kongqi zhiliang zhuanxiang du cha qingkuang], 30 
March 17; Ministry of Environmental Protection, ``Bulletin on 
Strengthening the State of Supervision and Investigation of Air 
Pollution Prevention in Beijing, Tianjin, Hebei, and Neighboring 
Areas'' [Huanjing baohubu tongbao jing jin ji ji zhoubian diqu daqi 
wuran fangzhi qianghua du cha qingkuang], 19 April 17; Bibek Bhandari, 
``Polluting Plants Shut by Officials Found Still in Use,'' Sixth Tone, 
21 April 17.
    \7\ Ning Jun, ``For Giving Air Quality Monitoring Equipment 
`Facemask,' Chang'an Environmental Protection Bureau Branch Director 
Among Seven People Sentenced'' [Gei kongqi caiyangqi ``dai kouzhao'' 
huanbao chang'an fenju juzhang deng 7 ren huoxing], Chinese Business 
View, 16 June 17; Zhou Dongxu, ``Wang Shekun: Falsification of 
Environmental Protection Data, Air Quality Monitor `Wearing a Facemask' 
Is Just the Tip of the Iceberg'' [Wang shekun: huanbao shuju zaojia 
kongqi caiyangqi ``dai kouzhao'' zhi shi bingshan yijiao], Caixin, 28 
October 16; ``China Holds Five Officials Over `Falsification' of Air 
Monitoring Data,'' Radio Free Asia, 27 October 16; Edward Wong and 
Vanessa Piao, ``When China Wants Better Air Readings, Cotton Does the 
Trick,'' New York Times, Sinosphere (blog), 28 October 16.
    \8\ ``Ministry of Environmental Protection Vice Minister Zhao 
Yingmin Interprets the ` ``13th Five-Year Plan'' for National Eco-
Environmental Protection' '' [Huanjing baohubu fubuzhang zhao yingmin 
jiedu `` `shisan wu' shengtai huanjing baohu guihua''], China 
Environment News, reprinted in Ministry of Environmental Protection, 6 
December 16; Ministry of Environmental Protection, ``Vice Minister Zhao 
Yingmin Interprets the 13th Five-Year Plan for National Eco-
Environmental Conservation,'' 3 January 17; Sue-Lin Wong and David 
Stanway, ``China Urges Closer Ties With Non-Government Bodies, Media in 
War on Water Pollution,'' Reuters, 21 April 17; Angel Hsu et al., ``The 
Potential for Citizen-Generated Data in China,'' Yale Data-Driven 
Environmental Solutions Group, January 2017, 6-8. See also CECC, 2015 
Annual Report, 8 October 15, 208; CECC, 2007 Annual Report, 10 October 
07, 136-37.
    \9\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 68.
    \10\ See, e.g., Chinese Human Rights Defenders, ``Earth Day: China 
Must Protect Human Rights To Effectively Protect the Environment,'' 20 
April 17; ``China Jails Environmental Activist for `Revealing State 
Secrets,' '' Radio Free Asia, 11 October 16; ``Chinese Environmental 
Protester Seeks Refuge in Thailand Ahead of Earth Day,'' Radio Free 
Asia, 21 April 17.
    \11\ China Digital Times, ``Minitrue: Notice on Chengdu 
Environmental Coverage,'' 12 December 16; ``China Cracks Down on 
Chengdu Smog Protests, Detains Activists, Muzzles Media,'' Radio Free 
Asia, 13 December 16; ``Xian Under Security Alert After Thousands 
Protest Incinerator Plant,'' Radio Free Asia, 17 October 16.
    \12\ See, e.g., China Digital Times, ``Minitrue: Delete Report on 
Causes of Deadly Landslide,'' 27 June 17; China Digital Times, 
``Minitrue: Follow Xinhua on Jiuzhaigou Earthquake,'' 8 August 17.
    \13\ See, e.g., ``Xian Under Security Alert After Thousands Protest 
Incinerator Plant,'' Radio Free Asia, 17 October 16; Benjamin Haas, 
``China Riot Police Seal Off City Centre After Smog Protesters Put 
Masks on Statues,'' Guardian, 12 December 16.
    \14\ See, e.g., Alex L. Wang, ``Explaining Environmental 
Information Disclosure in China,'' Social Science Research Network, 
last visited 15 April 17, 20, 56; Chinese Human Rights Defenders, 
``Earth Day: China Must Protect Human Rights To Effectively Protect the 
Environment,'' 20 April 17.
    \15\ Greenpeace, ``Almost Three Quarters of Chinese Cities Yet To 
Reach Air Quality National Standards,'' 17 January 17. See also 
Ministry of Environmental Protection, ``2016 Report on Environmental 
Conditions in China'' [2016 nian zhongguo huanjing zhuangkuang 
gongbao], 31 May 17, 5.
    \16\ Greenpeace, ``China Saw Average PM<INF>2.5</INF> Levels Fall 
by 10% in 2015, but 80% of Cities Still Fail To Meet National Air 
Quality Standards,'' 20 January 16.
    \17\ Ministry of Environmental Protection, ``MEP Releases the 
Developments in Water Pollution Control,'' 27 March 17; Dongmei Han et 
al., ``Deep Challenges for China's War on Water Pollution,'' 
Environmental Pollution, Vol. 218 (November 2016), 1223, 1227. The 
Chinese government's surface water quality standards range from the 
highest quality rating, Grade I, to the lowest of Grade VI.
    \18\ Ministry of Environmental Protection, ``Ministry of 
Environmental Protection Bulletin for First Half of 2017 on Water 
Quality in Every Province (Autonomous Region and Municipality) and 
Places Where Water Quality Declined'' [Huanjing baohubu tongbao 2017 
nian shangbannian ge sheng (qu, shi) shuizhi qingkuang he shuizhi 
xiajiang duanmian], 14 August 17; ``China Reports Uneven Progress in 
Reducing Water Pollution,'' Xinhua, 14 August 17. See also Ministry of 
Environmental Protection, ``MEP Releases the Developments in Water 
Pollution Control,'' 27 March 17; Dongmei Han et al., ``Deep Challenges 
for China's War on Water Pollution,'' Environmental Pollution, Vol. 218 
(November 2016), 1223, 1227.
    \19\ Christian Shepherd, ``China's Environment Ministry Finds 
Patchy Progress on Water and Soil Pollution,'' Reuters, 24 April 17; 
Matthew Currell, ``Deep Challenges: China's `War on Water Pollution' 
Must Tackle Deep Groundwater Pollution Pathways,'' American Geophysical 
Union, Water Underground (blog), 16 March 17; Greenpeace, ``Evaluation 
of Water Quality Improvement Conditions in Every Province (Autonomous 
Region and Municipality) of China During the `12th Five-Year Plan' '' 
[``Shi'er wu'' qijian zhongguo ge sheng (zizhiqu, zhixiashi) dibiao 
shui huanjing zhiliang gaishan qingkuang pinggu], May 2017, 35; Deng 
Tingting, ``In China, the Water You Drink Is as Dangerous as the Air 
You Breathe,'' Guardian, 2 June 17; Sue-Lin Wong and David Stanway, 
``China Urges Closer Ties With Non-Government Bodies, Media in War on 
Water Pollution,'' Reuters, 21 April 17; Ministry of Environmental 
Protection, ``2016 Report on Environmental Conditions in China'' [2016 
nian zhongguo huanjing zhuangkuang gongbao], 31 May 17, 5.
    \20\ Die Fang et al., ``Mortality Effects Assessment of Ambient 
PM<INF>2.5</INF> Pollution in the 74 Leading Cities of China,'' Science 
of the Total Environment, Vols. 569-70 (1 November 16), 1551; Alice 
Yan, ``Smog Linked to Third of Deaths in China, Study Finds,'' South 
China Morning Post, 22 December 16; Lisa Marshall, ``Diesels Pollute 
More Than Tests Detect; Excess Emissions Kill 38,000 Yearly,'' CU 
Boulder Today, 15 May 17.
    \21\ Dongmei Han et al., ``Deep Challenges for China's War on Water 
Pollution,'' Environmental Pollution, Vol. 218 (November 2016), 1222-
23, 1229-30; Matthew Currell, ``Deep Challenges: China's `War on Water 
Pollution' Must Tackle Deep Groundwater Pollution Pathways,'' American 
Geophysical Union, Water Underground (blog), 16 March 17.
    \22\ ``The Most Neglected Threat to Public Health in China Is Toxic 
Soil,'' Economist, 8 June 17; Changsheng Qu et al., ``China's Soil 
Pollution Control: Choices and Challenges,'' Environment Science & 
Technology, Vol. 50, No. 24 (8 December 16), 13181.
    \23\ Edward Wong, ``Pollution Leads to Greater Risk of Dementia 
Among Older Women, Study Says,'' New York Times, Sinosphere (blog), 4 
February 17; Emily Underwood, ``The Polluted Brain,'' Science Magazine, 
26 January 17.
    \24\ Die Fang et al., ``Mortality Effects Assessment of Ambient 
PM<INF>2.5</INF> Pollution in the 74 Leading Cities of China,'' Science 
of the Total Environment, Vols. 569-70 (1 November 16), 1546; Ministry 
of Environmental Protection, ``2016 Report on Environmental Conditions 
in China'' [2016 nian zhongguo huanjing zhuangkuang gongbao], 31 May 
17, 8. See also Edward Wong, ``Pollution Leads to Greater Risk of 
Dementia Among Older Women, Study Says,'' New York Times, Sinosphere 
(blog), 4 February 17.
    \25\ Lisa Marshall, ``Diesels Pollute More Than Tests Detect; 
Excess Emissions Kill 38,000 Yearly,'' CU Boulder Today, 15 May 17.
    \26\ Health and Environment Alliance, ``Hidden Price Tags: How 
Ending Fossil Fuel Subsidies Would Benefit Our Health,'' July 2017, 27; 
Catherine Early, ``Health Costs of China's Fossil Fuel Subsidies 
Highlighted,'' China Dialogue, 2 August 17.
    \27\ Zhang Wenli, ``Three Mothers, Under Smog,'' Sixth Tone, 29 
December 16; Ye Ye, ``In Smog Besieged Beijing, How Can Start-Up 
Companies Survive? '' [Bei wumai weikun de beijing, chuangye gongsi yao 
ruhe shengcun?], 36Kr, 20 December 16; Meng Jing, ``Beijing Start-Ups 
Move Out as Hazardous Smog Smothers Capital,'' South China Morning 
Post, 4 January 17. See also American Chamber of Commerce in China, 
``2017 American Business in China White Paper,'' April 2017, 84.
    \28\ Zhang Wenli, ``Three Mothers, Under Smog,'' Sixth Tone, 29 
December 16; Anthony Kuhn, ``For Some in China's Middle Class, 
Pollution Is Spurring Action,'' NPR, 2 March 17; Angel Hsu et al., 
``The Potential for Citizen-Generated Data in China,'' Yale Data-Driven 
Environmental Solutions Group, January 2017, 9, 11-12.
    \29\ Shen Su'nan et al., Institute of Public & Environmental 
Affairs, ``Blue Sky Roadmap Phase IV: Managing the `Gap Effect,' '' 
August 2016, 1.
    \30\ Institute of Public & Environmental Affairs, ``About IPE,'' 
last visited 15 June 17. The Blue Map App can be downloaded from the 
IPE website at www.ipe.org.cn. Real-time maps of water quality, 
wastewater, air emissions, and air quality are also available.
    \31\ Institute of Public & Environmental Affairs, ``Seeking Blue 
Together: Institute of Public & Environmental Affairs 2016 Annual 
Report,'' 19 January 17, 8.
    \32\ Wang Lianzhang, ``Government Orders Chinese Air Quality App To 
Limit Readings,'' Sixth Tone, 10 January 17.
    \33\ Michael Lelyveld, ``China Fraud Case Raises Smog Suspicions,'' 
Radio Free Asia, 14 November 16; Jane Li, ``Chinese Officials 
Questioned After Cotton Wool Shoved in Equipment To Monitor Air 
Pollution: Report,'' South China Morning Post, 25 October 16; Catherine 
Lai, ``Three Xi'an Officials Detained After Stuffing Cotton Into Air 
Quality Monitor To Alter Data,'' Hong Kong Free Press, 26 October 16.
    \34\ Xi'an Intermediate People's Court, ``Seven Defendants, 
Including Li Sen, Openly Sentenced in Two First-Instance Cases of 
Damaging the Computer Information System'' [Beigaoren li sen deng qi 
ren pohuai jisuanji xinxi xitong yishen liang'an gongkai xuanpan], 16 
June 17; ``China Court Sentences Seven Over Falsifying Air Quality 
Data,'' Xinhua, 16 June 17.
    \35\ Zhao Yusha, ``Tianjin Slammed for Air, Water Pollution 
Coverup,'' Global Times, 30 July 17. See also Ministry of Environmental 
Protection, ``First Central Environmental Protection Inspection Team 
Gives Feedback on Inspection Results to Tianjin Municipal Government'' 
[Zhongyang di yi huanjing baohu ducha zu xiang tianjin shi fankui ducha 
qingkuang], 29 July 17; Zhuang Pinghui, ``China's Environment Watchdog 
Reads Riot Act to Megacity Over Litany of Pollution Failures,'' South 
China Morning Post, 31 July 17.
    \36\ Ministry of Environmental Protection, ``First Central 
Environmental Protection Inspection Team Gives Feedback on Inspection 
Results to Tianjin Municipal Government'' [Zhongyang di yi huanjing 
baohu ducha zu xiang tianjin shi fankui ducha qingkuang], 29 July 17; 
Zhuang Pinghui, ``China's Environment Watchdog Reads Riot Act to 
Megacity Over Litany of Pollution Failures,'' South China Morning Post, 
31 July 17. See also Zhao Yusha, ``Tianjin Slammed for Air, Water 
Pollution Coverup,'' Global Times, 30 July 17.
    \37\ PRC Environmental Protection Law [Zhonghua renmin gongheguo 
huanjing baohu fa], issued 26 December 89, amended 24 April 14, 
effective 1 January 15, art. 58. The PRC Environmental Protection Law 
established the legal framework for environmental organizations to file 
public interest lawsuits. For an example of Supreme People's Court 
efforts to strengthen this legal framework in the past, see, e.g., 
Supreme People's Court, Interpretation Regarding Certain Issues Related 
to Application of the Law in Environmental Civil Public Interest 
Litigation [Guanyu shenli huanjing minshi gongyi susong anjian shiyong 
falu ruogan wenti de jieshi], issued 6 January 15, effective 7 January 
15.
    \38\ Yu Zhuang, ``The Challenge of Litigation Costs and Damage 
Assessment Fees in Environmental Public Interest Litigation in China,'' 
Comparative Jurist, William & Mary Law School's International and 
Comparative Law Blog, 13 May 17.
    \39\ ``Supreme People's Court Releases Public Interest 
Environmental Litigation Model Cases'' [Zuigao renmin fayuan fabu 
huanjing gongyi susong dianxing anli], Xinhua, 7 March 17; Zhang Chun, 
``Six Important Environmental Cases,'' China Dialogue, 11 April 17; 
Yanmei Lin, ``China's Supreme Court Releases Ten Model Environmental 
Public Interest Litigation Cases,'' Vermont Law School, Asia 
Environmental Governance Blog, 13 March 17.
    \40\ ``Supreme People's Court Releases Public Interest 
Environmental Litigation Model Cases'' [Zuigao renmin fayuan fabu 
huanjing gongyi susong dianxing anli], Xinhua, 7 March 17; Zhang Chun, 
``Six Important Environmental Cases,'' China Dialogue, 11 April 17. See 
also Zhang Yan, ``Public Interest Lawsuits To Grow Over Pollution, Food 
and Drugs,'' China Daily, 14 March 17. The China Daily article quotes a 
senior Supreme People's Procuratorate official as saying that a public 
interest lawsuit by the procuratorate should be ``the last resort,'' 
and that governmental and non-governmental organizations should be 
urged to file cases first.
    \41\ Yu Zhuang, ``The Challenge of Litigation Costs and Damage 
Assessment Fees in Environmental Public Interest Litigation in China,'' 
Comparative Jurist, William & Mary Law School's International and 
Comparative Law Blog, 13 May 17.
    \42\ See, e.g., Dimitri de Boer and Douglas Whitehead, ``Opinion: 
The Future of Public Interest Litigation in China,'' China Dialogue, 8 
November 16; ``How China Is Using the Law To Protect the Environment,'' 
Client Earth, 24 October 16.
    \43\ Scott Wilson, ``China's NGO Regulations and Uneven Civil 
Society Development,'' University of Nottingham, China Policy 
Institute: Analysis (blog), 15 February 17; Zhang Chun, ``Environmental 
Law Blunted by Crippling Court Costs,'' China Dialogue, 22 August 16.
    \44\ Shi Yi, ``Court Rules Against NGOs in Changzhou Polluted 
School Case,'' Sixth Tone, 25 January 17. See also Jiang Xiaoping, 
``Middle School Moves to New Site as 500 Students Have Health 
Irregularities, Some Found To Have Leukemia'' [Zhongxue ban xinzhi 500 
xuesheng shenti yichang gebie chachu baixuebing], CCTV, reprinted in 
Sina, 17 April 16; Tom Phillips, ``China's Toxic School: Officials 
Struggle To Contain Uproar Over Sick Students,'' Guardian, 19 April 16; 
Yu Zhuang, ``Friends of Nature (China)'s Fight Against Soil Pollution 
in China,'' Vermont Law School, Asia Environmental Governance Blog, 13 
May 16.
    \45\ Changzhou Intermediate People's Court, Jiangsu Province, Civil 
Judgment [Jiangsu sheng changzhou shi zhongji renmin fayuan minshi 
panjue shu], (2016) Su 04 Min Chu No. 214, 25 January 17, reprinted in 
China Judgements Online, 27 February 17; Zhang Chun and Tang Damin, 
``The Changzhou Soil Pollution Case Is Far From Over,'' China Dialogue, 
24 February 17.
    \46\ Changzhou Intermediate People's Court, Jiangsu Province, Civil 
Judgment [Jiangsu sheng changzhou shi zhongji renmin fayuan minshi 
panjue shu], (2016) Su 04 Min Chu No. 214, 25 January 17, reprinted in 
China Judgements Online, 27 February 17; ``Changzhou Polluted Soil 
Environmental Groups Lose Litigation, Plan To Collect Donations for 
Difficult Sum of 1.89 Million Yuan in Legal Fees'' [Changzhou dudi an 
huanbao zuzhi baisu, nan chengdan 189 wan susong fei ni mujuan], China 
Youth Daily, reprinted in Xinhua, 7 February 17.
    \47\ Michael Standaert, ``Chinese Ruling Threatens Environmental 
Public Interest Suits,'' Bloomberg, 24 February 17.
    \48\ Zhang Chun and Tang Damin, ``The Changzhou Soil Pollution Case 
Is Far From Over,'' China Dialogue, 24 February 17.
    \49\ See, e.g., ``Clashes Flare Amid Mass Incinerator Protests in 
China's Guangdong,'' Radio Free Asia, 8 May 17. See also Michael 
Standaert, ``As China Pushes Waste-to-Energy Incinerators, Protests Are 
Mounting,'' Yale Environment 360, 20 April 17.
    \50\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 35.
    \51\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 19, 21, 22; United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 10 September 17; State Council 
Information Office, ``National Human Rights Action Plan of China (2016-
2020)'' [Guojia renquan xingdong jihua (2016-2020 nian)], 29 September 
16, sec. 5. China has signed and stated its intent to ratify the ICCPR.
    \52\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
19, 20.
    \53\ ``Xian Under Security Alert After Thousands Protest 
Incinerator Plant,'' Radio Free Asia, 17 October 16; ``10,000 in Xi'an 
Protest Against Construction of Waste Incinerator, Many Are Detained'' 
[Xi'an wan ren kangyi lese fenshao chang jianshe duo ren bei bu], Radio 
Free Asia, 17 October 16.
    \54\ Ibid.
    \55\ ``Xian Under Security Alert After Thousands Protest 
Incinerator Plant,'' Radio Free Asia, 17 October 16.
    \56\ See, e.g., ``The Artist Protesters in a Polluted City on 
Edge,'' BBC, China Blog, 13 December 16; ``China Cracks Down on Chengdu 
Smog Protests, Detains Activists, Muzzles Media,'' Radio Free Asia, 13 
December 16.
    \57\ ``China Cracks Down on Chengdu Smog Protests, Detains 
Activists, Muzzles Media,'' Radio Free Asia, 13 December 16.
    \58\ Rights Defense Network, ``Five Gushi County, Henan Province, 
Villagers Criminally Detained on Suspicion of `Sabotaging Production 
and Business Operations' for Protecting Dikes and Defending Fields by 
Blocking Sand Mining Truck From Mining Sand'' [Henan sheng gushi xian 
wu nongmin wei hudi baotian zuzhi yunsha che yunsha bei yi ``pohuai 
shengchan jingying zui'' xingju], 6 October 16; Rights Defense Network, 
``Gushi County, Henan Province, Police Criminally Detained Five 
Villagers for Protecting Dikes and Defending Fields, Two More 
Criminally Detained, Seven People Criminally Detained in Total'' [Henan 
sheng gushi xian jingfang xingju hudi baotian wu nongmin bei xingju zhi 
you xingju er ren, gong xingju qi ren], 13 October 16. For more 
information, see the Commission's Political Prisoner Database records 
2017-00084 on Xu Jiande, 2017-00085 on Wu De'an, 2017-00087 on Sun 
Jiaxiu, 2017-00089 on Yu Yunshan, 2017-00091 on Zhang Jinzhi, 2017-
00092 on Wu Xiufang, and 2017-00093 on Wu Deqian.
    \59\ Rights Defense Network, ``Five Gushi County, Henan Province, 
Villagers Criminally Detained on Suspicion of `Sabotaging Production 
and Business Operations' for Protecting Dikes and Defending Fields by 
Blocking Sand Mining Truck From Mining Sand'' [Henan sheng gushi xian 
wu nongmin wei hudi baotian zuzhi yunsha che yunsha bei yi ``pohuai 
shengchan jingying zui'' xingju], 6 October 16; Rights Defense Network, 
``Gushi County, Henan Province, Police Criminally Detained Five 
Villagers for Protecting Dikes and Defending Fields, Two More 
Criminally Detained, Seven People Criminally Detained in Total'' [Henan 
sheng gushi xian jingfang xingju hudi baotian wu nongmin bei xingju zhi 
you xingju er ren, gong xingju qi ren], 13 October 16.
    \60\ Ibid. See also Vince Beiser, ``Sand Mining: The Global 
Environmental Crisis You've Probably Never Heard Of,'' Guardian, 27 
February 17.
    \61\ Rights Defense Network, ``Gushi County, Henan Province, Public 
Security Used Brutal Torture Against Rural Rights Advocate Xu Jiande'' 
[Henan sheng gushi xian gong'an shiyong canbao kuxing zhemo weiquan 
nongmin xu jiande], 19 March 17.
    \62\ ``For Exposing Pollution Data, Environmental Protection NGO 
Director Liu Shu Detained'' [Pilu wuran shuju huanbao NGO fuzeren liu 
shu bei bu], Radio Free Asia, 11 October 16; ``China Jails 
Environmental Activist for `Revealing State Secrets,' '' Radio Free 
Asia, 11 October 16; ``Changsha Environmental Public Interest Figure 
Liu Shu Accused of `Disclosing State Secrets,' Detained by Police'' 
[Changsha huanbao gongyi renshi liu shu bei zhi ``xielou guojia mimi'' 
zao jingfang juliu], Radio Free Asia, 11 October 16. For more 
information on Liu Shu, see the Commission's Political Prisoner 
Database record 2016-00451.
    \63\ ``For Exposing Pollution Data, Environmental Protection NGO 
Director Liu Shu Detained'' [Pilu wuran shuju huanbao NGO fuzeren liu 
shu bei bu], Radio Free Asia, 11 October 16; ``China Jails 
Environmental Activist for `Revealing State Secrets,' '' Radio Free 
Asia, 11 October 16; ``Changsha Environmental Public Interest Figure 
Liu Shu Accused of `Disclosing State Secrets,' Detained by Police'' 
[Changsha huanbao gongyi renshi liu shu bei zhi ``xielou guojia mimi'' 
zao jingfang juliu], Radio Free Asia, 11 October 16.
    \64\ Ibid.
    \65\ Zhou Tailai and Li Rongde, ``Environmental Activist Convicted 
of Blackmailing Oil Giant Has Sentence Commuted,'' Caixin, 28 June 17. 
See also Love Is One Hundred Over Zero (Ai shi yibai bi ling), ``March 
1, International Spotted Seal Day. China's Number 1 Protector of 
Spotted Seals--Tian Jiguang, Remains in Prison!'' [3 yue 1 ri, guoji 
haibao ri. zhongguo ban haibao baohu di yi ren--tian jiguang, reng zai 
jianyu zhong!], Weibo post, 1 March 17, 3:13 p.m.; Liu Ji, 
``Environmentalist Tian Jiguang's Extortion Conviction Rescinded: 
Original Verdict Had Unclear Facts and Violated Procedures'' [Huanbao 
renshi tian jiguang qiaozha an youzui panjue bei chexiao: yuanpan 
shishi bu qing weifan chengxu], The Paper, 12 August 16.
    \66\ Ibid.
    \67\ Zhou Tailai and Li Rongde, ``Environmental Activist Convicted 
of Blackmailing Oil Giant Has Sentence Commuted,'' Caixin, 28 June 17; 
Love Is One Hundred Over Zero (Ai shi yibai bi ling), ``March 1, 
International Spotted Seal Day. China's Number 1 Protector of Spotted 
Seals--Tian Jiguang, Remains in Prison!'' [3 yue 1 ri, guoji haibao ri. 
zhongguo ban haibao baohu di yi ren--tian jiguang, reng zai jianyu 
zhong!], Weibo post, 1 March 17, 3:13 p.m. For more information on Tian 
Jiguang, see the Commission's Political Prisoner Database record 2016-
00452. See also Yaxue Cao, ``12 Years in Prison for Trying To Protect 
Spotted Seals,'' China Change, 16 November 15; Bureau of Democracy, 
Human Rights, and Labor, U.S. Department of State, ``Country Reports on 
Human Rights Practices for 2015--China (Includes Tibet, Hong Kong, and 
Macau),'' 13 April 16, 48; Guo Rui, ``Retrial for the Number One 
`Protector of Spotted Seals,' Tian Jiguang, First Instance Sentence of 
12 Years Shocked Environmental World'' [``Baohu ban haibo'' di yi ren 
tian jiguang an zaishen yishen bei pan 12 nian zhenjing huanbao jie], 
Phoenix Net, 29 April 16.
    \68\ Yaxue Cao, ``12 Years in Prison for Trying To Protect Spotted 
Seals,'' China Change, 16 November 15; Bureau of Democracy, Human 
Rights, and Labor, U.S. Department of State, ``Country Reports on Human 
Rights Practices for 2015--China (Includes Tibet, Hong Kong, and 
Macau),'' 13 April 16, 48; Guo Rui, ``Retrial for the Number One 
`Protector of Spotted Seals,' Tian Jiguang, First Instance Sentence of 
12 Years Shocked Environmental World'' [``Baohu ban haibo'' di yi ren 
tian jiguang an zaishen yishen bei pan 12 nian zhenjing huanbao jie], 
Phoenix Net, 29 April 16.
    \69\ PRC Environmental Protection Tax Law [Zhonghua renmin 
gongheguo huanjing baohu shui fa], passed 25 December 16, effective 1 
January 18; ``China Focus: China To Introduce Environmental Tax for 
Enhanced Pollution Control,'' Xinhua, 25 December 16.
    \70\ PRC Environmental Protection Tax Law [Zhonghua renmin 
gongheguo huanjing baohu shui fa], passed 25 December 16, effective 1 
January 18, art. 28.
    \71\ Ibid., arts. 14-15; Laney Zhang, Law Library of Congress, 
``China: New Law Replacing Pollution Discharge Fee With Environmental 
Protection Tax,'' Library of Congress, Global Legal Monitor, 8 February 
17. See also ``China Pins Hopes on Taxation for Environmental 
Protection,'' Xinhua, 9 December 16.
    \72\ National Development and Reform Commission, Measures for the 
Administration of Standards for Levying Pollutant Discharge Fees [Paiwu 
fei zhengshou biaozhun guanli banfa], issued 28 February 03, effective 
1 July 03, art. 3; Laney Zhang, Law Library of Congress, ``China: New 
Law Replacing Pollution Discharge Fee With Environmental Protection 
Tax,'' Library of Congress, Global Legal Monitor, 8 February 17.
    \73\ Shen Jinzhong, ``Legal: Environmental Protection Tax Law 
Reforms,'' American Chamber of Commerce in China, 13 April 17; ``China 
Law and Policy (February 2017): New Taxes To Support Environmental 
Protection in China,'' O'Melveny and Meyers LLP, 7 February 17. See 
also Owen Haacke, US-China Business Council, ``Navigating the Haze of 
Environmental Compliance,'' China Business Review, 7 April 17; Scott 
Daniel Silverman and Danian Zhang, ``China Issues Environmental 
Protection Tax Law,'' Baker McKenzie, 6 January 17.
    \74\ PRC Wildlife Protection Law [Zhonghua renmin gongheguo yesheng 
dongwu baohu fa], passed 8 November 88, amended 28 August 04, 27 August 
09, 2 July 16, effective 1 January 17, art. 58.
    \75\ Environmental Investigation Agency, ``China's Revised Wildlife 
Protection Law: Concerns and Opportunities,'' 3 March 17. According to 
the Environmental Investigation Agency, ``There are an estimated 5,000-
6,000 captive tigers held in more than 200 facilities in China, many of 
which are linked to trade in tiger parts and derivatives . . ..''
    \76\ ``China's Top Legislature Schedules Bi-Monthly Session,'' 
Xinhua, 15 June 17.
    \77\ National People's Congress Standing Committee, Decision on 
Amending the ``PRC Water Pollution Prevention and Control Law'' 
[Quanguo renmin daibiao dahui changwu weiyuanhui guanyu xiugai 
``zhonghua renmin gongheguo shui wuran fangzhi fa'' de jueding], 27 
June 17. See also ``China Considers Draft Revisions To Curb Water 
Pollution,'' Xinhua, 19 December 16.
    \78\ Zheng Jinran, ``Water Law Approved With `Chief' System,'' 
China Daily, 28 June 17; PRC Water Pollution Prevention and Control Law 
[Zhonghua renmin gongheguo shui wuran fangzhi fa], passed 11 May 84, 
amended 15 May 96, 28 February 08, 27 June 17, effective 1 January 18, 
art. 5. See also Wu Wei, ``What Is the Evaluation System Under `River 
Chief System? Huairou Uses Monthly `Point System' '' [``Hezhang zhi'' 
zenme kaohe? huairou an yue ``da fen''], Beijing News, 12 August 17.
    \79\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Concerning the Application of Law in 
Handling Environmental Crimes [Zuigao renmin fayuan zuigao renmin 
jianchayuan guanyu banli huanjing wuran xingshi anjian shiyong falu 
ruogan wenti de jieshi], issued 23 December 16, effective 1 January 17, 
reprinted in Sina, 26 December 16, arts. 1(8), 1(9), 3(5), 17; ``Press 
Conference on the Release of the `Supreme People's Court, Supreme 
People's Procuratorate Interpretation of Certain Issues Concerning the 
Application of Law in Handling Environmental Crimes' '' [Guanyu juban 
``zuigao renmin fayuan zuigao renmin jianchayuan guanyu banli huanjing 
wuran xingshi anjian shiyong falu ruogan wenti de jieshi'' xinwen 
fabuhui], Supreme People's Court, 26 December 16; PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 338.
    \80\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Concerning the Application of Law in 
Handling Environmental Crimes [Zuigao renmin fayuan zuigao renmin 
jianchayuan guanyu banli huanjing wuran xingshi anjian shiyong falu 
ruogan wenti de jieshi], issued 23 December 16, effective 1 January 17, 
reprinted in Sina, 26 December 16, art. 17. See also Paul Davies and 
Andrew Westgate, ``China Focuses on Criminal Enforcement of 
Environmental Laws,'' Latham and Watkins LLP, 12 January 17; PRC 
Criminal Law [Zhonghua renmin gongheguo xing fa], passed 1 July 79, 
amended 14 March 97, effective 1 October 97, amended 25 December 99, 31 
August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 06, 
28 February 09, 25 February 11, 29 August 15, effective 1 November 15, 
art. 338.
    \81\ Supreme People's Court and Supreme People's Procuratorate, 
Interpretation of Certain Issues Concerning the Application of Law in 
Handling Environmental Crimes [Zuigao renmin fayuan zuigao renmin 
jianchayuan guanyu banli huanjing wuran xingshi anjian shiyong falu 
ruogan wenti de jieshi], issued 23 December 16, effective 1 January 17, 
reprinted in Sina, 26 December 16, art. 1(8); PRC Criminal Law 
[Zhonghua renmin gongheguo xing fa], passed 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, 29 August 15, effective 1 November 15, art. 338; 
``Press Conference on the Release of the `Supreme People's Court, 
Supreme People's Procuratorate Interpretation of Certain Issues 
Concerning the Application of Law in Handling Environmental Crimes' '' 
[Guanyu juban ``zuigao renmin fayuan zuigao renmin jianchayuan guanyu 
banli huanjing wuran xingshi anjian shiyong falu ruogan wenti de 
jieshi'' xinwen fabuhui], Supreme People's Court, 26 December 16.
    \82\ ``Press Conference on the Release of the `Supreme People's 
Court, Supreme People's Procuratorate Interpretation of Certain Issues 
Concerning the Application of Law in Handling Environmental Crimes' '' 
[Guanyu juban ``zuigao renmin fayuan zuigao renmin jianchayuan guanyu 
banli huanjing wuran xingshi anjian shiyong falu ruogan wenti de 
jieshi'' xinwen fabuhui], Supreme People's Court, 26 December 16; Cao 
Yin and Zheng Jinran, ``Court Applies Criminal Law to Data Fraud,'' 
China Daily, 27 December 17; Paul Davies and Andrew Westgate, ``China 
Focuses on Criminal Enforcement of Environmental Laws,'' Latham and 
Watkins LLP, 12 January 17.
    \83\ National Development and Reform Commission, `` `13th Five-
Year' Energy Development Plan'' [Nengyuan fazhan ``shisan wu'' guihua], 
issued December 2016.
    \84\ National People's Congress and Chinese People's Political 
Consultative Conference, PRC Outline of the 13th Five-Year Plan on 
National Economic and Social Development [Zhonghua renmin gongheguo 
guomin jingji he shehui fazhan di shisan ge wunian guihua gongyao], 
issued 17 March 16, chap. 3. Ten of the 25 targets were related to 
resources or the environment and all of them were mandatory. See also 
Katherine Koleski, U.S.-China Economic and Security Review Commission, 
``The 13th Five-Year Plan,'' 14 February 17, 3, 15-19; Xiao Tang et 
al., ``Mandatory Targets and Environmental Performance: An Analysis 
Based on Regression Discontinuity Design,'' Sustainability, Vol. 8, No. 
931 (2016), 14.
    \85\ National Development and Reform Commission, `` `13th Five-
Year' Energy Development Plan'' [Nengyuan fazhan ``shisan wu'' guihua], 
issued December 2016, 15; Alvin Lin, ``Understanding China's New 
Mandatory 58% Coal Gap Target,'' Natural Resources Defense Council, 
Experts Blog, 17 March 17.
    \86\ National Development and Reform Commission and National Energy 
Agency, `` `13th Five-Year' Electricity Development Plan (2016-2020)'' 
[Dianli fazhan ``shisan wu'' guihua (2016-2020 nian)], issued 7 
November 16, 13; Meng Meng, ``China To Cap Coal at 55 Percent of Total 
Power Output by 2020: NEA,'' Reuters, 7 November 16.
    \87\ Anders Hove and Lydia McMullen-Laird, ``Looking Beyond the 
Gigawatts in China's Power Plan,'' China Dialogue, 2 December 16; Ma 
Tianjie, ``China Outdid Itself Again in Setting 2020 Low-Carbon 
Targets,'' China Dialogue, 5 January 17.

                                                  Civil Society
                                                Civil Society

                  III. Development of the Rule of Law


                             Civil Society


                              Introduction

    During the Commission's 2017 reporting year, the Chinese 
government continued to implement reforms by encouraging the 
development of social services and welfare-oriented 
organizations while suppressing civil society organizations and 
advocates that the government deems ``politically sensitive.'' 
\1\ The Chinese government in recent years has allowed and used 
``local, limited, and issue-based partnerships'' with civil 
society to strengthen government functions and public image.\2\ 
Scholars note that the Chinese government, while desirous of 
the benefits from civil society, has sought to minimize 
potential political challenges to the government posed by a 
developed civil society.\3\ Philip Alston, the UN Special 
Rapporteur on extreme poverty and human rights, observed after 
a mission to China in August 2016 that ``the role of civil 
society organizations is becoming increasingly circumscribed 
and those whose work goes much beyond that of being service 
providers for the Government are now very much under threat.'' 
\4\ Government policies toward grassroots civil society in 
China remain restrictive,\5\ subordinating civil society 
organizations and activities to Chinese Communist Party 
control.\6\ Chinese officials continued to violate \7\ 
international standards key to civil society \8\ found in the 
Universal Declaration of Human Rights and the International 
Covenant on Civil and Political Rights, including the freedoms 
of association,\9\ assembly,\10\ and expression.\11\
    The number of Chinese non-governmental organizations (NGOs) 
is difficult to determine, in part because of the complex 
regulatory framework, the existence of unregistered NGOs and 
informal associations, the pace of growth of the non-
governmental and non-profit sector, and the range of different 
types of such organizations.\12\ According to the Ministry of 
Civil Affairs, at the end of 2016, China had 699,523 registered 
``social organizations'' (shehui zuzhi)--the official term for 
NGOs \13\--that consisted of 359,000 non-governmental, non-
commercial organizations (minban feiqiye danwei), or what the 
government now calls social service organizations (shehui fuwu 
jigou); 5,523 foundations (jijinhui); and 335,000 social 
associations (shehui tuanti).\14\ Many social associations and 
foundations are government-organized non-governmental 
organizations (GONGOs) and have close ties to the 
government.\15\ Many grassroots NGOs, with few or no ties to 
the government, remain unregistered or are registered as 
business entities due to restrictions and barriers to 
registration imposed by the government.\16\ Experts at a U.S. 
think tank event this past year estimated that there are as 
many as 3 million unregistered social organizations in China; 
\17\ past estimates ranged from 1 million to 8 million.\18\ 
According to one European scholar, only ``a couple of 
thousand'' Chinese NGOs are comparable to Western NGOs in their 
purpose and function as organizations promoting solidarity or a 
specific public interest cause.\19\

                  Continued Crackdown on Civil Society

    During this reporting year, the government and Party 
continued to deepen a crackdown on NGOs and civil society 
advocates. According to international human rights 
organizations, Chinese authorities restricted the activities of 
rights defenders by shrinking the space for expression,\20\ 
association,\21\ and assembly.\22\ Authorities targeted rights 
advocates affiliated with NGOs this past year, including those 
promoting religious freedom,\23\ worker rights,\24\ and the 
environment.\25\ Examples included the prosecution of pastors 
and labor advocates as well as the detention of an 
environmentalist on ``state security'' grounds.\26\ 
International NGO Chinese Human Rights Defenders reported that 
in 2016, Chinese authorities repeatedly cracked down on rights 
advocates for ``endangering state security,'' criminalizing 
activities ``promoting and protecting human rights.'' \27\ 
Examples of civil society advocates detained, charged, or 
sentenced this past year included the following:

        <bullet> In October 2016, authorities in Yuhua 
        district, Changsha municipality, Hunan province, took 
        environmental advocate Liu Shu into custody and ordered 
        her to serve 10 days' administrative detention for 
        allegedly ``disclosing counter-espionage-related state 
        secrets.'' \28\ Liu reportedly ``suppl[ied] data to an 
        unidentified contact about environmental pollution.'' 
        \29\ Liu was the director of the environmental NGO 
        Shuguang Environmental Protection and Public Interest 
        Development Center, founded in 2013 to investigate 
        environmental issues, including through large-scale 
        testing of drinking water.\30\ [For more information on 
        the government's treatment of environmental advocates, 
        see Section II--The Environment.]
        <bullet> In November and December 2016, Shenzhen 
        municipality, Guangdong province, public security 
        authorities detained or forcibly disappeared a group of 
        at least 12 rights advocates after they reportedly 
        gathered for dinner on November 14 to discuss current 
        political affairs.\31\ The advocates included Wang Jun, 
        Deng Hongcheng, Xiao Bing, Ma Zhiquan, Li Nanhai, Ding 
        Yan, Wang Jianhua, Dong Lingpeng, Song Liqian, Wang 
        Wei, and Huang Anyang.\32\ These individuals reportedly 
        have been involved in civil society and rights advocacy 
        for vulnerable groups.\33\
        <bullet> In December 2015, Chinese authorities began a 
        crackdown against labor advocates affiliated with labor 
        NGOs in Guangdong.\34\ In September 2016, the Panyu 
        District People's Court in Guangzhou municipality, 
        Guangdong, found Zeng Feiyang, Zhu Xiaomei, and Tang 
        Jian guilty of ``gathering a crowd to disturb social 
        order,'' sentencing Zeng to three years' imprisonment, 
        suspended for four years, and both Zhu and Tang to one 
        year and six months' imprisonment, suspended for two 
        years.\35\ State-run media outlet Xinhua reported that 
        Zeng ``admitted that he received funding and training 
        from `some overseas organizations hostile to China.' '' 
        \36\ In November 2016, the same court found Meng Han 
        guilty of ``gathering a crowd to disturb social 
        order,'' sentencing him to one year and nine months' 
        imprisonment.\37\ Zeng, Zhu, Tang, and Meng were 
        affiliated with Panyu Workers' Services Center, a labor 
        NGO in Guangzhou.\38\ The detention and sentencing of 
        these labor advocates has had a ``chilling effect'' on 
        labor advocacy in China,\39\ and while labor NGOs are 
        still operating, many are ``lay[ing] low'' and cutting 
        back on programming.\40\ [See Section II--Worker Rights 
        for more information on labor NGOs and advocates.]

    On July 15, 2017, authorities released Xu Zhiyong, a 
prominent legal advocate and one of the initiators of the New 
Citizens' Movement,\41\ after he served a four-year sentence on 
the charge of ``gathering a crowd to disturb order in a public 
place.'' \42\ Authorities alleged that Xu was the 
``ringleader'' of peaceful demonstrations against government 
corruption and advocacy for equal education rights.\43\ Police 
in Tianjin municipality reportedly blocked individuals from 
meeting Xu at the prison on the day of his release.\44\ After 
he arrived at his residence in Beijing municipality, 
plainclothes police and community security guards reportedly 
blocked people from visiting Xu, barring anyone who was not a 
neighborhood resident from entering the area near his home.\45\

             New Overseas NGOs' Activities Law Takes Effect

    Regulatory developments, particularly the PRC Law on the 
Management of Overseas Non-Governmental Organizations' 
Activities (Overseas NGOs' Activities Law) that took effect on 
January 1, 2017, threatened the continued presence of 
international NGOs (INGOs) in China as well as the independence 
of domestic NGOs reliant on foreign funding, according to 
scholars.\46\ The Overseas NGOs' Activities Law requires that 
INGOs set up and register a representative office or apply for 
a temporary activities permit with the Ministry of Public 
Security (MPS) in order to operate in mainland China.\47\
    The Chinese government provided limited clarifications on 
requirements for INGOs under the law.\48\ Foreign governments 
and NGOs sought clarification from the MPS on official 
sponsorship requirements through ``professional supervisory 
units'' (PSUs) \49\ that are tasked with overseeing INGOs' 
registration and activities, permissible INGO activities, 
registration requirements for ``temporary activities,'' and the 
division of responsibility between PSUs and public security 
offices in administering INGOs.\50\ On October 14, 2016, the 
MPS and the Shanghai Municipal Public Security Bureau (PSB) 
released a draft ``Guidebook for Foreign NGOs' Registration of 
Representative Offices and Filing of Temporary Activities'' at 
a joint forum in Shanghai, reportedly inviting nine INGOs to 
comment on the draft.\51\ On November 8, the MPS and the 
Shanghai PSB held a meeting with 11 foreign consulates about 
preparations for the implementation of the Overseas NGOs' 
Activities Law, during which an MPS official said that there 
would not be a ``grace period'' for INGOs in complying with the 
law.\52\ The MPS released the final version of the guidebook on 
November 28, which described procedures and provided documents 
required for INGOs to register.\53\ On December 20--11 days 
before the implementation date--the MPS released the official 
list of PSUs, classified by different fields of permissible 
INGO activity in China.\54\ The extent to which PSUs may be 
willing or capable of handling the procedures for sponsoring 
NGOs remained unclear.\55\ Central- and provincial-level public 
security agencies set up offices and online platforms to serve 
INGOs seeking registration in China.\56\
    According to statistical data released by the MPS, by July 
31, 2017, a total of 168 INGO representative offices and 191 
temporary activities had registered in China.\57\ Out of those 
registered, the United States had the highest number of 
registered INGO representative offices at 50, followed by Hong 
Kong at 38, Japan at 14, and Germany and South Korea each at 
13.\58\ Beijing ranked first for the highest number of total 
representative offices registered at 54, followed by Shanghai 
at 35, Yunnan province at 17, and Guangdong province at 12.\59\ 
Registered INGO representative offices had partnering PSUs from 
varying fields, with 66 representative offices partnering with 
PSUs in the trade sector, 25 partnering with PSUs in civil 
affairs, 21 partnering with PSUs in health and population 
planning, and 8 partnering with PSUs in education.\60\ Asia 
Society's ChinaFile published data analysis on INGOs registered 
by the end of July and found that out of the total number of 
registered INGOs from the United States, 19 percent worked in 
the field of trade; 13 percent each worked in the fields of 
health and education; and 9 percent worked in the environmental 
field.\61\ MPS reported that INGOs had filed a total of 191 
temporary activities in China by the end of July.\62\ ChinaFile 
found that a majority of temporary activities that began on or 
before July 31 were conducted by Hong Kong INGOs; the provinces 
with the most temporary activities were Sichuan, Guizhou, 
Guangdong, and Yunnan; and the most common fields of work were 
youth, education, and poverty alleviation.\63\
    The operating environment for INGOs in China has become 
more restricted and uncertain under the new Overseas NGOs' 
Activities Law. Reports indicate that INGOs are under greater 
scrutiny,\64\ and the law enables the Chinese government to 
surveil and collect information on such organizations.\65\ 
Experts see the law as potentially threatening to the existence 
and activities of overseas organizations that previously 
operated in a ``grey area.'' \66\ In addition, domestic NGOs, 
as one commentator noted, may face ``increasingly harsh 
penalties'' under the expanded legal and regulatory framework 
amidst ``heightened security concerns'' over civil society.\67\ 
The law may further hinder the work of domestic NGOs in China, 
as many of them rely on sources of funding outside of mainland 
China.\68\ The uncertainty fostered by the Overseas NGOs' 
Activities Law has given rise to suggestions as to how INGOs 
may legally operate in China.\69\ Two European experts proposed 
``smart indigenization,'' whereby INGOs primarily provide 
financial resources and indirect institutional support ``to 
build up human and organisational capacity in China's nascent 
civil society sector.'' \70\ According to the China Human 
Rights Lawyers Concern Group, the Overseas NGOs' Activities Law 
has ``[made] it more risky for lawyers to cooperate and work 
with international NGOs.'' \71\

------------------------------------------------------------------------
          Authorities Detain Taiwan NGO Volunteer Lee Ming-cheh
-------------------------------------------------------------------------
  On March 19, 2017, authorities detained Taiwan human rights NGO
 volunteer Lee Ming-cheh, a manager at Wenshan Community College in
 Taipei, Taiwan, while he was traveling to Zhuhai municipality,
 Guangdong province, via Macau, to arrange medical treatment for his
 mother.\72\ Ten days after Lee disappeared, the State Council Taiwan
 Affairs Office (TAO) confirmed that Chinese authorities were
 investigating Lee for ``endangering state security.'' \73\ On May 26,
 the TAO confirmed that state security authorities in Hunan province had
 formally arrested Lee on suspicion of ``subversion of state power.''
 \74\ State-run media reported that Lee had ``colluded with
 mainlanders,'' ``established illegal organizations,'' and ``plotted and
 carried out activities to subvert state power.'' \75\ The report also
 said that authorities had put Lee under ``coercive measures,'' \76\
 raising concern that he may be at risk of torture.\77\ International
 human rights organizations and media outlets reported Lee may be the
 first foreign NGO worker whom authorities detained after the Overseas
 NGOs' Activities Law came into effect in 2017, citing the shrinking
 space for INGO activities under the new legislation.\78\ On March 30, a
 group of domestic and international NGOs released a joint statement
 expressing concern about Lee's detention.\79\ The NGOs demanded Lee's
 immediate release, details on his detention, his right to legal counsel
 of his choosing, and access to medical care.\80\
------------------------------------------------------------------------

                     Overall Regulatory Environment

    This past year, the Chinese government continued to 
strengthen its policy of carrying out inspections and promoting 
ideological guidance over civil society. In March 2017, 
following two State Council directives to carry out inspections 
of the market and social organizations released in 2015 and 
2016,\81\ the Ministry of Civil Affairs (MCA) passed a measure 
to advance the official inspection of social organizations, 
urging registration authorities to conduct both planned and 
random inspections of civil society groups.\82\ Party-building 
in social organizations--whereby Party members at social 
organizations form internal supervisory groups--continued to be 
a priority of the Party and government.\83\ A leading small 
group on Party-building in social organizations, administered 
by the MCA, issued a document in March 2017 that prioritized 
work on the Party's ideological guidance for NGOs, building 
Party groups in organizations, and recruiting new ``outstanding 
and talented individuals'' from NGOs as cadres.\84\ Although 
the MCA released revised drafts of the three major regulations 
that govern the registration and management of social 
organizations,\85\ social service organizations,\86\ and 
foundations \87\ for public comment in 2016, the MCA had not 
released the final versions as of August 2017.

            Changes and Progress in the Philanthropic Sector

    The Chinese government continued efforts to strengthen the 
philanthropic regulatory framework under the PRC Charity Law to 
increase the level of giving in China. In the first year after 
the law's March 2016 passage, 260 national- or provincial-level 
organizations acquired ``charitable'' status and 13 provinces 
and municipalities reportedly began approving charities.\88\ In 
addition to registering charities, the law provides a legal 
framework for public fundraising \89\ and increasing tax 
incentives,\90\ toward which the Chinese government took steps 
this past year. On February 24, 2017, the National People's 
Congress Standing Committee adopted a revision to the PRC 
Enterprise Income Tax Law, enabling donations over 12 percent 
of an enterprise's annual total profit to be carried over and 
deducted from taxable income during the following three 
years.\91\ The law previously limited annual deductions from 
charitable donations to 12 percent of the company's annual 
profit.\92\ Despite these efforts, an expert at Tsinghua 
University reportedly said that implementation of the Charity 
Law will depend on various factors, including the availability 
of open information to the public and the level of oversight to 
prevent malfeasance.\93\ In 2016, the Charities Aid Foundation, 
an international organization, ranked China last among 140 
countries in its World Giving Index, down one place from 
2015.\94\ In order to foster Chinese philanthropy over the long 
term, one observer pointed out that the Chinese government 
should build the financial and legal infrastructure necessary 
to facilitate philanthropic funds and endowments, and to 
``professionalize'' the management process of 
organizations.\95\ According to the 2016 Blue Book on Rule of 
Law, the Charity Law needs accompanying regulations with more 
concrete implementing details in order to become 
operational.\96\

                                                  Civil Society
                                                Civil Society
    Notes to Section III--Civil Society

    \1\ See, e.g., Human Rights Watch, ``China: Three Activists Feared 
`Disappeared,' '' 16 December 16; Chinese Human Rights Defenders, `` 
`They Target My Human Rights Work as a Crime': Annual Report on the 
Situation of Human Rights Defenders in China (2016),'' February 2017, 
2, 27.
    \2\ Ming Hu et al., ``Termination of Nonprofit Alliances: Evidence 
From China,'' Voluntas, Vol. 27, Issue 5 (October 2016), 2509.
    \3\ Rong Zhao et al., ``Understanding Service Contracting and Its 
Impact on NGO Development in China,'' Voluntas, Vol. 27, Issue 5 
(October 2016), 2233; Hui Qin, ``Understanding China's Third Sector,'' 
Stanford Social Innovation Review, 16 February 17.
    \4\ UN Office of the High Commissioner for Human Rights, ``End-of-
Mission Statement on China, by Professor Philip Alston, United Nations 
Special Rapporteur on Extreme Poverty and Human Rights,'' 23 August 16; 
UN Human Rights Council, Report of the Special Rapporteur on Extreme 
Poverty and Human Rights on His Mission to China, Philip Alston, A/HRC/
35/26/Add.2, 28 March 17, para. 32.
    \5\ CIVICUS, ``Bleak Outlook for Chinese Civil Society in 2017,'' 
Monitor, 15 February 17; Human Rights Watch, ``China Should End 
Restrictions on Civil Society Participation in Anti-Poverty Policies, 
and Cooperate With UN Mandate-Holders Without Interference,'' 9 June 
17. See also Paul Woods, ``From Restrictive to Prescriptive? Prospects 
for China's Church Engaging With the Civil Society,'' Transformation, 
Vol. 33, Issue 1 (2016), 38; Ming Hu et al., ``Termination of Nonprofit 
Alliances: Evidence From China,'' Voluntas, Vol. 27, Issue 5 (October 
2016), 2501.
    \6\ Party Central Committee General Office and State Council 
General Office, Opinion on Reforming Management System of Social 
Organizations To Promote Social Organizations' Healthy and Orderly 
Development [Guanyu gaige shehui zuzhi guanli zhidu cujin shehui zuzhi 
jiankang youxu fazhan de yijian], issued 21 August 16, 2(2-3); Ben 
Blanchard, ``China To Strengthen Communist Party's Role in Non-Govt 
Bodies,'' Reuters, 21 August 16; Ministry-Administered Leading Small 
Group on the Work of Party-Building in Social Organizations, ``Key Work 
Points for Ministry-Administered Party-Building in Social Organizations 
in 2017'' [Buguan shehui zuzhi 2017 nian dangjian gongzuo yaodian], 6 
March 17, reprinted in Ministry of Civil Affairs, 10 March 17, 2(5)-
(7); Ministry of Civil Affairs, ``Ministry of Civil Affairs Convenes 
Meeting on Promoting Ministry-Administered `Two Comprehensive 
Coverages' Work for Social Organizations,'' [Minzhengbu zhaokai buguan 
shehui zuzhi ``liang ge quan fugai'' gongzuo tuijin hui], 10 March 17; 
Bo Wei, ``Party-Building Work To Lead Grassroots Social Organizations' 
Healthy Development'' [Dangjian gongzuo yinling jiceng shehui zuzhi 
jiankang fazhan], Philanthropy and Public Interest News, reprinted in 
Xinhua, 24 May 17; Chinese Communist Party Central Committee General 
Office, Opinion on Strengthening Party-Building Work in Social 
Organizations (Provisional) [Guanyu jiaqiang shehui zuzhi dang de 
jianshe gongzuo de yijian (shixing)], issued 28 September 15, item 
2.4(1).
    \7\ Chinese Human Rights Defenders, `` `They Target My Human Rights 
Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 1-2; ``Crackdown Against 
Civil Society in China Continues,'' Voice of America, 14 June 17. See 
also CECC, 2016 Annual Report, 6 October 16, 223-25.
    \8\ UN Human Rights Council, Report of the Special Rapporteur on 
the Rights to Freedom of Peaceful Assembly and of Association, Maina 
Kiai, A/HRC/35/28, Advance Unedited Version, 23 May 17, paras. 23-24.
    \9\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, art. 
20; International Covenant on Civil and Political Rights, adopted by UN 
General Assembly resolution 2200A (XXI) of 16 December 66, entry into 
force 23 March 76, art. 22.
    \10\ Ibid., art. 20; Ibid., art. 21.
    \11\ Ibid., art. 19; Ibid., art. 19.
    \12\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' last visited 28 August 17.
    \13\ Karla W. Simon and Holly Snape, ``China's Social Organisations 
After the Charity Law,'' Made in China, Vol. 2, Issue 1 (January-March 
2017), 26-27.
    \14\ Ministry of Civil Affairs, ``Social Service Seasonal 
Statistics Quarterly Report (Fourth Quarter of 2016)'' [Shehui fuwu 
tongji jibao (2016 nian 4 jidu)], 20 February 17.
    \15\ Shawn Shieh, ``Mapping the Dynamics of Civil Society: A Model 
Analysis of Trends in the NGO Sector,'' in NGO Governance and 
Management in China, eds. Reza Hasmath and Jennifer Y.J. Hsu (Abingdon: 
Routledge, 2016), 48; International Center for Not-for-Profit Law, 
``Civic Freedom Monitor: China,'' last visited 28 August 17.
    \16\ International Center for Not-for-Profit Law, ``Civic Freedom 
Monitor: China,'' last updated 9 June 17; Shawn Shieh, ``Mapping the 
Dynamics of Civil Society: A Model Analysis of Trends in the NGO 
Sector,'' in NGO Governance and Management in China, eds. Reza Hasmath 
and Jennifer Y.J. Hsu (Abingdon: Routledge, 2016), 52-53. See also 
Isabel Hilton et al., ``The Future of NGOs in China: A ChinaFile 
Conversation,'' Asia Society, ChinaFile, 14 May 15.
    \17\ Carolyn Hsu et al., ``The State of NGOs in China Today,'' 
Brookings Institution, 15 December 16.
    \18\ Deng Guosheng, ``The State of and Obstacles to Chinese 
Grassroots NGO Development'' [Zhongguo caogen NGO fazhan de xianzhuang 
yu zhang'ai], Social Outlook, reprinted in Shanda 960, Vol. 5 (June 
2010). In 2010, Tsinghua University professor Deng Guosheng estimated 
that there were 1 to 1.5 million grassroots NGOs in China, of which 90 
percent were unregistered. Shawn Shieh, ``Mapping the Dynamics of Civil 
Society,'' in NGO Governance and Management in China, eds. Reza Hasmath 
and Jennifer Y.J. Hsu (Abingdon: Routledge, 2016), 53. More recent 
estimates on unregistered NGOs from 2014 range from 40 to 70 percent. 
``Chinese Civil Society: Beneath the Glacier,'' Economist, 12 April 14; 
Kristie Lu Stout, ``People Power in the People's Republic of China,'' 
CNN, 26 June 14. In 2014, the Economist estimated that there were 1.5 
million unregistered groups while CNN reported an estimate of 2 
million. Li Fan, ``The Current State of Civil Society in China'' [Woguo 
gongmin shehui de xianzhuang], Tianze Economic Research Institute 
(Unirule), Biweekly Forum, 12 September 14. Li Fan, director of World 
and China Institute, a Chinese NGO research center, claimed that China 
has 8 million unregistered NGOs, while Hu Xingdou, an economics 
professor at the Beijing Institute of Technology, and Xu Xin, a law 
professor at Beijing Institute of Technology, both questioned Li's 
claim, saying that Li's definition of what constitutes an NGO was too 
broad. His calculations included groups such as quasi-governmental mass 
organizations, spun-off government units, business associations, 
recreational clubs, virtual groups, and rural mutual aid groups.
    \19\ Elizabeth C. Economy, ``Podcast: The Future of China's Civil 
Society,'' Council on Foreign Relations, Asia Unbound (blog), 7 March 
17, 4 min. 5 sec. The podcast episode featured University of Nottingham 
Assistant Professor Andreas Fulda, who estimated that ``maybe a couple 
thousand'' NGOs in China were comparable to those in the West in their 
function.
    \20\ Human Rights Watch, ``China: Three Activists Feared 
`Disappeared,' '' 16 December 16; Chinese Human Rights Defenders, `` 
`They Target My Human Rights Work as a Crime': Annual Report on the 
Situation of Human Rights Defenders in China (2016),'' February 2017, 
2.
    \21\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 2.
    \22\ Ibid.
    \23\ See, e.g., ChinaAid, ``Authorities Arrest Highest-Profile 
Pastor Since Cultural Revolution,'' 10 January 17; Yaxue Cao, ``The 
Shepherds of Living Stone Church,'' China Change, 25 December 16.
    \24\ See, e.g., Michael Forsythe, ``3 Labor Activists in China Get 
Suspended Prison Terms,'' New York Times, 26 September 16. See also 
``Prosecution of Labor Advocates Has Chilling Effect on Labor NGOs, 
Strikes Continue,'' Congressional-Executive Commission on China, 22 
February 17.
    \25\ See, e.g., ``China Jails Environmental Activist for `Revealing 
State Secrets,' '' Radio Free Asia, 11 October 16.
    \26\ ChinaAid, ``Authorities Arrest Highest-Profile Pastor Since 
Cultural Revolution,'' 11 January 17; Yaxue Cao, ``The Shepherds of 
Living Stone Church,'' China Change, 25 December 16; ``Prosecution of 
Labor Advocates Has Chilling Effect on Labor NGOs, Strikes Continue,'' 
Congressional-Executive Commission on China, 22 February 17; ``China 
Jails Environmental Activist for `Revealing State Secrets,' '' Radio 
Free Asia, 11 October 16.
    \27\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 2-3. See also ``China Jails 
Environmental Activist for `Revealing State Secrets,' '' Radio Free 
Asia, 11 October 16.
    \28\ ``For Exposing Pollution Data, NGO Leader Liu Shu Detained'' 
[Pilu wuran shuju huanbao NGO fuzeren liu shu bei bu], Radio Free Asia, 
11 October 16; ``China Jails Environmental Activist for `Revealing 
State Secrets,' '' Radio Free Asia, 11 October 16; ``Changsha 
Environmental Public Interest Figure Liu Shu Accused of `Disclosing 
State Secrets,' Detained by Police'' [Changsha huanbao gongyi renshi 
liu shu bei zhi ``xielou guojia mimi'' zao jingfang juliu], Radio Free 
Asia, 11 October 16.
    \29\ Ibid.
    \30\ Ibid.
    \31\ Chinese Human Rights Defenders, ``[CHRB] Eleven Activists 
Remain Forcibly Disappeared in Shenzhen, at Risk of Torture in Police 
Custody (1/5-1/12/2017),'' 12 January 17; Human Rights Campaign in 
China, ``Shenzhen Crackdown, Shenzhen Public Security Bureau Prohibits 
Meeting With Lawyer, Claims Li Jiangpeng Case One of Endangering State 
Security, Meeting May Hinder Investigation or Possibly Leak State 
Secrets'' [Shenzhen da zhuabu shenzhen shi gong'anju yi li jiangpeng 
anjian shu weihai guojia anquan fanzui anjian huijian you ai zhencha 
huozhe keneng xielou guojia mimi jujue lushi huijian], 27 May 17.
    \32\ Chinese Human Rights Defenders, ``[CHRB] Eleven Activists 
Remain Forcibly Disappeared in Shenzhen, at Risk of Torture in Police 
Custody (1/5-1/12/2017),'' 12 January 17. For more information, see the 
Commission's Political Prisoner Database records 2017-00050 on Deng 
Hongcheng, 2017-00062 on Wang Jun, 2017-00063 on Li Nanhai, 2017-00064 
on Xiao Bing, 2017-00065 on Wang Wei, 2017-00066 on Ma Zhiquan, 2017-
00067 on Ding Yan, 2017-00068 on Dong Lingpeng, 2017-00070 on Wang 
Jianhua, 2017-00096 on Song Liqian, and 2017-00097 on Huang Anyang.
    \33\ Human Rights Campaign in China, ``Ten People Remain Missing in 
Shenzhen Crackdown; Lawyers Accompany Family to Bantian Police Station 
To Learn About Family Members' Disappearance but Police Offered 
Conflicting Information, Saying They Had Not Handled This Case and 
Refusing To Issue Case Acceptance Receipts for Missing Person Cases'' 
[Shenzhen da zhuabu shiren rengran shilian jiashu zai lushi peitong xia 
qianwang bantian paichusuo liaojie jiaren shilian qingkuang dan 
paichusuo xinxi qianhou maodun dafu meiyou banli ci'an bing yi renko 
shizong an bu shuyu anjian wei you jujue tigong anjian shouli huizhi], 
29 November 16; Chinese Human Rights Defenders, ``[CHRB] Eleven 
Activists Remain Forcibly Disappeared in Shenzhen, at Risk of Torture 
in Police Custody (1/5-1/12/2017),'' 12 January 17.
    \34\ Michael Forsythe and Chris Buckley, ``China Arrests At Least 3 
Workers' Rights Leaders Amid Rising Unrest,'' New York Times, 5 
December 15; Yaxue Cao, ``Chinese Authorities Orchestrate Surprise Raid 
of Labor NGOs in Guangdong, Arresting Leaders,'' China Change, 10 
December 15.
    \35\ ``Zeng Feiyang, Tang Huanxing, and Zhu Xiaomei Sentenced at 
First Instance Trial for Gathering a Crowd To Disturb Social Order, 
Three Defendants Admit Guilt, Express Remorse'' [Zeng feiyang tang 
huanxing zhu xiaomei juzhong raoluan shehui zhixu an yishen dangting 
xuanpan san beigao biaoshi renzui huizui], Xinhua, 26 September 16. For 
more information, see the Commission's Political Prisoner Database 
records 2015-00427 on Zeng Feiyang, 2015-00428 on Zhu Xiaomei, and 
2016-00017 on Tang Jian.
    \36\ ``China Court Sentences Trio for Disturbing Social Order,'' 
Xinhua, 26 September 16.
    \37\ ``Guangdong Labor Rights Defender Meng Han Found Guilty of 
Gathering a Crowd To Disturb Social Order, Sentenced to 21 Months in 
Prison'' [Guangdong laogong weiquan renshi meng han juzhong raoluan 
shehui zhixu zuicheng, pan jian 21 ge yue], Initium Media, 4 November 
16. For more information on Meng Han, see the Commission's Political 
Prisoner Database record 2014-00026.
    \38\ Catherine Lai, ``Guangdong Labour Activist Meng Han Sentenced 
to 1 Year, 9 Months,'' Hong Kong Free Press, 3 November 16; Rights 
Defense Network, `` `12/3 Guangzhou Labor NGO Case' Arrests Approved 
for Four Individuals, One Released, Whereabouts of Two Unknown'' 
[``12.3 guangzhou laogong NGO an'' jin si ren bei pizhun daibu, yiren 
huoshi, liangren wu xialuo], 8 January 16.
    \39\ Dexter Roberts, ``Beijing Wants One Union To Rule Them All,'' 
Bloomberg, 10 November 16; ``Labor Conflicts at Hong Kong-Invested 
Enterprises in Mainland Worsen, Strikes Increase 30 Percent'' [Neidi 
gangzi qiye laozi ehua gongchao zeng san cheng], Radio Free Asia, 12 
October 16; Aaron Halegua, ``Who Will Represent China's Workers? 
Lawyers, Legal Aid, and the Enforcement of Labor Rights,'' New York 
University School of Law, U.S.-Asia Law Institute, October 2016, 2.
    \40\ Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, 
Legal Aid, and the Enforcement of Labor Rights,'' New York University 
School of Law, U.S.-Asia Law Institute, October 2016, 36-37.
    \41\ For information on the New Citizens' Movement and Xu Zhiyong, 
see 2014 CECC Annual Report, 133-34.
    \42\ Rights Defense Network, ``Well-Known Rights Defender Xu 
Zhiyong Completed Sentence and Released, Group Prevented From Welcoming 
Him'' [Zhuming renquan hanweizhe xu zhiyong jin xingman huoshi zhongren 
yingjie pukong], 15 July 17.
    \43\ Andrew Jacobs and Chris Buckley, ``China Sentences Xu Zhiyong, 
Legal Activist, to 4 Years in Prison,'' New York Times, 26 January 14. 
See also ``Xu Zhiyong Tried for Advocacy of Education Equality and 
Official Transparency,'' CECC China Human Rights and Rule of Law 
Update, No. 1, 5 March 14; ``Officials Detain Xu Zhiyong Amidst a 
Crackdown on Individuals Calling for Greater Government 
Accountability,'' Congressional-Executive Commission on China, 1 August 
13. For more information on Xu Zhiyong, see the Commission's Political 
Prisoner Database record 2005-00199.
    \44\ Civil Rights & Livelihood Watch, ``Beijing Xu Zhiyong Released 
Today, Residence Under Strict Surveillance'' [Beijing xu zhiyong jinri 
chuyu juzhu di zao yanmi jiankong], 15 July 17.
    \45\ Ibid.
    \46\ Andreas Fulda, ``A New Law in China Is Threatening the Work of 
International NGOs,'' The Conversation, 6 January 17; Scott Wilson, 
``China's NGO Regulations and Uneven Civil Society Development,'' 
University of Nottingham, China Policy Institute: Analysis (blog), 15 
February 17; Kenneth Roth, ``The Great Civil Society Choke-Out,'' 
Foreign Policy, 27 January 17. For the full text of the law, see PRC 
Law on the Management of Overseas Non-Governmental Organizations' 
Activities [Zhonghua renmin gongheguo jingwai feizhengfu zuzhi jingnei 
huodong guanli fa], passed 28 April 16, effective 1 January 17.
    \47\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities [Zhonghua renmin gongheguo jingwai feizhengfu 
zuzhi jingnei huodong guanli fa], passed 28 April 16, effective 1 
January 17, art. 9.
    \48\ Ministry of Public Security, ``Handbook for Overseas Non-
Governmental Organizations' Registration of Representative Offices and 
Filing of Temporary Activities'' [Jingwai feizhengfu zuzhi daibiao 
jigou dengji he linshi huodong bei'an banshi zhinan], 28 November 16; 
Ministry of Public Security, ``Areas of Activity and Program Directory 
and Professional Supervisory Units Directory for Overseas Non-
Governmental Organizations Within China (2017)'' [Jingwai feizhengfu 
zuzhi zai zhongguo jingnei huodong lingyu he xiangmu mulu, yewu zhuguan 
danwei minglu (2017)], 20 December 16; International Center for Not-
for-Profit Law, ``Civic Freedom Monitor: China,'' last visited 28 
August 17; Nectar Gan, ``Why Foreign NGOs Are Struggling With New 
Chinese Law,'' South China Morning Post, 14 June 17; Jia Xijin, 
``China's Implementation of the Overseas NGO Management Law,'' Southern 
Weekly, translated in China Development Brief, 6 March 17.
    \49\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities [Zhonghua renmin gongheguo jingwai feizhengfu 
zuzhi jingnei huodong guanli fa], passed 28 April 16, effective 1 
January 17, art. 11. See also Shawn Shieh, ``More FAQs on the Overseas 
NGO Law: Reading the Fine Print,'' NGOs in China (blog), 8 January 17.
    \50\ Anthony J. Spires, ``China's New INGO Law: A Brief Summary of 
Concerns Voiced by INGOs,'' in ``Feedback on the INGO Law,'' Anthony J. 
Spires (blog), 20 September 16, 1-4. See also Ministry of Public 
Security, ``MPS Held a Briefing With Some Officials From Foreign 
Consulates in Shanghai Explaining the Relevant Preparations for the 
Overseas NGOs' Activities Management Law'' [Gong'anbu zai shanghai 
zhaokai bufen guojia zhu hu lingshiguan tongqi hui tongbao ``jingwai 
feizhengfu zuzhi jingnei huodong guanli fa'' xiangguan zhunbei 
gongzuo], 9 November 16; Jia Xijin, ``China's Implementation of the 
Overseas NGO Management Law,'' Southern Weekly, translated in China 
Development Brief, 6 March 17.
    \51\ Zou Wei and Zhu Hong, ``MPS To Issue Operating Guidelines for 
Overseas NGO Representative Offices Registration and Temporary 
Activities Record Filing'' [Gong'anbu ni chutai jingwai feizhengfu 
zuzhi daibiao jigou dengji he linshi huodong bei'an banshi zhinan], 
Xinhua, 14 October 16; Shawn Shieh, ``Draft Guidelines for the Overseas 
NGO Law Announced at Shanghai Forum,'' NGOs in China (blog), 17 October 
16.
    \52\ Ministry of Public Security, ``MPS Held a Briefing With Some 
Officials From Foreign Consulates in Shanghai Explaining the Relevant 
Preparations for the Overseas NGOs' Activities Management Law'' 
[Gong'anbu zai shanghai zhaokai bufen guojia zhu hu lingshiguan tongqi 
hui tongbao ``jingwai feizhengfu zuzhi jingnei huodong guanli fa'' 
xiangguan zhunbei gongzuo], 9 November 16; Shawn Shieh, ``Foreign 
Consulates Meet With Public Security Officials About the Overseas NGO 
Law,'' NGOs in China (blog), 8 December 16.
    \53\ Ministry of Public Security, ``Guidelines for Overseas Non-
Governmental Organizations' Registration of Representative Offices and 
Filing of Temporary Activities'' [Jingwai feizhengfu zuzhi daibiao 
jigou dengji he linshi huodong bei'an banshi zhinan], 28 November 16.
    \54\ PRC Law on the Management of Overseas Non-Governmental 
Organizations' Activities [Zhonghua renmin gongheguo jingwai feizhengfu 
zuzhi jingnei huodong guanli fa], passed 28 April 16, effective 1 
January 17, art. 3; Ministry of Public Security, ``Overseas Non-
Governmental Organizations Fields of Activity List, Directory of 
Professional Supervisory Units (2017)'' [Jingwai feizhengfu zuzhi zai 
zhongguo jingnei huodong lingyu he xiangmu mulu, yewu zhuguan danwei 
minglu], 20 December 16.
    \55\ NGOCN, ``Nine Days After the Implementation of the Overseas 
NGO Law, We Chatted With the Civilian Police Overseas NGO Office'' 
[Jingwai fa shishi de dijiu tian, women he jingwai ban minjing liao le 
liao], 10 January 17; Shawn Shieh, ``Follow Up on the Overseas NGO 
Law--The List of Professional Supervisory Units Has Been Issued,'' NGOs 
in China (blog), 21 December 16.
    \56\ Ministry of Public Security, ``Overseas Non-Governmental 
Organizations' Service Platform'' [Jingwai feizhengfu zuzhi banshi fuwu 
pingtai], last visited 18 July 17. See, e.g., Qinghai Province Public 
Security Bureau, ``Qinghai Province Public Security Bureau Overseas 
Non-Governmental Organizations' Management Office'' [Qinghai sheng 
gong'an ting jingwai feizhengfu zuzhi guanli bangongshi], last visited 
18 July 17; Shandong Province Public Security Bureau, ``Shandong 
Province Public Security Bureau Overseas Non-Governmental 
Organizations' Management Office'' [Shandong sheng gong'an ting jingwai 
feizhengfu zuzhi guanli bangongshi], last visited 18 July 17.
    \57\ Overseas NGO Management Office, Ministry of Public Security, 
``January to July Statistical Data on Number of Overseas NGO 
Registration of Representative Offices and Temporary Activities'' 
[Jingwai feizhengfu zuzhi daibiao jigou dengji linshi huodong bei'an 1 
zhi 7 yue shuju tongji], 1 August 17.
    \58\ Ibid. See also Jessica Batke, ``Visually Understanding the 
Data on Foreign NGO Representative Offices and Temporary Activities,'' 
Asia Society, ChinaFile, 19 July 17.
    \59\ Overseas NGO Management Office, Ministry of Public Security, 
``January to July Statistical Data on Number of Overseas NGO 
Registration of Representative Offices and Temporary Activities'' 
[Jingwai feizhengfu zuzhi daibiao jigou dengji linshi huodong bei'an 1 
zhi 7 yue shuju tongji], 1 August 17. See also Jessica Batke, 
``Visually Understanding the Data on Foreign NGO Representative Offices 
and Temporary Activities,'' Asia Society, ChinaFile, 19 July 17.
    \60\ Overseas NGO Management Office, Ministry of Public Security, 
``January to July Statistical Data on Number of Overseas NGO 
Registration of Representative Offices and Temporary Activities'' 
[Jingwai feizhengfu zuzhi daibiao jigou dengji linshi huodong bei'an 1 
zhi 7 yue shuju tongji], 1 August 17.
    \61\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' Asia Society, 
ChinaFile, 19 July 17. In one of ChinaFile's graphics, ChinaFile 
estimated the number of INGO representative offices based on ``fields 
of work'' in which the INGOs are engaged. This resulted in ChinaFile's 
total count for representative offices being higher than the total 
number of representative offices listed on the Ministry of Public 
Security website for the same period. Even if an INGO engages in 
multiple fields of work, the INGO may register with only one 
Professional Supervisory Unit in one field of work.
    \62\ Overseas NGO Management Office, Ministry of Public Security, 
``January to July Statistical Data on Number of Overseas NGO 
Registration of Representative Offices and Temporary Activities'' 
[Jingwai feizhengfu zuzhi daibiao jigou dengji linshi huodong bei'an 1 
zhi 7 yue shuju tongji], 1 August 17.
    \63\ Jessica Batke, ``Visually Understanding the Data on Foreign 
NGO Representative Offices and Temporary Activities,'' Asia Society, 
ChinaFile, 19 July 17. ChinaFile analysis showed that 98 temporary 
activities were carried out by Hong Kong INGOs and 31 by U.S. INGOs. 34 
temporary activities were held in Sichuan province, 22 in Guizhou 
province, and 18 each in Guangdong and Yunnan provinces. 58 temporary 
activities were in the field of youth, 48 in education, and 25 in 
poverty alleviation.
    \64\ Geraldine Johns-Putra et al., Minter Ellison, ``China's New 
Foreign NGO Law: How Will It Impact Australian Universities Operating 
in China? '' reprinted in Lexology, 22 February 17; Nectar Gan, ``Why 
Foreign NGOs Are Struggling With New Chinese Law,'' South Morning China 
Post, 14 June 17; Christian Shepherd and Michael Martina, 
``International NGOs' China Operations Hit by Registration Delays Under 
New Law,'' Reuters, 6 July 17.
    \65\ Shawn Shieh, ``The Origins of China's New Law on Foreign 
NGOs,'' Asia Society, ChinaFile, 31 January 17.
    \66\ Andreas Fulda, ``A New Law in China Is Threatening the Work of 
International NGOs,'' The Conversation, 6 January 17; Scott Wilson, 
``China's NGO Regulations and Uneven Civil Society Development,'' 
University of Nottingham, China Policy Institute: Analysis (blog), 15 
February 17; Shawn Shieh, ``The Origins of China's New Law on Foreign 
NGOs,'' Asia Society, ChinaFile, 31 January 17.
    \67\ Carolyn Hsu et al., ``The State of NGOs in China Today,'' 
Brookings Institution, 15 December 16.
    \68\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 74; Ivan Franceschini, 
``Meet the State Security: Chinese Labour Activists and Their 
Controllers,'' Made in China, Vol. 2, Issue 1 (January-March 2017), 37; 
Renato Marques, ``Analysis: Labor-Related NGOs in China Facing Hard 
Times,'' Macau Daily Times, 16 January 17.
    \69\ See, e.g., Andreas Fulda, ``A New Law in China Is Threatening 
the Work of International NGOs,'' The Conversation, 6 January 17; 
Geraldine Johns-Putra et al., Minter Ellison, ``China's New Foreign NGO 
Law: How Will It Impact Australian Universities Operating in China? '' 
reprinted in Lexology, 22 February 17; Horst Fabian, ``China's New 
Overseas NGOs Law: Uncertain, Contested Future of EU-China Civil 
Society Cooperation but No Closed Spaces,'' Bundesnetzwerk 
Burgerschaftliches Engagement, BBE Newsletter for Engagement and 
Participation in Europe, 29 November 16, 23.
    \70\ Andreas Fulda and Jennifer Brady, ``How Foreign Non-Profit 
Organisations Should Respond to China's New Overseas NGO Management 
Law,'' University of Nottingham, China Policy Institute Policy Paper 
2016, No. 1, 4.
    \71\ China Human Rights Concern Group, ``2016 Annual Report on 
China Human Rights Lawyers,'' April 2017, 55.
    \72\ Amnesty International, ``China: Taiwan NGO Worker Detained on 
Vague National Security Charges,'' 29 March 17; Benjamin Haas, ``China 
Says It Has Detained Taiwanese Activist Missing Since 19 March,'' 
Guardian, 29 March 17.
    \73\ Benjamin Haas, ``China Says It Has Detained Taiwanese Activist 
Missing Since 19 March,'' Guardian, 29 March 17.
    \74\ ``Taiwan Suspect Arrested on Mainland,'' Xinhua, 26 May 17.
    \75\ Ibid.
    \76\ Ibid.
    \77\ Amnesty International, ``Urgent Action Update: Taiwan NGO 
Worker Arrested for Subversion,'' 2 June 17.
    \78\ Benjamin Haas, ``China Says It Has Detained Taiwanese Activist 
Missing Since 19 March,'' Guardian, 29 March 17; ``China Bars Wife of 
Detained Taiwan NGO Worker From Flying to Beijing,'' Radio Free Asia, 
10 April 17; Catherine Lai, ``Watchdog Warns of `Chilling Effect' as 
China Confirms It Is Holding Missing Taiwanese NGO Worker,'' Hong Kong 
Free Press, 29 March 17; Amnesty International, ``Urgent Action: Taiwan 
NGO Worker Held Incommunicado in China,'' 29 March 17.
    \79\ Taiwan Association for Human Rights et al., ``Free Li Ming-
Che: The Joint Statement from NGOs,'' 30 March 17.
    \80\ Ibid.
    \81\ State Council General Office, Circular on Expanding Random 
Sampling To Standardize Supervision During and After Events [Guowuyuan 
bangongting guanyu tuiguang suiji choucha guifan shizhong shihou 
jianguan de tongzhi], 29 July 15; State Council, Circular on the 
Release of the 2016 Major Points on Improving Service Reform Through 
Advancing Changes in Governance and Management [Guowuyuan guanyu yinfa 
2016 nian tuijin jianzheng fangquan fangguan jiehe youhua fuwu gaige 
gongzuo yaodian de tongzhi], 23 May 16.
    \82\ Ministry of Civil Affairs, Circular on the Release of the 
``Provisional Measures on the Random Sampling of Social Organizations'' 
[Minzhengbu guanyu yinfa ``shehui zuzhi choucha zanxing banfa'' de 
tongzhi], 13 March 17; Ministry of Civil Affairs, ``Explanation of the 
`Provisional Measures on the Random Sampling of Social Organizations' 
'' [Guanyu ``shehui zuzhi choucha zanxing banfa'' de shuoming], 14 
March 17.
    \83\ Ministry-Administered Leading Small Group on the Work of 
Party-Building in Social Organizations, ``Key Work Points for Ministry-
Administered Party-Building in Social Organizations in 2017'' [Buguan 
shehui zuzhi 2017 nian dangjian gongzuo yaodian], 6 March 17, reprinted 
in Ministry of Civil Affairs, 10 March 17; Ministry of Civil Affairs, 
``Ministry of Civil Affairs Convenes Meeting on Promoting Ministry-
Administered `Two Comprehensive Coverages' Work for Social 
Organizations'' [Minzhengbu zhaokai buguan shehui zuzhi ``liang ge quan 
fugai'' gongzuo tuijin hui], 10 March 17. See also ``Chinese Communist 
Party Central Committee General Office Releases `Opinion on 
Strengthening Party-Building Work in Social Organizations 
(Provisional)' '' [Zhonggong zhongyang bangongting yinfa ``guanyu 
jiaqiang shehui zuzhi dang de jianshe gongzuo de yijian (shixing)''], 
Xinhua, 28 September 15, item 2.4(1); Patricia M. Thornton, ``The 
Advance of the Party: Transformation or Takeover of Urban Grassroots 
Society? '' China Quarterly, Vol. 213 (March 2013), 2, 7; CECC, 2016 
Annual Report, 6 October 16, 236.
    \84\ Ministry-Administered Leading Small Group on the Work of 
Party-Building in Social Organizations, ``Key Work Points for Ministry-
Administered Party-Building in Social Organizations in 2017'' [Buguan 
shehuizuzhi 2017 nian dangjian gongzuo yaodian], 6 March 17, reprinted 
in Ministry of Civil Affairs, 10 March 17, secs. 1(1)-(2), 2(5)-(7), 
3(9). See also Ministry of Civil Affairs, ``Ministry of Civil Affairs 
Convenes Meeting on Promoting Ministry-Administered `Two Comprehensive 
Coverages' Work for Social Organizations'' [Minzhengbu zhaokai buguan 
shehui zuzhi ``liang ge quan fugai'' gongzuo tuijin hui], 10 March 17; 
Bo Wei, ``Party-Building Work To Lead Grassroots Social Organizations' 
Healthy Development'' [Dangjian gongzuo yinling jiceng shehui zuzhi 
jiankang fazhan], Philanthropy and Public Interest News, reprinted in 
Xinhua, 24 May 17.
    \85\ Ministry of Civil Affairs, Regulations on the Registration and 
Management of Social Organizations (Revised Draft for Solicitation of 
Comments) [Shehui tuanti dengji guanli tiaoli (xiuding cao'an zhengqiu 
yijian gao)], 1 August 16.
    \86\ Ministry of Civil Affairs, Temporary Regulations on the 
Registration and Management of Non-Governmental, Non-Commercial 
Enterprises (Revised Draft for Public Comment) [Minban feiqiye danwei 
dengji guanli zanxing tiaoli (xiuding cao'an zhengqiu yijian gao)], 26 
May 16.
    \87\ Ministry of Civil Affairs, Regulations on the Management of 
Foundations (Revised Draft for Solicitation of Comments) [Jijinhui 
guanli tiaoli (xiuding cao'an zhengqiu yijian gao)], 26 May 16.
    \88\ Holly Snape, ``The Chinese Design of the Charity Law,'' China 
Development Brief, 20 April 17.
    \89\ PRC Charity Law [Zhonghua renmin gongheguo cishan fa], passed 
16 March 16, effective 1 September 16, arts. 22-23.
    \90\ Ibid., arts. 79-84.
    \91\ National People's Congress Standing Committee, Decision 
Regarding Revision of the ``PRC Enterprise Income Tax Law'' [Quanguo 
renmin daibiao dahui changwu weiyuanhui guanyu xiugai ``zhonghua renmin 
gongheguo qiye suodeshui fa'' de jueding], 24 February 17; PRC 
Enterprise Income Tax Law [Zhonghua renmin gongheguo qiye suodeshui 
fa], passed 16 March 07, amended and effective 24 February 17.
    \92\ Laney Zhang, Law Library of Congress, ``China: Enterprise 
Income Tax Law Revised To Encourage Charitable Giving,'' Library of 
Congress, Global Legal Monitor, 9 March 17.
    \93\ Fu Chang, `` `Charity Law' Standardized the Qualifications of 
Charitable Organizations for the First Time, Implemented for Half a 
Year as of Today'' [``Cishan fa'' shouci guifanle cishan zuzhi zige 
rujin shishi yi bannian], Jinwang Net, 23 March 17.
    \94\ Charities Aid Foundation, ``CAF World Giving Index 2016,'' 
October 2016, 4, 16, 38.
    \95\ Yong Lu, ``Why Giving Is Harder Than Earning: Philanthropy in 
China,'' China Research Center, 3 January 17.
    \96\ Gao Kai, ``Blue Book: 2016 Social Rule of Law Development 
Accelerated, Early Steps Established for System of Trustworthiness'' 
[Lanpishu: 2016 nian shehui fazhi fazhan jiasu chengxin tixi chubu 
jianli], China News Service, 20 March 17.

                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance

                 Institutions of Democratic Governance


  The Chinese Communist Party Asserts Greater Control Over State and 
                                Society

    In China's one-party, authoritarian political system,\1\ 
the Chinese Communist Party maintains what one rights 
organization calls a ``monopoly on political power.'' \2\ The 
Party plays a leading role in state and society,\3\ restricting 
Chinese citizens' ability to exercise civil and political 
rights.\4\ Observers noted that the central role of the Party 
in governing the state appears to have strengthened since Xi 
Jinping became the Party General Secretary and President in 
November 2012 and March 2013, respectively,\5\ further 
``blurring'' the lines between Party and government.\6\ In 
March 2017, Wang Qishan, a member of the Standing Committee of 
the Communist Party Central Committee Political Bureau 
(Politburo) and the Secretary of the Central Commission for 
Discipline Inspection, said that ``under the Party's 
leadership, there is only a division of labor between the Party 
and the government; there is no separation between the Party 
and the government.'' \7\
    During the Commission's 2017 reporting year, under Xi's 
leadership, the Party demanded absolute loyalty from its 
members,\8\ directing and influencing politics and society at 
all levels, including in the military,\9\ economy,\10\ 
Internet,\11\ civil society,\12\ and family life.\13\ 
Furthermore, the Party continued to exert power over the 
judiciary,\14\ undermining the independence of courts and the 
rule of law in China, despite legal reform efforts.\15\ In 
September 2016, the State Council Information Office released 
the 2016-2020 National Human Rights Action Plan (HRAP).\16\ The 
HRAP subordinates the Chinese government's human rights policy 
to the ideological guidance of the Party,\17\ which the 
international organization Human Rights in China said is part 
of the Chinese government's efforts ``to modify international 
human rights standards to fit China's conditions.'' \18\ In the 
HRAP, the Chinese government pledged to ``continue to advance 
related legal preparations and pave the way for ratification of 
the International Covenant on Civil and Political Rights 
(ICCPR).'' \19\ China signed the ICCPR in 1998 \20\ but has yet 
to ratify it, despite the government's expressed intent to do 
so.\21\

                 XI JINPING NAMED ``CORE'' OF THE PARTY

    The Commission observed a continued emphasis on Party 
General Secretary and President Xi Jinping's leading role in 
guiding decisionmaking this past year. Following the Sixth 
Plenum of the 18th Central Committee of the Chinese Communist 
Party (Sixth Plenum) in October 2016, the plenum communique 
named Xi the ``core'' (hexin) of the Party.\22\ Some observers 
viewed the Sixth Plenum as a ``victory for Xi'' over internal 
political opposition.\23\ At the Sixth Plenum, the Party also 
announced that the 19th National Congress of the Chinese 
Communist Party (19th Party Congress) would take place in 
Beijing municipality during the second half of 2017.\24\ At the 
annual meetings of the National People's Congress and Chinese 
People's Political Consultative Conference in March 2017, 
Premier Li Keqiang affirmed Xi as the ``core'' of the Party in 
his delivery of the State Council's report on the work of the 
government in 2016.\25\ He noted that with the 19th Party 
Congress approaching, this would be ``a year of great 
significance for advancing the cause of the Party,'' and that 
the government would ``put into practice the principles from . 
. . Xi Jinping's major addresses and his new vision, thinking, 
and strategies for China's governance.'' \26\ According to 
reports, the ``core'' title confers status to Xi as the 
foremost leader of China, signals to lower cadres to follow 
Xi's policy guidance, and--despite reported signs of insecurity 
among the Party leadership \27\--strengthens Xi's ability to 
influence the appointment of the next generation of cadres at 
the 19th Party Congress.\28\ One scholar, however, contended 
that Xi's new ``core'' status signaled a strengthening of the 
Party's collective leadership.\29\ The composition of the 
Politburo Standing Committee is expected to change 
significantly at the 19th Party Congress as five of seven 
members reach the retirement age--based on precedent, not 
formal Party rules \30\--of 68 or older in 2017.\31\

        Anticorruption Campaign: Consolidating Party Discipline

    This past year, President and Party General Secretary Xi 
Jinping called for ``strict governance'' of the Party.\32\ 
Regulations and guidelines on intraparty supervision and 
behavioral standards released after the Sixth Plenum stressed 
that cadres at all levels must comply, especially those who 
hold leadership positions--including high-level officials in 
the Party Central Committee, Politburo, and Politburo Standing 
Committee.\33\ The Party's Central Commission for Discipline 
Inspection (CCDI) continued punishing high- and low-level Party 
officials for misconduct, targeting officials in the 
government,\34\ military,\35\ and state security apparatus.\36\ 
In July 2017, CCDI authorities placed Sun Zhengcai, Party 
Secretary of Chongqing municipality and a Politburo member, 
under investigation for suspected discipline violations \37\--a 
move that some international observers called a political 
decision by Xi to consolidate power ahead of the 19th Party 
Congress.\38\ The CCDI also tightened supervision of its 
anticorruption investigators and staff to ensure stricter 
oversight of disciplinary enforcers.\39\ In 2016, CCDI 
authorities reportedly administered disciplinary penalties for 
nearly 415,000 individuals.\40\ The Supreme People's 
Procuratorate reported that in 2016, a total of 47,650 people 
were investigated for crimes of professional misconduct.\41\ 
Courts at all levels reportedly finished adjudicating 45,000 
cases involving 63,000 individuals related to corruption and 
bribery.\42\ In July 2017, the Party Central Committee amended 
the Regulations on Chinese Communist Party Inspection Work,\43\ 
shifting the focus of Party supervision and inspection from 
fighting corruption to enforcing Party ideology and 
loyalty.\44\
    The Party and government are spearheading efforts to 
establish a new national supervisory commission for enforcing 
antigraft measures, a move that may result in further blurring 
and integration of Party and government functions.\45\ In 
December 2016, the National People's Congress Standing 
Committee (NPCSC) approved a pilot project to set up 
supervisory commissions to oversee government conduct in 
Beijing municipality, Shanxi province, and Zhejiang 
province.\46\ This multicity pilot project aimed to integrate 
corruption control officials from different institutions into 
one agency to increase effectiveness.\47\ Following the pilot 
projects, in January 2017, the CCDI announced plans to 
establish a new national commission in order to integrate all 
government officials who have authority to conduct Party and 
government disciplinary inspection into one institution.\48\ 
The plan also called for the NPCSC to oversee the creation of a 
new leading small group (lingdao xiaozu) on deepening reform of 
national supervisory institutions.\49\ A Chinese legal scholar 
said that the new commission may help to delineate the roles of 
investigators and prosecutors handling corruption cases and 
make anticorruption efforts ``more systematic.'' \50\ The new 
commission, designed to ``strengthen the Party's united 
leadership over anticorruption work,'' \51\ will merge 
anticorruption functions of the CCDI, Ministry of Supervision, 
and Supreme People's Procuratorate and integrate roles among 
Party, government, and judicial institutions.\52\ Reports raise 
questions as to whether the new institution will administer 
shuanggui, the non-transparent and extralegal Party 
disciplinary process that requires Party members to appear for 
interrogation at a designated time and place.\53\ Reports this 
past year indicate that officials tortured individuals detained 
under shuanggui; \54\ and that authorities reportedly used 
confessions extracted through extralegal procedures during 
shuanggui in subsequent legal proceedings.\55\ [For more 
information on shuanggui, see Section II--Criminal Justice.]

                 CORRUPTION REMAINS PREVALENT IN CHINA

    Despite the anticorruption efforts directed by central 
Party officials, 83 percent of Chinese citizens reportedly 
perceived corrupt officials as a ``big problem,'' according to 
a 2016 poll by the Pew Research Center.\56\ Transparency 
International ranked China 79 out of 176 countries in its 2016 
Corruption Perceptions Index, and gave China a score of 40 for 
its level of clean governance, with 100 being the highest 
possible score.\57\ Local-level corruption reportedly remains 
common in rural China.\58\ Local officials reportedly engaged 
in embezzlement,\59\ land expropriation,\60\ and forced 
demolition of homes.\61\ Some officials reportedly had ties to 
criminal syndicates that used intimidation and violence to 
extort money from villagers.\62\ In January 2017, at separate 
high-level meetings for their respective agencies, Wang Qishan, 
the Secretary of the CCDI,\63\ and Cao Jianming, the 
Procurator-General of the Supreme People's Procuratorate 
(SPP),\64\ acknowledged problems of village-level corruption 
and indicated plans to tackle corruption among village 
officials and related criminal activities. The SPP subsequently 
issued an official directive instructing lower-level 
prosecutors to work with other government agencies and Party 
organizations to target ``village tyrants,'' a term that the 
SPP used to describe officials who are involved in corruption 
and violence against villagers.\65\

     Continued Crackdown on Free Speech, Association, and Assembly

    Chinese authorities continued to harass, detain, and 
imprison advocates who exercised their rights to freedom of 
speech, assembly, and demonstration. The following are 
representative cases from this reporting year:

        <bullet> Prior to the G20 Summit in Hangzhou 
        municipality, Zhejiang province, in September 2016, 
        authorities forcibly disappeared, detained, and sent on 
        forced travel dozens of rights advocates, reportedly to 
        prevent advocacy activities around the event.\66\ On 
        August 20, domestic security protection officers from 
        Yueqing city, Wenzhou municipality, Zhejiang, seized 
        rights advocate Chen Zongyao (also known as Chen Chen) 
        and his son Chen Zhixiao in Yueqing.\67\ The two were 
        preparing to travel to Suzhou municipality, Jiangsu 
        province, prior to the G20 Summit in spite of 
        authorities' requests that they not go to Suzhou or 
        Hangzhou.\68\ On August 22, officials criminally 
        detained both men on suspicion of ``obstructing 
        official business,'' and formally arrested them on 
        September 27.\69\ On January 25, 2017, the Yueqing 
        Municipal People's Court sentenced Chen Zongyao to 10 
        months' imprisonment, suspended for 1 year and 6 
        months, and Chen Zhixiao to 6 months' detention, 
        suspended for 10 months.\70\ Chen Zongyao reportedly 
        had engaged in rights advocacy activities in the 
        past.\71\
        <bullet> In November 2016, authorities detained Liu 
        Feiyue, founder of rights monitoring website Civil 
        Rights & Livelihood Watch (CRLW) and Huang Qi, founder 
        of rights monitoring website 64 Tianwang.\72\ 
        Authorities in Suizhou municipality, Hubei province, 
        detained Liu on November 17 for allegedly accepting 
        foreign funding to support CRLW \73\ and arrested him 
        on the charge of ``inciting subversion of state power'' 
        on December 23.\74\ Authorities from Mianyang and 
        Neijiang cities and Chengdu municipality, Sichuan 
        province, detained Huang on November 28 and arrested 
        him on the charge of ``illegally providing state 
        secrets overseas'' on December 16.\75\ Liu founded CRLW 
        in 2006 to create a platform for reporting on 
        prohibited topics, such as the detention of rights 
        advocates, human rights violations, and political 
        protests.\76\ Established in 1998, 64 Tianwang is 
        reportedly the first known Chinese human rights website 
        and is an important source for independent reports on 
        government conduct and human rights violations.\77\
        <bullet> Zhao Suli, the wife of Qin Yongmin, a founder 
        of the banned China Democracy Party and chair of the 
        domestic NGO China Human Rights Watch, remains missing 
        after authorities in Wuhan municipality, Hubei 
        province, detained Zhao and Qin in January 2015.\78\ In 
        March 2017, Radio Free Asia reported that Zhao's family 
        filed lawsuits in Wuhan and in Zhengzhou municipality, 
        Henan province, Zhao's birthplace, in attempts to 
        determine her whereabouts.\79\ Authorities in Wuhan 
        have charged Qin with ``subversion of state power'' but 
        have not tried him as of August 2017.\80\

------------------------------------------------------------------------
Authorities Arrest Author of Open Letter Recommending  Replacement of Xi
                     Jinping at 19th Party Congress
-------------------------------------------------------------------------
  In April 2017, state security officials from Chengdu municipality,
 Sichuan province, detained Zi Su, a Communist Party member and retired
 Yunnan Provincial Committee Party School instructor,\81\ and in June,
 formally arrested him on the charge of ``inciting subversion of state
 power'' after he published an open letter calling for direct intraparty
 elections and the replacement of Party General Secretary Xi Jinping at
 the 19th Party Congress.\82\ In May, authorities reportedly criminally
 detained Huang Jianping, Zhang Ai, and Shao Zhongguo on the charge of
 ``picking quarrels and provoking trouble'' \83\ and forcibly
 disappeared Huang Xiaomin \84\ in connection with their support of Zi
 by writing essays or sharing the open letter online. Authorities also
 administratively detained Zhu Delong, former Capital Normal University
 professor who reportedly signed on to Zi's open letter, in August after
 he criticized Xi Jinping on a social media platform.\85\ Chengdu
 authorities previously detained Zi in October 2016 on suspicion of
 ``inciting subversion of state power'' for suspected ties to ``foreign
 forces,'' \86\ later releasing him on bail in November 2016.\87\
------------------------------------------------------------------------

    This past year, authorities persecuted individuals for 
participating in memorial events in remembrance of the violent 
suppression of the 1989 Tiananmen protests. Cases from this 
past year included:

        <bullet> In April 2017, the Chengdu Municipal 
        Procuratorate in Sichuan prosecuted Fu Hailu, Chen 
        Bing, Luo Fuyu, and Zhang Juanyong for ``inciting 
        subversion of state power'' in connection with images 
        Fu posted online in 2016 showing satirically labeled 
        liquor bottles commemorating the 1989 Tiananmen 
        protests.\88\ The four men have been in pretrial 
        detention for over a year.\89\
        <bullet> On June 4, 2017, authorities from Zhuzhou 
        municipality, Hunan province, summoned at least 10 
        individuals including Guo Min, Guo Sheng, Chen 
        Xiaoping, Chen Siming, Li Ming, Liu Zhen, Sun Huazhu, 
        Wen Bo, Tang Yuchun, and Tang Xueyun after they 
        participated in an artistic commemoration of the 1989 
        Tiananmen protests,\90\ later ordering 6 of them to 
        serve 7 to 10 days' administrative detention.\91\
        <bullet> On June 5, 2017, authorities in Nanjing 
        municipality, Jiangsu province, criminally detained Shi 
        Tingfu and formally arrested him on July 6 on suspicion 
        of ``picking quarrels and provoking trouble'' 
        reportedly for giving a speech in front of the Nanjing 
        Massacre Memorial Hall while wearing a shirt that read 
        ``Don't Forget June Fourth.'' \92\ As of July, 
        authorities detained Shi at the Yuhuatai District PSB 
        Detention Center in Nanjing, where he reportedly 
        suffered torture such as beating, sleep deprivation, 
        and inadequate food.\93\
        <bullet> On June 4, 2017, police in Beijing 
        municipality detained Li Xiaoling and later criminally 
        charged her with ``picking quarrels and provoking 
        trouble,'' \94\ for standing in front of Tiananmen 
        Square while holding a sign that said ``June 4th 
        Journey To Shine a Light'' and a picture of her eye, 
        which she said was injured and rendered nearly blind by 
        police in May.\95\
        <bullet> On June 12, 2017, police in Beijing 
        municipality detained petitioner Ding Yajun for posting 
        a photo online of herself and other petitioners 
        commemorating the 1989 Tiananmen protests.\96\ A court 
        in Heilongjiang province reportedly tried Ding on July 
        31 for ``picking quarrels and provoking trouble'' but 
        did not issue a judgment.\97\

              Lack of Substantial Political Liberalization

    This past year, central Party authorities did not take any 
substantial steps toward political liberalization.\98\ China's 
Constitution declares China's political system to be a 
socialist democracy with ``multi-party cooperation'' and 
``political consultation'' under the leadership of the 
Communist Party.\99\ This past year, Party General Secretary Xi 
Jinping praised the consultative system as uniquely ``Chinese'' 
and ``socialist,'' having developed under the Party's 
leadership.\100\ In the past, types of ``consultation'' have 
included intraparty input on decisions about Party cadre 
appointments, development projects at grassroots levels, and 
some comments on draft laws, as well as discussions between 
Party representatives and the national Chinese People's 
Political Consultative Conference (CPPCC) and the eight 
``democratic'' minor parties.\101\ According to one scholar, 
the CPPCC's political influence is ``minimal'' and primarily 
serves to ``legitimize'' Party rule.\102\ Philip Alston, the UN 
Special Rapporteur on extreme poverty and human rights, 
observed after a mission to China in August 2016 that, ``Public 
participation . . . is a notion to which Chinese officials 
continue to subscribe, but it is invariably described very much 
in terms of participating in the implementation of pre-
determined Party policies, rather than in the formulation or 
monitoring of those policies.'' \103\ Xinhua reported that at 
the annual political advisory meetings of the CPPCC and the 
National People's Congress (``Two Sessions'') in March 2017, 
delegates ``whole-heartedly'' upheld the Party Central 
Committee with Xi as ``core.'' \104\ International media and 
analysis reported that the 2017 Two Sessions ``followed a tight 
script'' with ``no surprises,'' and delegates affirmed their 
``unswerving loyalty'' to Xi as ``core'' of the Party in the 
lead-up to the 19th Party Congress.\105\

               Local Elections in China's One-Party State

    Sources from this past year highlighted multiple instances 
in which officials interfered with or inhibited meaningful 
public participation in local elections,\106\ demonstrating 
that China's political institutions do not meet the standards 
for ``genuine'' elections outlined in the Universal Declaration 
of Human Rights \107\ and International Covenant on Civil and 
Political Rights.\108\ This past year, villages and counties 
across China held local-level elections that take place once 
every five years.\109\ A report from Rights Defense Network 
highlighted an increase in citizen participation, organizing, 
and rights awareness, but also noted official interference with 
local elections, including incidents where independent 
candidates were administratively and criminally detained, 
restricted in their freedom of movement, beaten, harassed, 
kidnapped, and held in soft detention.\110\ For example, on 
September 19, 2016, domestic security protection officers in 
Qidong county, Hengyang municipality, Hunan province, detained 
democracy advocate Guan Guilin, ordering him to serve 10 days' 
administrative detention on suspicion of ``obstructing 
elections'' after he reportedly attempted to register as an 
independent candidate for the Qidong County People's Congress 
election.\111\ Following Guan's administrative detention, 
authorities did not release him and instead criminally detained 
him on suspicion of ``organizing and using a cult to undermine 
implementation of the law,'' \112\ releasing him on October 
29.\113\ In November 2016, public security officials in 
Dongxihu district, Wuhan municipality, Hubei province, ordered 
Gao Hongwei, Jia Fuquan, and Zeng Shouyun to serve nine days' 
administrative detention on the basis of ``harming voters' 
ability to exercise their right to vote'' and ``disrupting the 
order of elections.'' \114\ Gao, Jia, and Zeng had set up a 
booth in Dongxihu to distribute flyers and campaign for votes 
as independent candidates in the local people's congress 
election.\115\ In November 2016, police from Shanghai 
municipality administratively detained five campaign assistants 
of Shanghai candidate Feng Zhenghu for five days, accusing them 
of ``disrupting the order of elections.'' \116\

------------------------------------------------------------------------
                  Crackdown on Wukan Village Protesters
-------------------------------------------------------------------------
  Public security authorities and riot police cracked down on protests
 that arose after authorities detained Lin Zulian, chief of Wukan
 village, Donghai subdistrict, Lufeng city, Shanwei municipality,
 Guangdong province, in June 2016.\117\ Wukan residents elected Lin, an
 advocate for the return of land to villagers, to the village committee
 in 2012 in a special election \118\ and reelected him in 2015.\119\ On
 and around September 13, 2016, international news media reported that
 security forces used tear gas and rubber bullets against protesters, a
 move reportedly ordered by Guangdong Party Secretary Hu Chunhua,\120\
 that resulted in serious injuries to villagers.\121\ Police forces
 interrogated, expelled, or barred reporters from the village,\122\
 blocked access to the village,\123\ and detained villagers,\124\
 including at least one Internet user.\125\ Reports from a Party-run
 news media outlet characterized international reporting on events in
 Wukan as ``foreign forces'' conducting ``public opinion warfare,''
 \126\ while other provincial media outlets published alternative
 narratives on events in Wukan that downplayed the violence and
 unrest.\127\ In December 2016, the Haifeng County People's Court tried
 and convicted \128\ nine Wukan residents for their participation in the
 protest and imposed prison sentences ranging from 2 years to 10 years
 and 6 months.\129\ Those imprisoned included Wei Yonghan,\130\ Hong
 Yongzhong,\131\ Yang Jinzhen,\132\ Wu Fang,\133\ Cai Jialin,\134\
 Zhuang Songkun,\135\ Li Chulu,\136\ Chen Suzhuan,\137\ and Zhang
 Bingchai.\138\ In March 2017, Radio Free Asia reported that Wukan
 residents were under constant surveillance by authorities and feared
 speaking to outsiders.\139\ In August 2017, officials reportedly
 canceled the household registration (hukou) of exiled Wukan activist
 Zhuang Liehong and threatened his family in China, in apparent attempts
 to stop his advocacy in the United States.\140\
------------------------------------------------------------------------

 Implementation of Open Government Information Regulations and Citizen 
                         Access to Information

    During this reporting year, the Chinese government 
continued to work towards increasing citizens' access to 
official information. In June 2017, the State Council released 
draft revisions to the 2008 Open Government Information (OGI) 
Regulations and solicited public comments.\141\ The draft 
revisions clarified the scope of OGI and defined the types of 
information not subject to OGI.\142\ Areas not subject to OGI 
requirements include local-level information that ``endangers 
public safety or social stability'' or that involves ethnicity 
and religion.\143\ The draft revisions also included a set of 
new provisions calling for all levels of government to promote 
and establish mechanisms for OGI work.\144\ One U.S.-based 
expert noted that while the Chinese government's efforts to 
advance greater citizen access to official information have 
resulted in considerable progress in recent years, ``government 
transparency remains uneven and often unsatisfactory,'' with 
few OGI requests granted, few wins for OGI lawsuits, and 
detentions of some citizens who submit OGI requests.\145\ The 
Chinese Academy of Social Sciences found that 73 out of 100 
county-level governments scored lower than 60 points for 
transparency, with Nang county, Linzhi (Nyingtri) municipality, 
Tibet Autonomous Region, scoring the lowest at 12.75 
points.\146\ The study found that municipal governments overall 
scored significantly higher for transparency than county 
governments, with Xiamen municipality, Fujian province, and 
Guangzhou municipality, Guangdong province, ranking as the top 
two.\147\ Despite moves in the past year to update the OGI 
regulatory framework, Chinese authorities continued to deny OGI 
requests in cases related to human rights defenders, including 
cases of those petitioning,\148\ advocating for civil 
society,\149\ and requesting information on the use of ``black 
jails'' and other secret detention sites.\150\

                                                Institutions of 
                                                    Democratic 
                                                     Governance
                                                Institutions of 
                                                Democratic 
                                                Governance
    Notes to Section III--Institutions of Democratic Governance

    \1\ Freedom House, ``Freedom in the World 2017--China,'' last 
visited 11 April 17; Jidong Chen et al., ``Sources of Authoritarian 
Responsiveness: A Field Experiment in China,'' American Journal of 
Political Science, Vol. 60, No. 2 (April 2016), 385; David Shambaugh, 
China's Future (Cambridge: Polity Press, 2016), 98, 115, 121-22; Bureau 
of Democracy, Human Rights, and Labor, U.S. Department of State, 
``Country Reports on Human Rights Practices for 2016--China (Includes 
Tibet, Hong Kong, and Macau),'' 3 March 17, 1.
    \2\ Freedom House, ``Freedom in the World 2017--China,'' last 
visited 11 April 17.
    \3\ David Shambaugh, China's Future (Cambridge: Polity Press, 
2016), 98-99. See also Susan V. Lawrence and Michael F. Martin, 
Congressional Research Service, ``Understanding China's Political 
System,'' 20 March 13, summary; Chinese Communist Party Constitution 
[Gongchandang zhangcheng], adopted 6 September 82, amended 1 November 
87, 18 October 92, 18 September 97, 14 November 02, 21 October 07, 14 
November 12, General Program. For an English translation, see 
``Constitution of Communist Party of China,'' Xinhua, 18 November 12, 
reprinted in People's Daily, 29 March 13. The Party Constitution states 
that, ``Acting on the principle that the Party commands the overall 
situation and coordinates the efforts of all quarters, the Party must 
play the role as the core of leadership among all other organizations 
at the corresponding levels.'' PRC Constitution, issued 4 December 82, 
amended 12 April 88, 29 March 93, 15 March 99, 14 March 04, Preamble; 
PRC Legislation Law [Zhonghua renmin gongheguo lifa fa], passed 15 
March 00, amended and effective 15 March 15, art. 3.
    \4\ Freedom House, ``Freedom in the World 2017--China,'' last 
visited 11 April 17.
    \5\ David Shambaugh, China's Future (Cambridge: Polity Press, 
2016), 115, 121-22; ``Chairman of Everything,'' Economist, 2 April 16; 
``Xi Jinping: Party, Government, Military, Civil, and Academic; East, 
West, South, North, and Center: The Party Leads Everything'' [Xi 
jinping: dang zheng jun min xue, dong xi nan bei zhong, dang shi 
lingdao yiqie de], The Paper, 30 January 16.
    \6\ Christopher K. Johnson and Scott Kennedy, ``China's Un-
Separation of Powers: The Blurred Lines of Party and Government,'' 
Foreign Affairs, 24 July 15.
    \7\ ``Wang Qishan: Build an Integrated Party-Led Anticorruption 
System, Improve Governing Capacity, Perfect the Governance System'' 
[Wang qishan: goujian dang tongyi lingdao de fanfubai tizhi tigao 
zhizheng nengli wanshan zhili tixi], Xinhua, 5 March 17. See also Shi 
Jiangtao, `` `No Separation of Powers': China's Top Graft-Buster Seeks 
Tighter Party Grip on Government,'' South China Morning Post, 6 March 
17; Ben Blanchard and Philip Wen, ``Nothing To See but Comfort for Xi 
at China's Annual Parliament,'' Reuters, 15 March 17.
    \8\ Chinese Communist Party Central Committee, ``Certain Guidelines 
Regarding Intraparty Political Life Under New Circumstances'' [Guanyu 
xin xingshi xia dangnei zhengzhi shenghuo de ruogan zhunze], Xinhua, 2 
November 16. See also Chen Yannan, ``People's Daily New Lessons and 
Reflections: Solidifying Political Character With Absolute Loyalty 
Toward the Party'' [Renmin ribao xinzhi xinjue: zhujiu dui dang juedui 
zhongcheng de zhengzhi pin'ge], People's Daily, 15 March 17; ``Xi 
Jinping Wants Officials To Declare Allegiance to Himself,'' Economist, 
6 April 17.
    \9\ Liang Pengfei and Zhou Yuan, ``Absolute Loyalty, Unified 
Military Command'' [Juedui zhongcheng junling guiyi], Liberation Army 
News, 12 March 17.
    \10\ See, e.g., National Bureau of Statistics of China, ``2016 
National Economy Established Good Start to the `13th Five-Year Plan' '' 
[2016 nian guomin jingji shixian ``shisan wu'' lianghao kaiju], 20 
January 17; National Bureau of Statistics of China, ``2016: A Good 
Start for China's Economy During the 13th Five-Year Plan Period,'' 20 
January 17.
    \11\ See, e.g., Cyberspace Administration of China, ``National 
Cyberspace Security Strategy,'' [Guojia wangluo kongjian anquan 
zhanlue], reprinted in Xinhua, 27 December 16. See also Joyce Huang, 
``China Launches Corruption Crackdown on Social Media Ahead of Party 
Congress,'' Voice of America, 24 April 17; Beina Xu and Eleanor Albert, 
Council on Foreign Relations, ``Media Censorship in China,'' 17 
February 17.
    \12\ See, e.g., Ministry-Administered Leading Small Group on the 
Work of Party-Building in Social Organizations, Ministry of Civil 
Affairs, ``Key Work Points for Ministerial Management of Party-Building 
in Social Organizations in 2017'' [Bu guan shehui zuzhi 2017 nian 
dangjian gongzuo yaodian], 6 March 17, 1(1)-(2), 2(5)-(7), 3(9). See 
also Ministry of Civil Affairs, ``Ministry of Civil Affairs Convenes 
Meeting on Promoting the `Two Comprehensive Coverages' Work for Social 
Organization Management'' [Minzhengbu zhaokai bu guan shehui zuzhi 
``liang ge quan fugai'' gongzuo tuijin hui], 10 March 17.
    \13\ See, e.g., National Health and Family Planning Commission, 
``December 12, 2016, National Health and Family Planning Commission 
Regular Press Conference Transcript'' [2016 nian 12 yue 12 ri guojia 
weisheng jishengwei lixing xinwen fabuhui wenzi shilu], 12 December 16; 
Chinese Communist Party Central Committee, ``Chinese Communist Party 
18th Party Congress Fifth Plenum Announcement'' [Zhongguo gongchandang 
di shiba jie zhongyang weiyuanhui di wu ci quanti huiyi gongbao], 29 
October 15; State Council, Circular Regarding National Population 
Development Plan (2016-2030) [Guowuyuan guanyu yinfa guojia renkou 
fazhan guihua (2016-2030 nian) de tongzhi], issued 25 January 17, 2(1), 
3(1). See also Ananya Roy, ``Strict Birth Control Measures in China 
Force Parents To Abandon Child or Go Into Hiding,'' International 
Business Times, 28 October 16.
    \14\ ``Central Committee Political and Legal Affairs Commission 
Meeting Convenes in Beijing'' [Zhongyang zhengfa gongzuo huiyi zai jing 
zhaokai], Xinhua, reprinted in China Law Society, 13 January 17; Zhang 
Ziyang, ``Zhou Qiang: Dare To Draw the Sword Against Erroneous Western 
Thought'' [Zhou qiang: yao ganyu xiang xifang cuowu sichao liangjian], 
China News, 14 January 17.
    \15\ Zheping Huang, ``China's Top Judge Is One of the Country's 
Most Vocal Critics of Judicial Independence,'' Quartz, 18 January 17; 
Michael Forsythe, ``China's Chief Justice Rejects an Independent 
Judiciary, and Reformers Wince,'' New York Times, 18 January 17.
    \16\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
29 September 16.
    \17\ Ibid.
    \18\ Human Rights in China, ``The China Challenge to International 
Human Rights: What's at Stake? '' November 2016, 14-16.
    \19\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
29 September 16, sec. V.
    \20\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, arts. 21, 22(1); United Nations 
Treaty Collection, Chapter IV, Human Rights, International Covenant on 
Civil and Political Rights, last visited 10 September 17. China has 
signed but not ratified the ICCPR.
    \21\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76; UN Human Rights Council, Report of 
the Working Group on the Universal Periodic Review--China, A/HRC/25/5, 
4 December 13, para. 153. During the UN Human Rights Council's 
Universal Periodic Review of the Chinese government's human rights 
record in October 2013, the Chinese government representative stated 
``China is making preparations for the ratification of ICCPR and will 
continue to carry out legislative and judicial reforms.''
    \22\ Chinese Communist Party Central Committee, ``18th Chinese 
Communist Party Central Committee Sixth Plenum Communique'' [Zhongguo 
gongchangdang di shiba jie zhongyang weiyuanhui di liu ci quanti huiyi 
gongbao], 27 October 16.
    \23\ Chris Buckley, ``China's Communist Party Declares Xi Jinping 
`Core' Leader,'' New York Times, 27 October 16; J.P., ``Why It Matters 
That Xi Jinping Is Called the `Core' of China's Communist Party,'' 
Economist, 16 November 16; Kazuyuki Suwa, Tokyo Foundation, ``Xi 
Jinping's China: Concentrating and Projecting Power,'' 19 January 17.
    \24\ Chinese Communist Party Central Committee, ``18th Chinese 
Communist Party Central Committee Sixth Plenum Communique'' [Zhongguo 
gongchangdang di shiba jie zhongyang weiyuanhui di liu ci quanti huiyi 
gongbao], 27 October 16; Chris Buckley, ``China's Communist Party 
Declares Xi Jinping `Core' Leader,'' New York Times, 27 October 16.
    \25\ State Council, ``Government Work Report'' [Zhengfu gongzuo 
baogao], 5 March 17; State Council, ``Report on the Work of the 
Government,'' 5 March 17.
    \26\ Ibid.
    \27\ Chris Buckley, ``Xi Jinping May Be `Core Leader' of China, but 
He's Still Really Nervous,'' New York Times, 1 November 16.
    \28\ Chris Buckley, ``China's Communist Party Declares Xi Jinping 
`Core' Leader,'' New York Times, 27 October 16; Kazuyuki Suwa, Tokyo 
Foundation, ``Xi Jinping's China: Concentrating and Projecting Power,'' 
19 January 17; J.P., ``Why It Matters That Xi Jinping Is Called the 
`Core' of China's Communist Party,'' Economist, 16 November 16; Michael 
Martina and Benjamin Kang Lim, ``China's Xi Anointed `Core' Leader, On 
Par With Mao, Deng,'' Reuters, 27 October 16.
    \29\ Alice Miller, ``What Would Deng Do? '' China Leadership 
Monitor, Hoover Institution, Stanford University, No. 52 (Winter 2017), 
6-8.
    \30\ Chris Buckley, ``Xi Jinping, Seeking To Extend Power, May Bend 
Retirement Rules,'' New York Times, 2 March 17; ``Will Xi Bend 
Retirement `Rule' To Keep Top Officials in Power? '' Bloomberg, 31 
October 16.
    \31\ Alice Miller, ``The Road to the 19th Party Congress,'' China 
Leadership Monitor, Hoover Institution, Stanford University, No. 51 
(Fall 2016), 9.
    \32\ ``Xi Calls for Creativity in Strict CPC Governance,'' Xinhua, 
6 January 17.
    \33\ Ibid.; Chinese Communist Party Central Committee, ``18th 
Chinese Communist Party Central Committee Sixth Plenum Communique'' 
[Zhongguo gongchangdang di shiba jie zhongyang weiyuanhui di liu ci 
quanti huiyi gongbao], Xinhua, 27 October 16; ``Xi Jinping: An 
Explanation of `Certain Guidelines on Governing Intraparty Political 
Life Under New Circumstances' and `Chinese Communist Party Intraparty 
Supervision Regulations' '' [Xi jinping: guanyu ``guanyu xin xingshi 
xia dangnei zhengzhi shenghuo de ruogan zhunze'' he ``zhongguo 
gongchandang dangnei jiandu tiaoli'' de shuoming], 2 November 16; 
Chinese Communist Party Central Committee, ``Chinese Communist Party 
Intraparty Supervision Regulations'' [Zhongguo gongchandang dangnei 
jiandu tiaoli], reprinted in Xinhua, 2 November 16; Chinese Communist 
Party Central Committee, ``Certain Guidelines on Governing Intraparty 
Political Life Under New Circumstances'' [Guanyu xin xingshi xia 
dangnei zhengzhi shenghuo de ruogan zhunze], reprinted in Xinhua, 2 
November 16. See also Benjamin Lee, ``In China, a Tale of 2 Plenums: 
`Core Leader' vs. Collective Leadership,'' The Diplomat, 15 November 
16.
    \34\ See, e.g., ``Former Senior Political Advisor Sentenced to 13 
Years for Graft,'' Global Times, 13 December 16.
    \35\ See, e.g., ``46 Military Officers Punished for Discipline 
Violations,'' Xinhua, 22 March 17.
    \36\ See, e.g., ``Former Senior Political Advisor, Police Chief of 
Tianjin Stands Trial for Graft,'' Xinhua, 29 March 17.
    \37\ ``Comrade Sun Zhengcai Suspected of Serious Violations of 
Discipline, Chinese Communist Party Central Committee Decides To Open 
Case and Conduct Investigations'' [Sun zhengcai tongzhi shexian 
yanzhong weiji zhonggong zhongyang jueding dui qi li'an shencha], 
Xinhua, 24 July 17.
    \38\ Chris Buckley, ``Former Political Star in China Is Under Party 
Investigation,'' New York Times, 24 July 17; Tom Phillips, ``Man Tipped 
as China's Future President Ousted as Xi Jinping Wields `Iron 
Discipline,' '' Guardian, 25 July 17.
    \39\ Wu Mengda et al., ``Overwhelming Situation Already Formed--
What Will Be the New Signals of Anticorruption Efforts in 2017? Eight 
Major Points From the CCDI Seventh Plenum Communique'' [Yadaoxing 
taishi yijing xingcheng 2017 nian fanfu jiang you naxie xin xinhao?--
zhongyang jiwei qi ci quanhui gongbao ba da kandian], Xinhua, 8 January 
17. See also Brenda Goh, ``China Tightens Rules After Anti-Corruption 
Staff Caught Up in Graft,'' Reuters, 8 January 17.
    \40\ ``415,000 Punished for Discipline Violations in 2016,'' 
Xinhua, 5 January 17.
    \41\ ``Supreme People's Procuratorate Work Report'' [Zuigao renmin 
jianchayuan gongzuo baogao], 15 March 17.
    \42\ ``Supreme People's Court Work Report (Summary)'' [Zuigao 
renmin fayuan gongzuo baogao (zhaiyao)], Xinhua, 12 March 17, part 1.
    \43\ Chinese Communist Party Central Committee, Regulations on 
Chinese Communist Party Inspection Work [Zhongguo gongchandang xunshi 
gongzuo tiaoli], effective 3 August 15, amended 1 July 17.
    \44\ Ibid., 11(1); ``CCP Issues Revised Regulation on Inspection To 
Strengthen Party Supervision,'' Xinhua, 14 July 17; Yang Sheng, ``CPC 
Issues New Inspection Rules,'' Global Times, 26 July 17.
    \45\ Benjamin Kang Lim and Philip Wen, ``China's Anti-Corruption 
Overhaul Paves Way for Xi To Retain Key Ally,'' Reuters, 3 March 17; 
Jun Mai, ``Why Is China Blurring the Line Between Party and State? '' 
South China Morning Post, 15 April 17.
    \46\ National People's Congress Standing Committee, Decision on 
Launching State Supervision System Reform Pilot Program in Beijing 
Municipality, Shanxi Province, and Zhejiang Province, [Quanguo renmin 
daibiao dahui changwu weiyuanhui guanyu zai beijing shi, shanxi sheng, 
zhejiang sheng kaizhan guojia jiancha tizhi gaige shidian gongzuo de 
jueding], issued 25 December 16, effective 26 December 16.
    \47\ Ibid.; Cao Yin, ``Anti-Graft Agencies Set To Be Realigned,'' 
China Daily, 12 January 17.
    \48\ Wang Qishan, ``To Promote Comprehensive and Rigorous 
Development of Party Governance, and Welcome the Opening of the 19th 
Party Congress With Exceptional Performance--Work Report From the 
Chinese Communist Party's 18th Central Commission for Discipline 
Inspection's Seventh Plenary Session'' [Tuidong quanmian congyan 
zhidang xiang zongshen fazhan yi youyi chengji yingjie dang de shijiu 
da zhaokai--zai zhongguo gongchandang di shiba jie zhongyang jilu 
jiancha weiyuanhui di qi ci quanti huiyi shang de gongzuo baogao], 
reprinted in Xinhua, 19 January 17, sec. 1(2).
    \49\ Ibid.
    \50\ Cao Yin, ``Anti-Graft Agencies Set To Be Realigned,'' China 
Daily, 12 January 17.
    \51\ ``Chinese Communist Party Central Committee General Office 
Issues `Proposal Launching State Supervision System Reform Pilot 
Program in Beijing Municipality, Shanxi Province, and Zhejiang 
Province'' [Zhonggong zhongyang bangongting yinfa ``guanyu zai beijing 
shi, shanxi sheng, zhejiang sheng kaizhan guojia jiancha tizhi gaige 
shidian fang'an], Central Commission for Discipline Inspection, 7 
November 16. See also Jerome Doyon, ``One-Man Rule and the Party: 
Internal Discipline and the Risk of Gerontocracy,'' China Analysis, 
Special Issue: Discipline and Punish: Party Power Under Xi, European 
Council on Foreign Relations, March 2017, 4.
    \52\ Benjamin Kang Lim and Philip Wen, ``China's Anti-Corruption 
Overhaul Paves Way for Xi To Retain Key Ally,'' Reuters, 4 March 17.
    \53\ Zhiqiong June Wang, ``China's New Anti-Corruption Body Raises 
Worrying Questions About the Rule of Law,'' The Conversation, 17 May 
17; Nathan VanderKlippe, ``Shuanggui: The Harsh, Hidden Side of China's 
War on Graft, and How One Man Disappeared Into It,'' Globe and Mail, 26 
March 17.
    \54\ Human Rights Watch, ``China: Secretive Detention System Mars 
Anti-Corruption Campaign,'' 6 December 16; Nathan VanderKlippe, 
``Shuanggui: The Harsh, Hidden Side of China's War on Graft, and How 
One Man Disappeared Into It,'' Globe and Mail, 26 March 17.
    \55\ Human Rights Watch, ``China: Secretive Detention System Mars 
Anti-Corruption Campaign,'' 6 December 16.
    \56\ Richard Wike and Bruce Stokes, Pew Research Center, ``Chinese 
Public Sees More Powerful Role in World, Names U.S. as Top Threat,'' 5 
October 16, 4-5, 7-8. According to the Pew report, 64 percent of 
Chinese people believe that corruption will lessen over the next five 
years.
    \57\ Transparency International, ``Corruption Perceptions Index 
2016,'' 25 January 17. China's score improved by three points from 37 
to 40 between 2015 and 2016.
    \58\ Dali Yang, ``Dirty Deeds: Will Corruption Doom China? '' 
Foreign Affairs (July/August 2017). See, e.g., Luigi Tomba, ``What Does 
Wukan Have To Do With Democracy? '' Chinoiresie, 2 February 17; 
``Police Probe Village Officials in China's Hunan After Beating Death 
of `Good Official,' '' Radio Free Asia, 13 June 17.
    \59\ See, e.g., ``Xinjiang, Yili Villagers' Rights Defense 
Representative Talks About Local Government Corruption Issues (9)'' 
[Xinjiang yili cunmin weiquan daibiao tan difang zhengfu guanyuan tanfu 
wenti (jiu)], Radio Free Asia, 4 October 16; Shi Yu, ``CCDI Exposes 2 
Jiangxi Cadres, Village Officials Investigated for Embezzling 7 Million 
Yuan of Public Funds'' [Jiangxi 2 ming ganbu bei zhongyang jiwei 
dianming puguang cun guan nuoyong 700 wan yuan gongkuan bei chachu], 
People's Daily, 11 May 17; Li Xiule, ``Village Cadres Collectively 
Violate Regulations, Embezzle Over 5 Million Yuan in Public Funds To 
Invest in Financial Products'' [Cun ganbu jiti weigui nuoyong gongkuan 
500 yu wan yuan yongyu touzi licai], Procuratorial Daily, reprinted in 
Xinhua, 6 June 17.
    \60\ See, e.g., Lauren Teixeira, ``Why Is Nanjing Demolishing Its 
Last Historic Neighborhood? '' SupChina, 18 July 17; Rights Defense 
Network, ``Disabled and Landless Rural Couple From Shandong Arrested, 
Without Money To Hire Lawyer, They Only Can Allow the Government To 
Frame Them'' [Shandong canji shidi nongmin fufu shuangshuang zao daibu, 
wu qian pin lushi zhi neng ren you zhengfu gouxian], 4 April 17; 
``Large-scale Clash Between Police and Nearly 10,000 Guangdong 
Villagers Protesting Against Corrupt Officials'' [Guangdong jin wan 
cunmin kangyi tanguan jing min da guimo chongtu], Voice of America, 3 
April 15.
    \61\ See, e.g., Lauren Teixeira, ``Why Is Nanjing Demolishing Its 
Last Historic Neighborhood? '' SupChina, 18 July 17; Rights Defense 
Network, ``Wuxi [Resident] Xu Haifeng Levies Complaint Against Public 
Security, Procuratorial, and Court Officials to Departments of Wuxi 
Municipality, Jiangsu Province, and the Central Government, for the 
Framing and Imprisonment of 77-Year-Old Mother Wang Jindi'' [Wuxi xu 
haifeng jin xiang wuxi shi, jiangsu sheng, zhongyang ge zhineng bumen 
konggao gouxian ziji nian yi 77 sui muqin wang jindi zuolao de 
gongjianfa zerenren], 8 October 16. For more information on Wang Jindi, 
see the Commission's Political Prisoner Database record 2016-00037.
    \62\ Jie Wenjin et al., ``Emphasize Striking Against `Protective 
Umbrella' for Occupational Crimes--Focus on Addressing `Village 
Tyrants' and Clan-Related Criminal Gang Activities Nationwide'' [Tuchu 
daji chongdang ``baohu san'' de zhiwu fanzui--jujiao quanguo zhengzhi 
``cunba'' he zongzu eshili xingdong], Xinhua, 12 February 17. See also 
Zhao Fuduo, ``Procuratorate Office To Vigorously Address `Village 
Tyrants,' Severely Punish Rural Village-Level Corruption'' [Jiancha 
jiguan jiang dali zhengzhi ``cunba'' yancheng nongcun jiceng fubai], 
Caixin, 15 January 17.
    \63\ Wang Qishan, ``To Promote Comprehensive and Rigorous 
Development of Party Governance, and Welcome the Opening of the 19th 
Party Congress With Exceptional Performance--Work Report From the 
Chinese Communist Party's 18th Central Commission for Discipline 
Inspection's Seventh Plenary Session'' [Tuidong quanmian congyan 
zhidang xiang zongshen fazhan yi youyi chengji yingjie dang de shijiu 
da zhaokai--zai zhongguo gongchandang di shiba jie zhongyang jilu 
jiancha weiyuanhui di qi ci quanti huiyi shang de gongzuo baogao], 
reprinted in Xinhua, 19 January 17, sec. 3(5); ``Comrade Wang Qishan's 
Biography'' [Wang qishan tongzhi jianli], People's Daily, last visited 
21 July 17.
    \64\ Wang Zhiguo et al., ``Cao Jianming: Create a Safe and Stable 
Social Environment for the Successful Convening of the 19th Party 
Congress'' [Cao jianming: wei dang de shijiu da shengli zhaokai yingzao 
anquan wending shehui huanjing], Procuratorial Daily, 15 January 17; Li 
Rongde, ``China's Top Prosecutor Takes Aim at Corrupt Village Officials 
Over Rural Land Grabs,'' Caixin, 16 January 17.
    \65\ Supreme People's Procuratorate, ``Supreme People's 
Procuratorate Releases Opinion, Stresses Striking Against Occupational 
Crimes That Serve as `Protective Umbrellas' for `Village Tyrants' '' 
[Zuigaojian xiafa yijian tuchu daji wei ``cunba'' chongdang ``baohu 
san'' de zhiwu fanzui], 3 February 17.
    \66\ Chinese Human Rights Defenders, `` `They Target My Human 
Rights Work as a Crime': Annual Report on the Situation of Human Rights 
Defenders in China (2016),'' February 2017, 16.
    \67\ ``Stability Maintenance in Hangzhou for G20: Chen Zongyao and 
His Son, Citizens From Leqing, Wenzhou, Were Detained'' [Hangzhou G20 
weiwen: wenzhou yueqing gongmin chen zongyao fuzi bei juliu], China 
Free Press, 22 August 16.
    \68\ Ibid.
    \69\ Ibid.; Rights Defense Network, ``Yueqing, Zhejiang Citizens 
Chen Zongyao (Chen Chen) and Chen Zhixiao, Father and Son, Detained for 
Hanging `Constitutional Noodle Shop' Sign'' [Zhejiang yueqing gongmin 
chen zongyao (chen chen), chen zhixiao fuzi yin guale ``xianzheng 
mianguan'' zhaopai zao daibu], 29 September 16.
    \70\ Rights Defense Network, ``In Wenzhou, Zhejiang `Constitutional 
Noodle Shop' Case, Father and Son Chen Chen (Chen Zongyao) and Chen 
Zhixiao Released Under Suspended Sentence'' [Zhejiang wenzhou 
``xianzheng mianguan'' zhaopai an chen chen (chen zongyao), chen 
zhixiao fuzi bei pan ruanxing huoshi], 25 January 17.
    \71\ Rights Defense Network, ``Yueqing Zhejiang Citizens Chen 
Zongyao (Chen Chen) and Chen Zhixiao, Father and Son, Detained for 
Hanging `Constitutional Noodle Shop' Sign'' [Zhejiang yueqing gongmin 
chen zongyao (chen chen), chen zhixiao fuzi yin guale ``xianzheng 
mianguan'' zhaopai zao daibu], 29 September 16. For more information, 
see the Commission's Political Prisoner Database records 2016-00275 on 
Chen Zongyao and 2016-00306 on Chen Zhixiao.
    \72\ Civil Rights & Livelihood Watch, ``Civil Rights & Livelihood 
Watch Founder Liu Feiyue Criminally Detained on Charge of Subversion of 
State Power'' [Minsheng guancha fuzeren liu feiyue bei yi dianfu guojia 
zhengquan zui xingju], 24 November 16; Human Rights Watch, ``China: 
Three Activists Feared `Disappeared,' '' 16 December 16; Congressional-
Executive Commission on China, ``Chairs Ask Chinese Ambassador for 
Information on Detained Rights Advocates and American Citizen Sandy 
Phan-Gillis,'' 7 December 16.
    \73\ ``Liu Feiyue Criminally Detained on Charge of `Subversion of 
State Power,' Authorities Accuse Him of Receiving Foreign Funding'' 
[Liu feiyue bei yi ``dianfu zui'' xingju dangju zhikong qi shoushou 
jingwai zizhu], Radio Free Asia, 25 November 16.
    \74\ Rights Defense Network, ``Bulletin on CRLW Director Liu 
Feiyue's Case: Family Members Receive `Arrest Notice' From Suizhou, 
Hubei PSB'' [Minsheng guancha fuzeren liu feiyue an tongbao: jiashu 
shoudao hubei suizhou shi gong'an ju jifa de ``daibu tongzhishu''], 11 
January 17. For more information on Liu Feiyue, see the Commission's 
Political Prisoner Database record 2016-00460.
    \75\ Rights Defense Network, ``Director of Mainland NGO `64 
Tianwang' Huang Qi Arrested by Authorities'' [Dalu NGO ``liusi 
tianwang'' fuzeren huang qi yi bei dangju zhixing daibu], 20 December 
16. For more information on Huang Qi, see the Commission's Political 
Prisoner Database record 2004-04053.
    \76\ Committee to Protect Journalists, ``Editor of Human Rights 
News Website Detained in China,'' 28 November 16.
    \77\ Chinese Human Rights Defenders, ``Huang Qi,'' 19 December 16, 
last visited 24 July 17.
    \78\ Civil Rights & Livelihood Watch, ``Husband and Wife Qin 
Yongmin and Zhao Suli Disappeared for Nearly One Year, Worrying Many'' 
[Qin yongmin, zhao suli fufu shizong jijiang man yi nian yin gejie 
danyou], 1 January 16; Human Rights in China, ``China Human Rights 
Watch Organization Registration Announcement (No. 10)'' [Zhongguo 
renquan guancha zuzhi zhuce wengao (di shi hao)], 25 March 14; 
``Persecuted Lawyer Ma Lianshun Forced To Withdraw From Qin Yongmin 
Case'' [Zao daya ma lianshun lushi bei po tuichu qin yongmin an], Radio 
Free Asia, 23 July 17. For more information, see the Commission's 
Political Prisoner Database records 2004-02138 on Qin Yongmin and 2016-
00069 on Zhao Suli.
    \79\ ``Relatives of Qin Yongmin's `Disappeared' Wife in Legal 
Appeal,'' Radio Free Asia, 16 March 17.
    \80\ ``Qin Yongmin Detained for Two and a Half Years, Fifth Lawyer 
Forced To Withdraw'' [Qin yongmin bei ju liang nian ban di 5 wei lushi 
zao bitui], Renmin Bao, 27 July 17; ``Qin Yongmin Pressured To Change 
Lawyer for Fifth Time, Lawyers Obstructed and Unable To Be Involved'' 
[Qin yongmin shouya 5 huan lushi reng shou zunao lushi wufa jieru], 
Radio Free Asia, 2 August 17.
    \81\ Rights Defense Network, ``Chinese Communist Party Member, 
Retired Yunnan Province Party School Instructor Zi Su Published 
Recommendation on 19th Party Congress, Currently Detained at Chengdu 
No. 2 Detention Center'' [Zhonggong dangyuan, yunnan shengwei dangxiao 
tuixiu laoshi zi su fabiao zhi shijiu da jianyi hou muqian yi bei 
shoujian zai chengdu di er kanshousuo], 12 May 17.
    \82\ ``Former Yunnan Party School Instructor Zi Su Arrested on 
Suspicion of `Inciting Subversion' for Proposing Direct Intraparty 
Elections for General Secretary'' [Yunnan faqi dangnei zhixuan qu 
zongshuji changyi de dangxiao qian jiaoshi zi su bei yi shexian 
``shandian zui'' pibu], Radio Free Asia, 16 June 17. For full text of 
open letter, see Rights Defense Network, ``Chinese Communist Party 
Member, Retired Yunnan Province Party School Instructor Zi Su Published 
Recommendation on 19th Party Congress, Currently Detained at Chengdu 
No. 2 Detention Center'' [Zhonggong dangyuan, yunnan shengwei dangxiao 
tuixiu laoshi zi su fabiao zhi shijiu da jianyi hou muqian yi bei 
shoujian zai chengdu di er kanshousuo], 12 May 17.
    \83\ Rights Defense Network, ``Chinese Communist Party Member, 
Retired Yunnan Province Party School Instructor Zi Su Published 
Recommendation on 19th Party Congress, Currently Detained at Chengdu 
No. 2 Detention Center'' [Zhonggong dangyuan, yunnan shengwei dang xiao 
tuixiu laoshi zi su fabiao zhi shijiu da jianyi hou muqian yi bei 
shoujian zai chengdu di er kanshousuo], 12 May 17; Rights Defense 
Network, ``Due to `Case of Zi Su Suggesting Replacement of General 
Secretary at 19th Party Congress,' Huang Jianping of Nanchang, Jiangxi, 
Zhang Ai of Kunming, Yunnan, and Shao Zhongguo of Yuncheng, Shanxi, 
Detained'' [``Zi su jianyan shijiu da genghuan zongshuji an'' jiangxi 
nanchang huang jianping, yunnan kunming zhang ai, shanxi yuncheng shao 
zhongguo san ren bei juliu], 6 May 17.
    \84\ ``Huang Xiaomin of Sichuan Secretly Kidnapped for His Support 
of Academic Zi Su'' [Shengyuan xuezhe zi su sichuan huang xiaomin zao 
mimi bangjia], Radio Free Asia, 21 May 17; ``Sichuan Rights Defender 
Huang Xiaomin Missing for More Than Three Months'' [Sichuan weiquanzhe 
huang xiaomin shizhong yu san yue], Radio Free Asia, 23 August 17.
    \85\ ``Former Capital Normal University Instructor Administratively 
Detained Prior to 19th Party Congress for Citicizing Xi Jinping'' 
[Shijiu da qian pi xi jinping yuan shou shida jiaoshou zao xingju], 
Radio Free Asia, 17 August 17; Rights Defense Network, ``Chinese 
Communist Party Member, Retired Yunnan Province Party School Instructor 
Zi Su Published Recommendation on 19th Party Congress, Currently 
Detained at Chengdu No. 2 Detention Center'' [Zhonggong dangyuan, 
yunnan shengwei dangxiao tuixiu laoshi zi su fabiao zhi shijiu da 
jianyi hou muqian yi bei shoujian zai chengdu di er kanshousuo], 12 May 
17.
    \86\ Civil Rights & Livelihood Watch, ``Authorities From Chengdu, 
Sichuan, Should Immediately Release Zi Su and Other Democracy 
Advocates'' [Sichuan chengdu dangju ying liji shifang zi su deng minzhu 
renshi], 10 November 16; ``Mainland Dissident Scholar Zi Su Released on 
Bail'' [Dalu yijian xuezhe zi su qubao huoshi], Radio Free Asia, 26 
November 16.
    \87\ ``Mainland Dissident Scholar Zi Su Released on Bail'' [Dalu 
yijian xuezhe zi su qubao huoshi], Radio Free Asia, 26 November 16. For 
more information on Zi Su, see the Commission's Political Prisoner 
Database record 2016-00445.
    \88\ ``Four People in `June Fourth Liquor' Case Prosecuted for 
Inciting Subversion'' [``Liusi mingjiu'' an 4 ren bei qisu shandian 
zui], Radio Free Asia, 14 April 17. For more information, see the 
Commission's Political Prisoner Database records 2016-00240 on Fu 
Hailu, 2016-00241 on Chen Bing, 2016-00242 on Luo Fuyu, and 2016-00243 
on Zhang Juanyong. See also CECC, 2016 Annual Report, 6 October 16, 
239.
    \89\ ``On the Eve of June Fourth, Family Members of the `June 
Fourth Liquor Case' Made a Statement Hoping Their Family Members Will 
Return Home Soon'' [Liusi qianxi ``liusi jiu'an'' jiashu fa shengming 
ji jiaren zaori huijia], Radio Free Asia, 2 June 17.
    \90\ Human Rights Campaign in China, ``Hunan, Zhuzhou, Citizens Guo 
Min and Guo Sheng Released After Being Detained for 10 Days for 
Commemorating June Fourth's 28th Anniversary With Performance Art'' 
[Hunan zhuzhou gongmin renti xingwei yishu jinian liusi 28 zhounian 
huodong canyuzhe guo min he guo sheng juliu shi tian qiman huoshi], 15 
June 17.
    \91\ Ibid.
    \92\ China Political Prisoner Concern, ``Shi Tingfu (CPPC Number: 
00544)'' [Shi tingfu (CPPC bianhao: 00544)], 2 July 17; Amnesty 
International, ``Urgent Action Update: Activists Arrested for Tiananmen 
Commemoration (China: UA 148.17),'' 28 July 17.
    \93\ China Political Prisoner Concern, ``Shi Tingfu (CPPC Number: 
00544)'' [Shi tingfu (CPPC bianhao: 00544)], 2 July 17.
    \94\ ``Li Xiaoling's Administrative Detention Becomes Criminal 
Detention, Residence Searched, Sun Dongsheng Forcibly Taken Back to 
Harbin'' [Li xiaoling xingju bian xingju zhusuo bei chao sun dongsheng 
bei qiangzhi daihui ha'erbin], Radio Free Asia, 9 August 17.
    \95\ Civil Rights & Livelihood Watch, ``Nine Detained in `Li 
Xiaoling June Fourth Walk To Shine a Light Case,' All Released on Bail 
Today'' [``Li xiaoling liusi guangming xing an'' bei bu jiu ren jinri 
quanbu qubao], 5 July 17.
    \96\ Amnesty International, ``Urgent Action Update: Activists 
Arrested for Tiananmen Commemoration (China: UA 148.17),'' 28 July 17.
    \97\ ``Ding Yajun Tried on Monday for Commemorating June Fourth, 
Court To Announce Judgment on Another Day'' [Ding yajun she jinian 
liusi zhou yi shenxun fating zeri xuanpan], Radio Free Asia, 31 July 
17.
    \98\ Freedom House, ``Freedom in the World 2017--China,'' last 
visited 11 April 17.
    \99\ PRC Constitution, issued 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, preamble; State Council 
Information Office, ``White Paper on China's Political Party System,'' 
reprinted in China Internet Information Center, 15 November 07, 
preface.
    \100\ Li Zhuo, ``In Carrying On the Past and Moving Toward Future, 
Develop Socialist Consultative Democracy (New Knowledge, New 
Experience)'' [Zai jiwang kailai zhong fazhan shehui zhuyi xieshang 
minzhu (xinzhi xinjue)], People's Daily, 31 March 17.
    \101\ David Shambaugh, ``Let a Thousand Democracies Bloom,'' New 
York Times, 6 July 07; ``Q&A: Roles and Functions of the Chinese 
People's Political Consultative Conference,'' Xinhua, 3 March 17; China 
Digital Times, ``Q&A: Steven Balla on NGO Law & Public Consultation,'' 
4 May 16.
    \102\ Jean-Pierre Cabestan, ``The Chinese People's Political 
Consultative Conference (CPPCC): Its Role and Its Future,'' Europe 
China Research and Advice Network, Short Term Policy Brief 25, October 
2011, 2.
    \103\ Office of the UN High Commissioner for Human Rights, ``End-
of-Mission Statement on China, by Professor Philip Alston, United 
Nations Special Rapporteur on Extreme Poverty and Human Rights,'' 23 
August 16.
    \104\ ``CPPCC `Whole-Heartedly' Upholds CPC Central Committee With 
Xi as Core: Top Political Advisor,'' Xinhua, 13 March 17.
    \105\ ``Two Sessions Watch: CPPCC Emphasizes Core Consciousness, 
Stability Maintenance Intensified'' [Lianghui zhiji: zhengxie qiangdiao 
hexin yishi weiwen jibie shenggao], Voice of America, 5 March 17; Ben 
Blanchard and Philip Wen, ``Nothing To See but Comfort for Xi at 
China's Annual Parliament,'' Reuters, 15 March 17; David Bandurski, 
``Has Xi Jinping Gotten His Crown? '' University of Hong Kong, 
Journalism and Media Studies Centre, China Media Project, 19 March 17.
    \106\ Rights Defense Network, ``Election Monitor Office: Citizens 
Participate in Elections Amidst High Pressure From Stability 
Maintenance--2016 Citizen Election Participation Summary'' [Xuanju 
guancha gongzuoshi: gongmin canxuan zai weiwen gaoya zhong qianxing--
2016 gongmin canxuan zongshu], 24 January 17; Javier C. Hernandez, `` 
`We Have a Fake Election': China Disrupts Local Campaigns,'' New York 
Times, 15 November 16; ``Four Held in China's Hunan Over Bid for 
Independent Election Candidacy,'' Radio Free Asia, 20 September 16.
    \107\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) on 10 December 48, art. 
21. ``Everyone has the right to take part in the government of his 
country, directly or through freely chosen representatives . . .. The 
will of the people shall be the basis of the authority of government; 
this will shall be expressed in periodic and genuine elections which 
shall be by universal and equal suffrage and shall be held by secret 
vote or by equivalent free voting procedures.''
    \108\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \109\ Rights Defense Network, ``Election Monitor Office: Citizens 
Participate in Elections Amidst High Pressure From Stability 
Maintenance--2016 Citizen Election Participation Summary'' [Xuanju 
guancha gongzuoshi: gongmin canxuan zai weiwen gaoya zhong qianxing--
2016 gongmin canxuan zongshu], 24 January 17; Lyu Qiuping et al., 
``Xinhua Insight: China Pursues Its Own Style of Democracy in Local 
Elections,'' Xinhua, 15 November 16; Teng Xiufu, ``Quick Discussion on 
County- and Village-Level People's Congress Elections and Change of 
Sessions'' [Qiantan xian xiang liang ji renda daibiao huan jie xuanju 
zhi tongbu], China Law Information, 21 July 16.
    \110\ Rights Defense Network, ``Election Monitor Office: Citizens 
Participate in Elections Amidst High Pressure From Stability 
Maintenance--2016 Citizen Election Participation Summary'' [Xuanju 
guancha gongzuoshi: gongmin canxuan zai weiwen gaoya zhong qianxing--
2016 gongmin canxuan zongshu], 24 January 17.
    \111\ ``Four Held in China's Hunan Over Bid for Independent 
Election Candidacy,'' Radio Free Asia, 20 September 16; Rights Defense 
Network, ``Guan Guilin, Independent Candidate for Qidong County 
People's Congress in Hengyang, Hunan, Administratively Detained and 
Then Criminally Detained'' [Hunan hengyang qidong xian renda daibiao 
duli canxuan ren guan guilin bei xingzheng juliu hou you zao xingshi 
juliu], 14 October 16. For more information on Guan Guilin, see the 
Commission's Political Prisoner Database record 2016-00384.
    \112\ Rights Defense Network, ``Guan Guilin, Independent Candidate 
for Qidong County People's Congress in Hengyang, Hunan, 
Administratively Detained and Then Criminally Detained'' [Hunan 
hengyang qidong xian renda daibiao duli canxuan ren guan guilin bei 
xingzheng juliu hou you zao xingshi juliu], 14 October 16; Zhu Li, 
``Citizen Candidate for People's Congress Criminally Detained, 
Communist Party Accused of Disregarding the Law'' [Gongmin canxuan 
renda daibiao zao xingju zhonggong bei zhi bujiang falu], Vision Times, 
18 October 16.
    \113\ Rights Defense Network, ``Rights Defense Network: Monthly 
Report on Detainees Without Sentences and Forcibly Disappeared 
Individuals in Mainland China (October 31, 2016) Issue 13 (Total of 201 
People)'' [Weiquan wang: zhongguo dalu jiya wei pan ji qiangpo shizong 
renyuan yuedu baogao (2016 nian 10 yue 31 ri) di shishan qi (gong 201 
ren)], 31 October 16, sec. 1(3).
    \114\ Rights Defense Network, ``China Election Monitor (2016) 37: 
Wuhan Municipality Public Security Bureau Dongxihu District Branch 
Suspected of Illegally Detaining Three Independent Candidates (1)'' 
[Zhongguo xuanju guancha (2016) zhi sanshiqi: wuhan shi gong'anju 
dongxihu qu fenju shexian feifa juliu san wei duli houxuanren (yi)], 1 
January 17; Rights Defense Network, ``China Election Monitor (2016) 39: 
Wuhan Municipality Public Security Department Dongxihu District Bureau 
Suspected of Illegally Detaining Three Independent Candidates (3)'' 
[Zhongguo xuanju guancha (2016) zhi sanshijiu: wuhan shi gong'an ju 
dongxihu qu fenju shexian feifa juliu sanwei duli houxuan ren (san)], 
12 January 17. For more information, see the Commission's Political 
Prisoner Database records 2017-00184 on Gao Hongwei, 2017-00197 on Zeng 
Shouyun, and 2017-00198 on Jia Fuquan.
    \115\ Rights Defense Network, ``China Election Monitor (2016) 37: 
Wuhan Municipality Public Security Bureau Dongxihu District Branch 
Suspected of Illegally Detaining Three Independent Candidates (1)'' 
[Zhongguo xuanju guancha (2016) zhi sanshiqi: wuhan shi gong'anju 
dongxihu qu fenju shexian feifa juliu san wei duli houxuanren (yi)], 1 
January 17.
    \116\ ``Beijing Independent Candidate Complained at People's 
Congress but No One Helped Him, Five People Assisting Campaign in 
Shanghai Administratively Detained for `Disrupting Elections' '' 
[Beijing duli houxuanren renda tousu wuren jiedai shanghai 5 ren 
zhuxuan bei yi ``pohuai xuanju zui'' xingju], Radio Free Asia, 15 
November 16; ``Shanghai Rights Defender Feng Zhenghu Runs for People's 
Congress, Citizens Assisting Campaign Taken Away by Police'' [Shanghai 
weiquan renshi feng zhenghu canxuan renda daibiao zhuxuan minzhong zao 
jingfang daizou], Radio Free Asia, 14 November 16; Rights Defense 
Network, ``Five Shanghai Supporters of Feng Zhenghu, Xu Peiling, Zheng 
Peipei, Cui Fufang, Fan Guijuan, and Dai Zhongyao, Are Released and 
Welcomed by Many Citizens'' [Shanghai feng zhenghu 5 min bei juliu de 
zhuxuan zheyuanzhe xu peiling, zheng peipei, cui fufang, fan guijuan, 
dai zhongyao zhong gongmin yingjie], 22 November 16.
    \117\ China Digital Times, ``A Violent End to Wukan's Democratic 
Experiment,'' 21 September 16; ``Chinese Riot Police Crush Wukan's 
Democracy Experiment, Ending Headache for Xi,'' Reuters, 14 September 
16.
    \118\ ``China's Wukan Village Elects Protest Leaders To Run 
Council,'' Bloomberg, 4 March 12; ``China's Wukan Continues To Elect 
Village Leaders,'' Xinhua, 4 March 12; James Pomfret, ``China 
`Democracy' Village Chief Arrested for Graft, Riot Police Deployed,'' 
Reuters, 18 June 16.
    \119\ Luigi Tomba, ``What Does Wukan Have To Do With Democracy? '' 
Chinoiresie, 2 February 17.
    \120\ James Pomfret and Benjamin Kang Lim, ``Exclusive: Provincial 
Party Boss Ordered Crackdown on China's `Democracy Village' With Eye on 
National Power,'' Reuters, 23 September 16. See also Zhuang Liehong, 
``Open Letter to the Chinese Government and the World About the 
Suppression of Wukan,'' China Change, 23 November 16.
    \121\ Javier C. Hernandez, ``Wukan, a Chinese Village, Erupts in 
Unrest Over Activists' Arrests,'' New York Times, 13 September 16; 
``Wukan Erupted Again With Severe Conflict, Several Dozen People 
Injured by Tear Gas and Rubber Bullets'' [Wukan zaibao yanzhong chongtu 
shushi ren bei cuileidan, xiangjiao zidan suo shang], Radio Free Asia, 
13 September 16; James Pomfret, ``Chinese Villagers Describe Police 
Beatings in `Wild Crackdown' on Protest,'' Reuters, 14 September 16; 
Zhuang Liehong, ``Open Letter to the Chinese Government and the World 
About the Suppression of Wukan,'' China Change, 23 November 16.
    \122\ ``Wukan China Unrest: `A Village Under Siege' '' [Video 
file], BBC, 14 September 16, 2 min. 28 sec.; ``Reporters Detained, 
Beaten by Chinese Police in Rebel Village of Wukan,'' Radio Free Asia, 
15 September 16; Zheping Huang, ``Chinese Authorities Are Offering a 
$3,000 Bounty to Wukan Villagers Who Turn in Foreign Journalists,'' 
Quartz, 15 September 16.
    \123\ `` `Short Video' Wukan Villagers Continue Protests for 85 
Days To Support Lin Zulian, Public Security Detained 13 People in 
Middle of Night'' [``Duanpian'' wukan cunmin chixu youxing 85 ri ting 
lin zulian gong'an banye rucun ju 13 ren], Ming Pao, 12 September 16.
    \124\ Lufeng City Public Security Bureau (Ping'an lufeng), ``Wukan 
Villagers Cai Jialin, Zhang Xiangkeng, Yang Jinzhen, and Other Criminal 
Suspects Detained'' [Wukan cunmin cai jialin zhang xiangkeng yang 
jinzhen deng ren shexian fanzui bei ji'na gui'an], Weibo post, 13 
September 16, 6:03 a.m.; Zhan Yijia and Ye Qian, ``13 Villagers in 
Wukan, Guangdong Suspected of Gathering a Crowd To Disturb Public Order 
Detained by Public Security Bureau'' [Guangdong wukan 13 min cunmin yin 
shexian juzhong raoluan gonggong zhixu deng bei gong'an jiguan ji'na], 
Xinhua, 13 September 16; `` `Short Video' Wukan Villagers Continue 
Protests for 85 Days To Support Lin Zulian, Public Security Detained 13 
People in Middle of Night'' [``Duanpian'' wukan cunmin chixu youxing 85 
ri ting lin zulian gong'an banye rucun ju 13 ren], Ming Pao, 12 
September 16.
    \125\ Zheping Huang, ``Chinese Citizens Are Being Arrested for 
Sharing News About the Wukan Village Rebellion Online,'' Quartz, 16 
September 16.
    \126\ Shui Mei, ``Foreign Media Fails To Trick Wukan Villagers on 
Rumor,'' Global Times, 15 September 16; Shan Renping, ``Western Media 
Uses Wukan Vigil as Public Opinion Warfare To Stoke Unrest,'' Global 
Times, 20 September 16.
    \127\ David Bandurski, ``In Wukan, a Clean Sweep,'' University of 
Hong Kong, Journalism and Media Studies Centre, China Media Project, 22 
September 16.
    \128\ Haifeng County People's Court, ``Haifeng County People's 
Court Publicly Announces First Instance Judgment in Case Against Nine 
People Including Wei Yonghan and Zhang Bingchai, for Gathering a Crowd 
To Disturb Social Order, Illegal Assembly, Procession, or 
Demonstration, Gathering a Crowd To Disrupt Traffic, Obstructing 
Official Business, and Intentionally Disseminating False Information, 
Haifeng First Instance Judgment Announced'' [Haifeng xian renmin fayuan 
yishen gongkai xuanpan wei yonghan, zhang bingchai deng 9 ren juzhong 
raoluan shehui zhixu, feifa jihui, youxing, shiwei, juzhong raoluan 
jiaotong zhixu, fanghai gongwu, guyi chuanbo xujia xinxi an haifeng 
yishen xuanpan], 26 December 16; Zhuang Liehong, ``How Nine Wukan 
Villagers Were Illegally Tried and Sentenced in December, 2016,'' China 
Change, 5 January 17.
    \129\ Ibid. See also ``Corruption and Weak Property Protections 
Fuel Protests in Rural China: The Case of Wukan Village,'' 
Congressional-Executive Commission on China, 31 May 17.
    \130\ For more information on Wei Yonghan, see the Commission's 
Political Prisoner Database record 2017-00104.
    \131\ For more information on Hong Yongzhong, see the Commission's 
Political Prisoner Database record 2017-00100.
    \132\ For more information on Yang Jinzhen, see the Commission's 
Political Prisoner Database record 2017-00107.
    \133\ For more information on Wu Fang, see the Commission's 
Political Prisoner Database record 2017-00101.
    \134\ For more information on Cai Jialin, see the Commission's 
Political Prisoner Database record 2017-00102.
    \135\ For more information on Zhuang Songkun, see the Commission's 
Political Prisoner Database record 2016-00463.
    \136\ For more information on Li Chulu, see the Commission's 
Political Prisoner Database record 2017-00103.
    \137\ For more information on Chen Suzhuan, see the Commission's 
Political Prisoner Database record 2017-00105.
    \138\ For more information on Zhang Bingchai, see the Commission's 
Political Prisoner Database record 2017-00106.
    \139\ ``Wukan Activist's Mother Interrogated, Intimidated After 
Incognito Visit,'' Radio Free Asia, 20 March 17.
    \140\ ``Guangdong Wukan Rights Defense Leader Zhuang Liehong and 
His Wife and Child's Household Registration Canceled'' [Guangdong wukan 
weiquan lingxiu zhuang liehong yi jia san kou huji bei zhuxiao], Radio 
Free Asia, 12 August 17.
    \141\ State Council Legislative Affairs Office, Circular on 
Soliciting Comments on the ``PRC Open Government Information 
Regulations (Revised Draft for Solicitation of Comments)'' [``Zhonghua 
renmin gongheguo zhengfu xinxi gongkai tiaoli (xiuding cao'an zhengqiu 
yijian gao)'' zhengqiu yijian de tongzhi], 6 June 17; State Council 
Legislative Affairs Office, Open Government Information Regulations 
(Revised Draft for Solicitation of Comments) [Zhonghua renmin gongheguo 
zhengfu xinxi gongkai tiaoli (xiuding cao'an zhengqiu yijian gao)], 
reprinted in Renmin University of China Law School, Research Centre for 
Constitutional and Administrative Law, Calaw.cn Net, 7 June 17.
    \142\ Ibid.; Ibid., arts. 14-17.
    \143\ Ibid.; Ibid., art. 14(3).
    \144\ State Council Legislative Affairs Office, Open Government 
Information Regulations (Revised Draft for Solicitation of Comments) 
[Zhonghua renmin gongheguo zhengfu xinxi gongkai tiaoli (xiuding cao'an 
zhengqiu yijian gao)], reprinted in Renmin University of China Law 
School, Research Centre for Constitutional and Administrative Law, 
Calaw.cn Net, 7 June 17, arts. 7-8, 19-21, 22-24. See also ``Open 
Government Information Regulations: Current Reform Draft Comparison,'' 
China Law Translate (blog), 7 June 17.
    \145\ Jamie P. Horsley, ``Will Engaging China Promote Good 
Governance? '' Brookings Institution, John L. Thornton China Center, 
Strategy Paper 2, January 2017, 5-6.
    \146\ Li Yukun, ``Political Commentary: What's the Level of 
Openness for Government Affairs Among County-Level Governments? CASS 
Released Report Finding 70 Percent Scored Under 60 Points'' [Zhengjie: 
xianji zhengfu zhengwu gongkai shuiping ruhe? zhongguo sheke yuan fabu 
baogao cheng qi cheng budao 60 fen], Beijing News, 20 March 17.
    \147\ Ibid.
    \148\ See, e.g., Rights Defense Network, ``Rights Defense 
Petitioner From Rushan City, Weihai, Shandong, Li Hongsheng, Sentenced 
to 3 Years and 9 Months at Second-Instance Trial'' [Shandong weihai 
rushan shi weiquan fangmin li hongsheng ershen bei pan 3 nian 9 ge yu], 
9 November 16; ``14 Beijing Petitioners Sue District Government, Court 
Uses Approach of Having `Chats' To Avoid Going to Trial'' [Beijing 
shisi fangmin qisu qu zhengfu fayuan yi ``tanhua'' fangshi weigui 
kaiting], Aboluo Net, 14 June 17.
    \149\ See, e.g., Human Rights Campaign in China, ``Shenzhen 
Crackdown: Shenzhen Municipal Public Security Bureau Classifies Li 
Jianpeng Case as Endangering State Security, Refuses To Permit Meeting 
With Lawyer [Because Meeting] May Obstruct Investigation or Leak State 
Secrets'' [Shenzhen da zhuabu, shenzhen shi gong'an ju yi li jiangpeng 
anjian shu weihai guojia anquan fanzui anjian huijian you'ai zhencha 
huozhe keneng xielou guojia mimi jujue lushi huijian], 27 May 17.
    \150\ See, e.g., Rights Defense Network, ``Gangzha Government 
Refuses To Provide Open Government Information on Black Jails, Zhang 
Hua of Nantong Will Apply for Administrative Reconsideration'' [Gangzha 
zhengfu bu gongkai hei jianyu xinxi, nantong zhang hua jiang shenqing 
xingzheng fuyi], 18 May 17.

                                                Commercial Rule 
                                                         of Law
                                                Commercial Rule 
                                                of Law

                         Commercial Rule of Law


                              Introduction

    December 11, 2016, marked 15 years since China acceded to 
the World Trade Organization (WTO).\1\ The Chinese government 
and Communist Party are bound by commitments detailed in the 
WTO agreements and China's accession documents.\2\ The 
Commission found during its 2017 reporting year that the 
government and Party continued to fail to comply with key WTO 
commitments, including to ensure equal treatment for foreign 
enterprises; \3\ to practice a market economy; \4\ and to 
enforce the rule of law with impartiality, transparency, and 
uniformity.\5\ Instead, the Chinese government continued to 
promote preferential treatment for domestic industry,\6\ compel 
technology transfer,\7\ and provide significant financial and 
political support to outbound investment,\8\ creating an uneven 
playing field and altering market prices both domestically and 
globally.\9\ Additionally, Chinese officials continued to 
enforce commercial regulations inconsistently, arbitrarily, and 
non-transparently, making it difficult for foreign enterprises 
to compete or enjoy open access in the Chinese market.\10\ 
Chinese authorities have promoted economic reform in policy 
documents and official speeches,\11\ yet actual progress toward 
reform reportedly remains limited.\12\ The Chinese government's 
implementation of its WTO commitments is a measure of the 
overall development of rule of law in China and of the Chinese 
government's willingness to comply with its international 
commitments.\13\

          Evaluation of China's Commitment to Equal Treatment

    When it joined the WTO, China committed to ensure non-
discrimination against foreign enterprises with respect to the 
procurement of goods, services, and enforcement of intellectual 
property rights.\14\ Despite official rhetoric claiming 
openness,\15\ Chinese officials continued to promote 
discriminatory policies that reportedly perpetuated an uneven 
playing field for foreign enterprises.\16\ Moreover, many 
reports note that private enterprises have opaque ties to the 
government and Party, giving these companies an unfair 
advantage in Chinese markets and in courts.\17\ Summarizing the 
current adverse climate for foreign businesses competing in 
China, the Office of the U.S. Trade Representative (USTR) 
reported in March 2017 that ``China continued to pursue a wide 
array of industrial policies in 2016 that seek to limit market 
access for imported goods, foreign manufacturers and foreign 
service suppliers, while offering substantial government 
guidance, resources and regulatory support to Chinese 
industries.'' \18\ While President and Party General Secretary 
Xi Jinping stated in January 2017 that ``China will keep its 
door wide open and not close it,'' \19\ the American Chamber of 
Commerce in China (AmCham) reported in a January 2017 survey 
that 81 percent of foreign companies felt ``less welcome in 
China than before'' in 2016, an increase from 77 percent the 
previous year.\20\

                          INDUSTRIAL POLICIES

    During this reporting year, the Chinese government 
continued to promote industrial policies that reportedly 
disadvantage foreign enterprises and distort global 
markets.\21\ For example, authorities continued to implement 
``Made in China 2025,'' a plan released by the State Council in 
May 2015,\22\ which is reportedly a US$300 billion plan with 
the goal of becoming self-sufficient in 40 percent of core 
components and key basic materials by 2020, and 70 percent by 
2025.\23\ Chinese authorities' de facto technology transfer 
requirements for foreign companies that want to be involved in 
``Made in China 2025'' and the Chinese government's promotion 
of indigenous innovation raise national treatment and other 
concerns, according to recent reports by representatives of the 
U.S. and European business communities.\24\

                          INTERNET CENSORSHIP

    The Chinese government's strict control over the Internet 
continued to serve as an indirect form of preferential 
treatment for domestic enterprises, as consumers' access to 
global websites remained obstructed. In March 2017, USTR 
identified Internet censorship in China as a barrier to trade 
for a second year, noting that Chinese authorities blocked ``11 
of the top 25 global sites'' and highlighting U.S. industry 
research that found that ``up to 3,000 sites in total are 
blocked.'' \25\ The March 2017 USTR report also stressed that 
even external sites that are not blocked must pass through the 
filters of China's ``Great Firewall,'' in some cases slowing 
sites down so much as to ``significantly degrade the quality of 
the service, in some cases to a commercially unacceptable 
level, thereby inhibiting or precluding the cross-border supply 
of certain services.'' \26\ In October 2016, a U.S. computer 
industry association reported that the blocking of U.S. 
services in China, including Google, Facebook, Twitter, 
Dropbox, and LinkedIn, had resulted in the loss of billions of 
dollars in revenue for U.S. companies, while China-based 
Internet firms had an ``unfair commercial advantage'' as they 
were not blocked in China or the United States.\27\ AmCham's 
2017 China Business Climate Survey Report, published in January 
2017, found that 87 percent of surveyed companies reported that 
Internet censorship negatively affected their ``company's 
competitiveness and operations in China,'' \28\ and a July 2017 
report by AmCham Shanghai found that for small- and medium-
sized member companies surveyed, ``improved [I]nternet access'' 
was their main reform priority.\29\ Moreover, the Chinese 
government's arbitrary and non-transparent blocking of websites 
may violate its WTO commitment to follow the rule of law, 
according to a computer industry association.\30\ In January 
2017, USTR reported that it had continued outreach to the 
Chinese government to discuss its ``arbitrary blocking of 
commercial websites.'' \31\ In July 2017, the Chinese 
government reportedly requested that Apple and a Chinese 
partner of Amazon take actions to limit Internet users in China 
from downloading or using virtual private networks (VPNs) to 
access websites censored by Chinese authorities.\32\ 
AmCham,\33\ the European Chamber of Commerce in China,\34\ and 
a representative of the Hong Kong Information Technology 
Federation,\35\ expressed concerns that the restrictions on 
VPNs will negatively affect business users.

                             CYBERSECURITY

    The Chinese government took regulatory steps this past year 
to strengthen cybersecurity, but foreign business leaders 
warned that some of these steps could disadvantage foreign 
firms. In November 2016, the National People's Congress passed 
the PRC Cybersecurity Law, which took effect on June 1, 
2017.\36\ In April 2017, the Cyberspace Administration of China 
(CAC) released draft implementing measures for the data 
localization requirements of the PRC Cybersecurity Law,\37\ 
mandating that Chinese authorities conduct a security review of 
certain types of data before companies can transmit the data 
out of China.\38\ AmCham raised concerns that these new 
measures on data localization would ``discourage foreign 
investment by unnecessarily imposing prohibitively complex or 
expensive requirements'' in order to store their data in 
China.\39\ In May 2017, 54 business groups sent a letter to the 
CAC expressing concerns regarding provisions in the draft 
measures, writing that the draft measures suggest ``China is 
continuing to move away from its bilateral commitments, 
international obligations, and global norms.'' \40\ The CAC 
subsequently informed business groups that enforcement of 
certain implementing measures of the PRC Cybersecurity Law 
would be postponed until December 31, 2018.\41\

                    FOREIGN INVESTMENT RESTRICTIONS

    The Chinese government continued to limit foreign 
investment in China, and although the government took 
regulatory steps to reduce investment restrictions this past 
year, the impact of these changes remained unclear. A May 2017 
report by a research firm and non-profit organization found 
that the Chinese government's restrictions on foreign 
investment reportedly contributed to an imbalance of 
acquisitions, with acquisitions by U.S. companies in China at 
their lowest level since 2009.\42\ In January 2017, the State 
Council released the Circular Regarding Several Measures on 
Expanding Further Openness and Active Utilization of Foreign 
Investment, with the stated aim of increasing foreign 
investment in China.\43\ In June 2017, the National Development 
and Reform Commission and the Ministry of Commerce jointly 
released a revised Foreign Investment Industrial Guidance 
Catalogue (2017 Catalogue).\44\ The 2017 Catalogue reduced the 
number of categories for which foreign investment is limited 
from 93 to 63; \45\ however, foreign investment in media-
related entities continues to be ``prohibited.'' \46\ In July 
2017, the European Union Chamber of Commerce in China issued a 
press release that criticized ``[t]he continued use of such a 
discriminatory catalogue'' that maintained the ``fundamental 
distinction'' between ``domestically-invested and foreign-
invested enterprises with respect to market entry and approval 
requirements.'' \47\
    During this reporting year, AmCham identified negotiation 
of a U.S.-China Bilateral Investment Treaty as a priority for 
alleviating restrictions on foreign investment.\48\ 
International experts have noted that human rights concerns are 
becoming increasingly important in the drafting and enforcement 
of bilateral investment treaties.\49\

     Evaluation of China's Commitment To Practice a Market Economy

    While the Chinese government committed under WTO agreements 
to generally ``allow prices for traded goods and services in 
every sector to be determined by market forces,'' \50\ it 
continues to distort domestic and global prices with its 
practice of providing what the Office of the U.S. Trade 
Representative (USTR) describes as ``substantial subsidies'' to 
domestic industries,\51\ and with its non-commercial operation 
of state-owned enterprises.\52\

                      CHINESE GOVERNMENT SUBSIDIES

    Chinese authorities continued to provide substantial 
subsidies to domestic industries including steel and aluminum, 
resulting in overcapacity in China and distorted global 
markets.\53\ According to USTR, for example, despite declining 
demand and no comparative advantages in energy and raw material 
inputs for steel making, China's steel capacity continued to 
grow.\54\ Some international experts point to government 
subsidies as a key cause of overcapacity in the steel and 
aluminum sectors.\55\ This overcapacity has led to excess 
global supply, distorting global market prices.\56\ The Chinese 
government has previously claimed it would allow ``market 
forces to play a central role'' in allocating resources and 
reducing overcapacity,\57\ yet output in many areas has 
reportedly continued to increase.\58\ A report commissioned by 
an international environmental advocacy group found that 
China's steel capacity increased as many of the steel factories 
the Chinese government claimed it shut down as part of efforts 
to reduce overcapacity had already been closed or were already 
idle.\59\
    This past year, the U.S. Government filed WTO disputes 
against the Chinese government regarding its use of subsidies 
to boost domestic production. In September 2016, the U.S. 
Government filed a dispute over Chinese subsidies for wheat, 
rice, and corn producers.\60\ In January 2017, the U.S. 
Government filed a WTO dispute regarding Chinese subsidies to 
the aluminum sector.\61\ In April 2017, the U.S. Government 
requested that the Chinese government notify the WTO about 80 
government measures that provided subsidies to Chinese 
companies.\62\ The U.S. Government's 584-page request included 
translations of each of the measures,\63\ as the Chinese 
government had failed to provide translations themselves, 
despite committing to provide translations of all its trade 
laws, regulations, and other measures.\64\ The request noted 
that these subsidies were part of a program that appeared to be 
a ``successor'' to China's Famous Brands Program, which the 
U.S. Government successfully challenged in a WTO dispute filed 
in 2008.\65\ In addition to not providing translations, the 
Chinese government has not fully complied with its WTO 
obligations to publish all trade-related laws, regulations, and 
other measures, making WTO disputes more challenging.\66\

------------------------------------------------------------------------
             State-Owned Enterprises and the Communist Party
-------------------------------------------------------------------------
  State-owned enterprises (SOEs) continue to play a key role in the
 Chinese economy.\67\ According to 2016 statistics, the National Bureau
 of Statistics of China reported that there were 133,631 SOEs \68\ and
 291,263 state-holding companies operating in China.\69\ Observers note
 that SOEs tend to be less productive than private companies,\70\ yet
 Chinese government statistics showed that the number of industrial
 sector state-holding companies increased yearly from 2011 to 2015.\71\
 According to an April 2017 International Monetary Fund (IMF)
 publication, SOEs accounted for over 50 percent of bank credit in China
 and around 60 percent of corporate debt in China.\72\ The provision of
 loans from state-owned banks to SOEs on a non-commercial basis serves
 as a major form of government subsidy in China,\73\ and according to
 the IMF distorts the ``allocation of resources'' and promotes
 ``inefficiency.'' \74\
  The Chinese Communist Party played an increasingly important role in
 SOEs \75\ and reportedly increased its influence over other types of
 corporate entities in China as well.\76\ While Chinese officials
 maintain that SOEs are ``entitled to make independent business
 operation decisions,'' \77\ in October 2016, President and Party
 General Secretary Xi Jinping stressed Party leadership is the ``root''
 and ``soul'' of SOEs.\78\ In June 2017, the director of the State-Owned
 Assets Supervision and Administration Commission of the State Council
 reported that SOEs employed over 40 million workers, more than 10
 million of whom were Party members.\79\ Experts note that the Party
 asserts a leadership role in corporate decisionmaking for SOEs.\80\
 According to an August 2017 Wall Street Journal analysis, since 2016,
 at least 32 Hong Kong-listed SOEs have proposed amendments to their
 articles of association to explicitly give Party committees the
 authority to advise corporate boards; \81\ these companies have a
 combined market capitalization of approximately $1.2 trillion USD,
 totaling nearly one-third of the total value of stocks listed in Hong
 Kong.\82\ Private companies are also subject to Party control and
 influence,\83\ with 1.6 million non-public companies having internal
 Party groups, according to Party Central Committee statistics.\84\
------------------------------------------------------------------------

            Evaluation of China's Commitment to Rule of Law

    Despite the Chinese government's WTO commitments to ``apply 
and administer in a uniform, impartial and reasonable manner 
all its laws, regulations and other measures,'' \85\ Chinese 
officials continued to enforce laws and regulations, including 
in the commercial sphere, in an arbitrary and non-transparent 
manner.\86\ The American Chamber of Commerce in China's 
(AmCham) 2017 American Business in China White Paper found that 
``inconsistent regulatory interpretation and unclear laws 
[were] the top business challenge . . . for the second year in 
a row.'' \87\

    WEAK INTELLECTUAL PROPERTY RIGHTS PROTECTION AND LIMITED REFORMS

    This past year, the Chinese government continued to provide 
ineffective protection for intellectual property rights. For 
example, in April 2017, the USTR again placed China on its 
priority watch list in its 2017 Special 301 Report, due to 
concerns including ``widespread infringing activity'' as well 
as problematic ``[s]tructural impediments to civil and criminal 
enforcement.'' \88\ In 2016, 88 percent of counterfeit imports 
seized by the U.S. Department of Homeland Security reportedly 
were from China (52 percent) and Hong Kong (36 percent).\89\ In 
December 2016, the USTR re-listed Taobao, a subsidiary of the 
Alibaba Group and the largest online shopping website in China 
by merchandise volume, as a ``notorious market'' due to ``the 
large volume of allegedly counterfeit and pirated goods 
available and the challenges rights holders experience in 
removing and preventing illicit sales.'' \90\ In December 2016, 
the National People's Congress issued a draft PRC E-Commerce 
Law for public comment that, according to AmCham, may make it 
more difficult for trademark owners to obtain the removal of 
online listings for goods with infringing trademarks on e-
commerce platforms.\91\
    During this reporting year, the Chinese government also 
took actions that, according to some legal experts, could 
strengthen intellectual property protection. In December 2016, 
the China Trademark Office revised the Trademark Review and 
Examination Standards,\92\ and in January 2017, the Supreme 
People's Court (SPC) issued provisions on administrative 
trademark litigation.\93\ Some legal experts noted that the 
revised standards and SPC provisions could provide greater 
protection in China against bad faith trademark filings.\94\ 
The SPC, in a case decided in December 2016 prior to its 
issuance of the provisions, ruled partially in Michael Jordan's 
favor in a series of administrative trademark disputes over a 
Chinese company's use of the American basketball star's name in 
China.\95\

                DUE PROCESS CONCERNS FOR BUSINESSPEOPLE

    Despite official reports of progress in judicial 
transparency,\96\ certain cases involving Chinese and foreign 
businesspeople detained or investigated this past year 
highlighted ongoing transparency and due process concerns. The 
Bureau of Consular Affairs of the U.S. Department of State's 
country information for China notes that ``[t]he Chinese legal 
system can be opaque and the interpretation and enforcement of 
local laws arbitrary. The judiciary does not enjoy independence 
from political influence.'' \97\

------------------------------------------------------------------------
                Arbitrary Detention of Sandy Phan-Gillis
-------------------------------------------------------------------------
  On April 25, 2017, the Nanning Intermediate People's Court in Nanning
 municipality, Guangxi Zhuang Autonomous Region, reportedly sentenced
 American businessperson Sandy Phan-Gillis to three years and six
 months' imprisonment on the charge of espionage in a closed trial.\98\
 On April 29, Chinese authorities deported Phan-Gillis to the United
 States.\99\ In March 2015, Chinese state security agents had detained
 Phan-Gillis as she traveled from Zhuhai municipality, Guangdong
 province, to Macau.\100\ In June 2016, the UN Working Group on
 Arbitrary Detention found that Chinese authorities had arbitrarily
 detained Phan-Gillis.\101\ At a Commission hearing, Jeff Gillis, Phan-
 Gillis's husband, asserted that Chinese authorities tortured his wife
 and denied her ``many of the rights she is entitled to under Chinese
 and international law.'' \102\ Gillis noted that ``Sandy was not
 allowed to speak with her lawyer for well over a year. She was not
 charged with a crime for well over a year. For about the first year and
 a half, her monthly 30-minute visits with the U.S. Consul were
 supervised by agents of China State Security, the very people who
 tortured her.'' \103\
------------------------------------------------------------------------

    The cases of three prominent executives of Chinese firms, 
Xiao Jianhua, Guo Wengui, and Wu Xiaohui, highlighted the risk 
that businesspeople face when suspected of corruption or when 
dealing closely with corrupt officials.\104\ In January 2017, 
unidentified security personnel reportedly abducted Xiao, a 
Canadian citizen, from a hotel in Hong Kong and detained him at 
an unknown location believed to be in mainland China.\105\ In 
April 2017, after Guo alleged corruption involving family 
members of Chinese government officials,\106\ Interpol 
reportedly issued a ``red notice'' at the request of the 
Chinese government seeking Guo's provisional arrest and 
extradition.\107\ In June 2017, Chinese authorities reportedly 
detained Wu Xiaohui, the chairman of Anbang Insurance, on 
undisclosed grounds.\108\ The Hong Kong-based newspaper South 
China Morning Post described ``Wu's Anbang'' as ``one of the 
most powerful and well-connected players on the domestic and 
overseas capital markets.'' \109\ In 2014, Anbang purchased the 
Waldorf Astoria hotel in New York for US$1.95 billion.\110\ 
[For more information on the Party and government's 
anticorruption efforts, see Section III--Institutions of 
Democratic Governance.]

                       FOREIGN EXCHANGE CONTROLS

    Although in previous years the Chinese government 
intervened to devalue the yuan and thereby unfairly promote 
Chinese exports, recent government interventions had the goal 
of preventing a rapid depreciation of the yuan, according to an 
April 2017 report by the U.S. Department of the Treasury.\111\ 
The report notes that the Chinese government needs to 
demonstrate that its lack of intervention to devalue the yuan 
``over the last three years represents a durable policy shift . 
. ..'' \112\ The U.S. Department of the Treasury and the 
American Chamber of Commerce in China expressed continuing 
concerns regarding transparency of foreign exchange 
interventions and capital control regulations.\113\

             UNEVEN ENFORCEMENT OF FOOD SAFETY REGULATIONS

    Chinese officials continued to emphasize the importance of 
food safety this past year, as several food safety concerns 
came to light and exposed ongoing regulatory challenges. In 
March 2017, Premier Li Keqiang described the effort to 
strengthen food safety regulation as requiring ``the utmost 
rigor.'' \114\ According to analysis published by the Paulson 
Institute in April 2017, however, ``microbiological hazards 
remain unchecked, supply chain management is weak, and policies 
are uncoordinated across disparate levels of the government.'' 
\115\ According to the China Food and Drug Administration, in 
2016, authorities punished violators of food safety regulations 
in 181,000 cases.\116\ Chinese and international media reported 
on a number of food safety scandals in China, including those 
affecting soy sauce \117\ and milk powder.\118\ In describing a 
scandal in Tianjin municipality involving counterfeit soy sauce 
made with industrial salt and unsafe tap water that was ``unfit 
for human consumption,'' a Renmin University professor said 
``the fact that these small food processors were able to churn 
out fake products worth hundreds of million [sic] of yuan 
undetected for years shows what little local authorities have 
done to weed out the problem of poor-quality food'' and that it 
``underscores how weak law enforcement is in fighting food 
safety violations.'' \119\ In October 2016, new food safety 
measures took effect, requiring online platforms to establish a 
system for examining vendor credentials and product 
quality.\120\ According to an American law firm's analysis, the 
new measures may make it easier for companies to determine the 
source and stop the sale of counterfeit food products by 
imposing liability and disclosure requirements on online 
platforms.\121\
    The American Chamber of Commerce in China noted that the 
existence of ``complex compliance concerns'' due to the 
``opaque nature of Party influence on government and weak 
regulatory transparency'' \122\ and ``inconsistency in [the 
government's] interpretation of policies, laws, and 
regulations, and in standards for law enforcement'' created 
difficulties for food companies operating in China.\123\ For 
example, in October 2016, the Jiading District Market 
Supervision and Management Bureau in Shanghai municipality 
reportedly revoked the food production license and issued an 
additional 24 million yuan (US$3.55 million) in fines to 
Shanghai Husi and its U.S. parent company, OSI Group, for a 
July 2014 food safety incident.\124\ In 2016, OSI Group had 
criticized the judgment in the related criminal case as 
``inconsistent with the facts and evidence,'' claiming 
authorities had recognized that the case was ``never'' about 
food safety, but was influenced by accusations made in 
misleading media reports.\125\
    The U.S. and Chinese governments' trade negotiations during 
this reporting year included a focus on food safety in the beef 
and poultry trade.\126\ In June 2017, the Chinese government 
permitted the import of American beef into China for the first 
time since 2003, when imports were stopped due to concerns over 
mad cow disease in the United States.\127\ In June 2017, the 
Food Safety and Inspection Service of the U.S. Department of 
Agriculture (USDA) published a proposed rule to permit the 
import of ``poultry products from birds slaughtered in 
[China]'' based on a determination that China's ``poultry 
slaughter inspection system is equivalent'' to that in the 
United States.\128\ A U.S. non-profit organization recommended 
that USDA withdraw the proposed rule because ``China's food 
safety system is simply too weak to ensure that poultry exports 
are safe to eat.'' \129\

          Outbound Investment and Regional Trade Partnerships

    During this reporting year, the Chinese government 
continued to provide significant financial incentives to 
promote outbound investment, raising concerns that the Chinese 
government's lack of transparency in commercial dealings and 
its preferential treatment of state-owned enterprises (SOEs) 
may have an even greater impact on foreign markets than it has 
to date. In May 2017, a total of 29 foreign heads of state or 
government \130\ and representatives from over 130 countries 
\131\ gathered in Beijing municipality at the first global 
forum on the Chinese government's Belt and Road (B&R) 
Initiative.\132\ The initiative consists of a ``belt'' on land 
from China to Europe, as well as a ``road'' of shipping routes 
from China through Southeast Asia to India and Europe, and the 
Chinese government envisions global ``participation.'' \133\ 
Several European Union member countries raised concerns about 
transparency shortcomings and a lack of social and 
environmental safeguards \134\ in the joint communique issued 
after the forum.\135\ SOEs have played a leading role in B&R 
infrastructure projects; \136\ since the announcement of B&R in 
2013, 47 central SOEs have participated in 1,676 B&R 
infrastructure projects.\137\ For example, the SOE China 
Communications Construction announced US$12.6 billion in new 
projects in 2016, a reported 10 percent of total new B&R 
projects announced.\138\ Two American researchers described the 
B&R Initiative as ``a game-changing plan to bring about the 
next stage of globalization,'' noting that Chinese authorities 
plan for approximately US$1 trillion in concessionary loans for 
infrastructure projects through state-owned policy banks.\139\
    During this reporting year, the Chinese government played a 
key role in multilateral financial institutions. For example, 
the China-led Asian Infrastructure and Investment Bank (AIIB) 
played a significant role in international financing, 
reportedly approving over US$1.7 billion in loans in 2016.\140\ 
The AIIB also co-financed projects with other multilateral 
banks, including the World Bank \141\ and the Asian Development 
Bank (ADB).\142\ A U.S. human rights organization noted that in 
projects co-financed by the AIIB and the World Bank, ADB, or 
other multilateral financial institutions, ``the social and 
environmental standards or safeguard policies of those 
institutions are likely to apply.'' \143\

                                                Commercial Rule 
                                                         of Law
                                                Commercial Rule 
                                                of Law
    Notes to Section III--Commercial Rule of Law

    \1\ China became a member of the World Trade Organization (WTO) on 
December 11, 2001. A list of members and their dates of membership is 
available on the WTO website. World Trade Organization, ``Protocols of 
Accession for New Members Since 1995, Including Commitments in Goods 
and Services,'' last visited 5 June 17.
    \2\ Information on China's participation in the World Trade 
Organization (WTO), including principal accession documents, schedules, 
trade policy reviews, and dispute case documents, can be found on the 
WTO website. China's commitments are detailed in these documents, as 
well as in WTO agreements applicable to all members, including the 
General Agreement on Tariffs and Trade and the Trade-Related Aspects of 
Intellectual Property Rights. World Trade Organization, ``WTO Legal 
Texts,'' last visited 5 June 17. See also U.S. Government 
Accountability Office (GAO), ``World Trade Organization: Analysis of 
China's Commitments to Other Members,'' October 2002, 12-13. The GAO 
analysis found that China had made 685 WTO commitments, including 77 
transparency-related commitments, 57 commitments related to laws and 
regulations, and 67 nondiscrimination-related commitments.
    \3\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 3. See 
also China's Compliance With WTO Commitments, Hearing of the U.S. Trade 
Representative Office, 5 October 16, Written Testimony of the US-China 
Business Council, Submitted on September 21, 2016, in Response to the 
Office of the U.S. Trade Representative's Request for Comments and 
Notice of Public Hearing Concerning China's Compliance With WTO 
Commitments, Federal Register, Vol. 81, No. 158 (16 August 16), 54646-
47.
    \4\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 9(1). See 
also Julia Ya Qin, ``The Challenge of Interpreting `WTO-Plus' 
Provisions,'' Wayne State University Law School, Legal Studies Research 
Paper Series, No. 09-18, 2 July 09, 4-5.
    \5\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)2, 
2(C)1, 2(D)1; U.S. Government Accountability Office, ``World Trade 
Organization: Analysis of China's Commitments to Other Members,'' 
October 2002, 31.
    \6\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 11-14; U.S. Chamber 
of Commerce, ``Made in China 2025: Global Ambitions Built on Local 
Protections,'' 2017, 6-8; China's Compliance With WTO Commitments, 
Hearing of the U.S. Trade Representative Office, 5 October 16, Written 
Testimony of the US-China Business Council, Submitted on September 21, 
2016, in Response to the Office of the U.S. Trade Representative's 
Request for Comments and Notice of Public Hearing Concerning China's 
Compliance With WTO Commitments, Federal Register, Vol. 81, No. 158 (16 
August 16), 54646-47.
    \7\ Wilbur Ross, ``American Genius Is Under Attack From China,'' 
Financial Times, 14 August 17; Nigel Cory, Information Technology & 
Innovation Foundation, ``RE: Comments in Response to Executive Order 
Regarding Trade Agreements Violations and Abuses.,'' 31 July 17, 10; 
Office of the Press Secretary, The White House, ``Presidential 
Memorandum for the United States Trade Representative,'' 14 August 17.
    \8\ ``President Xi's Speech at Opening of the `Belt and Road' 
International Cooperation Forum'' [Xi jinping zai ``yidai yilu'' guoji 
hezuo gaofeng luntan kaimushi shang de yanjiang], Xinhua, 14 May 17; 
``Full Text of President Xi's Speech at Opening of Belt and Road 
Forum,'' Xinhua, 14 May 17. At the opening of the Belt and Road forum, 
Xi pledged that China would contribute an additional 100 billion yuan 
(US$14.5 billion) to the Silk Road Fund, as well as additional funding 
by the China Development Bank and the Export-Import Bank of China. See 
also Nadege Rolland, China's Eurasian Century? Political and Strategic 
Implications of the Belt and Road Initiative (Seattle: National Bureau 
of Asian Research, 2017), 101-4; Tom Hancock, ``China Encircles the 
World With One Belt, One Road Strategy,'' Financial Times, 3 May 17; 
Li-Wen Lin, ``A Network Anatomy of Chinese State-Owned Enterprises,'' 
European University Institute, Robert Schuman Centre for Advanced 
Studies, February 2017, 8; Greg Levesque, ``China's Evolving Economic 
Statecraft,'' The Diplomat, 12 April 17.
    \9\ U.S. Chamber of Commerce, ``Made in China 2025: Global 
Ambitions Built on Local Protections,'' 2017, 6-8, 11, 40; Robert D. 
Atkinson et al., Information Technology & Innovation Foundation, 
``Stopping China's Mercantilism: A Doctrine of Constructive, Alliance-
Backed Confrontation,'' 16 March 17, 1-3; Office of the U.S. Trade 
Representative, ``2016 Report to Congress on China's WTO Compliance,'' 
January 2017, 36.
    \10\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 4, 
10, 12, 38, 46, 48, 82, 98. Based on a survey of American Chamber of 
Commerce in China (AmCham) members, AmCham found that for the second 
consecutive year ``inconsistent regulatory interpretation and unclear 
laws'' was the top business challenge.
    \11\ Chinese Communist Party Central Committee, Decision on Certain 
Major Issues Regarding Comprehensively Deepening Reforms [Zhonggong 
zhongyang guanyu quanmian shenhua gaige ruogan zhongda wenti de 
jueding], issued 12 November 13, sec. 1(2); State Council, Circular 
Regarding Certain Measures on Expanding Further Openness and Active 
Utilization of Foreign Investment [Guowuyuan guanyu kuoda duiwai 
kaifang jiji liyong waizi ruogan cuoshi de tongzhi], issued 17 January 
17; ``President Xi's Speech to Davos in Full,'' World Economic Forum, 
17 January 17; ``President Xi Jinping's Keynote Speech at the Opening 
of the Annual World Economic Forum in 2017'' [Xi jinping zhuxi zai 
shijie jingji luntan 2017 nian nianhui kaimu shi shang de zhuzhi 
yanjiang], Xinhua, 18 January 17; State Council, ``Report on the Work 
of the Government,'' 16 March 17; State Council, ``Government Work 
Report'' [Zhengfu gongzuo baogao], 16 March 17.
    \12\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 2; American Chamber 
of Commerce in China, ``2017 American Business in China White Paper,'' 
April 2017, 4; European Union Chamber of Commerce in China and Roland 
Berger, ``European Business in China: Business Confidence Survey 
2017,'' May 2017, 39.
    \13\ See, e.g., The Broken Promises of China's WTO Accession: 
Reprioritizing Human Rights, Hearing of the Congressional-Executive 
Commission on China, 1 March 17, Written Statement Submitted by Michael 
R. Wessel, President, The Wessel Group, Commissioner, U.S.-China 
Economic and Security Review Commission; Office of the U.S. Trade 
Representative, ``2016 Report to Congress on China's WTO Compliance,'' 
January 2017, 4-5; World Trade Organization, Trade Policy Review Body, 
Trade Policy Review, China, Minutes of the Meeting, WT/TPR/M/342, 26 
September 16, 33-34. See also WTO: Will China Keep Its Promises? Can 
It? Hearing of the Congressional-Executive Commission on China, 6 June 
02, Written Statement Submitted by Susan S. Westin, Managing Director, 
International Affairs and Trade, U.S. General Accounting Office, 3-4.
    \14\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)(2), 
3.
    \15\ ``Li Keqiang Speech With Foreign Delegates at 2017 China 
Annual Development Forum'' [Li keqiang huijian chuxi zhongguo fazhan 
gaoceng luntan 2017 nian nianhui de jingwai daibiao bing zuotan], 
Xinhua, 20 March 17; ``China's Door Opens Wider to Outside World: 
Premier,'' Xinhua, 21 March 17; World Trade Organization, Trade Policy 
Review Body, Trade Policy Review, China, Minutes of the Meeting, 
Addendum, WT/TPR/M/342, 28 October 16, 208-9, 377; World Economic 
Forum, ``President Xi's Speech to Davos in Full,'' 17 January 17; Ma 
Si, ``Regulator Says Made in China 2025 Is Fair,'' China Daily, 13 
March 17; ``China Internet Regulator Says Cyber Security Law Not a 
Trade Barrier,'' Xinhua, 31 May 17.
    \16\ Office of the U.S. Trade Representative, ``2017 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2017, 80, 86, 89-90; 
U.S. Chamber of Commerce, ``Made in China 2025: Global Ambitions Built 
on Local Protections,'' 2017, 6-8; Robert D. Atkinson et al., 
Information Technology & Innovation Foundation, ``Stopping China's 
Mercantilism: A Doctrine of Constructive, Alliance-Backed 
Confrontation,'' March 2017, 1-3.
    \17\ Yi-Zheng Lian, ``China, the Party-Corporate Complex,'' New 
York Times, 12 February 17; James McGregor, ``How Trump Can Win With 
China,'' Foreign Policy, 3 February 17; Yuhua Wang, ``Relative Capture: 
Quasi-Experimental Evidence From the Chinese Judiciary,'' Social 
Science Research Network, 7 December 16, 21-23; Mark Wu, ``The `China, 
Inc.' Challenge to Global Trade Governance,'' Harvard International Law 
Journal, Vol. 57, No. 2 (Spring 2016), 283-84, 295. Wu described the 
Chinese government's ``various mechanisms to advantage Chinese firms 
over their foreign competitors'' and the ``close links between the 
Chinese Party-state and Chinese enterprises, both state-owned and 
private . . ..'' Bureau of Economic and Business Affairs, U.S. 
Department of State, ``Investment Climate Statements for 2017: China,'' 
last visited 17 July 17; Office of the U.S. Trade Representative 
(USTR), ``2016 Report to Congress on China's WTO Compliance,'' January 
2017, 168. USTR reported that: ``Many U.S. companies in 2016 continued 
to express serious concerns about the independence of China's 
judiciary. In their experience and observation, Chinese judges continue 
to be influenced by political, government or business pressures, 
particularly outside of China's big cities.''
    \18\ Office of the U.S. Trade Representative, ``2017 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2017, 80.
    \19\ World Economic Forum, ``President Xi's Speech to Davos in 
Full,'' 17 January 17.
    \20\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``China Business Climate Survey Report,'' January 
2017, 30.
    \21\ Office of the U.S. Trade Representative (USTR), ``2016 Report 
to Congress on China's WTO Compliance,'' January 2017, 11-17. 
Industrial policies of concern that USTR identified included secure and 
controllable requirements for information and communications 
technologies, indigenous innovation, export restraints, subsidies, 
excess capacity, and value-added tax. See also Robert D. Atkinson et 
al., Information Technology & Innovation Foundation, ``Stopping China's 
Mercantilism: A Doctrine of Constructive, Alliance-Backed 
Confrontation,'' March 2017, 4; European Union Chamber of Commerce in 
China, ``China Manufacturing 2025: Putting Industrial Policy Ahead of 
Market Forces,'' 7 March 17, 1.
    \22\ State Council, ``Made in China 2025'' [Zhongguo zhizao 2025], 
19 May 15.
    \23\ Keith Bradsher and Paul Mozur, ``China's Plan To Build Its Own 
High-Tech Industries Worries Western Businesses,'' New York Times, 7 
March 17; State Council, ``Made in China 2025'' [Zhongguo zhizao 2025], 
19 May 15, sec. 3(3). See also European Union Chamber of Commerce in 
China, ``China Manufacturing 2025: Putting Industrial Policy Ahead of 
Market Forces,'' 7 March 17, 9.
    \24\ U.S. Chamber of Commerce, ``Made in China 2025: Global 
Ambitions Built on Local Protections,'' March 2017, 26, 34; European 
Union Chamber of Commerce in China, ``China Manufacturing 2025: Putting 
Industrial Policy Ahead of Market Forces,'' March 2017, 1, 15-16, 39-
40.
    \25\ Office of the U.S. Trade Representative, ``2017 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2017, 90; Internet 
Association, ``National Trade Estimate Report Comments on Digital Trade 
Barriers,'' October 2016, 32-33.
    \26\ Office of the U.S. Trade Representative, ``2017 National Trade 
Estimate Report on Foreign Trade Barriers,'' March 2017, 90.
    \27\ Internet Association, ``National Trade Estimate Report 
Comments on Digital Trade Barriers,'' October 2016, 32-33.
    \28\ American Chamber of Commerce in the People's Republic of China 
and Bain & Company, ``2017 China Business Climate Survey Report,'' 
January 2017, 47.
    \29\ American Chamber of Commerce in Shanghai, ``2017 China 
Business Report,'' July 2017, 10.
    \30\ Computer & Communication Industry Association, ``Comments of 
Computer & Communications Industry Association Regarding Foreign Trade 
Barriers to U.S. Exports for 2017 Reporting,'' 27 October 16, 2, 6. See 
also Office of the U.S. Trade Representative, ``United States Seeks 
Detailed Information on China's Internet Restrictions, 19 October 11; 
California First Amendment Coalition, ``CFAC Briefing Paper: China's 
Internet Measures Violate Its WTO Obligations,'' 19 November 07, 1.
    \31\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 158.
    \32\ See, e.g., ``Apple Takes Down Apps Used by Chinese To Scale 
`Great Firewall,' '' Radio Free Asia, 31 July 17; ``Amazon's China 
Partner Bans Use of VPNs by Customers Amid Ongoing Crackdown,'' Radio 
Free Asia, 2 August 17; ```This Time Appears Different': China's Web 
Users Fear Losing Tools To Bypass Censorship,'' Agence France-Presse, 
reprinted in Hong Kong Free Press, 6 August 17; Paul Mozur, ``China's 
Internet Censors Play a Tougher Game of Cat and Mouse,'' New York 
Times, 3 August 17. See also UN Office of the High Commissioner for 
Human Rights, Mandate of the Special Rapporteur on the Promotion and 
Protection of the Right to Freedom of Opinion and Expression, David 
Kaye, OL OTH 16/2017, 4 August 17. Special Rapporteur David Kaye wrote 
a letter to Apple CEO Tim Cook that asked, inter alia, whether 
``Chinese authorities issue[d] a request or demand, formal or informal, 
to remove the subject APPs from the app store? ''; ``[w]hat legal 
analysis led Apple to believe that it would be required by Chinese law 
to remove the subject applications . . .''; whether ``Apple object[ed] 
to or otherwise resist[ed] the application of Chinese law . . .''; and, 
whether Apple took ``into account international instruments such as the 
UN Guiding Principles on Business and Human Rights or the Global 
Network Initiative's Principles on Freedom of Expression . . ..''
    \33\ `` `This Time Appears Different': China's Web Users Fear 
Losing Tools To Bypass Censorship,'' Agence France-Presse, reprinted in 
Hong Kong Free Press, 6 August 17.
    \34\ Ibid.
    \35\ ``Amazon's China Partner Bans Use of VPNs by Customers Amid 
Ongoing Crackdown,'' Radio Free Asia, 2 August 17.
    \36\ PRC Cybersecurity Law [Zhonghua renmin gongheguo wangluo 
anquan fa], passed 7 November 16, effective 1 June 17. See also Paul 
Mozur, ``China's Internet Controls Will Get Stricter, to Dismay of 
Foreign Business,'' New York Times, 7 November 16; Sophie Richardson, 
``Beijing Adds Veneer of Legal Legitimacy on Censorship,'' Cipher 
Brief, 11 December 16.
    \37\ Cyberspace Administration of China, Measures for Security 
Assessment of Outbound Transmission of Personal Information and 
Important Data (Draft for Solicitation of Comments) [Geren xinxi he 
zhongyao shuju chujing anquan pinggu banfa (zhengqiu yijian gao)] 11 
April 17, art. 9. See also ``China Releases Draft Rules To Implement 
Requirements on Outbound Data Transmission,'' Baker McKenzie, 19 April 
17.
    \38\ Eva Dou, ``China Moves To Further Tighten Regulation of 
Digital Information,'' Wall Street Journal, 11 April 17; ``Chinese 
Draft Cyber Law Requires Security Assessment for Companies Exporting 
Data,'' Bloomberg, reprinted in South China Morning Post, 11 April 17.
    \39\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 
264.
    \40\ Letter from ACT | The App Association et al. to Office of the 
Leading Small Group for Cyberspace Affairs, Chinese Communist Party 
Central Leading Group for Cyberspace Affairs, Cyberspace Administration 
of China, reprinted in China Trade Extra, 15 May 17, 2.
    \41\ Liu Zhen and Wendy Wu, ``China Gives Businesses 19 Months To 
Comply With Controversial Cross-Border Cyber Data Rules,'' South China 
Morning Post, 1 June 17; Sui-Lee Wee, ``China's New Cybersecurity Law 
Leaves Foreign Firms Guessing,'' New York Times, 31 May 17. See also 
Samm Sacks, ``China's Cybersecurity Law Takes Effect: What To Expect,'' 
Lawfare (blog), 1 June 17.
    \42\ Thilo Hanemann et al., Rhodium Group and National Committee on 
U.S.-China Relations, ``Two-Way Street: 2017 Update, US-China Direct 
Investment Trends,'' May 2017, 15, 36. See also Jennifer M. Harris, 
``Chinese Investment in the United States: Time for New Rules? '' 
Lawfare (blog), 11 April 17.
    \43\ State Council, Circular Regarding Certain Measures on 
Expanding Further Openness and Active Utilization of Foreign Investment 
[Guowuyuan guanyu kuoda duiwai kaifang jiji liyong waizi ruogan cuoshi 
de tongzhi], issued 17 January 17; United States Information Technology 
Office, ``Foreign Investment Opportunities Expand in 2017,'' 22 January 
17.
    \44\ National Development and Reform Commission and Ministry of 
Commerce, Foreign Investment Industrial Guidance Catalogue (2017 
Revision) [Waishang touzi chanye zhidao mulu (2017 nian xiuding)], 
issued 28 June 17, effective 28 July 17.
    \45\ Ibid.; Laney Zhang, Law Library of Congress, ``China: Catalog 
of Foreign Invesment Industries Updated,'' Library of Congress, Global 
Legal Monitor, 7 August 17.
    \46\ National Development and Reform Commission and Ministry of 
Commerce, Foreign Investment Industrial Guidance Catalogue (2017 
Revision) [Waishang touzi chanye zhidao mulu (2017 nian xiuding)], 
issued 28 June 17, effective 28 July 17, sec. 2, items 20-26; National 
Development and Reform Commission and Ministry of Commerce, Foreign 
Investment Industrial Guidance Catalogue (2015 Revision) [Waishang 
touzi chanye zhidao mulu (2015 nian xiuding)], issued 10 March 15, 
effective 10 April 15, sec. 11, items 25-31.
    \47\ European Union Chamber of Commerce in China, ``Revised Foreign 
Invesment Catalogue Falls Short of Expectations,'' 5 July 17. See also 
European Union Chamber of Commerce in China and Roland Berger, 
``European Business in China: Business Confidence Survey 2017,'' 31 May 
17, 8, 39. The European Chamber of Commerce survey found that 40 
percent of respondents anticipated that ``regulatory barriers'' would 
increase over the next five years, while only 15 percent responded that 
they thought regulatory barriers would decrease over the next five 
years.
    \48\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 8, 
16. See also Ian Talley, ``U.S. Treasury Secretary Mnuchin: China 
Bilateral Investment Treaty `On Our Agenda,' '' Wall Street Journal, 6 
June 17.
    \49\ ``Five Trends To Watch in Business and Human Rights in 2017,'' 
Freshfields Bruckhaus Deringer, 6 March 17. See also Lorenzo Cotula, 
International Institute for Environment and Development et al., 
``Rethinking Investment Treaties To Advance Human Rights,'' September 
2016, 9; Patrick Dumberry and Gabrielle Dumas Aubin, ``How To 
Incorporate Human Rights in Bilateral Investment Treaties? '' 
International Institute for Sustainable Development, Investment Treaty 
News, 22 March 13.
    \50\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 9.1.
    \51\ See, e.g., Office of the U.S. Trade Representative, ``2016 
Report to Congress on China's WTO Compliance,'' January 2017, 13.
    \52\ ``Xi Stresses Unwavering Party Leadership of State-Owned 
Enterprises at National State-Owned Enterprises Party-Building Work 
Meeting'' [Xi jinping zai quanguo guoyou qiye dang de jianshe gongzuo 
huiyi shang qiangdiao: jianchi dang dui guoqi de lingdao bu dongyao], 
Xinhua, 11 October 16; Zhou Xin, ``Communist Party the Top Boss of 
China's State Firms, Xi Jinping Asserts in Rare Meeting,'' South China 
Morning Post, 13 October 16; W. Raphael Lam and Alfred Schipke, 
International Monetary Fund, ``Getting China's `Trusted Sons' Back Into 
Shape,'' 27 April 17; Keith Zhai, ``China Mulling Higher Pay for State-
Owned Company Executives, Source Says,'' Bloomberg, 9 May 17.
    \53\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 13; Office of the 
U.S. Trade Representative, ``Obama Administration Files WTO Complaint 
on China's Subsidies to Aluminum Producers, 12 January 17; Philip 
Blenkinsop, ``EU Sets Steel Import Duties To Counter Chinese 
Subsidies,'' Reuters, 9 June 17.
    \54\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 13. See also Brian 
Spegele and John W. Miller, ``China Continues To Prop Up Its Ailing 
Factories, Adding to Global Glut,'' Wall Street Journal, 9 May 16; 
Greenpeace, ``Despite Claims of Cuts, China Sees Steel Operating 
Capacity Increase in 2016, Air Quality To Suffer,'' 13 February 17.
    \55\ Simon Lester and Huan Zhu, Cato Institute, ``It's Time To 
Negotiate a New Economic Relationship With China,'' 4 April 17; Michael 
Komesaroff, Center for Strategic and International Studies, ``Make the 
Foreign Serve China: How Foreign Science and Technology Helped China 
Dominate Global Metallurgical Industries,'' 10 March 17, 1, 18-20.
    \56\ See, e.g., Office of the U.S. Trade Representative, ``Obama 
Administration Files WTO Complaint on China's Subsidies to Aluminum 
Producers,'' January 2017; Michael Komesaroff, Center for Strategic and 
International Studies, ``Make the Foreign Serve China: How Foreign 
Science and Technology Helped China Dominate Global Metallurgical 
Industries,'' 10 March 17, 2, 16; ``How Chinese Overcapacity Hits 
American Workers,'' Economist, 15 June 17.
    \57\ American Chamber of Commerce in the People's Republic of 
China, ``2017 AmCham China White Paper: American Business in China,'' 
2017, 4; World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/342/
Add.1, 28 October 16, 423. See also Chinese Communist Party Central 
Committee, Decision on Certain Major Issues Regarding Comprehensively 
Deepening Reforms [Zhonggong zhongyang guanyu quanmian shenhua gaige 
ruogan zhongda wenti de jueding], issued 5 November 13, sec. 1(2).
    \58\ See, e.g., Henry Sanderson and Henry Foy, ``Call To Tackle 
China's Soaring Aluminium Output,'' Financial Times, 19 March 17.
    \59\ Greenpeace East Asia and Beijing Custeel E-Commerce Co., Ltd., 
``Research Report on Overcapacity Reduction in China's Steel 
Industry,'' 3 March 17, 5-6. See also Song Yingge, ``China's Steel 
Output Gains in 2016,'' Shanghai Daily, 21 January 17; Liang Qian and 
Zhang Jiagang, ``NDRC: Soaring Steel Prices Unsustainable, Next Year 
Continue Cutting Capacity'' [Fagaiwei: gang jia baozhang buke chixu 
mingnian jixu qu channeng], Economic Information Daily, 10 November 16; 
Michael Lelyveld, ``China's Steel Output Climbs Despite Cuts,'' Radio 
Free Asia, 30 May 17.
    \60\ World Trade Organization, DS511, China-Domestic Support for 
Agricultural Producers, last visited 15 June 17; Office of the U.S. 
Trade Representative, ``United States Challenges Excessive Chinese 
Support for Rice, Wheat, and Corn,'' September 2016.
    \61\ World Trade Organization, DS519, China-Subsidies to Producers 
of Primary Aluminum, last visited 15 June 17; Office of the U.S. Trade 
Representative, ``Obama Administration Files WTO Complaint on China's 
Subsidies to Aluminum Producers,'' January 2017.
    \62\ World Trade Organization, Committee on Subsidies and 
Countervailing Measures, Request From the United States to China 
Pursuant to Article 25.10 of the Agreement, G/SCM/Q2/CHN/71, 19 April 
17, 1-6.
    \63\ Ibid., 8-584.
    \64\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/342/
Add.1, 28 October 16, 427; World Trade Organization, Report on the 
Working Party on the Accession of China, WT/ACC/CHN/49, 1 October 01, 
para. 334.
    \65\ World Trade Organization, Committee on Subsidies and 
Countervailing Measures, Request From the United States to China 
Pursuant to Article 25.10 of the Agreement, G/SCM/Q2/CHN/71, 19 April 
17, 1.
    \66\ Office of the U.S. Trade Representative, ``2016 Report to 
Congress on China's WTO Compliance,'' January 2017, 21-22; Robert D. 
Atkinson et al., Information Technology & Innovation Foundation, 
``Stopping China's Mercantilism: A Doctrine of Constructive, Alliance-
Backed Confrontation,'' March 2017, 24.
    \67\ W. Raphael Lam and Alfred Schipke, International Monetary 
Fund, ``Getting China's `Trusted Sons' Back Into Shape,'' 27 April 17; 
Sea-Jin Chang and Sandy Yuan Jin, ``The Performance of State Owned 
Enterprises in China: An Empirical Analysis of Ownership Control 
Through SASACS,'' National University of Singapore (NUS), NUS Business 
School, Centre for Governance, Institutions & Organisations, 2016, 8.
    \68\ National Bureau of Statistics of China, ``Number of Business 
Entities by Region and Status of Registration (2015),'' China 
Statistical Yearbook 2016, 2016, Table 1-8.
    \69\ Ibid., Table 1-7.
    \70\ W. Raphael Lam and Alfred Schipke, International Monetary 
Fund, ``Getting China's `Trusted Sons' Back Into Shape,'' 27 April 17. 
See also Curtis J. Milhaupt and Mariana Pargendler, European Corporate 
Governance Institute, ``Governance Challenges of Listed State-Owned 
Enterprises Around the World: National Experiences and a Framework for 
Reform,'' April 2017, 47-48.
    \71\ National Bureau of Statistics of China, ``Main Indicators of 
State-Holding Industrial Enterprises by Region,'' China Statistical 
Yearbook 2016, 2016, Table 13-5; Ministry of Finance, State-Owned 
Assets Supervision and Administration Commission, ``2016 January-
December State-Owned Enterprises and State-Holding Enterprises Economic 
Developments'' [2016 nian 1-12 yue quangguo guoyou ji guoyou konggu 
qiye jingji yunxing qingkuang], 26 January 17. Chinese government 
reporting on profits of state-owned and state-invested enterprises 
refers to both state-owned enterprises and state-holding companies as 
``state-owned enterprises.''
    \72\ W. Raphael Lam and Alfred Schipke, International Monetary 
Fund, ``Getting China's `Trusted Sons' Back Into Shape,'' 27 April 17. 
See also Jay H. Bryson, ``Are SOEs a Millstone Around China's Neck? '' 
Wells Fargo Securities, 18 May 16. Bryson reported that at the end of 
2014, bank loans to SOEs totaled almost 50 percent of total business 
loans and 30 percent of all loans in China.
    \73\ See, e.g., Ing. Jan Bejkovsky, ``State Capitalism in China: 
The Case of the Banking Sector,'' Proceedings of the International 
Academic Research Conference on Small & Medium Enterprises, 2-4 August 
16, 7; ``China's State Firms Borrow Cheaply,'' Economist, Daily Chart 
(blog), 23 November 16.
    \74\ Wojciech Maliszewski, ``Resolving China's Corporate Debt 
Problem,'' International Monetary Fund, IMF Working Paper, October 
2016, 7-8. See also ``China's Uncannily Stable Growth Versus the Price 
of Reform,'' Economist, 19 October 16.
    \75\ ``Xi Stresses Unwavering Party Leadership of State-Owned 
Enterprises at National State-Owned Enterprises Party-Building Work 
Meeting'' [Xi jinping zai quanguo guoyou qiye dang de jianshe gongzuo 
huiyi shang qiangdiao: jianchi dang dui guoqi de lingdao bu dongyao], 
Xinhua, 11 October 16; Zhou Xin, ``Communist Party the Top Boss of 
China's State Firms, Xi Jinping Asserts in Rare Meeting,'' South China 
Morning Post, 13 October 16.
    \76\ Curtis J. Milhaupt and Mariana Pargendler, European Corporate 
Governance Institute, ``Governance Challenges of Listed State-Owned 
Enterprises Around the World: National Experiences and a Framework for 
Reform,'' April 2017, 46-48; Mark Wu, ``The `China, Inc.' Challenge to 
Global Trade Governance,'' Harvard International Law Journal, Vol. 57, 
No. 2 (Spring 2016), 283-84.
    \77\ World Trade Organization, Trade Policy Review Body, Trade 
Policy Review, China, Minutes of the Meeting, Addendum, WT/TPR/M/342/
Add.1, 28 October 16, 399.
    \78\ ``Xi Stresses Unwavering Party Leadership of State-Owned 
Enterprises at National State-Owned Enterprises Party-Building Work 
Meeting'' [Xi jinping zai quanguo guoyou qiye dang de jianshe gongzuo 
huiyi shang qiangdiao: jianchi dang dui guoqi de lingdao bu dongyao], 
Xinhua, 11 October 16; Zhou Xin, ``Communist Party the Top Boss of 
China's State Firms, Xi Jinping Asserts in Rare Meeting,'' South China 
Morning Post, 13 October 16.
    \79\ Xiao Yaqing, ``Deepening the Reform of State-Owned 
Enterprises; Stronger, More Outstanding, Larger State-Owned 
Enterprises'' [Shenhua guoqi guozi gaige zuo qiang zuo you zuo da 
guoyou qiye], Study Times, reprinted in State-Owned Assets Supervision 
and Administration Commission of the State Council, 16 June 17; Wendy 
Wu, ``How the Communist Party Controls China's State-Owned Industrial 
Titans,'' South China Morning Post, 17 June 17.
    \80\ Curtis J. Milhaupt and Mariana Pargendler, European Corporate 
Governance Institute, ``Governance Challenges of Listed State-Owned 
Enterprises Around the World: National Experiences and a Framework for 
Reform,'' April 2017, 46.
    \81\ Gregor Stuart Hunter and Steven Russolillo, ``Now Advising 
China's State Firms: The Communist Party,'' Wall Street Journal, 14 
August 17. See also Jennifer Hughes, ``China's Communist Party Writes 
Itself Into Company Law,'' Financial Times, 15 August 17.
    \82\ Gregor Stuart Hunter and Steven Russolillo, ``Now Advising 
China's State Firms: The Communist Party,'' Wall Street Journal, 14 
August 17.
    \83\ Yi-Zheng Lian, ``China, the Party-Corporate Complex,'' New 
York Times, 13 February 17; The Broken Promises of China's WTO 
Accession: Reprioritizing Human Rights, Hearing of the Congressional-
Executive Commission on China, 1 March 17, Written Statement Submitted 
by Michael R. Wessel, President, The Wessel Group, Commissioner, U.S.-
China Economic and Security Review Commission, 3.
    \84\ Chinese Communist Party Central Committee Organization 
Department, ``2015 Report on Communist Party Statistics: Communist 
Party Members Totaled 88.758 Million'' [2015 nian zhongguo gongchandang 
dangnei tongji gongbao: dangyuan zongshu wei 8875.8 wan ming], 30 June 
16.
    \85\ World Trade Organization, Protocol on the Accession of the 
People's Republic of China, WT/L/432, 10 November 01, Part I, 2(A)(2).
    \86\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 12.
    \87\ Ibid.
    \88\ Office of the U.S. Trade Representative, ``2017 Special 301 
Report,'' April 2017, 1, 28. See also U.S. Chamber of Commerce, ``2017 
Special 301 Submission,'' 9 February 17, 6.
    \89\ Office of International Trade, U.S. Customs and Border 
Protection, U.S. Department of Homeland Security, ``Intellectual 
Property Rights Seizure Statistics, Fiscal Year 2016,'' 25 January 17, 
14.
    \90\ Office of the U.S. Trade Representative, ``2016 Out-of-Cycle 
Review of Notorious Markets,'' December 2016, 12. See also Michael 
Schuman, ``A Small Table Maker Takes on Alibaba's Flood of Fakes,'' New 
York Times, 18 March 17; ``Alibaba Urges Tougher Counterfeiting Laws, 
Enforcement & Penalties,'' Alizila, 27 February 17. Alibaba Group 
claimed itself to be ``a victim of counterfeiting,'' posting a 
statement that asserted criminals escape punishment, and noting that in 
2016, Alibaba had provided Chinese authorities with 4,495 criminal 
leads, but that those leads had only led to 33 convictions.
    \91\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 92; 
National People's Congress, PRC E-Commerce Law (Draft) [Zhonghua renmin 
gongheguo dianzi shangwu fa (cao'an)], 27 December 16, reprinted in 
Ministry of Commerce, China Sourcing, 29 December 16, art. 34.
    \92\ China Trademark Office, State Administration of Industry and 
Commerce, ``Trademark Review and Examination Standards'' [Shangbiao 
shencha ji shenli biaozhun], December 2016.
    \93\ Supreme People's Court, Provisions on Certain Issues Related 
to Trials of Administrative Cases Involving the Grant and Confirmation 
of Trademark Rights [Zuigao renmin fayuan guanyu shenli shangbiao 
shouquan quequan xingzheng anjian ruogan wenti de guiding], issued 10 
January 17, effective 1 March 17.
    \94\ Mark Cohen, ``2017 Opens With More Positive Trademark 
Developments,'' China IPR (blog), 12 January 17; ``New Changes in 
Examination Standards and Provisions of Trademark Cases,'' Kangxin, 13 
March 17; Paul Ranjard, ``What To Expect From the SPC's New Trademark 
Judicial Interpretation? '' Wan Hui Da Peksung, last visited 15 June 
17. See also Hudson Lockett, ``China's Top Court Bars Deceptive Use of 
Celebrity Names in Trademarks,'' Financial Times, 11 January 17; 
``SAIC: Online Marketplaces' Trademark Infringement and Counterfeit 
Goods Problem Relatively Serious, Key Points of Management'' [Gongshang 
zongju: wangluo shichang shangbiao qinquan jiamao jiao yanzhong xi 
guanli zhongdian], China News Service, 25 April 17.
    \95\ Liu Jing, ``Supreme People's Court Announces Judgment in 10 
Related `Jordan' Trademark Administrative Disputes'' [Zuigao renmin 
fayuan gongkai xuanpan ``qiaodan'' shangbiao zhengyi xingzheng jiufen 
10 jian anjian], Supreme People's Court, 9 December 16; ``Michael 
Jordan Partly Wins Trademark Lawsuit,'' Xinhua, 8 December 16; Sui-Lee 
Wee, ``Michael Jordan Owns Right to His Name in Chinese Characters, 
Too, Court Rules,'' New York Times, 7 December 16.
    \96\ See, e.g., Supreme People's Court, ``Judicial Transparency by 
People's Courts,'' 14 March 17. See also Jerome A. Cohen and David 
Wertime, ``A Crack of Daylight Enters Chinese Court Proceedings,'' 
Foreign Policy, Tea Leaf Nation (blog), 12 October 16.
    \97\ Bureau of Consular Affairs, U.S. Department of State, 
``China,'' last visited 15 June 17. See also Dan Harris, ``China Debts 
and Layoffs and Hostage Situations,'' China Law (blog), 3 June 17. 
Harris believes that the number of foreigners being held hostage in 
China due to business disputes is likely increasing.
    \98\ Chris Buckley, ``China Sentences Phan Phan-Gillis, U.S. 
Businesswoman, in Spying Case,'' New York Times, 25 April 17; Chun Han 
Wong and Charles Hutzler, ``China Convicts U.S. Businesswoman of 
Spying,'' Wall Street Journal, 25 April 17. For more information on 
Phan-Gillis, see the text box ``Disappearance and Arbitrary Detention 
of an American Businesswoman'' in CECC, 2016 Annual Report, 6 October 
16, 255.
    \99\ Dui Hua Foundation, ``Dui Hua Welcomes Return of Sandy Phan-
Gillis to the United States,'' 28 April 17; Chris Buckley, ``China 
Deports American Woman Convicted on Spying Charge,'' New York Times, 29 
April 17.
    \100\ Bridget Johnson, ``Houston Businesswoman Marks Second Year 
Unjustly Detained in China,'' PJMedia, 20 March 17; ``Free Sandy,'' 
Houston Chronicle, 27 March 17.
    \101\ UN Human Rights Council, Opinion No. 12/2016 Concerning Phan 
(Sandy) Phan-Gillis (China), Opinions adopted by the Working Group on 
Arbitrary Detention at its Seventy-Fifth Session, 18-27 April 2016, A/
HRC/WGAD/2016/12, 22 June 16, para. 21. See also Edward Wong, ``China 
Violated Rights of Detained American, U.N. Panel Says,'' New York 
Times, Sinosphere (blog), 7 July 16.
    \102\ The Broken Promises of China's WTO Accession: Reprioritizing 
Human Rights, Hearing of the Congressional-Executive Commission on 
China, 1 March 17, Written Statement Submitted by Jeff Gillis, Husband 
of American Businesswoman Sandy Phan-Gillis, 2.
    \103\ Ibid., 3. See also Letter from Julia Frifield, Assistant 
Secretary, Legislative Affairs, U.S. State Department, to Christopher 
Smith, House of Representatives, 2 December 15. According to the U.S. 
State Department, the Chinese government's restrictions on 
communication between U.S. consular officials and Phan-Gillis were 
``inconsistent'' with China's obligations under the U.S.-China Consular 
Convention.
    \104\ Minxin Pei, ``Chinese Tycoon's Disappearance Foreshadows 
Showdown in Beijing,'' Nikkei Asian Review, 6 February 17; Scott 
Cendrowski, ``Billionaire's Disappearance in Hong Kong May Be Part of 
China's Anti-Corruption Campaign,'' Fortune, 6 February 17; Jun Mai and 
Nectar Gan, ``China Confirms Tycoon Guo Wengui Wanted by Interpol,'' 
South China Morning Post, 20 April 17; Lucy Hornby, ``Chinese Crackdown 
on Dealmakers Reflects Xi Power Play,'' Financial Times, 9 August 17; 
``Analyst: The Detention of Anbang's Wu Xiaohui Is Not Without Risk'' 
[Fenxi renshi: anbang wu xiaohui bei ju bu wu fengxian], Voice of 
America, 16 June 17.
    \105\ Minxin Pei, ``Chinese Tycoon's Disappearance Foreshadows 
Showdown in Beijing,'' Nikkei Asian Review, 6 February 17; Scott 
Cendrowski, ``Billionaire's Disappearance in Hong Kong May Be Part of 
China's Anti-Corruption Campaign,'' Fortune, 6 February 17.
    \106\ Michael Forsythe, ``Greater Corruption in China? A 
Billionaire Says He Has Evidence,'' New York Times, 17 April 17. See 
also Human Rights in China, ``Gao Wenqian: Guo Wengui's Explosive 
Revelations and Xi Jinping's Dilemma,'' 18 May 17.
    \107\ Jun Mai and Nectar Gan, ``Interpol Issues Red Notice for 
Chinese Tycoon Guo Wengui `At Beijing's Request' After Corruption Claim 
Report,'' South China Morning Post, 20 April 17; Jun Mai and Nectar 
Gan, ``China Confirms Tycoon Guo Wengui Wanted by Interpol,'' South 
China Morning Post, 19 April 17.
    \108\ Keith Bradsher and Sui-Lee Wee, ``Why Did China Detain 
Anbang's Chairman? He Tested a Lot of Limits,'' New York Times, 14 June 
17; Xie Yu, ``Murky Waters Surrounding Wu Xiaohui and Anbang,'' South 
China Morning Post, 8 July 17; Lucy Hornby, ``Chinese Crackdown on 
Dealmakers Reflects Xi Power Play,'' Financial Times, 9 August 17.
    \109\ Xie Yu, ``Murky Waters Surrounding Wu Xiaohui and Anbang,'' 
South China Morning Post, 8 July 17.
    \110\ Ibid.; Henny Sender, ``Anbang's Wu Xiaohui Pays the Price for 
Defying Beijing,'' Nikkei Asian Review, 22 June 17.
    \111\ Office of International Affairs, U.S. Department of the 
Treasury, ``Report to Congress: Foreign Exchange Policies of Major 
Trading Partners of the United States,'' 14 April 17, 3. The U.S. 
Department of Treasury report notes that a rapid devaluation of the 
yuan would result in ``negative consequences for the United States, 
China, and the global economy.'' See also Brad W. Setser, ``So, Is 
China Pegging to the Dollar or to a Basket? '' Council on Foreign 
Relations, Follow the Money (blog), 9 April 17.
    \112\ Office of International Affairs, U.S. Department of the 
Treasury, ``Report to Congress: Foreign Exchange Policies of Major 
Trading Partners of the United States,'' 14 April 17, 15.
    \113\ Ibid.; American Chamber of Commerce in the People's Republic 
of China, ``2017 American Business in China White Paper,'' April 2017, 
166, 364. See also Brad W. Setser, ``So, Is China Pegging to the Dollar 
or to a Basket? '' Council on Foreign Relations, Follow the Money 
(blog), 9 April 17.
    \114\ State Council, ``Report on the Work of the Government,'' 15 
March 17; ``Li Keqiang: Food and Drug Safety Affects Public Health, 
Regulation Requires the Utmost Rigor'' [Li keqiang: shipin yaopin 
anquan shiguan renmin jiankang, bixu guan de yaneryouyan], Jilin Food 
and Drug Administration, 7 March 17; Kathleen McLaughlin, ``China 
Pledges To Cut Pollution and Boost Food Safety,'' Science, 6 March 17.
    \115\ John Kojiro Yasuda, Paulson Institute, ``Paulson Policy 
Memorandum: Meeting China's Food Safety Challenge,'' 4 April 17, 1.
    \116\ Wang Xiaodong, ``Stronger Steps on Safety of Food Set,'' 
China Daily, 28 February 17.
    \117\ Zhou Dongxu and Li Rongde, ``Tianjin Probes Counterfeit Ring 
That Produced Toxic Soy Sauce,'' Caixin, 19 January 17; Alice Yan, 
``China's Latest Food Scandal: `Leftovers, Industrial Salt' Used To 
Make Fake-Branded Food,'' South China Morning Post, 16 January 17.
    \118\ Viola Zhou, ``19 Arrested for Selling Hundreds of Tonnes of 
Expired Milk Powder in China,'' South China Morning Post, 24 October 
16.
    \119\ Zhou Dongxu and Li Rongde, ``Tianjin Probes Counterfeit Ring 
That Produced Toxic Soy Sauce,'' Caixin, 23 January 17.
    \120\ China Food and Drug Administration, Measures on Investigating 
and Punishing Illegal Conduct Related to Online Food Safety [Wangluo 
shipin anquan weifa xingwei chachu banfa], issued 13 July 16, effective 
1 October 16. See also ``New Rule Stresses Online Platforms' 
Responsibility in Food Safety,'' Xinhua, 29 September 16.
    \121\ Courtney Diem Macintosh and Andrew Sim, ``New Online Food 
Trading Safety Measures Introduced in China,'' Baker McKenzie, 1 
October 16; China Food and Drug Administration, Measures on 
Investigating and Punishing Illegal Conduct Related to Online Food 
Safety [Wangluo shipin anquan weifa xingwei chachu banfa], issued 13 
July 16, effective 1 October 16, arts. 18, 39-43.
    \122\ American Chamber of Commerce in the People's Republic of 
China, ``2017 American Business in China White Paper,'' April 2017, 48.
    \123\ Ibid., 238. See also European Union Chamber of Commerce in 
China, ``European Business in China Position Paper 2016/2017,'' 2016, 
181. The European Chamber reported that, ``Unclear laws and regulations 
and inconsistent interpretation and enforcement of the laws have opened 
up food regulation to further potential risks.''
    \124\ John Ruwitch, ``Shanghai Watchdogs Fine OSI and Unit Over 
Meat Scandal,'' Reuters, 3 October 16. See also Shanghai Municipality 
Food and Drug Administration, ``Shanghai Municipality Announcement of 
List of Operators and Related Responsible Staff Who Violated Food and 
Medicine Manufacturing Rules'' [Shanghai shi shipin yaopin yanzhong 
weifa shengchan jingyingzhe yu xiangguan zeren renyuan zhongdian 
jianguan mingdan gonggao], 2 June 17.
    \125\ OSI Group, ``OSI Group February 1, 2016 Statement,'' 1 
February 16. See also ``SPC and CCTV Jointly Introduce the Selection 
Results for the `Ten Significant Cases Advancing Rule of Law in 2016' 
'' [Zuigaofa yangshi lianhe kaizhan ``2016 nian tuidong fazhi jincheng 
shi da anjian'' pingxuan jieguo jiexiao], Supreme People's Court, 20 
April 17; US-China Business Council, ``Food Safety in China: What US 
Companies Are Bringing to the Table,'' November 2016, 8. The US-China 
Business Council noted that member companies had reported concerns 
about exaggerated media reporting and disgruntled employees providing 
misleading photographs to the media.
    \126\ See, e.g., U.S. Department of Commerce, ``Joint Release: 
Initial Results of the 100-Day Action Plan of the U.S.-China 
Comprehensive Economic Dialogue,'' 11 May 17; Maria Godoy, ``Chinese 
Chicken Is Headed to America, but It's Really All About the Beef,'' 
NPR, 12 May 17.
    \127\ ``U.S. Beef Debuts in China After 14 Years, May Help Balance 
Trade,'' Bloomberg, 30 June 17; Dominique Patton, ``Chinese Ready To 
Tuck Into U.S. Beef Imports After 14-Year Wait,'' Reuters, 29 June 17.
    \128\ Food Safety and Inspection Service, U.S. Department of 
Agriculture, ``Eligibility of the People's Republic of China (PRC) To 
Export to the United States Poultry Products From Birds Slaughtered in 
the PRC,'' 9 CFR Part 381, RIN 0583-AD64, Federal Register, Vol. 82, 
No. 115 (16 June 17), 27625-29.
    \129\ Food & Water Watch, ``Food & Water Watch Urges USDA To Cancel 
Proposal To Import Poultry From China,'' 15 August 17; Wenonah Hauter, 
Food & Water Watch, ``RE: Docket No. FSIS-2016-0002,'' 15 August 17. 
See also Lucy Hornby, ``China's Love of US Chicken Feet Proves a Recipe 
for a Perfect Trade,'' Financial Times, 14 August 17; Maria Godoy, 
``Chinese Chicken Is Headed to America, but It's Really All About the 
Beef,'' NPR, 12 May 17.
    \130\ ``Joint Communique of Leaders Roundtable of Belt and Road 
Forum,'' Xinhua, 15 May 17.
    \131\ ``China Focus: World's Major Economies Present at B&R 
Forum,'' Xinhua, 15 May 17; Anthony Kuhn, ``For China's `New Silk 
Road,' Ambitious Goals and More Than a Few Challenges,'' NPR, 16 May 
17.
    \132\ ``Joint Communique of Leaders Roundtable of Belt and Road 
Forum,'' Xinhua, 15 May 17. See also National Development and Reform 
Commission et al., ``Vision and Actions on Jointly Building Silk Road 
Economic Belt and 21st-Century Maritime Silk Road'' [Tuidong gong jian 
sichou zhi lu jingjidai he 21 shiji haishang sichou zhi lu de yuanjing 
yu xingdong], March 2015; Nadege Rolland, China's Eurasian Century? 
Political and Strategic Implications of the Belt and Road Initiative 
(Seattle: National Bureau of Asian Research, 2017), 119-20; Joshua 
Eisenman and Devin T. Stewart, ``China's New Silk Road Is Getting 
Muddy,'' Foreign Policy, 9 January 17.
    \133\ National Development and Reform Commission et al., ``Vision 
and Actions on Jointly Building Silk Road Economic Belt and 21st-
Century Maritime Silk Road'' [Tuidong gong jian sichou zhi lu jingjidai 
he 21 shiji haishang sichou zhi lu de yuanjing yu xingdong], March 
2015, sec. II. See also Tom Hancock, ``China Encircles the World With 
One Belt, One Road Strategy,'' Financial Times, 3 May 17; ``The 
Economist Explains: What Is China's Belt and Road Initiative? '' 
Economist, 15 May 17.
    \134\ Angela Stanzel, European Council on Foreign Relations, 
``China's Belt and Road--New Name, Same Doubts? '' 19 May 17; Elias 
Glenn et al.,``Update 2--Germany Demands More Free Trade Guarantees on 
China Silk Road Plan--Minister,'' Reuters, 14 May 17.
    \135\ ``Joint Communique of Leaders Roundtable of Belt and Road 
Forum,'' Xinhua, 15 May 17.
    \136\ State-Owned Assets Supervision and Administration of the 
State Council, ``Transcript of State Council Information Office Press 
Conference on the Situation of State-Owned Enterprises Participation in 
Joint Construction of the `Belt & Road' '' [Guoxinban zhongyang qiye 
canyu ``yidai yilu'' gong jian qingkuang fabuhui shilu], 9 May 17; Wu 
Gang, ``SOEs Lead Infrastructure Push in 1,700 `Belt and Road' 
Projects,'' Caixin, 9 May 17.
    \137\ Ibid.
    \138\ Summer Zhen, ``China To Build Colombo CBD Under `Belt and 
Road Initiative,' '' South China Morning Post, 10 May 17; Celia Chen 
and Peggy Sito, ``Here's How Li Ka-shing Dominates Trade Along the Belt 
and Road Initiative,'' South China Morning Post, 12 May 17.
    \139\ Joshua Eisenman and Devin T. Stewart, ``China's New Silk Road 
Is Getting Muddy,'' Foreign Policy, 9 January 17.
    \140\ Asian Infrastructure Investment Bank, ``AIIB Celebrates Its 
First Anniversary; Launches Its 2017 Agenda,'' 16 January 17.
    \141\ World Bank, ``World Bank and AIIB Sign Cooperation 
Framework,'' 23 April 17. As of April 2017, the AIIB and World Bank had 
co-financed five projects.
    \142\ Asian Development Bank, ``ADB Approves Second Cofinancing 
With AIIB To Boost Natural Gas Output, Transmission in Bangladesh,'' 21 
November 16.
    \143\ Inclusive Development International, ``Making Inroads: 
Chinese Infrastructure Investment in ASEAN and Beyond,'' 2016, 5-6. See 
also Sara Hsu, ``How China's Asian Infrastructure Investment Bank Fared 
Its First Year,'' Forbes, 14 January 17.

                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice

                           Access to Justice


                              Introduction

    While many Chinese citizens persist in seeking redress for 
violations of their rights,\1\ the Commission continued to 
observe a significant discrepancy between official statements 
that affirm the 
importance of law-based governance \2\ or that promote recent 
legal developments \3\ and the actual ability of citizens to 
access justice.\4\ Developments during the 2017 reporting year 
also continued to demonstrate that individuals and groups who 
attempt to help citizens advocate for their rights do so at 
significant professional and personal risk.

                        Judicial Reform Efforts

    During this past year, the Commission observed some 
progress and ongoing challenges as Chinese courts and local 
governments implemented certain key areas of the judicial 
reforms outlined in the Chinese Communist Party Central 
Committee Fourth Plenum Decision on Several Major Issues in 
Comprehensively Advancing Governance of the Country According 
to Law (Fourth Plenum Decision) from October 2014.\5\ Key 
developments included the following areas.

                         JUDICIAL INDEPENDENCE

    The Commission continued to observe actions and statements 
by Chinese authorities that contradict their claim of judicial 
independence. The Supreme People's Court (SPC) repeatedly 
emphasized the Chinese Communist Party's leadership role over 
the judiciary.\6\ At a conference held in January 2017, SPC 
President Zhou Qiang urged high court presidents from across 
China to reject Western ideals including ``constitutional 
democracy, separation of powers, and judicial independence.'' 
\7\ The SPC-run People's Court Daily published a series of 
articles arguing that Chinese courts retain independence in 
decisionmaking even while they are subject to the Party's 
leadership.\8\ Some legal professionals and scholars, however, 
viewed Zhou's speech as a setback in the progress toward 
judicial independence.\9\
    In his March 2017 delivery of the SPC's annual work report, 
Zhou Qiang reiterated the SPC's goal of judicial independence, 
yet in the same presentation, he noted the convictions of 
rights lawyer Zhou Shifeng and other rights advocates \10\ as 
key achievements of the court system in 2016.\11\ Amnesty 
International and other human rights organizations 
characterized these trials as politically motivated,\12\ and 
one China-based lawyer said the SPC work report signified that 
the court system is a political tool of the Party.\13\ In this 
past year, reports of other politically motivated convictions 
continued to emerge.\14\ [See Section II--Criminal Justice for 
more information.]
    The Party continued to exert control over the judiciary, 
including the four newly established cross-jurisdictional 
circuit tribunals \15\ that have a mandate to improve judicial 
independence by preventing interference by local officials.\16\ 
An inspection group under central Party authorities conducted 
an inspection beginning in November 2016 \17\ to ensure 
ideological alignment of the SPC,\18\ which in turn exerts 
leadership over the circuit tribunals \19\ through their Party 
branch groups.\20\ In July 2017, the SPC issued an opinion with 
a provision instructing chief judges to carry out plans made by 
Party branch groups and adjudication committees.\21\

                        JUDICIAL ACCOUNTABILITY

    Although a senior Party official declared that courts had 
substantially achieved accountability reforms,\22\ 
implementation by lower courts remained at an initial stage, 
and certain problems that authorities intended to correct 
persisted in some localities. Meng Jianzhu, a Party Central 
Committee Political Bureau member and Political and Legal 
Affairs Commission Secretary, said in January 2017 that central 
Party authorities had substantially completed the policy-making 
aspect of the judicial accountability reform,\23\ and in a 
subsequent meeting urged political and legal affairs committee 
leaders to complete basic reform efforts before the 19th 
National Congress of the Chinese Communist Party \24\ scheduled 
to take place in the latter part of 2017.\25\ In April, the SPC 
clarified the supervisory roles of provincial-level court 
presidents and chief judges, and generally prohibited them from 
giving oral or written instructions on cases that they did not 
hear.\26\ Some lower courts have issued rules to implement the 
reform \27\ or held meetings for that purpose.\28\ 
Nevertheless, an SPC official responsible for judicial reform 
reported that certain problems regarding accountability 
persisted in some localities, which included court presidents 
and chief judges taking part in adjudicating cases not assigned 
to them and not being able to effectively supervise associate 
judges.\29\

                              CASE FILING

    Despite official reports showing improvement in the case 
filing system,\30\ some courts reportedly continued to deny 
individuals access to the court system. Based on the Fourth 
Plenum Decision,\31\ the SPC issued a set of provisions in 
April 2015 that requires courts to accept all cases meeting 
certain procedural requirements,\32\ instead of first 
subjecting them to substantive review.\33\ Rights advocate Feng 
Zhenghu, however, observed that some courts in Shanghai 
municipality continued to conduct substantive review.\34\ He 
documented 187 cases between May 2015 and December 2016 in 
which seven courts in Shanghai reportedly failed to open a case 
or issue a decision that explained their refusal to do so \35\ 
in cases seeking judicial review of issues including 
administrative detention and land expropriation agreements.\36\ 
In addition, when Feng ran for the local people's congress in 
November 2016 as an independent candidate, police from Shanghai 
administratively detained five of his campaign assistants,\37\ 
who then tried to file a lawsuit to rescind the administrative 
decisions after their release.\38\ The Yangpu District People's 
Court in Shanghai reportedly twice rejected their filings 
without issuing any official documentation explaining the 
decision.\39\ Rights defenders in other localities likewise 
experienced difficulties in filing their cases.\40\

                    TRIAL-CENTERED LITIGATION SYSTEM

    Chinese authorities took steps to implement a goal set 
forth in the October 2014 Fourth Plenum Decision to shift 
toward a trial-centered litigation system that includes 
improving the practice of having witnesses and experts testify 
at trial.\41\ The Supreme People's Court (SPC), Supreme 
People's Procuratorate, Ministry of Public Security, Ministry 
of State Security, and Ministry of Justice issued a joint 
opinion in October 2016 that detailed key components to 
improving in-court testimony and argument,\42\ but the opinion 
subjects a witness' appearance to the court's determination 
that the testimony has great significance to the case.\43\ One 
SPC official said that courts, procuratorates, and public 
security bureaus in some localities developed evidentiary 
criteria for certain common crimes to standardize investigation 
and to prevent illegally obtained evidence from entering the 
trial phase.\44\ In June 2017, the SPC selected courts in 17 
locations to pilot the implementation of three procedures of 
the trial-centered litigation system, namely, pretrial 
conference, exclusion of illegally obtained evidence, and 
judicial investigation procedure for courts of first 
instance.\45\ [For more information on developments in China's 
criminal procedure system, see Section II--Criminal Justice--
Ongoing Challenges in the Implementation of the Criminal 
Procedure Law.]

                         JUDICIAL TRANSPARENCY

    The Chinese judiciary reported progress and addressed 
challenges in improving judicial transparency. In November 
2016, SPC President Zhou Qiang reported improvements, including 
the publishing of court proceedings online and making case 
information available to litigation parties through court 
websites and text messaging.\46\ Zhou also acknowledged several 
challenges, including selective disclosure of case judgments by 
some courts, the lack of a robust system for third-party 
evaluation of courts' disclosure efforts, and the need for 
further delineation of judicial disclosure standards.\47\ In 
October 2016, new SPC provisions went into effect that further 
specify disclosure standards which require judges to publish 
case identification information even when case content is being 
withheld and to state the reason supporting nondisclosure 
except when doing so may endanger state security.\48\ A March 
2017 report shows, however, that only five courts published 
this information on their websites.\49\ Amnesty International 
observed that documents related to death penalty sentences 
published on the judiciary's centralized database between 2011 
and 2016 represented a small fraction of executions in China, 
concluding that ``authorities appear to be engaged in an 
elaborate policy of systematic evasion . . ..'' \50\ [For more 
information on the judiciary's publication of death penalty-
related documents, see Section II--Criminal Justice.]

                               Legal Aid

    The Chinese government promulgated rules in an attempt to 
improve the legal aid system, which continued to face problems 
such as a shortage of legal aid workers, the lack of technical 
knowledge in non-lawyer staff, and insufficient reimbursement 
for legal-aid related expenses.\51\ In February 2017, the 
Ministries of Justice (MOJ) and Finance jointly issued an 
opinion directing their provincial-level bureaus to play an 
active role in administering the legal aid system and to 
specifically allocate funds toward implementing measures, 
including supporting the recruitment and training of new 
lawyers for legal aid work, obtaining legal aid services from 
law firms through government procurement, and ensuring prompt 
payment that is commensurate with the legal services 
rendered.\52\ The Supreme People's Procuratorate, SPC, and MOJ 
issued an opinion in April specifying that legal aid services 
cover criminal case petitions (xingshi shensu),\53\ a process 
that can be used to correct wrongful convictions.\54\ A U.S.-
based expert noted that access to legal aid by migrant workers 
had improved in the years since a 2006 State Council regulatory 
change; many of these workers, however, continued to have 
difficulty obtaining aid because of variance in local 
rules.\55\

                          Citizen Petitioning

    The petitioning system (xinfang), also known as the 
``letters and visits system,'' has been a popular mechanism 
outside of the formal legal system for citizens to present 
their grievances to authorities, either in writing or in 
person.\56\ The petitioning system reportedly has been 
ineffective in addressing citizens' grievances due to factors 
such as the large number of petitions,\57\ the limited 
authority of local xinfang offices,\58\ shortcomings in the 
accountability system,\59\ and corruption.\60\ In October 2016, 
the State Council General Office and the Party Central 
Committee General Office issued measures directing government 
and Party agencies to conduct a performance review at least 
once a year and providing sanctions for conduct such as 
ineffective handling of negative public opinion or mistreatment 
of petitioners that results in serious consequences.\61\
    The Commission continued to observe reports of violence 
against petitioners. In November 2016, the public security 
bureau in Yuechi county, Guang'an municipality, Sichuan 
province, issued a notice stating that it started an 
investigation and detained nine individuals suspected of being 
responsible for the death of petitioner Yang Tianzhi, whom 
individuals acting under a reported agreement with Yuechi 
officials forcibly returned to Sichuan to prevent him from 
petitioning in Beijing municipality.\62\ Although the 
Commission observed additional reports of violence against 
petitioners this past year, the reports did not include 
information about officials being held accountable.\63\
    During this reporting year, petitioners continued to face 
reprisals. Authorities detained petitioners, alleging criminal 
or administrative offenses including ``disrupting order in a 
public place,'' \64\ ``picking quarrels and provoking 
trouble,'' \65\ and ``obstructing official business.'' \66\ In 
addition, in the period leading up to and during the annual 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference in March 2017, authorities 
reportedly rounded up petitioners, including Hong Kong 
residents, in Beijing municipality and other locations.\67\
    Authorities reportedly targeted groups and individuals that 
supported petitioners. Between November and December 2016, 
authorities in Hubei and Sichuan provinces reportedly detained 
Liu Feiyue \68\ and Huang Qi,\69\ and arrested them on charges 
related to ``endangering state security.'' \70\ Liu and Huang 
each operated websites that monitor a range of human rights 
issues, including those that involve petitioners.\71\ A 
volunteer who worked for Huang's website suggested that Huang's 
detention was related to his investigative reports on Yang 
Tianzhi's death.\72\ In March 2017, the Fengtai District 
People's Court in Beijing tried Chang Hongyan,\73\ who 
organized protests every weekend against the violent treatment 
of petitioners, on the charge of ``obstructing official 
business.'' \74\

            Harassment of Human Rights Lawyers and Advocates

    As the UN Special Rapporteur on extreme poverty and human 
rights observed, ``the crackdown on human rights lawyers . . . 
made it very difficult for lawyers to be other than 
governmental facilitators.'' \75\ This past year, the Chinese 
government continued to detain and, in some cases, prosecute 
rights lawyers and advocates targeted during a coordinated, 
nationwide crackdown that began in and around July 2015 (July 
2015 crackdown).\76\

        <bullet> On April 28, 2017, the Tianjin No. 2 
        Intermediate People's Court sentenced rights lawyer Li 
        Heping \77\ to three years in prison, suspended for 
        four years, with four years' deprivation of political 
        rights for ``subversion of state power.'' \78\
        <bullet> On May 8, 2017, the Changsha Intermediate 
        People's Court in Hunan province tried rights lawyer 
        Xie Yang,\79\ who pleaded guilty to ``inciting 
        subversion of state power'' and ``disrupting court 
        order,'' and retracted his prior claim of having been 
        tortured.\80\ The court released Xie on bail without 
        issuing a judgment.\81\ In a statement released by 
        Xie's lawyer in January, Xie denied any wrongdoing and 
        said a plea of guilt would be a result of torture or an 
        exchange for release.\82\ Shortly after Xie's release 
        on May 10, authorities reportedly took him away to an 
        unknown location for ``recovery.'' \83\ Xie returned 
        home in August, but authorities reportedly had 
        installed multiple surveillance cameras and a 
        fingerprint-operated metal gate outside of his home, 
        which Xie asked to be removed.\84\
        <bullet> In February 2017, Tianjin authorities indicted 
        rights lawyer Wang Quanzhang \85\ on ``subversion of 
        state power.'' \86\ In July 2017, Wang's wife said that 
        she had not received any news about her husband, and 
        authorities reportedly prevented him from meeting with 
        legal counsel retained by the family.\87\
        <bullet> Disbarred rights lawyer Jiang Tianyong \88\ 
        reportedly disappeared in November 2016 after meeting 
        the wife and lawyers of Xie Yang in Changsha.\89\ On 
        December 23, Jiang's family received notice that 
        Changsha authorities had placed Jiang under 
        ``residential surveillance at a designated location'' 
        on December 1 on suspicion of ``inciting subversion of 
        state power.'' \90\ On May 31, 2017, Changsha police 
        arrested Jiang on the same charge, and held him at the 
        Changsha No. 1 PSB Detention Center.\91\
        <bullet> Tianjin authorities released rights lawyers Li 
        Chunfu \92\ and Xie Yanyi \93\ on bail in January 2017 
        after having detained them for nearly a year and a half 
        for ``subversion of state power'' and ``inciting 
        subversion of state power.'' \94\
        <bullet> On August 14, 2017, the Tianjin No. 2 
        Intermediate Court tried rights advocate Wu Gan \95\ in 
        a closed hearing for ``subversion of state power.'' 
        \96\ Procuratorial and judicial authorities reportedly 
        had remanded Wu's case for supplemental investigation a 
        total of four times \97\ over the course of his lengthy 
        pretrial detention that began in May 2015.\98\

    Authorities reportedly used arbitrary means to prevent 
lawyers from obtaining licenses to practice law. For example, 
the Fengrui Law Firm, which previously cultivated and attracted 
human rights lawyers,\99\ ceased operations when authorities 
reportedly targeted it following the July 2015 crackdown.\100\ 
In March 2017, a partner of the firm said that associates were 
unable to participate in the annual licensing examination.\101\ 
The partner added that authorities confiscated and had not 
returned the firm's accounting records and that the Beijing 
municipality justice bureau suspended the licensing examination 
partly on the ground that the firm had not conducted an annual 
audit.\102\
    Moreover, authorities reportedly harassed family members of 
those connected to the July 2015 crackdown by imposing home 
confinement,\103\ enforcing surveillance,\104\ interfering with 
their domestic and international travel,\105\ pressuring 
landlords to evict them from their residence,\106\ or ordering 
school officials to deny admission to their children.\107\

------------------------------------------------------------------------
            Regulations on Licensing of Lawyers and Law Firms
-------------------------------------------------------------------------
  Amendments to two sets of regulations governing the licensing of
 lawyers and law firms took effect this past year,\108\ highlighting the
 government and Party's policy to further control and restrict the legal
 profession in ways that may violate the UN Basic Principles on the Role
 of Lawyers.\109\ The amendments to the Measures on Managing Lawyers'
 Practice of Law and Measures on Managing Law Firms added language
 mandating lawyers to support the Party's leadership and prohibiting
 them from taking certain actions such as denying the government's
 ``cult'' designations, provoking dissatisfaction with the Party or the
 government, signing joint petitions or issuing open letters to
 undermine the judicial system, and organizing sit-in protests and other
 forms of demonstration outside judicial or other government
 agencies.\110\ The Measures on Managing Law Firms requires firms to
 establish internal Party groups that will participate in their
 policymaking and management.\111\ The amendments prompted opposition
 from some in the legal community, including a petition signed by 168
 lawyers who claimed that the regulations violated China's Constitution,
 domestic laws, and international standards.\112\ The Commission did
 not, however, observe any reports of public opposition to the
 amendments from the All China Lawyers Association, the quasi-
 governmental agency that purportedly protects the ``rights and
 interests'' of Chinese lawyers.
------------------------------------------------------------------------


                                                     Access to 
                                                        Justice
                                                Access to 
                                                Justice
    Notes to Section III--Access to Justice

    \1\ See, e.g., ``Hearing Held on First Case in Guangzhou Involving 
Employment Discrimination Against HIV-Infected Person, Plaintiff Asks 
for Renewal of Contract'' [Guangzhou shouli aizi ganranzhe jiuye qishi 
an kaiting yuangao yaoqiu xu qian hetong], Knews, 21 December 16; Li 
Yutong, ``Female Employees Win or Settle Over 80 Percent of Labor 
Disputes Involving Maternity Allowance'' [She shengyu jintie laodong 
zhengyi an nu yuangong shengsu ji tiaojie chao bacheng], Beijing News, 
7 March 17; Center for Legal Assistance to Pollution Victims, China 
University of Political Science and Law, ``Hearing on Review of `First 
Child Lead Poisoning Litigation' '' [``Ertong xieqian di yi an'' 
zaishen tingzheng], 23 December 16; Wang Le, ``Hearing Forthcoming on 
Case in Which 5 Tianjin Fishermen Sued ConocoPhillips for Oil Leak: 
Defended Rights for 3 Years, Asked To Restore Ecosystem to Pre-
Pollution Conditions'' [Tianjin 5 yumin su kangfei louyou an jiang 
kaiting: weiquan 3 nian, rang huifu wuran qian shengtai], The Paper, 8 
December 16; ``Farmer in His Sixties Who Taught Himself the Law Won 
Litigation Against SOE'' [Liuxun nongmin zixue falu guansi daying 
yangqi], Radio Free Asia, 3 February 17.
    \2\ ``Xi Jinping: Adhere to Combining the Principles of Law-Based 
and Virtue-Based Governance'' [Xi jinping: jianchi yifa zhiguo he yide 
zhiguo xiang jiehe], Xinhua, 10 December 16; Xu Jun et al., 
``Comprehensive Rule-Based Governance To Protect Fairness and Justice'' 
[Quanmian yifa zhiguo baozhang gongping zhengyi], People's Daily, 4 
March 17.
    \3\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 17, 16-17; ``Supreme People's Procuratorate 
Work Report'' [Zuigao renmin jianchayuan gongzuo baogao], 12 March 17, 
6.
    \4\ See, e.g., Rights Defense Network, ``Jiang Tianyong's Father 
Sued Legal Daily and Procuratorial Daily for Reputation Infringement, 
Court Denied Opening Case in Violation of the Law'' [Jiang tianyong zhi 
fu qisu fazhi ribao jiancha ribao qinfan mingyu quan, fayuan weifa 
jujue li'an dengji], 22 December 16; ``Elderly Changsha Vietnam War 
Veteran Died in Home Demolition Clash, Court Refused To Accept Case and 
Authorities Seized Body'' [Changsha yuezhan laobing chaiqian chongtu 
zhong shenwang fayuan ju li'an dangju qiang shiti], Radio Free Asia, 4 
October 16; Rights Defense Network, ``Xinna: Rights Defense Path of 
Hulunbuir Herder Dahubayila'' [Xinna: hulunbei'er mumin dahubayila de 
weiquan zhi lu], 15 January 17.
    \5\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14; ``Xi Stresses 
Boosting Public Confidence in Judicial System,'' Xinhua, 25 March 15; 
Luo Shuzhen, ``Have Strength To Reform and Innovate, Continue To 
Improve Judicial Credibility, Allow the People in Each Judicial Case To 
Have the Feeling of Fair Justice'' [Yongyu gaige chuangxin buduan tigao 
sifa gongxinli rang renmin qunzhong zai mei yi ge sifa anjian zhong dou 
ganshou dao gongping zhengyi], China Court Net, 8 May 15; State Council 
Information Office, ``Progress in China's Human Rights in 2014,'' 
reprinted in Xinhua, 8 June 15. For more information on the Fourth 
Plenum Decision, see CECC, 2015 Annual Report, 8 October 15, 267-69.
    \6\ See, e.g., Luo Shuzhen, ``Zhou Qiang: Thoroughly Study the 
Implementation of the Spirit of the Sixth Plenary Session of the 18th 
Central Committee, Always Uphold the Principles of Strict Party 
Management and Strict Court Management'' [Zhou qiang: shenru xuexi 
guanche dang de shiba jie liu zhong quanhui jingshen shizhong jianchi 
congyan zhidang congyan zhiyuan], People's Court Daily, 8 December 16; 
Qi Wenxin, ``Zhou Qiang: Adhere to the Principle of Strict Party 
Management, Substantively Strengthen People's Courts' Party-Building 
Work'' [Zhou qiang: jianchi congyan zhidang qieshi jiaqiang renmin 
fayuan dangjian gongzuo], Supreme People's Court Net, 9 January 17; 
Ning Jie, ``Zhou Qiang: Resolutely Advancing People's Courts' Judicial 
Reform'' [Zhou qiang: jianding buyi tuijin renmin fayuan sifa gaige], 
Supreme People's Court Net, 23 February 17; Zhou Bin, ``Zhou Qiang 
Emphasizes Comprehensively Strengthening Party-Building Within Courts 
at National Conference on Party-Building Within Courts'' [Zhou qiang 
zai quanguo fayuan dang de jianshe gongzuo huiyi shang qiangdiao 
quanmian jiaqiang renmin fayuan dang de jianshe], Legal Daily, 24 May 
17.
    \7\ Luo Shuzhen, ``Conference of High People's Courts Presidents 
From Across the Nation Held in Beijing'' [Quanguo gaoji fayuan 
yuanzhang huiyi zai jing zhaokai], Supreme People's Court, 14 January 
17. Commission staff notes that similar language appeared in Zhou 
Qiang's speeches previously. See, e.g., ``Zhou Qiang: Provide Robust 
Legal Protection To Facilitate and Advance `The Four Comprehensives' '' 
[Zhou qiang wei xietiao tuijin ``si ge quanmian'' tigong youli sifa 
baozhang], Supreme People's Court, 25 February 15; ``Zhou Qiang: 
Promote Awareness of Catching Up, Dare To Reform and Renovate, 
Resolutely Implement Work'' [Zhou qiang: zengqiang kanqi yishi yongyu 
gaige chuangxin henzhua gongzuo luoshi], Supreme People's Court, 8 
January 16; ``Zhou Qiang: Solve Difficult Problems With Unwavering 
Confidence and Firmly Advance Judicial Reform'' [Zhou qiang: jianding 
xinxin pojie nanti zhashi tuijin sifa gaige], Supreme People's Court, 8 
July 16.
    \8\ See, e.g., Li Qiang, ``Confidently Adhere to the Path, Dare To 
Draw the Sword Against Erroneous Thought'' [Jianchi daolu zixin, ganyu 
xiang cuowu sichao liang jian], People's Court Daily, 16 January 17; 
Fan Mingzhi, ``Why China's National Conditions Do Not Allow for Copying 
of Western Judicial Independence'' [Zhongguo guoqing weihe bu yunxu 
zhaoban xifang sifa duli], People's Court Daily, 16 January 17; Lu 
Zhen, ``Promoting Erroneous Thought Endangers the Nation's Political 
Security'' [Guchui cuowu sichao weiji guojia zhengzhi anquan], People's 
Court Daily, 18 January 17.
    \9\ See, e.g., `` `Drawing a Sword Against Judicial Independence' 
Sparked Debate Among Netizens'' [``Dui sifa duli liang jian'' yinfa 
wangmin chunqiang shejian], Deutsche Welle, 16 January 17; Mai Yanting, 
``Chief Justice Zhou Qiang Publicly Rejects Judicial Independence, 
Commentary Says It Shows Regression and Violates United Nations' 
Resolution'' [Dafaguan zhou qiang gongkai fandui sifa duli pinglun 
cheng daoxing nishi jian wei lianheguo jueyi], Radio France 
Internationale, 16 January 17; ``Chinese Intelligentsia Jointly Signed 
Letter Asking Supreme Court's Zhou Qiang To `Go Away' '' [Zhongguo 
zhishijie lianshu yaoqiu zuigaoyuan zhou qiang ``zou ren''], Voice of 
America, 19 January 17; Jerome A. Cohen, ``China's Chief Justice's 
Extraordinary Statement: The Most Enormous Ideological Setback for a 
Professional Judiciary,'' Jerry's Blog, 17 January 17. According to New 
York University School of Law professor Jerome Cohen, Zhou Qiang's 
speech ``is much more threatening to the judicial cadres than the usual 
recitation about the importance of following the Party line . . .. This 
statement is the most enormous ideological setback for decades of 
halting, uneven progress toward the creation of a professional, 
impartial judiciary.''
    \10\ ``Zhou Shifeng Sentenced in First Instance Trial, Guilty of 
Subversion of State Power, Sentenced to Seven Years'' [Zhou shifeng an 
yishen dangting xuanpan dianfu guojia zhengquan zuiming chengli panchu 
youqi tuxing qi nian], Xinhua, 4 August 16. On August 4, the Tianjin 
No. 2 Intermediate People's Court tried and sentenced Zhou Shifeng to 
seven years' imprisonment. For more information on Zhou, see the 
Commission's Political Prisoner Database record 2015-00272. Other 
individuals connected to the case whom authorities also sentenced in 
August 2016 are Hu Shigen, Gou Hongguo, and Zhai Yanmin. For more 
information, see the Commission's Political Prisoner Database records 
2004-02053 on Hu Shigen, 2015-00331 on Gou Hongguo, and 2016-00115 on 
Zhai Yanmin.
    \11\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 17, 2, 16, 24.
    \12\ Amnesty International, ``China: Assault on Human Rights 
Lawyers and Activists Escalates With Convictions After Sham Trials,'' 4 
August 16; Human Rights Watch, ``China: Drop Cases Against Rights 
Lawyers,'' 17 June 16; Sarah Cook, Freedom House, ``China's Latest 
Crackdown Is Not Its Worst,'' 12 September 16; ``Rights Activists 
Denounce Achievements Touted by Top China Judge,'' Voice of America, 14 
March 17.
    \13\ ``Supreme Court President Zhou Qiang: Sentencing Rights Lawyer 
Is One of Court's Important Achievements in Past Year'' [Zuigao fayuan 
yuanzhang zhou qiang: dui weiquan lushi panxing shi qunian fayuan 
zhongda chengjiu zhiyi], Radio Free Asia, 12 March 17.
    \14\ See, e.g., Rights Defense Network, ``Wuxi Rights Defender 
Cheng Sheng Criminally Detained by Binhu PSB of Wuxi Municipality for 
Petitioning in Beijing'' [Wuxi weiquan renshi cheng sheng beijing 
shangfang zao wuxi shi binhu gong'an fenju xingshi juliu], 5 February 
17; Taiwan Association for Human Rights, ``Free Li Ming-Che: The Joint 
Statement From NGOs,'' 30 March 17; Human Rights in China, ``Human 
Rights in China: Chronicle of Major Events of Rights Defense in China 
(March 13-March 26, 2017)'' [Zhongguo renquan: zhongguo weiquan dashi 
ji (2017 nian 3 yue 13 ri 3 yue 26 ri)], 28 March 17; China Change, 
``Liu Shaoming, a 1989 Veteran and a Labor Activist, Remains Imprisoned 
Without Sentence,'' 31 May 17; ``Lawyer Says Administration Interferes 
With Judiciary in Zhao Zhenjia's Case, Not Optimistic'' [Lushi zhi zhao 
zhenjia an she xingzheng ganyu sifa burong leguan], Radio Free Asia, 11 
August 17.
    \15\ Guo Shihui, ``Donning Glory and Dream, Judicial Reform Sets 
Sail Again'' [Daishang guangrong yu mengxiang, si gai zai qihang], 
China Court Net, 29 December 16; Shan Yuxiao, ``One Month Since SPC 
Newly Added Circuit Tribunals, Third Circuit Already Began To Hear Case 
in Which Citizen Sues Official'' [Zuigaofa xin zeng xunhui fating 
manyue san xun yi kaishen min gao guan an], Caixin, 27 January 17.
    \16\ Cao Yajing, ``Taking Fast but Steady Strides, Making 
Preparations for Advancement'' [Ti ji bu wen dili qianxing], China 
Court Net, 27 October 16; Xu Li and Luo Zhijian, ``Building Unwavering 
Confidence in Socialist Judicial System With Chinese Characteristics'' 
[Jianding zhongguo tese shehui zhuyi sifa de zhidu zixin], Study Times, 
12 April 17.
    \17\ Central Commission for Discipline Inspection, ``Central Second 
Inspection Group Gives Feedback to Supreme People's Court on Itemized 
Inspection'' [Zhongyang di er xunshi zu xiang zuigao renmin fayuan 
dangzu fankui zhuanxiang xunshi qingkuang], 21 February 17. The article 
reports that the inspection group conducted individual conversations, 
received petitions from the public, and reviewed relevant documents. 
The article, however, did not provide further details on what the group 
inspected or the method it used to conduct the inspection.
    \18\ Chinese Communist Party Central Committee, Regulations on 
Chinese Communist Party Inspection Work [Zhongguo gongchandang xunshi 
gongzuo tiaoli], effective 3 August 15, arts. 14, 15. Courts were not 
within the inspection group's jurisdiction prior to the August 2015 
amendment. Chinese Communist Party Central Committee, Regulations on 
Chinese Communist Party Inspection Work (Trial) [Zhongguo gongchandang 
xunshi gongzuo tiaoli (shixing)], issued 13 July 09, art. 10.
    \19\ Supreme People's Court Chinese Communist Party Group, 
``Bulletin From the Supreme People's Court Party Group Concerning 
Status of Inspection and Rectification'' [Zhonggong zuigao renmin 
fayuan dangzu guanyu xunshi zhenggai qingkuang de tongbao], Central 
Commission for Discipline Inspection and Ministry of Supervision, 27 
April 17.
    \20\ Li Wanxiang, ``Full Jurisdictional Coverage Achieved'' 
[Shixian guanxia fanwei quan fugai], Economic Daily, 30 December 16; 
Supreme People's Court, ``Primary Reform Measures Used by Circuit 
Tribunals'' [Guanyu xunhui fating caiqu de zhuyao gaige cuoshi], 28 
January 15; Yu Ziru, ``SPC Fourth Circuit Tribunal Opens Today, Chief 
Judge Jing Hanchao: Will Cultivate This `Experimental Field' Well'' 
[Zuigaofa di si xunhui fating jinri guapai tingzhang jing hanchao: 
zhong hao zhe kuai ``shiyan tian''], Xinhua, 28 December 16; Qiu 
Yanjun, ``SPC's Fifth Circuit Tribunal Hosts Party-Themed Activity'' 
[Zuigaofa di wu xunhui fating kaizhan zhuti dangri huodong], Supreme 
People's Court Net, 3 January 17.
    \21\ Supreme People's Court, Opinion on Implementing Judicial 
Accountability (Trial) [Zuigao renmin fayuan sifa zerenzhi shishi 
yijian (shixing)], issued 31 July 17, effective 1 August 17, reprinted 
in EmpireLawyers (fakediguo), WeChat post, 13 August 17, art. 60(5).
    \22\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, items 3.1, 3.2; 
Supreme People's Court, Certain Opinions on Improving Judicial 
Accountability of the People's Courts [Zuigao renmin fayuan guanyu 
wanshan renmin fayuan sifa zerenzhi de ruogan yijian], issued 21 
September 15, arts. 15.2, 17, 25. The Chinese Communist Party Central 
Committee set forth the judicial accountability reform policy in the 
Fourth Plenum Decision in October 2014, and the Supreme People's Court 
issued a document detailing the reform measures in September 2015.
    \23\ Na Diya, ``Meng Jianzhu: The Key to Judicial Accountability 
Reform Is To Truly Carry Out Central Committee Policy'' [Meng jianzhu: 
sifa zerenzhi gaige shouxian yao buzhe bukou zhixing hao zhongyang 
zhengce], Southern Metropolitan Daily, 13 January 17.
    \24\ ``Meng Jianzhu: Ensure Immediate Effectiveness of Policies and 
Measures on Judicial Reform'' [Meng jianzhu: quebao sifa gaige zhengce 
cuoshi luodi jianxiao], Supreme People's Court Net, 30 March 17.
    \25\ ``British Media: Unprecedented Personnel Reshuffling Before 
CCP 19th Party Congress'' [Ying mei: zhonggong shijiu da qian kongqian 
renshi da xipai], Duowei News, 9 January 17.
    \26\ Supreme People's Court, Opinion on Implementing Judicial 
Accountability System and Improving Adjudication Supervision 
Administrative Mechanism (Trial) [Zuigao renmin fayuan guanyu luoshi 
sifa zerenzhi wanshan shenpan jiandu guanli jizhi de yijian (shixing)], 
issued 12 April 17, effective 1 May 17, items 1, 2. The SPC issued this 
opinion to elaborate on certain aspects of the reform laid out in an 
earlier SPC opinion issued in 2015. Supreme People's Court, Certain 
Opinions on Improving Judicial Accountability of the People's Courts 
[Zuigao renmin fayuan guanyu wanshan renmin fayuan sifa zerenzhi de 
ruogan yijian], issued 21 September 15. See also ``Q&A on Hot Topics of 
Judicial Reform'' [Sifa gaige redian wenda], People's Court Daily, 
reprinted in China Court Net, 10 April 17; Supreme People's Court, 
Opinion on Implementing Judicial Accountability (Trial) [Zuigao renmin 
fayuan sifa zerenzhi shishi yijian (shixing)], issued 31 July 17, 
effective 1 August 17, reprinted in EmpireLawyers (fakediguo), WeChat 
post, 13 August 17, art. 12; Susan Finder, ``Supreme People's Court 
Ramps Up Its Judicial Responsibility System,'' Supreme People's Court 
Monitor (blog), 13 August 17. Susan Finder noted that the official text 
of the trial implementing opinion had not been issued as of August 13, 
2017, but that several WeChat accounts had posted the document.
    \27\ See, e.g., You Chunliang and Wang Dongxing, ``Shenzhen 
Intermediate Court Comprehensively Implements Judicial Accountability 
System'' [Shenzhen zhongyuan quanmian luoshi sifa zerenzhi], Legal 
Daily, reprinted in Xinhua, 1 October 16; Li Yakun et al., ``Shenzhen 
Intermediate Court Takes the Lead in Implementing Reform on Judicial 
Accountability System'' [Shenzhen zhongyuan shuaixian luoshi sifa 
zerenzhi gaige], Southern Metropolitan Daily, 19 September 16; 
``Shenzhen Court Comprehensively Implements Judicial Accountability 
System, How To Pursue Accountability in Case Adjudication Problems? '' 
[Shenzhen fayuan quanmian luoshi sifa zerenzhi pan'an wenti ruhe 
zhuize?], Bendibao, 19 September 16.
    \28\ See, e.g., Yan Jiyong and Gao Qun, ``At Judicial 
Accountability System Reform Leading Small Group Conference Held at 
Provincial Court, Bai Quanmin Places Emphasis on Working Hard To 
Implement and Push Reform Development Continuously and Extensively'' 
[Bai quanmin zai sheng fayuan sifa zerenzhi gaige lingdao xiaozu huiyi 
shang qiangdiao puxia shenzi zhua luoshi, buduan tuidong gaige xiang 
zongshen fazhan], reprinted in Shandong Provincial High People's Court, 
27 April 17; Peng Qi, ``District-Wide Judicial Reform Report Conference 
Convenes'' [Quan qu sifa tizhi gaige huibao hui zhaokai], Tibet Daily, 
3 June 17; Zong He, ``Meeting of Provincial Party Committee Standing 
Committee Emphasizes Seriously Learning and Implementing Important 
Instructional Directive Issued by General Secretary Xi Jinping To 
Ensure Various Judicial Reforms in Our Province Are Immediately 
Effective'' [Shengwei changweihui huiyi qiangdiao renzhen xuexi guanche 
xi jinping zongshuji zhongyao pishi jingshen quebao wosheng sifa tizhi 
gaige gexiang renwu luodi jianxiao], Anhui Daily, 21 July 17.
    \29\ Hu Shihao, ``Ensure Immediate Effectiveness of Judicial 
Accountability System Reform'' [Quebao sifa zerenzhi gaige luodi 
jianxiao], People's Court Daily, 18 April 17. Problems that the 
judicial accountability reform aims to address include court presidents 
and chief judges taking part in adjudicating cases that they are not 
assigned to and ineffective supervision of associate judges. Supreme 
People's Court, Certain Opinions on Improving Judicial Accountability 
of the People's Courts [Zuigao renmin fayuan guanyu wanshan renmin 
fayuan sifa zerenzhi de ruogan yijian], issued 21 September 15, arts. 
6, 21-24.
    \30\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], 12 March 17. SPC President Zhou Qiang reported that 
courts below the SPC accepted 18 percent more new cases in 2016 than 
2015, and that the national rate of on-site case filing reached 95 
percent. Sun Quan and Gou Lianjing, ``Three Highlights Emerge in Wuxi 
Liangxi Court's `Anti-Domestic Violence' Work'' [Wuxi liangxi fayuan 
``fan jiabao'' gongzuo zaixian san liangdian], China News Service, 24 
November 16. A court in Wuxi municipality, Jiangsu province, reported 
that it had established a system to expedite case filing in domestic 
violence cases.
    \31\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4.2.
    \32\ Supreme People's Court, Provisions on Certain Issues Related 
to Case-Filing Registration [Zuigaoyuan guanyu dengji li'an ruogan 
wenti de guiding], issued 13 April 15, effective 1 May 15, arts. 2, 4-
6; Supreme People's Court, Opinion on People's Courts' Implementation 
of the Case-Filing Registration System Reform [Guanyu renmin fayuan 
tuixing li'an dengji zhi gaige de yijian], issued 15 April 15, 
effective 1 May 15, items 2.1-2.5; Supreme People's Court, Judicial 
Reform of Chinese Courts [Zhongguo fayuan de sifa gaige], February 
2016, 30.
    \33\ Ren Rong et al., Beiguan District Court, Anyang Municipality, 
Henan Province, ``How To Develop the Functions and Operations of Case-
Filing Courts'' [Guanyu li'an ting de zhineng jiqi zhineng fahui], 
Minsheng Legal Weekly, 20 December 15; Fan Chunsheng, ``Findings of a 
Court That Pioneered the Case-Filing Review System: Litigation Is No 
Longer Difficult'' [Yi jia li'an dengji zhi gaige xianxing fayuan de 
tansuo: da guansi buzai nan], Xinhua, 26 January 16.
    \34\ ``I Want To File a Case--Shanghai Judiciary's Failings Case 
Compilation (Volume 5)'' [Wo yao li'an--shanghai bu zuowei anli huibian 
(di 5 ji)], ed. Feng Zhenghu, Feng Zhenghu Blog, January 2017.
    \35\ Supreme People's Court, Provisions on Certain Issues Related 
to Case-Filing Registration [Zuigaoyuan guanyu dengji li'an ruogan 
wenti de guiding], issued 13 April 15, effective 1 May 15, art. 9. The 
SPC opinion requires courts to issue an order or decision explaining 
the basis of the court's refusal to open a case.
    \36\ ``I Want To File a Case--Shanghai Judiciary's Failings Case 
Compilation (Volume 5)'' [Wo yao li'an--shanghai bu zuowei anli huibian 
(di 5 ji)], ed. Feng Zhenghu, Feng Zhenghu Blog, January 2017.
    \37\ ``Beijing Independent Candidate Complained at People's 
Congress but No One Helped Him, Five People Assisting Campaign in 
Shanghai Administratively Detained for `Sabotaging Elections' '' 
[Beijing duli houxuanren renda tousu wuren jiedai shanghai 5 ren 
zhuxuan bei yi ``pohuai xuanju zui'' xingju], Radio Free Asia, 15 
November 16; ``Shanghai Rights Defender Feng Zhenghu Runs for People's 
Congress, Citizens Assisting Campaign Taken Away by Police'' [Shanghai 
weiquan renshi feng zhenghu canxuan renda daibiao zhuxuan minzhong zao 
jingfang daizou], Radio Free Asia, 14 November 16.
    \38\ ``5 Campaign Assistants of Feng Zhenghu Brought Litigation 
Over Their Administrative Detention, Court Did Not Accept Case'' [Feng 
zhenghu 5 ming zhuxuan bei xingju tiqi susong bu huo fayuan shouli], 
Radio Free Asia, 18 April 17.
    \39\ Ibid.
    \40\ See, e.g., Rights Defense Network, ``In an Effort To Stop 
Beijing PSB's Illegal Reprimand, Rights Defender Wu Jufang From 
Nanjing, Jiangsu, Contests and Appeals Beijing Xicheng Court's Decision 
Refusing To Open Case'' [Ezhi beijing gong'an weifa xunjie, jiangsu 
nanjing weiquan renshi wu jufang bufu beijing xicheng fayuan buyu li'an 
caiding tiqi shangsu], 21 March 17; Rights Defense Network, ``Case Not 
Opened Over One Year After Complaining of Illegality in Land Matter, Ye 
Yanqing of Yiwu Won in Remand Petition'' [Jubao tudi weifa yinian duo 
wei li'an, yiwu ye yanqing shenqing zaishen huosheng], 19 February 17; 
Rights Defense Network, ``Feidong County Court Opened Administrative 
Litigation Case Filed by Huang Kejin, Contesting Administrative 
Detention Punishment Imposed by Feidong Police for Walking Near 
Tiananmen Square'' [Huang kejin bufu feidong jingfang dui qi zai 
tian'anmen guangchang fujin xingzou xingwei de zhi'an juliu chufa zhi 
xingzheng susong huo feidong xian fayuan li'an], 28 December 16; ``709 
Crackdown: Lawyer Jiang Tianyong Formally Arrested After Expiration of 
`Residential Surveillance at a Designated Location' '' [709 da zhuabu: 
jiang tianyong lushi ``jianshi juzhu'' qiman zao zhengshi daibu], Radio 
Free Asia, 1 June 17.
    \41\ Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4.3.
    \42\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of State Security, and Ministry 
of Justice, Opinion on Promoting Trial-Centered Criminal Procedure 
System Reform [Guanyu tuijin yi shenpan wei zhongxin de xingshi susong 
zhidu gaige yijian], 10 October 16, items 8, 12, 13. The Party's 
Leading Small Group on Comprehensive Reform issued an opinion on this 
subject matter in June 2016. ``Xi Jinping: Concentrate Reform Resources 
and Activate Innovative Energy To Improve Effectiveness in Carrying Out 
Reform Work'' [Xi jinping: juji gaige ziyuan jifa chuangxin huoli 
gengjia fuyou chengxiao zhuahao gaige gongzuo], Xinhua, 27 June 16.
    \43\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of State Security, and Ministry 
of Justice, Opinion on Promoting Trial-Centered Criminal Procedure 
System Reform [Guanyu tuijin yi shenpan wei zhongxin de xingshi susong 
zhidu gaige yijian], 10 October 16, item 12. The implementing opinion 
issued by the Supreme People's Court in February 2017 retains similar 
language. Supreme People's Court, Opinion on Implementing 
Comprehensively Promoting Trial-Centered Criminal Procedure Reform 
[Guanyu quanmian tuijin yi shenpan wei zhongxin de xingshi susong zhidu 
gaige de shishi yijian], issued 17 February 17, art. 14.
    \44\ Yu Ziru, ``Chen Zhiyuan: Continue To Promote Trial-Centered 
Criminal Procedure System Reform, Work Hard To Raise `Three Rates' '' 
[Chen zhiyuan: jixu tuijin yi shenpan wei zhongxin de xingshi susong 
zhidu gaige lizheng tigao ``san lu''], Xinhua, 12 March 17. See also 
``Supreme People's Court Work Report'' [Zuigao renmin fayuan gongzuo 
baogao], 12 March 17, 13.
    \45\ Liu Jingkun, ``Supreme People's Court Prepares To Start the 
`Three Procedures' Pilot Program'' [Zuigao fayuan bushu kaizhan 
``sanxiang guicheng'' shidian gongzuo], People's Court Daily, 11 June 
17.
    \46\ Zhou Qiang, ``Supreme People's Court Report on the Status of 
Deepening Judicial Disclosure and Promoting Access to Justice'' [Zuigao 
renmin fayuan guanyu shenhua sifa gongkai, cujin sifa gongzheng 
qingkuang de baogao], National People's Congress, 5 November 16. See 
also Chinese Communist Party Central Committee, Decision on Several 
Major Issues in Comprehensively Advancing Governance of the Country 
According to Law [Zhonggong zhongyang guanyu quanmian tuijin yifa 
zhiguo ruogan zhongda wenti de jueding], 28 October 14, item 4.4.
    \47\ Ibid.
    \48\ Supreme People's Court, Provisions on Publishing Case 
Judgments Online by People's Courts [Guanyu renmin fayuan zai 
hulianwang gongbu caipan wenshu de guiding], issued 25 July 16, 
effective 1 October 16, art. 6.
    \49\ Annual Report on China's Rule of Law, No. 15 (2017) [Zhongguo 
fazhi fazhan baogao no. 15 (2017)], eds. Li Lin and Tian He (Beijing: 
Social Sciences Academic Press (China), 2017), 241-42.
    \50\ Amnesty International, ``China's Deadly Secrets,'' April 2017, 
8, 27-28.
    \51\ Hao Xixi, ``Some Thoughts on Improving the Quality of Legal 
Aid Services'' [Dui tigao falu yuanzhu fuwu zhiliang de jidian sikao], 
China Court Net (Baotou Development District Court), reprinted in China 
Legal Aid Net, 14 October 16.
    \52\ Ministry of Justice and Ministry of Finance, Opinion on 
Lawyers Carrying Out Legal Aid Work [Guanyu lushi kaizhan falu yuanzhu 
gongzuo de yijian], issued 17 February 17, item 5. See also Wang Qian 
``Vice Minister of Justice Zhao Dacheng Offers Detailed Explanation for 
`Opinion on Lawyers Carrying Out Legal Aid Work' '' [Sifabu fubuzhang 
zhao dacheng xiangjie ``guanyu lushi kaizhan falu yuanzhu gongzuo de 
yijian''], Xinhua, 9 March 17.
    \53\ Supreme People's Court, Supreme People's Procuratorate, and 
Ministry of Justice, Opinion on Gradually Implementing Legal 
Representation System in Criminal Case Petitions [Guanyu zhubu shixing 
lushi daili shensu zhidu de yijian], issued 1 April 17, arts. 1, 4, 5.
    \54\ PRC Criminal Procedure Law [Zhonghua renmin gongheguo xingshi 
susong fa], passed 1 July 79, amended 17 March 96, 14 March 12, 
effective 1 January 13, art. 241; Zhou Bin, ``SPP Criminal Case 
Petition Division Director Explains Procuratorate's Work in Criminal 
Case Petitions: Firmly Guard Against Wrongful Convictions'' [Zuigaojian 
xingshi shensu ting tingzhang jiedu xingshi shensu jiancha gongzuo: 
shoulao fangzhi yuanjia cuo'an dixian], Legal Daily, reprinted in 
Supreme People's Procuratorate, 22 February 17.
    \55\ Aaron Halegua, ``Who Will Represent China's Workers? Lawyers, 
Legal Aid, and the Enforcement of Labor Rights,'' New York University 
School of Law, U.S.-Asia Law Institute, October 2016, 23.
    \56\ Regulations on Letters and Visits, issued 5 January 05, 
effective 1 May 05; Benjamin L. Liebman, ``A Populist Threat to China's 
Courts? '' in Chinese Justice: Civil Dispute Resolution in Contemporary 
China, eds. Margaret Y.K. Woo and Mary E. Gallagher (Cambridge: 
Cambridge University Press, 2011); Liang Shibin, ``Resolutely Fight To 
Win the Battle on Clearing Backlog of Petitioning Cases'' [Jianjue da 
ying huajie xinfang ji'an gong jian zhan], Legal Daily, 27 April 16. 
Such grievances reportedly include cases concerning demolition or 
expropriation of property, social security, agriculture, land and 
resources, and environmental protection.
    \57\ See, e.g., ``Over Ten Thousand Temporary Teachers From 29 
Provinces and Municipalities Caused Another National Group Petitioning 
Movement'' [29 shengshi yu wan ming minban jiaoshi zai xian quanguo 
jiti shangfang chao], Radio Free Asia, 19 October 16; ``Two Thousand 
Petitioners From Shaanxi Went Petitioning at Provincial Letters and 
Visits Bureau, Ask for Release of Rights Defense Representative'' 
[Shaanxi liangqian min shi sheng xinfang ju shangfang yaoqiu shifang 
weiquan daibiao], Radio Free Asia, 13 April 17.
    \58\ See, e.g., Liu Yuguo, ``Chengdu Establishes a New Platform for 
`Sunshine Petitioning' '' [Chengdu dazao ``yangguang xinfang'' xin 
pingtai], People's Daily, 4 May 16; Liu Guiying, ``Problems and 
Improvements of the Grassroots Petitioning System'' [Jiceng xinfang 
zhidu cunzai de wenti ji wanshan], People's Tribune, 23 March 16; Xu 
Dandan, ``Discussion of Shortcomings of China's Petitioning System and 
Their Solutions'' [Qiantan zhongguo xinfang zhidu de biduan ji qi 
jiejue tujing], Feiyang Net, 27 February 16.
    \59\ State Bureau of Letters and Visits, ``State Bureau of Letters 
and Visits Convenes Press Conference To Explain `Implementing Measures 
on Letters and Visits Accountability System' '' [Guojia xinfang ju 
zhaokai xinwen tongqi hui jiedu ``xinfang gongzuo zerenzhi shishi 
banfa''], 26 October 16.
    \60\ Guo Hongmin, ``Record-Deleting `Money-Hoarding Syndicate' of 
State Bureau of Letters and Visits'' [Guojia xinfang ju de xiaohao 
``liancai tuan''], Prosecutorial View, 2 May 17.
    \61\ Chinese Communist Party Central Committee General Office and 
State Council General Office, Measures on Implementing Calls and Visits 
Accountability System [Xinfang gongzuo zeren zhi shishi banfa], 
effective 8 October 16, arts. 9, 11.
    \62\ Yuechi County Public Security Bureau (Yuechi gong'an), 
``Report Regarding the Death of Yang Tianzhi'' [Guanyu yang tianzhi 
siwang anjian de qingkuang baogao], Weibo post, 12 November 16. See 
also Wu Yang, ``Report From Yuechi, Sichuan, Regarding `Interception 
and Detention of Male Petitioner in His 70s Resulted in Death': 9 
Individuals Taken Into Custody, County Commission for Discipline 
Inspection Starts Accountability Mechanism'' [Sichuan yuechi tongbao 
``jie fang jujin zhi 7 xun nanzi siwang'': zhuahuo 9 ren xian jiwei 
qidong wenze], China Youth Daily, 14 November 16.
    \63\ See, e.g., ``Over a Thousand Petitioners From Different Places 
Gather in Beijing To Protest Violent Interception of Petitioners'' [Yu 
qian gedi fangmin beijing kangyi baoli jie fang], Radio Free Asia, 28 
November 16; ``Pregnant Petitioner From Heilongjiang Sent Home With 
Mouth and Body Bound'' [Heilongjiang yunfu fangmin zao feng kou kunbang 
qianfan], Radio Free Asia, 23 January 17; Voice of Petitioners, ``Over 
a Hundred Old Veterans From Sichuan Petitioned at Provincial Civil 
Affairs Department and Were Violently Driven From Scene'' [Sichuan bai 
yu tuiwu laobing sheng min zheng ting qingyuan bei baoli qingchang], 8 
February 17.
    \64\ See, e.g., ``Arrest for Shenyang Petitioner Lin Mingjie 
Approved, Guangdong Rights Defender Xiao Yuhui Criminally Detained'' 
[Shenyang fangmin lin mingjie bei pi bu guangdong weiquan renshi xiao 
yuhui zao xingju], Radio Free Asia, 7 October 16; Voice of Petitioners, 
``Liaoning Dalian Zhou Jinxia Detained for `Abnormal' Petitioning'' 
[Liaoning dalian zhou jinxia yin ``feizhengchang'' shangfang bei 
juliu], 15 March 17; Voice of Petitioners, ``Wuhan's Jiang Yanchun 
Released on Bail After 36 Days' Arbitrary Detention'' [Wuhan jiang 
yanchun zao renyi jiya 36 tian hou qubao shifang], 4 January 17.
    \65\ See, e.g., Voice of Petitioners, ``Wuhan's Jiang Yanchun 
Released on Bail After 36 Days' Arbitrary Detention'' [Wuhan jiang 
yanchun zao renyi jiya 36 tian hou qubao shifang], 4 January 17; 
``Hubei Rights Defender Ding Yuanshun Released on Bail'' [Hubei weiquan 
renshi ding yuanshun bei qubao], Radio Free Asia, 16 January 17; Rights 
Defense Network, ``Rights Defender Zhao Zhenjia Arrested, Urgent Need 
for Human Rights Lawyer To Provide Legal Aid'' [Renquan hanweizhe zhao 
zhenjia bei daibu, ji xu renquan lushi tigong falu yuanzhu], 25 
February 17.
    \66\ Rights Defense Network, ``Shanghai Rights Defender Ding Deyuan 
Criminally Detained for `Obstructing Official Business,' Tortured in 
PSB Detention Center'' [Shanghai renquan hanweizhe ding deyuan zao 
jingfang yi ``fang'ai gongwu zui'' xingju kanshousuo zao nuedai], 14 
November 16; ``Hundreds of Sent-Down Youth Clash With Police While 
Defending Rights in Shanghai, One Person Criminally Detained'' 
[Shanghai shubai zhiqing weiquan yu jingfang chongtu yi ren bei 
xingju], Radio Free Asia, 16 September 16.
    \67\ See, e.g., Voice of Petitioners, ``Two Sessions Nearing, Many 
Petitioners Detained or Lost Contact'' [Lianghui linjin duoming fangmin 
zao zhuabu shilian], 2 March 17; ``Social Stability During `Two 
Sessions': Petitioners in Beijing Continue To Be Intercepted by Local 
Authorities, Internet Space Narrows'' [``Lianghui'' weiwen: zai jing 
fangmin chixu zao difang dangju lanjie wangluo kongjian shouzhai], 
Radio Free Asia, 2 March 17; ``Government on Guard as Two Sessions in 
China Convene, Many Petitioners Detained'' [Zhongguo lianghui zhaokai 
dangju yanzhen yidai duoming fangmin bei juliu], Radio Free Asia, 5 
March 17; ``As Two Sessions Nears, Petitioners From Hong Kong Said To 
Be Taken Away or Subjected to Soft Detention'' [Quanguo lianghui linjin 
gangren fangmin chuan zao daizou huo ruanjin], Oriental Daily, 27 
February 17.
    \68\ For more information on Liu Feiyue, see the Commission's 
Political Prisoner Database record 2016-00460.
    \69\ For more information on Huang Qi, see the Commission's 
Political Prisoner Database record 2004-04053.
    \70\ Rights Defense Network, ``Bulletin on Civil Rights & 
Livelihood Watch Director Liu Feiyue's Case: Family Members Receive 
`Arrest Notice' From Suizhou Municipality, Hubei, PSB'' [Minsheng 
guancha fuzeren liu feiyue an tongbao: jiashu shoudao hubei suizhou shi 
gong'anju fa de ``daibu tongzhishu''], 11 January 17; Rights Defense 
Network, ``Mainland NGO `64 Tianwang' Director Huang Qi Arrested by 
Authorities'' [Dalu NGO ``liusi tianwang'' fuzeren huang qi yi bei 
dangju zhixing daibu], 20 December 16; ``Sichuan State Security Summon 
Tianwang Volunteers in Close Succession To Collect Evidence, Huang Qi 
Suspected of Serious Criminal Offenses'' [Sichuan guobao miji chuanhuan 
tianwang yigong souzheng zhi huang qi she yanzhong xingshi zuixing], 
Radio Free Asia, 5 December 16.
    \71\ Civil Rights & Livelihood Watch, ``Introduction to CRLW'' 
[Minsheng jianjie], last visited on 28 March 17; `` `64 Tianwang' 
Founder Huang Qi Detained, Home Raided by Police'' [``Liusi tianwang'' 
chuangbanren huang qi zao jingfang chaojia jiya], Radio Free Asia, 29 
November 16.
    \72\ ``Sichuan State Security Summon Tianwang Volunteers in Close 
Succession To Collect Evidence, Huang Qi Suspected of Serious Criminal 
Offenses'' [Sichuan guobao miji chuanhuan tianwang yigong souzheng zhi 
huang qi she yanzhong xingshi zuixing], Radio Free Asia, 5 December 16.
    \73\ For more information on Chang Hongyan, see the Commission's 
Political Prisoner Database record 2017-00109.
    \74\ ``Hearing Held on Heilongjiang Petitioner Chang Hongyan's 
Case, Petitioners Detained for Showing Support Outside Court'' 
[Heilongjiang fangmin chang hongyan an kaiting fangmin fayuan wai 
shengyuan bei zao zhuabu], Radio Free Asia, 2 March 17. See also Rights 
Defense Network, ``Chang Hongyan, Host of `Petitioners Saturday,' Taken 
Into Custody in Lu Village, Beijing, Arrest Approved on Suspicion of 
Obstructing Official Business'' [``Fangmin xingqi liu'' zhuchiren chang 
hongyan zai beijing lu cun bei yi shexian fanghai gongwu zui pibu 
zhuazou], 21 January 17; ``Petitioner Chang Hongyan Arrested in 
Beijing, Zhao Zhenjia Detained for Organizing Signed Petition To Oppose 
Interception of Petitioners'' [Fangmin chang hongyan zai jing zao daibu 
zhao zhenjia zuzhi fan jiefang qianming bei zhua], Radio Free Asia, 20 
January 17; Rights Defense Network, ``Fengtai District Procuratorate in 
Beijing Indicts Heilongjiang Rights Defender Chang Hongyan for 
`Obstructing Official Business,' Because of Observing Interception of 
Petitioners'' [Heilongjiang weiquan renshi chang hongyan yin weiguan 
jiefang mianlin bei beijing fengtai qu jianchayuan yi ``fanghai gongwu 
zui'' qisu], 27 December 16.
    \75\ UN Human Rights Council, Report of the Special Rapporteur on 
Extreme Poverty and Human Rights on His Mission to China, Philip 
Alston, A/HRC/35/26/Add.2, 28 March 17, para. 72.
    \76\ See, e.g., Josh Chin and Te-Ping Chen, ``China Targets Human-
Rights Lawyers in Crackdown,'' Wall Street Journal, 12 July 15; Human 
Rights Watch, ``China: Secretly Detained Lawyers at Risk of Torture,'' 
20 July 15; Huang Qingchang and Zou Wei, ``Revealing the Dark Secrets 
of `Rights Defense' Incidents'' [Jiekai ``weiquan'' shijian de heimu], 
Xinhua, 11 July 15.
    \77\ For more information on Li Heping, see the Commission's 
Political Prisoner Database record 2015-00284.
    \78\ Human Rights Campaign in China, ``July 9 Crackdown: Lawyer Li 
Heping Secretly Tried by Tianjin No. 2 Intermediate Court on April 25, 
Sentenced on April 28 To Serve Three Years, Suspended for Four'' [709 
da zhuabu li heping lushi yu 4 yue 25 ri zao tianjin er zhong yuan mimi 
shenpan 4 yue 28 ri xuanpan huoxing san nian huanqi si nian zhixing], 
28 April 17.
    \79\ For more information on Xie Yang, see the Commission's 
Political Prisoner Database record 2015-00295.
    \80\ Josh Chin, ``China Court Says Lawyer Retracts Torture Charge; 
Wife Calls Trial a Farce,'' Wall Street Journal, 8 May 17.
    \81\ Ibid.
    \82\ ``709 Crackdown: Letter Written by Xie Yang Revealed, Says He 
Has Not `Pleaded Guilty'; Li Wenzu Received Death Threat'' [709 da 
zhuabu: xie yang qinbi xin baoguang fou ``renzui'' li wenzu zao siwang 
weixie], Radio Free Asia, 8 March 17.
    \83\ Ye Xuan, ``Xie Yang Released on Bail but Is Forced To 
`Recover,' Wife and Daughters' Escape Experience Revealed'' [Xie yang 
qubao huoshi you bei ``liaoyang'' qi nu taowang lixian bei pilu], 
Deutsche Welle, 11 May 17; Chen Guiqiu, ``I Hope That Xie Yang Will Be 
Truly Free'' [Chen guiqiu: xiwang xie yang huode zhenzheng de ziyou], 
Amnesty International, 10 May 17.
    \84\ ``Hunan 709 Lawyer Xie Yang Returns Home, Asks That 
Surveillance Installations Be Dismantled'' [Hunan 709 lushi xie yang 
chongfan jiazhong yaoqiu chaichu jiankong sheshi], Radio Free Asia, 9 
August 17.
    \85\ For more information on Wang Quanzhang, see the Commission's 
Political Prisoner Database record 2015-00278.
    \86\ Rights Defense Network, ``July 9 Case Bulletin: Lawyer Wang 
Quanzhang Indicted for Subversion of State Power'' [709 an tongbao: 
wang quanzhang lushi bei yi dianfu guojia zhengquan zui qisu], 15 
February 17.
    \87\ Li Wenzu et al., ``Sincerely Invite CCTV To Interview Family 
of Lawyer Wang Quanzhang in 709 Crackdown'' [Li wenzu deng: chengzhi 
yaoqing CCTV caifang 709 da zhuabu wang quanzhang lushi de jiating], 
reprinted in Independent Chinese PEN Center, 5 July 17; ``Lawyer's 
Application for Meeting Denied, Wang Quanzhang `Disappeared' Again'' 
[Lushi shenqing huijian bei ju wang quanzhang zaidu ``shizong''], Radio 
Free Asia, 31 July 17.
    \88\ For more information on Jiang Tianyong, see the Commission's 
Political Prisoner Database record 2011-00179.
    \89\ Rights Defense Network, ``Record of Developments in Forcible 
Disappearance Incident of Rights Lawyer Jiang Tianyong (Through 
December 4, 2016)'' [Renquan lushi jiang tianyong zao qiangpo shizong 
shijian jinzhan jilu (jiezhi 2016 nian 12 yue 4 ri)], 4 December 16.
    \90\ ``Jiang Tianyong Detained Over a Month, Family Just Received 
Residential Surveillance Notice'' [Jiang tianyong bei zhua yu yue 
jiashu cai jie jian ju tongzhi], Radio Free Asia, 23 December 16.
    \91\ Rights Defense Network, ``Jiang Tianyong's Arrest Approved on 
Suspicion of `Subversion of State Power,' His Father Today Formally 
Received Arrest Notice'' [Jiang tianyong bei she ``dianfu guojia 
zhengquan zui'' pibu qi fu jinri zhengshi shoudao daibu tongzhishu], 5 
June 17.
    \92\ For more information on Li Chunfu, see the Commission's 
Political Prisoner Database record 2015-00311.
    \93\ For more information on Xie Yanyi, see the Commission's 
Political Prisoner Database record 2015-00308.
    \94\ Human Rights in China, ``Detained in `709' [Crackdown], Lawyer 
Li Chunfu Released on Bail, Physical and Mental Conditions Abnormal'' 
[``709'' bei bu lushi li chunfu qubao houshen, shenxin zhuangkuang 
yichang], 13 January 17; ``709 Incident Lawyer Li Chunfu Driven Insane 
After 1 and a Half Years of Torture'' [709 shijian lushi li chunfu zao 
1 nian ban kuxing bifeng], Radio Free Asia, 14 January 17; ``Human 
Rights Lawyer Xie Yanyi Still Not Free After Release on Bail'' [Renquan 
lushi xie yanyi qubao houshen hou reng bu ziyou], Voice of America, 6 
January 17.
    \95\ For more information on Wu Gan, see the Commission's Political 
Prisoner Database record 2010-00348.
    \96\ ``Authorities Acted As If Facing Enemy During Wu Gan's Closed 
Trial, About 20 Citizens Detained Outside Courthouse'' [Wu gan an bimen 
shenli dangju rulin dadi yue 20 gongmin fayuan wai bei zhua], Radio 
Free Asia, 14 August 17. See also Human Rights Campaign in China, 
``Butcher Wu Gan Case: Tianjin Municipal People's Procuratorate Second 
Branch Indicts Him on Suspicion of Subversion of State Power for 
Behavior Including Online Essays, Raising Banners in Front of Court, 
Posting Videos on the Internet, Holding Signs, Collecting Donations for 
the Jiansanjiang Case, Submitting a Complaint Letter, and Posting Big-
Character Posters'' [Tufu wu gan an tianjin shi renmin jianchayuan di 
er fen yuan yi tufu wangshang wenzhang, fayuan menkou la hengfu, 
luxiang shangchuan dao hulianwang, ju pai, jiansanjiang an mujuan, 
dijiao konggao xin, zhangtie dazibao deng xingwei qisu qi dianfu guojia 
zhengquan zui], 4 January 17.
    \97\ ``709 Wu Gan's Case Returned for Investigation Again, Jiang 
Tianyong Continues To Be Denied Counsel Meeting'' [709 an wu gan zai 
tui zhen jiang tianyong reng jinjian lushi], Radio Free Asia, 21 July 
17.
    \98\ Rights Defense Network, ``Urgent Attention: Human Rights 
Defender Butcher (Wu Gan) Detained at Jiangxi High Court Gates'' [Jinji 
guanzhu: weiquan renshi tufu (wu gan) zai jiangxi gaoyuan menkou 
beizhua], 19 May 15.
    \99\ Sida Liu and Terence C. Halliday, Criminal Defense in China: 
The Politics of Lawyers at Work (Cambridge: Cambridge University Press, 
2016), 113.
    \100\ ``Zhou Shifeng: Chinese Law Firm Founder Jailed for 
Subversion,'' BBC, 4 August 16.
    \101\ ``Liu Xiaoyuan Criticizes Government for Engaging in Cultural 
Revolution Style Persecution by Association in 709 Case'' [Liu xiaoyuan 
piping 709 an dangju gao wenge shi zhulian], Radio Free Asia, 22 March 
17.
    \102\ Ibid.
    \103\ ``Wang Yu's Lawyer Yu Wensheng Went to Inner Mongolia To 
Visit Her With No Result'' [Wang yu daili lushi yu wensheng fu neimeng 
tanwang wu guo], Radio Free Asia, 10 October 16.
    \104\ ``Family Members in 709 Case Harassed, Beijing Seems To 
Conclude Case in Haste'' [709 an jiashu zao saorao beijing si jiyu 
jie'an], Voice of America, 3 May 17; Human Rights Campaign in China, 
``709 Crackdown: Surveillance on 709 Family Escalates, Li Heping's Wife 
Wang Qiaoling Worried She Might Be Forcibly Disappeared and Leaves Last 
Words in Case of Unforeseen Circumstances'' [709 da zhuabu shijian 709 
jiashu jiankong shengji li heping qizi wang qiaoling danxin bei shizong 
tiqian liuxia yiyan yifang buce], 7 April 17; ``Li Wenzu's Efforts To 
Rent Home Thwarted, Yuan Shanshan's Family Harassed'' [Li wenzu zufang 
shouzu yuan shanshan jiaren bei saorao], Radio Free Asia, 29 August 16.
    \105\ ``Over a Hundred Lawyers in China Issued Joint Letter Calling 
for Release of Human Rights Lawyer and His Family'' [Zhongguo bai ming 
lushi lianshu cu shifang renquan lushi ji jiaren], Voice of America, 4 
May 17; Gerry Shih, ``AP Exclusive: China Lawyer's Family Says US 
Helped Them Flee,'' Associated Press, 9 May 17.
    \106\ ``709 Lawyer Xie Yanyi's Wife Faces Pressure and Eviction'' 
[709 lushi xie yanyi qizi zao shiya poqian], Radio Free Asia, 19 
October 16; ``Li Wenzu's Efforts To Rent Home Thwarted, Yuan Shanshan's 
Family Harassed'' [Li wenzu zufang shouzu yuan shanshan jiaren bei 
saorao], Radio Free Asia, 29 August 16.
    \107\ Civil Rights & Livelihood Watch, ``Lawyer Chen Jian'gang 
Faces Difficult Situation Again, His Child Denied Admission to School'' 
[Haizi shangxue bei ju chen jian'gang lushi you yu buke miaoshu de 
zhuangkuang], 16 May 17; ``709 Case: Li Wenzu's Son Prevented From 
Attending School by State Security, Lawyer Zhang Kai Harassed by 
Police'' [709 an: li wenzu erzi bei guobao zunao wufa shangxue zhang 
kai lushi zao jingcha saorao], China Free Press, 1 September 16.
    \108\ Ministry of Justice, Measures on Managing Lawyers' Practice 
of Law [Lushi zhiye guanli banfa], issued 28 May 08, amended 18 
September 16, effective 1 November 16; Ministry of Justice, Measures on 
Managing Law Firms [Lushi shiwusuo guanli banfa], issued 28 May 08, 
amended 30 November 12, 6 September 16, effective 1 November 16.
    \109\ Basic Principles on the Role of Lawyers, Adopted by the 
Eighth United Nations Congress on the Prevention of Crime and the 
Treatment of Offenders, Havana, Cuba, 27 August to 7 September 1990, 
preamble, arts. 20, 23. The Basic Principles on the Role of Lawyers 
emphasizes the right of having access to an independent legal 
profession and grants lawyers freedom of expression and association, as 
well as civil and penal immunity for good faith statements made in the 
course of carrying out their duties.
    \110\ Ministry of Justice, Measures on Managing Lawyers' Practice 
of Law [Lushi zhiye guanli banfa], issued 28 May 08, amended 18 
September 16, effective 1 November 16, arts. 2, 37-40; Ministry of 
Justice, Measures on Managing Law Firms [Lushi shiwusuo guanli banfa], 
issued 28 May 08, amended 30 November 12, 6 September 16, effective 1 
November 16, arts. 3, 50. For prior versions of the measures, see 
Ministry of Justice, Measures on Managing Lawyers' Practice of Law 
[Lushi zhiye guanli banfa], issued 28 May 08, effective 18 July 08; 
Ministry of Justice, Measures on Managing Law Firms [Lushi shiwusuo 
guanli banfa], issued 28 May 08, effective 18 July 08.
    \111\ Ministry of Justice, Measures on Managing Law Firms [Lushi 
shiwusuo guanli banfa], issued 18 July 08, amended 30 November 12, 6 
September 16, effective 1 November 16, art. 4.
    \112\ ``Proposal To Duly Repeal Measures on Managing Law Firms 
Recently Issued by Ministry of Justice'' [Yifa chexiao sifabu xin ban 
lushi shiwu suo guanli banfa de jianyi shu], 30 September 16, reprinted 
in Constitution and Human Rights Net, 9 October 16. Other legal 
professionals and NGOs likewise voiced opposition to the amendments. 
See, e.g., ``Three Human Rights Lawyers Call for Repealing 
Unconstitutional Measures on Managing Law Firms'' [San renquan lushi 
huyu chexiao weixian de lusuo guanli banfa], Radio Free Asia, 27 
September 16; ``Chinese Ministry of Justice's Measures on Managing Law 
Firms Caused Discontent, Lawyer Wang Quanping Alleges Minister Wu 
Aiying Responsible for Violating Law and Dereliction of Duty'' 
[Zhongguo sifabu lusuo guanli banfa yin buman lushi wang quanping 
konggao buzhang wu aiying weifa shizhi], Radio Free Asia, 27 October 
16; ``China Issues Another Amendment, New Rules on Measures on Managing 
Lawyers' Practice of Law, Lawyers Issue Statement of `Four Refusals' '' 
[Zhongguo zai xiuding lushi zhiye guanli xin gui lushi fabiao ``si bu'' 
shengming], Radio Free Asia, 21 October 16; Yu Pinjian, ``Angrily 
Denouncing Ten Violations of Measures on Managing Law Firms!' '' [Nuchi 
xin ``lushi shiwusuo guanli banfa'' zhi shi zong zui!], Yu Pinjian's 
Blog, 16 October 16; Chinese Human Rights Defenders, ``Revised Measures 
on Law Firms Further Curb Independence of Chinese Lawyers (9/21-10/3, 
2016),'' 3 October 16; Human Rights Watch, ``China: New Rules Gag 
Lawyers,'' 25 October 16; Human Rights Now, ``Day of the Endangered 
Lawyer 2017,'' 24 January 17, 1-3.

                                                       Xinjiang
                                                Xinjiang

                              IV. Xinjiang


                     Security Measures and Conflict

    During the Commission's 2017 reporting year, central and 
regional government authorities introduced new security 
measures and expanded implementation of existing security 
controls targeting Uyghur communities and individuals in the 
Xinjiang Uyghur Autonomous Region (XUAR). According to official 
statistics, XUAR authorities spent 30.05 billion yuan 
(approximately US$4.43 billion) on public security in 2016, 
nearly 20 percent more than the previous year.\1\ After Chen 
Quanguo became XUAR Communist Party Secretary in August 2016, 
replacing Zhang Chunxian,\2\ regional authorities implemented a 
number of new security measures.\3\ These included, but were 
not limited to, the installation of ``convenience police 
stations'' throughout the region, including 949 in the regional 
capital Urumqi alone; \4\ the convening of mass anti-terrorism 
rallies; \5\ the recruitment of tens of thousands of security 
personnel from both within and outside of the XUAR; \6\ the 
implementation of a ``double-linked household'' (shuanglian hu) 
system; \7\ and the mandatory installation of satellite-
tracking devices on vehicles in one prefecture in the XUAR.\8\ 
Chen previously implemented some of these measures in the Tibet 
Autonomous Region (TAR), where he served as Party Secretary for 
five years,\9\ and many international observers expressed the 
view that central government and Party authorities sought, 
through Chen's appointment, to enhance ``stability'' and 
security in the XUAR, using a more hardline approach than his 
predecessor.\10\ Australian scholar James Leibold criticized 
recent security measures in the XUAR as ``counterproductive'' 
and ``disproportional to the actual threat posed,'' and said 
such measures ``[threaten] to make China's problem with terror 
far more serious and complex in the future.'' \11\

        <bullet> ``Convenience police stations.'' Among the 
        security initiatives that Chen Quanguo introduced to 
        the XUAR was the establishment of ``convenience police 
        stations'' (bianmin jingwu zhan).\12\ The stations 
        enhance authorities' ability to closely surveil and 
        police local communities, in what two international 
        scholars described as ``Orwellian levels of 
        securitization.'' \13\ In the latter part of 2016, 
        authorities recruited close to 30,000 security 
        personnel to staff the stations, which provide 
        ``convenient'' services to the community--including 
        medical supplies and mobile phone charging 
        stations.\14\ In the first seven months of 2017, 
        authorities reportedly advertised more than 53,000 
        additional security positions in the XUAR, which a 
        European researcher connected to the establishment of 
        the stations.\15\
        <bullet> Mass rallies. Beginning in December 2016, XUAR 
        authorities held mass rallies reportedly as a show of 
        force and to emphasize the need to fight terrorism and 
        violence.\16\ In February 2017, tens of thousands of 
        security personnel participated in ``anti-terror'' 
        rallies in four cities in the XUAR.\17\ On May 29, 
        during the Ramadan period, officials throughout the 
        XUAR reportedly held simultaneous mass anti-terrorism 
        rallies involving more than six million people.\18\ 
        Scholar James Leibold called the February rallies 
        ``political theatre'' showing that ``the party is in 
        firm control in Xinjiang and those who seek to resist 
        will be crushed.'' \19\
        <bullet> ``Double-linked household'' system. Officials 
        in multiple jurisdictions in the XUAR have begun 
        implementing this system, which divides households into 
        groups of 10 for the dual purposes of ``watch[ing] over 
        each other'' and poverty relief.\20\ The system is 
        reportedly aimed in part at using local communities to 
        curb security threats and ``religious extremism'' and 
        supervise individuals designated ``key persons'' of 
        interest to security authorities.\21\
        <bullet> DNA collection. According to research 
        conducted by Human Rights Watch and reporting by the 
        journal Nature, security personnel have been collecting 
        DNA samples from Uyghurs in the XUAR and from other 
        people throughout China on a massive scale, in many 
        cases without consent.\22\ International observers 
        raised the concern that officials may misuse the 
        collected biometric data to heighten security controls 
        on the Uyghur population, as officials build a database 
        of citizens' biometric information not limited to those 
        with a criminal background, as in other countries, and 
        lacking the kinds of legal safeguards other countries 
        implement to manage their DNA databases.\23\

    Several violent incidents involving ethnic or political 
tensions reportedly took place in the XUAR between December 
2016 and February 2017.\24\ These included a December attack in 
Qaraqash (Moyu) county, Hotan prefecture, in which several 
attackers--who reportedly had Uyghur names--killed a Communist 
Party official and a security guard and injured three other 
individuals using knives and an explosive device; \25\ a 
January attack in Guma (Pishan) county, Hotan, in which police 
killed three individuals whom official media outlets described 
as ``terror suspects''; \26\ and a February attack in Guma, in 
which three Uyghur men stabbed five Han Chinese pedestrians to 
death and injured five others.\27\ According to a Radio Free 
Asia report, two of the three suspects in the February attack 
were angry at local officials for clamping down on an 
``illegal'' prayer service their family had held in their 
home.\28\

                Legal and Counterterrorism Developments

    On March 29, 2017, the XUAR People's Congress adopted the 
region's first anti-extremism regulations.\29\ The regulations 
categorize 15 actions as ``extremism,'' and according to a 
Chinese legal scholar, ``[draw] a clear line between legal 
religion and illegal religion.'' \30\ While the XUAR People's 
Congress adopted regional measures in July 2016 to implement 
the PRC Counterterrorism Law that also described how 
authorities should work to counter religious extremists,\31\ 
the 2017 regional regulations provide more detailed 
descriptions of the responsibilities of XUAR government 
authorities to eliminate ``extremism.'' \32\ Measures aimed at 
countering ``extremism'' in the XUAR in recent years reportedly 
have often threatened to criminalize Uyghurs' peaceful practice 
of religious faith.\33\
    International rights groups expressed concern over Chinese 
authorities' lack of transparency in reporting information 
regarding terrorism convictions and executions. According to 
research Human Rights Watch (HRW) published in March 2017, the 
Supreme People's Court (SPC) annual work report for 2016 did 
not provide information on terrorism cases, including the 
number of people convicted on terrorism charges, as it had in 
previous years.\34\ As noted by HRW, the opacity of Chinese 
authorities' reporting on terrorism prosecution in the XUAR 
provides leeway for officials to silence critics and repress 
religious identity.\35\ Both HRW and Amnesty International 
criticized Chinese authorities' implementation of the PRC 
Counterterrorism Law, which took effect in January 2016, with 
regard to the latitude the law's wording provides officials in 
punishing individuals for ``terrorism'' and ``extremism.'' \36\ 
A report Amnesty International published in April 2017 
documented a discrepancy between death penalty cases reported 
in the Chinese media and those included in China Judgements 
Online, a publicly accessible database created by the SPC in 
July 2013.\37\ According to Amnesty International, while 
Chinese media provided information on the executions of 27 
people for incidents related to terrorism in 2014 and 2015, the 
SPC database only included approved death sentences for 10 of 
these people.\38\ Amnesty International also noted that while 
Uyghurs make up 0.7 percent of China's total population, 4 
percent of the death penalty cases included in China Judgements 
Online were of Uyghurs.\39\
    As in the previous reporting year,\40\ XUAR officials in 
some locations reportedly offered substantial monetary rewards 
for information on suspected terrorist activity.\41\ In March 
2017, Radio Free Asia reported that authorities in Guma 
(Pishan) county, Hotan prefecture, offered up to 500,000 yuan 
(approximately US$74,000) for tips on ``suspicious terrorist 
activity or suspicious individuals,'' such as ``double-faced'' 
cadres, Party members, and religious clergy,\42\ referring to 
those who ``pretend to support national unity but secretly 
spread separatism and extremism.'' \43\ Officials in several 
other counties in Hotan also reportedly offered rewards: for 
instance, in Chira (Cele) county, officials announced they 
would reward tip providers with 10,000 yuan (approximately 
US$1,500) for information on ``the suspicious activities of 
individuals returning from overseas travel.'' \44\
    XUAR Party and government authorities punished or 
criticized local officials for what they called failures to 
effectively combat religious extremism and terrorism. In April 
2017, Party authorities announced that they had punished 97 
cadres in Hotan, including those who reportedly failed to carry 
out surveillance of residents' worship at local mosques or who 
did not regulate ceremonies, such as weddings and funerals, 
according to Party policy.\45\ Among the 97 cadres was Jelil 
Matniyaz, a village Party chief, whom authorities demoted in 
part because he refused to smoke in front of religious 
figures.\46\ One Hotan official reportedly said Matniyaz's 
refusal to smoke ``conforms with extreme religious thought.'' 
\47\ Another one of the cadres was Salamet Memetimin, a village 
Party official, whom authorities reportedly punished for 
holding her marriage ceremony at home, instead of at a 
government office.\48\ In April, a senior Uyghur official 
criticized local cadres in Kashgar city, Kashgar prefecture, 
for not fulfilling their duties to fight terrorism and 
religious extremism.\49\

                           Development Policy

    During this reporting year, central and regional government 
and Party officials continued to promote the XUAR as an 
important center for Belt and Road (B&R) (also known as One 
Belt, One Road) Initiative development projects.\50\ A U.S.-
based Uyghur rights organization criticized the economic 
inequality exacerbated by official development projects, as 
well as the enhanced securitization officials employed to 
accompany such projects.\51\
    Chinese officials have expressed the belief that 
development and the reduction of poverty will lessen security 
threats. An article published by an Australian think tank in 
March 2017 cites a former Chinese ambassador to Pakistan, who 
said the economic gains of the China-Pakistan Economic 
Corridor, one of the B&R's most important initiatives, will 
help ``[tackle] the incubator of terrorism, namely poverty.'' 
\52\ The same article cites the head of the XUAR branch of the 
People's Bank of China as stating that enhancing transport 
connections between the XUAR and Central Asia will bring both 
``economic and national security dividends.'' \53\
    In March 2017, Zhu Weiqun, currently Chairman of the 
Chinese People's Political Consultative Conference Ethnic and 
Religious Affairs Committee \54\ and formerly a senior Party 
official,\55\ cautioned that due to increased cross-border 
exchanges along the Silk Road economic belt, authorities must 
seek to prevent ``religious extremism'' from arising in areas 
of northwest China with a large ethnic minority population.\56\ 
Although Zhu did not specifically mention Uyghurs in his 
speech, international media and other observers have reported 
that authorities' actions aimed at preventing ``religious 
extremism'' have frequently targeted Uyghurs' peaceful Islamic 
religious practices.\57\ Zhu stressed that the ``sinicization'' 
of Islam was vital to the success of the Silk Road economic 
belt, and Chinese authorities must cooperate with relevant 
countries to enhance security and prevent terrorism for China's 
own interest and the economic interest of these countries.\58\ 
[For more information on ``sinicization,'' see Section II--
Freedom of Religion.]
    According to research published in March 2017 by a U.S.-
based Uyghur rights organization, development initiatives in 
the XUAR have disproportionately benefited Han Chinese 
residents and simultaneously marginalized Uyghurs and other 
ethnic minorities.\59\ In its report, the organization asserted 
that central and regional government authorities used 
development projects associated with the Silk Road and B&R 
strategies to enhance securitization and state control over 
minority populations in the XUAR, and to facilitate Han 
migration to areas previously dominated by Uyghur 
communities.\60\

                          Freedom of Religion

    XUAR officials continued to use new legislation and other 
measures that narrowed the scope of Uyghur Muslims' ability to 
peacefully practice their religious faith and express their 
Muslim cultural identity. On September 29, 2016, the XUAR 
People's Congress adopted two new regulations, effective 
November 1, limiting the role of religion in education.\61\ 
Article 9 of the XUAR Regulations on the Prevention of Juvenile 
Delinquency provides that parents or guardians may not 
``organize, lure or force minors into attending religious 
activities,'' and may not ``force them to dress in extremist 
clothing or other extremist symbols.'' \62\ Article 17 of the 
regulations stipulates that educational authorities must teach 
students ``to resist ethnic separatism, extremist ideology and 
the infiltration of religion on campus.'' \63\ Article 25 of 
the XUAR Regulations on the Popularization of High School 
Education in Southern Parts of the Region stipulates that ``no 
organization or individual'' may ``coerce, lure, or in the name 
of religion obstruct or interfere with'' the high school 
education of students of a relevant age, causing them to miss 
school or drop out of school.\64\
    On March 29, 2017, the XUAR People's Congress adopted the 
XUAR Anti-Extremism Regulations, the region's first anti-
extremism regulations, defining 15 actions as ``religious 
extremism'' and containing provisions for government officials 
and the public to constrain such actions.\65\ Article 9 of the 
regulations classifies the 15 ``extremist'' actions, including 
the wearing of burqas with face coverings, spreading religious 
fanaticism through ``irregular'' beards or name selection, and 
not allowing children to receive public education.\66\ A U.S.-
based Uyghur rights organization said authorities sought to use 
the regulations to ``codify repressive actions'' in order to 
``provide a veneer of legality.'' \67\
    During the reporting period, regional officials introduced 
policies regulating some of the most personal expressions of 
Uyghurs' religious faith. The Global Times, a Party-run media 
outlet, reported in November 2016 that in September, 
authorities established new local religious and residential 
committees in some locations in the XUAR to ``manage religious 
practices.'' \68\ According to a Chinese scholar cited in the 
report, under the new pilot practice, authorities required 
local residents ``to report their religious activities or 
activities attended by religious people, including 
circumcision, weddings, and funerals.'' \69\ In April 2017, an 
international media report indicated authorities throughout the 
XUAR had begun banning baby names deemed ``extremist,'' with a 
penalty of preventing noncompliant parents from registering 
their children for household registration (hukou).\70\ Radio 
Free Asia (RFA) and Human Rights Watch reported that according 
to the ``Naming Rules for Ethnic Minorities,'' dozens of names 
with Islamic connotations, including Saddam and Medina, were 
banned.\71\ On June 1, an international media report indicated 
that XUAR authorities expanded the ban on names to cover anyone 
up to age 16.\72\ [For more information on the hukou system, 
see Section II--Population Control and Section II--Freedom of 
Residence and Movement.]
    A Hong Kong-based policy analyst wrote in February 2017 
that XUAR Party Secretary Chen Quanguo was considering reducing 
the number of mosques in the XUAR, as Chinese experts on 
Uyghurs view mosques as incubators for Islamic fundamentalism 
and anti-Chinese sentiment.\73\ Prior to this analyst's claim, 
RFA reported in December 2016 that in three months in late 
2016, authorities demolished thousands of mosques in the XUAR 
as part of a ``mosque rectification'' campaign introduced by 
central government officials and overseen by local security 
personnel.\74\ RFA said it independently confirmed the 
destruction of mosques in Kashgar, Hotan, and Aksu prefectures, 
and received reports of demolitions in other parts of the 
XUAR.\75\ RFA interviewed local officials who cited ``the 
safety of worshippers'' due to the age of the mosques among the 
official reasons for the campaign.\76\ In August 2017, RFA 
reported that authorities in Kashgar prefecture had begun 
implementing a directive earlier in the summer that ordered 
local mosques to fly the national flag of China and to replace 
religious inscriptions with patriotic banners.\77\
    According to a report from RFA, in May 2017, authorities in 
Urumqi municipality, XUAR, sentenced Uyghur religious scholar 
Hebibulla Tohti to 10 years in prison for ``illegal religious 
activity.'' \78\ In September 2015, the Islamic Association of 
China, which had sponsored his studies, reportedly praised his 
academic work upon his completion of a doctorate degree in 
theology at Al-Azhar Islamic University in Cairo, Egypt.\79\ 
Tohti reportedly returned from Egypt to the XUAR in July 2016 
when Chinese officials threatened Uyghurs studying in Egypt 
with punishment and detained their relatives, in some cases, to 
compel them to return.\80\ During his initial detention in 
July, authorities reportedly questioned Tohti about having 
taught religion to Uyghurs in Egypt without the approval of 
Chinese officials, among other ``illegal activities.'' \81\
    As in previous reporting years,\82\ XUAR officials 
reportedly imposed controls on Uyghur Muslims' observance of 
Ramadan, while heightening security measures and carrying out 
detentions of religious believers throughout the XUAR. 
Authorities placed restrictions on fasting for state employees 
and teachers,\83\ forced restaurants to remain open,\84\ and 
held events aimed at increasing ``stability maintenance'' \85\ 
work during Ramadan. In late May 2017, authorities reportedly 
detained at least 22 Uyghurs in areas in and around Hotan 
prefecture for engaging in religious activities.\86\ In 
addition, authorities reportedly assigned Chinese officials to 
stay in every Uyghur household in Hotan during Ramadan for up 
to 15 days, to prevent Uyghurs from fasting or praying.\87\

------------------------------------------------------------------------
             Authorities Crack Down on Ethnic Kazakh Muslims
-------------------------------------------------------------------------
  In 2017, authorities reportedly cracked down on ethnic Kazakh Muslim
 residents of the XUAR, detaining many for peaceful religious activities
 and for ``offenses'' such as sending online messages on emigration
 issues, as well as for having connections to friends and relatives
 living in Kazakhstan and for ``having close ties'' to Uyghur Muslims in
 the XUAR.\88\ In June 2017, officials in Wumachang township, Qitai
 county, Changji Hui Autonomous Prefecture, XUAR, reportedly issued a
 notice saying that local Muslims must obtain a permit before praying,
 or they could be detained for ``illegally engaging in religious
 activities.'' \89\ Local Kazakhs, however, said authorities
 subsequently detained many Muslims who applied for a permit, and also
 detained some local imams for presiding over prayers without having
 obtained a permit.\90\ In early 2017, authorities in Altay (Aletai)
 prefecture sentenced well-known Kazakh imam Okan to 10 years'
 imprisonment for performing traditional Kazakh funerary rites.\91\ In
 or around April, a court in Emin county, Tacheng prefecture, Yili
 Kazakh Autonomous Prefecture, sentenced Kazakh Yesihati to 10 years'
 imprisonment after he reportedly posted online content regarding
 Kazakhstan's immigration policies.\92\ In June, authorities in Changji
 Hui Autonomous Prefecture reportedly detained ethnic Kazakh imam Akmet
 for unknown reasons; several days later authorities said he had hung
 himself and returned his body to his family.\93\ XUAR authorities
 reportedly detained more than 100 of Akmet's acquaintances who made
 comments online about his death.\94\
------------------------------------------------------------------------

                         Freedom of Expression

    During this reporting year, central and regional officials 
placed restrictions on communication tools,\95\ issued 
regulations limiting the spread of ``false'' or ``harmful'' 
information,\96\ and constrained the ability of foreign 
journalists to report from the Xinjiang Uyghur Autonomous 
Region.\97\ In one example of new state controls on cell phone 
use, in or around July 2017, authorities in multiple XUAR 
jurisdictions ordered residents to install an application 
called Jingwang Weishi (or ``Web Cleansing Guard'') on their 
cell phones that enables the government to surveil their online 
activities, monitoring ``terrorist'' and ``illegal religious'' 
content.\98\ Authorities reportedly set up checkpoints to 
randomly check whether residents had installed the software on 
their phones, and those who had failed to do so faced a 
possible 10-day detention.\99\
    As in the previous reporting year,\100\ authorities 
reportedly penalized mobile phone users for downloading 
software to circumvent the Great Firewall, the censorship 
hardware and software that Chinese authorities use to filter 
the Internet.\101\ International media reported in October 2016 
that, according to an official crime report that was issued by 
public security authorities in Changji Hui Autonomous 
Prefecture and leaked on Chinese social media, public security 
authorities in Changji classified the downloading of Internet 
censorship circumvention software to a mobile device as 
``terrorist'' in nature.\102\ According to the crime report, 
Changji security personnel detained a local Internet user in 
October 2016 for allegedly downloading the software to bypass 
the Great Firewall.\103\ [For more information on Internet 
restrictions in China, see Section II--Freedom of Expression.]
    In another example of authorities' restrictions on XUAR 
residents' access to communication tools, regional authorities 
issued regulations, effective October 1, 2016, requiring 
individuals in the region to register with their real names 
before being permitted to access the Internet, including on 
their mobile phones.\104\ In December 2016, the XUAR People's 
Congress issued regulations providing for punishments for 
residents who spread ``false'' or ``harmful'' information on 
the Internet.\105\ Under the regulations, website operators who 
``create, compile, spread, release or copy'' ``false'' or 
``harmful'' content can be subject to substantial fines, and 
authorities may shut down their websites.\106\ Types of 
``false'' or ``harmful'' information covered by the regulations 
include information that is ``harmful to national security''; 
``promotes religious fanaticism, or destroys religious 
harmony''; and ``promotes ethnic hatred or ethnic 
discrimination.'' \107\

                          Freedom of Movement

    As in past reporting years,\108\ XUAR officials continued 
to restrict Uyghurs' ability to travel freely, in violation of 
Chinese law and international legal standards. Beginning in 
October 2016, authorities in locations throughout the XUAR 
reportedly ordered residents to turn their passports in to 
police, with varying deadlines of up to four months.\109\ 
Authorities subsequently required residents to seek approval 
from police for international travel in order to retrieve their 
passports.\110\ In a statement published in November, Human 
Rights Watch (HRW) likened the passport recall to similar 
restrictions in the Tibet Autonomous Region, describing it as a 
form of ``collective punishment.'' \111\ HRW said public 
security personnel in eight locations throughout the XUAR 
confirmed that regional public security bureau authorities 
issued the recall, and that authorities were implementing it 
across the XUAR.\112\ HRW described the passport recall as 
having ``no basis in Chinese law,'' and specifically noted 
Articles 2 and 15 of the PRC Passport Law.\113\ According to 
Article 2 of the law, ``no organization or individual should . 
. . illegally seize passports.'' \114\ Article 15 of the law 
limits Chinese officials' authority to seize passports to 
instances ``where necessary for handling a case,'' and only to 
passports belonging to ``the parties of a case.'' \115\ In 
addition, according to Article 12 of the International Covenant 
on Civil and Political Rights, ``[e]veryone shall be free to 
leave any country, including his own.'' \116\
    XUAR authorities also reportedly restricted the ability of 
ethnic Kazakhs to travel freely, and confiscated the Chinese 
passports and permanent residence permits for Kazakhstan of 
around 200,000 individuals, though authorities reportedly later 
returned at least some of these documents.\117\ In addition, 
XUAR officials reportedly detained some ethnic Kazakhs who 
returned to China after living in or visiting Kazakhstan.\118\
    Beginning in late January 2017, Chinese authorities 
reportedly ordered some Uyghurs studying abroad in countries 
including Egypt, Turkey, France, Australia, and the United 
States to return to the XUAR.\119\ XUAR authorities detained or 
threatened to detain relatives of some students to compel them 
to return,\120\ and reportedly detained some returnees and 
forced some students to undergo ``political reeducation.'' 
\121\ Chinese authorities reportedly threatened Uyghur and 
Kazakh students studying in Egypt with punishment if they did 
not return to China.\122\ Despite concern from international 
organizations that Chinese authorities would mistreat the 
students upon their return to China,\123\ as of August 2017, 
Egyptian authorities had reportedly forcibly deported at least 
22 individuals.\124\ Reports from July and August indicated 
that XUAR authorities had detained some Uyghurs, as well as 
their accompanying family members, upon their return, and some 
Kazakhs whom authorities deported from Egypt disappeared.\125\

                                 Labor

    Some government and private employers within the XUAR 
discriminated against non-Han job applicants. As in past 
reporting years,\126\ the Commission observed employment 
advertisements that reserved positions exclusively for Han 
Chinese, including civil servant and private sector positions, 
in contravention of Chinese labor law.\127\ Private and public 
employers also continued to reserve some positions exclusively 
for men, leaving non-Han women to face both ethnic and gender 
discrimination in the hiring process.\128\
    In a report published in April 2017, a U.S.-based Uyghur 
rights organization documented employment advertisements from 
various cities in the XUAR that discriminated against Uyghur 
job applicants, noting that employment discrimination exists in 
the fields of civil service, education, state-owned 
enterprises, and private industry.\129\ The report stated that 
in addition to ethnic discrimination, Uyghurs faced difficulty 
finding employment due to language-based, religious, and gender 
discrimination; a lack of social capital; and administrative 
costs to employers due to government requirements to enforce 
security measures for Uyghurs.\130\ Employers reportedly must 
complete ``special registration procedures'' when hiring 
Uyghurs and report regularly to public security officials on 
Uyghur employees, especially since the July 2009 demonstrations 
and riots in the regional capital of Urumqi.\131\

                                 HASHAR

    Reports emerged this past year that officials continued to 
require Uyghurs to engage in hashar, a type of forced, unpaid 
group labor for public works projects.\132\ In November 2016, a 
Germany-based Uyghur exile organization published a report 
compiling information on authorities' use of hashar as a means 
of ``stability maintenance,'' particularly in southern parts of 
the XUAR such as Kashgar, Aksu, and Hotan prefectures, and 
Bayingol Mongol Autonomous Prefecture.\133\ According to a 
February 2017 Radio Free Asia report, officials in Guma 
(Pishan) county, Hotan, told residents that they had abolished 
hashar, but also informed them they would require residents to 
perform the same type of work they had performed under hashar, 
such as flood management and tree planting.\134\ Forced labor 
violates the International Labour Organization's Convention 
Concerning Forced or Compulsory Labour.\135\

              Language Policy and ``Bilingual Education''

    During this reporting year, XUAR government authorities 
expanded Mandarin-focused ``bilingual education'' in the 
region, a policy that contravenes international law \136\ and 
that a Uyghur rights advocacy organization criticized for its 
emphasis on Mandarin-language education at the expense of other 
languages as well as for the loss of Uyghur educators' 
jobs.\137\ Under ``bilingual education,'' class instruction 
takes place primarily in Mandarin Chinese, largely replacing 
instruction in languages spoken by ethnic minority groups.\138\ 
In June 2017, education officials in Hotan prefecture, XUAR, 
reportedly issued a directive further restricting the use of 
the Uyghur language in schools through the secondary school 
level, ``in order to strengthen elementary and middle/high 
school bilingual education.'' \139\ The directive includes a 
prohibition on Uyghur-only signage on school grounds, as well 
as the use of Uyghur in schools' public activities and 
educational management work.\140\ In March 2017, state media 
announced that authorities would strengthen preschool 
``bilingual education'' in the XUAR, by building or expanding a 
total of 4,387 ``bilingual kindergartens'' and hiring 10,000 
``bilingual teachers'' in 2017.\141\ The plans continued a 
regional government initiative to expand ``bilingual 
education'' at the preschool level between 2016 and 2020 using 
central government funds.\142\ In addition, a Ministry of 
Education and State Language Commission document issued in 
March 2017 stated that the inability of some people in the 
central and western parts of China to speak Mandarin could have 
an impact on ``ethnic unity and harmony.'' \143\

                                                       Xinjiang
                                                Xinjiang
    Notes to Section IV--Xinjiang

    \1\ Xinjiang Uyghur Autonomous Region Bureau of Finance, ``Report 
on the Situation of the Implementation of the 2016 Budget for the 
Xinjiang Uyghur Autonomous Region and the 2017 Draft Budget for the 
XUAR'' [Xinjiang weiwu'er zizhiqu 2016 nian yusuan zhixing qingkuang he 
2017 nian zizhiqu yusuan cao'an de baogao], reprinted in Ministry of 
Finance, 9 January 17. See also ``China Offers Big Anti-Terror Rewards 
in Xinjiang,'' Reuters, 22 February 17; Philip Wen, ``Terror Threats 
Transform China's Uighur Heartland Into Security State,'' Reuters, 30 
March 17.
    \2\ Gabriele Battaglia, ``What Do Islamic State and Tibet Have To 
Do With China's Crackdown in Xinjiang? '' South China Morning Post, 18 
March 17.
    \3\ James Leibold and Adrian Zenz, ``Beijing's Eyes and Ears Grow 
Sharper in Xinjiang,'' Foreign Affairs, Snapshot, 23 December 16; ``New 
Xinjiang Party Boss Boosts Surveillance, Police Patrols,'' Radio Free 
Asia, 16 December 16; Adrian Zenz and James Leibold, ``Xinjiang's 
Rapidly Evolving Security State,'' Jamestown Foundation, China Brief, 
Vol. 17, Issue 4, 14 March 17, 22, 25.
    \4\ James Leibold and Adrian Zenz, ``Beijing's Eyes and Ears Grow 
Sharper in Xinjiang,'' Foreign Affairs, Snapshot, 23 December 16; 
``Urumqi Municipality To Build 949 Convenience Police Stations on Big 
Streets and in Small Alleys'' [Wulumuqi shi dajie xiao gang jiang jian 
949 ge bianmin jingwuzhan], Xinjiang Net, reprinted in Xinhua, 27 
October 16.
    \5\ Edward Wong, ``Chinese Security Forces Rally in Xinjiang in a 
Show of Power,'' New York Times, 20 February 17; Philip Wen, ``Terror 
Threats Transform China's Uighur Heartland Into Security State,'' 
Reuters, 30 March 17; ``China Holds Mass Police Rally in Xinjiang as 
Hundreds Sent to Anti-Terror `Frontline,' '' Reuters, 28 February 17; 
Wang Na, ``Xinjiang Declares War on `Three Forces' in Strongest Voice'' 
[Xinjiang yi zui qiang yin xiang ``sangu shili'' xuanzhan], Tianshan 
Net, 18 February 17.
    \6\ Adrian Zenz and James Leibold, ``Xinjiang's Rapidly Evolving 
Security State,'' Jamestown Foundation, China Brief, Vol. 17, Issue 4, 
14 March 17, 25-26; Philip Wen, ``Terror Threats Transform China's 
Uighur Heartland Into Security State,'' Reuters, 30 March 17; ``Restive 
Chinese Region Offers Rewards To Recruit More Police,'' Associated 
Press, 7 March 17; Leng Shumei, ``Xinjiang County To Recruit More 
Police Officers, Intensify Patrol Efforts,'' Global Times, 4 April 17.
    \7\ Fuyun County People's Government, ``Fuyun County Explores 
Establishment of `Double-Linked Households' Work Long-Term Mechanism'' 
[Fuyun xian tansuo jianli ``shuanglian hu'' gongzuo changxiao jizhi], 2 
August 17; He Lijiang and Gu Jingjing, ``Dolatbagh Village, Kashgar 
City, Actively Creates `Double-Linked Households' New Management 
System'' [Kashi shi duolaitebage xiang jiji dazao ``shuanglian hu'' 
guanli xin changtai], China Internet Information Center, 25 November 
16; Michael Clarke, ``China's Self-Defeating Counter-Terrorism Strategy 
in Xinjiang,'' University of Nottingham, IAPS Dialogue, 16 February 17; 
Nectar Gan, ``Passports Taken, More Police . . . New Party Boss Chen 
Quanguo Acts To Tame Xinjiang With Methods Used in Tibet,'' South China 
Morning Post, 12 December 16.
    \8\ Lu Hang, ``Bayingol [Mongol] AP To Install `Beidou Positioning 
System + Electronic License Plate' in Motor Vehicles'' [Bazhou jidong 
che jiang anzhuang ``beidou dingwei + dianzi chepai''], Loulan News, 7 
February 17; ``Vehicles To Get Compulsory GPS Tracking in Xinjiang,'' 
Radio Free Asia, 20 February 17; Li Ruohan, ``All Vehicles in Bayingol, 
Xinjiang To Install Navigation System To `Safeguard Stability,' '' 
Global Times, 20 February 17.
    \9\ Nectar Gan, ``Passports Taken, More Police . . . New Party Boss 
Chen Quanguo Acts To Tame Xinjiang With Methods Used in Tibet,'' South 
China Morning Post, 12 December 16; ``The Extraordinary Ways in Which 
China Humiliates Muslims,'' Economist, 4 May 17.
    \10\ Nectar Gan, ``Passports Taken, More Police . . . New Party 
Boss Chen Quanguo Acts To Tame Xinjiang With Methods Used in Tibet,'' 
South China Morning Post, 12 December 16; Edward Wong, ``Chinese 
Security Forces Rally in Xinjiang in a Show of Power,'' New York Times, 
20 February 17; Gabriele Battaglia, ``What Do Islamic State and Tibet 
Have To Do With China's Crackdown in Xinjiang? '' South China Morning 
Post, 18 March 17; Willy Wo-Lap Lam, ``Beijing's New Scorched-Earth 
Policy Against the Uighurs,'' Jamestown Foundation, China Brief, Vol. 
17, Issue 2, 6 February 17. See also Adrian Zenz and James Leibold, 
``Xinjiang's Rapidly Evolving Security State,'' Jamestown Foundation, 
China Brief, Vol. 17, Issue 4, 14 March 17, 22; Eva Li, ``Show of Force 
in Xinjiang Sends Hardline Message,'' South China Morning Post, 3 
January 17.
    \11\ Gabriele Battaglia, ``What Do Islamic State and Tibet Have To 
Do With China's Crackdown in Xinjiang? '' South China Morning Post, 18 
March 17.
    \12\ James Leibold and Adrian Zenz, ``Beijing's Eyes and Ears Grow 
Sharper in Xinjiang,'' Foreign Affairs, Snapshot, 23 December 16; 
Philip Wen, ``Terror Threats Transform China's Uighur Heartland Into 
Security State,'' Reuters, 30 March 17; Adrian Zenz and James Leibold, 
``Xinjiang's Rapidly Evolving Security State,'' Jamestown Foundation, 
China Brief, Vol. 17, Issue 4, 14 March 17, 25.
    \13\ Adrian Zenz and James Leibold, ``Xinjiang's Rapidly Evolving 
Security State,'' Jamestown Foundation, China Brief, Vol. 17, Issue 4, 
14 March 17, 25.
    \14\ Ibid. For more information on the recruitment of security 
personnel to staff the stations, see, e.g., ``Summary of Collected 
Information of Various Types of Recruitment in the Xinjiang Uyghur 
Autonomous Region in 2017 (March Latest Version)'' [2017 nian xinjiang 
weiwu'er zizhiqu ge lei zhaopin jianzhang xinxi huizong (3 yue zuixin 
ban)], WeChat post, 20 March 17.
    \15\ Nectar Gan, ``Xinjiang's Police Hiring Binge Comes From Party 
Boss's Tibet Playbook,'' South China Morning Post, 13 August 17.
    \16\ See, e.g., Eva Li, ``Show of Force in Xinjiang Sends Hardline 
Message,'' South China Morning Post, 3 January 17; Tom Phillips, 
``China `Anti-Terror' Rallies: Thousands of Troops on Streets of 
Urumqi,'' Guardian, 28 February 17; ``China Stages Another Mass Anti-
Terror Rally in Xinjiang,'' Reuters, 19 February 17; ``Xinjiang Again 
Holds Counterterrorism Activity, Uyghurs Say Aimed at Frightening 
Them'' [Xinjiang zai gao fankong huodong weizu ren zhi zhi zai zhenshe 
weiren], Radio Free Asia, 30 May 17.
    \17\ Philip Wen, ``Terror Threats Transform China's Uighur 
Heartland Into Security State,'' Reuters, 30 March 17; Tom Phillips, 
``China `Anti-Terror' Rallies: Thousands of Troops on Streets of 
Urumqi,'' Guardian, 28 February 17.
    \18\ ``Xinjiang Again Holds Counterterrorism Activity, Uyghurs Say 
Aimed at Frightening Them'' [Xinjiang zai gao fankong huodong weizu ren 
zhi zhi zai zhenshe weiren], Radio Free Asia, 30 May 17; ``Xinjiang 
Holds Collective Voice of the Sword Mass Rally, Stresses Fight Against 
Three Forces'' [Xinjiang ban jiti fa sheng liang jian dahui, qiangdiao 
daji sangu shili], Oriental Daily Net, 30 May 17.
    \19\ Tom Phillips, ``China `Anti-Terror' Rallies: Thousands of 
Troops on Streets of Urumqi,'' Guardian, 28 February 17.
    \20\ Michael Clarke, ``China's Self-Defeating Counter-Terrorism 
Strategy in Xinjiang,'' University of Nottingham, IAPS Dialogue, 16 
February 17; Nectar Gan, ``Passports Taken, More Police . . . New Party 
Boss Chen Quanguo Acts To Tame Xinjiang With Methods Used in Tibet,'' 
South China Morning Post, 12 December 16; He Lijiang and Gu Jingjing, 
``Dolatbagh Village, Kashgar City, Actively Creates `Double-Linked 
Households' New Management System'' [Kashi shi duolaite bage xiang jiji 
dazao ``shuanglian hu'' guanli xin changtai], China Internet 
Information Center, 25 November 16; Fuyun County People's Government, 
``Fuyun County Explores Establishment of `Double-Linked Households' 
Work Long-Term Mechanism'' [Fuyun xian tansuo jianli ``shuanglian hu'' 
gongzuo changxiao jizhi], 2 August 17.
    \21\ Nectar Gan, ``Passports Taken, More Police . . . New Party 
Boss Chen Quanguo Acts To Tame Xinjiang With Methods Used in Tibet,'' 
South China Morning Post, 12 December 16; He Lijiang and Gu Jingjing, 
``Dolatbagh Village, Kashgar City, Actively Creates `Double-Linked 
Households' New Management System'' [Kashi shi duolaite bage xiang jiji 
dazao ``shuanglian hu'' guanli xin changtai], China Internet 
Information Center, 25 November 16.
    \22\ Human Rights Watch, ``China: Police DNA Database Threatens 
Privacy,'' 15 May 17; David Cyranoski, ``China Expands DNA Data Grab in 
Troubled Western Region,'' Nature, Vol. 545, No. 7655 (24 May 17); 
Matthew Brown, ``China Moves To Expand DNA Testing in Muslim Region,'' 
Associated Press, 16 May 17.
    \23\ Ibid.
    \24\ Javier C. Hernandez, ``China Says 5 Killed in Attack at 
Communist Party Office in Xinjiang,'' New York Times, 29 December 16; 
``Hotan Public Security Agencies Take the Initiative To Decisively 
Attack and Kill 3 Dangerous Thugs'' [Hetian gong'an jiguan zhudong 
chuji guoduan jibi 3 ming wei an baotu], Tianshan Net, 9 January 17; 
``Killings in Xinjiang's Guma Sparked by Anger at Prayer 
Restrictions,'' Radio Free Asia, 23 February 17.
    \25\ Javier C. Hernandez, ``China Says 5 Killed in Attack at 
Communist Party Office in Xinjiang,'' New York Times, 29 December 16; 
``Five Dead After `Terror Attack,' Explosion in China's Xinjiang,'' 
Radio Free Asia, 29 December 16.
    \26\ ``Hotan Public Security Agencies Take the Initiative To 
Decisively Attack and Kill 3 Dangerous Thugs'' [Hetian gong'an jiguan 
zhudong chuji guoduan jibi 3 ming wei an baotu], Tianshan Net, 9 
January 17; ``3 Terrorism Suspects Killed in Police Raid,'' Global 
Times, 9 January 17.
    \27\ ``Killings in Xinjiang's Guma Sparked by Anger at Prayer 
Restrictions,'' Radio Free Asia, 23 February 17. See also ``10 People 
Hacked in Pishan County, Xinjiang, 5 Dead, 5 Injured, and 3 Thugs 
Killed on the Spot'' [Xinjiang pishan xian 10 minzhong bei kan, 5 si, 5 
shang, 3 baotu dangchang jibi], Radio Free Asia, 14 February 17; Teddy 
Ng, ``Eight Killed in Xinjiang Knife Attack: Police Shoot Three 
Attackers,'' South China Morning Post, 15 February 17.
    \28\ ``Killings in Xinjiang's Guma Sparked by Anger at Prayer 
Restrictions,'' Radio Free Asia, 23 February 17.
    \29\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Anti-Extremism Regulations 
[Xinjiang weiwu'er zizhiqu qu jiduanhua tiaoli], issued 29 March 17, 
effective 1 April 17; ``Xinjiang Rolls Out China's First Law To Purge 
Religious Extremism,'' Xinhua, 30 March 17.
    \30\ ``Xinjiang Rolls Out China's First Law To Purge Religious 
Extremism,'' Xinhua, 30 March 17.
    \31\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Implementing Measures for 
the ``PRC Counterterrorism Law'' [Xinjiang weiwu'er zizhiqu shishi 
``zhonghua renmin gongheguo fan kongbu zhuyi fa'' banfa], issued 29 
July 16, effective 1 August 16, art. 40; Bai Tiantian, ``Xinjiang To 
Confine Radicals in Solitary in New Anti-Terror Rule,'' Global Times, 2 
August 16.
    \32\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Anti-Extremism Regulations 
[Xinjiang weiwu'er zizhiqu qu jiduanhua tiaoli], issued 29 March 17, 
effective 1 April 17, arts. 5-8, 16-29. See also PRC Counterterrorism 
Law [Zhonghua renmin gongheguo fan kongbu zhuyi fa], passed 27 December 
15, effective 1 January 16, arts. 4, 19, 28-30, 45, 80-82, 84; 
``Xinjiang Rolls Out China's First Law To Purge Religious Extremism,'' 
Xinhua, 30 March 17.
    \33\ See, e.g., Uyghur Human Rights Project, ``Briefing: China's 
New Counter-Terrorism Law and Its Human Rights Implications for the 
Uyghur People,'' 1 February 16; ``Chinese Authorities Ban Muslim Names 
Among Uyghurs in Hotan,'' Radio Free Asia, 24 September 15; ``Religious 
Extremism Law Imposes New Restrictions on China's Uyghurs,'' Radio Free 
Asia, 10 December 14.
    \34\ Human Rights Watch, ``China: Disclose Details of Terrorism 
Convictions,'' 16 March 17. See also ``Supreme People's Court Work 
Report'' [Zuigao renmin fayuan gongzuo baogao], 12 March 17.
    \35\ Human Rights Watch, ``China: Disclose Details of Terrorism 
Convictions,'' 16 March 17.
    \36\ Ibid.; Amnesty International, ``China's Deadly Secrets,'' 10 
April 17, 28-29.
    \37\ Amnesty International, ``China's Deadly Secrets,'' 10 April 
17, 29. For information on China Judgements Online, see page 24 of 
Amnesty International's report and Jiang Xingguang, ``China Judgments 
Online Grows in Influence,'' China Legal Information Center, 6 
September 16.
    \38\ Amnesty International, ``China's Deadly Secrets,'' 10 April 
17, 29.
    \39\ Ibid., 34.
    \40\ CECC, 2016 Annual Report, 6 October 16, 283.
    \41\ ``Xinjiang Authorities Reward Residents for `Tips on 
Terrorism,' '' Radio Free Asia, 17 March 17.
    \42\ Ibid.
    \43\ Leng Shumei, ``Uyghur Teachers Caught Spreading Religious 
Extremism,'' Global Times, 17 April 17. According to the Party-run 
media outlet Global Times, which used the term ``two-faced,'' `` 
`[t]wo-faced' teachers refer to those who pretend to support national 
unity but secretly spread separatism and extremism.''
    \44\ ``Xinjiang Authorities Reward Residents for `Tips on 
Terrorism,' '' Radio Free Asia, 17 March 17.
    \45\ Nectar Gan, ``Censure of Officials Sheds Light on Sweeping 
Surveillance Measures in China's Restive Xinjiang,'' South China 
Morning Post, 7 April 17. See also ``Xinjiang Holds 97 Cadres 
Accountable: Village Party Secretary Doesn't Dare To Smoke in Front of 
Religious Figure'' [Xinjiang wenze 97 ming ganbu: cun zhishu bu gan 
dang zongjiao renshi mian chouyan], Hotan Daily, reprinted in Guancha 
Net, 9 April 17; ``One Hundred Xinjiang Officials Punished for 
Ineffective Stability Maintenance'' [Xinjiang bai guan weiwen buli bei 
chufen], Radio Free Asia, 10 April 17.
    \46\ Li Caiyu, ``Xinjiang Official Demoted for Timidity in Fighting 
Religious Extremism,'' Global Times, 11 April 17; ``Xinjiang Holds 97 
Cadres Accountable: Village Party Secretary Doesn't Dare To Smoke in 
Front of Religious Figure'' [Xinjiang wenze 97 ming ganbu: cun zhishu 
bu gan dang zongjiao renshi mian chouyan], Hotan Daily, reprinted in 
Guancha Net, 9 April 17.
    \47\ Li Caiyu, ``Xinjiang Official Demoted for Timidity in Fighting 
Religious Extremism,'' Global Times, 11 April 17. See also ``Xinjiang 
Holds 97 Cadres Accountable: Village Party Secretary Doesn't Dare To 
Smoke in Front of Religious Figure'' [Xinjiang wenze 97 ming ganbu: cun 
zhishu bu gan dang zongjiao renshi mian chouyan], Hotan Daily, 
reprinted in Guancha Net, 9 April 17.
    \48\ ``Uyghur Village Cadre Dismissed for Holding Islamic Wedding 
Vows at Home,'' Radio Free Asia, 18 April 17; ``China Bans `Extreme' 
Islamic Baby Names Among Xinjiang's Uyghurs,'' Radio Free Asia, 20 
April 17; ``Xinjiang Holds 97 Cadres Accountable: Village Party 
Secretary Doesn't Dare To Smoke in Front of Religious Figure'' 
[Xinjiang wenze 97 ming ganbu: cun zhishu bu gan dang zongjiao renshi 
mian chouyan], Hotan Daily, reprinted in Guancha Net, 9 April 17.
    \49\ ``China Official Admonishes Fellow Uighur Cadres for `Anti-
Terror' Failings,'' Reuters, 5 April 17; Mehmet Emin Bekri, ``Xinjiang 
Kashgar Deputy Commissioner: Uyghur Cadres Must Take the Lead in 
Counterterrorism and Stability Maintenance Work'' [Xinjiang kashi 
xingshu fu zhuanyuan: weiwu'er zu ganbu zai fankong weiwen gongzuo 
zhong yao da tou zhen], Kashgar Prefectural Party Committee 
Communications Office WeChat Account ``Kashgar Zero Distance,'' March 
2017, reprinted in The Paper, 5 April 17; ``Kashgar, Xinjiang High-
Level Official Accuses Uyghur Cadres of Not Doing Enough To Fight 
Terrorism'' [Xinjiang kashi yi wei gaoji guanyuan zhize weiwu'er zu 
ganbu fankong buli], Radio Free Asia, 5 April 17.
    \50\ See, e.g., Peter Cai, ``Understanding China's Belt and Road 
Initiative,'' Lowy Institute for International Policy, 22 March 17; 
Uyghur Human Rights Project, ``End of the Road: One Belt, One Road and 
the Cumulative Economic Marginalization of the Uyghurs,'' 6 March 17, 
14, 18.
    \51\ Uyghur Human Rights Project, ``End of the Road: One Belt, One 
Road and the Cumulative Economic Marginalization of the Uyghurs,'' 6 
March 17, 4, 6, 13, 17, 20-21, 23-26, 28-29, 31.
    \52\ Peter Cai, ``Understanding China's Belt and Road Initiative,'' 
Lowy Institute for International Policy, 22 March 17.
    \53\ Ibid.
    \54\ China Directory 2014 (Tokyo: Radiopress, December 2013), 154.
    \55\ China Directory 2012 (Tokyo: Radiopress, December 2011), 7, 
17, 27.
    \56\ Zhou Yu, ``Zhu Weiqun: Pay Attention to Ethnic and Religious 
Issues in the Construction of the `Belt and Road' '' [Zhu weiqun: 
guanzhu ``yidai yilu'' jianshe zhong de minzu zongjiao wenti], Yibada, 
7 March 17.
    \57\ See, e.g., Sophie Richardson, Human Rights Watch, 
``Dispatches: China Bans Many Muslim Baby Names in Xinjiang,'' 24 April 
17; Nectar Gan, ``Ban on Beards and Veils--China's Xinjiang Passes 
Regulation To Curb `Religious Extremism,' '' South China Morning Post, 
30 March 17; Darren Byler, ``Imagining Re-Engineered Muslims in 
Northwest China,'' Milestones Journal, 20 April 17.
    \58\ Zhou Yu, ``Zhu Weiqun: Pay Attention to Ethnic and Religious 
Issues in the Construction of the `Belt and Road' '' [Zhu weiqun: 
guanzhu ``yidai yilu'' jianshe zhong de minzu zongjiao wenti], Yibada, 
7 March 17.
    \59\ Uyghur Human Rights Project, ``End of the Road: One Belt, One 
Road and the Cumulative Economic Marginalization of the Uyghurs,'' 6 
March 17, 13, 17, 23, 28-29, 31.
    \60\ Ibid., 4, 6, 13, 20-21, 23-26, 28-29.
    \61\ ``Xinjiang Introduces Two Legal Regulations: Prohibit Parents 
From Inducing or Forcing Minors To Participate in Religion, Prohibit 
Religion Within Schools'' [Xinjiang chutai liang fagui: jinzhi jiazhang 
youdao qiangpo weichengnian ren canjia zongjiao xuexiao nei jinzhi 
zongjiao], Observe China, 12 October 16. See also ``China Targets 
Parents in New Religion Rules for Xinjiang,'' Reuters, 11 October 16; 
``Xinjiang Forbids Parents From `Luring' Children To Participate in 
Religious Activities'' [Xinjiang jinzhi fumu ``yinyou'' zinu canjia 
zongjiao huodong], Radio Free Asia, 12 October 16; Kavitha Surana, 
``China Tells Citizens To Inform on Parents Who `Lure' Kids Into 
Religion,'' Foreign Policy, 12 October 16.
    \62\ ``Xinjiang Introduces Two Legal Regulations: Prohibit Parents 
From Inducing or Forcing Minors To Participate in Religion, Prohibit 
Religion Within Schools'' [Xinjiang chutai liang fagui: jinzhi jiazhang 
youdao qiangpo weichengnian ren canjia zongjiao xuexiao nei jinzhi 
zongjiao], Observe China, 12 October 16; ``China Targets Parents in New 
Religion Rules for Xinjiang,'' Reuters, 11 October 16.
    \63\ ``Xinjiang Introduces Two Legal Regulations: Prohibit Parents 
From Inducing or Forcing Minors To Participate in Religion, Prohibit 
Religion Within Schools'' [Xinjiang chutai liang fagui: jinzhi jiazhang 
youdao qiangpo weichengnian ren canjia zongjiao xuexiao nei jinzhi 
zongjiao], Observe China, 12 October 16. See also ``China Targets 
Parents in New Religion Rules for Xinjiang,'' Reuters, 11 October 16.
    \64\ ``Xinjiang Introduces Two Legal Regulations: Prohibit Parents 
From Inducing or Forcing Minors To Participate in Religion, Prohibit 
Religion Within Schools'' [Xinjiang chutai liang fagui: jinzhi jiazhang 
youdao qiangpo weichengnian ren canjia zongjiao xuexiao nei jinzhi 
zongjiao], Observe China, 12 October 16.
    \65\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Anti-Extremism Regulations 
[Xinjiang weiwu'er zizhiqu qu jiduanhua tiaoli], issued 29 March 17, 
effective 1 April 17; ``Xinjiang Rolls Out China's First Law To Purge 
Religious Extremism,'' Xinhua, 30 March 17.
    \66\ Ibid., art. 9(7-8, 10); Ibid.
    \67\ Uyghur Human Rights Project, ``China's Codification of 
Repression Continues With `De-Extremification Measures,' '' 6 April 17.
    \68\ Zhao Yusha, ``Xinjiang Sets Up Local Committees To Better 
Serve Religious Activities,'' Global Times, 22 November 16.
    \69\ Ibid.
    \70\ ``China Bans `Extreme' Islamic Baby Names Among Xinjiang's 
Uyghurs,'' Radio Free Asia, 20 April 17. See also Sophie Richardson, 
Human Rights Watch, ``Dispatches: China Bans Many Muslim Baby Names in 
Xinjiang,'' 24 April 17.
    \71\ ``China Bans `Extreme' Islamic Baby Names Among Xinjiang's 
Uyghurs,'' Radio Free Asia, 20 April 17; Sophie Richardson, Human 
Rights Watch, ``Dispatches: China Bans Many Muslim Baby Names in 
Xinjiang,'' 24 April 17.
    \72\ ``China Extends Ban on `Extreme' Uyghur Baby Names to Children 
Under 16,'' Radio Free Asia, 1 June 17.
    \73\ Willy Wo-Lap Lam, ``Beijing's New Scorched-Earth Policy 
Against the Uighurs,'' Jamestown Foundation, China Brief, Vol. 17, 
Issue 2, 6 February 17.
    \74\ ``Under the Guise of Public Safety, China Demolishes Thousands 
of Mosques,'' Radio Free Asia, 19 December 16.
    \75\ Ibid.
    \76\ Ibid.
    \77\ ``Xinjiang Authorities Convert Uyghur Mosques Into Propaganda 
Centers,'' Radio Free Asia, 3 August 17.
    \78\ ``Xinjiang Authorities Sentence Uyghur Scholar to 10 Years in 
Prison,'' Radio Free Asia, 9 August 17.
    \79\ Ibid.
    \80\ Ibid. See also ``China Detains 12-Year-Old Uyghur Boy on 
Return to Xinjiang From Egypt,'' Radio Free Asia, 24 July 17.
    \81\ ``Xinjiang Authorities Sentence Uyghur Scholar to 10 Years in 
Prison,'' Radio Free Asia, 9 August 17.
    \82\ For information on official religious restrictions enforced 
during Ramadan in previous reporting years, see, e.g., CECC, 2016 
Annual Report, 6 October 16, 287; CECC, 2015 Annual Report, 8 October 
15, 126, 286; CECC, 2014 Annual Report, 9 October 14, 95, 169-70.
    \83\ ``Muslim Uyghurs in China Fined, Sent to `Study Classes' for 
Observing Ramadan,'' Radio Free Asia, 14 June 17; ``Restaurants Ordered 
To Remain Open in Xinjiang Amid Ramadan Fast,'' Radio Free Asia, 26 May 
17.
    \84\ ``Restaurants Ordered To Remain Open in Xinjiang Amid Ramadan 
Fast,'' Radio Free Asia, 26 May 17; ``Chinese Report Praises Religious 
Freedom in Xinjiang, Muslim Restaurants Forced To Operate During 
Ramadan'' [Zhongguo baogao shengzan xinjiang zongjiao ziyou musilin 
canting zhaiyue bei po yingye], Voice of America, 2 June 17.
    \85\ ``Stability Maintenance Level Is Raised in Urumqi, Xinjiang, 
on the Eve of June Fourth, Entering a Neighborhood Is Like Visiting a 
Prisoner'' [Liusi qianxi xinjiang wulumuqi weiwen shengji ru shequ ru 
tanjian], Radio Free Asia, 31 May 17; ``Summary of Stability 
Maintenance Work in Xinjiang During Ramadan in 2017'' [2017 nian guanyu 
xinjiang zhaiyue qijian weiwen gongzuo zongjie], Shida Education Net, 
25 May 17.
    \86\ ``On the Eve of Ramadan, 22 People in Xinjiang Detained for 
Taking Part in Religious Activities'' [Musilin zhaiyue qianxi xinjiang 
zai you 22 ren yin congshi zongjiao huodong bei zhua], Radio Free Asia, 
26 May 17.
    \87\ ``China Embeds Cadres in Uyghur Homes During Ramadan,'' Radio 
Free Asia, 8 June 17.
    \88\ ``Dozens of Ethnic Kazakhs Detained Amid Security Crackdown in 
China's Xinjiang,'' Radio Free Asia, 1 August 17; World Uyghur 
Congress, ``Press Release: WUC Calls on Chinese Authorities To Halt 
Restrictions on Ethnic Kazakhs in East Turkestan,'' 11 August 17; 
``Chinese Police Detain at Least 10 Ethnic Kazakhs in Xinjiang for 
`Ties With Uyghurs,' '' Radio Free Asia, 19 June 17.
    \89\ ``Muslims in Qitai County, Xinjiang, Required To Have a Permit 
To Pray, 25 People Seeking Permit in One Village Are Detained'' 
[Xinjiang qitai xian musilin daogao xu chi xukezheng yi cun 25 ren 
banli xukezheng beibu], Radio Free Asia, 5 August 17.
    \90\ Ibid.
    \91\ ``Ethnic Kazakh Imam Dies in Custody of Chinese Police in 
Xinjiang,'' Radio Free Asia, 15 June 17; ``RFA Exclusive: Xinjiang 
Ethnic Kazakh Imam Okan Sentenced to 10 Years, Imam Akemet Is 
`Suicided' '' [RFA dujia: xinjiang hasake zu ahong aokan bei panqiu 10 
nian ahong akemati bei ``zisha''], Radio Free Asia, 14 June 17.
    \92\ ``Kazakh Man in Yili, Xinjiang, Secretly Sentenced to 10 
Years' Imprisonment by Court For Online Post'' [Xinjiang yili yi hasake 
nanzi wangshang fatie fayuan mimi panqiu 10 nian], Radio Free Asia, 15 
June 17.
    \93\ ``Ethnic Kazakh Imam Dies in Custody of Chinese Police in 
Xinjiang,'' Radio Free Asia, 15 June 17; ``RFA Exclusive: Xinjiang 
Ethnic Kazakh Imam Okan Sentenced to 10 Years, Imam Akemet Is 
`Suicided' '' [RFA dujia: xinjiang hasake zu ahong aokan bei panqiu 10 
nian ahong akemati bei ``zisha''], Radio Free Asia, 14 June 17.
    \94\ ``Chinese Police Detain `More Than 100' Friends, Classmates of 
Kazakh Custody Death Imam,'' Radio Free Asia, 11 July 17.
    \95\ ``China Orders Xinjiang's Android Users To Install App That 
Deletes `Terrorist' Content,'' Radio Free Asia, 14 July 17; Edward 
Wong, ``Xinjiang, Tense Chinese Region, Adopts Strict Internet 
Controls,'' New York Times, 10 December 16.
    \96\ Edward Wong, ``Xinjiang, Tense Chinese Region, Adopts Strict 
Internet Controls,'' New York Times, 10 December 16; Christian Shepherd 
and Michael Martina, ``China Imposes Hefty Fines for Fake or Harmful 
News in Xinjiang,'' Reuters, 8 December 16; ``Xinjiang Passes New 
Regulations To Prevent and Punish `False' and `Harmful' Information on 
the Internet'' [Xinjiang tongguo fangzhi wangluo ``xujia'' he 
``youhai'' xinxi de tiaoli], Radio Free Asia, 12 December 16.
    \97\ See, e.g., Foreign Correspondents' Club of China, ``Working 
Conditions Survey 2016,'' November 2016, reprinted in Committee to 
Protect Journalists, 15 November 16.
    \98\ Oiwan Lam, ``China's Xinjiang Residents Are Being Forced To 
Install Surveillance Apps on Mobile Phones,'' Global Voices Advocacy, 
19 July 17; India Ashok, ``What is Jingwang? China's Muslim Minority 
Forced To Install Spyware on Their Phones,'' International Business 
Times, 25 July 17; ``China Orders Xinjiang's Android Users To Install 
App That Deletes `Terrorist' Content,'' Radio Free Asia, 14 July 17.
    \99\ Oiwan Lam, ``China's Xinjiang Residents Are Being Forced To 
Install Surveillance Apps on Mobile Phones,'' Global Voices Advocacy, 
19 July 17; India Ashok, ``What is Jingwang? China's Muslim Minority 
Forced To Install Spyware on Their Phones,'' International Business 
Times, 25 July 17.
    \100\ CECC, 2016 Annual Report, 6 October 16, 289.
    \101\ Beina Xu and Eleanor Albert, Council on Foreign Relations, 
``Media Censorship in China,'' last visited 18 July 17.
    \102\ ``Xinjiang PSB Astonishingly Calls Cell Phone VPN Software 
Second-Class Terrorism'' [Xinjiang gong'an chu qizhao shouji fanqiang 
ruanjian bei lie erji baokong], Voice of America, 23 October 16; Oiwan 
Lam, ``Leaked Xinjiang Police Report Describes Circumvention Tools as 
`Terrorist Software,' '' Global Voices, 26 October 16; ``Xinjiang 
Police Classify Circumventing the Firewall as a `Terrorist' Activity'' 
[Xinjiang jingfang jiang wangluo fanqiang lie wei she ``baokong'' 
huodong], Radio Free Asia, 27 October 16; ``Man Held in China's 
Xinjiang for Downloading `Terrorist' Circumvention Software,'' Radio 
Free Asia, 28 October 16.
    \103\ Ibid.
    \104\ Zhao Zhiyun, ``Real-Name System Implemented for Telephone and 
Internet Users'' [Dianhua he hulianwang yonghu shixing shiming zhi], 
Xinjiang Daily, 30 September 16; ``Xinjiang Comprehensively Implements 
Real-Name Registration for Mobile Phones and the Internet'' [Xinjiang 
quanmian shishi shouji, hulianwang shiming dengji], Radio Free Asia, 3 
October 16.
    \105\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Regulations To Prevent and 
Punish the Spread of False Information on the Internet [Xinjiang 
weiwu'er zizhiqu fangfan he chengzhi wangluo chuanbo xujia xinxi 
tiaoli], issued 1 December 16, effective 10 December 16; Edward Wong, 
``Xinjiang, Tense Chinese Region, Adopts Strict Internet Controls,'' 
New York Times, 10 December 16; Christian Shepherd and Michael Martina, 
``China Imposes Hefty Fines for Fake or Harmful News in Xinjiang,'' 
Reuters, 8 December 16; ``Xinjiang Passes New Regulations To Prevent 
and Punish `False' and `Harmful' Information on the Internet'' 
[Xinjiang tongguo fangzhi wangluo ``xujia'' he ``youhai'' xinxi de 
tiaoli], Radio Free Asia, 12 December 16.
    \106\ Christian Shepherd and Michael Martina, ``China Imposes Hefty 
Fines for Fake or Harmful News in Xinjiang,'' Reuters, 8 December 16.
    \107\ Xinjiang Uyghur Autonomous Region People's Congress Standing 
Committee, Xinjiang Uyghur Autonomous Region Regulations To Prevent and 
Punish the Spread of False Information on the Internet [Xinjiang 
weiwu'er zizhiqu fangfan he chengzhi wangluo chuanbo xujia xinxi 
tiaoli], issued 1 December 16, effective 10 December 16, arts. 4, 
13(4), 13(6).
    \108\ See, e.g., CECC, 2016 Annual Report, 6 October 16, 172, 289; 
CECC, 2015 Annual Report, 8 October 15, 287.
    \109\ Edward Wong, ``Police Confiscate Passports in Parts of 
Xinjiang, in Western China,'' New York Times, 1 December 16; ``China 
Recalls Passports Across Xinjiang Amid Ongoing Security Crackdown,'' 
Radio Free Asia, 20 October 16; ``Shihezi, Xinjiang, Tightens Border 
Controls Again, Public Security Requires Residents To Turn In 
Passports'' [Xinjiang shihezi biankong zai shoujin gong'an yao jumin 
shangjiao huzhao], Voice of America, 21 October 16.
    \110\ Human Rights Watch, ``China: Passports Arbitrarily Recalled 
in Xinjiang,'' 21 November 16; Willy Wo-Lap Lam, ``Beijing's New 
Scorched-Earth Policy Against the Uighurs,'' Jamestown Foundation, 
China Brief, Vol. 17, Issue 2, 6 February 17. See also ``China: 
Xinjiang Residents Told To Turn In Passports,'' Al Jazeera, 25 November 
16.
    \111\ Human Rights Watch, ``China: Passports Arbitrarily Recalled 
in Xinjiang,'' 21 November 16.
    \112\ Ibid.
    \113\ Ibid.
    \114\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], 
passed 29 April 06, effective 1 January 07, art. 2. See also Human 
Rights Watch, ``China: Passports Arbitrarily Recalled in Xinjiang,'' 21 
November 16.
    \115\ PRC Passport Law [Zhonghua renmin gongheguo huzhao fa], 
passed 29 April 06, effective 1 January 07, art. 15. See also Human 
Rights Watch, ``China: Passports Arbitrarily Recalled in Xinjiang,'' 21 
November 16.
    \116\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by UN General Assembly resolution 2200A (XXI) of 16 December 
66, entry into force 23 March 76, art. 12(2); United Nations Treaty 
Collection, Chapter IV, Human Rights, International Covenant on Civil 
and Political Rights, last visited 28 August 17. China has signed but 
not ratified the ICCPR. See also Human Rights Watch, ``China: Passports 
Arbitrarily Recalled in Xinjiang,'' 21 November 16.
    \117\ ``Protests Continue in Kazakhstan Over China's Treatment of 
Kazakhs,'' Radio Free Asia, 6 July 17; ``Dozens of Ethnic Kazakhs 
Detained Amid Security Crackdown in China's Xinjiang,'' Radio Free 
Asia, 1 August 17.
    \118\ Ibid.
    \119\ ``Uyghurs Studying Abroad Ordered Back to Xinjiang Under 
Threat to Families,'' Radio Free Asia, 9 May 17. See also Jessica 
Batke, ``China Is Forcing Uighurs Abroad To Return Home. Why Aren't 
More Countries Refusing To Help? '' Asia Society, ChinaFile, 14 August 
17.
    \120\ ``Uyghurs Studying Abroad Ordered Back to Xinjiang Under 
Threat to Families,'' Radio Free Asia, 9 May 17; Jessica Batke, ``China 
Is Forcing Uighurs Abroad To Return Home. Why Aren't More Countries 
Refusing To Help? '' Asia Society, ChinaFile, 14 August 17; ``China 
Detains 12-Year-Old Uyghur Boy on Return to Xinjiang From Egypt,'' 
Radio Free Asia, 24 July 17; Middle East Studies Association, ``Letters 
on Egypt,'' 18 July 17.
    \121\ ``Uyghurs Studying Abroad Ordered Back to Xinjiang Under 
Threat to Families,'' Radio Free Asia, 9 May 17; ``Xinjiang Authorities 
Sentence Uyghur Scholar to 10 Years in Prison,'' Radio Free Asia, 9 
August 17.
    \122\ ``China Detains 12-Year-Old Uyghur Boy on Return to Xinjiang 
From Egypt,'' Radio Free Asia, 24 July 17; Middle East Studies 
Association, ``Letters on Egypt,'' 18 July 17. See also Jessica Batke, 
``China Is Forcing Uighurs Abroad To Return Home. Why Aren't More 
Countries Refusing To Help? '' Asia Society, ChinaFile, 14 August 17.
    \123\ Amnesty International, ``Egypt: Further Information: More 
Uighur Students at Risk of Forcible Return,'' 1 August 17; U.S. 
Commission on International Religious Freedom, ``USCIRF Condemns 
Egypt's Deportation of Uighur Muslims to China,'' 3 August 17; Middle 
East Studies Association, ``Letters on Egypt,'' 18 July 17.
    \124\ Amnesty International, ``Egypt: Further Information: More 
Uighur Students at Risk of Forcible Return,'' 1 August 17.
    \125\ ``China Detains 12-Year-Old Uyghur Boy on Return to Xinjiang 
From Egypt,'' Radio Free Asia, 24 July 17; ``Muslim Ethnic Minority 
Students `Incommunicado' After Repatriation to China,'' Radio Free 
Asia, 7 August 17.
    \126\ See, e.g., CECC, 2016 Annual Report, 6 October 16, 290; CECC, 
2015 Annual Report, 8 October 15, 289; CECC, 2014 Annual Report, 9 
October 14, 168.
    \127\ ``Wusu City, Xinjiang, Public Security Bureau Recruiting 110 
Staff Members, Don't Miss the Registration Period!'' [Xinjiang wusu shi 
gong'an ju zhaopin 110 ming gongzuo renyuan, buyao cuoguo baoming 
shijian!], Wusu Online, reprinted in Sohu, last visited 20 April 17; 
Alashankou City People's Government, ``Alashankou City Environmental 
Protection Bureau Staff Recruitment Announcement'' [Alashankou shi 
huanjing baohu ju zhaopin gongzuo renyuan gonggao], reprinted in 
Huazheng Education, Xinjiang Branch, 4 April 17; Xinjiang Qilu Learning 
and Education Consulting Center, ``Xinjiang Talent Market, Xinjiang 
Talent Net Recruiting Information (January 20, 2017)'' [Xinjiang rencai 
shichang, xinjiang rencai wang zhaopin xinxi (2017 nian 1 yue 20 ri)], 
20 January 17; ``Urumqi Keyuan Gas Manufacturing Co., Ltd.'' [Wulumuqi 
keyuan qiti zhizao youxian gongsi], Xinjiang Talent Net Service Center, 
reprinted in FreeWeChat.com, 5 April 17; Shule County People's 
Government, ``Recruiting Information for Various Types of Enterprises 
in Shule County'' [Shule xian gelei qiye zhaopin xinxi], 23 March 17; 
Xinjiang Jinhui Iron Pipe Co., Ltd., ``Xinjiang Jinhui Iron Pipe Co., 
Ltd., Recruitment Information'' [Xinjiang jinhui zhuguan youxian gongsi 
zhaopin xinxi], 8 March 17; ``China Chemical Talent Net--Chemical 
Recruitment--Xinjiang Chemical Recruitment--Urumqi Chemical 
Recruitment--Xinjiang Poly-Environmental Protection Technology Co., 
Ltd., Recruitment'' [Zhongguo huagong rencai wang--huagong zhaopin--
xinjiang huagong zhaopin--wulumuqi huagong zhaopin--xinjiang juli 
huanbao keji youxian gongsi zhaopin], China Chemical Talent Net, last 
visited 20 April 17. For Chinese legal provisions that forbid 
employment discrimination, see, e.g., PRC Labor Law [Zhonghua renmin 
gongheguo laodong fa], passed 5 July 94, issued and effective 1 January 
95, art. 12; PRC Employment Promotion Law [Zhonghua renmin gongheguo 
jiuye cujin fa], passed 30 August 07, issued and effective 1 January 
08, art. 28.
    \128\ ``Wusu City, Xinjiang, Public Security Bureau Recruiting 110 
Staff Members, Don't Miss the Registration Period!'' [Xinjiang wusu shi 
gong'an ju zhaopin 110 ming gongzuo renyuan, buyao cuoguo baoming 
shijian!], Wusu Online, reprinted in Sohu, last visited 20 April 17; 
Alashankou City People's Government, ``Alashankou City Environmental 
Protection Bureau Staff Recruitment Announcement'' [Alashankou shi 
huanjing baohu ju zhaopin gongzuo renyuan gonggao], reprinted in 
Huazheng Education, Xinjiang Branch, 4 April 17; Xinjiang Qilu Learning 
and Education Consulting Center, ``Xinjiang Talent Market, Xinjiang 
Talent Net Recruiting Information (January 20, 2017)'' [Xinjiang rencai 
shichang, xinjiang rencai wang zhaopin xinxi (2017 nian 1 yue 20 ri)], 
20 January 17; ``Urumqi Keyuan Gas Manufacturing Co., Ltd.'' [Wulumuqi 
keyuan qiti zhizao youxian gongsi], Xinjiang Talent Net Service Center, 
reprinted in FreeWeChat.com, 5 April 17; Shule County People's 
Government, ``Recruiting Information for Various Types of Enterprises 
in Shule County'' [Shule xian gelei qiye zhaopin xinxi], 23 March 17; 
Xinjiang Jinhui Iron Pipe Co., Ltd., ``Xinjiang Jinhui Iron Pipe Co., 
Ltd., Recruitment Information'' [Xinjiang jinhui zhuguan youxian gongsi 
zhaopin xinxi], 8 March 17.
    \129\ Uyghur Human Rights Project, ``Discrimination, Mistreatment 
and Coercion: Severe Labor Rights Abuses Faced by Uyghurs in China and 
East Turkestan,'' 5 April 17, 3, 27-28. See also International Covenant 
on Civil and Political Rights, adopted by UN General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 23 March 76, 
art. 26.
    \130\ Uyghur Human Rights Project, ``Discrimination, Mistreatment 
and Coercion: Severe Labor Rights Abuses Faced by Uyghurs in China and 
East Turkestan,'' 5 April 17, 3-4, 33-34.
    \131\ Ibid., 4, 33-34. For background on the July 2009 
demonstrations and riots in Urumqi municipality, see CECC, 2009 Annual 
Report, 10 October 09, 249-53.
    \132\ World Uyghur Congress, ``Forced Labor in East Turkestan: 
State-Sanctioned Hashar System,'' November 2016, 4.
    \133\ Ibid., 2.
    \134\ ``For Xinjiang's Uyghurs, `Hashar' by Any Other Name Still 
Means Forced Labor,'' Radio Free Asia, 16 February 17.
    \135\ International Labour Organization, ILO Convention (No. 29) 
Concerning Forced or Compulsory Labour, 28 June 30.
    \136\ Declaration on the Rights of Persons Belonging to National or 
Ethnic, Religious and Linguistic Minorities, adopted by UN General 
Assembly resolution 47/135 of 18 December 92, art. 4.
    \137\ Uyghur Human Rights Project, ``Discrimination, Mistreatment 
and Coercion: Severe Labor Rights Abuses Faced by Uyghurs in China and 
East Turkestan,'' 5 April 17, 3, 20-21.
    \138\ ``Tongue-Tied: Teaching Uighur Children Mandarin Will Not 
Bring Stability to Xinjiang,'' Economist, 27 June 15; Uyghur Human 
Rights Project, ``Uyghur Voices on Education: China's Assimilative 
`Bilingual Education' Policy in East Turkestan,'' May 2015, 3-4, 10, 
12, 16, 18, 21, 26-28. For Commission analysis, see ``Xinjiang 
Authorities Accelerate Promotion of Mandarin-Focused Bilingual 
Education,'' Congressional-Executive Commission on China, 10 May 11.
    \139\ ``China Bans Uyghur Language in Schools in Key Xinjiang 
Prefecture,'' Radio Free Asia, 4 August 17.
    \140\ Ibid.
    \141\ ``Xinjiang To Strengthen Preschool Bilingual Education,'' 
Xinhua, 30 March 17.
    \142\ ``Xinjiang To Strengthen Preschool Bilingual Education,'' 
Xinhua, 6 May 16.
    \143\ Ministry of Education and State Language Commission, ``Plan 
for the Implementation of the Project to Popularize the Written and 
Spoken Forms of the National Common Language'' [Guojia tongyong yuyan 
wenzi puji gongjian gongcheng shishi fang'an], 14 March 17, sec. 1(2).

                                                          Tibet
                                                Tibet

                                V. Tibet


  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    There has been no formal dialogue between the Dalai Lama's 
representatives and Chinese Communist Party and government 
officials since the ninth round of dialogue was held in January 
2010.\1\ In its 2016 Report on Tibet Negotiations, the U.S. 
State Department reiterated the long-standing position of the 
U.S. Government that promoting substantive dialogue between the 
Chinese government and the Dalai Lama or his representatives is 
an ``important U.S. foreign policy objective'' and that 
``resumption of dialogue and steps to redress Tibetan 
grievances are critical to reducing the continuing high 
tensions between Tibetans and Chinese authorities.'' \2\ On 
February 3, 2017, the Party-run Global Times reported that Zhu 
Weiqun, Chairperson of the Ethnic and Religious Affairs 
Committee of the Chinese People's Political Consultative 
Conference and a former senior Party official, said the Chinese 
government would not engage in dialogue with what Zhu referred 
to as an ``illegal group'' whose aim is to split China.\3\

                 Reincarnation and the 14th Dalai Lama

    The Chinese central government maintains that only it has 
the right to decide the Dalai Lama's successor.\4\ The 14th 
Dalai Lama, Tenzin Gyatso, who reached the age of 82 in July 
2017,\5\ has said ``the person who reincarnates has sole 
legitimate authority over where and how he or she takes rebirth 
and how that reincarnation is to be recognized.'' \6\ The issue 
of the current Dalai Lama's reincarnation garnered substantial 
attention during this reporting year, prompted in part by the 
Dalai Lama's travel to two places with significant historical 
ties to Tibetan Buddhism--Mongolia in November 2016, and 
Tawang, Arunachal Pradesh, India, in April 2017--and 
speculation that the Dalai Lama may be exploring possible 
places for his reincarnation.\7\
    While in Tawang, where the Dalai Lama gave teachings to 
50,000 people, he said it was ``nonsense'' for the Chinese 
government to claim that it has the right to decide his 
successor.\8\ The Dalai Lama reiterated that whether the 
institution of the Dalai Lama is still relevant, or if he 
should be the last Dalai Lama, is something for the Tibetan 
people to decide.\9\ He said he expects not only Tibetan 
refugees, but also others across the Himalayan region, 
including Tawang, to provide input into the decision regarding 
whether the institution should continue.\10\ On August 9, 2017, 
during a lecture in India, the Dalai Lama said that ``[s]ome of 
the preparation for the future of the Dalai Lama institution 
will begin in the next one or two years.'' \11\ He further 
stated that people in India and Mongolia ``also have . . . 
responsibility'' in this matter.\12\
    Chinese authorities continued to expand the public profile 
of their chosen Panchen Lama, 27-year-old Gyaltsen Norbu, whom 
Party and government officials selected as the 11th Panchen 
Lama in 1995, shortly after declaring the Dalai Lama's 
recognition of then six-year-old Gedun Choekyi Nyima to be 
``illegal and invalid.'' \13\ According to observers, Gyaltsen 
Norbu is likely to play a significant role in the Party and 
government's selection of their endorsed successor to the 14th 
Dalai Lama.\14\ In August 2016, the Global Times stated that as 
Gyaltsen Norbu becomes more involved in religious, political, 
and social affairs, he ``is expected to mitigate'' the 
influence of the Dalai Lama.\15\ Chinese authorities abducted 
Gedun Choekyi Nyima and his parents on May 17, 1995, three days 
after the Dalai Lama recognized him as the reincarnation of the 
10th Panchen Lama, and have refused to permit an independent 
expert to visit him.\16\ The Panchen Lama and his family's 
whereabouts remain unknown.\17\
    In August 2016, for the first time, the U.S. State 
Department addressed the Dalai Lama's reincarnation in its 
annual Report on Tibet Negotiations, stating that as a matter 
of the ``universally recognized right of religious freedom,'' 
the decision regarding the Dalai Lama's succession or 
reincarnation ``must be reserved to the current Dalai Lama, 
Tibetan Buddhist leaders, and the Tibetan people.'' \18\
    Despite the harsh measures that the Chinese government and 
Party have taken to try to undermine the stature of the Dalai 
Lama in the eyes of Tibetans, Tibetan Buddhists continue to 
revere him as their spiritual leader and take great risks to 
access his teachings, possess an image of him, or express their 
devotion in other ways.\19\ In December 2016, the Aba 
Intermediate People's Court in Ma'erkang (Barkham) county, Aba 
(Ngaba) Tibetan and Qiang Autonomous Prefecture (T&QAP), 
Sichuan province, reportedly sentenced at least eight Tibetans 
in Aba (Ngaba) county, to prison terms ranging from 5 to 14 
years for involvement in activities relating to the celebration 
of the Dalai Lama's 80th birthday in July 2015,\20\ including 
48-year-old Bonkho Kyi, whom authorities sentenced to 7 years 
in prison reportedly for organizing a public picnic to 
celebrate the Dalai Lama's birthday.\21\

                Security, Surveillance, and Party Policy

    The government and Party continued implementing repressive 
policies in Tibetan autonomous areas \22\ of China through the 
use of extensive and intrusive surveillance, stringent measures 
that restrict Tibetans' fundamental rights, and pervasive 
displays of police and military force, in what U.K.-based 
professor Tsering Topgyal has described as the 
``securitization'' of the region, Tibetan Buddhism, and Tibetan 
culture.\23\ Chinese officials in the Tibet Autonomous Region 
(TAR) announced in November 2016 that they were again extending 
a grassroots surveillance program, first launched in October 
2011, which involves the deployment of tens of thousands of 
cadres to rural areas to monitor local Tibetans and deepen the 
Party's penetration into villages, religious institutions, and 
neighborhood committees, with the aim of preserving ``social 
stability'' and fostering support for the Party.\24\ Officials 
have also reportedly deployed similar methods in Tibetan areas 
of Sichuan, Qinghai, and Gansu provinces.\25\
    At various times during the year, the government and Party 
continued to use large-scale displays of military and security 
forces throughout Tibetan areas of China, reportedly unlinked 
to any actual or tangible threat of violence, which 
international human rights organizations described as an 
attempt to intimidate Tibetans.\26\ Authorities intensified the 
security presence during major religious festivals and 
``sensitive'' dates, including the entire month of March 
2017.\27\
    New high-level political appointments in the TAR are 
unlikely to lead to any changes in current policies or methods 
of governance.\28\ In late August 2016, authorities announced 
that the Chinese Communist Party Central Committee had selected 
Wu Yingjie--an official linked to previous crackdowns who has 
spent most of his career in the TAR--to be the new Party 
Secretary of the TAR.\29\ In a speech Wu gave the following 
month, he called for ``deepen[ing] the struggle against the 
Dalai Lama clique,'' which he described as ``the highest 
priority'' of the Party's ethnic affairs work.\30\ In January 
2017, Tibetan official Qizhala (Che Dalha), the former Party 
secretary of Lhasa municipality, TAR, became the governor of 
the TAR.\31\
    Chinese authorities continued to denounce the Dalai Lama as 
a ``splittist'' \32\ or ``separatist,'' \33\ blaming him and 
``hostile foreign forces'' for ``inciting separatism'' in 
Tibetan areas of China,\34\ despite the fact the Dalai Lama has 
stated repeatedly that he seeks genuine autonomy for Tibet, not 
independence.\35\ In May 2017, the secretary of the TAR's 
Commission for Discipline Inspection, Wang Yongjun, alleged 
that some Party officials had donated funds to the Dalai Lama, 
and thus ``severely undermine[d] the Party's fight against 
separatism.'' \36\ State media reported in April 2017 that 
authorities used polygraph tests to assess the capability and 
``psychological fitness'' of 168 leading cadres (lingdao ganbu) 
in Ganzi (Kardze) Tibetan Autonomous Prefecture (TAP), an area 
known as a stronghold of Tibetan identity and culture.\37\ The 
International Campaign for Tibet described the use of 
polygraphs to assess the political loyalty of Party officials 
as indicative of ``an escalation of the [Party's] efforts to 
assert its dominance'' amid ``a climate . . . of fear and 
mistrust'' that the Party created.\38\

                            Self-Immolations

    Self-immolations by Tibetans as a form of protest 
reportedly focusing on religious and political issues continued 
during this reporting year.\39\ As of August 21, 2017, there 
were 5 known self-immolations in Tibetan autonomous areas of 
China, 4 of which were confirmed to be fatal, bringing the 
total number of such self-immolations by Tibetans living in 
China to 144 since 2009, 127 of which were reportedly 
fatal.\40\ This extreme form of protest and expression has 
become less frequent in recent years, as the Chinese government 
has continued to impose collective punishment on family members 
and others close to self-immolators in an apparent effort to 
deter self-immolations.\41\ Since 2009, many Tibetan self-
immolators have called for the long life of the Dalai Lama, his 
return from exile, and freedom for Tibet.\42\
    Chinese authorities responded as they have in other self-
immolation cases: Officials threatened and detained family 
members and supporters, attempted to prevent images and videos 
of the self-immolations from being circulated, and detained 
those suspected of sharing information.\43\ As in previous 
years, self-immolation protesters called for the Dalai Lama's 
long life and return, and/or freedom for Tibet.\44\

        <bullet> On December 8, 2016, 31-year-old father of two 
        Tashi Rabten died after self-immolating in Maqu (Machu) 
        county seat, Gannan (Kanlho) TAP, Gansu province.\45\
        <bullet> Pema Gyaltsen, a 24-year-old unmarried farmer 
        from Xinlong (Nyagrong) county, Ganzi (Kardze) TAP, 
        Sichuan province, self-immolated on March 18, 2017, in 
        Ganzi county seat.\46\ Police reportedly took into 
        custody nearly 200 Tibetan bystanders, some of whom had 
        expressed solidarity with Gyaltsen.\47\ Reports 
        following his self-immolation indicated that it was 
        unclear whether he survived.\48\
        <bullet> Wangchug Tseten, a father of four in his 30s, 
        also from Xinlong, self-immolated in the Ganzi county 
        seat on April 15, 2017.\49\ Authorities reportedly 
        detained five Tibetans in connection with the self-
        immolation, three for apparently being in possession of 
        Wangchug Tseten's mobile phone, and two others for 
        allegedly filming his protest.\50\ Wangchug Tseten 
        later died from his injuries.\51\
        <bullet> Chagdor Kyab, a 16-year-old student from Bora 
        township, Gannan, set himself on fire near Bora 
        Monastery on May 2, 2017.\52\ Chinese security forces 
        quickly extinguished the flames and removed Chagdor 
        Kyab from the scene.\53\ In the aftermath of the self-
        immolation, authorities briefly detained his parents 
        twice, prevented relatives and friends from visiting 
        the family at their home, and barred monks from 
        performing religious rituals for Chagdor Kyab.\54\ He 
        later died from his injuries.\55\
        <bullet> Jamyang Losel, a monk in his early 20s, set 
        fire to himself in Jianzha (Chentsa) county, Huangnan 
        (Malho) TAP, Qinghai province, on May 19, 2017, and 
        died shortly thereafter.\56\ Authorities refused to 
        return his body to his family.\57\

                Religious Freedom for Tibetan Buddhists

    The Party and government continued to regulate Tibetan 
Buddhism and its practices in an effort to strengthen their 
control over Tibetan Buddhists, with the aim of transforming 
Tibetan Buddhism, monasteries and nunneries, and monastics into 
loyal supporters of the Party and country.\58\ One 
international scholar has described the restrictions and 
requirements placed on monastics and monasteries as a 
``pervasive regime of control.'' \59\ Among the most 
significant developments this past year with respect to the 
right of religious freedom were the demolitions and expulsions 
at the famous Tibetan Buddhist institutes Larung Gar and Yachen 
Gar.\60\ [For information on the relevant law relating to 
religious freedom in China, see Section II--Freedom of 
Religion--International and Chinese Law on Religious Freedom.]

------------------------------------------------------------------------
  Demolitions and Expulsions at Two Famous Tibetan Buddhist Institutes
-------------------------------------------------------------------------
Larung Gar
  In mid-July 2016, Chinese authorities in Ganzi (Kardze) Tibetan
 Autonomous Prefecture (TAP), Sichuan province, began the process of
 demolishing dwellings and expelling monks and nuns at Larung Gar
 Buddhist Institute, in Seda (Serthar) county, Ganzi TAP.\61\ The Seda
 county government, reportedly operating under instructions from
 ``higher authorities,'' mandated that by September 2017, Larung Gar's
 occupancy could not exceed 5,000 residents.\62\
  In June 2017, a senior abbot at Larung Gar told the community that
 since 2016, Chinese authorities had expelled ``more than 4,828 monks
 and nuns'' \63\ and that ``4,725 monastic dwellings'' had been
 demolished.\64\ Before the expulsions began in 2016, estimates
 suggested that the population of Larung Gar, one of the world's largest
 Buddhist institutes, was at least 10,000, if not higher--comprised not
 only of Tibetan monks and nuns, but also thousands of Han Chinese
 practitioners, as well as students from India and Western
 countries.\65\ In March 2017, a senior abbot told the remaining
 residents: ``Those who have left had never wanted to leave. All left
 against their own wish.'' \66\ He also urged them not to protest what
 he described as the ``implementation of Chinese government policy''
 which he said came from ``senior levels of government.'' \67\ Sources
 reported the expulsions and demolitions caused significant distress and
 despair within the community,\68\ including the suicide of three nuns
 in protest during the summer of 2016.\69\ In addition, Chinese
 authorities across the TAR subjected monks and nuns expelled from
 Larung Gar to periods of ``patriotic education'' lasting from several
 weeks to six months upon arrival in their home localities, before
 officials allowed them to return to their family homes.\70\
  Official explanations of the measures taken at Larung Gar included
 concerns about overcrowding, health and safety, and the desire to make
 a `` `more orderly, beautiful' land.'' \71\ Some observers believe that
 Chinese authorities' purpose in reducing the size of Larung Gar was to
 contain and control its influence, and to further restrict religious
 freedom.\72\ The popularity of Larung Gar among Han Chinese may also
 have been a factor.\73\ According to the International Campaign for
 Tibet and the Tibetan Centre for Human Rights and Democracy (TCHRD),
 the expulsions and demolitions at Larung Gar were also driven by the
 Chinese government's plans to increase business and tourism in the
 area, which would further marginalize the religious community.\74\ A
 Tibetan monastic instructor told a TCHRD source in late July 2017 that
 ``[m]ost of the people who now come to Larung Gar are tourists rather
 than people who want to practice Buddhism.'' \75\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Demolitions and Expulsions at Two Famous Tibetan Buddhist Institutes--
                                Continued
-------------------------------------------------------------------------
Yachen Gar
  Yachen Gar, located in Beiyu (Pelyul) county, Ganzi (Kardze) TAP,
 Sichuan, had an estimated population of 10,000, comprised mainly of
 nuns, before expulsions at Yachen Gar began in April 2016.\76\ By mid-
 September 2016, authorities at the institute had expelled as many as
 1,000 nuns who originally came from the TAR.\77\ Authorities reportedly
 threatened family members of nuns at Yachen Gar from the TAR with
 punishment if the nuns did not return to their place of household
 registration (hukou).\78\ The demolition of approximately 200 dwellings
 to accommodate new curb and sidewalk construction, in addition to other
 construction projects, indicated that Chinese authorities were
 preparing Yachen Gar for an influx of tourists.\79\ In August 2017,
 Radio Free Asia reported that demolitions were continuing at Yachen
 Gar.\80\ Chinese officials reportedly ordered the expulsion of 2,000
 nuns and monks and the demolition of 2,000 houses by the end of
 2017.\81\
  Various human rights are implicated in the Chinese government's
 demolitions and forced expulsions at the two Buddhist institutes.\82\
 Six UN special rapporteurs jointly submitted a letter to the Chinese
 government in November 2016, in which they wrote that ``grave concern
 is expressed over the serious repression of the Buddhist Tibetans'
 cultural and religious practices and learning in Larung Gar and Yachen
 Gar.'' \83\ The U.S. Commission on International Religious Freedom
 described the destruction at Larung Gar as exemplifying the Chinese
 government's ``desire to eviscerate the teachings and study of Tibetan
 Buddhism that are integral to the faith.'' \84\ In addition, by
 compelling relocation of monks and nuns from Larung Gar and Yachen Gar,
 Chinese authorities also arguably violated their rights of freedom of
 residence and movement.\85\
------------------------------------------------------------------------

                          Freedom of Movement

    As in previous years, Chinese authorities tightly 
restricted the freedom of movement of Tibetans, both 
domestically and internationally, in contravention of 
international human rights standards.\86\ Chinese authorities 
continued to restrict access to the Tibet Autonomous Region 
(TAR) for Tibetans not from the TAR.\87\ Moreover, in August 
2017, the State Council announced that the government would cap 
the permanent resident population in the central urban areas of 
Lhasa municipality, TAR, at 500,000 by 2020.\88\ According to 
Chinese census data, in 2010, there were 559,423 permanent 
residents in Lhasa.\89\ In April 2017, authorities reportedly 
required residents of Xinlong (Nyagrong) county, Ganzi (Kardze) 
Tibetan Autonomous Prefecture (TAP), Sichuan province, to 
obtain three different permits--village, township, and county--
in order to travel to Ganzi township, the county seat of Ganzi 
county, Ganzi TAP, after two Tibetans from Xinlong self-
immolated there within one month of each other.\90\ [For 
information on international legal standards regarding freedom 
of movement, see Section II--Freedom of Residence and 
Movement--International Travel, Domestic Movement.]
    The Chinese government severely restricts the ability of 
Tibetans to travel abroad.\91\ It is very difficult for 
Tibetans to obtain passports, and even if obtained, Chinese 
authorities may easily confiscate or cancel them.\92\ Chinese 
authorities made concerted efforts to prevent an estimated 
7,000 Tibetan pilgrims from attending the Kalachakra ceremony 
\93\ and teachings given by the Dalai Lama in Bodh Gaya, 
India,\94\ in January 2017.\95\ The International Campaign for 
Tibet described these efforts as ``the most systematic 
crackdown so far linked to a Dalai Lama's teaching in exile.'' 
\96\
    In October 2016, Chinese authorities began to confiscate 
Tibetans' passports and ordered thousands of Tibetans who had 
already managed to travel to Nepal and India on pilgrimage to 
return to China.\97\ In late November, the Dalai Lama granted a 
special audience and gave teachings in Dharamsala, India, to 
over 1,000 Tibetans who were ordered to return to China.\98\ 
Chinese authorities threatened various punishments if pilgrims 
disobeyed the order to return, including detention and loss of 
pension and jobs for themselves or their family members; monks 
were told they would not be permitted to return to their 
monasteries.\99\
    Chinese authorities labeled the Dalai Lama's Kalachakra 
``illegal'' and reportedly prohibited Tibetans from sharing 
news or organizing local gatherings related to the 
teachings.\100\ Tibetan sources in Qinghai and Sichuan 
provinces, nonetheless, told Radio Free Asia that Tibetans were 
holding small gatherings to pray and to participate in the 
Kalachakra teachings via the Internet.\101\

                         Freedom of Expression

    Chinese authorities continued to detain and imprison 
Tibetans for exercising their rights to freedom of expression 
and opinion, and for engaging in solo peaceful protests.\102\ 
Several representative cases follow.

        <bullet> In November 2016, a court in Heishui (Trochu) 
        county, Aba (Ngaba) Tibetan and Qiang Autonomous 
        Prefecture (T&QAP), Sichuan province, sentenced Lobsang 
        Sonam, a 23-year-old monk from Kirti Monastery, to six 
        years in prison for sharing information and images 
        about Tibet with entities outside of China.\103\
        <bullet> Sonam Tashi a 20-year-old resident of Seda 
        (Serthar) county, Ganzi (Kardze) TAP, Sichuan, was 
        detained by police in January 2017 after engaging in a 
        peaceful solo protest during which he called for the 
        long life of the Dalai Lama and freedom for Tibet, 
        while dispersing leaflets as he walked along the 
        street.\104\ Police seized him quickly, and his 
        whereabouts are unknown.\105\
        <bullet> On February 25, 2017, public security 
        officials in Aba county, Aba T&QAP, detained Lobsang 
        Tsultrim, a young Kirti Monastery monk, following his 
        peaceful solo protest calling for the Dalai Lama's 
        return and freedom for Tibetans.\106\ As of August 
        2017, his condition and whereabouts were unknown.\107\
        <bullet> Authorities took Gedun, a young villager from 
        Shiqu (Sershul) county, Ganzi TAP, into custody in 
        early March 2017, and reportedly severely beat him for 
        sharing photos of the Dalai Lama, the Tibetan national 
        flag, and essays about the preservation of the Tibetan 
        language on the messaging service WeChat.\108\

                       Status of Tibetan Culture

    China's 2016-2020 National Human Rights Action Plan (HRAP) 
provides both that ``the cultural rights of ethnic minorities 
shall be guaranteed'' and that ``[t]he right of ethnic 
minorities to learn, use and develop their own spoken and 
written languages shall be respected and guaranteed,'' echoing 
provisions of China's Constitution, the PRC Regional Ethnic 
Autonomy Law, and the PRC Education Law.\109\ Tibetan culture 
and language face increasing pressure and marginalization, 
however, as the Chinese government and Party continue to 
promote Mandarin Chinese as the main language of instruction in 
Tibetan areas.\110\ Given the inextricable link between 
language, culture, and identity,\111\ and the need for Tibetan 
language in order to access Buddhist texts,\112\ Chinese 
authorities view Tibetan-language instruction as a potential 
security issue--a force that could fuel ``separatism.'' \113\ 
Public security officials detained Tibetan language rights 
advocate and entrepreneur Tashi Wangchug \114\ in January 2016 
in Yushu (Kyegudo) city, Yushu TAP, Qinghai province, following 
a November 2015 New York Times report and video of his efforts 
to advocate for a genuine Tibetan-Mandarin bilingual education 
system.\115\ Authorities subsequently indicted Tashi Wangchug 
for ``inciting separatism,'' and he remains detained awaiting 
trial.\116\
    Despite the risks, Tibetans continue to organize Tibetan-
language literacy groups,\117\ and during this past year, 
several open letters and essays written by Tibetans appeared 
online expressing concern about the state of ``bilingual 
education.'' \118\ A Washington Post reporter wrote that 
several Tibetans he spoke with in Lhasa municipality, TAR, in 
September 2016, expressed unhappiness that young Tibetans study 
in Mandarin as their primary language of instruction, and study 
and speak Tibetan as if it were a foreign language.\119\

                    Economic Development and Tourism

    The Chinese government has long held the view that economic 
development is the key to solidifying its control in 
Tibet.\120\ The Commission, however, observed no evidence 
during its 2002-2017 period of reporting that the Party or 
government solicited systematic or representative input from 
the Tibetan population on economic development in autonomous 
Tibetan areas of China.\121\ Much central government investment 
for development has targeted large-scale infrastructure 
projects and government administration.\122\ Experts note that 
Han Chinese have mainly benefited from the job opportunities 
that these projects have created, because many Tibetans are 
disadvantaged in competing with Han migrant workers, who 
generally have higher levels of education as well as requisite 
Mandarin skills.\123\ In September 2016, a TAR official told a 
group of foreign reporters that the Chinese government's goal 
was to turn Tibet into a ``world-class tourism destination.'' 
\124\ Millions of Chinese tourists travel to the TAR each year, 
and the government is planning to attract more foreign visitors 
to the TAR.\125\ The pressure placed on Tibetan culture, 
livelihood, and identity by the influx of Han migrants and 
tourists is substantial.\126\ In April 2017, reports emerged 
that the Chinese government is considering making the entire 
Tibetan plateau into a national park, which will be open mainly 
to tourists, and will impact many Tibetan residents.\127\ In 
July 2017, the China Daily reported that the government would 
build China's first Mars simulation base in the Haixi Mongolian 
and Tibetan Autonomous Prefecture, Qinghai province, and that 
it would ``be turned into a cultural and tourist experience 
base.'' \128\

                                                          Tibet
                                                Tibet
    Notes to Section V--Tibet

    \1\ U.S. Department of State, ``Report on Tibet Negotiations, P.L. 
107-228 Section 613(b), of the Foreign Relations Authorization Act of 
Fiscal Year 2003,'' attached to letter from Julia Frifield, Assistant 
Secretary, Legislative Affairs, U.S. Department of State, to the Senate 
Committee on Foreign Relations, 19 August 16, 1.
    \2\ Ibid. See also ``US Committed to Tibetan Issue, Says 
Tillerson,'' Agence France-Presse, reprinted in Zee News, 8 May 17; 
International Campaign for Tibet, ``Secretary Tillerson Says He Is 
Committed To Promoting Dialogue on Tibet and Receiving the Dalai 
Lama,'' 1 February 17. During his confirmation proceedings in the U.S. 
Senate Committee on Foreign Relations (SFRC) in January 2017, Rex 
Tillerson stated if confirmed as Secretary of State he would continue 
to encourage dialogue between the Chinese government and the Dalai Lama 
and/or representatives of Tibet's ``government-in-exile.'' 
International Campaign for Tibet, ``Senate Confirms Terry Branstad as 
U.S. Ambassador to China as He Commits To `Urge Chinese Authorities To 
Engage in Meaningful and Direct Dialogue With the Dalai Lama,' '' 22 
May 17. During Terry Branstad's confirmation hearing in the SFRC for 
the position of U.S. Ambassador to China, he committed to ``urge 
Chinese authorities to engage in meaningful and direct dialogue with 
the Dalai Lama and his representatives without preconditions to lower 
tensions and resolve differences.''
    \3\ Chu Xiaohui and Li Ruohan, ``Courting Dalai Lama Would Hurt US 
Interest: Official,'' Global Times, 3 February 17. For more information 
on Zhu Weiqun and his role in earlier dialogues with the Dalai Lama's 
envoys, see CECC, 2016 Annual Report, 6 October 16, 302, endnotes 43-
45; CECC, 2015 Annual Report, 8 October 15, 300.
    \4\ Sui-Lee Wee, ``China Sticks to Right To Decide Reincarnation of 
Dalai Lama,'' Reuters, 30 November 15. See also KJM Varma, `` `Dalai 
Lama's Successor Must Have China's Endorsement,' '' Press Trust of 
India, 9 April 17; CECC, 2016 Annual Report, 6 October 16, 301-2; CECC, 
2008 Annual Report, 31 October 08, 189; ``Special Topic Paper: Tibet 
2008-2009,'' Congressional-Executive Commission on China, 22 October 
09, 38-39.
    \5\ Office of His Holiness the Dalai Lama, ``A Brief Biography,'' 
last visited 14 May 17. According to biographical information on the 
Dalai Lama's official website, he was born on July 6, 1935.
    \6\ Office of His Holiness the Dalai Lama, ``Reincarnation,'' 24 
September 11. The statement was published initially with the title, 
``Statement of His Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, 
on the Issue of His Reincarnation.'' See also Melissa Locker, ``John 
Oliver Had an Enlightening Talk With the Dalai Lama on Last Week 
Tonight,'' Time, 5 March 17; ``Dalai Lama: Last Week Tonight With John 
Oliver (HBO)'' [Video file], YouTube, 5 March 17, 9 min. 20 sec.; CECC, 
2016 Annual Report, 6 October 16, 302.
    \7\ Ellen Barry, ``Dalai Lama's Journey Provokes China, and Hints 
at His Heir,'' New York Times, 6 April 17; Lucy Hornby and Amy Kazmin, 
``Dalai Lama's Travel Plans Ignite Reincarnation Row,'' Financial 
Times, 24 March 17; Edward Wong, ``Mongolia, With Deep Ties to Dalai 
Lama, Turns From Him Toward China,'' New York Times, Sinosphere (blog), 
30 December 16; Joseph Dussault, ``Why the Dalai Lama Is No Longer 
Welcome in Mongolia,'' Christian Science Monitor, 26 December 16; 
``Standardization of Terms Aimed at Reaffirming Sovereignty: Experts,'' 
Global Times, 18 April 17; ``A Himalayan Rivalry,'' Economist, 19 
August 10. As the Economist notes, Tawang is an important center of 
Tibetan Buddhism and the birthplace of the Sixth Dalai Lama. Tawang is 
located in the Indian state of Arunachal Pradesh, which is a disputed 
territory on the Indo-China border that the Chinese government claims 
as ``South Tibet.''
    \8\ Office of His Holiness the Dalai Lama, ``His Holiness the Dalai 
Lama Gives Buddhist Teachings to 50,000 in Tawang,'' 8 April 17.
    \9\ Sunil Kataria, ``Dalai Lama Says Tibetan People Should Decide 
on His Succession,'' Reuters, 11 April 17. See also Office of His 
Holiness the Dalai Lama, ``Reincarnation,'' 24 September 11. The 
statement was published initially with the title, ``Statement of His 
Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on the Issue of His 
Reincarnation.''
    \10\ Office of His Holiness the Dalai Lama, ``His Holiness the 
Dalai Lama Gives Buddhist Teachings to 50,000 in Tawang,'' 8 April 17.
    \11\ ``Dalai Lama Suggests Preparations of Finding His Successor 
Will Begin in Next 1-2 Years'' [Video file], India Today Television, 9 
August 17.
    \12\ Ibid.
    \13\ Guo Xin, ``It Is Both Illegal and Invalid for the Dalai Lama 
To Universally Identify the Reincarnated Soul Boy of the Panchen 
Lama,'' People's Daily, 1 December 95 (translated in Open Source 
Center, 1 December 95); ``China's Panchen Lama Calls for Patriotism, 
Says Greed Taints Tibetan Buddhism,'' Reuters, 14 March 17; ``Dalai 
Lama Rejects Communist Party `Brazen Meddling' in Tibetan Buddhist 
Reincarnation,'' CECC China Human Rights and Rule of Law Update, No. 1, 
24 January 12, 3; CECC, 2016 Annual Report, 6 October 16, 301. See also 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
``International Religious Freedom Report for 2015--China (Includes 
Tibet, Hong Kong, and Macau),'' 10 August 16, 32. Despite the Chinese 
government's denunciation of the Dalai Lama's selection of Gedun 
Choekyi Nyima, the ``overwhelming majority of Tibetan Buddhists 
recognize [Gedun Choekyi Nyima] as the 11th Panchen Lama.''
    \14\ ``Dalai Lama: Last Week Tonight With John Oliver (HBO)'' 
[Video file], YouTube, 5 March 17, 9 min. 5 sec.; Simon Denyer, ``China 
Prepares for Dalai Lama's Death by Looking to Its Own Top Tibetan 
Cleric,'' Washington Post, 26 September 16; International Campaign for 
Tibet, ``China Attempts To Legitimize Its Panchen Lama Through a Major 
Speech as the Real Panchen Lama's Birthday Approaches,'' 21 April 15; 
John Powers, The Buddha Party: How the People's Republic of China Works 
To Define and Control Tibetan Buddhism (New York: Oxford University 
Press, 2017), 125. See also CECC, 2016 Annual Report, 6 October 16, 
301-2. For more information on the Panchen Lama and China's likely 
model for selecting the next Dalai Lama, see CECC, 2008 Annual Report, 
31 October 08, 189.
    \15\ Huang Jingjing, ``An Increasingly Active Panchen Lama Is 
Expected To Mitigate Dalai's Influence,'' Global Times, 24 August 16; 
Simon Denyer, ``China Prepares for Dalai Lama's Death by Looking to Its 
Own Top Tibetan Cleric,'' Washington Post, 26 September 16.
    \16\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report for 2015--China 
(Includes Tibet, Hong Kong, and Macau),'' 10 August 16, 29; 
International Campaign for Tibet, ``China Attempts To Legitimize Its 
Panchen Lama Through a Major Speech as the Real Panchen Lama's Birthday 
Approaches,'' 21 April 15; ``Dalai Lama Rejects Communist Party `Brazen 
Meddling' in Tibetan Buddhist Reincarnation,'' CECC China Human Rights 
and Rule of Law Update, No. 1, 24 January 12, 3; UN Committee on the 
Rights of the Child, Concluding Observations: China (including Hong 
Kong and Macau Special Administrative Regions), adopted by the 
Committee at its 1080th Meeting (30 September 2005), CRC/C/CHN/CO/2, 24 
November 05, paras. 44-45. The report observed under paragraphs 44 and 
45: ``The Committee notes the information provided about the Gedhun 
Choekyi Nyima, but remains concerned that it has not yet been possible 
to have this information confirmed by an independent expert . . .. In 
particular, the Committee recommends that the State party: . . . e) 
allow an independent expert to visit and confirm the well-being of 
Gedhun Choekyi Nyima while respecting his right to privacy, and that of 
his parents.'' CECC, 2016 Annual Report, 6 October 16, 301.
    \17\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 35; CECC, 
2016 Annual Report, 6 October 16, 301. For more information about Gedun 
Choekyi Nyima, see the Commission's Political Prisoner database, record 
2004-00835.
    \18\ U.S. Department of State, ``Report on Tibet Negotiations, P.L. 
107-228 Section 613(b), of the Foreign Relations Authorization Act of 
Fiscal Year 2003,'' attached to letter from Julia Frifield, Assistant 
Secretary, Legislative Affairs, U.S. Department of State, to the Senate 
Committee on Foreign Relations, 19 August 16, 2. For the full text of 
the U.S. State Department's annual reports on Tibet negotiations from 
previous years, see International Campaign for Tibet, ``State 
Department Annual Reports on Tibet,'' last visited 15 July 17.
    \19\ See, e.g., Sarah Cook, Freedom House, ``The Battle for China's 
Spirit: Religious Revival, Repression, and Resistance Under Xi 
Jinping,'' February 2017, 86-87, 100; ``Tibetan Youth Detained, Warned 
Over Dalai Lama Photo,'' Radio Free Asia, 15 June 17; International 
Campaign for Tibet, ``Tibetan Pilgrims Compelled To Return From Dalai 
Lama Teaching to Bodh Gaya, India; China Calls the Teaching `Illegal,' 
'' 9 January 17; ``Tibetans in China Defy Warnings, Support the 
Kalachakra,'' Radio Free Asia, 6 January 17.
    \20\ Tibetan Centre for Human Rights and Democracy, ``China Jails 
Tibetans for Celebrating Dalai Lama's Birthday: Nine Tibetans Get 
Varying Terms of 5 to 14 Years,'' 7 December 16. For more information 
on eight Tibetans from Aba (Ngaba) county sentenced by the same court 
and on the same date for celebrating the Dalai Lama's 80th birthday in 
2015, see the Commission's Political Prisoner Database records 2008-
00632 on Tsultrim, 2011-00422 on Lobsang Khedrub, 2012-00222 on Lodroe, 
2012-00261 on Bonkho Kyi, 2016-00212 on Argya Gya, 2017-00026 on 
Drugdra, 2017-00027 on Lobsang Gephel, and 2017-00028 on Tsultrim.
    \21\ Tibetan Centre for Human Rights and Democracy, ``China Jails 
Tibetans for Celebrating Dalai Lama's Birthday: Nine Tibetans Get 
Varying Terms of 5 to 14 Years,'' 7 December 16. For more information 
on Bonkho Kyi, see the Commission's Political Prisoner Database record 
2012-00261.
    \22\ For more information on the Tibetan autonomous areas of China, 
see CECC, ``Special Topic Paper: Tibet 2008-2009,'' 22 October 09, 22-
24. In China there is 1 provincial-level area of Tibetan autonomy 
(Tibet Autonomous Region (TAR)), and there are 10 prefectural-level 
areas of Tibetan autonomy and 2 county-level areas of Tibetan autonomy. 
The area of the TAR (approximately 1.2 million square kilometers), the 
10 Tibetan Autonomous Prefectures (TAPs) (approximately 1.02 million 
square kilometers), and the 2 Tibetan Autonomous Counties (TACs) 
(approximately 0.019 million square kilometers) totals approximately 
2.24 million square kilometers. The 10 TAPs make up approximately 46 
percent of the TAR/TAP/TAC total area. Steven Marshall and Susette 
Cooke, Tibet Outside the TAR: Control, Exploitation and Assimilation: 
Development With Chinese Characteristics (Washington, DC: Self-
published CD-ROM, 1997), Table 7, citing multiple Chinese sources. 
Table 7 provides the following information. Tibet Autonomous Region 
(1.2 million square kilometers, or 463,320 square miles). Qinghai 
province: Haibei (Tsojang) TAP (52,000 square kilometers, or 20,077 
square miles), Hainan (Tsolho) TAP (41,634 square kilometers, or 16,075 
square miles), Haixi (Tsonub) Mongol and Tibetan AP (325,787 square 
kilometers, or 125,786 square miles), Huangnan (Malho) TAP (17,901 
square kilometers, or 6,912 square miles), Guoluo (Golog) TAP (78,444 
square kilometers, or 30,287 square miles), and Yushu (Yushul) TAP 
(197,791 square kilometers, or 76,367 square miles). Gansu province: 
Gannan (Kanlho) TAP (45,000 square kilometers, or 17,374 square miles) 
and Tianzhu (Pari) TAC (7,150 square kilometers, or 2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP (153,870 square 
kilometers, or 59,409 square miles), Aba (Ngaba) Tibetan and Qiang AP 
(86,639 square kilometers, or 33,451 square miles), and Muli (Mili) TAC 
(11,413 square kilometers, or 4,407 square miles). Yunnan province: 
Diqing (Dechen) TAP (23,870 square kilometers, or 9,216 square miles). 
The table provides areas in square kilometers; conversion to square 
miles uses the formula provided on the website of the U.S. Geological 
Survey: 1 square kilometer = 0.3861 square mile. For population data, 
see Tabulation on Nationalities of 2000 Population Census of China 
[2000 nian renkou pucha zhongguo minzu renkou ziliao], Department of 
Population, Social, Science and Technology Statistics, National Bureau 
of Statistics of China, and Department of Economic Development, State 
Ethnic Affairs Commission (Beijing: Ethnic Publishing House, September 
2003), Tables 10-1, 10-4. According to China's 2010 ethnic census data, 
the total Tibetan population in China was 6,282,187. The Tibetan 
population of the TAR (approximately 2.72 million), the 10 TAPs 
(approximately 2.97 million), and the 2 TACs (approximately 0.096 
million) totaled approximately 5.78 million Tibetans living in areas of 
Tibetan autonomy. Approximately 0.498 million Tibetans lived outside of 
the areas of Tibetan autonomy. Tabulation on Nationalities of 2010 
Population Census of China, Volume 1 [Zhongguo 2010 nian renkou pucha 
fen minzu renkou ziliao shang], Department of Population and Employment 
Statistics, National Bureau of Statistics of China, and Department of 
Economic Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-2. When the Chinese government, 
Party officials, and state-run media refer to ``Tibet,'' they generally 
refer to the area of what is today the Tibet Autonomous Region (TAR). 
See, e.g., Anne-Marie Blondeau and Katia Buffetrille, eds. 
Authenticating Tibet: Answers to China's 100 Questions (Berkeley: 
University of California Press, 2008), 71; Andrew Martin Fischer, The 
Disempowered Development of Tibet in China (Lanham: Lexington Books, 
2014), xix. Fischer explains that he, among others (including the 
``Tibetan Exile Government'') use ``Tibet'' to refer to the TAR and the 
Tibetan areas incorporated into Sichuan, Qinghai, Gansu, and Yunnan 
provinces: ``Often known as `greater Tibet,' `cultural Tibet,' or 
`ethnographic Tibet,' this region is about the size of western Europe 
or about one quarter of China.'' See also CECC, ``Special Topic Paper: 
Tibet 2008-2009,'' 22 October 09, 87, endnote 1.
    \23\ Tsering Topgyal, ``The Securitisation of Tibetan Buddhism in 
Communist China,'' Politics and Religion in Contemporary China, Vol. 6, 
No. 2 (2012), 232-33, 238-41; International Campaign for Tibet, `` `The 
Teeth of the Storm': Lack of Freedom of Expression and Cultural 
Resilience in Tibet,'' 14 June 15 (referring to the ``hyper-
securitization'' of Tibet); International Campaign for Tibet, ``ICT 
Inside Tibet: The Four Loves and the Enemy Within: New Ideological 
Campaign in Tibet Reflects Heightened Agenda of Control in 19th Party 
Congress Year,'' 20 April 17; Human Rights Watch, ``World Report 
2017,'' 2017, 195; Yeshi Dorje, ``China Vows `Strike' Against Dalai 
Lama as Tibetans Mark Uprising,'' Voice of America, 10 March 17; 
Tibetan Centre for Human Rights and Democracy, ``China Extends Tibet 
Surveillance Program for Sixth Year in Row,'' 30 November 16. See also 
John Powers, The Buddha Party: How the People's Republic of China Works 
To Define and Control Tibetan Buddhism (New York: Oxford University 
Press, 2017), 24; Ben Hillman, ``Unrest in Tibet and the Limits of 
Regional Autonomy,'' in Ben Hillman and Gray Tuttle, eds., Ethnic 
Conflict and Protest in Tibet and Xinjiang: Unrest in China's West (New 
York: Columbia University Press, 2016), 22, 35, endnote 10. Hillman 
writes, ``As a major source of Tibetan cultural identity, as a 
competing source of legitimacy and authority, and as an occasional 
vehicle for political mobilization, organized Tibetan Buddhism is 
widely perceived as the greatest potential threat to Communist Party 
rule in Tibetan areas.''
    \24\ Tibetan Centre for Human Rights and Democracy, ``China Extends 
Tibet Surveillance Program for Sixth Year in Row,'' 30 November 16; Ma 
Jing, ``Tibet's Sixth Batch of Village-Based Cadre Teams Set Off for 
the Grassroots'' [Xizang di liu pi zhucun gongzuodui chufa qu jiceng], 
China Tibet Net, 26 November 16; International Campaign for Tibet and 
International Federation for Human Rights, ``China's New Counter-
Terrorism Law: Implications and Dangers for Tibetans and Uyghurs,'' 
November 2016, 31-33, 53; Human Rights Watch, ``China: No End to Tibet 
Surveillance Program,'' 18 January 16. In urban areas, authorities 
continue to implement the ``grid management'' surveillance system. See 
Ben Hillman, ``Unrest in Tibet: Interpreting the Post-2008 Wave of 
Protest and Conflict,'' Dalny Vychod [Far East] Vol. 4, Issue 1 (2014), 
7. Hillman notes that, ``In urban areas local authorities have divided 
neighborhoods into grids, appointing staff to monitor each grid and to 
report suspicious activities to the district administration or 
police.'' See also Human Rights Watch, ``Relentless: Detention and 
Prosecution of Tibetans Under China's `Stability Maintenance' 
Campaign,'' May 2016, 18-20.
    \25\ International Campaign for Tibet, ``Tightening of an Invisible 
Net: New Security Measures in Eastern Tibet Heighten Surveillance, 
Control,'' 16 February 16.
    \26\ Human Rights Watch, ``China: Cease Intimidation on Tibetan 
Anniversary,'' 9 March 17; Sophie Richardson, Human Rights Watch, 
``Dispatches: Intimidation as Governance in Tibet,'' 25 November 16; 
International Campaign for Tibet, ``ICT Inside Tibet: Tibetan New Year 
Marked by Security Agenda; Mass Deployment of Troops for Prayer 
Festival,'' 7 March 17; ``Chinese Security Forces Swarm Festival at 
Tibetan Monastery,'' Radio Free Asia, 13 February 17; International 
Campaign for Tibet (ICT) and International Federation for Human Rights 
(FIDH), ``China's New Counter-Terrorism Law: Implications and Dangers 
for Tibetans and Uyghurs,'' November 2016, 10. As ICT and FIDH write in 
their joint report on China's new counter-terrorism law, ``Despite the 
absence of any violent insurgency in Tibet, an aggressive `counter-
terrorism' drive in Tibet with a strongly political dimension has 
involved an expansion of militarization across the plateau. China's new 
counter-terrorism law introduces further extra-judicial measures, 
reinforcing the powers of local police and Party officials to impose 
restrictive measures and use violence against individuals with 
impunity. It also involves further controls over telecommunications, 
internet and media.''
    \27\ Sophie Richardson, Human Rights Watch, ``Dispatches: 
Intimidation as Governance in Tibet,'' 25 November 16 (large-scale 
military displays carried out across the plateau in November 2016); 
``Chinese Security Forces Swarm Festival at Tibetan Monastery,'' Radio 
Free Asia, 13 February 17; International Campaign for Tibet, ``ICT 
Inside Tibet: Tibetan New Year Marked by Security Agenda; Mass 
Deployment of Troops for Prayer Festival,'' 7 March 17 (security forces 
present in large numbers during a major religious festival at Kumbum 
monastery in Qinghai province in February 2017); International Campaign 
for Tibet, ``ICT Inside Tibet: The Four Loves and the Enemy Within: New 
Ideological Campaign in Tibet Reflects Heightened Agenda of Control in 
19th Party Congress Year,'' 20 April 17 (describing a military drill in 
Naqu (Nagchu) prefecture, TAR, on March 6, 2017, reportedly involving 
more than 200 paramilitary police and soldiers and a wide range of 
``advanced military vehicles''); Tenzin Monlam, ``Rebkong Under Heavy 
Security Since Tibetan Uprising Anniversary,'' Phayul, 15 March 17; 
``During the Sensitive Period in March, Multiple Places in Tibetan 
Areas Under Strict Control and Surveillance'' [Sanyue min'ganqi zangqu 
duodi bei yanguan yankong], Radio Free Asia, 14 March 17 (during the 
``sensitive month'' of March, Chinese authorities employed heightened 
security measures in Tibetan areas that had experienced the largest 
number of self-immolations and protests). Several important and 
``sensitive'' dates and anniversaries occur in March. These include 
March 10, which marks both the 1959 ``Tibetan People's Uprising'' in 
Lhasa and the start of widespread Tibetan protests in 2008, as well as 
March 28, the official ``Serfs Emancipation Day,'' which marks the 1959 
dissolution of the former Tibetan government in Lhasa--a holiday that 
many Tibetans seek to avoid. Annual intensified security clampdowns 
often begin at some point in February to include Losar, the Tibetan New 
Year. ``Special Topic Paper: Tibet 2008-2009,'' Congressional-Executive 
Commission on China, 22 October 09, 56-65. March also contains 
``sensitive'' anniversaries specific to certain locations. For example, 
on March 16, 2008, a peaceful protest that began at Kirti Monastery in 
Aba (Ngaba) county, Ngaba (Aba) Tibetan and Qiang Autonomous 
Prefecture, Sichuan province, ended in bloodshed after Chinese security 
forces opened fire, reportedly killing at least 15 Tibetans, and 
injuring hundreds of others. Tibetan Centre for Human Rights and 
Democracy, ``Solitary Tibetan Protests Continue in Ngaba To Commemorate 
`16 March Massacre,' '' 21 March 17.
    \28\ International Campaign for Tibet, ``New Party Boss in Tibet 
Autonomous Region Associated With Hardline Campaigns, Anti-Dalai Lama 
Struggle,'' 2 September 16; Yeshe Choesang, ``New TAR Party Chief Calls 
for Deeper Criticism of Spiritual Leader in Tibet,'' Tibet Post 
International, 3 September 16.
    \29\ ``Wu Yingjie Appointed Party Secretary of the Tibet Autonomous 
Region'' [Wu yingjie ren xizang zizhiqu dangwei shuji], China Tibet 
News Net, 29 August 16; Jayadeva Ranada, ``Extensive Profile on China's 
New Tibet Party Secretary: Wu Yingjie,'' reprinted in MikelDunham 
(blog), 24 October 16; International Campaign for Tibet, ``New Party 
Boss in Tibet Autonomous Region Associated With Hardline Campaigns, 
Anti-Dalai Lama Struggle,'' 2 September 16; Tshering Chonzom Bhutia, 
``Does Tibet's New Governor Signal Change? '' The Diplomat, 19 January 
17; Yeshe Choesang, ``New TAR Party Chief Calls for Deeper Criticism of 
Spiritual Leader in Tibet,'' Tibet Post International, 3 September 16.
    \30\ ``China Says Countering Dalai Lama Is Top Ethnic Priority in 
Tibet,'' Reuters, 30 September 16.
    \31\ Tshering Chonzom Bhutia, ``Does Tibet's New Governor Signal 
Change? '' The Diplomat, 19 January 17. For more background on Qizhala, 
see International Campaign for Tibet (ICT), ``Tibetan Becomes New Lhasa 
Party Secretary; Updates on Leadership in Tibetan Areas and the Current 
Climate in Lhasa,'' 13 December 2011. ICT notes that prior to Qizhala 
becoming the Lhasa Party Secretary in November 2011--with the exception 
of a brief stint as head of the TAR United Front Work Department 
immediately preceding his being named Lhasa Party Secretary--Qizhala 
had spent his whole career in Diqing (Dechen) TAP, Yunnan province. As 
head of Diqing TAP, Qizhala was reportedly ``well-regarded'' by the 
local Tibetans.
    \32\ ``China Calls Dalai Lama's Kalachakra `Illegal,' Threatens 
Punishment for Those Taking Part,'' Radio Free Asia, 5 January 17; 
``China Warns India Over Invite to Dalai Lama to Buddhist Meet,'' Press 
Trust of India (PTI), reprinted in Economic Times, 20 March 17.
    \33\ ``China Calls Dalai Lama a `Separatist,' Says He Fled After 
Failed Armed Rebellion,'' Press Trust of India (PTI), reprinted in 
Hindustan Times, 8 April 17. See also ``China Calls Dalai Lama's 
Kalachakra `Illegal,' Threatens Punishment for Those Taking Part,'' 
Radio Free Asia, 5 January 17. The Commission has observed that the 
Chinese government appears to use the English terms ``splittist'' and 
``separatist'' interchangeably as translations of the Chinese term 
fenlie fenzi when referring to the Dalai Lama.
    \34\ International Campaign for Tibet, ``ICT Inside Tibet: Tibetan 
New Year Marked by Security Agenda; Mass Deployment of Troops for 
Prayer Festival,'' 7 March 17; Bureau of Democracy, Human Rights and 
Labor, U.S. Department of State, ``International Religious Freedom 
Report for 2015--China (Includes Tibet, Hong Kong, and Macau),'' 10 
August 16, 36; Chu Xiaohui and Li Ruohan, ``Courting Dalai Lama Would 
Hurt US Interest: Official,'' Global Times, 3 February 17; Shubhajit 
Roy, ``My Reincarnation Can't Be Born in Place With No Freedom: The 
Dalai Lama,'' Indian Express, 26 May 17; Ben Hillman, ``Unrest in Tibet 
and the Limits of Regional Autonomy,'' in Ethnic Conflict and Protest 
in Tibet and Xinjiang: Unrest in China's West, Ben Hillman and Gray 
Tuttle, eds. (New York: Columbia University Press, 2016), 24, 34. See 
also Ben Hillman, ``Introduction: Understanding the Current Wave of 
Conflict and Protest in Tibet and Xinjiang,'' in Ethnic Conflict and 
Protest in Tibet and Xinjiang: Unrest in China's West, Ben Hillman and 
Gray Tuttle, eds. (New York: Columbia University Press, 2016), 3. 
According to Hillman, ``[t]he Chinese government blames all of the 
unrest and violence in Tibet and Xinjiang on separatists determined to 
weaken and split China by fomenting instability.''
    \35\ See, e.g., Office of His Holiness the Dalai Lama, ``His 
Holiness's Middle Way Approach for Resolving the Issue of Tibet,'' last 
visited 11 June 17; Tenzin Dharpo, ``Genuine Autonomy for Tibet, 
Reiterates Dalai Lama in Arunachal Pradesh,'' Phayul, 5 April 17; 
Shubhajit Roy, ``My Reincarnation Can't Be Born in Place With No 
Freedom: The Dalai Lama,'' Indian Express, 26 May 17. See also 
``Special Topic Paper: Tibet 2008-2009,'' Congressional-Executive 
Commission on China, 22 October 09, 7-8.
    \36\ ``Some CPC Members Funding Dalai Lama: Official,'' Global 
Times, 1 May 17; ``Leadership Biographies--Wang Yongjun'' [Lingdao 
jianli--wang yongjun], TAR Commission for Discipline Inspection Net, 1 
December 16; International Campaign for Tibet, ``ICT Inside Tibet: Use 
of `Lie-Detector' To Test Communist Party Members Indicates Escalation 
of Control in Tibet,'' 15 May 17; CECC, 2016 Annual Report, 6 October 
16, 302-3.
    \37\ Song Zhiyong, ``[Ganzi] TAP Assessed the Capability and 
Psychological Fitness of 168 Leading Cadres'' [Wozhou ceping 168 ming 
lingdao ganbu nengli he xinli suzhi], Ganzi Daily, 7 April 17; 
International Campaign for Tibet, ``ICT Inside Tibet: Use of `Lie-
Detector' To Test Communist Party Members Indicates Escalation of 
Control in Tibet,'' 15 May 17; International Campaign for Tibet, 
``Tibetan Nun Self-Immolates in Kardze: Continued Resistance Despite 
Chinese Crackdown,'' 4 November 11 (describing Kardze, in the Tibetan 
area of Kham, Sichuan province, as a place ``where Tibetans have a 
strong sense of Tibetan identity and resilient, nationalist spirit''). 
See also Tibetan Centre for Human Rights and Democracy, ``Tibetans 
Protest in Kardze During the Tibetan New Year,'' 8 March 09; Hannah 
Beech, ``Burning Desire for Freedom,'' Time, 14 November 11; ``Chinese 
Authorities Arrest a Young Monk in Tibet for Unknown Reason,'' Tibet 
Post International, 17 May 16.
    \38\ International Campaign for Tibet, ``ICT Inside Tibet: Use of 
`Lie-Detector' To Test Communist Party Members Indicates Escalation of 
Control in Tibet,'' 15 May 17.
    \39\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 13-15; Sarah 
Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
100. For information in recent Commission annual reports on Tibetan 
self-immolation, see CECC, 2015 Annual Report, 8 October 15, 300-4; 
CECC, 2014 Annual Report, 9 October 14, 172-75; CECC, 2013 Annual 
Report, 10 October 13, 172-81; and CECC, 2012 Annual Report, 10 October 
12, 156-60. See also ``CECC Update: Tibetan Self-Immolations,'' 
Congressional-Executive Commission on China, 10 January 17. The 
Commission has posted on its website (www.cecc.gov), under Resources, 
Special Topics, a series of lists relating to Tibetan self-immolations 
focusing on political and religious issues.
    \40\ This self-immolation total (144), as of August 21, 2017, does 
not include the following six self-immolations/burnings (two of which 
were possibly not self-immolations but deaths resulting from an 
accidental house fire): Qinghai province property protests by females 
Dekyi Choezom and Pasang Lhamo on June 27 and September 13, 2012, 
respectively, and Konchog Tsomo in March 2013; by female Tashi Kyi in 
Gansu province on August 28, 2015; and the April 6, 2012, deaths of a 
Tibetan Buddhist abbot, Athub, and a nun, Atse, in a Sichuan house fire 
initially reported as accidental and later as self-immolation. The 
Commission continues to monitor reports on their deaths. ``CECC Update: 
Tibetan Self-Immolations,'' Congressional-Executive Commission on 
China, 10 January 17; CECC, 2016 Annual Report, 6 October 16, 298, 311, 
endnote 5. The self-immolation total includes the five known self-
immolations that occurred during this reporting year and are discussed 
in the text: Tashi Rabten (December 8, 2016), Pema Gyaltsen (March 18, 
2017), Wangchug Tseten (April 15, 2017), Chagdor Kyab (May 2, 2017), 
and Jamyang Losel (May 19, 2017). ``Tibetan Cuts Own Throat in Lhasa 
Freedom Protest,'' Radio Free Asia, 23 June 17. On June 23, 2017, a 
Tibetan man in Lhasa municipality, Tibet Autonomous Region, slit his 
throat outside the Jokhang Temple, in a solo protest during which he 
called for freedom for Tibet. A local Tibetan source told RFA that he 
thought the man was ``unlikely to have survived.''
    \41\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 14-15; Sarah 
Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
100; Tsering Shakya, ``Transforming the Language of Protest,'' Self-
Immolation as Protest in Tibet Series, Hot Spots, Cultural Anthropology 
website, 8 April 12; CECC, 2016 Annual Report, 6 October 16, 298-99; 
CECC, 2014 Annual Report, 9 October 14, 172-78. Self-immolators who 
survived have also faced punishment. On May 10, 2017, Lobsang Gyatso, a 
19-year-old monk from Kirti Monastery, was released from Deyang prison 
in Deyang municipality, Sichuan province, after serving five years on 
an unknown charge following his self-immolation in 2012 in Aba (Ngaba) 
county, Tibetan and Qiang Autonomous Prefecture, Sichuan. For more 
information on Lobsang Gyatso, see the Commission's Political Prisoner 
Database record 2017-00234.
    \42\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 14; ``Nearly 
Two Hundred Detained Following Self-Immolation in Kardze,'' Radio Free 
Asia, 20 March 17; ``Special Report: Tibetan Self-Immolation--Rising 
Frequency, Wider Spread, Greater Diversity,'' Congressional-Executive 
Commission on China, 22 August 12, 4, endnote 18; CECC, 2015 Annual 
Report, 8 October 15, 302.
    \43\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 14-15; 
``Tibetan Self-Immolator's Family Harassed, Visitors Restricted,'' 
Radio Free Asia, 10 May 17; ``Tibetan Monk Detained on Suspicion of 
`Passing Information' Outside Protest Area,'' Radio Free Asia, 8 May 
17; ``Tibetan Social Media Draw Chinese Police Attention After Self-
Immolations,'' Radio Free Asia, 30 May 17.
    \44\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Human Rights Situation in Tibet: Annual Report 2016,'' 24 February 
17, 14 (Tashi Rabten reportedly called for the Dalai Lama's long life 
and that he be allowed to return); ``Young Farmer Stages First Tibetan 
Self-Immolation of 2017,'' Radio Free Asia, 19 March 17 (Pema Gyaltsen 
reportedly decried the absence of freedom in Tibet and called for the 
Dalai Lama's return); Yeshe Choesang, ``Yet Another Layman Sets Himself 
on Fire in Tibet To Protest China's Rule,'' Tibet Post International, 
17 April 17 (Wangchug Tsetsen reportedly protested ``China's repressive 
rule in Tibet''); ``Tibetan Teenager Stages Self-Immolation Protest in 
Gansu,'' Radio Free Asia, 7 May 17 (Chagdor Kyab reportedly shouted 
``Tibet wants freedom'' and ``Let His Holiness the Dalai Lama come back 
to Tibet''); ``Tibetan Monk Dies After Self-Immolation To Protest 
China's Rule in Tibet,'' Tibet Post International, 19 May 17 (Jamyang 
Losel reportedly shouted for the Dalai Lama's return and protested 
Chinese rule. The report also notes that most of the self-immolations 
(since 2009) have involved calls ``for the return of the Dalai Lama and 
freedom for the Tibetan people.''); CECC, 2015 Annual Report, 8 October 
15, 302.
    \45\ 45 Tibetan Centre for Human Rights and Democracy, ``Human 
Rights Situation in Tibet: Annual Report 2016,'' 24 February 17, 14; 
``CECC Update: Tibetan Self-Immolations,'' Congressional-Executive 
Commission on China, 10 January 17.
    \46\ ``Young Farmer Stages First Tibetan Self-Immolation of 2017,'' 
Radio Free Asia, 19 March 17; ``Nearly Two Hundred Detained Following 
Self-Immolation in Kardze,'' Radio Free Asia, 20 March 17.
    \47\ ``Nearly Two Hundred Detained Following Self-Immolation in 
Kardze,'' Radio Free Asia, 20 March 17; International Campaign for 
Tibet, ``Security Crackdown Follows First Tibetan Self-Immolation in 
2017,'' 28 March 17.
    \48\ International Campaign for Tibet, ``Security Crackdown Follows 
First Tibetan Self-Immolation in 2017,'' 28 March 17; ``Young Farmer 
Stages First Tibetan Self-Immolation of 2017,'' Radio Free Asia, 19 
March 17.
    \49\ ``Local Tibetans Summoned After Latest Self-Immolation,'' 
Voice of America, 18 April 17; Yangchen Dolma, ``Man Who Set Himself on 
Fire in Kardze County of Eastern Tibet Dies,'' Tibet Post 
International, 24 April 17; ``Five Detained Following Self-Immolation 
in Kardze Town,'' Radio Free Asia, 19 April 17.
    \50\ ``Five Detained Following Self-Immolation in Kardze Town,'' 
Radio Free Asia, 19 April 17. For more information on the Tibetans 
detained in connection with the self-immolation of Wangchug Tseten, see 
the Commission's Political Prisoner Database records 2017-00303 on 
Nyima Tsering, 2017-00304 on Konchog Gyaltsen, and 2017-00305 on 
Tsering Gyatso.
    \51\ Yangchen Dolma, ``Man Who Set Himself on Fire in Kardze County 
of Eastern Tibet Dies,'' Tibet Post International, 24 April 17.
    \52\ ``Tibetan Teenager Stages Self-Immolation Protest in Gansu,'' 
Radio Free Asia, 7 May 17.
    \53\ Ibid.
    \54\ ``Tibetan Self-Immolator's Family Harassed, Visitors 
Restricted,'' Radio Free Asia, 10 May 17; Tibetan Centre for Human 
Rights and Democracy, ``China Suspected of Using Torture on Self-
Immolator's Sister as Tibetan Monk Dies of Self-Immolation,'' 20 May 
17.
    \55\ Tibetan Centre for Human Rights and Democracy, ``China 
Suspected of Using Torture on Self-Immolator's Sister as Tibetan Monk 
Dies of Self-Immolation,'' 20 May 17.
    \56\ Ibid.; International Campaign for Tibet, ``Young Tibetan Monk 
Becomes the 150th Self-Immolator in Tibet,'' 23 May 17.
    \57\ International Campaign for Tibet, ``Young Tibetan Monk Becomes 
the 150th Self-Immolator in Tibet,'' 23 May 17; ``Tibetan Monk Dies 
After Self-Immolation To Protest China's Rule in Tibet,'' Tibet Post 
International, 19 May 17.
    \58\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 86-101; Elson Tong, ``Beijing's Panchen Lama Tells Monks 
To Love the Party, Decries Commercialisation of Buddhism,'' Hong Kong 
Free Press, 13 March 17; John Powers, The Buddha Party: How the 
People's Republic of China Works To Define and Control Tibetan Buddhism 
(New York: Oxford University Press, 2017), 13, 14; CECC, 2016 Annual 
Report, 6 October 16, 300-4.
    \59\ John Powers, The Buddha Party: How the People's Republic of 
China Works To Define and Control Tibetan Buddhism (New York: Oxford 
University Press, 2017), 160.
    \60\ See, e.g., Human Rights Watch, ``China: Major Tibetan Buddhist 
Institution Faces Further Demolitions,'' 29 March 17; ``China Steps Up 
Demolition, Evictions at Larung Gar Buddhist Center,'' Radio Free Asia, 
19 September 16; Edward Wong, ``China Takes a Chain Saw to a Center of 
Tibetan Buddhism,'' New York Times, 28 November 16; International 
Campaign for Tibet, ``Shadow of Dust Across the Sun: How Tourism Is 
Used To Counter Tibetan Cultural Resilience,'' 13 March 17, 2-5; Edward 
Wong, ``U.N. Human Rights Experts Unite To Condemn China Over 
Expulsions of Tibetans,'' 27 February 17; Letter to the Ambassador and 
Permanent Representative, Permanent Mission of the People's Republic of 
China to the United Nations Office at Geneva, from Six Special 
Rapporteurs (each covering a separate area of human rights): the 
Special Rapporteur in the field of cultural rights; the Special 
Rapporteur on the issue of human rights obligations relating to the 
enjoyment of a safe, clean, healthy and sustainable environment; the 
Special Rapporteur on the rights to freedom of peaceful assembly and of 
association; the Special Rapporteur on adequate housing as a component 
of the right to an adequate standard of living, and on the right to 
non-discrimination in this context; the Special Rapporteur on minority 
issues; and the Special Rapporteur on freedom of religion or belief, AL 
CHN 10/2016, 7 November 16.
    \61\ International Campaign for Tibet, ``Demolitions Begin at 
Larung Gar, `A Monastery for the World,' as Religious Teachers Urge 
Calm,'' 25 July 16.
    \62\ Human Rights Watch, ``China: Major Tibetan Buddhist 
Institution Faces Further Demolitions,'' 29 March 17; ``Larung Gar 
Expulsions Now Complete: Local Source,'' Radio Free Asia, 7 April 17. 
According to RFA, the order apparently came from the central 
government. The Sichuan provincial governor, Yin Li, and other Chinese 
officials visited Larung Gar on March 30, 2017, and during a meeting 
with the management committee of the institute, reminded them that 
``higher authorities'' had ordered the expulsions and demolitions. See 
also ``China Steps Up Demolition, Evictions at Larung Gar Buddhist 
Center,'' Radio Free Asia, 19 September 16; ``Destruction at Larung Gar 
Greater Than Earlier Reported,'' Radio Free Asia, 22 June 17. Chinese 
authorities had ordered Larung Gar to reduce its numbers in an earlier 
campaign in 2001. In total, since 2001, more than 7,000 monastic 
dwellings have been destroyed at Larung Gar.
    \63\ ``Destruction at Larung Gar Greater Than Earlier Reported,'' 
Radio Free Asia, 22 June 17; ``Larung Gar Removals `Almost Complete,' 
Senior Abbot Says,'' Radio Free Asia, 23 March 17; ``China Steps Up 
Demolition, Evictions at Larung Gar Buddhist Center,'' Radio Free Asia, 
19 September 16; Edward Wong, ``China Takes a Chain Saw to a Center of 
Tibetan Buddhism,'' New York Times, 28 November 16; ``China Reduces 
Number of Larung Gar Dwellings Marked for Destruction,'' Radio Free 
Asia, 17 March 17. A senior abbot said that the expulsions reportedly 
began in 2014, when 600 monks and nuns were removed; in 2015, an 
additional 1,600 monks and nuns were forced out. It is unclear who 
ordered the earlier expulsions. The mandated ceiling of 5,000 monks and 
nuns at Larung Gar by September 30, 2017, was contained in the Seda 
(Serta) county order issued in June 2016. Human Rights Watch, ``Serta 
County Order on Larung Gar Monastery,'' 9 June 16. See also CECC, 2016 
Annual Report, 6 October 16, 303-4.
    \64\ ``Destruction at Larung Gar Greater Than Earlier Reported,'' 
Radio Free Asia, 22 June 17; International Campaign for Tibet, ``Shadow 
of Dust Across the Sun: How Tourism Is Used To Counter Tibetan Cultural 
Resilience,'' 13 March 17, 3; ``Larung Gar Removals `Almost Complete,' 
Senior Abbot Says,'' Radio Free Asia, 23 March 17; International 
Campaign for Tibet, ``Security Crackdown Follows First Tibetan Self-
Immolation in 2017,'' 28 March 17; ``China Reduces Number of Larung Gar 
Dwellings Marked for Destruction,'' Radio Free Asia, 17 March 17. 
Initially Chinese officials had targeted 4,320 dwellings for 
demolition, but the management committee of the institute had appealed 
to authorities for fewer demolitions, and the target was subsequently 
reduced by more than 1,000 homes. However, according to the June 22, 
2017, report from Radio Free Asia, Chinese authorities had demolished 
4,725 homes since 2016.
    \65\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 1; International Campaign for Tibet, ``Demolitions Begin at 
Larung Gar, `A Monastery for the World,' as Religious Teachers Urge 
Calm,'' 25 July 16; Human Rights Watch, ``China: Major Tibetan Buddhist 
Institution Faces Further Demolitions,'' 29 March 17; Edward Wong, 
``China Takes a Chain Saw to a Center of Tibetan Buddhism,'' New York 
Times, 28 November 16.
    \66\ ``Larung Gar Removals `Almost Complete,' Senior Abbot Says,'' 
Radio Free Asia, 23 March 17.
    \67\ Ibid.; Human Rights Watch, ``China: Major Tibetan Buddhist 
Institution Faces Further Demolitions,'' 29 March 17.
    \68\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 3-5.
    \69\ Free Tibet, ``Note Left by Larung Gar Nun Confirms Suicide,'' 
14 August 17; ``Tibetan Nun Commits Suicide at Buddhist Complex in 
China's Sichuan Province,'' Radio Free Asia, 8 August 16; ``More 
Suicides Reported in Protest of Destruction at Sichuan's Larung Gar,'' 
Radio Free Asia, 29 August 16; Tibetan Centre for Human Rights and 
Democracy, ``Nuns Continue Suicide Protest Against Demolition of 
Buddhist Institute,'' 1 September 16; Human Rights Watch, ``China: 
1,000 Evictions from Tibetan Buddhist Centers,'' 14 September 16.
    \70\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 4; ``China Reduces Number of Larung Gar Dwellings Marked for 
Destruction,'' Radio Free Asia, 17 March 17; ``Larung Gar Evictees 
Forced To Attend Political Classes Back Home,'' Radio Free Asia, 4 
November 16. For more information on ``patriotic education,'' which 
entails studying and expressing support for the Party and its policies, 
denouncing the Dalai Lama, and recognizing the Chinese-appointed 
Panchen Lama, see John Powers, The Buddha Party: How the People's 
Republic of China Works To Define and Control Tibetan Buddhism (New 
York: Oxford University Press, 2017), 88 (exiled monastics he has 
interviewed ``overwhelmingly cite patriotic education as the most 
aversive aspect of PRC rule''); Tsering Shakya, ``Transforming the 
Language of Protest,'' Self-Immolation as Protest in Tibet series, 
Cultural Anthropology website, 8 April 12; Bureau of Democracy, Human 
Rights and Labor, U.S. Department of State, International Religious 
Freedom Report for 2015--China (Includes Tibet, Hong Kong, and 
Macau),'' 10 August 16, 36; Sarah Cook, Freedom House, ``The Battle for 
China's Spirit: Religious Revival, Repression, and Resistance Under Xi 
Jinping,'' February 2017, 95-96. See also ``Special Topic Paper: Tibet 
2008-2009,'' Congressional-Executive Commission on China, 22 October 
09, 33-36.
    \71\ International Campaign for Tibet, ``Demolitions Begin at 
Larung Gar, `Monastery for the World,' as Religious Teachers Urge 
Calm,'' 25 July 16; Human Rights Watch, ``China: 1,000 Evictions From 
Tibetan Buddhist Centers,'' 14 September 16; International Campaign for 
Tibet, ``Shadow of Dust Across the Sun: How Tourism Is Used To Counter 
Tibetan Cultural Resilience,'' 13 March 17, 12; Edward Wong, ``China 
Takes a Chain Saw to a Center of Tibetan Buddhism,'' New York Times, 28 
November 16; CECC, 2016 Annual Report, 6 October 16, 303-4.
    \72\ ``More Punishment for Tibetan Buddhists,'' New York Times, 5 
December 16; Edward Wong, ``China Takes a Chain Saw to a Center of 
Tibetan Buddhism,'' New York Times, 28 November 16; Tibetan Centre for 
Human Rights and Democracy, ``Undercover in Larung Gar: A Year After 
Demolition, World's Largest Tibetan Buddhist Institute Sliced Like a 
Melon,'' 11 August 17; International Campaign for Tibet, ``Shadow of 
Dust Across the Sun: How Tourism Is Used To Counter Tibetan Cultural 
Resilience,'' 13 March 17, 1, 12-13. The New York Times Editorial Board 
wrote, ``The effort to destroy Larung Gar is further evidence of the 
government's insecurity and its fear of any movement, religious or 
social, that it can't fully control.'' See also Tibet: Freedom of 
Religion, Hearing of the Tom Lantos Human Rights Commission, 12 July 
17, Testimony of Tenzin Dorjee, Commissioner, U.S. Commission on 
International Religious Freedom, 4. Commissioner Dorjee stated, 
``Rigorous study and practice are very important to the Nalanda 
Tradition of Tibetan Buddhism. The Chinese government seeks to strike 
at the heart of Tibetan Buddhism by attacking the Tibetan religious and 
educational institute of Larung Gar, . . ..''
    \73\ Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 89-90. An estimated several million Han Chinese have 
reportedly become followers of Tibetan Buddhism over the past decade, 
and an estimated 10,000 Han Chinese are believed to have completed 
studies at Larung Gar since its founding in 1980. See also Tsering 
Topgyal, ``The Securitisation of Tibetan Buddhism in Communist China,'' 
Politics and Religion in Contemporary China, Vol. 6, No. 2 (2012), 234-
35. Earlier, in 2001, officials from Beijing ordered a reduction in the 
number of monks and nuns at Larung Gar (also referred to as Serta 
Institute), resulting in the demolition of approximately 2,000 homes. 
Authorities also ordered reductions at Yachen Gar. At the time, Larung 
Gar had 1,000 mainland and overseas Chinese among the 9,300 residents 
at the institute. A middle-aged Han medical doctor said that Chinese 
authorities told teachers from Larung Gar and Yachen Gar not to teach 
Han Chinese Tibetan Buddhism, and that Chinese were ``forbidden to 
follow or receive Buddhist talks from Tibetan lamas. So many Chinese 
are coming to these areas where Tibetans usually live, but really the 
authorities don't want us to have connections with any lamas here.''
    \74\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 1, 5-7, 11, 12-13; Tibetan Centre for Human Rights and 
Democracy, ``Undercover in Larung Gar: A Year After Demolition, World's 
Largest Tibetan Buddhist Institute Sliced Like a Melon,'' 11 August 17. 
A Western researcher quoted in ICT's report who recently traveled to 
the area said that many of the local Tibetans he spoke with ``believe 
that behind the evictions and destruction is an interest in 
transforming the now world-famous Buddhist institutes into a tourist 
destination, which will further dilute the authentic culture.'' See 
also Steve Shaw, ``China Tears Down the Tibetan City in the Sky,'' The 
Diplomat, 3 August 17; ``Tibetans Forced From Their Land in Town Near 
Larung Gar,'' Radio Free Asia, 16 August 16.
    \75\ Tibetan Centre for Human Rights and Democracy, ``Undercover in 
Larung Gar: A Year After Demolition, World's Largest Tibetan Buddhist 
Institute Sliced Like a Melon,'' 11 August 17.
    \76\ Human Rights Watch, ``China: 1,000 Evictions From Tibetan 
Buddhist Centers,'' 14 September 16.
    \77\ Ibid.
    \78\ Ibid.; International Campaign for Tibet, ``Shadow of Dust 
Across the Sun: How Tourism Is Used To Counter Tibetan Cultural 
Resilience,'' 13 March 17, 4-5.
    \79\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 1, 8, 11, 13. See also Human Rights Watch, ``China: 1,000 
Evictions From Tibetan Buddhist Centers,'' 14 September 16.
    \80\ ``Demolition of Tibetan Residences Underway at Sichuan's 
Yachen Gar Buddhist Center,'' Radio Free Asia, 15 August 17.
    \81\ Ibid.
    \82\ Human Rights Watch, ``China: 1,000 Evictions From Tibetan 
Buddhist Centers,'' 14 September 16; Letter to the Ambassador and 
Permanent Representative, Permanent Mission of the People's Republic of 
China to the United Nations Office at Geneva, from Six Special 
Rapporteurs (each covering a separate area of human rights): the 
Special Rapporteur in the field of cultural rights; the Special 
Rapporteur on the issue of human rights obligations relating to the 
enjoyment of a safe, clean, healthy and sustainable environment; the 
Special Rapporteur on the rights to freedom of peaceful assembly and of 
association; the Special Rapporteur on adequate housing as a component 
of the right to an adequate standard of living, and on the right to 
non-discrimination in this context; the Special Rapporteur on minority 
issues; and the Special Rapporteur on freedom of religion or belief, AL 
CHN 10/2016, 7 November 16.
    \83\ Letter to the Ambassador and Permanent Representative, 
Permanent Mission of the People's Republic of China to the United 
Nations Office at Geneva, from Six Special Rapporteurs (each covering a 
separate area of human rights): the Special Rapporteur in the field of 
cultural rights; the Special Rapporteur on the issue of human rights 
obligations relating to the enjoyment of a safe, clean, healthy and 
sustainable environment; the Special Rapporteur on the rights to 
freedom of peaceful assembly and of association; the Special Rapporteur 
on adequate housing as a component of the right to an adequate standard 
of living, and on the right to non-discrimination in this context; the 
Special Rapporteur on minority issues; and the Special Rapporteur on 
freedom of religion or belief, AL CHN 10/2016, 7 November 16, 3; Edward 
Wong, ``U.N. Human Rights Experts Unite To Condemn China Over 
Expulsions of Tibetans,'' New York Times, 27 February 17.
    \84\ U.S. Commission on International Religious Freedom, ``2017 
Annual Report--China,'' April 2017, 35.
    \85\ See, e.g., International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force, 23 March 76, arts. 2(1), 12(1), 26; 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 2, 
13(1); Human Rights Watch, ``China: 1,000 Evictions From Tibetan 
Buddhist Centers,'' 14 September 16. See also ``Former Larung Gar Monks 
Ordered Out of New Homes,'' Radio Free Asia, 26 April 17. Authorities 
in Daofu (Tawu) county, Ganzi (Kardze) TAP, subsequently ordered nearly 
300 displaced monks from Larung Gar who had moved to a retreat center 
in Daofu county to leave the center.
    \86\ See, e.g., International Covenant on Civil and Political 
Rights, adopted by UN General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force, 23 March 76, arts. 2(1), 12(1), 12(2), 
26; Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 2, 
13(1), 13(2); Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``Country Reports on Human Rights Practices for 
2016--China (Includes Tibet, Hong Kong, and Macau),'' 3 March 17, 90-
91; Sarah Cook, Freedom House, ``The Battle for China's Spirit: 
Religious Revival, Repression, and Resistance Under Xi Jinping,'' 
February 2017, 96; Ben Hillman, ``Unrest in Tibet: Interpreting the 
Post-2008 Wave of Protest and Conflict,'' Dalny Vychod [Far East], Vol. 
4, Issue 1 (2014), 10, 12; Bureau of Democracy, Human Rights, and 
Labor, U.S. Department of State, ``International Religious Freedom 
Report for 2015--China (Includes Tibet, Hong Kong, and Macau),'' 10 
August 16, 34; Tibetan Centre for Human Rights and Democracy, ``Human 
Rights Situation in Tibet: Annual Report 2016,'' 24 February 17, 5 
(describing the myriad rules and restrictions on movement both within 
Tibetan areas of China and travel outside of China as having turned 
Tibet into a ``giant open prison'').
    \87\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report for 2015--China 
(Includes Tibet, Hong Kong, and Macau),'' 10 August 16, 34. Ben 
Hillman, ``Unrest in Tibet and the Limits of Regional Autonomy,'' in 
Ethnic Conflict and Protest in Tibet and Xinjiang: Unrest in China's 
West, Ben Hillman and Gray Tuttle, eds. (New York: Columbia University 
Press, 2016), 30, 37-38, endnote 31. Hillman refers to the TAR travel 
ban as an ``unwritten rule'' and a ``divide-and-rule tactic'' seen 
elsewhere in China, which highlights the Party's ``zero tolerance for 
associations that unite and coordinate people from different 
localities.''
    \88\ ``State Council Reply Regarding the Overall Urban Plan for 
Lhasa Municipality'' [Guowuyuan guanyu lasa shi chengshi zongti jihua 
de pifu], issued 30 July 17; ``State Council Approves City Plan for 
Lhasa,'' 8 August 17; ``China To Limit Lhasa Population to 500k by 
2020,'' Global Times, 8 August 17.
    \89\ Tabulation on Nationalities of 2010 Population Census of 
China, Volume 1 [Zhongguo 2010 nian renkou pucha fen minzu renkou 
ziliao shang], Department of Population and Employment Statistics, 
National Bureau of Statistics of China, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, July 2013), Table 10-1, 975; ``China To Limit Lhasa 
Population to 500k by 2020,'' Global Times, 8 August 17.
    \90\ ``Local Tibetans Summoned After Latest Self-Immolation,'' 
Voice of America, 18 April 17; ``Young Farmer Stages First Tibetan 
Self-Immolation of 2017,'' Radio Free Asia, 19 March 17.
    \91\ Human Rights Watch, ``One Passport, Two Systems: China's 
Restrictions on Foreign Travel by Tibetans and Others,'' July 2015, 2, 
15-17, 21; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``International Religious Freedom Report for 
2015--China (Includes Tibet, Hong Kong, and Macau),'' 10 August 16, 34-
35.
    \92\ International Campaign for Tibet, ``Shadow of Dust Across the 
Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 13 
March 17, 18; Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, ``Country Reports on Human Rights Practices for 
2016--China (Includes Tibet, Hong Kong, and Macau),'' 3 March 17, 91; 
Human Rights Watch, ``One Passport, Two Systems: China's Restrictions 
on Foreign Travel by Tibetans and Others,'' July 2015, 2, 15-17, 21.
    \93\ ``China Calls Dalai Lama's Kalachakra `Illegal,' Threatens 
Punishment for Those Taking Part,'' Radio Free Asia, 5 January 17. The 
Kalachakra, or ``Wheel of Time,'' is ``a ritual that prepares devotees 
to be reborn in Shambhala, a celestial kingdom which, it is said, will 
vanquish the forces of evil in a future cosmic battle.''
    \94\ Ibid. Bodh Gaya, India is believed to be the site where the 
Buddha achieved enlightenment.
    \95\ Annie Gowen, ``Hundreds of Tibetans Defy China, Gather at 
Birthplace of Buddhism in India,'' Washington Post, 13 January 17; 
International Federation for Human Rights (FIDH) and International 
Campaign for Tibet (ICT), ``Tibet Locked Down and Travellers Banned 
During Sensitive Anniversary: Joint Statement by FIDH and ICT,'' 27 
January 17; International Campaign for Tibet, ``Shadow of Dust Across 
the Sun: How Tourism Is Used To Counter Tibetan Cultural Resilience,'' 
13 March 17, 18. The Washington Post reported that in 2012, when the 
last Kalachraka was held in Bodh Gaya, after an estimated 10,000 
Tibetans traveled to India to attend, Chinese officials declared the 
Kalachakra ``illegal,'' and detained many Tibetans for re-education 
after they returned to China. See also Human Rights Watch, ``One 
Passport, Two Systems: China's Restrictions on Foreign Travel by 
Tibetans and Others,'' July 2015, 16.
    \96\ International Campaign for Tibet, ``Tibetan Pilgrims Compelled 
To Return From Dalai Lama Teaching in Bodh Gaya, India; China Calls the 
Teaching `Illegal,' '' 9 January 17.
    \97\ Ibid.; ``China Seizes Tibetans' Passports in a Bid To Block 
Travel,'' Radio Free Asia, 14 November 16; ``Tibetans Ordered Home by 
China Are Questioned by Police, Lose Their Passports,'' Radio Free 
Asia, 23 January 17; Tibetan Centre for Human Rights and Democracy, 
``Human Rights Situation in Tibet: Annual Report 2016,'' 24 February 
17, 64-68; Tibetan Centre for Human Rights and Democracy (TCHRD), 
``China Restricts Freedom of Movement of Tibetans Ahead of Dalai Lama's 
Teachings,'' 24 November 16. TCHRD reported on 39 Tibetan pilgrims 
traveling from China with Chinese passports who were detained by Nepal 
police at the Nepal-India border for apparently not having visas to 
travel to India. They had reportedly decided against applying for 
Indian visas ``for fear of reprisals from the Chinese government,'' 
because if Chinese authorities saw Indian visas in their passports, 
they could end up jailed after their return to China.
    \98\ ``Dalai Lama Receives Tibetans Ordered Home by China,'' Radio 
Free Asia, 2 December 16.
    \99\ International Campaign for Tibet, ``Tibetan Pilgrims Compelled 
To Return From Dalai Lama Teaching in Bodh Gaya, India; China Calls the 
Teaching `Illegal,' '' 9 January 17; ``Dalai Lama Receives Tibetans 
Ordered Home by China,'' Radio Free Asia, 2 December 16; ``Tibetans 
Ordered Home by China Are Questioned by Police, Lose Their Passports,'' 
Radio Free Asia, 23 January 17; Annie Gowen, ``Hundreds of Tibetans 
Defy China, Gather at Birthplace of Buddhism in India,'' Washington 
Post, 13 January 17; International Federation for Human Rights (FIDH) 
and International Campaign for Tibet (ICT), ``Tibet Locked Down and 
Travellers Banned During Sensitive Anniversary: Joint Statement by FIDH 
and ICT,'' 27 January 17; ``Tibetan Pilgrims See Passports Destroyed on 
Their Return,'' Radio Free Asia, 31 January 17.
    \100\ ``Tibetans in China Defy Warnings, Support the Kalachakra,'' 
Radio Free Asia, 6 January 17; ``China Calls Dalai Lama's Kalachakra 
`Illegal,' Threatens Punishment for Those Taking Part,'' Radio Free 
Asia, 5 January 17; Masashi Crete-Nishihata, Jeffrey Knockel, and Lotus 
Ruan, ``Tibetans Blocked From Kalachakra at Borders and on WeChat,'' 
University of Toronto, Munk School of Global Affairs, Citizen Lab, 10 
January 17.
    \101\ ``Tibetans in China Defy Warnings, Support the Kalachakra,'' 
Radio Free Asia, 6 January 17. A source in Qinghai told RFA, ``In my 
own village, people are engaged in virtuous activities such as fasting, 
performing prostrations, and setting animals free . . .. The same 
things are happening in other places, too . . .. Families are hosting 
gatherings to recite mantras and other prayers, and this is being done 
in secret as the monasteries and communities are being careful not to 
do anything more openly.'' ``Support for the Kalachakra Spreads Among 
Tibetans Living in China,'' Radio Free Asia, 9 January 17. A Tibetan 
source in Sichuan said that local Tibetans had shared the Dalai Lama's 
teachings on social media, and provided translation into the local 
dialect. The source also said that ``several hundred elders'' gathered 
to recite mantras and pray.
    \102\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 12-20; Sarah 
Cook, Freedom House, ``The Battle for China's Spirit: Religious 
Revival, Repression, and Resistance Under Xi Jinping,'' February 2017, 
100.
    \103\ Tibetan Centre for Human Rights and Democracy, ``Human Rights 
Situation in Tibet: Annual Report 2016,'' 24 February 17, 13, 27; Yeshe 
Choesang, ``Another Tibetan Monk Jailed Over Allegedly Sharing 
Information on Tibet,'' Tibet Post International, 9 December 16. For 
more information on Lobsang Sonam, see the Commission's Political 
Prisoner Database record 2017-00009.
    \104\ ``Tibetan Protestor Detained, Missing in Serthar,'' Radio 
Free Asia, 16 February 17. For more information on Sonam Tashi, see the 
Commission's Political Prisoner Database record 2017-00132.
    \105\ ``Tibetan Protestor Detained, Missing in Serthar,'' Radio 
Free Asia, 16 February 17.
    \106\ ``Tibetan Monk Detained in First Ngaba Protest This Year,'' 
Radio Free Asia, 27 February 17. For more information on Lobsang 
Tsultrim, see the Commission's Political Prisoner Database record 2017-
00233.
    \107\ ``Tibetan Monk Detained in First Ngaba Protest This Year,'' 
Radio Free Asia, 27 February 17.
    \108\ ``Tibetan in Shiqu County, Gengdun (Gedun), Detained and 
Beaten'' [Shiqu xian zangren gengdun bei bu shou ou], Radio Free Asia, 
7 March 17; Free Tibet, ``Tibetan Man Arrested for Sharing Pictures of 
the Dalai Lama and Tibetan Flag,'' 9 March 17; Tenzin Dharpo, ``Tibetan 
Man Detained for Storing Photos of Dalai Lama, Tibetan Flag on 
WeChat,'' Phayul, 8 March 17. For more information on Gedun, see the 
Commission's Political Prisoner Database record 2017-00174.
    \109\ State Council Information Office, ``National Human Rights 
Action Plan of China (2016-2020),'' August 2016, reprinted in Xinhua, 
29 September 16, sec. IV; Clemence Henry, ``The Chinese Education 
System as a Source of Conflict in Tibetan Areas,'' in Ethnic Conflict 
and Protest in Tibet and Xinjiang: Unrest in China's West, Ben Hillman 
and Gray Tuttle, eds. (New York: Columbia University Press, 2016), 100; 
PRC Constitution, issued 4 December 82, amended 12 April 88, 29 March 
93, 15 March 99, 14 March 04, arts. 4, 121; PRC Regional Ethnic 
Autonomy Law [Zhonghua renmin gongheguo minzu quyu zizhifa], issued 31 
May 84, effective 1 October 84, amended and effective 28 February 01, 
arts. 10, 21, 37; State Council, Certain Provisions on Implementing the 
PRC Regional Ethnic Autonomy Law [Guowuyuan shishi ``zhonghua renmin 
gongheguo minzu quyu zizhifa'' ruogan guiding], issued 19 May 05, 
effective 31 May 05, art. 22. China's Constitution and the PRC Regional 
Ethnic Autonomy Law provide nominal protection for the use of minority 
languages. The State Council Provisions on Implementing the PRC 
Regional Ethnic Autonomy Law affirm the freedom to use and develop 
minority languages, but also place emphasis on the use of Mandarin by 
promoting ``bilingual'' education and bilingual teaching staff.
    \110\ Tibetan Centre for Human Rights and Democracy, ``Bilingual 
Education Policy in Tibet: The Systematic Replacement of Tibetan 
Language With Mandarin Chinese,'' 14 April 17, 5-12; Tenzin Monlam, 
``PEN International Calls Replacement of Tibetan Language With Mandarin 
`Absurd,' '' Phayul, 5 May 17; Free Tibet, ``Tibetan Languages Face 
Heavy Government Pressure Whilst Modernity Threatens Neglected 
Dialects,'' Hong Kong Free Press, 5 March 17; Gray Tuttle, ``China's 
Race Problem: How Beijing Represses Minorities,'' Foreign Policy, May/
June 2015; Edward Wong, ``China Charges Tibetan Education Advocate With 
Inciting Separatism,'' New York Times, 30 March 16.
    \111\ Tibetan Centre for Human Rights and Democracy, ``Bilingual 
Education Policy in Tibet: The Systematic Replacement of Tibetan 
Language With Mandarin Chinese,'' April 2017, 4; Khenpo Tsultrim Lodoe, 
``An Urgent Call for the Protection and Preservation of Tibetan,'' 
translated in High Peaks Pure Earth, 15 September 14. Abbot of Larung 
Gar Khenpo Tsultrim Lodoe wrote of the importance of the Tibetan 
language, ``Language is the fundamental lifeline of a culture. It is 
the reservoir of identity and the most precious gem of a nationality--
of a people.''
    \112\ Tibetan Centre for Human Rights and Democracy, ``Bilingual 
Education Policy in Tibet: The Systematic Replacement of Tibetan 
Language With Mandarin Chinese,'' April 2017, 3-4, 28-29, 84, 88.
    \113\ Tsering Topgyal, ``The Securitisation of Tibetan Buddhism in 
Communist China,'' Politics and Religion in Contemporary China, Vol. 6, 
No. 2 (2012), 238-40; International Campaign for Tibet, ``Shadow of 
Dust Across the Sun: How Tourism Is Used To Counter Tibetan Cultural 
Resilience,'' 13 March 17, 16-17.
    \114\ Tashi Wangchug's name also appears as Tashi Wangchuk in 
English language reports on his case. See, e.g., Bureau of Democracy, 
Human Rights, and Labor, U.S. Department of State, ``Country Reports on 
Human Rights Practices for 2016--China (Includes Tibet, Hong Kong, and 
Macau),'' 3 March 17, 83; Edward Wong, ``Rights Groups Ask China To 
Free Tibet Education Advocate,'' New York Times, 18 January 17; Human 
Rights Watch, ``China: Drop Charges Against Tibet Education Activist,'' 
15 January 17.
    \115\ Edward Wong, ``China Charges Tibetan Education Advocate With 
Inciting Separatism,'' New York Times, 30 March 16; Edward Wong, 
``Rights Groups Ask China To Free Tibet Education Advocate,'' New York 
Times, 18 January 17.
    \116\ Ibid.
    \117\ Alak Dorshi, ``I Too Can Speak About Education,'' translated 
in High Peaks Pure Earth, 14 April 17.
    \118\ ``Tibetans in Chengdu Call for Bilingual Education for Their 
Children,'' Radio Free Asia, 19 January 17. In January 2017, a Chengdu-
based Tibetan professor at Sichuan Normal University, and a member of 
the regional Chinese People's Political Consultative Conference, 
submitted a proposal to that body urging the creation of a bilingual 
education system. She wrote that an estimated 100,000 Tibetans live in 
Chengdu, including reportedly 2,000 school-age children, and there are 
no schools that teach in the Tibetan language. ``An Open Letter to 
Zhang Wenkui, Party Secretary of Tsolho Tibetan Autonomous Prefecture, 
From Tsering Kyi,'' translated by High Peaks Pure Earth, 11 April 17; 
Alak Dorshi, ``I Too Can Speak About Education,'' translated in High 
Peaks Pure Earth, 14 April 17.
    \119\ Simon Denyer, ``Tibet Is Harder To Visit Than North Korea. 
But I Got In and Streamed Live on Facebook,'' Washington Post, 16 
September 16.
    \120\ Gray Tuttle, ``China's Race Problem: How Beijing Represses 
Minorities,'' Foreign Affairs, May/June 2015; International Campaign 
for Tibet and International Federation for Human Rights, ``China's New 
Counter-Terrorism Law: Implications and Dangers for Tibetans and 
Uyghurs,'' November 2016, 53. See also Simon Denyer, ``China Says 
Tourism Is Tibet's Best Hope. But Can Its Culture Survive the 
Onslaught? '' Washington Post, 6 October 16; Dexter Roberts, ``Tibet 
Can't Kick Its Subsidy Habit,'' Bloomberg Businessweek, 16 December 15.
    \121\ See, e.g., Rinzin Dojree, ``China's Urbancide in Tibet,'' The 
Diplomat, 17 March 17; Andrew Martin Fischer, The Disempowered 
Development of Tibet in China (Lanham: Lexington Books, 2014), xxx 
(noting that Tibetans ``have had little or no control over the main 
policy levers driving economic development, the development of urban 
areas and of infrastructure''). For information in recent Commission 
annual reports on the Chinese Communist Party and government approach 
to economic development in Tibetan autonomous areas of China, see CECC, 
2016 Annual Report, 6 October 16, 305-8; CECC, 2015 Annual Report, 8 
October 15, 298-300; CECC, 2014 Annual Report, 9 October 14, 182-83; 
CECC, 2013 Annual Report, 10 October 13, 184; CECC, 2012 Annual Report, 
10 October 12, 165-66; CECC, 2011 Annual Report, 10 October 11, 216-19; 
and CECC, 2010 Annual Report, 10 October 10, 222-24.
    \122\ Gray Tuttle, ``China's Race Problem--How Beijing Represses 
Minorities,'' Foreign Affairs, May/June 2015; Ben Hillman, ``Unrest in 
Tibet and the Limits of Regional Autonomy,'' in Ethnic Conflict and 
Protest in Tibet and Xinjiang: Unrest in China's West, Ben Hillman and 
Gray Tuttle, eds. (New York: Columbia University Press, 2016), 32. See, 
e.g., Stephen Chen, ``China Plans World's Biggest National Park on 
Tibetan Plateau,'' South China Morning Post, 22 April 17; Rinzin 
Dojree, ``China's Urbancide in Tibet,'' The Diplomat, 17 March 17; 
Dexter Roberts, ``Tibet Can't Kick Its Subsidy Habit,'' Bloomberg 
Businessweek, 16 December 15; ``Special Topic Paper: Tibet 2008-2009,'' 
Congressional-Executive Commission on China, 22 October 09, 41-43.
    \123\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices for 2016--China 
(Includes Tibet, Hong Kong, and Macau),'' 3 March 17, 95; Andrew Martin 
Fischer, The Disempowered Development of Tibet in China (Lanham: 
Lexington Books, 2014), 31; Gray Tuttle, ``China's Race Problem--How 
Beijing Represses Minorities,'' Foreign Affairs, May/June 2015; Ben 
Hillman, ``Unrest in Tibet and the Limits of Regional Autonomy,'' in 
Ethnic Conflict and Protest in Tibet and Xinjiang: Unrest in China's 
West, Ben Hillman and Gray Tuttle, eds. (New York: Columbia University 
Press, 2016), 26; ``China Defends Tibetan Development Plan,'' Voice of 
America, 18 May 11; Tibetan Centre for Human Rights and Democracy, 
``Bilingual Education Policy in Tibet: The Systematic Replacement of 
Tibetan Language With Mandarin Chinese,'' 14 April 17, 12-13. See, 
e.g., Simon Denyer, ``China Says Tourism Is Tibet's Best Hope. But Can 
Its Culture Survive the Onslaught? '' Washington Post, 6 October 16.
    \124\ Simon Denyer, ``China Says Tourism Is Tibet's Best Hope. But 
Can Its Culture Survive the Onslaught? '' Washington Post, 6 October 
16.
    \125\ Ibid. See also Stephen Chen, ``China Plans World's Biggest 
National Park on Tibetan Plateau,'' South China Morning Post, 22 April 
17.
    \126\ Simon Denyer, ``China Says Tourism Is Tibet's Best Hope. But 
Can Its Culture Survive the Onslaught? '' Washington Post, 6 October 
16; Simon Denyer, ``China's Tibet Tourism Statistics Just Don't Add 
Up,'' Washington Post, 6 October 16; CECC, 2016 Annual Report, 6 
October 16, 305-6.
    \127\ Stephen Chen, ``China Plans World's Biggest National Park on 
Tibetan Plateau,'' South China Morning Post, 22 April 17; International 
Campaign for Tibet, ``Nomads in `No-Man's Land': China's Nomination for 
UNESCO World Heritage Risks Imperilling Tibetans and Wildlife,'' 30 
June 17, 2, 13-14; Leng Shumei, ``National Park To Be Built on Qinghai-
Tibet Plateau,'' Global Times, 24 April 17.
    \128\ Wu Yan, ``First Mars Simulation Base To Be Built in Northwest 
China,'' China Daily, 26 July 17.

                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau

                VI. Developments in Hong Kong and Macau


                               Hong Kong

    During the Commission's 2017 reporting year, interference 
by the Chinese central government in Hong Kong's political and 
legal affairs, in particular with regard to the Hong Kong 
judiciary's disqualification of six opposition lawmakers, 
further undermined the ``one country, two systems'' policy 
meant to ensure Hong Kong's autonomy as guaranteed under Hong 
Kong's Basic Law. The March 2017 Chief Executive election was 
not held by universal suffrage; the 1,194-member Election 
Committee selected Carrie Lam Cheng Yuet-ngor, the Chinese 
government's preferred candidate, to be Hong Kong's fourth 
Chief Executive. In August, the Hong Kong government 
successfully appealed to increase the sentences issued to pro-
democracy activists through judicial review; some international 
human rights organizations and local pro-democracy groups 
asserted the prosecution of these cases was politically 
motivated.

                        CHIEF EXECUTIVE ELECTION

    Hong Kong's fifth Chief Executive (CE) election took place 
on March 26, 2017.\1\ It was the first since the fall 2014 pro-
democracy protests and the June 2015 defeat of the Hong Kong 
government's electoral reform proposal.\2\ The fall 2014 
protests began after the National People's Congress Standing 
Committee (NPCSC) issued an August 2014 decision restricting 
the ability of candidates to freely run for CE.\3\ The 2017 CE 
election was held under the same procedure as the 2012 
election, as set forth in the 2014 NPCSC decision.\4\ The UN 
Human Rights Committee (the Committee) has repeatedly urged 
Hong Kong to enact reforms to implement elections by universal 
suffrage \5\ in accordance with Article 25 of the International 
Covenant on Civil and Political Rights,\6\ which applies to 
Hong Kong under the Basic Law.\7\ During the fall 2014 pro-
democracy protests, the Committee reiterated its concerns over 
restrictions on the ability of candidates to freely run for 
election.\8\
    In December 2016, approximately 107,000 electors voted to 
elect most members of the Election Committee,\9\ which both 
nominates candidates and elects the CE.\10\ The Election 
Committee's 38 subsectors consist of members of trade and 
business interest groups--including corporations--as well as 
district and legislative councilors, religious bodies, and 
national legislators.\11\ A majority of the Election Committee 
is reportedly supportive of the central government and its 
policies.\12\ In the December subsector elections, pro-
democracy organizations won a record high of 326 seats out of 
1,194.\13\ Three candidates qualified \14\ to run in the CE 
election: former Financial Secretary John Tsang Chun-wah; 
former judge Woo Kwok-hing; and former Chief Secretary Carrie 
Lam Cheng Yuet-ngor.\15\
    As in the 2012 CE election,\16\ the Chinese central 
government reportedly sought to determine the outcome of the 
election by instructing Election Committee members to support 
Lam, its preferred candidate, over other candidates \17\ and 
declaring its power to disregard election results.\18\ In 
February 2017, NPCSC Chairman Zhang Dejiang and other central 
government representatives reportedly met with Election 
Committee members in Shenzhen municipality, Guangdong province, 
telling them the central government supported only Lam in the 
election.\19\ Later in February, Hong Kong's first CE and 
current Chinese People's Political Consultative Conference Vice 
Chairman Tung Chee-hwa reportedly said that the Chinese 
government would not appoint anyone it deemed unacceptable.\20\ 
All 30 legal sector members of the Election Committee issued a 
joint statement in response to Tung's remarks, condemning ``any 
attempt to exert pressure or influence . . . [the] Election 
Committee . . ..'' \21\ In March, Zhang reportedly asserted the 
central government's ``right to step in'' to the CE election 
\22\ and said the central government required the CE to ``love 
the country and love Hong Kong.'' \23\ Other central government 
officials reiterated the central government's interest in the 
election, emphasizing the central government's ``substantive 
power'' to appoint a CE \24\ who meets the central government's 
criteria.\25\
    On March 26, 2017, the Election Committee selected former 
Chief Secretary Carrie Lam Cheng Yuet-ngor as the next CE; Lam 
won 777 of 1,194 votes.\26\ Pro-democracy legislators, 
activists, and international rights organizations criticized 
the restricted nature of the election and the central 
government's interference in the campaign,\27\ in part for 
violating Hong Kong's Basic Law.\28\

     BASIC LAW INTERPRETATION AND DISQUALIFICATIONS OF LEGISLATIVE 
                               COUNCILORS

    After pro-democracy candidates gained seats in the 
September 2016 Legislative Council (LegCo) elections, and after 
repeated warnings from the central government about the 
unacceptability of calls for Hong Kong independence or self-
determination,\29\ the Chinese central government and Hong Kong 
government sought to prevent opposition legislators from taking 
office. During the October 2016 oath-taking ceremony for the 
new LegCo, two ``localist'' legislators-elect, Sixtus 
``Baggio'' Leung Chung-hang and Yau Wai-ching, altered their 
oaths, swearing allegiance to the ``Hong Kong nation'' and 
using what some considered to be profanity and a derogatory 
term to refer to China.\30\ The Hong Kong government filed for 
judicial review to disqualify the two from taking office.\31\
    On November 7, 2016, the National People's Congress 
Standing Committee (NPCSC) issued an interpretation of Hong 
Kong's Basic Law, holding that oaths of office under Article 
104 of the Basic Law are legal commitments to both Hong Kong 
and China \32\ and prohibiting those whose oaths are determined 
to be invalid from retaking the oath.\33\ The NPCSC issued the 
interpretation, the fifth since 1997, without receiving a 
request from the Hong Kong government or Court of Final 
Appeal.\34\ The interpretation came while a Hong Kong court was 
considering the Hong Kong government's case against 
legislators-elect Leung and Yau.\35\ The Hong Kong judge 
hearing the case ruled in the government's favor, finding that 
Leung and Yau ``declin[ed] to take the LegCo Oath'' and 
disqualifying the two.\36\ The judge held that his decision 
would have been the same regardless of the NPCSC 
interpretation.\37\ In August 2017, the Court of Final Appeal 
rejected Leung and Yau's appeal.\38\
    On December 2, 2016, Hong Kong officials filed a lawsuit to 
disqualify four additional pro-democracy legislators--Nathan 
Law Kwun-chung, Lau Siu-lai, Edward Yiu Chung-yim, and Leung 
Kwok-hung (also known as ``Long Hair'')--asserting that their 
previously accepted oaths were invalid.\39\ On July 14, 2017, a 
Hong Kong court disqualified the legislators from office on 
grounds that included violating Article 104 of the Basic Law 
according to a retroactive application of the November 2016 
NPCSC interpretation.\40\
    Lawyers,\41\ legislators,\42\ and rights organizations \43\ 
strongly criticized the NPCSC interpretation. One legal 
association contended that the NPCSC interpretation ``deeply 
damaged the rule of law and Hong Kong's autonomy'' by 
interfering in Hong Kong's domestic laws.\44\ The Hong Kong Bar 
Association criticized the interpretation, arguing that the 
NPCSC interpretation ``[gives] the impression that the NPCSC is 
effectively legislating for Hong Kong.'' \45\ On November 8, 
more than 1,000 lawyers and activists held a silent march to 
protest the interpretation's infringement on the autonomy of 
Hong Kong's legal system.\46\

          GOVERNMENT LEGAL ACTION AGAINST POLITICAL OPPOSITION

    The Hong Kong government continued to pursue legal cases 
against participants in the 2014 pro-democracy protests and 
members of the political opposition.\47\ The day after the 
Chief Executive election, Hong Kong police charged nine protest 
leaders, student activists, and politicians--including two 
Legislative Councilors--in connection with the 2014 
protests.\48\ Legislators, international rights organizations, 
and Hong Kong and international scholars questioned the timing 
of the announcement, suggesting that Hong Kong officials made 
the decision for political reasons.\49\ The Hong Kong 
government denied that there were political considerations or 
that Carrie Lam was involved in the decision.\50\ In April 
2017, police charged localist legislator Cheng Chung-tai with 
desecrating the Chinese and Hong Kong flags \51\ during an 
October 2016 LegCo session,\52\ when pro-government legislators 
prevented Leung and Yau from retaking their oaths by walking 
out of the LegCo chamber, after which Cheng turned the flags on 
several legislators' desks upside down in protest.\53\ Also in 
April, Hong Kong police charged Leung and Yau for ``unlawful 
assembly'' in connection with an attempt to enter the LegCo 
chamber in November 2016.\54\
    This past year, the Hong Kong government successfully 
appealed to increase the sentences issued to pro-democracy 
activists through judicial review from the Court of Appeal in 
Hong Kong. In August 2017, the Court of Appeal ruled in favor 
of government prosecutors and sentenced pro-democracy leaders 
Joshua Wong Chi-fung, Nathan Law Kwun-chung, and Alex Chow 
Yong-kang to between six and eight months' imprisonment on 
charges of inciting or participating in ``unlawful assembly'' 
for their activities during the 2014 protests outside of 
government headquarters.\55\ A lower court had previously 
sentenced Wong and Law to community service, which the two had 
completed, and given Chow a suspended sentence.\56\ According 
to the Hong Kong Legislative Council Ordinance, the prison 
terms bar them from running in LegCo elections for five 
years.\57\ The presiding judges stated that the sentences for 
the three were meant to serve as a deterrent.\58\ During the 
same week, the Court of Appeal decided in the government's 
favor to lengthen the sentences of 13 pro-democracy activists 
to between 8 and 13 months' imprisonment after a lower court 
had sentenced them to community service on charges including 
``unlawful assembly'' for storming the LegCo chamber to protest 
a government development plan in June 2014.\59\ While the Hong 
Kong government and two local legal organizations denied claims 
of political interference in the judicial review of these 
cases,\60\ some international human rights organizations and 
local pro-democracy groups asserted that the prosecutions were 
politically motivated.\61\ The UN Human Rights Committee noted 
in its 2013 review of the Hong Kong government's compliance 
with the International Covenant on Civil and Political Rights 
that the ``unlawful assembly'' provisions within the Public 
Order Ordinance under which the pro-democracy activists were 
charged ``may facilitate excessive restriction to the Covenant 
rights.'' \62\

                             PRESS FREEDOMS

    Hong Kong journalists and journalists' organizations 
reported a continued worsening of press freedom in Hong Kong in 
this past year, noting concerns over self-censorship, 
government restrictions on reporters, and the 2015 abductions 
and disappearances of five Hong Kong booksellers by mainland 
Chinese authorities. According to the Hong Kong Journalists 
Association (HKJA), 72 percent of reporters surveyed felt that 
press freedom in Hong Kong had deteriorated in 2016.\63\ 
Respondents reported concerns over self-censorship, 
interference by media owners, and the 2015 abductions and 
disappearances of five Hong Kong booksellers.\64\ The 
international press freedom organization Reporters Without 
Borders (RSF) announced in April 2017 that it would open an 
Asia office in Taiwan, rather than Hong Kong, reportedly due in 
part to fears over RSF staff safety.\65\ Hong Kong dropped four 
places in RSF's World Press Freedom Index, to 73rd in the 
world.\66\
    The Hong Kong government continued \67\ to restrict the 
ability of online media to freely report. In December 2016, the 
Office of the Ombudsman called on the Hong Kong government to 
grant access to government events and information services to 
online-only media and criticized the government's failure to 
provide such access since announcing a review of its policy in 
2014.\68\ Also in December, Hong Kong officials prevented a 
journalist for an online publication from reporting at the vote 
count center for the Election Committee subsector 
elections.\69\ In March 2017, the government banned online-only 
media from reporting at Chief Executive election events.\70\ 
International and Hong Kong rights organizations criticized the 
government's continued obstruction of online journalists.\71\

                                 Macau

    Macau's Basic Law does not provide for elections by 
``universal suffrage,'' \72\ though its provisions ensure the 
applicability of the International Covenant on Civil and 
Political Rights (ICCPR) in Macau \73\ and guarantee Macau a 
``high degree of autonomy'' within China.\74\ During the 2017 
reporting year, the Commission did not observe progress in 
Macau toward ``an electoral system based on universal and equal 
suffrage . . .'' in line with the ICCPR,\75\ as recommended by 
the UN Human Rights Committee.\76\ During the September 2017 
Macau Legislative Assembly elections, pro-democracy legislators 
won 4 seats out of 14 directly elected seats, making up a 
minority in the 33-member chamber, where 12 legislators are 
selected by professional sector associations and 7 are 
appointed by Macau's Chief Executive.\77\
    In December 2016, the Macau Legislative Assembly (AL) 
passed revisions to the AL Electoral Law,\78\ including new 
provisions requiring candidates and legislators to swear to 
uphold Macau's Basic Law and declare their loyalty to the Macau 
Special Administrative Region, and making those who ``do not 
defend the Basic Law of [Macau] or are not loyal to [Macau] . . 
.'' ineligible to be elected.\79\ The amendment gave the power 
to determine candidates' eligibility to the Legislative 
Assembly Electoral Affairs Commission, a Macau administrative 
agency.\80\ The amendment came in response to the National 
People's Congress Standing Committee (NPCSC) November 2016 
interpretation of Hong Kong's Basic Law.\81\ Three pro-
democracy legislators voted against the amendment, with one 
asserting that localist political sentiments were not present 
in Macau.\82\ Some legal experts and at least one pro-democracy 
political organization criticized the amendment for threatening 
Macau voters' rights to freely vote and run for election,\83\ 
in particular the lack of clearly defined criteria that would 
prove a candidate's disloyalty to Macau or the Basic Law.\84\
    The Macau Portuguese and English Press Association sought 
clarification from the government over other provisions in the 
revised law that define ``electoral propaganda'' and set 
penalties for publishing such material prior to the beginning 
of a campaign period.\85\ The Association raised concerns that, 
due to the law's broad definition of ``electoral propaganda,'' 
election reporting could be penalized under the revised 
law.\86\

                  RESTRICTIONS ON MOVEMENT AND TRAVEL

    During this reporting year, the Macau government continued 
to deny entry to some pro-democracy politicians and activists 
from Hong Kong. Macau's Internal Security Framework Law allows 
authorities to refuse entry to non-residents ``considered 
inadmissible or who constitute a threat to the stability of 
internal security,'' but does not define inadmissibility or 
what would pose a threat to Macau's security.\87\ Around the 
time of Premier Li Keqiang's visit to Macau in October 2016, 
Macau authorities prevented Hong Kong activists, a filmmaker, 
and at least one politician from entering Macau, claiming they 
threatened Macau's ``internal security.'' \88\ In December 2016 
and January 2017, Macau authorities barred two former and one 
current pro-democracy Hong Kong legislators, saying they 
presented ``threats to Macau's internal security and 
stability.'' \89\ After Macau authorities barred another Hong 
Kong legislator from entering in April, a Macau pro-democracy 
activist suggested that authorities wanted ``to prevent Hong 
Kong activists from affecting the political atmosphere in 
Macau.'' \90\ Around the time of a May visit to Macau by NPCSC 
Chairman Zhang Dejiang, Macau authorities prevented at least 
four members of the Democratic Party of Hong Kong from entering 
Macau.\91\ Also in May, Macau authorities expelled two Hong 
Kong activists after they entered Macau as tourists; police 
reportedly asked the Hong Kong activists if they had had 
contact with Macau pro-democracy activists.\92\ In August, 
Macau authorities prevented four journalists from entering 
Macau to cover the aftermath of a typhoon,\93\ and denied entry 
to pro-democracy Hong Kong legislator Helena Wong Pik-wan.\94\
    In February 2017, a Macau art gallery canceled a 
performance by a Tibetan painter and advised him not to travel 
to Macau, reportedly under pressure from the Macau government 
over his art.\95\ The artist said a Chinese military official 
contacted the gallery and warned that the artist was ``on a 
blacklist'' prohibiting his entry into Macau.\96\

                                                Developments in 
                                                 Hong Kong and 
                                                          Macau
                                                Developments in 
                                                Hong Kong and 
                                                Macau
    Notes to Section VI--Developments in Hong Kong and Maucau

    \1\ Hong Kong Information Services Department, ``Chief Executive 
Election Result'' [Xingzheng zhangguan xuanju jieguo], 26 March 17.
    \2\ James Pomfret and Clare Baldwin, ``Mystery Walk-Out in Hong 
Kong Vote Brings Heavy Defeat for Beijing,'' Reuters, 18 June 15; 
``Political Reform Rejected by Large 28:8 Margin'' [28:8 zheng gai da 
bi shu foujue], Ming Pao, 18 June 15. See also Basic Law of the Hong 
Kong Special Administrative Region of the People's Republic of China 
[Zhonghua renmin gongheguo xianggang tebie xingzheng qu jiben fa], 
passed 4 April 90, effective 1 July 97, annex I, instrument 2; CECC, 
2015 Annual Report, 8 October 15, 325-26.
    \3\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzheng qu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui changsheng banfa de 
jueding], issued 31 August 14, sec. 4; Michael Forsythe, ``U.N. Urges 
China To Allow Free Elections in Hong Kong,'' New York Times, 23 
October 14; Stephanie Nebehay, ``U.N. Rights Watchdog Calls for Open 
Elections in Hong Kong,'' Reuters, 23 October 14.
    \4\ Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzheng qu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui changsheng banfa de 
jueding], issued 31 August 14, sec. 4; Decision of the Standing 
Committee of the National People's Congress on Issues Relating to the 
Methods for Selecting the Chief Executive of the Hong Kong Special 
Administrative Region and for Forming the Legislative Council of the 
Hong Kong Special Administrative Region in the Year 2012 and on Issues 
Relating to Universal Suffrage [Quanguo renda changweihui guanyu 
xianggang tebie xingzheng qu 2012 nian xingzheng zhangguan he lifa hui 
chansheng banfa ji youguan puxuan wenti de jueding], issued 29 December 
07, para. 4; Basic Law of the Hong Kong Special Administrative Region 
of the People's Republic of China [Zhonghua renmin gongheguo xianggang 
tebie xingzheng qu jiben fa], passed 4 April 90, effective 1 July 97, 
art. 45, annex I, instrument 2.
    \5\ UN Human Rights Committee, Concluding Observations on the Third 
Periodic Report of Hong Kong, China, adopted by the Committee at its 
107th session (11-28 March 2013), CCPR/C/CHN-HKG/CO/3, para. 6. See 
also UN Office of the High Commissioner for Human Rights, General 
Comment No. 25: The Right To Participate in Public Affairs, Voting 
Rights and the Right of Equal Access to Public Service, CCPR/C/21/
Rev.1/Add.7, 12 July 96, para. 21.
    \6\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25.
    \7\ Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo xianggang tebie 
xingzheng qu jiben fa], passed 4 April 90, effective 1 July 97, art. 
39. Article 39 of the Basic Law holds that ``[t]he provisions of the 
International Covenant on Civil and Political Rights . . . as applied 
to Hong Kong shall remain in force . . ..''
    \8\ Michael Forsythe, ``U.N. Urges China To Allow Free Elections in 
Hong Kong,'' New York Times, 23 October 14; Stephanie Nebehay, ``U.N. 
Rights Watchdog Calls for Open Elections in Hong Kong,'' Reuters, 23 
October 14; Decision of the Standing Committee of the National People's 
Congress on Issues Relating to the Selection of the Chief Executive of 
the Hong Kong Special Administrative Region by Universal Suffrage and 
on the Method for Forming the Legislative Council of the Hong Kong 
Special Administrative Region in the Year 2016 [Quanguo renmin daibiao 
dahui changwu weiyuanhui guanyu xianggang tebie xingzheng qu xingzheng 
zhangguan puxuan wenti he 2016 nian lifa hui changsheng banfa de 
jueding], issued 31 August 14.
    \9\ Stuart Lau et al., ``Hong Kong Financial Secretary Tsang 
Resigns, Paving Way for Tilt at City's Top Job,'' South China Morning 
Post, 13 December 16; Joyce Ng et al., ``Pro-Democracy Camp Takes 
Record Quarter of Seats on Election Committee That Will Choose Hong 
Kong's Leader,'' South China Morning Post, 12 December 16. Three 
subsectors--religious bodies, National People's Congress delegates, and 
Legislative Councilors--separately chose a total of 166 Election 
Committee members. Electoral Affairs Commission, ``2016 Election 
Committee Subsector Elections--Facts and Figures,'' last visited 15 
March 17; Electoral Affairs Commission, ``2016 Election Committee 
Subsector Elections--Election Results,'' 12 December 16.
    \10\ Legislative Council of the Hong Kong Special Administrative 
Region, Chief Executive Election Ordinance (Cap. 569) [Di 569 zhang 
xingzheng zhangguan xuanju tiaoli], amended 9 February 12, secs. 7, 16.
    \11\ Ibid., Schedule; Legislative Council of the Hong Kong Special 
Administrative Region, Legislative Council Ordinance (Cap. 542) [Di 542 
zhang lifa hui tiaoli], amended 1 October 12, sec. 20; Electoral 
Affairs Commission, ``2016 Election Committee Subsector Elections--
Facts and Figures,'' last visited 15 March 17.
    \12\ Freedom House, ``Freedom in the World 2017--Hong Kong,'' last 
visited 17 March 17; Ng Kang-chung and Gary Cheung, ``As Aspirants for 
Hong Kong's Top Job Announce Their Bids, Focus Turns to Where Beijing's 
Favour Lies,'' South China Morning Post, 17 January 17; Kelvin Chan, 
``Hong Kong Set To Pick New Leader Anointed by Beijing,'' Associated 
Press, 21 March 17.
    \13\ Kris Cheng, ``Pro-Democracy Camp Wins More Than a Quarter of 
Seats on Chief Exec. Election Committee,'' Hong Kong Free Press, 12 
December 16; Joyce Ng et al., ``Pro-Democracy Camp Takes Record Quarter 
of Seats on Election Committee That Will Choose Hong Kong's Leader,'' 
South China Morning Post, 12 December 16. Three members of the Election 
Committee hold two seats each, reducing the number of members to 1,194. 
Kris Cheng, ``Explainer: Why Hong Kong's Leadership Race Is Neither 
Free, Fair, Nor Representative,'' Hong Kong Free Press, 27 February 17.
    \14\ Legislative Council of the Hong Kong Special Administrative 
Region, Chief Executive Election Ordinance (Cap. 569) [Di 569 zhang 
xingzheng zhangguan xuanju tiaoli], amended 9 February 12, sec. 16(2).
    \15\ Hong Kong Information Services Department, ``Three Validly 
Nominated Candidates for Chief Executive Election'' [Xingzheng 
zhangguan xuanju gong you san ming huo youxiao timing houxuanren], 1 
March 17; Kris Cheng, ``Explainer: Why Hong Kong's Leadership Race Is 
Neither Free, Fair, Nor Representative,'' Hong Kong Free Press, 27 
February 17. A fourth candidate, Regina Ip Lau Suk-yee, did not win 
enough nominations to qualify. Ng Kang-chung and Jeffie Lam, ``Regina 
Ip `Squeezed Out' of Hong Kong Chief Executive Race,'' South China 
Morning Post, 1 March 17.
    \16\ See, e.g., ``Beijing Lobbies in Push for a Leung Victory,'' 
South China Morning Post, 21 March 12; Keith Bradsher, ``Beijing 
Switches Sides in the Race for Hong Kong's Chief Executive,'' New York 
Times, 21 March 12.
    \17\ See, e.g., John Lyons, ``Beijing Works the Phones in Secret 
Push To Pick Hong Kong's Next Leader,'' Wall Street Journal, 28 
February 17.
    \18\ Tony Cheung and Emily Tsang, ``Beijing Has Last Word in Hong 
Kong Leadership Race, Delegates Told,'' South China Morning Post, 5 
March 17; ``Qiao Xiaoyang Says Central Government's Right To Appoint CE 
Is Substantive, but Not Targeted at Anyone in Particular'' [Qiao 
xiaoyang zhi zhongyang dui teshou renming quan shi shizhixing dan bu 
zhendui teding na ren], Radio Television Hong Kong, 8 March 17.
    \19\ See, e.g., ``In Recent Meeting With Pro-Establishment Camp in 
Shenzhen, Zhang Dejiang Says Central Government Only Backs Carrie Lam, 
Denies Handpicking'' [Jinri shenzhen wu jianzhi pai zhang dejiang cheng 
zhongyang zhi cheng lin zheng fouren qindian], Ming Pao, 6 February 17; 
``Information Confirms Zhang Dejiang Came South To `Secure Votes,' 
Estimated Carrie Lam Still Has Not Reached Desired 700 Nominations'' 
[Xiaoxi zheng zhang dejiang nanxia ``gu piao'' liao lin zheng 700 
timing wei dabiao], HK01, 6 February 17; ``Zhang Dejiang Meets Pro-
Establishment Election Committee [Members]; Central Government Only 
Supports Carrie Lam'' [Zhang dejiang jian jianzhi xuan wei zhongyang 
weiyi zhichi lin zheng], Sing Tao Daily, 7 February 17.
    \20\ Gary Cheung et al., ``Beijing Won't Appoint Winner of Chief 
Executive Race if It Finds Candidate `Unacceptable,' Elder Statesman 
Tung Chee-hwa Warns,'' South China Morning Post, 22 February 17.
    \21\ ``Legal Sector Election Committee Members: Deeply Concerned by 
Tung Chee-hwa's Remarks, Any Use of Threats To Attempt To Influence 
Nomination Could Constitute Incitement To Commit Crime'' [Falu jie 
xuanwei: shenqie guanzhu dong jianhua yanlun renhe weixie shouduan tu 
yingxiang timing huo goucheng shanhuo fanzui], Stand News, 23 February 
17.
    \22\ Venus Wu and Clare Jim, ``China Has the Right To `Step In' to 
Hong Kong Election, Top Official Says,'' Reuters, 6 March 17.
    \23\ Tony Cheung and Emily Tsang, ``Beijing Has Last Word in Hong 
Kong Leadership Race, Delegates Told,'' South China Morning Post, 5 
March 17.
    \24\ ``Qiao Xiaoyang Says Central Government's Right To Appoint CE 
Is Substantive, but Not Targeted at Anyone in Particular'' [Qiao 
xiaoyang zhi zhongyang dui teshou renming quan shi shizhixing dan bu 
zhendui teding na ren], Radio Television Hong Kong, 8 March 17.
    \25\ ``Wang Guangya: Central Government's Interest in CE Election 
Reasonable'' [Wang guangya: zhongyang guanzhu teshou xuanju 
wukehoufei], Now News, 8 March 17.
    \26\ Hong Kong Information Services Department, ``Chief Executive 
Election Result'' [Xingzheng zhangguan xuanju jieguo], 26 March 17.
    \27\ Demosisto, ``Response to the 5th Term Chief Executive 
Election'' [Xianggang zhongzhi huiying di wu jie xingzheng zhangguan 
xuanju jieguo], reprinted in Facebook, 26 March 17; Civic Party, ``Only 
Through Perseverance Can We See Hope'' [Weiyou jianchi cai jian 
xiwang], 26 March 17; Maya Wang, Human Rights Watch, ``Hong Kong's Non-
Election,'' 27 March 17; Freedom House, ``Hong Kong: Authorities Arrest 
Pro-Democracy Activists, Roll Back Rights,'' 27 March 17; ``Residents 
Hold Sit-In Outside Liaison Office, Protesting Interference in Hong 
Kong Election'' [Shimin zhonglianban wai jingzuo kangyi ganyu xianggang 
xuanju], Radio Free Asia, 2 April 17.
    \28\ See, e.g., Civic Party, ``Civic Party Urges Central Government 
To Cease All Talk of Handpicking'' [Gongmin dang cuqing zhongyang 
tingzhi yiqie qindian yanlun], reprinted in Facebook, 21 February 17; 
Basic Law of the Hong Kong Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo xianggang tebie 
xingzheng qu jiben fa], passed 4 April 90, effective 1 July 97, arts. 
22 (``No department of the Central People's Government and no province, 
autonomous region, or municipality under the Central Government may 
interfere in the affairs which the Hong Kong Special Administrative 
Region administers on its own in accordance with this Law.''), 45 
(``The ultimate aim is the selection of the Chief Executive by 
universal suffrage upon nomination by a broadly representative 
nominating committee in accordance with democratic procedures.'').
    \29\ See, e.g., Zha Wenye, ``Hong Kong and Macao Affairs Office of 
the State Council: Resolutely Opposed to Any Talk or Action of `HK 
Independence' '' [Guowuyuan gang'aoban: jianjue fandui renhe ``gang 
du'' yanxing], Xinhua, 30 March 16, reprinted in Hong Kong and Macao 
Affairs Office of the State Council, 31 March 16. See also CECC, 2016 
Annual Report, 6 October 16, 328-29.
    \30\ Alan Wong, ``At Hong Kong Swearing-In, Some Lawmakers Pepper 
Their Oath With Jabs,'' New York Times, Sinosphere (blog), 12 October 
16; Tony Cheung et al., ``Three Rejections and Multiple Deviations Mark 
Hong Kong Legislative Council Swearing-In,'' South China Morning Post, 
12 October 16.
    \31\ Hong Kong Information Services Department, ``Government 
Statement on Oath-Taking by Members-Elect of Legislative Council,'' 13 
October 16; Stuart Lau et al., ``Hong Kong Government Fails To Block 
Localist Duo From Retaking LegCo Oaths, but Wins Right To Seek Judicial 
Review,'' South China Morning Post, 30 November 16; Kris Cheng, ``Gov't 
Seeks Unprecedented Legal Challenge To Prevent Localist Lawmakers From 
Retaking LegCo Oath,'' Hong Kong Free Press, 18 October 16; Ellie Ng, 
``Gov't Asks Court To Remove Two Elected Localist Lawmakers From 
Office,'' Hong Kong Free Press, 25 October 16.
    \32\ National People's Congress Standing Committee, Interpretation 
of Article 104 of the ``Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China'' [Quanguo 
renmin daibiao dahui changwu weiyuanhui guanyu ``zhonghua renmin 
gongheguo xianggang tebie xingzheng qu jiben fa'' di yibailingsi tiao 
de jieshi], issued 7 November 16, 3; Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China [Zhonghua 
renmin gongheguo xianggang tebie xingzheng qu jiben fa], passed 4 April 
90, effective 1 July 97, art. 158. Under Article 158 of the Basic Law, 
the National People's Congress Standing Committee holds the power of 
interpretation of the Basic Law.
    \33\ National People's Congress Standing Committee, Interpretation 
of Article 104 of the ``Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China'' [Quanguo 
renmin daibiao dahui changwu weiyuanhui guanyu ``zhonghua renmin 
gongheguo xianggang tebie xingzheng qu jiben fa'' di yibailingsi tiao 
de jieshi], issued 7 November 16, 2(1, 4).
    \34\ Progressive Lawyers Group, ``The Progressive Lawyers Group's 
Submissions in Relation to the Interpretation by the Standing Committee 
of the National People's Congress on 7 November 2016,'' 8 November 16, 
paras. 2, 3, 8; Basic Law of the Hong Kong Special Administrative 
Region of the People's Republic of China [Zhonghua renmin gongheguo 
xianggang tebie xingzheng qu jiben fa], passed 4 April 90, effective 1 
July 97, art. 158. Article 158 stipulates that the National People's 
Congress Standing Committee (NPCSC) may issue interpretations upon 
request by the Hong Kong Court of Final Appeal (CFA), though the CFA 
held in a 1999 case that the NPCSC has ``plenary and freestanding'' 
power to interpret the Basic Law, with or without referral from Hong 
Kong courts. Cora Chan, ``Legal Limits on Beijing's Powers of 
Interpretation? '' HKU Legal Scholarship Blog, University of Hong Kong 
Faculty of Law, 3 November 16.
    \35\ Joyce Ng and Tony Cheung, ``Beijing Pre-empting Court Ruling 
on Oath-Taking Case Will Be First Such Instance Involving Basic Law 
Interpretation,'' South China Morning Post, 30 November 16; Ellie Ng, 
``Elected Localist Lawmakers Barred From Hong Kong Legislature as Gov't 
Wins Legal Challenge,'' Hong Kong Free Press, 15 November 16.
    \36\ In the High Court of Hong Kong Special Administrative Region, 
Court of First Instance, Constitutional and Administrative Law List, No 
185 of 2016, HCAL 185/2016 and Miscellaneous Proceedings, No 2819 of 
2016, HCMP 2819/2016, 15 November 16, 108; Joyce Ng et al., ``Barred 
Hong Kong Localists Vow To Keep Fighting After High Court Decision,'' 
South China Morning Post, 16 November 16.
    \37\ Ibid., 120; Ibid.
    \38\ ``By-Elections To Be Arranged According to Law'' [Yifa anpai 
li hui buxuan], Hong Kong Government News, 25 August 17; ``Hong Kong 
Court of Final Appeal Rejects Appeal of 2 Disqualified Legislators-
Elect,'' Xinhua, 25 August 17; Christine Chan and James Pomfret, ``Hong 
Kong Pro-Independence Duo Lose Appeal Over Council Seats,'' Reuters, 25 
August 17.
    \39\ Hong Kong Information Services Department, ``Government 
Statement on Oath-Taking Matter'' [Tequ zhengfu jiu xuanshi shijian 
shengming], 2 December 16; Huang Yongwen, ``DOJ Files Case Challenging 
4 Legislators' Oaths, Saying Adding and Inserting Phrases and Saying 
Oath Slowly Not Sincere'' [Luzhengsi rubing tiaozhan 4 yiyuan xuanshi 
zhi jia cha juzi man su xuanshi fei zhencheng], Sing Tao Daily, 2 
December 16; ``Leung Kwok-hung: Government Use of Public Funds To Strip 
Democratically Elected Legislators of Status Is a `Coup' '' [Liang 
guoxiong: zhengfu yong gong tang chiduo minxuan yiyuan zige shi 
``zhengbian''], Stand News, 2 December 16; Zheng Lewei, ``DOJ Again 
Files Case To Disqualify Four Legislators, Pan-Democrats Criticize CY 
Leung for Declaring War on People of Hong Kong'' [Luzhengsi zai rubing 
quxiao si yiyuan zige minzhu pai pi liang zhenying xiang gangren 
xuanzhan], InMediaHK, 2 December 16; Helier Cheung, ``Hong Kong Moves 
To Disqualify Pro-Democracy Legislators,'' BBC, 2 December 16.
    \40\ In the High Court of the Hong Kong Special Administrative 
Region, Court of First Instance, Constitutional and Administrative Law 
List, No 223-26 of 2016, HCAL 223-26/2016, and Miscellaneous 
Proceedings, No 3378-79 and 3381-82 of 2016, HCMP 3378-79/2016, 3381-
82/2016, 14 July 17, 22, 34, 95-96, 141-42, 165, 182-83, 229; Elson 
Tong, ``4 More Elected Pro-Democracy Lawmakers To Be Ousted Following 
Hong Kong Court Ruling,'' Hong Kong Free Press, 14 July 17.
    \41\ Ernest Kao, ``Lawyer Who Helped Draft Basic Law Says Beijing 
Interpretation Has Destroyed `One County, Two Systems,' '' South China 
Morning Post, 17 November 16; Ellie Ng, ``Court's Ambiguity Over 
Beijing's Power To Interpret Hong Kong's Constitution Is `Worrying,' 
Say Lawyers,'' Hong Kong Free Press, 16 November 16.
    \42\ See, e.g., Claudia Mo, ``This Is the Beginning of the End of 
Hong Kong,'' Guardian, 7 November 16; Joyce Ng and Josh Ye, ``Hong Kong 
Localist Lawmakers Remain Defiant Over Beijing Basic Law Ruling,'' 
South China Morning Post, 7 November 16.
    \43\ Human Rights Watch, ``Hong Kong: China Interferes in 
Judiciary's Independence,'' 4 November 16; Amnesty International, 
``2016 Annual Report on the Human Rights Situation in Hong Kong'' [2016 
niandu xianggang renquan zhuangkuang baogao], 11 January 17, para. 
1.1.3.
    \44\ Progressive Lawyers Group, ``The Progressive Lawyers Group's 
Submissions in Relation to the Interpretation by the Standing Committee 
of the National People's Congress on 7 November 2016,'' 8 November 16, 
para. 2(3).
    \45\ Hong Kong Bar Association, ``The Hong Kong Bar Association's 
Statement Concerning the Interpretation Made by National People's 
Congress Standing Committee of Article 104 of the Basic Law,'' 7 
November 16.
    \46\ Eric Cheung and Tom Phillips, ``Hong Kong: Lawyers and 
Activists March Against Beijing `Meddling,' '' Guardian, 8 November 16; 
Michael Forsythe, ``Beijing's Intervention in Hong Kong Election Could 
Face a Hurdle: Local Courts,'' New York Times, 8 November 16.
    \47\ See, e.g., Kong Tsung-gan, ``Overview of Prosecutions and 
Lawsuits Brought by the Hong Kong Government Against Pro-Democracy 
Leaders,'' Medium, 20 July 17.
    \48\ ``Hong Kong Police Charge Occupy Protesters, One Day After 
Beijing's Candidate Wins Top Job,'' Radio Free Asia, 27 March 17; Ellie 
Ng, ``Hong Kong's Pro-Democracy Leaders Slam Post-Election Crackdown, 
Accuse Gov't of Political Cleansing,'' Hong Kong Free Press, 27 March 
17; Phila Siu and Kimmy Chung, ``Timing Under Debate as Nine Occupy 
Participants Charged a Day After Carrie Lam Wins Chief Executive 
Election,'' South China Morning Post, 28 March 17.
    \49\ Freedom House, ``Hong Kong: Authorities Arrest Pro-Democracy 
Activists, Roll Back Rights,'' 27 March 17; Amnesty International, 
``Hong Kong: Charges Against Pro-Democracy Activists Latest Blow to 
Right to Peaceful Protest,'' 27 March 17; Phila Siu and Kimmy Chung, 
``Timing Under Debate as Nine Occupy Participants Charged a Day After 
Carrie Lam Wins Chief Executive Election,'' South China Morning Post, 
28 March 17; Scholars Alliance for Academic Freedom, ``Statement by 
International and Hong Kong Scholars To Protest Against Hong Kong SAR 
Government's Prosecution of Activist Scholars and Umbrella Movement 
Participants'' [Guoji ji xianggang xuezhe kangyi xianggang tebie 
xingzheng qu zhengfu qisu she yun xuezhe ji yusan yundong canyuzhe 
shengming], last visited 31 March 17.
    \50\ Hong Kong Information Services Department, ``DoJ Responds to 
Media Enquiries,'' 27 March 17.
    \51\ Chung-Tai Cheng, ``Facebook Post on Flag Desecration 
Charges,'' Facebook, 10 April 17; Ellie Ng, ``Localist Lawmaker Says He 
Faces Charges for Flipping Chinese and Hong Kong Flags,'' Hong Kong 
Free Press, 10 April 17.
    \52\ Joyce Ng et al., ``19 Minutes of Chaos: Legco President Calls 
Pro-Establishment Camp Walkout `Unfortunate,' Plans New Oaths for 
Localists,'' South China Morning Post, 19 October 16.
    \53\ Ibid.; Emily Tsang and Joyce Ng, ``The Eight Types of 
Insincere Oaths, as Set Out by Former Beijing Official,'' South China 
Morning Post, 9 November 16.
    \54\ Youngspiration, ``We Will Not Surrender'' [Women juebu 
touxiang], reprinted in Facebook, 26 April 17; Ng Kang-chung and Joyce 
Ng, ``Disqualified Hong Kong Pro-Independence Lawmakers Yau Wai-ching 
and Baggio Leung Charged With Unlawful Assembly,'' South China Morning 
Post, 26 April 17; Benjamin Haas, ``Hong Kong Charges Pro-Independence 
Activists Over China Protest,'' Guardian, 26 April 17; Ellie Ng, `` 
`Absolutely Unreasonable': Ousted Hong Kong Lawmakers Vow To 
`Fearlessly' Resist Political Oppression After Arrest,'' Hong Kong Free 
Press, 26 April 17.
    \55\ In the High Court of the Hong Kong Special Administrative 
Region, Court of Appeal, Application for Review No. 4 of 2016 (On 
Appeal From ESCC No. 2791 of 2015) [Xianggang tebie xingzheng qu, 
gaodeng fayuan shangsu fating, xingshi sifa guanxia quan, fuhe 
shenqing, fuhe shenqing anjian 2016 nian di 4 hao (yuan dongqu caipan 
fayuan xingshi anjian 2015 nian di 2791 hao)], CAAR 4/2016, 17 August 
17, 7, 19-21, 174; Jasmine Siu, ``Occupy Activists Joshua Wong, Nathan 
Law and Alex Chow Jailed for Up to Eight Months,'' South China Morning 
Post, reprinted in CNBC, 17 August 17. See also Legislative Council of 
the Hong Kong Special Administrative Region, Public Order Ordinance 
(Cap. 245) [Di 245 zhang gong'an tiaoli], issued 17 November 67, 
amended 29 June 17, sec. 18.
    \56\ James Griffiths, ``Joshua Wong and Two Other Umbrella Movement 
Leaders Jailed in Hong Kong,'' CNN, 17 August 17; Jasmine Siu, ``Occupy 
Activists Joshua Wong, Nathan Law and Alex Chow Jailed for Up to Eight 
Months,'' South China Morning Post, reprinted in CNBC, 17 August 17.
    \57\ Legislative Council of the Hong Kong Special Administrative 
Region, Legislative Council Ordinance (Cap. 542) [Di 542 zhang lifa hui 
tiaoli], issued 3 October 97, amended 26 June 17, sec. 39(1)(e)(i).
    \58\ In the High Court of the Hong Kong Special Administrative 
Region, Court of Appeal, Application for Review No. 4 of 2016 (On 
Appeal From ESCC No. 2791 of 2015) [Xianggang tebie xingzheng qu, 
gaodeng fayuan shangsu fating, xingshi sifa guanxia quan, fuhe 
shenqing, fuhe shenqing anjian 2016 nian di 4 hao (yuan dongqu caipan 
fayuan xingshi anjian 2015 nian di 2791 hao)], CAAR 4/2016, 17 August 
17, 14, 134.
    \59\ Jasmine Siu, ``Protesters Who Stormed Hong Kong's Legislative 
Council Given Jail Terms After Prosecutors Pushed for Tougher 
Sentences,'' South China Morning Post, 16 August 17.
    \60\ ``No Meddling in HK Courts: CE,'' Hong Kong Government News, 
21 August 17; Hong Kong Department of Justice, ``Department of 
Justice's Response to Queries on Two Court Cases,'' 21 August 17; Hong 
Kong Bar Association and Law Society of Hong Kong, ``Joint Statement of 
the Hong Kong Bar Association and the Law Society of Hong Kong in 
Response to Criticisms of Judicial Independence in Hong Kong,'' 18 
August 17.
    \61\ Human Rights Watch, ``Hong Kong: Quash Convictions of Student 
Leaders,'' 15 August 17; Jun Pang, ``10 Reactions to Hong Kong's 
Jailing of Democracy Figures Joshua Wong, Nathan Law & Alex Chow,'' 
Hong Kong Free Press, 17 August 17; Freedom House, ``Hong Kong 
Imprisons Democracy Activists,'' 17 August 17; Amnesty International, 
``Hong Kong: `Vindictive' Jail Terms for Pro-Democracy Leaders,'' 17 
August 17.
    \62\ UN Human Rights Committee, Concluding Observations on the 
Third Periodic Report of Hong Kong, China, adopted by the Committee at 
its 107th Session (11-28 March 2013), CCPR/C/CHN-HKG/CO/3, 29 April 13. 
See also Legislative Council of the Hong Kong Special Administrative 
Region, Public Order Ordinance (Cap. 245) [Di 245 zhang gong'an 
tiaoli], issued 17 November 67, amended 29 June 17, sec. 18.
    \63\ Hong Kong Journalists Association, ``Press Freedom Shows 
Slight Improvement, but Remains Abysmally Low,'' 6 April 17.
    \64\ Jeffie Lam, ``Perception of Hong Kong Press Freedom Improves 
Slightly but Situation Still `Worrying,' '' South China Morning Post, 6 
April 17.
    \65\ Chris Horton, ``Reporters Without Borders Picks Taiwan for 
Asian Bureau,'' New York Times, 6 April 17; ``Reporters Without Borders 
Scraps Hong Kong Plans To Open First Asia Office in Taiwan,'' Agence 
France-Presse, reprinted in Hong Kong Free Press, 7 April 17.
    \66\ Reporters Without Borders, ``2017 World Press Freedom Index--
Hong Kong,'' last visited 26 April 17; Kris Cheng, ``Hong Kong Falls 4 
Places in 2017 Reporters Without Borders Press Freedom Index; Taiwan 
Freest in Asia,'' Hong Kong Free Press, 26 April 17.
    \67\ See, e.g., CECC, 2016 Annual Report, 6 October 16, 331.
    \68\ Hong Kong Journalists Association, ``Ombudsman Considers 
Government's Policy Towards Online Media Unfair,'' 6 December 16.
    \69\ Tom Grundy, ``HKFP Reporter Denied Access To View Election 
Vote Count, Days After Watchdog Slams Gov't Ban,'' Hong Kong Free 
Press, 12 December 16.
    \70\ Kris Cheng, ``Hong Kong Gov't Confirms HKFP and Other Digital 
Media Will Be Barred From Covering Sunday's Election,'' Hong Kong Free 
Press, 22 March 17.
    \71\ Amnesty International, ``2016 Annual Report on the Human 
Rights Situation in Hong Kong'' [2016 niandu xianggang renquan 
zhuangkuang baogao], 11 January 17, 11-12; Hong Kong Journalists 
Association, ``HKJA Criticizes Information Services Department for 
Repeatedly Denying Online Media's [Right To] Report'' [Jixie qianze 
zhengfu xinwen chu yizai jujue wangmei caifang], 28 February 17.
    \72\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzheng qu jiben fa], passed 31 March 93, effective 20 December 99, 
specifically arts. 47, 68 and annexes I, II.
    \73\ Basic Law of the Macao Special Administrative Region of the 
People's Republic of China [Zhonghua renmin gongheguo aomen tebie 
xingzheng qu jiben fa], passed 31 March 93, effective 20 December 99, 
art. 40.
    \74\ Ibid., arts. 12, 16, 22.
    \75\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 25(b). Article 25(b) of the ICCPR 
guarantees the right ``to vote and to be elected at genuine periodic 
elections which shall be by universal and equal suffrage . . ..''
    \76\ UN Human Rights Committee, Concluding Observations on the 
Initial Report of Macao, China, adopted by the Committee at its 107th 
session (11-28 March 2013), CCPR/C/CHN-MAC/CO/1, 29 April 13, para. 7; 
UN Human Rights Committee, Report on Follow-up to the Concluding 
Observations of the Human Rights Committee, CCPR/C/112/2, 8 December 
14, 23.
    \77\ Kris Cheng, ``Macau Election: Pro-Democracy Camp Maintains 4 
of 33 Seats, With Youngest Ever Lawmaker Elected at 26,'' Hong Kong 
Free Press, 18 September 17; Kelvin Chan, ``Young Democracy Activist 
Among Macau Election Winners,'' Associated Press, reprinted in ABC 
News, 18 September 17.
    \78\ Law No. 9/2016, Revision to Law No. 3/2001, ``Electoral System 
of the Legislative Assembly of the Macau Special Administrative 
Region'' [Di 9/2016 hao falu xiugai di 3/2001 hao falu ``aomen tebie 
xingzheng qu lifa hui xuanju zhidu''], issued 28 December 16, effective 
29 December 16.
    \79\ Law No. 3/2001, ``Electoral System of the Legislative Assembly 
of the Macau Special Administrative Region'' [Di 3/2001 hao falu 
``aomen tebie xingzheng qu lifa hui xuanju zhidu''], issued 5 March 01, 
amended 6 October 08, 10 September 12, 28 December 16, effective 29 
December 16, arts. 6(8), 47-A.
    \80\ ``Second Permanent Committee: If Candidates or Elected Persons 
Violate Declaration Form's Contents, CAEAL Will Have Power To 
[Disqualify]'' [Er chang hui: houxuanren ji dangxuanren wei 
shengmingshu neirong xuanguanhui youquan DQ], All About Macau, 7 
December 16.
    \81\ Ellie Ng, ``Macau Proposes Measure Requiring Election 
Candidates To Pledge Loyalty to Basic Law,'' Hong Kong Free Press, 26 
November 16; ``Sonia Chan Fears Pro-Independence Surprises'' [Sonia 
chan receia surpresas pro-independencia], Hoje Macau, 29 November 16; 
Macau Government Information Bureau, ``Sonia Chan Hoi-fan: Introducing 
Upholding of `Basic Law' and Pledging Allegiance to SAR To Improve 
Electoral Law'' [Chen haifan: yinru yonghu ``jiben fa'', xiaozhong tequ 
yi wanshan xuanju fa], 28 November 16. See also Daniel Beitler, ``Law 
Revision Triggers Alarm Over Democratic Prospects,'' Macau Daily Times, 
1 December 16.
    \82\ Sofia Margarida Mota, ``Loyalty Pledge Worries Pro-Democrats'' 
[Juramento de fidelidade preocupa pro-democratas], Hoje Macau, 19 
December 16; Ines Almeida, ``Trio `Out of Tune' in Chorus of Praise for 
`Loyalty' '' [Trio ``desafinado'' no coro de elogios a ``fidelidade''], 
Jornal Tribuna de Macau, 19 December 16.
    \83\ Daniel Beitler, ``Law Revision Triggers Alarm Over Democratic 
Prospects,'' Macau Daily Times, 1 December 16; New Macau Association, 
``New Macau Association Protests Government's Use of Legislative 
Assembly Electoral Law as Excuse To Restrict Freedom To Run for 
Election'' [Xin aomen xueshe kangyi zhengfu ji xiuding lifa hui xuanju 
fa xianzhi canxuan ziyou], reprinted in Facebook, 29 November 16; Liane 
Ferreira, ``[Legislative Assembly] Candidates Will Have To Declare 
Loyalty'' [Candidatos a AL terao de declarar fidelidade], Jornal 
Tribuna de Macau, 25 November 16; ``MSAR Warns Against Pro-Independence 
Sentiments'' [RAEM previne-se contra sentimentos independentistas], 
Jornal Tribuna de Macau, 28 November 16.
    \84\ Andreia Sofia Silva, ``NMA Wants Deputies To Reject Pre-
Analysis of Candidates'' [ANM quer que deputados recusem pre-analise 
aos candidatos], Hoje Macau, 1 December 16; ``MSAR Warns Against Pro-
Independence Sentiments'' [RAEM previne-se contra sentimentos 
independentistas], Jornal Tribuna de Macau, 28 November 16.
    \85\ Law No. 9/2016, Alteration to Law No. 3/2001, ``Electoral 
System of the Legislative Assembly of the Macau Special Administrative 
Region'' [Di 9/2016 hao falu xiugai di 3/2001 hao falu ``aomen tebie 
xingzheng qu lifa hui xuanju zhidu''], issued 28 December 16, effective 
29 December 16, arts. 75-A, 188-A.
    \86\ ``Association Questions Campaign Rules' Impact on Media 
Coverage,'' Macau Daily Times, 6 April 17. See also Macau Portuguese 
and English Press Association, ``Statement'' [Comunicado], reprinted in 
Facebook, 20 April 17; ``Journalists Worried About Creation of `Climate 
of Uncertainty' '' [Jornalistas preocupados com ``clima de incerteza'' 
instalado], Hoje Macau, 21 April 17.
    \87\ Legislative Assembly of the Macau Special Administrative 
Region, Internal Security Framework Law of the Macau Special 
Administrative Region [Aomen tebie xingzheng qu neibu bao'an gangyao 
fa], issued and effective 4 December 02, art. 17(1)(4).
    \88\ Joao Santos Filipe, ``Authorities Deny Entry Into Macau to 
Former Hong Kong Activist'' [Autoridades negaram entrada em macau a 
antigo activista de hong kong], Jornal Ponto Final, 6 October 16; Owen 
Fung, ``Macau Denies Entry to Hong Kong Activists and Filmmaker on Same 
Day Thailand Deports Joshua Wong,'' South China Morning Post, 6 October 
16; Chantal Yuen, ``Hong Kong Lawmaker Detained in Macau While 
Attempting To Petition Chinese Premier,'' Hong Kong Free Press, 11 
October 16; ``Roy Tam Blocked From Entering Macau'' [Roy tam impedido 
de entrar em macau], Jornal Ponto Final, 11 October 16.
    \89\ Zhen Shuji, ``Macau's Refusal To Let Two Former Hong Kong Pro-
Democratic Legislators Enter `Highly Irregular' '' [Aomen jujue liang 
ming qian xianggang fanmin yiyuan rujing bei zhi ``feichang lipu''], 
Radio France International, 1 January 17; ``Frederick Fung Barred From 
Entering Macau, Said To `Threaten Internal Security and Stability' '' 
[Feng jianji fu aomen bei ju rujing bei zhi ``weixie neibu bao'an 
wending''], Stand News, 31 December 16; ``Slow Beat Refused Entry to 
Macau: How Does One Person Celebrating the New Year Threaten Public 
Security and Stability? '' [Man bi bei ju rujing aomen: yi ge ren 
bainian dian weixie bao'an wending?], Apple Daily, 30 January 17.
    \90\ Jeffie Lam, ``It's Unbelievable: Hong Kong Pan-Democrat Denied 
Entry to Macau,'' South China Morning Post, 16 April 17.
    \91\ ``Andrew Wan Refused Entry to Macau, Regina Ip Says Incident 
Very Strange'' [Yin zhaojian bei ju rujing aomen ye liu shuyi dui 
shijian gandao feichang qiguai], Radio Television Hong Kong, 30 April 
17; ``In One Week, 4 Democratic Party Members Kept Out of Macau, 
District Councilor Au Chun Wah and Staff Prevented From Entering'' 
[Minzhu dang yi zhou nei 4 ren zao jinzu aomen qu yiyuan ou zhenhua yu 
zhiyuan bei ju rujing], Apple Daily, 6 May 17.
    \92\ Kris Cheng, ``More Pro-Democracy Activists Ejected From Macau, 
Hours After Successfully Entering as Tourists,'' Hong Kong Free Press, 
9 May 17.
    \93\ Committee to Protect Journalists, ``Hong Kong Journalists 
Denied Entry to Macau,'' 28 August 17.
    \94\ Karen Cheung, `` `This Is a Joke': Hong Kong Democratic 
Lawmaker Helena Wong Latest To Be Denied Entry to Macau,'' Hong Kong 
Free Press, 30 August 17; ``Briefs: HK Lawmaker Denied Entry to 
Macau,'' Macau Daily Times, 31 August 17.
    \95\ Catherine Lai, ``Macau Gallery `Pressured' by Gov't Officials 
To Cancel Tibetan Artist's Live-Painting Event at Opening,'' Hong Kong 
Free Press, 27 February 17.
    \96\ ``Macau Gallery Cancels Tibetan Artist Event Amid Chinese 
Pressure,'' Radio Free Asia, 1 March 17.

                                 [all]
</pre></body></html>
